<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 2015 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 113-465, Part 7]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 113-465, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2410

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2015 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                   MARCH 5, 12; APRIL 2, 9, 10, 2014


         Printed for the use of the Committee on Armed Services
         



                                                  S. Hrg. 113-465 Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2410

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2015 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                   MARCH 5, 12; APRIL 2, 9, 10, 2014

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/
        


                                  ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

91-192 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                        COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                     MARK UDALL, Colorado, Chairman

JACK REED, Rhode Island              JEFF SESSIONS, Alabama
CLAIRE McCASKILL, Missouri           DEB FISCHER, Nebraska
JOE DONNELLY, Indiana                DAVID VITTER, Louisiana
ANGUS KING, Maine                    MIKE LEE, Utah

                                  (ii)


                            C O N T E N T S

                              ----------                              

                             march 5, 2014

                                                                   Page

Nuclear Forces and Policies......................................     1

Bunn, M. Elaine, Deputy Assistant Secretary of Defense, Nuclear 
  and Missile Defense Policy.....................................     6
Wilson, Lt. Gen. Stephen W., USAF, Commander, Air Force Global 
  Strike Command.................................................    12
Benedict, VADM Terry J., USN, Director, Strategic Systems 
  Programs.......................................................    20
Harencak, Maj. Gen. Garrett, USAF, Assistant Chief of Staff, 
  Strategic Deterrence and Nuclear Integration...................    25
Questions for the Record.........................................    46

                             march 12, 2014

Military Space Programs..........................................    49

Loverro, Mr. Douglas L., Deputy Assistant Secretary of Defense 
  for Space Policy...............................................    52
Zangardi, Dr. John A., Deputy Assistant Secretary of the Navy for 
  Command, Control, Communications, Computers, Intelligence, 
  Information Operations, and Space..............................    58
Shelton, Gen. William L., USAF, Commander, Air Force Space 
  Command........................................................    63
Mann, LTG David L., USA, Commander, U.S. Army Space and Missile 
  Defense Command/Army Forces Strategic Command and Joint 
  Functional Component Command for Integrated Missile Defense....    69
Chaplain, Ms. Cristina T., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    77
Questions for the Record.........................................   103

                             april 2, 2014

Ballistic Missile Defense Policies and Programs..................   105

Bunn, M. Elaine, Deputy Assistant Secretary of Defense, Nuclear 
  and Missile Defense Policy, Department of Defense..............   110
Gilmore, Hon. J. Michael, Director, Operational Test and 
  Evaluation, Department of Defense..............................   116
Syring, VADM James D., USN, Director, Missile Defense Agency, 
  Department of Defense..........................................   120
Mann, LTG David L., USA, Commander, U.S. Army Space and Missile 
  Defense Command/Army Forces Strategy Command and Joint 
  Functional Component Command for Integrated Missile Defenses...   131
Chaplain, Cristina T., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................   140
Questions for the Record.........................................   167

                                 (iii)
                                 
                             april 9, 2014

National Nuclear Security Administration Management of Its 
  National Security Laboratories and the Status of the Nuclear 
  Security Enterprise............................................   179

McMillan, Dr. Charles F. Director, Los Alamos National Laboratory   181
Hommert, Dr. Paul J., Director, Sandia National Laboratories.....   188
Goldstein, Dr. William H., Director, Lawrence Livermore National 
  Laboratory.....................................................   198
Augustine, Norman R., Co-Chair of the Congressional Advisory 
  Panel on the Governance of the Nuclear Security Enterprise, 
  Institute for Defense Analyses; Accompanied by ADM Richard W. 
  Mies, USN (Ret.), Co-Chair of the Congressional Advisory Panel 
  on the Government of the Nuclear Security Enterprise, Institute 
  for Defense Analyses...........................................   218
Annex 1..........................................................   231
Annex 2..........................................................   285

                             april 10, 2014

Strategic Forces Programs of the National Nuclear Security 
  Administration and the Office of Environmental Management of 
  the Department of Energy.......................................   287

Held, Edward Bruce, Acting Administrator and Acting Under 
  Secretary for Nuclear Security, National Nuclear Security 
  Administration, Department of Energy...........................   294
Richardson, ADM John M., USN, Director, Naval Nuclear Propulsion 
  Program, and Deputy Administrator, Office of Naval Reactors, 
  National Nuclear Security Administration, Department of Energy.   307
Cook, Hon. Donald L., Deputy Administrator for Defense Programs, 
  National Nuclear Security Administration, Department of Energy.   310
Owendoff, James M., Acting Principal Deputy Assistant Secretary, 
  Office of Environmental Management, Department of Energy.......   310

 
 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, MARCH 5, 2014

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                      NUCLEAR FORCES AND POLICIES

    The subcommittee met, pursuant to notice, at 2:41 p.m. in 
room SR-222, Russell Senate Office Building, Senator Mark Udall 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Udall, Donnelly, King, 
Sessions, Fischer, and Vitter.

       OPENING STATEMENT OF SENATOR MARK UDALL, CHAIRMAN

    Senator Udall. Let me bring today's hearing to order. 
Ladies and gentlemen, if you will have a seat. Thank you for 
your forbearance. I am running a little bit late and I 
apologize.
    This afternoon, we will hear testimony from the Department 
of Defense (DOD) regarding nuclear matters for fiscal year 
2015. I want to thank all of you for taking the time to testify 
today.
    I want to start by giving some perspective to the general 
topic of our nuclear stockpile. Since the first detonation of a 
nuclear weapon 69 years ago, we have debated whether they 
should exist and whether they remain relevant today. That 
debate will continue for the foreseeable future.
    It seems to me, however, that the negative aspects of this 
debate, particularly the relevancy of the mission, have had a 
negative impact on the morale of those serving us in the field. 
I believe we must emphasize that as long as these weapons 
exist. The mission performed by the men and women of our 
nuclear enterprise is relevant and essential to our national 
security. We must be clear that we place the highest trust in 
their ability to carry out their duty because it involves 
nuclear weapons, and we must be clear that we expect a great 
deal from them. But above all, we must demonstrate that we care 
about their well-being, their families, and their future. I am 
sure that our witnesses understand this, but I want to assure 
them that I do too.
    General Wilson, I would like to congratulate you on 
assuming command of the Air Force Global Strike Command. I 
suspect a large portion of today's hearing will be centered on 
the recent incident involving cheating at Malmstrom Air Force 
Base. I hope your testimony will provide insight into your 
impressions so far and what we can constructively learn from 
this incident. I would add that I am, of course, sensitive to 
the ongoing reviews by the Services and the Secretary of 
Defense.
    General Harencak, you are the point person on the air staff 
trying to deconflict the various missions of the Air Force with 
respect to nuclear weapons. I plan to ask you about what I 
perceive as a gap in coordinating the Air Force's nuclear 
command and control.
    Admiral Benedict, I would like to congratulate you as well 
on your promotion. This was long overdue and consistent with 
the recommendations of the 2008 Schlesinger Report. I would 
like to know your perspective as a naval officer on the recent 
Intercontinental Ballistic Missile (ICBM) cheating incident. 
You are the senior naval officer responsible for the warhead 
and its delivery systems, and I want to hear your insight in 
this matter from a Navy perspective.
    Ms. Bunn, welcome to the subcommittee. DOD is eliminating 
the Office of Assistant Secretary of Defense for Global 
Strategic Affairs, Madelyn Creedon's office. This office has a 
40-year history of overseeing policy related to nuclear weapons 
and proliferation, as well as space and cyber. I understand 
your office will be separate from these other offices which 
have a long and synergistic relationship with you. While you 
are not Senate-confirmed, I would like your honest and frank 
assessment to Congress of what effect this move will have on 
the long-term health of the policy mission you oversee even 
past your tenure.
    With that, let me turn to my colleague and the ranking 
member, Senator Sessions, for his opening statement, and then 
we will turn to our witnesses' opening statements and 
questions.
    Senator Sessions?

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman.
    I would like to share a few thoughts, just take a few 
minutes. I do not pretend to be the guru on nuclear and 
strategic weapons, but having been on this committee since I 
came to the Senate 17-plus years ago, they have come before me. 
I would just share with you a few things.
    It has been my concern, which I have raised publicly, that 
the Nuclear Posture Review (NPR) statement that had some 30-odd 
references to a world without nuclear weapons was stunning to 
me. I just was shocked. The President has said he wants a world 
without nuclear weapons. Secretary Hagel, within a year of 
confirmation, had signed on to a report titled ``Nuclear 
Zero.'' So I raised concerns about it. Maybe some would think 
that was just politics as usual. But I am concerned about it. I 
think it creates a dangerous perception perhaps that either we 
are going to go to zero or we are not going to use the weapons 
if we have them and create instability and a lack of confidence 
in our allies around the world. They have expressed that to us 
repeatedly. So, I was concerned about it.
    I will say, Mr. Chairman, it does appear that the budget 
request from the administration gets this pretty close to where 
we need to go, and I would like to hear your positions. It 
seems like we have had a move that recognizes the triad's 
importance and the need to modernize nuclear weapons. This is a 
right step, in my view. Particularly in this time of Russia and 
China's aggressiveness, we do not need to be sending any signal 
that somehow we are not willing to modernize or utilize even--
God forbid--the weapons that we have.
    I would share a couple of things. This was from the U.S. 
National Intelligence Council Global Trends Report of 2030. It 
said, ``the nuclear ambitions in the United States and Russia 
over the last 20 years have evolved in opposite directions. 
Reducing the role of nuclear weapons in U.S. security strategy 
is a U.S. objective, while Russia is pursuing new concepts and 
capabilities for expanding the role of nuclear weapons in its 
security strategy.'' In fact, we know that in 1999 they did a 
war game in which they invaded Belarus, and part of it was to 
utilize tactical nuclear weapons, in their words, to de-
escalate the conflict. We know in recent years they have talked 
about using tactical nuclear weapons out there. So that is an 
important thing.
    China. I am looking at a report from October of last year 
from the state-controlled media in China, the Global Times. It 
says, ``because the Midwest States of the United States are 
sparsely populated, in order to increase the lethality of our 
nuclear attacks, we should mainly target the key cities on the 
west coast of the United States, such as Seattle, Los Angeles, 
San Francisco, or San Diego.'' They go on to say, ``if we 
launch our DF31A ICBMs over the North Pole, we can easily 
destroy a whole list of metropolises on the east coast in the 
New England region of the United States, including Annapolis, 
Philadelphia, New York, Boston, Portland, Baltimore, and 
Norfolk, whose populations account for one-eighth of the 
American total residents.''
    Now, Admiral, Annapolis must get the Navy's attention. I do 
not know. Put them in that list.
    What I would say to all of our colleagues, and we do not 
like to think about this, but Russia is thinking about it, 
China is thinking about it, Iran is thinking about it, and a 
lot of other countries are thinking about it. It is said that 
Pakistan may have the most active nuclear program today, and 
North Korea is developing their nuclear launch missiles. India 
activated the reactor of its first indigenously built ballistic 
nuclear submarine. India and China now have submarines capable 
of launching nuclear weapons.
    In the Quadrennial Defense Review (QDR) that just came out, 
the headline, ``Protect the Homeland,'' I thought it was 
interesting for our committee that DOD says this. We will 
continue to size and shape the joint force based on the need to 
defend the U.S. Homeland, our most vital national interest. The 
first recommendation is missile defense, and it talks about 
what we need to do there. Nuclear is the second one listed. The 
third one is cyber. We need to talk about modernizing our 
forces. The first three listed on the QDR fall within our 
subcommittee. I am thinking, history being what it is, we do 
not want to wake up a few years from now and having a 9/11 
report wondering why the subcommittee was not on top of these 
issues.
    So, where are we financially? We have this chart. Could you 
all bring it up a little closer maybe so you could see this?
    [The chart referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. Secretary Hagel said, ``we are going to 
invest in the modernization we need to keep the deterrent 
stronger than it has ever been, and you have my commitment on 
that.'' So I like that. I was glad to hear him be clear on that 
because, as I said, his record caused me concerns.
    Now, these numbers--I had to cross examine my staff to be 
sure I got this. These numbers include ICBMs, submarines, and 
bombers, not just the weapons themselves, so that is the good 
news. This represents what percentage of the defense budget we 
spend on the nuclear triad and the weapons that go with it. It 
was high in the 1990s.
    The last time we modernized was in the 1980s. We have the 
oldest nuclear arsenal in the world. That is undisputed. Our 
warheads are 30 to 40 years old. The B-52s are 52 years old. 
ICBMs are 34 years old. Submarines are 23 years old. I went on 
a nuclear submarine and spent the night on it. I was surprised 
how old it was, and things are always breaking. They spend a 
considerable amount of time on our nuclear submarines fixing 
the smaller things.
    What about affordability? According to the Congressional 
Budget Office (CBO), if we get this system back up--all right. 
So here is what we need to do. The neglected modernization 
since the end of the Cold War requires replacement of the 
triad. It just does. We have to be planning to replace it. 
Exactly what year, I guess, we could dispute, but the goal is 
there.
    We need to modernize the whole nuclear complex, as we well 
know and as we have been talking about. Therefore, we have to 
have a funding up in the next decade to make sure that we get 
our funding up to the right amount, and that could take around 
$35 billion a year which, at $35 billion a year, will represent 
about 5 percent of our defense budget. It is not impossible for 
us to reach that. If we could get to the point where we 
modernized in the right way, we would be on the right path.
    Now, of the new spending, only 2 percent of this amount is 
for the weapons modernization itself. That is relatively 
inexpensive, and it is a small price to pay for the Nation's 
ultimate insurance policy and for an arsenal that has 
maintained great power and peace really for 70 years.
    I remember having lunch with a member of the Russian 
parliament and professor, and I asked what about their tactical 
weapons. I have told you all this before. The professor popped 
up and said do you know how many troops China has on our 
border. We are never giving up tactical nuclear weapons. So 
that is the real world we live in.
    This shows this peak up here, and as I said, this would 
fund the submarine modernization, the aircraft, the new bomber, 
at least that portion of it dedicated to nuclear weapons and to 
the ICBMs which, as I said, are getting awfully old too.
    This has been a little bit of an epiphany for me as we have 
been looking at these numbers. I hope you all take this in the 
spirit of pure reality and what the United States needs to do, 
and we do not need to fail. If we need to accelerate some of 
this, it is a relatively small part of the budget overall, and 
I think we have to do it. At a time where the will of the 
United States is being questioned, I think it may be even more 
significant that we stay on track to leave no doubt that we are 
going to have an arsenal, we are going to use it only, only, 
only if we have to. But we have the will to defend ourselves if 
need be, and you do not want to launch a nuclear attack on us 
because that would be a grave mistake.
    Anyway, that is my 2 cents worth. Thank you for letting me 
ramble on. I look forward to working with you, Senator Udall. 
You have been good on this, and we are all learning together. I 
think we are coming back into the right path. I think we are 
getting close to what we need to do.
    Senator Udall. Thank you, Senator Sessions. I think the 
Senator points out the importance of this committee's role as 
an authorizing body and also an oversight body. We are going to 
hold a series of very important hearings over these next months 
as we prepare for the National Defense Authorization Act (NDAA) 
markup itself. I know we will hope to have the kind of 
attendance that Senator Fischer and Senator King and Senator 
Donnelly always display on this committee. They are always here 
and they are always engaged.
    With that, let me make a short comment on questions and 
timing. I would like to aim to end the hearing by about 4 p.m. 
We are going to have, I think, eight votes starting at 4 p.m., 
for my colleagues that are here. We have four witnesses. I 
think we can get the job done. I would ask each of you to keep 
your statements at 3 to 5 minutes, and then we will open the 
floor for 7-minute rounds.
    I think we will start on my left with Ms. Bunn, and then we 
will work across the panel here. Ms. Bunn, the floor is yours 
for 3 to 5 minutes.

  STATEMENT OF M. ELAINE BUNN, DEPUTY ASSISTANT SECRETARY OF 
          DEFENSE, NUCLEAR AND MISSILE DEFENSE POLICY

    Ms. Bunn. Thank you, Mr. Chairman, Ranking Member Sessions, 
other distinguished members of the subcommittee. I really 
appreciate the opportunity to testify today, and I appreciate 
your support for nuclear forces.
    With your permission, I will submit my written statement 
and only highlight a few points now.
    The QDR, which was submitted yesterday with the fiscal year 
2015 budget, makes clear the key role of nuclear forces in our 
strategy. It says that our nuclear deterrent is the ultimate 
protection against a nuclear attack on the United States, and 
through extended deterrence, it also serves to reassure our 
distant allies of their security against regional aggression. 
It also supports our ability to project power by communicating 
to potential nuclear-armed adversaries that they cannot 
escalate their way out of failed conventional aggression.
    Also, the Chairman of the Joint Chiefs of Staff, in his 
risk assessment for the QDR, ranked maintaining a secure and 
effective nuclear deterrent at the top of his list of mission 
prioritization.
    DOD's budget request for fiscal year 2015 supports our 
nuclear policy goals, as laid out in the 2010 NPR, in the 
President's June 2013 Nuclear Employment Strategy, and in the 
current QDR.
    We continue to ensure that this President and future 
Presidents have suitable options for deterring, responding to, 
and managing a diverse range of current and future situations, 
including regional deterrence challenges.
    We continue to work closely with our allies, some of whom 
live in very dangerous neighborhoods, to ensure continuing 
confidence in our shared national security goals, including 
assurance of our extended nuclear deterrence commitments.
    Preserving the nuclear triad of strategic delivery vehicles 
and investing to maintain a safe, secure, and effective nuclear 
force is critical for success in all those efforts.
    The 1043 Report, which we will provide to Congress this 
spring, will address these issues and the budget issues in more 
detail, but let me just say that our modernization goals have 
not changed since 2010. We have made considerable progress, but 
we have had to make some adjustments due to fiscal constraints.
    Three other issues I would like to address briefly. One, is 
the New Strategic Arms Reduction Treaty (START) force 
structure. The administration is considering how to reduce 
nondeployed strategic delivery vehicles to comply with the 
limits of the New START treaty by February 2018, and we will 
make a final force structure decision and inform Congress prior 
to the start of fiscal year 2015.
    Two, Intermediate-Range Nuclear Forces (INF) Treaty 
compliance. We are concerned about Russian activity that 
appears to be inconsistent with the INF Treaty. We have raised 
the issue with Russia. They provided an answer that was not 
satisfactory to us, and we told them that the issue is not 
closed and we will continue to raise this.
    Three, the nuclear enterprise reviews. With regard to 
recent issues with a few Air Force/Navy nuclear personnel, the 
Secretary of Defense has created two special review panels, one 
an internal review and one an external review. Those reviews 
are not about assigning blame. They are about identifying, 
assessing, and correcting any systemic deficiencies that we 
might uncover and applying the best practices for carrying out 
our nuclear mission across the nuclear force.
    Again, Mr. Chairman, other members, thank you very much for 
letting me testify today. I look forward to your questions.
    [The prepared statement of Ms. Bunn follows:]
                Prepared Statement by Ms. M. Elaine Bunn
    Chairman Udall, Ranking Member Sessions, distinguished members of 
the Strategic Forces Subcommittee, thank you for the opportunity to 
testify for the first time on our nuclear forces and the National 
Defense Authorization Request for Fiscal Year 2015 and Future Years 
Defense Program. I am joined by Vice Admiral Terry Benedict, Director 
of Strategic Systems Programs for the U.S. Navy; Lieutenant General 
Stephen W. Wilson, Commander of Air Force Global Strike Command; and 
Major General Garrett Harencak, Assistant Chief of Staff for Strategic 
Deterrence and Nuclear Integration for the Air Force.
    You asked me specifically to address the policies and programs that 
the Defense Department has in place to sustain our nuclear forces and 
ensure that our deterrence is sound following the 2010 Nuclear Posture 
Review and the New Strategic Arms Reduction Treaty (START). But let me 
first start by thanking this committee for your continued support of 
the nuclear forces and the nuclear enterprise.
    Translating the goals of ``sustainment'' and ``deterrence'' into 
effective plans and capabilities is more than a little challenging, as 
this committee knows quite well. U.S. policies and programs concerning 
nuclear weapons have to reflect considerations that range far beyond 
the purely military, because the weapons, their deployment and posture, 
and what we say about them can entail issues of foreign policy, 
diplomacy, intelligence, science and technology, and homeland security, 
for example.
    We want an arsenal that contributes to effective deterrence. We 
want an arsenal that is kept qualitatively up to date, that is 
survivable and flexible but that is no larger than necessary to meet 
our national security needs. We want an arsenal that is an effective 
deterrent against the advent of regional nuclear powers whose 
intentions and decision processes are far from transparent. But most of 
all we want an arsenal that is safe, secure, and effective, and that 
will contribute to deterrence as long as nuclear weapons exist.
    The path to accomplishing these goals will necessarily be adapted 
as required based on changes in the strategic environment and the 
financial and technical resources available. But there are two 
principal, mutually supporting components to our efforts. The first is 
working to ensure that this and future Presidents have suitable options 
for deterring, responding to, and managing a diverse range of 21st 
century security challenges. The second is working constantly with our 
allies to ensure continuing confidence in our shared national security 
goals, including assurance in our extended nuclear deterrence posture, 
and strengthening strategic stability with Russia and China.
                 strengthening the president's options
    Since 2010, we have made significant progress in strengthening the 
President's options for deterring, responding to, and managing 21st 
century security challenges. Deterrence is not limited solely to 
nuclear weapons. Non-nuclear strategic capabilities, such as ballistic 
missile defenses and investments in a capability for conventional 
prompt strike systems, play an important role in our strategic posture; 
however, they are not substitutes for our nuclear forces.
New Nuclear Employment Strategy
    With regard to policy, the most significant development since the 
Nuclear Posture Review and the entry into force of the New START treaty 
is the nuclear employment guidance issued by the President last June. 
This new Nuclear Employment Strategy was the culmination of an 18-month 
effort that reviewed U.S. nuclear deterrence requirements, developed a 
range of nuclear employment strategy options, and analyzed potential 
implications of each strategy option for U.S. nuclear force 
requirements and achieving U.S. and allied objectives if deterrence 
fails.
    Both an unclassified and classified report on this guidance were 
provided to Congress in June 2013 and subsequent classified briefings 
have gone into greater detail. There are five important aspects of the 
new employment strategy:

        <bullet> It affirms that the fundamental purpose of nuclear 
        weapons remains to deter nuclear attack on the United States 
        and our allies and partners. The United States will maintain a 
        credible deterrent, capable of convincing any potential 
        adversary that the adverse consequences of attacking the United 
        States or our allies and partners far outweigh any potential 
        benefit they may seek to gain through an attack.
        <bullet> It affirms that the United States will only consider 
        the use of nuclear weapons in extreme circumstances to defend 
        the vital interests of the United States or its allies and 
        partners. The guidance narrows U.S. nuclear strategy by 
        directing that planning should focus on only those objectives 
        and missions that are necessary in the 21st century, including 
        deterring nuclear use in escalating regional conflicts. The 
        regional deterrence challenge may be the ``least unlikely'' of 
        the nuclear scenarios for which the United States must prepare, 
        and continuing to enhance our planning and options for 
        addressing it is at the heart of aligning U.S. nuclear 
        employment policy and plans with today's strategic environment.
        <bullet> At the completion of the study, the President 
        determined that we can ensure the security of the United States 
        and our allies and partners and maintain a strong and credible 
        strategic deterrent while safely pursuing up to a one-third 
        reduction in deployed strategic nuclear weapons from the level 
        established in the New START Treaty. The President indicated in 
        his Berlin speech that the administration would pursue such 
        reductions through negotiations with Russia.
        <bullet> The Nuclear Employment Strategy reaffirms our 
        commitment to a safe, secure, and effective arsenal that the 
        United States will maintain the nuclear Triad, and that U.S. 
        nuclear forces will continue to operate on a day-to-day basis 
        that maintains strategic stability with Russia and China, 
        deters potential regional aggressors, and assures U.S. allies 
        and partners.
        <bullet> It adopts an alternative approach to hedging against 
        technical or geopolitical risk, which could lead to future 
        reductions in the non-deployed nuclear weapon stockpile. The 
        United States is investing in a more modern, responsive 
        infrastructure; however, modernizing this infrastructure will 
        take at least a decade or more to achieve.

Sustaining and Modernizing Nuclear Forces
    We have analyzed the different types of adversaries we must deter 
and the range of scenarios for which we must prepare, and we have 
concluded that the range of options provided by the nuclear Triad 
offers the flexibility needed for the range of contingencies we might 
face. A sustained long-term investment in the enterprise is required; 
the strategic delivery vehicles we rely on today grew out of 
investments the Nation made in the 50s, 60s, 70s, and 80s. Many of 
these systems are aging out of service, and we must now invest in 
extending the life of some and replacing others. The force structure 
choices we make today will determine the capabilities a President will 
have in 20, 30, and 40 years. We cannot say what mix of capabilities 
the United States will need that far into the future, but modernizing 
the Triad will provide the next generation of U.S. policymakers with a 
flexible and resilient range of capabilities.
    The fiscal year 2015 budget and FYDP reflect our plans for 
maintaining and modernizing the Triad. The 1043 report which the 
Department of Defense (DOD) and the Department of Energy plan to 
provide to Congress in April will address these issues in more detail. 
We appreciate Congress providing 30 days from the release of the fiscal 
year 2015 budget request to submit the 1043 report.
Strategic Delivery Vehicles
    With regard to the strategic submarine force, the construction of 
the first of 12 Ohio-class replacement submarines is scheduled to begin 
in 2021, with long-lead item procurement beginning in 2016. The first 
new U.S. SSBNs will enter the force beginning in fiscal year 2031 to 
maintain the minimum number of submarines necessary to meet strategic 
requirements. These submarines will include new advances in nuclear 
reactor design that eliminate the need for midlife refueling, thereby 
providing greater operational availability for each submarine. 
Eliminating the need for the midlife nuclear refueling will allow a 
force of 12 Ohio-class replacement submarines to replace the 14 SSBNs 
needed for deterrence missions today and provide significant long-term 
cost savings. The service life for the Trident D-5 SLBM has been 
extended so that transition to the Ohio-replacement submarine will 
occur before we need to begin replacing the missiles.
    To sustain the Minuteman (MM) III, Intercontinental Ballistic 
Missiles (ICBMs) through 2030, the fiscal year 2015 budget funds 
critical upgrades and component replacements. The Air Force Analysis of 
Alternatives (AOA) is examining options for a post-2030 follow-on 
system known as the Ground-Based Strategic Deterrent. This will enable 
development of a comprehensive plan to modernize and extend the life of 
the MMIII or to develop a follow-on ICBM. Follow-on ICBM activities 
will be closely coordinated and aligned with steps taken to modernize 
the MMIII through 2030 in order to achieve cost savings. This AOA 
should be finished in late spring or early summer.
    Our nuclear-capable strategic bombers can be used to demonstrate 
our commitment to allies and our capabilities to our adversaries. The 
United States will continue to maintain two B-52H strategic bomber 
wings and one B-2 wing. Both bomber types are aging. Sustained funding 
and support is required to ensure operational effectiveness through the 
remainder of their respective service lives. The fiscal year 2015 
budget continues funding for the Long Range Strike Bomber (LRS-B) which 
is currently in development.
Nuclear Command, Control, and Communications
    The President is the only one who can authorize the use of nuclear 
weapons and our Nuclear Command, Control, and Communications (NC3) 
systems are critical to providing the President situational awareness 
in a crisis, responses for consideration, and transmitting the 
President's orders to strategic forces. The Department is formulating a 
long-term strategy to modernize critical NC3 capabilities including 
enhanced NC3 support for regional contingencies. The Department 
continues to prioritize resources to address known capability gaps 
while incrementally building toward a modern NC3 architecture that will 
ensure timely decision-making support for the President.
Nuclear Weapons, Stockpile, and Infrastructure
    Along with delivery vehicles and NC3, strengthening a President's 
options requires sustained commitment to warhead life extension 
programs (LEP) and infrastructure modernization. Thanks to the measure 
of budgetary relief Congress provided for fiscal year 2014, we have 
been able to continue uninterrupted production of modernized W76-1 
submarine launched ballistic missile warheads, and have completed the 
first system-level engineering development test of the B61-12 bomb.
    The administration has outlined a concept that we refer to as the 
``3+2'' strategy. This strategy, when completed decades from now, would 
result in five types of warhead designs in place of the twelve unique 
warhead types in today's active nuclear weapons stockpile. The strategy 
envisions three interoperable warheads compatible with both submarine 
and land-based ballistic missiles, and two aircraft-delivered weapon 
types. This modernization and consolidation of warhead types would 
allow for more efficient hedging and therefore reductions in the non-
deployed stockpile.
    One of the two air-delivered weapons, the B61-12 gravity bomb and 
its accompanying tail kit assembly (TKA), are scheduled for first 
production in 2020. This LEP will enable us to consolidate and retire 
several different variants of the B-61 and shift our surveillance 
resources to other areas of the stockpile. Most importantly, over time, 
the B61-12 will become the sole nuclear gravity bomb in the United 
States inventory and will be carried by both dual-capable aircraft 
(e.g., F-15E, and in the future F-35), as well as the B-2 bomber and 
the Long Range Strike Bomber. The second air delivered weapon, the air-
launched cruise missile (ALCM) will be maintained as our standoff 
weapon until a follow on system, the long-range standoff (LRSO) 
missile, achieves first unit production in fiscal year 2025-fiscal year 
2027.
    Development of the Interoperable Warhead-1 (or W78/88-1), part of 
the ``3+2'' strategy, is being delayed beyond the National Nuclear 
Security Administration's (NNSA) future years nuclear security plan. 
This delay is the result of prioritizations due to the current fiscal 
climate.
Budget and Fiscal Uncertainties
    Thanks to the 2-year budget agreement that Congress recently 
approved, we are now facing a more certain fiscal environment, at least 
in the short term. Ultimately, sustained and reliable funding profiles 
are necessary to avoid cost increases and to meet our modernization 
timelines.
Personnel Review for the Nuclear Enterprise
    The recently publicized issues concerning a few Air Force and Navy 
personnel involved with the nuclear forces pose no threat to the 
reliability and effectiveness of our nuclear forces. There are 
nonetheless serious issues of professionalism and discipline that must 
be addressed. The Secretary of Defense has created two special review 
panels to assess the reasons for these failures and to propose 
corrective actions.
    The internal review, co-chaired by Assistant Secretary of Defense 
Madelyn Creedon and Rear Admiral Peter Fanta from the Joint Staff, will 
examine the nuclear mission in both the Department of the Air Force and 
the Department of the Navy regarding personnel, training, testing, 
command oversight, mission performance, and investment. They will 
report their findings to Secretary Hagel no later than April 30, 2014. 
Additionally, General Larry Welch, USAF (Ret) and Admiral John Harvey, 
USN (Ret) will lead an independent review to provide a broader, 
external examination of the DOD nuclear enterprise. They have been 
asked to provide findings and recommendations to the Secretary no later 
than June 2, 2014. These reviews are not about assigning blame, but 
about identifying, assessing, and correcting systemic deficiencies, and 
applying best practices for DOD nuclear enterprise personnel.
strengthening extended deterrence and assurance and strategic stability
    Since 2010, we have made considerable progress in strengthening 
extended deterrence and assurance, and we continue to engage Russia and 
China on efforts toward mutually beneficial steps for enhancing 
strategic stability.
    Extended Deterrence and Assurance: We will continue to assure our 
allies and partners of our commitments to their security, and 
demonstrate it through forward deployment of U.S. forces in key 
regions, strengthening U.S. and allied conventional and missile defense 
capabilities, and the continued provision of U.S. extended nuclear 
deterrence. U.S. nuclear weapons have played an essential role in 
extending deterrence to U.S. allies and partners against nuclear attack 
or nuclear-backed coercion by states in their region that possess or 
are seeking nuclear weapons. A credible ``nuclear umbrella'' has been 
provided by a combination of means--the strategic nuclear forces of the 
U.S. Triad, non-strategic nuclear weapons currently forward deployed in 
Europe in support of the North Atlantic Treaty Organization (NATO) and 
U.S.-based nuclear weapons that could be forward deployed quickly to 
meet regional contingencies. Security relationships in key regions will 
retain some nuclear dimension as long as nuclear threats to allies and 
partners remain. Extended nuclear deterrence can also serve our 
nonproliferation goals by reassuring non-nuclear allies and partners 
that their security interests can be protected without a need to 
develop their own nuclear weapons.
    As outlined in the 2010 Nuclear Posture Review, we have been 
working with allies and partners on how best to strengthen regional 
deterrence--beginning formal dialogues on the topic where they had not 
existed, and maintaining and refreshing the NATO deterrence dialogue 
which has long existed.
Extended Deterrence in Northeast Asia
    Our allies in Northeast Asia live in a dangerous neighborhood, and 
in the year following the Nuclear Posture Review, we initiated formal 
deterrence dialogues with both South Korea and Japan. Our Extended 
Deterrence Policy Committee with the Republic of Korea (ROK) and our 
Extended Deterrence Dialogue with Japan address relevant nuclear and 
missile defense issues with each ally. Exploring concepts such as 
extended deterrence, assurance, and strategic stability through table 
top exercises and frank discussion helps us develop shared 
understandings with each ally and prepare for a range of security 
challenges and scenarios. Also, in October 2013 the U.S.-ROK alliance 
agreed upon a bilateral, tailored deterrence strategy to address the 
growing North Korean nuclear threat.
    These high-level dialogues underscore that the United States is 
unequivocally committed to the defense of Japan and the Republic of 
Korea, and that both allies are committed to working with the United 
States in deterring aggression and promoting peace and stability 
throughout the region. Our ability to send strategic bombers and 
tactical nuclear-capable aircraft to the region to signal resolve 
resonates with our allies, as the B-52 and B-2 flights over South Korea 
last March during a period of heightened tension on the peninsula 
demonstrated.
North Atlantic Treaty Organization
    NATO's 2012 Deterrence and Defence Posture Review affirms that 
nuclear weapons and missile defense are core components of NATO's 
overall capabilities for deterrence, and that as long as nuclear 
weapons exist, NATO will remain a nuclear alliance. NATO will continue 
to seek conditions and consider options for further reductions of non-
strategic nuclear weapons, and we will continue to work closely with 
our NATO allies on all issues related to the Alliance's nuclear 
capabilities through the Nuclear Planning Group and the High Level 
Group. These fora provide a critical venue for discussions among NATO 
allies on a broad range of nuclear policy matters, including the 
continued safety and security of nuclear weapons, shared perceptions of 
potential threats to Alliance members, and the development and 
evolution of common alliance positions on nuclear policy.
    The United States currently forward deploys dual-capable aircraft 
(F-15Es and F-16s) and B-61 gravity bombs in Europe in support of NATO. 
In line with the 2013 Nuclear Employment Strategy and the 2010 Nuclear 
Posture Review, we will maintain the capability to deploy dual-capable 
aircraft as well as bombers globally, if needed. The Department will 
integrate nuclear delivery capability into the F-35 Joint Strike 
Fighter during follow-on development block upgrades of the aircraft at 
the end of calendar year 2024.
    The longstanding special relationship between the United States and 
the United Kingdom remains strong. The Common Missile Compartment for 
the next generation of our respective SSBN fleets is a cooperative 
effort that will provide cost-sharing benefits to both countries. In 
the current era of declining defense budgets and overall fiscal 
uncertainty, this type of collaboration is prudent.
Strategic Stability
    We would welcome the opportunity to take additional steps with 
Russia to enhance strategic stability, including exploring 
opportunities for missile defense cooperation and further nuclear 
reductions. The administration has said that it will pursue further 
reductions negotiated with Russia.
    Even as we pursue new opportunities for cooperation, strategic 
stability also requires that we are vigilant in verifying compliance 
with existing arms control obligations. The U.S. takes treaty 
compliance very seriously and utilizes all measures that are available 
to us through the New START treaty. As of February 5, 2014, the United 
States and Russia have each conducted 54 on-site inspections under the 
New START treaty verification regime. We have met our inspection quotas 
for the Treaty's first 3 years, and we have begun the fourth year of 
inspections. Delegations from the United States and Russia have also 
met six times under the Treaty's Bilateral Consultative Commission to 
address issues related to implementation of the Treaty.
    Although China's arsenal is smaller than Russia's, China continues 
to modernize its nuclear weapons and delivery systems. As it has for 
several years now, the United States continues to urge China to engage 
in discussions on strategic issues in a variety of venues. Both 
countries have said they want to address the other's concerns about 
their strategic postures. A sustained dialogue on our broad strategic 
postures and greater transparency between our two nations would be an 
opportunity for both countries to make those goals more credible.
    One final word about strategic stability: for the United States, 
strategic stability, however we define it, must entail security for our 
allies and respect for their interests.
                               conclusion
    The National Defense Authorization Request for Fiscal Year 2015 and 
Future Years Defense Program underscores our commitment to ensuring 
effective options for this and future Presidents; ensuring a safe, 
secure, and effective nuclear arsenal for as long as nuclear weapons 
exist; assuring U.S. allies; and continuing to engage Russia and China 
on strengthening strategic stability. The overall goals have not 
changed since 2010 and we have made considerable progress, but we have 
had to make adjustments due to budget constraints, and may have to do 
so again as the budget landscape becomes more clear. Thank you for the 
opportunity to testify; I look forward to your questions.

    Senator Udall. Thank you, Ms. Bunn.
    General Wilson?

 STATEMENT OF LT. GEN. STEPHEN W. WILSON, USAF, COMMANDER, AIR 
                  FORCE GLOBAL STRIKE COMMAND

    General Wilson. Chairman Udall, Ranking Member Sessions, 
distinguished members of the subcommittee, thank you for 
allowing me to appear for the first time today as Commander of 
Air Force Global Strike Command. This summer our command will 
celebrate its fifth anniversary. The command was stood up to 
provide a singular focus on the stewardship, the safe, secure, 
and effective operations of two-thirds of our Nation's nuclear 
triad.
    Advancements and modernization taking place in the nuclear 
arsenals of other nations of concern are a clear indicator that 
the role of nuclear deterrence operations has not declined, as 
some would have us believe, but has actually become more 
critical.
    We have provided a credible nuclear deterrent for the past 
50 years. It can be easy to lose sight of the fact that there 
are almost 25,000 airmen in our command doing the mission 
absolutely right 24-hours-a-day, 7-days-a-week, 365-days-a-
year. We must continue to show them that they are important and 
relevant, and that we value the critical work that they carry 
out every day with pride, discipline, and precision.
    Our mission is unwavering. We develop and provide combat-
ready forces for nuclear deterrence and global strike 
operations to support the President of the United States and 
combatant commanders. The command's priorities provide the 
clear path to mission success.
    First, we will deter and assure with a safe, secure, and 
effective nuclear force.
    Second, we are going to win the fight both in our overseas 
contingencies where we have nearly 1,000 airmen deployed around 
the world today and with the 1,100-plus deterrent force who are 
every day deployed to the missile fields of Montana, North 
Dakota, Wyoming, Nebraska, and Colorado.
    We will strengthen and empower the team by continuing to 
improve both the quality of life of our airmen and their 
families, aware of the unique demands both of the mission and 
the locations in which they live.
    Finally, we will shape the future by staying focused on the 
people, our human capital development, and a nuclear force 
modernization and initiatives.
    Mr. Chairman, thank you for this opportunity to appear 
before the subcommittee and to discuss things going on in Air 
Force Global Strike Command. I look forward to your questions, 
and with your permission, I would like to enter my written 
testimony into the record.
    Senator Udall. Without objection.
    [The prepared statement of General Wilson follows:]
         Prepared Statement by Lt. Gen. Stephen W. Wilson, USAF
                              introduction
    Chairman Udall, Ranking Member Sessions, and distinguished members 
of the subommittee; thank you for allowing me to represent the over 
25,000 Air Force Global Strike Command (AFGSC) airmen and civilians, 
and to appear before you as their Commander for the first time. I will 
use this opportunity to update you on our mission, the status of our 
forces, and the challenges we will face over the next few years.
                air force global strike command mission
    AFGSC will mark its fifth anniversary this year. Our command was 
created in 2009 to provide a singular focus on the stewardship and 
safe, secure and effective operation of two legs of our Nation's 
nuclear Triad. The Triad is an enduring construct that is just as 
relevant today as it was at its inception. Advancements and 
modernization taking place in the nuclear arsenals of other nations are 
a serious concern and indicate AFGSC's Nuclear Deterrence Operations 
mission is not losing relevance, but has actually become even more 
critical. In order for us to participate in every spectrum of conflict 
from humanitarian operations to nuclear engagement, we must be ready 
and effective at every point along that continuum, and we can never 
fail in nuclear operations. Our Nation has successfully avoided the 
unthinkable by having a credible deterrent for over 50 years. 
Continuing in the proud heritage of Strategic Air Command tailored for 
the 21st Century, AFGSC's mission is to: ``Develop and provide combat-
ready forces for nuclear deterrence and global strike operations--Safe, 
Secure and Effective--to support the President of the United States and 
Combatant Commanders.''
Air Force Global Strike Command Nuclear Mission
    At the core of our mission statement are three reinforcing, key 
attributes: ``Safe--Secure--Effective.'' These were outlined in 
President Obama's 2009 Prague speech where he said: ``Make no mistake: 
as long as these weapons exist, the United States will maintain a safe, 
secure and effective arsenal to deter any adversary, and guarantee that 
defense to our allies.'' The attributes of ``safe, secure, effective'' 
serve to underpin every nuclear-related activity in AFGSC, from the 
discipline adhered to in the smallest task, to how we prioritize our 
planning and programming for the Future Years Defense Program. The 
effects of our nuclear force, as outlined in the 2010 Nuclear Posture 
Review, are to ensure strategic stability, to support the regional 
deterrence architecture, and to assure our allies and partners.
Air Force Global Strike Command Conventional Mission
    Our conventional bomber forces defend our nnational interests by 
deterring or, should deterrence fail, defeating an adversary. Two 
capabilities are fundamental to the success of our bomber forces: first 
is our ability to hold heavily defended targets at risk, and second is 
our ability to apply relentless and persistent combat power across the 
spectrum of conflict anywhere on the globe at any time. The United 
States' fleet of penetrating and stand-off heavy bombers is second to 
none, capable of long-range and long-endurance missions. These bombers 
carry our latest high-tech munitions in vast quantities to ensure the 
USAF can meet our Nation's global responsibilities, and remain in high-
demand by the regional combatant commanders.
                 air force global strike command forces
    The two Numbered Air Forces under AFGSC, Eighth Air Force and 
Twentieth Air Force, serve critical national security roles as 
Component Numbered Air Forces to United States Strategic Command and as 
Task Forces for on-alert nuclear forces.
Twentieth Air Force
    Twentieth Air Force (20 AF) is responsible for the Minuteman III 
intercontinental ballistic missile (ICBM) force and our UH-1N 
helicopter force. The 450 dispersed and hardened missile silos maintain 
strategic stability by presenting any potential adversary a near 
insurmountable obstacle should they consider a disarming attack on the 
United States. No potential adversary can credibly destroy this force 
without depleting their own arsenal. Every day a force of over 1,100 
airmen is deployed to our three missile fields, executing effective 
deterrence operations. 20 AF maintains a 24-hour-per-day, 7-day-per-
week, 365-day-per-year no-fail mission. Accomplishing this mission 
demands we focus on sustaining our current systems while modernizing 
for the future. How we will accomplish this is outlined in the 
paragraphs below.
    Minuteman III
    We continue efforts to sustain the Minuteman III ICBM (MM III). 
This includes upgrading the command, control and communications 
systems, and support equipment.
    The ICBM Cryptography Upgrade (ICU), Code System Media (CSM), and 
the Strategic Targeting and Application Computer System (STACS) 
programs are fully funded, providing for hardware and software upgrades 
to allow the secure transmission of critical codes and targeting data 
via modern media. These upgrades will enhance security while reducing 
the number of operations, maintenance, and security forces man-hours 
required for the annual cryptographic code change at our Launch 
Facilities (LFs) and Launch Control Centers (LCCs). We project fielding 
the new CSM in 2014, new STACS in 2015 and the new ICU in 2019.
    We are also equipping ICBM LCCs with modernized communications 
systems that will upgrade or replace other aging and obsolescent 
systems. Beginning in 2015, we will start replacing Voice Control 
Panels and Ultra-High Frequency radio receivers, accomplishing 
recurring Higher Authority Communications/Rapid Message Processing 
Element life extensions, and upgrading extremely high frequency (EHF) 
communications, which provide connectivity through the National 
Military Command System (NMCS). Furthermore, we advanced the Minuteman 
Minimum Essential Emergency Communications Network Program, which 
upgrades, modernizes and secures the Emergency Action Message network, 
with operational fielding scheduled for March 2015.
    We conducted four MM III flight tests in fiscal year 2013, the 
first time we've accomplished four flight tests in 1 year since 2006. 
This, along with two successful Simulated Electronic Launch tests in 
the operational environment, demonstrates the operational credibility 
of the nuclear deterrent force and the Command's commitment to 
sustaining that capability. Operational testing is currently funded 
through the fiscal year 2015 Future Years Defense Program (FYDP), with 
four operational test launches funded per year to satisfy test 
requirements outlined by U.S. Strategic Command and the National 
Nuclear Security Administration.
    We continue to examine emerging technologies to ensure the MM III 
weapon system remains reliable and ready through 2030. Additionally, we 
are looking into how investments in these technologies can transfer to 
and provide savings for the future Ground-Based Strategic Deterrent 
(GBSD) program.
    Ground-Based Strategic Deterrent
    The Minuteman missile system, currently on its third model, has 
been on continuous alert since the 1960s, over 50 years ago, and has 
proven its value in deterrence well beyond the platform's intended 10-
year lifespan. The GBSD program is intended to replace or evolve the MM 
III. All parts of the Triad are complementary; the ICBM provides the 
responsive portion of that balance. Initial ICBM capability gaps were 
identified, validated by the Joint Requirements Oversight Council 
(JROC), and approved in August 2012 by the Air Force Chief of Staff, 
resulting in an Analysis of Alternatives (AoA). The AoA commenced in 
September 2013, and will identify an affordable, viable, flexible 
concept for the next generation ground-based strategic deterrent force. 
This analysis is critical to inform near-term MM III sustainment 
programs to ensure technologies and components can be utilized in GBSD 
acquisition. Our U.S. Navy partners are fully engaged with our GBSD 
team, investigating the benefits and risks of commonality, with the 
objective to reduce future design, development, and manufacturing costs 
for their strategic systems. Our GBSD AoA results are due to the Office 
of the Secretary of Defense (OSD) in June 2014. I ask for your support 
of GBSD as we move forward, ensuring it will lead to a viable 
replacement for the MM III ICBM.
    UH-1N
    AFGSC is the lead command for the Air Force's fleet of 62 UH-1N 
helicopters. The vast majority of these aircraft support two critical 
national missions: Nuclear Security in support of the ICBM force, and 
the Continuity of Operations/Continuity of Government mission in the 
National Capital Region.
    Although the UH-1Ns are 45 years old, we currently plan to fly them 
for at least another decade. We must sustain the helicopter's current 
capabilities, while selectively upgrading them to reduce existing 
capability shortfalls and avoid increased sustainment costs due to 
obsolescence. Safety improvements currently underway include the 
installation of crashworthy aircrew seats across the fleet by 2015 and 
night vision goggle-compatible cockpits that will be fully integrated 
by 2016. In addition, the command has begun fielding the Helicopter 
Terrain Avoidance and Warning System and Traffic Collision Avoidance 
System to improve aircraft situational awareness and survivability. 
Finally, Air Force Global Strike Command is currently in the process of 
arming our UH-1Ns in order to meet OSD and U.S. Strategic Command 
(STRATCOM)-mandated security requirements for the missile fields. We 
have completed training our initial helicopter aircrew cadre, and 
initiated the development of tactics, techniques, and procedures for 
integrated operations with Security Forces personnel. We anticipate 
initial operational capability by the end of March 2015.
    While we can to some extent mitigate the UH-1N's deficiencies in 
range, speed, and payload, no amount of modification will close these 
critical gaps entirely. This can only be accomplished by fielding a 
replacement aircraft that meets validated mission requirements. The Air 
Force cancelled the planned UH-1N replacement program, the Common 
Vertical Lift Support Platform, in 2013. However, we continue to 
explore replacement options, including acquiring aircraft currently 
possessed within the Department of Defense through the Excess Defense 
Articles program. At my predecessor's request, RAND recently completed 
a Business Case Analysis of the costs and mission effectiveness of 
sustaining the UH-1N as well as 19 other military and commercial 
replacement options. We will continue to pursue affordable replacement 
options while safely flying the UH-1N.
Eighth Air Force (8 AF)
    Eighth Air Force is responsible for the B-2A Spirit (B-2) and B-52H 
Stratofortress (B-52) bomber forces. This includes maintaining the 
operational readiness of both the bombers' nuclear and conventional 
missions. The B-2 gives the United States the ability to attack heavily 
defended targets while the B-52 serves as the Nation's premier stand-
off weapon delivery platform. The B-52 may be the most universally 
recognized symbol of American airpower . . . its contributions to our 
national security through the Cold War, Vietnam, Desert Storm, Allied 
Force, Iraqi Freedom and Enduring Freedom are remarkable. Our flexible 
dual-capable bomber fleet is the most visible leg of the nuclear Triad, 
allowing decision makers the ability to demonstrate resolve through 
generation, dispersal or deployment, which includes the ability to 
quickly place bomber sorties on alert ensuring their continued 
survivability to meet commander requirements.
    B-52H
    Our airmen have worked tirelessly to keep the venerable B-52 in the 
air. The B-52 is able to deliver a wide variety of stand-off, direct 
attack, nuclear and conventional weapons in the Air Force. This past 
year, we maintained 100 percent coverage of our Nuclear Deterrence 
Operations requirements while supporting overseas Continuous Bomber 
Presence (CBP) commitments, despite a 26 percent reduction in B-52 
flying hours. Although we were able to balance aircrew readiness to 
meet United States Strategic Command requirements during these 
reductions, we only recently returned to pre-sequestration readiness 
levels to meet all combatant commander mission requirements.
    AFGSC continues work toward completing the Combat Network 
Communications Technology (CONECT) upgrade. This upgrade resolves 
sustainability issues with aging cockpit displays and communications 
while also providing a ``digital backbone'' enabling integration into 
the complex battlespace of the future. CONECT replaces aging displays, 
adds a radio, provides beyond-line-of-sight communications and 
situational awareness, and adds machine-to-machine retargeting. The 
CONECT program is currently funded to field the upgrade across the 
entire B-52 fleet. The first B-52 CONECT installation will complete in 
April 2014, and the second B-52 is scheduled to begin conversion in 
July 2014.
    We are working on an upgrade 1,760 internal weapons bay upgrade to 
the B-52's bomb bay that greatly improves flexibility and precision 
weapon capacity for all smart weapons. Configuring the aircraft to 
internally carry these smart weapons and the pathway for integration of 
the Joint Air to Surface Stand-Off Missile-Extended Range (JASSM-ER) 
will give the warfighter an additional advantage over an adversary, and 
will provide increased capability to our joint force commanders.
    Continuing to upgrade and modernize the B-52 will keep this 
platform relevant, viable and an integral part of AFGSC's contribution 
to the fight, providing vital long-range strike and massive firepower 
until the Air Force determines the requirement for a suitable B-52 
replacement.
    Last year, we successfully executed six Air Launched Cruise Missile 
(ALCM) flight test evaluations, meeting STRATCOM ALCM test requirements 
for the third straight year. The ALCM, employed only on the B-52, 
remains a strong and capable stand-off nuclear weapon, but some 
critical components are nearing the end of their service life. To 
ensure the B-52 remains a credible part of the Triad, we have initiated 
an ALCM Service Life Extension Program (LEP). The ALCM will remain 
viable through 2030, when the Long Range Stand-off Missile (LRSO) is 
scheduled to reach its initial operational capability.
    Minot Air Force Base (AFB), ND, has one of the oldest runways in 
the U.S. Air Force and has been deteriorating for years. We developed a 
multi-phased plan to completely replace the runway and widen the 
existing taxiway. The $70.5 million plan also includes the repair and 
upgrade of airfield lighting. To date, we have replaced both ends of 
the runway and widened the taxiway. Starting on 1 April 2014, we will 
close the runway and begin replacing the center section which is slated 
to be complete by 1 October 2014. During this 5 month runway closure, 
we will utilize the improved taxiway to meet STRATCOM requirements. For 
day-to-day training, we will relocate a portion of our B-52 force to 
Ellsworth AFB, SD. The end state will be a new runway capable of 
supporting strategic operations through 2050. This multi-year 
construction plan has been an operational challenge. However with the 
outstanding performance by our airmen, proper oversight, and risk 
management, we are ensuring both safe operations and combat capability. 
For your continued support of this vital construction project, we thank 
you.
    B-2
    The B-2 continues to deter and assure. We saw a vivid demonstration 
of this on 28 March 13 when we flew two B-2s from Whiteman AFB, MO, on 
a 75 hour, 6,500 mile combined training mission to South Korea. This 
high-visibility B-2 mission sent a strong and timely message of 
assurance to our South Korean, Japanese and Australian allies.
    We emphasized 2013 as the ``Year of the B-2'' by celebrating the 
20th anniversary of the first delivery of the B-2 Spirit bomber to 
Whiteman AFB, MO. For 20 years, the B-2 has defended America as a 
visible strategic deterrent. In each of our Nation's last four armed 
conflicts, the B-2 has led the way in combat. This is a direct result 
of the outstanding airmen who keep the aircraft flying. The B-2 with 
its long-range and stealth capability is able to penetrate heavily 
defended enemy defenses and deliver a wide variety of nuclear and 
conventional weapons in the Air Force inventory.
    We will preserve and improve the B-2's capability to penetrate 
hostile airspace and hold any target at risk without subjecting the 
crew and aircraft to undetected threats. To do this, we secured JROC 
validation of the Defensive Management System-Modernization (DMS-M) 
Capabilities Development Document, allowing the program to enter into 
the engineering and manufacturing design phase of the acquisition 
process. This upgrade provides the B-2 aircrew with improved threat 
situational awareness and increased survivability by replacing the 
current DMS Threat Emitter Locator System and display system with 
modernized and sustainable systems capable of addressing modern 
threats. In sum, this program will keep the B-2 viable in future anti-
access environments.
    AFGSC continues to evolve B-2 conventional combat capability by 
fielding vital programs such as the Massive Ordnance Penetrator (MOP). 
Our Nation's ability to hold hardened, deeply buried targets at risk 
was bolstered by successful fielding of the 30,000-pound MOP. 
Additionally, MOP dolly and rail system prototype functional testing 
was successful. The dolly and rail system will increase storage 
capacity and create more efficient handling of the MOP. We would like 
to thank Congress for your support on this critical program.
    We continue striving to maintain the proper balance of fleet 
sustainment efforts, testing, aircrew training, and combat readiness. 
The dynamics of a small fleet continue to challenge our sustainment 
efforts primarily due to vanishing vendors and diminishing sources of 
supply. Air Force Materiel Command (AFMC) is working to ensure timely 
parts availability; however, many manufactures do not see a strong 
business case in supplying parts for a small aircraft fleet. Problems 
with a single part can have a significant readiness impact on a small 
fleet that lacks the flexibility of a large force to absorb parts 
shortages and logistics delays.
    Fleet-wide Bomber Initiatives
    CBP increases regional stability and supports allies in the United 
States Pacific Command area of responsibility. In 2014 we celebrate the 
10th consecutive year of conducting CBP operations. CBP is an enduring 
requirement and we have taken steps to reduce the cost of squadron 
rotations. Specifically, over the past year we worked closely with 
Pacific Air Forces to reduce the logistics footprint of these rotations 
by standardizing and positioning a permanent maintenance equipment 
package at Andersen Air Force Base.
    Additionally, we coordinated Jet A fuel conversion from JP-8 at all 
AFGSC bases to ensure this seamless fuel transition without any mission 
impacts. This effort aligns AFGSC with the USAF initiative to reduce 
aviation energy costs. AFGSC plans to completely transition to Jet A by 
mid-2014. Once complete, AFGSC projects $6 million in annual savings.
    Long-Range Strike Bomber (LRS-B)
    The combat edge our B-2 provides will be challenged by next 
generation air defenses and the proliferation of these advanced 
systems. The LRS-B program works to extend American air dominance 
against advanced air defense environments. We continue to work closely 
with Air Combat Command to develop the LRS-B and field a fleet of new 
dual-capable bombers. This new bomber, scheduled to become operational 
in the mid-2020s, will hold any target on the globe at risk. We request 
your support for this essential program to ensure we maintain the 
ability to penetrate the most advanced integrated air defense systems.
    Long-Range Stand-Off Missile (LRSO)
    The LRSO is the replacement for the aging ALCM. In a similar manner 
to LRS-B, the LRSO is necessary to ensure we maintain a credible 
deterrent in the future. We need LRSO to maintain the safety of our 
aircrew and protect our aircraft, while maintaining the ability to 
strike at targets from outside contested airspaces in anti-access and 
area denial environments. The LRSO will be compatible with the B-52, B-
2, and LRS-B platforms. The LRSO AoA is complete and JROC approved 
while the Draft Capabilities Development Document has completed 
staffing through the AFROC Process. In December 2013, the Office of the 
Secretary of Defense deferred program funding due to concerns over the 
National Nuclear Security Administration (NNSA) funding profile for the 
associated warhead as well as other nuclear enterprise priority bills 
such as the B61 Tail Kit Assembly. We are working closely with NNSA and 
AFMC to develop a new acquisition and funding strategy that will 
maintain LRSO's ability to replace ALCM in a timely manner. Recent 
Congressional NDAA language directed us to sustain the Conventional Air 
Launched Cruise Missile (CALCM) until we retire both the ALCM and CALCM 
concurrently. Sustaining the CALCM, slated for retirement in fiscal 
year 2015, would drive a significant bill. Currently, the USAF plans to 
replace CALCM with the modern JASSM-ER until the future conventional 
version of LRSO is available.
    B61
    The B61-12 LEP will result in a smaller stockpile, less special 
nuclear material in the inventory, and B61 surety. AFGSC is the lead 
command for the B61-12 Tail Kit Assembly program, which is required to 
meet STRATCOM requirements with the B61-12. The B61-12 Tail Kit 
Assembly program is in the Engineering and Manufacturing Development 
Phase 1 and is synchronized with NNSA efforts. The design and 
production processes are on schedule and within budget to meet the 
planned fiscal year 2020 First Production Unit date for the B61-12 Tail 
Kit Assembly, and support the lead time required for the March 2020 
B61-12 all-up round. This joint AFGSC/NNSA endeavor allows for 
continued attainment of our strategic requirements and regional 
commitments.
                                security
    Nuclear surety and security are at the forefront of the Command's 
mission. We partnered with DOE, NNSA and the U.S. Navy (USN) using the 
Joint Integrated Lifecycle Surety methodology to assess the relative 
vulnerabilities of the nuclear enterprise. Additionally, our Command-
level Strategic Security Plan (SSP) integrates multiple security 
initiatives and projects across AFGSC, allowing me to make decisions 
that improve overall security performance.
    A major AFGSC initiative continues to be designing new Weapon 
Storage Facilities (WSF) to consolidate nuclear maintenance, 
inspection, and storage. We have put forward a $1.3 billion program to 
replace all deficient and worn buildings across our aging 1960s-era 
Weapon Storage Areas with single modern and secure facilities at each 
location. This initiative eliminates security, design, and safety 
deficiencies and improves our maintenance processes. The project will 
undergo validation by external agencies to include the Defense Threat 
Reduction Agency, Air Force Nuclear Weapons Center, Air Force Safety 
Center, and Air Force Security Center. We are also seeking DOE and USN 
input to explore ways to standardize across all organizations. We will 
attain 35 percent design completion for the first facility at Francis 
E. Warren AFB, WY, by April 2014. Our goal is to include the military 
construction (MILCON) for this new weapon storage facility in fiscal 
year 2016, with the MILCON for the remaining facilities in future 
years. In sum, these facilities are needed to meet requirements for a 
safe, secure, and effective nuclear arsenal.
    We continue to work within the Air Force to complete the $337 
million LF secondary door modifications that provides rapid closure and 
security for all LFs. As of January 2014, 390 of 450 sites are 
complete. We would like to thank Congress for your support during the 
life of this program.
              nuclear command, control, and communications
    Assured communications connectivity continues to be the linchpin to 
credible, secure strategic deterrence. The ability to receive 
presidential orders and convert those orders into action for the 
required weapon system is critical to performing the nuclear mission. 
As the Nuclear Command, Control, and Communications (NC3) Chief 
Architect, AFGSC plays a pivotal role in providing reliable and 
survivable NC3 systems to support national objectives. In addition to 
the ICBM sustainment and modernization actions previously discussed, we 
are addressing water intrusion issues at LCCs across the missile fields 
of Minot AFB, ND, and Malmstrom AFB, MT, averting communication 
failures, and ensuring uninterrupted ability to transmit and receive 
command and control message traffic. Additionally, cryptographic 
modernization upgrades allowed Air Force nuclear operations to 
transition to more secure equipment and satellite communications 
networks. These transitioned networks greatly improved security of 
sensitive nuclear command and control message traffic. We are also 
working multiple modernization efforts to replace legacy equipment on 
the Strategic Automated Command and Control System (SACCS). Finally, we 
are partnered with Air Combat Command and STRATCOM in relocating the 
SACCS Operations Center in preparation for the demolition of the 
current STRATCOM headquarters building.
Global Aircrew Strategic Network Terminal
    The Global Aircrew Strategic Network Terminal (ASNT) program will 
provide a fixed and transportable system of survivable NC3 Command 
Posts. These Command Posts support nuclear-tasked bomber, tanker, 
National Airborne Operations Center, Take Charge and Move Out aircraft, 
reconnaissance forces, and nuclear reconstitution teams. Global ASNT is 
one part of the ground element of the larger Minimum Essential 
Emergency Communications Network. Global ASNT replaces degraded legacy 
NC3 systems in AFGSC, Air Combat Command, Air Mobility Command, U.S. 
Air Forces Europe, Air National Guard, and Air Force Reserve Command 
providing redundant strategic communications paths in executing 
STRATCOM war plans.
              new strategic arms reduction treaty progress
    The Russian Federation was notified in February 2014 that the last 
of 50 Peacekeeper LFs near Francis E. Warren AFB, WY (formerly the 
400th Missile Squadron) have been removed from New Strategic Arms 
Reduction Treaty (NST) accountability. The process involves removing 
and burying the 110-ton launcher closure door and filling the launch 
tube and associated underground structures with gravel. Following the 
completion of elimination actions for the remaining 50 non-operational 
LFs at Malmstrom AFB, MT (formerly the 564th Missile Squadron) and 3 
test LFs at Vandenberg AFB, CA, the demolition contractor will return 
to the sites and accomplish remediation actions necessary to prep the 
sites for disposition. The original landowners will have the first 
option to purchase the sites. The completion of these actions marks a 
key milestone in U.S. efforts to reduce the number of non-deployed 
launchers accountable under NST. The LF elimination in Montana began in 
February 2014. 40 of the 50 LFs are on contract using fiscal year 2013 
funding with completion expected in July 2014.
              nuclear deterrence operations core function
    We continue to improve and strengthen the nuclear enterprise 
through our long-range planning efforts. To this end, we conducted an 
AFGSC-wide review to ensure a coherent 20-year comprehensive investment 
strategy for the Air Force Nuclear Deterrence Operations (NDO) Core 
Function. This plan will bolster our ability to provide the President 
and combatant commanders vital warfighting capabilities by prioritizing 
modernization, sustainment, and acquisition efforts for our bomber, 
ICBM, and helicopter weapon systems and the nuclear command, control, 
and communications systems that underpin these systems.
    One of the methods we use to inform our NDO long-range planning and 
investment strategy efforts is wargaming. Our first wargame, Strategic 
Vigilance, was conducted in December 2013 as an analytic tool to 
explore new concepts and capabilities, study and refine emerging 
operational concepts, prevent technological, strategic and operational 
surprise, and evaluate the Air Force Strategic Plan & Vision. Moreover, 
Strategic Vigilance explored the ability to conduct combat operations 
across the spectrum of conflict. The results from this and future 
wargames will provide us insight into the employment of global strike 
assets that will allow us to better organize, train and equip AFGSC for 
years ahead.
                   2014 focus areas (our priorities)
    Deter and Assure with a Safe, Secure and Effective Nuclear Force. 
Nuclear weapons demand a culture where safety, security and 
effectiveness permeate all aspects of this critical national mission to 
include our people who embody this special trust and responsibility 
through all aspects of their life. The greatest Air Force in the world 
will only remain dominant through their professionalism, dedication, 
and commitment to service--and living our Air Force core values. 
Although we will continue to be challenged with sustaining aging weapon 
systems, we will leverage the innovation of our great airmen to get the 
most out of our resources.
    Win the Fight. Whether that fight is in overseas contingencies 
where we have nearly 1,000 airmen deployed, or with our over 1,100 
nuclear deterrent forces deployed to the missile fields conducting the 
mission today and every day, we will forge ahead to keep both our 
nuclear and conventional forces combat ready.
    Strengthen and Empower the Team. We will continue to improve the 
quality of life for our airmen and their families, aware of the unique 
demands of our mission and our locations. We will continue to foster 
resiliency and strength within a wingman culture, and we will 
aggressively continue focused education and development at all levels. 
Furthermore, we will continue to strengthen, broaden, and deepen our 
culture around our command values of:

          Individual responsibility for mission success
          Critical self-assessment of our performance
          Uncompromising adherence to all directives
          Superior technical and weapon system expertise
          Persistent innovation at all levels
          Pride in our nuclear heritage and our mission
          Respect for the worth and dignity of every airman
          Safety in all things large . . . and small

    Shape the Future. We will stay focused on our human development and 
our weapon system modernization initiatives. Our responsive and 
resilient MM III, providing the foundation for strategic stability, 
must be sustained to 2030 and we will advocate for a follow-on system 
based on our Ground-Based Strategic Deterrent work. The B-52 will 
remain the stand-off platform of choice well past 2040, and will prove 
a versatile platform with unmatched battlefield persistence in lower 
threat environments. The B-2 will be our strategic penetrating platform 
denying safe haven to any adversary. The Long Range Strike Bomber will 
ensure we can continue to hold any target on the globe at risk. As our 
Air Launched Cruise Missile becomes obsolete and unsupportable, we will 
field a credible and flexible deterrent with the stealthy Long-Range 
Stand-Off missile.
    Uphold the Standard. We understand the importance of ensuring 
compliance at all levels, and we uphold our standards through 
inspections. We recently implemented the new Air Force Inspection 
System. The foundation of this new system, the Commander's Inspection 
Program (CCIP), is being executed by our wing Inspectors General (IG) 
for organizations below the wing level. The CCIP is monitored virtually 
by our command IG and validated by a Unit Effectiveness Inspection 
(UEI) Capstone event every 2 years. The first formal UEI Capstone event 
is scheduled for the second Bomb Wing in April 2014. Additionally, we 
conducted Initial Nuclear Surety Inspections at the 307th Bomb Wing in 
March 2013 and 131st Bomb Wing from July through August 2013, resulting 
in the first Air Reserve component and Air National Guard units 
certified to employ nuclear munitions. Going forward, we will continue 
to utilize our rigorous inspection process to ensure the highest of 
standards and determine areas of the mission that require improvement. 
All three ICBM wings will undergo NSIs in 2014--the 91st Missile Wing 
just passed this inspection in January 2014.
                               conclusion
    Thank you for your continued support of Air Force Global Strike 
Command and the nuclear deterrent and global strike missions. Our 
enduring challenges in AFGSC are: First, to instill a culture where 
every airman understands the special trust and responsibility of 
nuclear weapons; second, to maintain excellence in our conventional 
forces; third, to sustain the current force while modernizing for the 
future; fourth, to solidify and sustain a culture where our airmen are 
proud to serve in and embrace the great importance of the deterrent 
mission.
    Fiscal constraints, while posing planning challenges, do not alter 
the national security landscape or the intent of competitors and 
adversaries, nor do they diminish the enduring value of long range, 
strategic forces to our Nation. Although we account for less than 1 
percent of the DOD budget, AFGSC nuclear forces represent two-thirds of 
the Nation's nuclear Triad, providing the ultimate guarantee of 
national sovereignty, while AFGSC conventional forces provide joint 
commanders rapid global combat airpower.
    It is my absolute privilege to lead this elite team empowered with 
special trust and responsibility, and I can assure you that we at Air 
Force Global Strike Command will meet our challenges head-on in order 
to provide our Nation with ready forces for nuclear deterrence and 
global strike operations--safe, secure, and effective.

    Senator Udall. Thank you for that testimony.
    Admiral Benedict?

 STATEMENT OF VADM TERRY J. BENEDICT, USN, DIRECTOR, STRATEGIC 
                        SYSTEMS PROGRAMS

    Admiral Benedict. Chairman Udall, Ranking Member Sessions, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify here today. I represent the men and the 
women of our Navy's Strategic Systems Programs (SSP). Your 
continued support of our deterrence mission is greatly 
appreciated. Thank you.
    The Navy provides the most survivable leg of the U.S. 
nuclear triad with the ballistic missile submarines and the 
missiles that they carry. My mission, as the Director of SSP, 
is to design, develop, produce, support, and ensure the safety 
and the security of the Navy's sea-based strategic deterrent 
capability, the Trident II (D5) strategic weapons system (SWS). 
My written statement, which I respectfully request be submitted 
for the record, addresses my top priorities.
    Senator Udall. Without objection.
    Admiral Benedict. Due to time constraints, I would briefly 
like to touch on three of these topics: nuclear weapons safety 
and security, SSP's Trident II (D5) life extension efforts, and 
solid rocket motors.
    First, my top priority is the safety and the security of 
the Navy's nuclear weapons. Custody and accountability of the 
nuclear assets entrusted to the Navy are the cornerstone of our 
program. Our approach to the nuclear weapons mission is to 
maintain a culture of excellence and self-assessment that 
produces the highest standards of performance and integrity. 
This culture is grounded in procedural compliance, level of 
knowledge, a questioning attitude, forceful backup, and 
formality. It is emphasized at all levels of the enterprise and 
forms a fundamental element of an integrated, layered approach 
to ensuring a safe, secure, and effective strategic deterrent.
    Second, the Navy is proactively taking steps to address 
aging and technology obsolescence. SSP is extending the life of 
the Trident II (D5) SWS to match the Ohio-class submarine's 
service life and to serve as the initial baseline mission 
payload for the Ohio-replacement submarine platform. This is 
being accomplished through a life extension program (LEP) to 
all Trident II (D5) SWS subsystems to include launcher, 
navigation, fire control, guidance, missile, and reentry.
    Finally, I remain concerned with the decline in demand for 
solid rocket motors. While the Navy is maintaining a continuous 
production of solid rocket motors, the demand from both the 
National Aeronautics and Space Administration (NASA) and the 
Air Force has declined. Not only did this decline result in 
higher costs for the Navy as practically a sole customer, but 
it also put the entire specialized industry at risk for 
extinction. While the efforts of our industry partners and 
others have created short-term cost relief, the long-term 
support of the solid rocket motor industry remains an issue. I 
continue to work with our industry partners, DOD, senior NASA 
leadership, Air Force, and Congress to do everything we can to 
ensure this vital national industry asset is preserved.
    Our Nation's sea-based deterrence has been critical to our 
Nation's security since the 1950s and will continue to assure 
our allies and deter potential adversaries well into the 
future.
    Thank you for the opportunity to testify today, and at the 
appropriate time, I will take any questions, sir.
    [The prepared statement of Admiral Benedict follows:]
             Prepared Statement by VADM Terry Benedict, USN
                              introduction
    Chairman Udall, Ranking Member Sessions, distinguished members of 
the subcommittee, thank you for this opportunity to discuss Navy's 
strategic programs. It is an honor to testify before you this morning 
representing the Navy's Strategic Systems Programs (SSP).
    SSP's mission is to design, develop, produce, support, and ensure 
the safety of our Navy's sea-based strategic deterrent, the Trident II 
(D5) Strategic Weapons System (SWS). The men and women of SSP and our 
industry partners remain dedicated to supporting the mission of our 
sailors on strategic deterrent patrol and our marines, sailors, and 
coastguardsmen who are standing the watch, ensuring the security of the 
weapons we are entrusted with by this Nation.
    The Navy provides the most survivable leg of the U.S. nuclear triad 
with our ballistic missile submarines (SSBNs) and the Trident II (D5) 
SWS. A number of factors have contributed to an increased reliance on 
the sea-based leg of the triad. The 2010 Nuclear Posture Review 
reinforced the importance of the SSBNs and the Submarine Launched 
Ballistic Missiles (SLBMs) they carry. SLBMs will comprise a 
significant majority of the Nation's operationally deployed nuclear 
warheads, thus increasing the Nation's reliance on the sea-based leg. 
The Chief of Naval Operations has stated the Ohio Replacement Program--
along with the propulsion and the SWS--remains one of Navy's highest 
priorities.
    Ensuring the sustainment of the sea-based strategic deterrent 
capability is a vital national requirement today and into the 
foreseeable future. Our budget request provides the required funding to 
support the program of record in fiscal year 2015 for the Trident II 
(D5) SWS. To sustain this capability, I am focusing on my five 
priorities: Nuclear Weapons Safety and Security; the Trident II (D5) 
SWS Life Extension Program; the Ohio Replacement Program; the Solid 
Rocket Motor (SRM) Industrial Base; and Collaboration with the Air 
Force.
                  nuclear weapons safety and security
    The first priority, and the most important, is the safety and 
security of the Navy's nuclear weapons. Navy leadership has clearly 
delegated and defined SSP's role as the program manager and technical 
authority for the Navy's nuclear weapons and nuclear weapons security.
    At its most basic level, this priority is the physical security of 
one of our Nation's most valuable assets. Our Marines and Navy Masters 
at Arms provide an effective and integrated elite security force at our 
two Strategic Weapons Facilities and Waterfront Restricted Areas in 
Kings Bay, GA and Bangor, WA. U.S. Coast Guard Maritime Force 
Protection Units have been commissioned at both facilities to protect 
our SSBNs as they transit to and from their dive points. These 
coastguardsmen and the vessels they man provide a security umbrella for 
our Ohio-class submarines. Together, the Navy, Marine Corps, and Coast 
Guard team form the foundation of our Nuclear Weapons Security Program. 
My headquarters staff ensures that our nuclear weapons capable 
activities meet or exceed security, safety, and compliance criteria.
    SSP' s efforts to sustain the safety and improve the security of 
these national assets continue at all levels of the organization. The 
Navy's nuclear weapons enterprise maintains a culture of self-
assessment in order to sustain safety and security. This is 
accomplished through biannual assessments by the SSP headquarters 
staff, periodic technical evaluations, formal inspections, and 
continuous on-site monitoring and reporting at the Strategic Weapons 
Facilities. The technical evaluations, formal inspections, and on-site 
monitoring at the Strategic Weapons Facilities provide periodic and 
day-to-day assessment and oversight. The biannual SSP assessments 
conducted by my staff evaluate the ability of the local organizations 
to self-assess their execution of the assigned strategic weapons 
mission and compliance with requirements. The results of these biannual 
assessments are critically and independently reviewed through the Navy 
Nuclear Weapons Assessment and provided to the Secretary of the Navy 
and the Chief of Naval Operations for review. The most recent biannual 
SSP assessment was signed in January 2014 and will inform the Navy's 
Nuclear Weapons Assessment due later this month.
    We also strive to maintain a culture of excellence to achieve the 
highest standards of performance and integrity for personnel supporting 
the strategic deterrent mission. We continue to focus on the custody 
and accountability of the nuclear assets that have been entrusted to 
the Navy. SSP's number one priority is to maintain a safe, secure, and 
effective strategic deterrent.
                       d5 life extension program
    The next priority is SSP's life extension effort to ensure the 
Trident II (D5) SWS remains an effective and reliable sea-based 
deterrent. The Trident II (D5) SWS continues to demonstrate itself as a 
credible deterrent and exceeds the operational requirements established 
for the system almost 30 years ago. The submarine leg of the U.S. 
strategic deterrent is ready, credible, and effective, thereby assuring 
our allies and partners and deterring potential adversaries. However, 
we must watch for and resolve potential age-related issues to ensure a 
continued high level of reliability.
    The Trident II (D5) SWS has been deployed on our Ohio-class 
ballistic missile submarines for nearly 25 years and is planned for a 
service life of 50 years. This is well beyond its original design life 
of 25 years and more than double the historical service life of any 
previous sea-based strategic deterrent system. As a result, effort will 
be required to sustain a credible SWS.
    The Navy is proactively taking steps to address aging and 
technology obsolescence in today's sea-based deterrent or SWS. SSP is 
extending the life of the Trident II (D5) SWS to match the Ohio-class 
submarine service life and to serve as the initial baseline mission 
payload for the Ohio Replacement submarine platform entering 
operational service in the 2030s. This is being accomplished through an 
update to all the Trident II (D5) SWS subsystems: launcher, navigation, 
fire control, guidance, missile, and reentry. Our flight hardware--
missile and guidance--life extension efforts are designed to meet the 
same form, fit, and function of the original system to keep the 
deployed system as one homogeneous population, control costs, and 
sustain the demonstrated performance of the system. We will also remain 
in continuous production of energetic components such as solid rocket 
motors. These efforts will provide the Navy with the missiles and 
guidance systems we need to meet operational requirements through the 
introduction of the Ohio Replacement SSBNs.
    While budgetary pressures and impacts of sequestration have 
resulted in some deferred or delayed efforts, strategic deterrence 
remains one of the Navy's highest priorities. As such, the Navy is 
committed to minimizing, to the maximum extent possible, financial 
impacts to this program in order to meet strategic requirements.
    One impacted effort is the change to our flight test program. In 
accordance with U.S. Strategic Command (STRATCOM) requirements, the 
Navy must flight test a minimum of four Trident II (D5) missiles per 
year in a tactically-representative environment. The purpose of flight 
testing is to detect any changes in reliability or accuracy. The fiscal 
year 2015 budget request reflects a reduction of two planned flight 
tests for affordability. The Navy has coordinated with STRATCOM to 
determine that this temporary reduction is manageable in the short-
term, contingent upon our plan to ramp back up to four flight tests per 
year by fiscal year 2017. A prolonged or further reduction in planned 
flight tests would impact our ability to detect changes in system 
reliability and accuracy with the required degree of statistical 
confidence to meet STRATCOM requirements. I am strongly committed to 
ensure our flight testing returns to four flight tests per year in 
fiscal year 2017.
    Despite budgetary pressures, the Navy's D5 life extension program 
is on track. In 2013, the Navy conducted the second flight test of the 
D5 life-extended (LE) guidance system and the first flight test of the 
D5 LE command sequencer. The D5 LE command sequencer began its initial 
fleet introduction earlier this year. The life extension efforts for 
the remaining electronics packages are on budget and on schedule. The 
life-extended missiles will be available for initial fleet introduction 
in fiscal year 2017.
    Another major step to ensure the continued sustainment of our SWS 
is the SSP Shipboard Systems Integration efforts, which utilize open 
architecture and commercial off-the-shelf hardware and software for 
shipboard systems. This update will be installed on the final U.S. SSBN 
in April of this year completing installation on all fourteen U.S. 
SSBNs, all four U.K. SSBNs, and all U.S. and U.K. land-based 
facilities. This effort is a technical refresh of shipboard electronics 
hardware and software upgrades, which will extend the service life of 
the SWS, enable more efficient and affordable future maintenance of the 
SWS and ensure we continue to provide the highest nuclear weapons 
safety and security for our SSBNs.
    To sustain the Trident II (D5) SWS, SSP is extending the life of 
the W76 reentry system through a refurbishment program known as the 
W76-1. This program is being executed in partnership with the 
Department of Energy, National Nuclear Security Administration. The 
W76-l refurbishment maintains the military capability of the original 
W76 for an additional 30 years.
    The Navy is also in the initial stages of refurbishing the W88 
reentry system. The Navy is collaborating with the Air Force to reduce 
costs through shared technology. In particular, the Air Force and Navy, 
consistent with Nuclear Weapons Council direction, are conducting 
studies examining the feasibility of a joint approach for fuzes for the 
Navy's Mk5/W88, the Air Force's Mk21/W87 and the future W78 and W88 
Life Extension Programs. We believe the joint replacement fuze program 
is feasible and has the potential of several major benefits for the 
Nation, including the potential to achieve significant cost savings.
                        ohio replacement program
    One of the Navy's highest priority acquisition programs is the Ohio 
Replacement Program, which replaces the existing Ohio-class submarines. 
The continued assurance of our sea-based strategic deterrent requires a 
credible SWS, as well as the development of the next class of ballistic 
missile submarines. The Navy is taking the necessary steps to ensure 
the Ohio Replacement SSBN is designed, built, delivered, and tested on 
time with the right capabilities at an affordable cost.
    To lower development costs and leverage the proven reliability of 
the Trident II (D5) SWS, the Ohio Replacement SSBN will enter service 
with the Trident II (D5) SWS and D5 life-extended missiles onboard. 
These D5 life extended missiles will be shared with the existing Ohio-
class submarine until the current Ohio-class retires. Maintaining one 
SWS during the transition to the Ohio-Class Replacement is beneficial 
from a cost, performance, and risk reduction standpoint. A program to 
support long-term SWS requirements will have to be developed in the 
future to support the Ohio-Class Replacement SSBN through its entire 
service life, currently projected into the 2080s.
    The Navy continues to leverage from the Virginia-class attack 
submarine program to implement lessons-learned and ensure the Ohio 
Replacement Program pursues affordability initiatives across design, 
construction, and life cycle operations and support. Maintaining this 
capability is critical to the continued success of our sea-based 
strategic deterrent.
    A critical component of the Ohio Replacement Program is the 
development of a common missile compartment that will support Trident 
II (D5) deployment on both the Ohio-Class Replacement and the successor 
to the U.K. Vanguard-class. While lead U.S. ship construction has 
shifted from 2019 to 2021 as a result of the Budget Control Act of 
2011, the Navy is maintaining the original program of record for the 
design, prototyping, and testing of the common missile compartment and 
SWS deliverables in order to meet our commitments to the United 
Kingdom. Any further delay to the common missile compa11ment will 
impact the United Kingdom's ability to maintain a continuous at sea 
deterrent posture.
    The United States and the United Kingdom have maintained a shared 
commitment to nuclear deterrence through the Polaris Sales Agreement 
since April 1963. As the Director of SSP, I am the U.S. Project Officer 
for the Polaris Sales Agreement. Our programs are tightly coupled both 
programmatically and technically to ensure we are providing the most 
cost effective, technically capable nuclear strategic deterrent for 
both nations. Last year, marked the 50th anniversary of this agreement, 
and I am pleased to report that our longstanding partnership with the 
United Kingdom remains strong. The United States will continue to 
maintain its strong strategic relationship with the United Kingdom as 
we execute our Trident II (D5) Life Extension Program and develop the 
common missile compartment. Our continued stewardship of the Trident II 
(D5) SWS is necessary to ensure a credible and reliable SWS is deployed 
today on our Ohio-class submarines, the U.K. Vanguard-class, as well as 
in the future on our respective follow-on platforms. This is of 
particular importance as the sea-based leg of the Triad provides our 
assured second-strike capability thereby enhancing strategic stability. 
The Ohio Replacement will be a strategic, national asset whose 
endurance and stealth will enable the Navy to provide a continuous, 
uninterrupted strategic deterrent.
                   solid rocket motor industrial base
    The fourth priority is the importance of the defense and aerospace 
industrial base, in particular, the solid rocket motor industry. I 
remained concerned with the decline in demand for the solid rocket 
motor. While the Navy is maintaining a continuous production capability 
at a minimum sustaining rate of 12 rocket motor sets per year, the 
demand from both the National Aeronautics and Space Administration 
(NASA) and Air Force has declined. Not only did this decline result in 
higher costs for the Navy, as practically a sole customer, but it also 
put an entire specialized industry at risk for extinction--or at least 
putting it on the ``endangered species list.'' That is not something we 
should risk. The Navy cannot afford to solely carry this cost, nor can 
this nation afford to lose this capability over the long-term. While 
the efforts of our industry partners and others have created short-term 
cost relief, the long-term support of the solid rocket motor industry 
remains an issue that must be addressed at the national level. At SSP, 
we will continue to work with our industry partners, DOD, senior NASA 
leadership, Air Force, and Congress to do everything we can to ensure 
this vital national industry asset is preserved.
                    collaboration with the air force
    The final topic is strategic collaboration between the Services. 
The Navy and the Air Force are both addressing the challenges of 
sustaining aging strategic weapon systems and have begun to work 
collaboratively to ensure these capabilities are retained in the long-
term to meet our requirements. To do so, we are seeking opportunities 
to leverage technologies and make the best use of scarce resources.
    As I testified last year, the Navy and the Air Force established an 
Executive Steering Group to identify and investigate potential 
collaboration opportunities and oversee collaborative investments for 
sustainment of our strategic systems. As a part of this effort, 
technology area working groups are studying collaboration opportunities 
in the areas of Reentry, Guidance, Propulsion, Launcher, Radiation 
Hardened Electronics, Ground Test and Flight Test systems, and Nuclear 
Weapons Surety.
    Navy is also supporting an examination of the advantages of 
collaboration and commonality within the Air Force's Ground Based 
Strategic Deterrent Analysis of Alternatives. Members of my staff are 
participating with their Air Force counterparts to analyze the 
potential for commonality presented by each of the alternatives being 
examined. Additionally, an evaluation of the benefits, along with any 
potential risks, is being conducted as part of the overall effort.
    The entire spectrum of potential commonality must be analyzed with 
the goal of using commonality where appropriate while ensuring 
essential diversity where needed, and being good stewards of taxpayer 
funds. The timing is now to address collaboration opportunities to 
maintain our ballistic missile capability in the long-term.
    Many of the industries and required engineering skills sets are 
unique to strategic systems. Key to SSP's historical success has been 
our technical applications programs, which have provided a research and 
development foundation. As we evaluate maintaining this strategic 
capability to match the full service life of Ohio Replacement 
submarine, we will need to resume these critical efforts. Navy is 
developing a plan to reinvest in these technical applications programs.
                               conclusion
    SSP continues to maintain a safe, secure, and effective strategic 
deterrent and focus on the custody and accountability of the nuclear 
assets entrusted to the Navy. Our budget request provides the necessary 
funds to sustain this capability in fiscal year 2015. However, we must 
continue to be vigilant about unforeseen age-related issues to ensure 
the high reliability required of our SWS. SSP must maintain the 
engineering support and critical skills of our industry and government 
team to address any future challenges with the current system as well 
as prepare for the future of the program. Our nation's sea-based 
deterrent has been a critical component of our national security since 
the 1950s and will continue to assure our allies and deter potential 
adversaries well into the future. I am privileged to represent this 
unique organization as we work to serve the best interests of our great 
Nation.

    Senator Udall. Thank you, Admiral Benedict.
    General Harencak?

        STATEMENT OF MAJ. GEN. GARRETT HARENCAK, USAF, 
  ASSISTANT CHIEF OF STAFF, STRATEGIC DETERRENCE AND NUCLEAR 
                          INTEGRATION

    General Harencak. Chairman Udall, Ranking Member Sessions, 
members of the subcommittee, thank you for your continued 
support of our triad and our nuclear Air Force. As the 
headquarters Air Force A-10, I advocate and integrate for our 
Air Force nuclear forces. I appreciate the opportunity to 
update the subcommittee on all of our efforts here today.
    I look forward to your questions. I respectfully request my 
written statement be entered into the record.
    [The prepared statement of General Harencak follows:]
         Prepared Statement by Maj. Gen. Garrett Harencak, USAF
    Chairman Udall, Ranking Member Sessions, distinguished members of 
the subcommittee, thank you for the opportunity to discuss Air Force 
nuclear programs.
    As the Assistant Chief of Staff for Strategic Deterrence and 
Nuclear Integration, my team, on behalf of the Chief of Staff of the 
Air Force, leads planning, policy development, advocacy, integration, 
and assessment for the airmen and weapon systems performing Nuclear 
Deterrence Operations, a core function of our U.S. Air Force. 
Stewardship and continuous improvement of this mission remains a top 
Air Force priority, in support of the President's mandate that the 
United States maintain a safe, secure, and effective nuclear deterrent.
    The stability that a safe, secure, and effective nuclear deterrent 
provides in today's increasingly complex, multi-polar, proliferated 
environment is essential to U.S. national security. In order to 
maintain this vital capability for our Nation and our allies who rely 
on it, the Air Force remains fully committed to making the necessary 
long-term investments in the development of our personnel and in the 
sustainment, modernization, and recapitalization of our nuclear forces 
and supporting infrastructure
                  deliberate development of our airmen
    The exacting nature of Nuclear Deterrence Operations requires a 
cadre of experienced, motivated professionals committed to the highest 
levels of performance and accountability. For that reason, the airmen 
we entrust with the special responsibility of supporting and conducting 
the nuclear mission are the single most important element of the 
enterprise and are foundational possess the necessary quality and depth 
of nuclear expertise is a multi-dimensional effort that incorporates 
force development, personnel management, education, and training 
processes. In our ongoing effort to strengthen the nuclear mission, we 
have worked hard in recent years to institutionalize a more deliberate 
and holistic approach to human capital management.
    In support of that effort, the Air Force instituted a Nuclear 
Enterprise Human Capital Strategy to strengthen manning and management 
of nuclear career fields. We recently formalized our processes and 
policies for identifying, designating, and tracking Key Nuclear Billets 
(KNB), select positions of responsibility within the nuclear enterprise 
that are vital to its health and sustainment. KNBs require defined 
levels of nuclear experience based on each specific position and are 
given the highest assignment priority. The program allows us to more 
effectively manage the assignment of qualified personnel to critical 
nuclear positions, and we rely on a periodic revalidation process to 
ensure KNBs are aligned to meet the constantly changing needs of the 
enterprise.
    We are leveraging the best practices learned from the KNB process 
to address specific areas of need, for example, in the identification 
of personnel supporting the nuclear command, control, and 
communications (NC3) mission. This process allows us to better assess 
and address experience gaps in order to ensure a continuous pipeline of 
NC3 personnel with the right combination of training and expertise will 
be available in the years to come. Through a separate effort, we are in 
the early stages of establishing best practices for developing our 
civilian nuclear workforce, a critical facet of the enterprise on which 
we depend to provide continuity and highly specialized technical 
expertise. We are also revising the methods we use to select senior 
nuclear commanders to include a more robust screening and interview 
processes. Our efforts to instill are also progressing.
    In order to more deliberately structure the career progression of 
our of Intercontinental Ballistic Missile (ICBM) officers, we stood up 
an ICBM-experienced career management team focused solely on the 
development of missileers. Beginning last February with the creation of 
a separate career field for ICBM operations (13N), a development team 
of senior nuclear leaders was established that now convenes regularly 
to manage the career field. This effort has led to increased 
competitive selection among missileers for developmental education 
opportunities, codification of the process used for managing the 
transition of officers from the ICBM force into other career fields, 
and the creation of a career pyramid aimed at producing seasoned 
leaders within the ICBM community.
    Lastly, another important area of sustained effort is the 
streamlining of the Air Force's Personnel Reliability Program (PRP), a 
tool we use to ensure airmen with nuclear weapons-related duties meet 
the highest standards of individual reliability and trustworthiness. 
Our work to strengthen and restore this program's focus on its intended 
purpose is yielding results. We are in the process of finalizing new 
policies governing PRP that will standardize its implementation across 
the Air Force and reemphasize its role as a commander's program.
           fostering continuous improvement in our operations
    Excellence in nuclear operations is underpinned by a culture of 
compliance and accountability, adherence to high standards, and 
critical self-assessment. Upholding these values requires effective 
processes and structures to identify and correct systemic weaknesses 
across all realigned the Air Force's focus on the nuclear mission, we 
have applied persistent effort to institutionalizing a comprehensive 
system of problem identification and solving based on self-assessment, 
trend/root cause analysis, and communication that complements external 
inspection processes.
    In support of that ongoing effort, we significantly strengthened 
the nuclear inspection process by revising the inspection guidance, 
establishing independent oversight, standardizing inspector training, 
and issuing guidance for root cause analysis. Our work to enhance trend 
analysis and resolution from nuclear surety inspections continues, one 
of five focus areas identified in 2010 as part of the Air Force's 
nuclear enterprise update to the Secretary of Defense. Additionally, we 
have carried forward our use of the Air Force Comprehensive Assessment 
of Nuclear Sustainment process to critically examine the sustainment 
activities needed to keep our aging weapon systems safe, secure, and 
effective.
    We continue to apply sustained, senior-leader oversight and 
governance to the nuclear enterprise through the Nuclear Oversight 
Board, chaired by the Secretary and Chief of Staff of the Air Force, 
and the three-star level Nuclear Issues Resolution and Integration 
board. These structures provide a forum for resolution of issues 
affecting the enterprise, coordination of strategic guidance, and 
alignment of institutional priorities. As the Secretary of the Air 
Force recently emphasized, we will continue to examine policies, 
practices, and culture throughout the enterprise to uncover, and, when 
necessary, confront systemic institutional deficiencies that may be 
hindering innovation and improvement.
    Despite the challenge of prioritizing investments within 
increasingly stringent fiscal constraints, the Air Force's fiscal year 
2015 budget request for nuclear deterrence operations reflects a 
careful balance of investment between near-term readiness and long-term 
recapitalization requirements. The Air Force made a number of difficult 
cost and schedule adjustments to our programs in order to maintain 
affordability without incurring undue risk. Considerable work lies 
ahead as we endeavor to revitalize our delivery platforms, weapons 
systems, and NC3 systems. Accordingly, the Air Force appreciates 
Congress's continued recognition of the importance of nuclear 
deterrence to our national security, as well as your support for our 
major modernization and recapitalization plans.
    The fiscal year 2015 budget request continues robust investment in 
the development of the dual-capable Long Range Strike-Bomber (LRS-B), 
one of the Air Force's top acquisition priorities. LRS-B's extended-
range, significant payload, and ability to penetrate and survive in 
non-permissive airspace will provide unmatched operational flexibility 
to Joint commanders upon delivery in the mid-2020s.
    The Long-Range Standoff (LRSO) missile, the follow-on to the aging 
AGM-86B Air Launched Cruise Missile (ALCM) first fielded in 1982, will 
serve as the next-generation nuclear-capable standoff weapon compatible 
with the B-52, B-2, and LRS-B. Although the fiscal year 2015 budget 
request delays the LRSO program for 3 years, the Air Force continues 
risk reduction and early systems engineering work, as well as 
coordination with the National Nuclear Security Administration (NNSA) 
to ensure the production schedule for a life-extended LRSO warhead is 
synchronized with operational requirements. To make sure deterrence 
requirements continue to extension program for the ALCM that will 
sustain this weapon system through 2030.
    For our current generation of nuclear-capable bombers, the B-2 and 
B-52, the fiscal year 2015 budget request funds a range of 
modernization and sustainment initiatives that will extend the combat 
effectiveness of these long-range strike platforms through the 2020s 
and beyond. In particular, the budget request fully funds the 
installation across the entire B-52 fleet of the Combat Network 
Communication Technology (CONECT) system, a suite of technologies that 
equips the B-52 with 2lst century communications, retargeting, and 
situational awareness capabilities. Other enhancements include smart-
weapon carriage capability in the internal weapons bay, anti-skid brake 
upgrades, and modem transponders that will ensure the B-52 is compliant 
with impending U.S. and international requirements. Key upgrades for 
the B-2 funded in the fiscal year 2015 budget request include the 
Defensive Management System Modernization, the Common Very Low 
Frequency/Low Frequency Receiver, and Flexible Strike, a capability 
that will allow for the eventual integration of advanced digital 
weapons such as the B61-12 and the LRSO. Together, these programs will 
ensure the B-2 retains its unique and highly valued ability to hold the 
global target set at risk.
    The fiscal year 2015 budget request also supports significant 
modernization of the Air Force's ICBM force, comprised of 450 Minuteman 
III missiles geographically dispersed in hardened underground silos. 
America's venerable ICBM force, on continuous alert since 1959 when the 
Atlas ICBM went operational, provides unsurpassed stability and 
responsiveness at a cost far lower than other strategic systems. 
Several key modernization programs are continued in the fiscal year 
2015 budget request that will sustain Minuteman III and its associated 
support and test equipment through 2030. These include upgrades to 
solid our Launch Control Centers, and a joint warhead fuze program that 
is leveraging commonality between Air Force and Navy systems to deliver 
a cost-effective material solution.
    In July, we anticipate completion of the Analysis of Alternatives 
(AoA) for the Ground-Based Strategic Deterrent (GBSD) effort, an ICBM 
solution that will extend the Nation's land-based strategic deterrent 
beyond 2030. Final validation of the AoA is expected this October. The 
fiscal year 2015 budget supports a Milestone A decision for GBSD in 
fiscal year 2015.
    Also funded in the fiscal year 2015 budget request are risk 
reduction activities associated with Dual Capable Aircraft (DCA) 
integration for the F-35 Joint Strike Fighter (JSF). Current plans have 
JSF DCA capability being fielded in Block 4B in 2024. This initiative, 
along with the related B61-12 Life Extension Program (LEP) and its 
associated Tailkit Assembly, are of high interest to our North Atlantic 
Treaty Organization allies who view the United States' continued 
support of extended deterrence capabilities as a visible and important 
commitment to the alliance.
                 nuclear weapon modernization programs
    Another area of sustained focus is our partnership with the 
Department of Energy (DOE) to extend the service life of the warheads 
and gravity weapons that form the basis of the ground and air legs of 
the Triad. While the top priority is to prolong the lifespan of these 
systems, these LEPs represent an important opportunity to incorporate 
modem safety, security, and use-control features in systems that were 
first operationally deployed in the 1960s, 1970s, and 1980s. Among 
these programs, the life extension of the B61--which will eventually be 
the only gravity weapon employed by our long-range bombers and dual-
capable aircraft to support extended deterrence request continues the 
Air Force's support of the B61-12 LEP. However, as a result of 
sequestration impacts, the fiscal year 2015 budget reflects a 1-year 
slip of the B61-12 LEP first production unit (FPU) from fiscal year 
2019 to fiscal year 2020. Both the LEP and its associated Tailkit 
Assembly successfully completed all scheduled objectives and milestones 
for calendar year 2013 and are on-track for calendar year 2014.
    Our work to life-extend the W78 warhead used on the Minuteman III 
ICBM continues. Last fall, the Nuclear Weapons Council (NWC) directed 
an adjustment of the W78/88-1 FPU from fiscal year 2025 to fiscal year 
2030, and in January, the Consolidated Appropriations Act funded the 
study of a W78 LEP. Lastly, my staff continues to collaborate closely 
with the NWC and our DOE mission partners in support of the selection 
of a life-extended warhead for the LRSO missile, the follow-on program 
to the AGM-86B ALCM. The Air Force was recently invited by NNSA to 
participate in the commencement of a Phase 6.1 study for the LRSO 
warhead, an effort that is expected to commence in July of this year.
              nuclear command, control, and communications
    Our Nation's nuclear command, control, and communications (NC3) 
enterprise forms the backbone of a system that provides a secure and 
survivable communications capability between the President, senior 
leaders, and our nuclear forces. Day-to-day, these aging ground, air, 
and space systems are relied upon to provide assured connectivity 
across the spectrum of conflict, from peacetime to the most challenging 
wartime conditions. Our work to integrate efforts across the NC3 
enterprise and to advocate for NC3 capabilities is producing steady 
progress. Internal have produced a strong collaborative framework for 
identifying requirements and synchronizing investment.
    During the most recent Program Budget Review, we made strides 
toward prioritizing future NC3 funding. The Air Force Nuclear Weapons 
Center is building a strategic roadmap for NC3 sustainment. Air Force 
Global Strike Command (AFGSC) is working to more fully incorporate NC3 
requirements into planning for nuclear deterrence operations. As part 
of that effort, AFGSC will host a first-ever user-level NC3 symposium 
in April. My staff is also partnering with AFGSC to identify, and if 
necessary, mitigate any NC3-related cyber vulnerabilities in the B-52 
fleet, building on the success of a similar initiative we conducted for 
the Minuteman III system.
    We are also working with Air Education and Training Command to 
better equip our NC3 warriors with the proper training experiences and 
curriculum so they will be ready to advocate for these capabilities in 
the future. Furthermore, we are developing an Air Force instruction 
that will codify NC3 roles and responsibilities across the Service. 
Lastly, my team continues to focus effort on extending assured 
communications capability to the bomber fleet, integral to ensuring 
these platforms remain mission capable in highly contested 
environments.
                        new start implementation
    Under the terms of the New Strategic Arms Reduction Treaty (New 
START), the United States and the Russian Federation have committed to 
reducing their strategic nuclear forces in accordance with the Treaty's 
central limits not later than February 2018. In support of that 
obligation, the Air Force has fully funded activities necessary to 
align our ICBM and heavy bomber forces with the baseline force 
structure previously reported to Congress.
    While the Department of Defense anticipates making a final New 
START force structure decision before the end of fiscal year 2014, Air 
Force efforts to eliminate treaty-accountable ICBM silos and bombers no 
longer used to perform the nuclear mission are well underway. To date, 
we have completed elimination of 50 empty Peacekeeper ICBM silos and 39 
non-operational B-52Gs, as well as modification of 2 B-52H ground 
maintenance trainers. In addition, the procurement of conversion kits 
necessary to render B-52Hs conventional-only is on schedule, as are 
previously planned eliminations of ``phantom'' silos.
                                closing
    Thank you for the opportunity to share the Air Force's views on 
Nuclear Deterrence Operations. Our focus on continually improving the 
nuclear mission-particularly through our support and development of the 
airmen entrusted with carrying out that mission--particularly through 
our support and development of the airmen entrusted with carrying out 
that mission--is ongoing, and will remain one of the Air Force's top 
priorities.

    Senator Udall. Thank you, General. Let me thank the panel.
    I want to throw it first to Senator King for questions he 
may have. Let us do 7-minute rounds.
    Senator King. Thank you, Mr. Chairman.
    First, Ranking Member Sessions, thank you for that chart. I 
learn visually and I think that is a very powerful piece of 
information up there. I appreciate your work to put the data 
together. It raises serious questions.
    Ms. Bunn, perhaps you could react. This tells us that we 
are under-investing and that we have to change that, or 
otherwise we are just putting off investment decisions. It is 
like not rebuilding bridges and roads. We are going to have to 
pay for them eventually. Your thoughts on the data that is 
presented here?
    Senator Sessions. Senator King, I would just note the 
green, if you cannot see it, is 2017, and that is when we are 
reconstituting the triad plan. We did hit about the lowest 
percentage of the defense budget in 2007, if you cannot see it.
    But excuse me. Go ahead.
    Senator King. I am interested in your thoughts about 
whether the little glimmers of green at the end of the chart 
are sufficient.
    Ms. Bunn. Yes, sir. It is clear that there will be 
recapitalization cost in the out-years that are not shown on 
the chart, and indeed, we think that those are both reasonable 
and necessary.
    Senator King. Are we going to be able to make them in light 
of the reinstitution of sequestration in 2 years?
    Ms. Bunn. If there is sequestration after 2015, Senator, it 
will hurt this a lot. We would love to see stability and 
predictability in the funding for that recapitalization so we 
can do it most effectively and efficiently.
    Senator King. I just hope adequate provision is taken. We 
have to be realistic. Everybody around here hates 
sequestration, but it has a way of rearing its ugly head 
continuously. So this is going to have to be part of your long-
term planning in DOD because I am just afraid this might be a 
lower priority than readiness or personnel costs and those 
kinds of things. This is an important investment.
    General, help me with the pronunciation of your name.
    General Harencak. ``Har-en-cak'', Senator.
    Senator King. ``Harencak,'' thank you.
    When I was a senior in college, I wrote my senior thesis on 
the subject of deterrence, and I am not going to incriminate 
myself by telling you what year it was, but I will tell you 
that Lyndon Johnson was President of the United States. 
[Laughter.]
    But it seems to me that the theory of deterrence has 
fundamentally changed because at that time we were talking 
about state-to-state deterrence, and there was a certain 
presumption of rationality. We were really talking about the 
Soviet Union. Today we are talking about the possibility of 
non-state actors who are not particularly rational and who are 
potentially suicidal. The whole idea of mutually assured 
destruction was that you wanted to keep your life. Now we have 
people who are potentially suicidal.
    Talk to me about the theory of deterrence as it applies in 
this utterly new set of circumstances, for instance, a nuclear 
bomb on a tramp steamer headed for Miami manned by fanatics who 
are prepared to die for the cause.
    General Harencak. Senator, the theory of nuclear 
deterrence, having a credible nuclear deterrence, I do not 
believe has fundamentally changed. What it does do--and the 
forces that we provide the Nation protect against its only 
existential threat, and while a credible, stable, nuclear 
deterrent that is actually used every day, I get asked a lot of 
questions. People say, well, but you never use these weapons. 
But we use them every single day. That is the concept of 
deterrence. A continued at-sea deterrence that Admiral Benedict 
provides, our bomber forces, our missiles that are across five 
States----
    Senator King. How do all of those things deter 12 madmen on 
a ship? That is my question. Your answer is not responsive. 
Deterrence works with countries and rational people. How do you 
threaten and scare by deterrence this terrorist group that has 
a nuclear weapon in the hold of the ship?
    General Harencak. You may not be able to do that, Senator, 
but that does not mean that our forces are not as relevant 
today as they are.
    Senator King. I am certainly not suggesting that we should 
abandon it. I am just suggesting should the theory not be 
updated to take account of modern realities.
    General Harencak. I am not debating that, sir. I will say 
our capability as a Nation to do nuclear forensics, nuclear 
detection, and nuclear attribution is very good, and that 
alone, those three aspects, will allow us to know where this 
particular threat came from, and that is that ability to be 
able to respond to it.
    Senator King. I think that is the key, that intelligence is 
our first line of defense in this new world.
    General Harencak. Absolutely, sir. Absolutely.
    Senator King. Ms. Bunn, do you have any thoughts on this 
question of the theory of deterrence as it applies in 2014?
    Ms. Bunn. Yes, sir. I would agree that the fundamentals of 
deterrence are the same in that you are trying to convince a 
potential adversary that the cost and risk of aggression far 
outweighs any benefit that they hope to gain. When I have 
thought about how that might apply to deterrence, I am not sure 
that our nuclear forces are so relevant there, but the idea of 
trying to make sure that they do not gain what they are hoping 
to gain is the key. Terrorists are willing to die but they want 
to die accomplishing something. If you can keep them from 
believing that they are going to accomplish what they want to 
accomplish, then the theory of deterrence may apply in some 
way. It is different than it applies to state actors, I 
believe, and I have far less confidence in deterring terrorists 
than I would in deterring other states.
    That is why our counterproliferation measures are so 
important. That is why trying to secure nuclear materials 
around the world, initiatives like the Proliferation Security 
Initiative where we work with countries all over the world to 
interdict cargos that could contain nuclear materials, for 
instance. That is why those are so important. You want to be 
able to deny them the ability to have the capability, and then 
if somehow they got it, you want them to think that they are 
not going to succeed.
    Senator King. You have a lot of smart people to think about 
these things, and I just hope that there is some real thought 
being given to how we deal with the current reality. I do not 
want our current deterrent to be Maginot Line of the 21st 
century that does not deal with existing threats.
    I was recently in the Middle East and I think it was an 
Israeli who said the terrorists are always very clever and 
nimble, and we have to be the same, it seems to me.
    I have taken my time.
    Admiral, I share your concern about the industrial base. I 
think that is something we really need to spend some time on 
because it is not something that can just be turned off and on 
when we need it. You guys need to be thinking about how do we 
maintain the industrial base.
    The final thing I am concerned about is cyber, and that is 
where the next likely attack is going to be. Are we fully 
secure in terms of the nuclear architecture and the 
communications and command? Because that is also a place where 
terrorists are going to be very clever.
    Thank you very much for your testimony.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator King.
    Senator Sessions.
    Senator Sessions. Thank you.
    I do not know if Senator Donnelly has a schedule problem. I 
am going to be here.
    Senator Donnelly. Go ahead.
    Senator Sessions. Thank you.
    I understand, Admiral Benedict, that as the years go by, we 
are projected to rely more on our sub-sea nuclear deterrent 
capability. I have heard the figures. Are you able to tell us 
what those trends are and what percentage of our response force 
would be submarine-based?
    Admiral Benedict. Yes, sir. If you are referring to after 
implementation of the New START treaty, the submarine-based leg 
of the deterrent will encompass approximately--and there are 
various ways to count--but approximately 70 percent of the 
deployed warheads accountable to the United States.
    Senator Sessions. Which is very important.
    Now we have the new submarine moving forward, and we have 
had it delayed--2 years it has been pushed back?
    Admiral Benedict. Yes, sir.
    Senator Sessions. Can you tell us the progress, or lack of 
it, on that, and share with us any thoughts?
    Admiral Benedict. Yes, sir.
    The new Ohio-replacement submarine was delayed 2 years. 
That was done in the NDAA for Fiscal Year 2013 as a result of 
the Budget Control Act of 2011. That was delayed from 2019 to 
2021.
    Those reductions, while 2 years to the platform--the Navy 
made a decision that we would not delay by those 2 years the 
build of what is called the common missile compartment, as well 
as all the strategic weapons system material, that which I 
deliver for the mission. That decision was made specifically to 
support our ally, the United Kingdom, which we are supporting 
under the Polaris sales agreement, which I execute.
    So the platform was delayed. The platform is pressurized. 
We have re-baselined the program to deliver the platform by the 
necessary dates in order to replace the Ohio submarine as it is 
retired from service. It is an aggressive schedule, but it is 
fully funded in the fiscal year 2015 presidential budget 
submission and it fully supports the needs of the Navy and, 
most importantly, Commander of U.S. Strategic Command 
(STRATCOM).
    Senator Sessions. I should know but I am not sure to what 
extent I do, the President's budget in that regard exceeds the 
Ryan-Murray spending limits. Do you know?
    The President is asking for another $115 billion over 4 to 
5 years, and I do not know if you are counting that money, 
which has not been approved because it would require us to 
burst through the spending caps we just agreed to 10 weeks ago. 
It is not a little matter. But we do need to keep that program 
on track.
    Ms. Bunn, thank you for sharing with us. Things happen that 
makes the hair stand up on the back of your neck, like the 
Russian invasion of Ukraine. Having been there 3 years ago, I 
just did not see that coming. I did not see the democratic 
revolution coming either. So things happen rapidly.
    The Wall Street Journal reported last year that the former 
Chief of Staff of the Soviet Strategic Rocket Forces, General 
Yesin, was interviewed, and he said, all in all, China may have 
850 warheads ready to launch and that, ``other warheads are 
kept in storage and intended to be employed in an emergency.''
    Now, in this open session, is there anything you can 
comment about that? Which would be about half of what we are 
projected to go to under the New START--more than half.
    Ms. Bunn. What I could say, Senator, is that when we did 
the NPR and when we did the follow-on analysis that led to the 
guidance that the President issued in June, we did take account 
of not just Russia but other countries as far as we could see, 
as far as we could project. In addition to that, if we are 
wrong about how we project, we have a hedge. We have a hedge 
capability with our platforms because of the number of 
platforms we have and the ability to upload those if we needed 
to, if the world situation surprised us.
    Senator Sessions. I am just curious about the concept we 
keep hearing about, ``bilateral,'' as if China does not exist 
on the planet. I am afraid it does, and apparently it has a 
growing nuclear arsenal.
    Do you think we could be reaching a point where nuclear 
reduction should be done on a trilateral basis, if at all?
    Ms. Bunn. The Chinese are modernizing their nuclear forces. 
We do not see them growing. They are modernizing fairly 
steadily and increasing some. At some point--at some point--we 
will need to include others in arms control negotiations. I do 
not think it is the next step. If we could ever get another 
reduction with the Russians, there might be one more round 
there.
    Senator Sessions. That is a concern.
    General Harencak, where are you on the new bomber? Are you 
the one to ask about that? Maybe General Wilson. What 
percentage of those bombers--has a decision been made to 
configure it, or at least some of them, for nuclear weapons?
    General Harencak. Yes, sir. Senator, the long-range strike 
bomber is on track. It is exceptionally well run where we are, 
and 2 years after its initial operating capability, it will be 
nuclear certified, sir.
    Senator Sessions. So that decision----
    General Harencak. That decision has been made. Yes, sir.
    Senator Sessions. It would be a considerable improvement 
over the B-52?
    General Harencak. Many, many orders of magnitude.
    Senator Sessions. My time is up. Thank you, Mr. Chairman. I 
thank all of you for your work.
    I sense that the administration and DOD is thinking more 
clearly about this area, and some of the spending priorities 
represent a step in the right direction. I am pleased about 
that.
    Senator Udall. Thank you, Senator Sessions.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    This would be for anybody who would like to take a swing at 
this, but I will start with Ms. Bunn. Do you believe there is 
enough funding to sustain the current nuclear triad with the 
modernization steps necessary?
    Ms. Bunn. Senator, I think we have a good path that we are 
on for modernization, and while we have had a few slips because 
of budget concerns, we are on the path. I think the key 
question is, are we on the path to get where we need to be in 
the time we need to be there, and I believe the answer is yes.
    Senator Donnelly. I would like to ask this of Lieutenant 
General Wilson. Who do you think is the biggest threat to the 
U.S. nuclear arsenal?
    General Wilson. I would say right now our arsenal has 
served us well. Deterrence has served us. The capabilities 
across the board have served us for the past 50 years, but all 
of them are aging from the bombers to the submarines to the 
missiles. So the threat is we need to modernize them. We just 
cannot afford not to modernize them. I think we are on a path 
to be able to do that.
    Senator Donnelly. Admiral, what is it that in this area 
keeps you up at night?
    Admiral Benedict. Sir, taking off on what General Wilson 
said, the programs do need modernization, and to me, the thing 
that keeps me up at night is ensuring that I have an 
experienced, expertised workforce that can do that 
modernization. As you can see by the chart, the programs were 
built many years ago. While they have been in some form of 
modernization, it is not nearly the type of modernization, the 
extent of modernization that we are talking about here, 
recapitalization of the force and that is required in the 
future. Having that experienced workforce, both civilian, 
contractors, and military, is what keeps me awake at night, 
sir.
    Senator Donnelly. As a follow-up to that--and that would be 
to you or any of the others--what has happened with our 
workforce in the nuclear forces area? With the challenges we 
have seen, the problems we have seen, why do you think this has 
occurred?
    Admiral Benedict. Sir, I will take the first stab at that. 
There are certain areas of technology that only this group at 
the table exercise, specifically things like reentry mechanics, 
reentry materials, strategic guidance, strategic propulsion, 
rad-hard electronics to the level that we require to perform in 
the system. You can talk about those. You can do experiments on 
those, but until you are actually designing systems, fielding 
systems, and then supporting systems, that is experience and 
expertise that you just do not get out of a textbook.
    Senator Donnelly. What I am trying to find out is some of 
the cheating scandal headlines we have seen, some of the other 
things. What has caused these in your best judgment?
    General Wilson. Part of it may be we focused on the culture 
of perfection, and we know that human beings are not perfect. I 
guess what we will shift to is how do we make sure we have 
flawless execution in the field through teamwork, make sure 
that people understand that they are important and they are 
relevant.
    Young soldiers, sailors, airmen, and marines--they read 
things in the paper, and there are lots of things being said 
about the nuclear enterprise. I keep coming back to 99.5 
percent of our airmen are people we are real proud of. They get 
it. They understand the importance of our mission. Regardless 
of what we read in the paper, they are dedicated. They are 
professional. They have pride in their work. They understand 
the importance of their work. Some of them do not. We had a 
small number recently, as you mentioned, that did not live up 
to our core values of integrity. It was not a failure of the 
mission. It is a failure of a small number of individuals, and 
the vast majority, 99.5 percent of them, are ones we are real 
proud of.
    Senator Donnelly. General Harencak, I wanted to follow up 
on what Senator King was asking too, and that would be in 
regards to the non-state actors, the tramp steamer that is out 
in the Atlantic somewhere. As part of preventing this, are you 
part of that loop or is that left more towards other parts of 
DOD?
    General Harencak. Senator, the short answer is, yes. We are 
part of this loop. Everything we do, every time we try to 
modernize a particular weapons system--many of them--these are 
old. These were science experiments, if you will, that are 
sitting there. Every time we reinvest in the knowledge of how 
to do certain things to our forces and to our platforms, we are 
all contributing together to help in nuclear detection, nuclear 
forensics, nuclear attribution, the intelligence. So all of us 
at this table and so many more of us are all part of this.
    There is not one particular solution to that tramp steamer 
thing you talked about. So the answer is, everything we do 
contributes to across the spectrum of conflict, across all the 
threats trying to fill gaps and seams and protect against it.
    Senator Donnelly. Do the intelligence forces meet with all 
of you as to what should we be looking for, what are the things 
you think might be next on the list? Are those ongoing 
communications?
    General Harencak. Absolutely.
    Senator Donnelly. Admiral Benedict?
    Admiral Benedict. Yes, sir. As part of my requirement, I am 
obligated to deliver once a year what is called a vulnerability 
assessment on each one of my locations, and that is us, SSP, in 
direct collaboration with the local Intelligence Community 
(IC), as well as the national IC, so that we are well-prepared 
to address any threats at each one of my locations.
    Senator Donnelly. Then I would just like to finally ask 
about cyber, and that is, how do you make sure that with all 
the cyber attacks that go on, with all the changes almost on an 
hourly basis in those areas that our system will work, God 
forbid, if ever needed, but that our system is ready to go?
    Admiral Benedict. So, sir, we take a very layered approach 
to that to address that question. First and foremost, our 
systems which launch we do not permit to be attached to any 
type of the gig or the Internet or the larger system. They are 
standalone systems. So with that, we are very concerned about 
things like counterfeit parts or viruses being introduced. 
Again, there is a very layered approach from information 
assurance certification, which I am required to comply with, as 
well as Nuclear Weapons Standing Safety Group inspections every 
5 years that look at entry points into the architecture. We are 
very concerned about cyber, and so again, through a very 
measured, layered approach, we try to minimize any entry points 
to the standalone systems which launch.
    Senator Donnelly. Thank you all for your service.
    Thank you, Mr. Chairman.
    Senator Udall. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman. Thanks to all of 
you for your service and for your testimony today.
    I want to back up, and I apologize if any of this ground 
has already been covered. But from the 40,000-foot level, if 
you will, when the Senate passed the New START treaty, there 
was a very clear set of discussions and agreement that that 
would be accompanied by major resources and modernization, and 
that was a very important prerequisite to a lot of folks in the 
Senate voting for the New START treaty. I voted against it, in 
part because I did not have confidence that that stuff would 
happen.
    In fact, in terms of those resources and that 
modernization, are we not significantly behind what was 
promised in those discussions? I am not blaming any of you, but 
as a factual matter, are we not well behind that modernization 
schedule and that level of resources? Anybody.
    Ms. Bunn. They are looking at me.
    Senator Vitter. Yes. [Laughter.]
    Ms. Bunn. Sir, the updated 1251 Report--there have been 
some slips in schedule since then. Most of those are due to 
budget constraints. But I think what we see is last year, this 
year, the prioritization of the nuclear mission in large part 
probably because of those commitments that were made then.
    Senator Vitter. Are we not about 34 percent short of the 
dollar commitment over 5 years that was promised, a $4.1 
billion commitment? We are not close to that? Am I missing 
something?
    Ms. Bunn. The precise numbers I would have to get for the 
record, sir.
    [The information referred to follows:]

    In November 2010, the administration pledged to modernize U.S. 
nuclear forces and the U.S. nuclear enterprise, and to spend the funds 
necessary to achieve these objectives.
    The administration remains committed to these programs, although 
mandatory cuts due to sequestration and spending caps have had an 
effect. Actual and proposed spending on the National Nuclear Security 
Administration (NNSA) weapons activity programs from fiscal year 2012 
through fiscal year 2017 is approximately 3 percent less than what was 
outlined in the updated report pursuant to section 1251 of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2010.

                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal Year
                                                               ------------------------------------------  Total
                                                                 2012   2013   2014   2015   2016   2017
----------------------------------------------------------------------------------------------------------------
NNSA Weapons Activity Request.................................   $7.6   $7.6   $7.8   $8.3   $8.8   $8.9   $49.0
Updated Report Pursuant to Section 1251 of the NDAA for Fiscal    7.6    7.9    8.4    8.7    8.9    9.0    50.5
 Year 2010....................................................
Difference....................................................      0   -0.3   -0.6   -0.4   -0.1   -0.1    -1.5
----------------------------------------------------------------------------------------------------------------

    Despite fiscal constraints, the administration is fulfilling its 
pledge to modernize strategic delivery systems. Actual and proposed 
spending on Department of Defense platforms and weapons delivery 
systems for fiscal years 2012-2021 is approximately 10 percent less 
than what was stated in the updated report pursuant to section 1251 of 
the NDAA for Fiscal Year 2010. The funding shortfall is primarily the 
result of three programs: the Ohio-class nuclear ballistic submarine 
replacement project, the Trident II submarine-launched ballistic 
missile, and the Minuteman III intercontinental ballistic missile. The 
Ohio-class Replacement Project spending is lower than originally 
projected due to a better projection of expected costs and a 2-year 
program slip. The Trident II spending is lower than originally 
projected due to significant cost savings in the rocket motor 
procurement. The Minuteman III spending is lower due to cancellation of 
contracts for some support helicopters that the Air Force determined 
are no longer required, delaying the W87/Mk21 Air Force fuze to align 
more closely with the Navy's fuze modernization program, and deferring 
the W78/88-1 Life Extension Program outside the Future Years Defense 
Program. The remainder of the funding shortfall is the result of across 
the board reductions from the spending limitations implemented after 
the commitments were made.
    Additional details will be provided in the report pursuant to 
section 1043 of the NDAA for Fiscal Year 2012.

    Senator Vitter. I am being told that a large part of what I 
am describing is Department of Energy (DOE) funding, but that 
was certainly part of the discussion, part of the commitment. 
Are we not well short on that?
    Ms. Bunn. Senator, the funding is not what we thought in 
the updated 1251 report. I understand that the National Nuclear 
Security Administration (NNSA) will be here to present their 
budget in a few weeks, and I would defer to them on those NNSA 
warhead issues.
    Senator Vitter. Here is what I am trying to wrap my head 
around. New START was premised on that. We are not keeping 
those promises for whatever reason. Also, I think it is very 
fair to say our relationship and trust level with Russia has 
hit a recent all-time low, and yet we are talking about further 
nuclear reductions. Why? None of that seems to add up to 
further nuclear reductions in my mind.
    Ms. Bunn. Senator, the President did, as a result of the 
big study that was done over 18 months, say that we could 
reduce our nuclear forces and still maintain a safe, effective, 
and reliable deterrent and assure allies, but that we would 
pursue negotiations with Russia. We have suggested that to the 
Russians. They are not particularly interested. They say that 
they are focused on implementing New START by February 2018, 
and so I do not foresee that happening anytime soon.
    Senator Vitter. Again, just for the record, I want to 
express concern with the fact that the funding and the 
modernization that New START was premised on is not happening. 
So to me, that calls into question the New START reductions to 
begin with, and yet we are discussing, at least theoretically, 
further reductions. Again, for the record, I want to underscore 
the fact that clearly since the passage of New START and the 
ratification of New START, our relationship and trust level 
with the Russians has taken a nose dive. I just think all of 
that should add up to extreme caution about further nuclear 
reductions and further agreements with the Russians.
    With regard to existing agreements with the Russians, are 
there ongoing concerns of their not keeping their end of the 
bargain in significant circumstances?
    Ms. Bunn. Senator, with regard to New START, we have just 
finished one of the 3-week compliance groups, and while there 
are small issues, there are no big problems with New START 
implementation.
    Senator Vitter. I was actually talking about preexisting 
obligations of the Russians prior to New START.
    Ms. Bunn. Yes, sir. As I mentioned in my statement, we do 
have concerns about the INF Treaty compliance.
    Senator Vitter. So there are real concerns there about 
compliance?
    Ms. Bunn. Yes, sir.
    Senator Vitter. Has there been any positive resolution or 
movement toward positive resolution on those in the last year, 
say?
    Ms. Bunn. Our concerns have been raised with the Russians. 
We raised them a number of times with the Russians. Senior 
officials have. We were not satisfied with their response and 
we will continue to raise it.
    Senator Vitter. Okay.
    General Wilson, I wanted to ask you. There were several 
recommendations with regard to 8th Air Force and Global Strike 
and some have been implemented and some have not been 
implemented in terms of some of the organizational 
recommendations. Would implementing all of those organizational 
recommendations not be helpful in terms of having a more 
effective command through both 8th Air Force and Global Strike?
    General Wilson. Senator Vitter, I am not aware of what 
specific organizational challenge that we have not implemented.
    Senator Vitter. I will come back to that.
    Another issue with regard to Global Strike is 
recertification of a second weapons storage area (WSA). Where 
does that stand and how comfortable are you without our having 
that second WSA?
    General Wilson. Certainly having one of anything presents 
risk. What we are working on now is to come up with a 
comprehensive WSA update. All of our WSAs are old. Our oldest 
is 52 years and the average is just over 38 years. So we are 
building a plan with an investment strategy to bring forward to 
recapitalize all the WSAs at our bases over a 15-year period, 
and we will be working on that to bring forward this next year.
    Senator Vitter. Let me jump back quickly. I am out of time. 
But to my previous comment, I think the recommendation to 
remove all non-bomber-related missions from 8th Air Force and 
Global Strike was implemented, but the recommendation to assign 
all bombers to the 8th Air Force was not. Specifically, do you 
think implementing that recommendation would be helpful?
    General Wilson. We have a terrific relationship with Air 
Combat Command which maintains the B-1. Our focus has been on 
the dual-capable bombers, on the B-2 and the B-52, making sure 
they can be safe, secure, and effective in their nuclear 
mission, as well as to do their conventional mission. We have a 
terrific relationship with Air Combat Command who maintains the 
B-1.
    Senator Vitter. Why did the Schlesinger Commission 
recommend that reassignment, and do you disagree with that 
thinking?
    General Wilson. I cannot specify why the Schlesinger Report 
recommended that. I think there is goodness in the way we have 
it today. Right now, the B-1s are over in the Middle East. They 
have been over there for the last 13 years. Our B-52s have been 
in the continuous bomber presence for the last 10 years in the 
Pacific. We have been focusing, quite frankly, on rebuilding 
and reenergizing the nuclear enterprise. So that has been our 
number one priority to make sure our dual-capable bombers are 
capable of doing their mission.
    We also have that Global Strike capability. Today our B-52s 
have been in the Pacific, and the B-1s have been in the Middle 
East in the fight since 2001.
    Senator Vitter. Okay. Thank you.
    Senator Udall. Thank you, Senator Vitter.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman. I thank the 
witnesses for being here today.
    Secretary Bunn, last year, Secretary Creedon testified that 
the analysis of alternatives (AOA) to replace the Minuteman III 
ICBM would be completed in 2014. Can you tell me the status of 
that study, and do you think we are going to see a completion 
date on it this year?
    Ms. Bunn. Senator, the study is on course, and I do 
anticipate we will see that study completed this year.
    Senator Fischer. Thank you.
    General Harencak and General Wilson, I know that the study 
is going to probably cover this in detail, but can you discuss 
the risks and the benefits that we are looking at in extending 
the current system?
    General Harencak. I can start, ma'am, and then I will turn 
it over to General Wilson.
    The Minuteman III system dates to 1970. While we are doing 
an extraordinary job in keeping this weapons system, our plan 
is to keep it to 2030, and that means we are going to have to 
sustain and modernize this.
    Everything we do to sustain and modernize the current 
Minuteman III will be applicable to any possible follow-on. For 
example, if we decide we are going to modernize with the 
propulsion or the guidance system, we are starting, if you 
will, with the Ground-Based Strategic Deterrence (GBSD) studies 
to make sure that whatever we do will be applicable to whatever 
comes out.
    I will say that keeping the Minuteman III past 2030 just 
increases our risks. It is already, as I said, a system that 
dates to 1970.
    General Wilson.
    General Wilson. I do not have much to add from General 
Harencak. Built in the 1970s, designed for 10 years. We are 
going to maintain it and sustain it through 2030. Everything 
General Harencak just talked about, whether it be guidance, 
propulsion, fuses, we are going to need to modernize over the 
years, and we are doing that.
    We will also make sure we can transition each of those 
technologies into the GBSD follow-on, and as Ms. Bunn just 
mentioned, that AOA will be complete this June.
    Senator Fischer. You said we are on track to do that. So 
the modernization is taking place and it is meeting the 
recommendations that you folks have for it.
    General Wilson. Yes, ma'am.
    Senator Fischer. Good.
    Admiral Benedict, in your opening statement, you talked 
about how the submarines were the most survivable leg of the 
deterrent. What about all the technological innovations that we 
are seeing? Are you concerned that in the future something may 
come about where it will not be, and how would you address that 
then?
    Admiral Benedict. Yes, ma'am. We are concerned about that. 
As we did the initial design and did the analysis on the 
replacement for the Ohio-class submarine, which is called the 
Ohio-replacement platform, our largest focus was on 
survivability and the stealth aspects of that platform. 
Scheduled to start construction in 2021, that class of boat 
will be deployed through the early 2080s. So we have worked 
very closely with the IC and the technology analysts. We are 
looking out and we are ensuring that we have the flexibility 
built into that platform to address what we know but, most 
importantly, to adjust for what may come in the future, ma'am.
    Senator Fischer. Do you factor in the costs of any 
adjustments that may happen in the future? I know when we do 
not even know what is going to be that innovation that is out 
there that could be a detriment to us, is there any way that 
you can factor that in?
    Admiral Benedict. What we do factor in when we look at the 
lifecycle cost of the platform are those known upgrades, 
modernization periods to address the known knowns. It would be 
impossible to address the unknown unknowns, ma'am.
    Senator Fischer. Thank you.
    General Harencak, I understand that the Air Force is 
evaluating their technical feasibility and keeping empty silos 
warm. Is that correct? To have that warm status on them?
    General Harencak. Yes, ma'am.
    Senator Fischer. In the NDAA for Fiscal Year 2014, Congress 
expressed its preference for keeping them in a warm status. Can 
you talk a little bit about the benefits on why they should be 
kept in a warm status?
    General Harencak. There are two main reasons, ma'am. The 
number one reason is the way the system was built, it was 
interconnected separate systems. If we remove missiles, we need 
to keep the silos in a warm status so we maintain the 
continuity between them and the communication aspect that was 
built for many good reasons back in the 1960s. So it is much 
easier. It is much less expensive for us to remove a missile 
and then keep the communication system and the actual tactical 
unit which is in groups of 50s together. There is a very real 
operational reason why we would not want to do it.
    In other words, if we do not keep it warm, we would 
eliminate the silo. By eliminating the silo, it cuts the 
connection, and it requires us to spend a lot of money, a lot 
of effort to now recertify the weapons system and to reconnect 
those communications links.
    The second reason is by allowing us to remove missiles and 
still keep them in a warm silo, it allows us to pick those 
silos that are worst performing, that have the most water 
intrusion, that have the most infrastructure problems with it. 
It also allows us to recapitalize and sustain our system with 
the ease of being able to put a missile into a warm silo, then 
work on the other silo.
    So those two main reasons, ma'am.
    Senator Fischer. With that interconnectedness, you said 
that was less expensive to keep the silo warm and that was one 
of the reasons?
    General Harencak. Absolutely, ma'am.
    Senator Fischer. So if we are going to see any 
decommissioning of these missiles, would it be your 
recommendation that the silos would be kept warm?
    General Harencak. It would be my highest recommendation.
    Senator Fischer. I assume you know there are proposals out 
there that we need environmental studies done on the ICBM areas 
in order to have them decommissioned. In your opinion, do you 
think that is a wise use of our resources?
    General Harencak. Ma'am, the U.S. Air Force believes that 
we should maintain the silos in a warm status. I will leave it 
at that.
    Senator Fischer. That is a military decision.
    General Harencak. That is the belief of our Chief, Under 
Secretary, and mine that it is in the best interest of us to 
keep our silos in a warm status.
    Senator Fischer. Thank you, General. I appreciate it.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Fischer.
    Let me recognize myself at this time.
    General Wilson, we had a nice visit earlier today. I want 
to turn to the cheating scandal. I do not want to get ahead of 
the ongoing investigation, but my understanding is the missile 
combat crews are required to achieve almost 100 percent score 
on their readiness exams in order to succeed in their careers. 
Is this the most effective method for evaluating the knowledge 
and readiness of these launch officers? What alternatives to 
the exam model are you investigating?
    General Wilson. Thank you, Senator.
    We are investigating all kinds of different alternatives of 
how we both train, test, and evaluate. As I mentioned to you 
earlier today, I think 100 percent is an unrealistic standard. 
It is not the right way to go. We have experts across the 
field. Air Education and Training Command (AETC) is helping us. 
We have behavioral psychologists. We have a lot of folks 
looking at the problem as to what is, again, the best way to 
train, test, and then evaluate.
    As I mentioned to you, I have recently, within the last few 
days, taken the out-brief from all the work we have going on. 
We have three main efforts today. We have a command-directed 
investigation that I ordered looking into this problem. We have 
what I call a force improvement program that we have modeled, 
quite frankly, off of Navy, work that they have done and taken 
their best practices, and what that is, is a grass roots effort 
to get to the people doing the job and understand those things 
that are inhibiting them from doing their job better. I took 
the first initial out-brief from the force improvement program 
on Monday. We are going to take those two efforts and we have 
another effort underway, again, with some scientists, as well 
as AETC to help us look through the problem set. We are going 
to roll all those up with surveys from the families, as well as 
the leadership, and to provide those recommendations back to 
the Secretary of Defense to meet his deadline here later in 
March.
    Senator Udall. Given the importance of your mission, we 
look with anticipation to what those studies and 
recommendations will be.
    I understand upwards of 92 missile officers were 
implicated. That has meant you have had to bring in additional 
crews from elsewhere, and then you have had to increase the 
workload of existing crews. A couple of questions along that 
theme.
    How long do you anticipate this to last? Has the readiness 
of the missile force suffered as a result?
    I want to point out, as we all have, that the tireless, 
quiet professionalism of the vast majority of the men and women 
of our nuclear enterprise should not be damaged by the alleged 
actions of a few.
    General Wilson. Yes, sir. Let me answer the second question 
first. The readiness has not suffered, to start with. What we 
have done is we have taken crews from Minot and F.E. Warren, 
and they have augmented the team at Malmstrom Air Force Base. 
We will shift the output coming out of the schoolhouse at 
Vandenberg Air Force Base, and we expect to be back up to full 
strength by late spring on the number of crews that we have 
available to do the mission.
    As a side thing that came out of this, what we found is 
that the crews coming from both Minot and F.E. Warren to 
Malmstrom are learning a great deal, and so as we work the 
standardization amongst all the missile crews, we found that 
the folks are each learning from each other. We are taking this 
opportunity to make each of the teams better.
    They are spending about a month from each of the bases at 
Malmstrom. Then they are going back and rotating crews. The 
crews are on the same work schedule. They are typically doing 
eight alerts a month, and nobody is exceeding that. We have not 
increased their workload. What we have done is we found out we 
were able to take best practices and best ideas at all the 
bases because all the bases are, quite frankly, now working at 
Malmstrom Air Force Base.
    Senator Udall. Admiral Benedict, could I turn to the 
discussion that you had in the Navy, I think about a year and a 
half ago, about the interoperable warhead (IW). It would 
combine the W78 with the W88. Do you still have the concerns 
that were expressed some 18 months ago?
    Admiral Benedict. Sir, 18 months ago, we expressed concerns 
about doing the necessary technology work, commonly referred to 
within the domain space as 6.2, 62A, exploratory engineering 
analysis, as well as the costing of that. We expressed those 
concerns to the Nuclear Weapons Council (NWC). We were able to 
work through those concerns with both NWC, as well as DOE and 
NNSA. We were on a path to fully support--the Navy is--the IW 
effort.
    In the President's budget just recently submitted, the IW 
project is delayed to a date no earlier than 2030, and so that 
effort will be suspended until such time as appropriate with 
lead time to support that date, sir. When that happens, we will 
fully support it.
    Senator Udall. I know General Wilson will understand the 
spirit of the question I am going to ask you and you will as 
well. The ICBM cheating scandals. Give me another Service's 
perspective. How do you test the readiness of your missile 
crews?
    Admiral Benedict. The first thing that I would like to say 
is I truly appreciate General Wilson's and the Air Force's 
transparency in sharing with the Navy what they are learning 
and what they are doing. I would also like to assure you that 
as soon as we found out, we, the Navy, both myself, as well as 
Vice Admiral Connor, called General Wilson and other general 
officers in the Air Force and offered whatever assistance we 
could. So there is great transparency between the Navy and the 
Air Force as we work to support the Air Force in this.
    From a Navy standpoint, one of the things that I have the 
fortunate opportunity to leverage off of is the nuclear power 
culture that exists on a submarine. That is an innate culture 
that is trained and instilled in every officer and enlisted 
individual who goes to sea on a submarine. The absolute high 
levels of standards and ethics that when reports are made and 
individual actions are assigned and reported as complete, that 
for the safety of the boat, for your individual safety, and the 
safety of your crew member, that those are taken as absolute.
    We work off of five fundamental principles, and I think 
that is what we tried to share--Admiral Connor did--with 
General Wilson: procedural compliance, level of knowledge, 
questioning attitude, forceful backup, and formality. All of 
these, those five traits, give us a level and layered approach 
to ensure that while we are all human and capable of making 
mistakes, that we as a team are much stronger if we implement 
those five. So those are the things that we are sharing with 
the Air Force, and fortunately the Air Force is sharing with us 
what they are learning. We will, I assure you, integrate their 
lessons learned into our training programs.
    Senator Udall. Secretary Bunn, I want to turn to you for my 
last question, but I did want to share with the committee--I 
guess we are a subcommittee, but we are proud of what we do--
Senator King's comments earlier that from the early days, 
Senator King, DOE has been studying small nuclear devices. I am 
told that Albert Einstein, of all people, urged FDR to do the 
kind of research into so-called suitcase bombs. That work has 
proceeded apace in DOE. But your question about deterrence in 
the 21st century is a fundamental one and I hope this 
subcommittee can continue to consider it, study it, and discuss 
it. It is a challenging environment, as we know.
    I mentioned, Madam Secretary, in my initial remarks my 
interest in your comments on the fact that we are breaking up 
the functions of the Global Strategic Affairs Office. You know 
the details of how that is going to operate. Do you think that 
having your office separated from other functional areas will 
make it easier or harder to perform your duties? I ask that in 
the context of the command of this hearing. There is a real 
focus on modernization, efficiency, safety, training.
    Ms. Bunn. Senator, in this case, I do not think it will 
make much difference. I say that because there is some logic to 
having cyber, space, and nuclear missile defense together in an 
Assistant Secretary of Defense shop. There is also logic in 
having, where we are moving to, strategy, plans, and 
capabilities to having nuclear missile defense policy there as 
well. So no matter where my office sits on the organization 
chart, I will continue to work across policy with the relevant 
offices, cyber, space, plans, strategy, and the regional 
offices in Asia and Europe. We will continue to do that.
    I think the important issue is senior attention, and with 
the Secretary--Senator Sessions mentioned earlier the 
Secretary's remarks on the importance of the nuclear mission 
with the nominees that we have for Deputy Secretary and Under 
Secretary, if they are confirmed, I think we will have that 
senior attention. That is what is important in the way my 
office operates.
    Senator Udall. Thank you for those insights. We will watch 
this with interest certainly on an ongoing basis.
    I do not know if those are the bells for the series of 
votes to begin.
    If I could turn to Senator Sessions for any other comments 
or questions he might have.
    Senator Sessions. Briefly, Ms. Bunn, our understanding is 
that we could go back and modernize the triad over a period of 
years and keep the net cost of that in the modernization of the 
weapons at a level of around 5 percent of the defense budget. 
Is that consistent with what you understand?
    Ms. Bunn. Senator, I hesitate to use a precise percentage 
because so much depends on what is counted and what assumptions 
are made. But I would say that it is a low digit, a low single 
digit percentage of the defense budget.
    Senator Sessions. I think that is important to us because 
we need a healthy triad and healthy nuclear deterrent. As DOD 
wrestles with its priorities, I think they are going to have to 
put some of this in there.
    The NWC is something I have felt good about. I have been 
openly questioning DOE. They are out there. They get a bunch of 
money and they get to do it on their own time. But I think our 
NWC is an effective way to begin to make sure that what they do 
is what DOD needs and not a dime more is spent than necessary.
    Do you participate with that, and do you think it could be 
strengthened? Are there any changes needed to it?
    Ms. Bunn. Senator, I participate at the next level down 
from the NWC. That is at the Under Secretary level, and I am a 
layer below. But I do participate in the group that supports 
our principals. I think you are right that the NWC has been 
very active in making sure that what DOD needs, what our needs 
are, and what NNSA puts forth are closely synchronized. DOD has 
also given a lot of attention to cost estimation and program 
management and those kinds of issues and even volunteered some 
assistance of the DOD Office of Cost Analysis and Program 
Evaluation (CAPE) in past years looking at some of the facility 
modernization at NNSA.
    Senator Sessions. I hope that will continue. They have to 
participate with intensity in this effort.
    I do not want to overstate my happiness about where we are 
financially and the way the programs are going. I think we have 
seen a more healthy approach in the last year, and I compliment 
DOD. But the ballistic missile submarine has been delayed 2 
years, at least, as you have told us. The air launched cruise 
missile has been delayed 2 years or more. Right?
    Ms. Bunn. One to 3 years. The budget reflects 3 years, but 
we will try to buy back as much of that as possible.
    Senator Sessions. The follow-on ICBM. We do not have a 
decision on that yet to go forward. Right?
    Ms. Bunn. Correct.
    Senator Sessions. So that is still in limbo.
    The B-51 LEP was delayed 2\1/2\ years, maybe more?
    Ms. Bunn. Sir, since fiscal year 2014, there has been about 
a 6-month slip in the B-61-12.
    Senator Sessions. I think that is it. I just think maybe I 
go back a little further. We previously projected it and then 
we extended it some more.
    Ms. Bunn. Yes, sir.
    Senator Sessions. I think it is now over 2\1/2\ years.
    So we talked about the W-78/88 IW. That has been delayed 
considerably. Maybe up to 5 years now instead of 2. It was 2 
years.
    Then the plutonium handling facility is deferred at least 5 
years, Admiral Benedict or Ms. Bunn?
    Ms. Bunn. Yes, sir. The NWC has gone back to look at how to 
modernize what we need in a more modular----
    Senator Sessions. I support a more frugal approach. I will 
give you an A, but it is delaying things.
    The uranium processing facility is delayed 4 years, I 
understand, and DOE weapons activities are $2 billion short of 
New START commitments over the last 5 years.
    In this place, words do not mean much. The QDR does not 
mean much. It is whether the money is getting out and whether 
the projects are getting completed.
    Senator Udall. I am still trying to get an A from Senator 
Sessions. [Laughter.]
    Senator King, I think, had another comment or a question. 
We have a few more minutes before we have to head to the floor.
    Senator King. Ms. Bunn, I just wanted to tell you a story. 
You mentioned how the council was one level above you. 40 years 
ago, I worked as a staff member in this place, and one of my 
jobs was to set up hearings. I once called the Office of 
Management and Budget to get a witness for a particular 
hearing, and they gave me this title of Deputy Under Secretary 
or something, and I said, well, I do not really understand 
these titles. Can you tell me who this person is? The fellow on 
the other end of the line gave me an answer, which if I ever 
write a book about Washington, will be the title of my book. He 
said, he is at the highest level where they still know 
anything. [Laughter.]
    What bothers me is that I know that I am now above that 
level. [Laughter.]
    But I just wanted to try to make you feel better. You are 
around in that vicinity.
    Thank you very much.
    Ms. Bunn. Thank you, Senator.
    Senator Udall. Senator Fischer?
    Senator Fischer. If I can just have a short answer from the 
panel here. We hear about the importance of uploading the 
weapons, and I would just like to hear from you folks how 
important you believe it is to retain that ability if we are in 
a crisis scenario and where we have missiles stacked over here 
and a couple submarines over here, and if it is a crisis, how 
are we going to get it all done in time and if it is going to 
work. A long question but just give me your thoughts. Ms. Bunn?
    Ms. Bunn. It is very important to maintain a hedge. The 
more surprised you are the longer time you have to bring it 
back.
    Senator Fischer. Is uploading vital in a crisis situation? 
If so, how can we better prepare for it? Besides intelligence, 
physically how are we going to prepare for it?
    Ms. Bunn. There are two reasons that one might want to 
upload. One, if there were a technical failure in some of our 
systems or warheads and you needed to compensate for that; and 
two, if there were a geostrategic surprise. In other words, 
your projections--you got it wrong. That kind of surprise--you 
have probably a longer ramp-up time and you have longer to do 
it. I guess I would say, we believe that we have sufficient 
forces operationally deployed now to deal with short-term 
crises.
    Senator Fischer. General?
    General Wilson. Senator, I would say that today we have 450 
ICBMs out in the field. That is the bedrock of our strategic 
stability. We do not need to upload those.
    For our bombers, certainly if we were loading weapons, that 
sends a very visible signal to any adversary. So it is a deter-
and-assure piece for the bombers.
    Senator Fischer. But if we have these extra warheads at DOE 
facilities, you believe you would have enough time, as the 
Secretary said, to be able to move them to the silos. If all 
hell breaks loose, if we are going to have everything happen, 
you could still, hopefully, have the opportunity to upload 
more? No?
    General Wilson. We do not plan to upload our silos. We are 
going to use them once, if we ever use them.
    Senator Fischer. Thank you.
    Admiral Benedict. Yes, ma'am. We keep our weapons in a 
position where we would be able to upload and we routinely test 
to assure ourselves that the performance of the system in an 
uploaded position is measurable.
    Senator Udall. I want to thank the panel. I want to thank 
all the Senators who participated.
    We will keep the record open for 3 days, through the end of 
the week.
    I certainly had a number of questions. General Harencak, I 
did not get to the question I had for you, and five or six 
other questions, and for the rest of the panel, I had some as 
well. I didn't get them all answered this morning, so I might 
submit them for the record. Thank you for being here today.
    The hearing is adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator David Vitter
                         global strike command
    1. Senator Vitter. General Wilson, the U.S. National Intelligence 
Council report from December 2012 notes that in addition to ``Russia 
pursuing new concepts and capabilities for nuclear weapons . . . other 
nuclear powers, such as Pakistan and potential aspirants Iran and North 
Korea, desire nuclear weapons as compensation for other security 
weaknesses.'' Do you believe these are of concern and add to the value 
of Global Strike Command and are they examples of why this command 
should be expanded and strengthened despite the pressures to downsize 
the Department of Defense (DOD)?
    General Wilson. Absolutely, these developments are a concern. They 
certainly reinforce the importance of having and maintaining a robust 
and credible nuclear deterrent led by a command with a primary focus on 
stewardship of these capabilities. I believe our post-New Strategic 
Arms Reduction Treaty (START) force structure is sufficient to deter 
our adversaries while assuring our allies. Air Force Global Strike 
Command (AFGSC), and the entire DOD, face a significant challenge as we 
balance national priorities and fiscal realities. We continue to look 
through the strategic lens and balance risk as we systematically 
prioritize threats. Although we account for less than 1 percent of the 
DOD budget, AFGSC nuclear forces represent two-thirds of the Nation's 
nuclear triad and provide the ultimate guarantee of national 
sovereignty. Furthermore, our forces continue to provide overwhelming 
conventional power to joint commanders around the world. As a core 
element of our national defense, we must continue to fully resource our 
strategic capabilities.

                          weapons storage area
    2. Senator Vitter. Major General Harencak and General Wilson, in 
February 2011, then Air Force Chief of Staff General Norton A. 
Schwartz, USAF, told Congress that the Air Force could not afford to 
recertify a second weapons storage area (WSA) to house the Nation's 
air-launched cruise missiles despite a September 2008 Nuclear Weapons 
Management concluding that ``the closure of the WSA at one of the 
bomber bases was a significant mistake with a negative operational 
impact,'' and that the closure left our B-52 bomber force vulnerable to 
attack. Last year, this committee added language encouraging the 
Secretary of the Air Force to reexamine plans, including requirements 
and costs, for reconstituting a second nuclear WSA for nuclear-armed 
air-launched cruise missiles. This direction noted the potential to 
consolidate the old WSA's existing security perimeter and the 
installation of modern detection and denial systems which could reduce 
security personnel requirements and result in significant cost savings 
from original estimates. What is your opinion regarding the amount of 
risk the Nation is assuming by only having one WSA for the entire 
inventory of these weapons?
    General Harencak. Air Force WSAs currently meet U.S. Strategic 
Command operational requirements and provide for the safe, secure, and 
effective storage of our nuclear weapons. As part of a comprehensive 
WSA recapitalization initiative, AFGSC and the Air Force Nuclear 
Weapons Center (AFNWC) are currently assessing infrastructure 
conditions at all five operational AFGSC bases--F.E. Warren Air Force 
Base (AFB), Minot AFB, Malmstrom AFB, Whiteman AFB, and Barksdale AFB--
in order to develop an investment strategy.
    Prior to the finalization of the WSA investment strategy, the Air 
Force must validate requirements and assess the costs of sustaining 
existing facilities relative to the costs of new construction. Our goal 
is to have a finalized and approved implementation plan that could 
support projects beginning in fiscal year 2016. In February 2014, the 
Air Force provided a report to the defense committees on this matter 
pursuant to the National Defense Authorization Act (NDAA) for Fiscal 
Year 2014.
    General Wilson. The air launch cruise missile capability is a 
critically important piece of the Nation's nuclear triad, and certainly 
having one of anything presents risks. A single location simplifies 
enemy action and adds mission vulnerability during inclement weather, 
natural disaster, major accident, and periodic maintenance scenarios. 
All of our WSAs are aged, the oldest being 52 years with the average 
just over 38 years. We have an investment plan to recapitalize our WSAs 
at our bomber and missile wings over a 15+ year period, and we are 
working to bring that forward in the fiscal year 2016 program.

    3. Senator Vitter. General Wilson, have you examined new technology 
when it comes to a WSA recertification and ways to harness such 
technology to reduce the number of security personnel, which I am to 
believe is the largest incurred cost to operate a WSA?
    General Wilson. The command has been deeply involved in the 
planning of the new WSAs. The new WSAs are being designed to maximize 
security capabilities and take advantage of key technologies. In 
coordination with our partners, we will ensure the facility is in 
compliance with all DOD nuclear security standards, and is manned with 
the right-sized security force.

                             doe partnering
    4. Senator Vitter. General Harencak, regarding the Quadrennial 
Defense Review (QDR), there are a number of references to the United 
States maintaining a safe, secure, and effective nuclear force. The QDR 
also states that DOD will collaborate with the Department of Energy 
(DOE) when it comes to nuclear weapons and supporting infrastructure. 
DOE brings a tremendous amount of capability to the table when it comes 
to the design of our nuclear infrastructure. Has the Air Force ever 
collaborated with DOE on the design of a modern, more cost-effective 
WSA, using technology to reduce the security personnel requirement?
    General Wilson. The Air Force continues to benefit from its multi-
decade strong partnership with DOE on nuclear weapons-related programs. 
Recently, we have relied on DOE's technical expertise to support the 
design of modern, more cost-effective WSAs. Additionally, we are 
leveraging best-practices and lessons-learned from other mission 
partners--the U.S. Navy for instance--in order to optimize the 
investments we have planned in our nuclear WSAs.
    Personnel and technology are but two elements of a multi-
dimensional security construct the Air Force relies on to protect 
nuclear weapons. While future WSA designs will incorporate advanced 
technology, technology itself does not necessarily reduce the 
requirement for security forces. The Air Force remains open to 
exploring innovative, cost-effective solutions that enhance the safety, 
security, and reliability of our WSAs.

    5. Senator Vitter. General Harencak, could DOE help you solve the 
recertification issue for a second WSA?
    General Harencak. The Air Force and DOE work together frequently on 
solutions within the Nuclear Enterprise, however, the AFNWC is 
responsible for the design and certification of Air Force nuclear WSAs. 
DOE does not conduct facility certifications. The AFNWC oversees all 
Air Force nuclear facility certifications in accordance with DOE and 
DOD guidelines, and works closely with DOE to support facility projects 
and certifications.
    The question of certifying a second WSA for air launched cruise 
missiles is under consideration as part of a broader Air Force WSA 
investment initiative. In February 2014, the Air Force provided a 
report to the defense committees on this matter pursuant to the NDAA 
for Fiscal Year 2014.

                             threats abroad
    6. Senator Vitter. Ms. Bunn, the recently released QDR states, 
``our nuclear deterrent is the ultimate protection against a nuclear 
attack on the United States and through extended deterrence, it also 
serves to reassure our distant allies of their security against 
regional aggression'' and that in a new round of negotiations with 
Russia, ``the United States would be prepared to reduce ceilings on 
deployed strategic warheads by as much as one-third below New START 
levels.'' Today, Russian troops are on the march in Crimea, with no 
clear idea of their ultimate intentions. Ukraine and our NATO allies 
are dealing with Russian regional aggression today. Considering these 
threats to our allies and Russia's clear advantage in tactical nuclear 
weapons, is this an appropriate time to negotiate a further, 
significant reduction in our nuclear inventory?
    Ms. Bunn. The QDR, reiterating the findings of the Nuclear Posture 
Review follow-on analysis, and the President's nuclear employment 
guidance from June 2013, reflect the administration's determination 
that we can ensure the security of the United States and its allies and 
partners, and maintain a strong and credible strategic deterrent, while 
reducing our deployed strategic nuclear weapons by up to one-third. 
Administration officials have since been clear that any future 
reductions would not be unilateral, but part of further negotiated cuts 
with Russia. We will not enter into any agreement with Russia that is 
not in the national security interests of the United States. However, 
Russia, by its words and deeds, has demonstrated no interest in 
negotiating further reductions.

    7. Senator Vitter. Ms. Bunn, in your opinion, is Russia the type of 
partner we can trust to work with?
    Ms. Bunn. In light of recent events in Crimea, the administration 
continues to review its policy toward the Russian Federation. However, 
we continue to work with Russia under the framework of a number of 
agreements that remain in force, some bilateral and some multilateral. 
We honor our commitments under these agreements, and we expect Russia 
to hold to its obligations as well.

    8. Senator Vitter. Ms. Bunn, the QDR followed up on a June 19, 
2013, speech by President Obama, stating that in further negotiations 
with Russia, ``the United States would be prepared to reduce ceilings 
on deployed strategic warheads by as much as one-third below New START 
levels.'' Given recent issues with Russia, do you believe this is a 
wise decision?
    Ms. Bunn. In the course of developing the current nuclear 
employment guidance, the administration determined that we can ensure 
the security of the United States and its allies and partners, and 
maintain a strong and credible strategic deterrent, while reducing our 
deployed strategic nuclear weapons by up to one-third. The foundation 
of this posture is protecting the national security interests of the 
United States. Regarding further reductions, administration officials 
have since been clear that such reductions would not be unilateral, but 
be made after further negotiated cuts with Russia. However, Russia has 
so far shown no interest in negotiating further reductions, nor is the 
current climate conducive to such negotiations.


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                        MILITARY SPACE PROGRAMS

    The subcommittee met, pursuant to notice, at 3:07 p.m. in 
room SR-222, Russell Senate Office Building, Senator Mark Udall 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Udall, Donnelly, King, 
and Sessions.

       OPENING STATEMENT OF SENATOR MARK UDALL, CHAIRMAN

    Senator Udall. Let me bring today's hearing of the 
Strategic Forces Subcommittee to order.
    I want to thank our witnesses for your patience. I know 
Senator Sessions will be here shortly. I would like to deliver 
my opening statement, and then when Senator Sessions arrives, I 
know he will have some remarks as well.
    This afternoon, we will receive testimony regarding the 
Department of Defense (DOD) military space programs for fiscal 
year 2015.
    As I said, I want to thank all of you for taking your 
valuable time to be here today.
    On February 11, Director of National Intelligence (DNI), 
James R. Clapper, testified to the full committee that 
``threats to U.S. space services will increase during 2014 and 
beyond, as potential adversaries pursue disruptive and 
destructive counter-space capabilities. Chinese and Russian 
military leaders understand the unique information advantages 
afforded by space systems and are developing capabilities to 
disrupt the United States' use of space in a conflict.''
    I do not have to tell the witnesses that Director Clapper's 
statement illustrates how our policy is just now beginning to 
catch up with the threat and that our operational plans are 
just now starting to synchronize with the policy and material 
requirements flowing from the operational plans. Given these 
rapidly changing threats to our space-based assets and the need 
to examine these issues at the ground floor, this hearing is 
timely.
    General Shelton, good to see you again. I want to just say 
your command, as I know you know, is squarely in the middle of 
this vortex of events. I hope to hear more from you in this 
unclassified forum regarding what we are doing to protect space 
assets from these threats, not only now, but over the next 15 
years. I know that we are discussing plans to move away from 
larger satellites and toward smaller hosted payloads. But it is 
my understanding that we know little about the cost and benefit 
in comparison to existing satellites where we have perfected 
the engineering and are now at a point where we can procure 
them at a fixed price, allowing for incremental improvements.
    General Mann, congratulations on becoming the commanding 
officer of the Space and Missile Defense Command (SMDC). Your 
operations are located both in Colorado and Alabama which, of 
course, makes your command all the more relevant to Senator 
Sessions and myself. I understand your command is in charge of 
Kwajalein Atoll, which is one of the most important ground 
assets we have, not only for space tracking, but for missile 
testing. I am interested in hearing more about your long-term 
plans for Kwajalein and how your command supports U.S. 
Strategic Command (STRATCOM) for space situational awareness. 
Unlike military sites in my State of Colorado, Kwajalein Atoll 
does not have an elected Member of Congress to advocate for 
them and their needs. I hope to make this subcommittee their 
advocate.
    Mr. Loverro, you were with us last year. Welcome back. It 
is your job to develop the necessary policies to support DOD's 
space operations. I hope to hear how these policies are 
changing in light of the threat we face, combined with the 
fiscal constraints we are under for the foreseeable future. I 
would also like to know how you are working with STRATCOM to 
turn those policies into effective operational plans.
    Dr. Zangardi, you are a veteran in appearing before this 
subcommittee. Welcome back. The Navy is fielding the Mobile 
User Objective Satellite (MUOS) system which will allow cell 
phone-like satellite service worldwide to DOD personnel. It is 
my understanding that the Navy recently had a setback with 
satellite number 3 and has had to switch it with another 
satellite. I would like to know the status of the system and 
how the Navy is developing its ground system to support the 
MUOS constellation.
    Finally, we saved the best for last, Ms. Chaplain. You are 
our Government Accountability Office (GAO) expert on DOD space 
systems. Your reports are the bedrock for helping our 
subcommittee perform its oversight duties. I would like to hear 
about your recent findings on new entrants to the DOD launch 
market and your recent work on the Family of Advanced Beyond-
Line-of-Sight Terminals, including its cost overruns, and 
restructuring the acquisition program to only support command 
post terminals.
    I would also like to note I have some real concerns that 
the Air Force has decided to spend hundreds of millions of 
dollars over the Future Years Defense Program on developing an 
all-new helicopter at the same time they are accepting higher 
costs and increased risks for overhead architecture. They could 
save a huge amount of money by purchasing existing aircraft and 
investing the savings in improved space situational awareness 
(SSA) and smarter acquisition practices that would bring down 
the cost per copy of essential satellite programs like Global 
Positioning Satellite (GPS)-3.
    Now, my remarks here say I am going to turn to Senator 
Sessions for his opening statement and then move to the 
witnesses, but I think we could start without Senator Sessions, 
and when he arrives, we will make some time for him.
    I would like to end the hearing, if at all possible, at 
4:30 p.m. We will shoot for that. We have five witnesses. I 
think we could make that a possibility.
    Senator Sessions is arriving, so let me just finish saying 
I think I am going to ask my colleagues if 7-minute rounds are 
acceptable. If Senator Sessions would like to make an opening 
statement, I would like to recognize him now.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you. We thank all of you for being 
here and look forward to working with you as part of this 
subcommittee. We have a lot of important issues before us, and 
we depend on you and your integrity and good judgment to help 
us make the right decisions.
    General Mann, it is good to see you. We are proud of your 
new command, and good luck.
    General Shelton, this will be your last hearing, maybe? We 
appreciate your service too and all you have done.
    We are looking at the budgets for DOD. I believe that 
Secretary Hagel will be forced to make some tough decisions. I 
think all of the things that he has listed in his reductions 
will not occur. I do not think, under the Budget Control Act, 
they will have to be cut that much, which is good news. But we 
need to determine pretty soon what will end up having to be 
reduced and how we will handle that. As the ranking member on 
the Senate Budget Committee, Mr. Chairman, it is just a very 
tough time for us, but I believe if we are smart, we will be 
able to work through this without having these programs that we 
have invested so much in for so long be damaged.
    Thank you all.
    I will submit my full statement for the record.
    [The prepared statement of Senator Sessions follows:]
              Prepared Statement by Senator Jeff Sessions
    Thank you very much, Mr. Chairman, I join you in welcoming our 
distinguished panel of witnesses. I would like to extend a special 
welcome to Lieutenant General David Mann, the Commander of the Army 
Space and Missile Defense Command in Huntsville. This is General Mann's 
first hearing before this subcommittee and I look forward to working 
with him on the many important issues facing Army Space and Missile 
Defense Command. This will also likely be General Shelton's last 
hearing before this subcommittee and I would like to congratulate him 
on his distinguished career and thank him for his service. We have many 
witnesses, so in the interest of time, I will keep my opening remarks 
brief.
    The purpose of today's hearing is to discuss the fiscal year 2015 
military space budget. The impacts of sequestration on the defense 
budget are far reaching, yet the President's budget makes no serious 
attempt at addressing the debt-related issues that got us here in the 
first place. This budget demonstrates a failure in presidential 
leadership that undermines our national security. In the case of 
today's hearing, this lack of presidential leadership jeopardizes the 
strategic advantages we have enjoyed in space for much of the last 6 
decades. Our hearing today is an opportunity to hear from our witnesses 
how they plan to limit that risk.
    The acquisition of critical space capabilities has become a zero-
sum-game where program delays and cost overruns will lead to 
cancellations. No longer can we tolerate the multi-billion dollar cost 
overruns of the past 2 decades. No longer can we afford program risk, 
which this budget clearly demonstrates through its lack of new on-orbit 
capabilities and limited research and development efforts. Adversaries 
like China and Russia are rapidly positioning themselves to overtake 
American dominance in the space domain and I am concerned what falling 
behind could mean for our national security.
    Over the last year considerable advances in space denial 
capabilities have been demonstrated by China. According to an 
unclassified November 2013 U.S.-China Economic and Security Review 
Commission report, recent Chinese attempts to disguise what data 
suggests to be a new high-altitude anti-satellite capability is a cause 
for serious concern. I am troubled by these developments and look 
forward to understanding your strategy for countering and deterring 
China's offensive space efforts. I also look forward to better 
understanding whether such developments are leading the administration 
to rethink its own counter space strategy, which I have criticized in 
the past as being deficient. Increased Space Situational Awareness and 
unproven and potentially costly new distributed architectures alone 
will not provide the level of deterrence necessary to reverse these 
troubling trends.
    In closing, I would like to congratulate the Air Force for the 
significant cost savings it was able to achieve for the Evolved 
Expendable Launch Vehicle program. It is quite rare these days to see 
good acquisition news and I was pleasantly surprised to learn that the 
Air Force has achieved some $4.4 billion in total program savings since 
the fiscal year 2012 budget. I urge the Air Force to continue to take 
all steps necessary to continue to reduce costs in both launch and 
space vehicle acquisitions and to reinvest those savings in the 
development of our future space capabilities.
    Mr. Chairman, I thank you for holding this hearing and look forward 
to working with you to address the many challenges we are going to face 
this budget cycle.

    Senator Udall. Thank you, Senator Sessions.
    I want to start with Mr. Loverro and work across the panel. 
I think if you all could keep your remarks from 3 to 5 minutes, 
any additional comments you have, of course, we can include in 
the record. That will give us time for a robust round of 
questions and interaction with the members of the subcommittee. 
Mr. Loverro?

STATEMENT OF MR. DOUGLAS L. LOVERRO, DEPUTY ASSISTANT SECRETARY 
                  OF DEFENSE FOR SPACE POLICY

    Mr. Loverro. Yes, sir.
    Chairman Udall, Ranking Member Sessions, members of the 
subcommittee, I am pleased to join General Shelton, Lieutenant 
General Mann, Dr. Zangardi, and Ms. Chaplain to testify on DOD 
space programs and policies. I first testified in front of 
Congress on these topics about 1 year ago and I welcome the 
opportunity to continue that discussion today.
    As I stated last year, space remains and will continue to 
remain vital to our national security. It underpins DOD 
capabilities worldwide at every level of engagement, from 
humanitarian assistance to the highest levels of combat. It 
enables U.S. operations to be executed with precision on a 
global basis with reduced resources, fewer deployed troops, 
lower casualties, and decreased collateral damage. Space 
empowers both our forces and those of our allies to win faster 
and to bring more of our warfighters home safely. It is a key 
to U.S. power projection, providing a strong deterrent to our 
potential adversaries and a source of confidence to our allies.
    But the evolving strategic environment increasingly 
challenges U.S. space advantages. Space is no longer the sole 
province of world powers. It is a frontier that is now open to 
all. In the last several decades, space has become more 
competitive, congested, and contested. Those terms, the so-
called three Cs, have been used extensively, and I believe it 
serves us well to put them in perspective.
    On the first C, as an American, I welcome the competitive 
aspect of today's space environment. I am highly confident that 
with the right policies, the United States is well-positioned 
to remain ahead in that environment. The changes you authorized 
2 years ago on export control reform and the changes the 
National Aeronautics and Space Administration (NASA) and DOD 
have embraced on commercial launch are just two of the many 
right steps we are taking. I am not worried about the 
competitive nature of space.
    On the second C, congestion, I am not quite so welcoming, 
but I am optimistic. Congestion and debris in space is a real 
issue and it threatens to put our use of space at risk. But the 
policies and programs of the United States, programs like the 
Air Force's Space Fence, are aimed at reducing that risk. 
Likewise, the work we and the Department of State are doing 
internationally and at the United Nations to set rules of the 
road for outer space, as well as the SSA sharing work that 
STRATCOM is leading, are aimed at bringing a similar focus on 
this issue to the community of space-faring nations. I am 
somewhat confident that we are on the right course to deal with 
congestion.
    But what worries me the most is the last C, the contested 
nature of space, which we now face. Over the last 15 years, 
other nations have watched us closely and have recognized that 
if they are to challenge the United States, they must challenge 
us in space, and they are endeavoring to do so. The United 
States has successfully addressed such challenges before in 
air, sea, and land domains, and now we must likewise respond in 
space. We do so against a backdrop of a decreasing budget that 
challenges both the ability and the speed with which we can 
act, but in no way diminishes the importance of successfully 
sustaining the crucial advantages that space provides.
    Our strategic approach for these issues remains consistent 
with what we outlined in the 2011 National Security Space 
Strategy and reaffirmed in DOD Space Policy in 2012. In the 
written testimony I have submitted to the subcommittee, I have 
outlined the five key elements of this strategic approach: 
promoting the responsible, peaceful, and safe use of space; 
enhancing the resilience of DOD space architectures; partnering 
with like-minded international organizations and commercial 
firms; deterring aggression; and defeating attacks and 
preparing to operate in a degraded environment. My testimony 
also describes specific steps we are taking to implement our 
approach in each of these areas.
    I look forward to your questions. Thank you very much.
    [The prepared statement of Mr. Loverro follows:]
              Prepared Statement by Mr. Douglas L. Loverro
                              introduction
    Chairman Udall, Ranking Member Sessions, and members of the 
subcommittee, I am pleased to join General Shelton, Lieutenant General 
Mann, Dr. Zangardi, and Ms. Chaplain to testify on Department of 
Defense (DOD) space programs and policies. I first testified in front 
of Congress on these topics 1 year ago, and I welcome the opportunity 
to continue that discussion today.
    As I stated last year, space remains vital to our national 
security. It underpins DOD capabilities worldwide at every level of 
engagement, from humanitarian assistance to the highest levels of 
combat. It enables U.S. operations to be executed with precision on a 
global basis with reduced resources, fewer deployed troops, lower 
casualties, and decreased collateral damage. Space empowers both our 
forces, and those of our allies, to win faster and to bring more of our 
warfighters home safely. It is a key to U.S. power projection, 
providing a strong deterrent to our potential adversaries and a source 
of confidence to our friends.
    But the evolving strategic environment increasingly challenges U.S. 
space advantages. Space is no longer the sole province of world 
powers--it is a frontier that is now open to all. In the last several 
decades, space has become more competitive, congested, and contested. I 
am confident that with the right policies, the United States is well-
positioned to remain ahead in the competitive environment. I am equally 
confident that we are on course to deal with congestion. But what 
worries me the most is the contested environment we now face. Over the 
last 15 years, our adversaries have watched us closely and have 
recognized that if they are to challenge the United States, they must 
challenge us in space.
    The United States has successfully addressed such challenges before 
in air, sea, and land domains, and now we must likewise respond in 
space. We do so against the backdrop of a decreasing budget that 
challenges both the ability and speed with which we can act, but that 
in no way diminishes the importance of successfully sustaining our 
crucial advantages in space.
    Our strategic approach remains consistent with what we outlined in 
the 2011 National Security Space Strategy and reaffirmed in DOD 
Directive 3100.10, the DOD Space Policy, released in late 2012. In my 
testimony today, I will outline the five key elements of this strategic 
approach and describe specific steps we are taking to implement our 
approach.
       promoting the responsible, peaceful, and safe use of space
    As still the world's leading space power, the United States is 
uniquely positioned to define and promote the responsible, peaceful, 
and safe use of space. We need to do this to ensure that we can 
continue to reap the military benefits that space provides and, more 
importantly, the civil, scientific, and economic opportunities it 
presents. Space is woven into the fabric of modern economies and the 
United States, beyond all others, has led the way in using that to our 
national advantage. We are taking steps to make sure that access to and 
use of space is not threatened by irresponsible actions. DOD is working 
closely with the Department of State to establish an International Code 
of Conduct and other ``rules of the road'' for the safe and sustainable 
use of space. Those rules include common sense standards for debris 
limitation, launch notification, on-orbit monitoring, and collision 
avoidance. The United States already follows these practices and, by 
encouraging their adoption by others, could help ensure that space 
remains sustainable for the future.
    I know there are some who question the wisdom of these multilateral 
activities. They are worried that in establishing international norms 
of behavior we would limit our response options. Let me assure you, we 
do not intend to allow that to happen. We have worked side-by-side with 
the Joint Staff, combatant commands, Military Services, Defense 
agencies, and Intelligence Community to make sure that any agreement we 
develop enhances security and does not threaten current or future U.S. 
capabilities.
    I am not so naiive as to believe that a simple set of rules will 
solve all of the major issues we face--they will not; nor would I 
expect that they will inhibit those who would try to threaten our use 
of space. But common sense rules that can be embraced by a majority of 
space-faring nations will help stem the rise of uncontrollable debris, 
add demonstratively to spaceflight safety, and clearly differentiate 
those who use space responsibly from those who do not.
    Our efforts here go beyond mere words--they are backed by actions. 
As I have discussed before, a key aspect of improving spaceflight 
safety, and assuring we can monitor the space environment more closely, 
is our space situational awareness (SSA) capabilities. We have been 
working on this for some time, and I am happy to report that we have 
made some real progress over the last year. That progress comes in two 
forms--new sensors and information sharing agreements.
    On the sensor front, we have remained on a constant path for the 
last several years to reposition sensors where they can do the most 
good and to invest in new sensors where needed. Last year we reported 
that we had entered into an agreement with Australia to relocate and 
repurpose a launch tracking radar, the C-Band radar, from Antigua to 
western Australia to aid in our ability to monitor activities at low 
altitude in the southern hemisphere. That work is now underway. We 
complemented that effort with a second agreement signed with Australia 
this past November to relocate the Defense Advanced Research Projects 
Agency-developed Space Surveillance Telescope to western Australia to 
give us an unmatched ability to track deep space objects in that 
critical region of the world. Additionally, after years of focused 
effort, and a sequestration-imposed 6-month delay, we will soon award 
the contract for the first Space Fence site. The Space Fence will 
provide an unprecedented ability to track an order-of-magnitude greater 
number of objects in low earth orbit, supporting long-term spaceflight 
safety.
    The Department has also made great strides in more transparently 
sharing SSA information with other space operators. Over the past year, 
U.S. Strategic Command (STRATCOM) has continued to pursue SSA sharing 
agreements with commercial companies and foreign governments, 
consistent with existing legislative authority. This year, STRATCOM 
signed 5 agreements with other governments--Australia, Japan, Italy, 
Canada, and France--and increased to 41 our agreements with commercial 
satellite operators. Many more agreements are in varying stages of 
negotiation. We are committed to providing SSA services to enhance 
spaceflight safety for all.
    While the purpose of these agreements is to allow us to share more 
advanced space flight safety products with other space-faring nations, 
they really serve to lay the groundwork for the next stage of effort--
two-way data sharing. The space environment is too big and too complex 
for a single nation to bear the entire cost of monitoring it. Cost-
effective SSA requires cooperation among space actors. The increasingly 
congested space environment means that an unparalleled level of 
information sharing is needed to promote safe and responsible 
operations in space and to reduce the likelihood of mishaps, 
misperceptions, and mistrust. We are currently engaged in detailed 
technical discussions with several nations that have space situational 
awareness capabilities to explore opportunities for two-way information 
exchange. This type of sharing will increase SSA information available 
to the United States while limiting unnecessary duplication of SSA 
capabilities. In short, we save money and improve safety for us and our 
allies.
                    improving dod space capabilities
    Improved SSA is but one facet of the next pillar of our strategy--
improving our own space capabilities. This element boils down to a 
single refrain--make DOD space systems and architectures more 
resilient. Yes, we need to continue to improve how space systems 
operate, the services they provide, and the capabilities they create; 
yes, we need to make space systems less expensive; but above all 
others, we have to focus on making those capabilities more resilient. 
The most capable and cost-effective space capability in the world is of 
little use if it is not there when the warfighter needs it. If we are 
to overcome the challenges posed by others, resilience is job one.
    We have been talking about resilience for some time, but often I am 
unsure if we have clearly defined what we mean. In fact, I am sure we 
have confused several audiences. Before I describe specific investments 
in resilient space architectures, allow me to explain the concept.
    Resilience, in fact, is not an end in and of itself; rather we seek 
to assure the mission benefit that our capabilities provide--
omnipresent positioning from the Global Positioning System (GPS), 
global surveillance from overhead intelligence, surveillance, and 
reconnaissance (ISR), and worldwide information availability from 
Satellite Communications (SATCOM). As we see it, that assurance can be 
achieved through a combination of: (1) strengthened or resilient space 
architectures; (2) the ability to replenish lost or degraded 
capabilities; and (3) defensive operations to provide warning of and 
interruption to an adversary's attack. Making architectures more 
resilient is a combination of adequate protection, increased 
proliferation, service diversity, appropriate distribution, well-
reasoned disaggregation, and operational ambiguity--all to create a 
service that can stand up to an adversary's attack. These are the same 
force structure ideas we use in every other field of warfighting to 
help our systems survive in a hostile environment.
    With these concepts in hand, we have begun to consider resilience 
in a variety of architectural and programmatic discussions. For the 
first time ever, for example, our protected SATCOM analysis of 
alternatives is focusing on resilience. The same will be true when we 
look at overhead persistent infrared monitoring later this year. From 
an investment standpoint, we have identified extremely cost-effective 
enhancements in automated anti-jamming for our Wideband Global SATCOM 
system (WGS) to increase protection in a jammed environment. We are 
committed to assuring that GPS can face the rigors of a hostile 
battlefield environment by continuing our investment in our military 
(or ``M-code'') user equipment program. The Department continues to use 
Space Modernization Initiative (SMI) investments to improve 
affordability and capability of our current Space Based Infrared System 
and Advanced Extremely-High Frequency architectures. SMI funds are also 
being used to invest in evolutionary follow-ons to those architectures 
that disaggregate strategic and tactical elements and look at ways to 
distribute and proliferate the resulting pieces. Every aspect of these 
decisions is driven by our focus on improving space system resilience.
 partnering with like-minded nations, international organizations, and 
                            commercial firms
    Resilience, however, will not be achieved through U.S. investment 
alone. The reality of the budget is such that we cannot just hope to 
``buy our way out'' of these challenges. They are too complex, and they 
are too long term. Instead we have taken a more expansive approach: 
joining with other like-minded space-faring nations and commercial 
partners to create a coalition approach to space, just as we have done 
in other warfighting domains.
    Space is no longer limited to just a few nations. It is a major 
force structure component for each of our allies, and that is force 
structure we can all share. Whether we are talking about the dozens of 
radar and electro-optical imaging satellites that the United States and 
our allies already have on orbit, the rapidly multiplying navigation 
constellations whose satellites will soon number over 100, or the ever-
growing array of weather and SATCOM capabilities at the world's 
disposal, we have begun to recognize that the United States neither 
can, nor does it need to, go it alone in space. This is a fundamental 
shift in how we approach this problem. Just as in other fields of 
combat where we combine with allied land, sea, and air forces, so too 
can we combine our space forces with equally effective results and for 
very little increased investment.
    For example, by 2020 we anticipate that at least six nations or 
regional intergovernmental organizations will have fielded independent 
space navigation systems--our GPS network, the European Union's 
Galileo, Japan's Quasi Zenith Satellite System, the Indian Regional 
Navigation Space System, China's Compass system, and Russia's Global 
Navigation Satellite System. Those constellations will include nearly 
140 satellites, with a dizzying number of new signals and services. 
While it may be possible for an adversary to deny GPS signals through 
jamming, physical antisatellite attacks, or a cyber-attack on a ground 
control network, it is much more difficult to eliminate multiple 
services at the same time. Assuring U.S. warfighters have access to the 
bulk of these systems is a very powerful way to make sure no warfighter 
will ever have to face battle without the incredible benefit of space-
enabled positioning, navigation, and timing (PNT). To that end, we have 
begun negotiations with like-minded PNT owner/operators to ensure the 
United States has that access. We must likewise ensure our equipment is 
capable of receiving these different signals--just as is already 
happening in commercial applications.
    The same is true for other space services and is already bearing 
fruit in our plan for future space weather capabilities. We closely 
examined what we could get from others--international partners, U.S. 
civil agencies, the commercial sector, and even non-space services--and 
we defined a new, minimal, DOD owned- and operated-system that is an 
order-of-magnitude less expensive than the previously planned system it 
replaces. Together this ``system of systems'' meets U.S. warfighting 
needs in a way that stymies an adversary's ability to threaten the 
resulting whole. A combination of diversity, distribution, 
disaggregation, and proliferation can increase resilience while 
reducing needed investment.
    This approach is particularly well-suited to areas in which the 
commercial world plays a major role, such as remote sensing. In this 
area, we are aligning several of our policy elements to take advantage 
of and hasten the diversity- and proliferation-driven resilience I have 
been discussing. Building on over a decade of experience with 
traditional commercial providers, we are reexamining commercial remote 
sensing licensing policy, while leveraging new authorities to relax 
export controls for systems that are widely available commercially. Our 
aim is to posture U.S. industry--both traditional commercial providers 
and entrepreneurial start-ups--to compete successfully in a burgeoning 
global marketplace.
                          deterring aggression
    The fourth strategic element is to prevent and deter aggression 
against our space systems. In fact, all of the policy elements I have 
covered thus far--promoting responsible use, improving our own 
capabilities, and partnering with allies and commercial space 
providers--are also aimed squarely at this fourth strategy element. 
Those efforts are complemented by a focus on SSA to provide timely and 
accurate indications and warning prior to an attack and attribution 
during and after an attack, with a focus on command and control systems 
that support our ability to respond appropriately.
    Let me discuss two efforts aimed at those objectives. First is our 
Joint Space Operations Center Mission Systems. That program delivered 
its first operational increment early last year, and we are on track to 
complete increment two in fiscal year 2017. That will be followed by 
additional increments that support characterizing attacks and 
coordinating operational responses.
    The second is the Geosynchronous Space Situational Awareness 
Program recently announced by General Shelton. This previously 
classified program will deliver two satellites later this year for 
launch into near geosynchronous orbit (GEO). From that unique vantage 
point they will survey objects in the GEO belt and allow us both to 
track known objects and debris and to monitor potential threats that 
may be aimed at this critically important region. In short, threats can 
no longer hide in deep space. Our decision to declassify this program 
was simple. We need to monitor what happens 22,000 miles above the 
Earth, and we want to make sure that everyone knows we can do so. We 
believe that such efforts add immeasurably to both the safety of space 
flight and the stability that derives from the ability to attribute 
actions--to the benefit of all space-faring nations and all who rely on 
space-based services.
    Taken together, all of these elements combine to enhance stability 
and deterrence--seeking to reduce the likelihood of attack, to provide 
the necessary indications and warning to take evasive actions prior to 
an attack, to deny benefits to the adversary if such attacks are 
undertaken, to attribute the source of the attack, and to make it 
impractical for an adversary to isolate the United States from the 
community of space-faring nations that will be affected.
  defeating attacks and preparing to operate in a degraded environment
    Even with all these efforts in place, however, attacks may occur. 
Our last strategic element is to assure we can defeat attacks and 
prepare to withstand them should they occur. Much of our effort in this 
area is coordinated through our Space Security Defense Program (SSDP). 
SSDP was established last year as an outgrowth of the Space Protection 
Program initiated in 2008 by Air Force Space Command and the National 
Reconnaissance Office. SSDP is developing methods to protect and defend 
our space systems by finding ways to counter the ever growing list of 
threats they will face.
    Several of the initiatives I have already mentioned today, such as 
the WGS automatic anti-jamming capability, are derived from work of 
SSDP. We have requested increased funding for SSDP this year to allow 
them to examine non-material solutions, such as changes to tactics and 
procedures, that can be implemented today. While our long-term intent 
is to move to more resilient and more defendable space architectures, 
we have over a decade before those systems will even begin to deploy, 
and we need to protect ourselves and our on-orbit systems now.
                             other matters
    Let me conclude by moving from our overall strategy to address 
specific matters in which I know there is continuing interest. First, 
last year your colleagues in the House Armed Services Committee 
challenged me to explain why the United States was leasing 
communication links from a Chinese provider to support U.S. Africa 
Command (AFRICOM). I agreed that while the initial lease was driven by 
operational need, it was not an appropriate long-term solution. I 
pledged that we would address the issue as quickly as possible. I am 
happy to report that we have. Working with us, AFRICOM has made 
significant progress over the last year in moving DOD SATCOM leases 
from the Chinese Apstar system to other commercial satellite providers 
in the region. We have already transitioned over 75 percent of the 
Apstar bandwidth to other satellites, and our intent is to be 
completely transitioned by May of this year.
    Second, we are developing a better strategy for making long-term 
commitments to commercial SATCOM providers to reduce cost, increase 
capability, and add resilience. Later this year, Air Force Space 
Command will purchase a commercial transponder, one that is already in 
space, for use by AFRICOM. This is not a lease--instead it is 
government ownership of an on-orbit asset that will be managed and 
operated by the commercial provider at a small fraction of the cost 
that it would take to lease this capability on an annual basis. Not 
only will this transponder help to accelerate the move off of Apstar, 
it will provide needed experience with this new method of acquiring 
commercial SATCOM, potentially ushering in a revolutionary way to do so 
worldwide.
    Third, we recently welcomed the President's new National Space 
Transportation Policy, released November 21, 2013. This policy will 
help ensure the United States stays on the cutting edge by maintaining 
space transportation capabilities that are innovative, reliable, 
efficient, competitive, and perhaps most importantly, affordable. This 
policy supports DOD's ongoing efforts to provide stability to the 
industrial base that currently provides launch vehicles to the national 
security community by mandating that all programmatic decisions are 
made in a manner that considers the health of the U.S. space 
transportation industrial base. The policy also calls for a level 
playing field for competition that can spur innovation, improve 
capabilities, and reduce costs, without increasing risk. The 
President's budget request already bears evidence that this strategy is 
working: the Evolved Expendable Launch Vehicle request has been reduced 
significantly. Those benefits will become even greater in the future as 
we fully qualify new entrant launch providers, an effort that is 
already well underway.
    Fourth, we continue to make progress in building coalition space 
operations. Led by STRATCOM, the Department is working with close 
allies on cooperation, not only in the systems we fly, but in the 
operations we perform. This initiative paves the way for far closer 
operational collaboration with allies than we have ever had, with the 
aim of eventually broadening participation to include additional space-
faring countries.
    Finally, just as the United States develops its space capabilities 
and leverages them to support military operations, so too do other 
countries. We are increasingly seeing rival nations begin to integrate 
space into their own operations in the same way as the United States 
and our allies have done for years. This is not unexpected. But it does 
mean that the benefits we ourselves derive from space will begin to be 
available to those that we may someday have to face in combat. We 
recognize that this is the reality of the future and we are beginning 
to prepare to face a more capable adversary. We appreciate the 
increased interest from Congress in this area and look forward to 
working with you over the coming years to assure our strategies and 
plans in this area are thoroughly deliberated.
                               conclusion
    Mr. Chairman, thank you for the opportunity to provide these 
updates on the Department's space policies and programs. My colleagues 
and I look forward to working closely with Congress, our interagency 
partners, our allies, and U.S. industry to continue implementing this 
new approach to space.

    Senator Udall. Thank you very much.
    Dr. Zangardi?

 STATEMENT OF DR. JOHN A. ZANGARDI, DEPUTY ASSISTANT SECRETARY 
 OF THE NAVY FOR COMMAND, CONTROL, COMMUNICATIONS, COMPUTERS, 
        INTELLIGENCE, INFORMATION OPERATIONS, AND SPACE

    Dr. Zangardi. Good afternoon. Chairman Udall, Ranking 
Member Sessions, Senator Donnelly, Senator King, thank you for 
the privilege today to speak before you and with this 
distinguished panel.
    I am happy to announce that the MUOS program continues to 
make positive strides in achieving overall program goals. On 
the heels of our first successful launch of Space Vehicle (SV)-
1, in February 2012, SV-2 launched from Cape Canaveral, FL, on 
July 19, 2013. Its legacy payload--that is, the ultra-high 
frequency (UHF) payload--is available now for early operational 
use. Our three remaining satellites are on schedule to be 
launched in January 2015, August 2015, and sometime in 2016.
    The most significant challenge for the program over last 
year has been delays with satellite number 3. During last 
year's thermal vacuum testing, satellite 3's legacy payload 
experienced an uncommanded shutdown. The program office 
initiated a thorough investigation and identified the root 
cause as insufficient solder volume during the production of 
the output multiplexer (OMUX). The program office initiated 
corrective actions and has since determined that this 
deficiency is isolated to satellite 3 only. Satellites 4 and 5 
are not impacted. Since satellites 3 through 5 are under a 
fixed price incentive fee contract, the U.S. Government will 
not incur any additional expenses due to the delay.
    In order to minimize the schedule delay of approximately 6 
months, the Navy has decided to move satellite 4 up into the 
third launch slot in January 2015.
    The MUOS program continues to meet objectives for ground 
sites in Geraldton, Australia; Wahaiawa, HI; and Northwest, VA. 
These sites have completed hardware installation and final 
acceptance testing and have been officially handed over to 
Fleet Cyber Command. The fourth site at Niscemi, Sicily, 
recently cleared a major hurdle. I would like to thank the 
State Department for their efforts in working with the Italian 
Government to bring resolution to the installation of the three 
large antenna dishes.
    Terminal development continues as the Army lead on the 
Manpack radio is in the final phases of development to support 
the upcoming MUOS multiservice operational test and evaluation 
(MOT&E). Army fielding of the MUOS-capable Manpack radios is 
scheduled to begin in fiscal year 2015 and continue through 
fiscal year 2027.
    Additionally, the Navy is developing the MUOS capability 
for the Digital Modular Radio to support shipboard operations.
    While these two radios are our primary focus, several U.S. 
terminal vendors have contacted us to gain access to the MUOS 
testing laboratories. Three vendors have been scheduled to 
utilize the laboratories beginning in March and others will be 
scheduled in the near future as their terminals are ready for 
testing. These additional terminals are expected to greatly 
increase the number of MUOS terminals over the next several 
years.
    Over the past 18 months, the program has conducted numerous 
phases of testing and is in the final risk reduction testing 
before conducting the MOT&E later this year. MOT&E is the final 
test that will certify the system operational, testing the full 
end-to-end capability of the terminals, ground stations, and 
satellites utilizing real-world scenarios in order to achieve 
initial operational capability (IOC). The Navy is extremely 
proud of our MUOS program and we look forward to seeing the 
program become operational.
    Senators, I am standing by for your questions.
    
    [The prepared statement of Dr. Zangardi follows:]
               Prepared Statement by Dr. John A. Zangardi
                              Introduction
    Mr. Chairman, distinguished members of the subcommittee, I am 
honored to appear before you today to address the Navy's space 
activities. Space capabilities underlie the Navy's ability to operate 
forward and meet increasing anti-access/area denial (A2/AD) demands 
with a shifting focus towards the Pacific. The Navy continues to be 
highly dependent upon space-based systems for beyond line of sight 
communications; missile warning, intelligence, surveillance and 
reconnaissance, and environmental remote sensing to provide battlespace 
awareness in support of joint warfighting and global maritime 
operations; and positioning, navigation and timing information for 
critical command and control, battlespace and global navigation, and 
information system timing. The Air-Sea Battle Concept, whereby joint 
air and naval forces retain freedom of action through tight 
coordination of operations in and across multiple domains, highlights 
the particular importance and criticality of the space domain. With the 
emergence and proliferation of anti-satellite and counter-space 
weapons, the United States can no longer assume that the space domain 
will remain uncontested. Our service must remain nimble and agile as we 
deal with these new space threats.
    In the face of rapidly emerging threats in space, the Navy must 
continue to pursue new investment strategies and widely diverse 
capabilities to provide resilient access to space and space services to 
ensure mission success. As adversaries become more proficient in their 
use of space capabilities, they will continue to develop both offensive 
and defensive space capabilities in an attempt to remove or reduce the 
asymmetric advantage the United States enjoys in the space domain. It 
is critical the Navy continue to leverage space capabilities while 
improving the resilience of future space architectures to meet 
information demands in an increasingly contested electromagnetic 
environment. The Navy must also identify alternative sources and 
capabilities and work with the other Services to develop and refine the 
necessary tactics, techniques, procedures, and operational plans to 
help preserve Navy fleet information dominance in degraded or denied 
areas.
    The Navy's Information Dominance strategy fully integrates the 
Navy's information functions, capabilities, and resources to optimize 
decisionmaking and maximize warfighting effects. Navy leaders 
increasingly rely on critical satellite communications (SATCOM) paths; 
positioning, navigation, and timing (PNT) signals; environmental 
monitoring (EM) data; missile warning (MW); and intelligence, 
surveillance, and reconnaissance (ISR) reporting to satisfy the three 
pillars of Information Dominance: assured command and control (C2), 
battlespace awareness, and integrated fires. Maintaining access to, and 
proficiency in, operations utilizing all of these space capabilities 
enables decisiveness, responsiveness, and agility--critical attributes 
for a forward-deployed force operating in an anti-access/area denial 
environment.
                  mobile user objective system (muos)
    The capabilities, flexibility, and robustness of our Navy and Joint 
forces across the board require improved access to reliable worldwide 
communications to successfully execute their missions. The Navy's MUOS, 
with its advanced technology wideband code division multiple access 
(WCDMA) payload, is the key enabler that will support worldwide multi-
Service users in the Ultra High Frequency (UHF) band for many years to 
come. MUOS will provide increased communications capabilities to 
smaller terminal users that require greater mobility, higher data 
rates, and improved operational availability. As today's legacy UHF 
satellite constellation continues to age, MUOS, with its legacy 
payload, provides the bridge to allow our forces time to transition to 
the newer and more capable WCDMA terminals.
    The MUOS program continues to make significant strides in achieving 
the overall program goals. In February 2012, the first satellite was 
launched and within 8 months its legacy payload was made operational in 
order to replace a failing UFO-5 satellite, providing seamless 
transition without any degradation in service. The second MUOS 
satellite launched from Cape Canaveral, FL on July 19, 2013, and its 
legacy payload is now available for early operational use in the event 
of an unexpected failure of an on-orbit legacy satellite. The remaining 
three satellites are under a fixed price incentive fee contract and 
will launch in January 2015, August 2015, and a date to be determined 
in 2016.
    Production of satellites #4 and #5 has gone very well, however 
there have been challenges with satellite #3. During last year's 
thermal vacuum testing, satellite #3's legacy payload experienced an 
uncommanded shutdown. The subsequent investigation using photographic 
inspection, contractor logs and technician interviews identified the 
root cause as insufficient solder volume during the production of the 
Output Multiplexer (OMUX). The program office has initiated corrective 
actions and through extensive investigation has determined that this 
deficiency is isolated to satellite #3 only. It does not affect any of 
the other satellites.
    In order to minimize impact on the launch schedule, the third 
satellite will be repaired and launched in a later launch slot, and the 
fourth production satellite is on track to take its place on the launch 
schedule in January 2015. That is a 6 month slip from the original 
schedule. Because of an effective contract structure, the government 
will not expend any additional funds to bring the third satellite up to 
standards. Additionally, thanks to flexible program management and the 
ability to launch satellite number four earlier than planned, the 
warfighters who depend on satellite communications will see no change 
in service.
    In addition to the spacecraft, the MUOS program continues to meet 
objectives for the ground sites in Geraldton, Australia; Wahiawa, HI; 
and Northwest, VA. These sites have completed hardware installation and 
final acceptance testing, and have been officially handed over to Fleet 
Cyber Command. The fourth site at Niscemi, Sicily, has had several 
setbacks over the past year as Italian protesters have caused 
significant delays; however, the program recently cleared a major 
hurdle with the installation of the three large antenna dishes at the 
Niscemi site. The U.S. and the central Italian Governments have worked 
together closely and Navy officials have increased cooperation with the 
local Sicilian authorities to maintain unfettered access to the site. 
Italian Government studies were released in 2013, reassuring the local 
population that all RF levels at the site are within safe and normal 
operating levels. Two previous studies were conducted by the U.S. Navy 
with acceptable results by both American and Italian health standards. 
The Navy resumed work late last summer at the site, and the current 
projection is to finish work by the end of this year.
    The final segment needed to achieve full MUOS capability is the 
fielding of the MUOS-capable terminals. The MUOS waveform software was 
completed in 2012, placed in the Joint Tactical Network Center (JTNC) 
Information Repository, and made available to industry in December 
2012. The first terminal that will be fielded and has been used to 
complete the initial phase of the MUOS End-to-End (E2E) testing is the 
AN/PRC-155 Manpack Radio. The U.S. Army PEO C3T Tactical Radio Program 
has developed this terminal by adding the MUOS capability to this new 
radio. Army fielding of MUOS capable Manpack radios is scheduled to 
begin in fiscal year 2015 and continues through fiscal year 2027.
    Additionally, the Navy is currently adding the MUOS capability to 
its Digital Modular Radio (DMR) to support shipboard operations. 
Upgrade kits will be fielded in fiscal year 2016 to existing UHF SATCOM 
DMRs and older systems will begin full DMR installations in fiscal year 
2017 with 196 radios fielded by 2020. The Navy has been contacted by 
several MUOS terminal vendors to gain access to the MUOS testing labs. 
Three vendors have been scheduled to utilize the Navy testing labs 
beginning in March and others will be scheduled in the near future as 
their terminals are ready for testing. These additional terminals are 
expected to greatly increase the numbers of MUOS terminals over the 
next several of years.
    Since the beginning of the MUOS program, development of the full 
MUOS capability has been managed through multiple program offices, 
including PMW 146 (Navy), Tactical Radio Program Office (Army), Joint 
Tactical Networking Center (Army) and the Defense Information Systems 
Agency. Significant progress has been made since the Navy was assigned 
overall responsibility by USD(AT&L) in May 2012 to deliver the MUOS 
End-to-End capability. The first phase of events designed to reduce 
risk associated with seams between each of the program offices has been 
completed. WCDMA voice and data calls were successfully transmitted by 
a Manpack Radio through the MUOS-1 satellite, routed through the MUOS 
ground system using a single ground site, and received by a second 
Manpack Radio. The second phase of risk reduction events is in progress 
and involves 2 MUOS satellites, 2 ground stations, and at least 15 
Manpack Radios. The next major event for the MUOS program is the 
completion of the Multiservice Operational Test and Evaluation (MOT&E) 
which will occur later this year. The MOT&E is the final test that will 
certify the system operational, testing the full E2E capability of the 
terminals, ground stations and satellites utilizing multiple 
operational scenarios. Once the system is certified the program will 
achieve Initial Operational Capability (IOC) followed by Full 
Operational Capability (FOC) after all five satellites have been 
launched and tested.
    Additional developmental testing was sponsored by the prime 
contractor in 2013. Initial indications are that MUOS may provide some 
coverage for narrowband SATCOM in the Arctic. A recent test 
successfully communicated over MUOS to an aircraft flying at 23,000 
feet at 89.5 North latitude. Further testing will be required to 
determine if and to what degree surface ships could employ MUOS to 
communicate in ice free waters in that region. Routine surface and 
subsurface operations in the region cannot be supported as there is 
insufficient coverage. The USAF EPS is required to support joint Arctic 
operations. MUOS is not capable of supporting joint Arctic operations, 
and it does not provide a protected SATCOM capability. Protected SATCOM 
is essential to these operations.
                        navy multiband terminal
    The increasing threat to access Space is a growing Navy concern. 
A2/AD threatens satellite communications systems that enable critical 
warfighter commander assured C2 functions. The Advanced Extremely High 
Frequency (AEHF) Satellite communications program acquired and deployed 
by the USAF provides a means to protect satellite communications. The 
Navy Multiband Terminal (NMT) Program will allow the Navy to leverage 
the AEHF satellite communications program to mitigate this risk. NMT 
provides secure, protected, and survivable high capacity mission 
bandwidth access for all warfare areas in an A2/AD environment. NMT 
variants are being installed on surface ships, submarines, and shore 
sites, including ground sites for the Enhanced Polar System program. 
Each order for a production lot of NMTs requires a 15-month lead time 
for the first unit of delivery. The remaining units can be delivered 
over a 12-month window. Once a unit is delivered to the Navy, it 
undergoes an additional period of Government testing of up to 2 months 
prior to being delivered to its ultimate installation platform. This 
timeline means that an NMT unit may be bought up to 29 months prior to 
installation, giving an inaccurate perception of being early to need. 
Further program cuts could lead to breaks in production, which will 
negate learning curve efficiencies and increase production costs, while 
delaying delivery of this much needed capability for the warfighter. 
Given these points, if current budget funding levels remain stable, 
program FOC will occur in 2022.
                  positioning, navigation, and timing
    Precise time and time interval (PTTI) is absolutely critical to the 
effective employment of a myriad of Department of Defense (DOD) 
systems. Coordinated Universal Time as referenced to the U.S. Naval 
Observatory (UTC-USNO) is the DOD standard and the primary PTTI 
reference for the Global Positioning System (GPS). The Navy remains at 
the forefront of timekeeping technology with the USNO Master Clock, an 
ensemble system of independent atomic clocks. Four Navy Rubidium 
Fountain (NRF) atomic clocks achieved FOC at USNO Washington, DC in 
August 2013. These additions to USNO's timing suite improve UTC-USNO to 
better than one nanosecond per day as required for GPS III. The DOD 
Alternate Master Clock facility in Colorado Springs, CO received its 
second of two planned NRF clocks in early February. IOC was delayed to 
September 2014 and September 2015, respectively, due to furloughs and 
funding cuts.
    The Navy initiated a Critical Time Dissemination (CTD) program in 
2013 to ensure PTTI remains available to DOD users in contested 
environments. This program will provide critical upgrades to timing 
stations to overcome dependence on GPS-only solutions and ensure 
correct PTTI delivery to the warfighter. These efforts are being 
resourced and executed in concert with DOD Chief Information Officer 
(CIO) priorities and the department's long term strategy for Assured 
PNT. CTD funding supports four lines of effort: development of a radio-
frequency interface, a timing reference upgrade, timing system 
integration, and development of an optical interface. The $3 million 
cut to CTD research and development in the fiscal year 2014 budget due 
to `excess growth' will retard program goals at least 1 year to fiscal 
year 2019.
    The Military-Code (M-Code) GPS signal is a new encrypted signal for 
military users designed for resiliency. The USAF led development of M-
Code GPS User Equipment is critically important to the warfighter in 
order to capitalize on the advantage gained by precise PNT while 
enhancing its ability in a denied and degraded environment. Hand-held 
requirements are vital to the USMC, however current development has 
been deferred to increment 2, and delaying USMC access to M-code beyond 
fiscal year 2022. Protecting the funding for its development is 
important to ensure that the ground segment keeps pace with on orbit 
capabilities and provide future access to space-based PNT for ground 
forces utilizing hand-held devices.
                        environmental monitoring
    Environmental monitoring is a vital capability that the Navy relies 
on for its short- and long-term forecasts, as well as climate 
monitoring programs. Satellite data is the primary method for 
collecting these large volume data sources that are used to feed the 
Navy's, as well as other Federal and International numerical models. As 
the DOD budget has decreased over the past several years, the Navy has 
relied on other Federal agencies and international governments to 
provide the necessary data. The DOD is not the only organization 
feeling the budget crisis. Smaller budgets are a reality for space 
organizations around the world and thus there is the potential of being 
left without the necessary resources to ensure operations can be 
conducted safely and efficiently. In order to develop mitigation plans, 
the Navy has been participating with the Air Force in a study to review 
the operational requirements for Space-based Environmental Monitoring. 
This study has shown that space-based solutions are required; 
especially to support Ocean Surface Vector Wind and Tropical Cyclone 
Intensity. The study is due to report out by the end of April but the 
Navy is hopeful that the documented requirements will be met with the 
necessary resources to support this vital service need.
          intelligence, surveillance, and reconnaissance (isr)
    The Nation's recent focus on the western Pacific and the Arctic has 
increased the need for better access to space-based ISR systems. The 
WESTPAC and Arctic key maritime operating areas of interest are located 
in remote regions of the Earth, cover very large expanses of water, and 
offer limited access from land-based and airborne sensors. Space-based 
sensors are not restricted in these areas. In fact they are well-suited 
to support the wide variety of missions the U.S. Navy is called upon to 
support, from both a strategic and defensive perspective, for the 
Nation as well as our International Partners.
    Significant progress has been made since last year's testimony in 
defining maritime collection needs for future national and commercial 
ISR systems. Over the last year the Director of National Intelligence 
has completed work on a series of capability documents for our next 
generation national systems. These documents outline required sensor 
collection capabilities as well as system architecture design 
specifications. The U.S. Navy has been actively engaged in ensuring the 
Nation's maritime collection needs are properly defined so the sensors, 
when fielded, will be able to provide the required collections to 
support these missions well into the 2030 timeframe and beyond. The 
Navy is also working with the National Geo-Spatial Intelligence Agency 
to determine what role commercial satellite systems can play in meeting 
our collection needs. Commercial sensors offer unique collection 
capabilities for the maritime domain that in some cases exceed national 
systems capabilities, cost less than their national counterparts, and 
provide information at the unclassified level which ease data flow 
within DOD as well as with our allies and coalition forces. Although 
national security concerns do preclude use of commercial sensors for 
some collection operations, they can play a significant role in filling 
collection gaps.
                            nano satellites
    With the increasingly contested nature of space and the 
promulgation of International counterspace capabilities, the pressure 
has been turned up for more resilient, cost-effective access to space 
and capability on orbit. In response, the Navy is participating in nano 
satellite initiatives designed to provide low cost and quick response 
capability for emerging space requirements. One such effort is the 
Vector Joint Capability Technology Demonstration, which launched two, 
foot-long ``CubeSats'' in November 2013 to demonstrate advanced 
communications capabilities. Both satellites were part of the 
Operationally Responsive Space (ORS)-3 mission which launched from 
Wallops Island, VA on a MINOTAUR IV space vehicle. The satellites will 
be demonstrated and their military utility assessed by our mission 
partners through the spring of 2014. The multi-mission satellite is 
designed with an open payload interface that allows third party 
capabilities to be integrated quickly. Three companies are now 
developing prototype naval payloads for the multi-mission satellite 
using our Small Business Innovative Research program. While not as 
capable as larger satellites, nano satellites can be launched in 
relatively short timelines in order to address a quickly evolving 
operational need.
                               conclusion
    The Navy continues to be reliant upon space for SATCOM, PNT, EM, MW 
and ISR information in order to enable decisionmaking in increasingly 
contested and denied environments. Growing global uncertainty and 
emerging and expanding adversary capabilities will continue to require 
the Navy to become more resilient and efficient in the use of available 
assets in order to maintain the level of effectiveness that the Nation 
expects. This will require a revalidation of fleet information 
requirements and promotion of resilient measures to ensure that threats 
to space access and services are continuously evaluated and that 
mitigations are in place to ensure forward-deployed commanders have the 
tools necessary to ensure mission success.
    Mr. Chairman, thank you for the opportunity to share our efforts 
with you today. We look forward to answering any questions you and the 
subcommittee may have.

    Senator Udall. Thank you, Dr. Zangardi.
    General Shelton?

  STATEMENT OF GEN. WILLIAM L. SHELTON, USAF, COMMANDER, AIR 
                      FORCE SPACE COMMAND

    General Shelton. Mr. Chairman, Senator Sessions, Senator 
Donnelly, Senator King, it is an honor to appear before you 
once again as the Commander of Air Force Space Command. It is 
also a privilege to appear with these distinguished witnesses 
on the panel here.
    As you noted in your opening statement, our Nation's 
advantage in space is no longer a given. The ever-evolving 
space environment is increasingly contested as potential 
adversary capabilities grow in both number and sophistication. 
Providing budget stability and flexibility in this very dynamic 
strategic environment is necessary to maintain and bolster the 
viability of our Nation's space capabilities. Given this new 
normal for space, I believe we are at a strategic crossroads. 
It is a reality that requires us to address how we protect our 
space systems, challenge traditional acquisition practices, and 
consider alternative architectures that are more resilient and 
more affordable.
    I thank you for your support, and I look forward to working 
with Congress to keep you abreast of our efforts to provide 
resilient, capable, and affordable space capabilities for the 
joint force and for the Nation. Thank you.
    [The prepared statement of General Shelton follows:]
          Prepared Statement by Gen. William L. Shelton, USAF
                              introduction
    Chairman Udall, Senator Sessions, and distinguished members of the 
subcommittee, it is an honor to appear before you once again as the 
Commander of Air Force Space Command (AFSPC). As the Air Force space 
and cyberspace lead, I am responsible for organizing, training, and 
equipping more than 40,000 military and civilian employees to provide 
Air Force space and cyberspace capabilities for the combatant commands 
and for the Nation. My team works hard to deliver these capabilities 
around the world, every hour, every day.
    Space and cyberspace capabilities are foundational to the Joint 
Force Commander's ability to deter aggression and to execute global 
operations across the entire range of military operations, from 
humanitarian and disaster relief through major combat operations. Our 
military satellites and computer networks are technological marvels, 
providing mission-critical global access, persistence, and awareness. 
These systems not only provide essential, game-changing capabilities 
for our joint forces, they are increasingly vital assets for the global 
community and world economy.
    Specifically in space, our sustained mission success integrating 
these capabilities into our military operations has encouraged 
potential adversaries to further develop counterspace technologies and 
attempt to exploit our systems and information. Therefore, I believe we 
are at a strategic crossroad in space. With the threats to our space 
systems increasing and defense budget uncertainty, the status quo is no 
longer a viable option. This ``new normal'' in space requires us to 
address protection of mission-critical systems, challenge traditional 
acquisition practices, and analyze new operational constructs.
    The grand challenge before us is to assure essential space services 
will be available at the time and place of our choosing, while 
simultaneously lowering the cost of executing these missions. Finally, 
the budget situation of the last year certainly reminded us that our 
ability to provide these services now and into the future is fragile.
 mandate for change: future space capabilities at a strategic crossroad
    The space environment has fundamentally changed since our fledgling 
efforts in the late 1950s and early 1960s. Our space systems were 
designed to operate in a relatively benign environment, and the detente 
between the United States and the Soviet Union kept the peace--even in 
space. There were few space-faring nations, and even fewer with 
indigenous launch capability. Today, there are more than 170 nations 
with some form of financial interest in a variety of satellites, and 11 
nations that can independently launch satellites into space. The rapid 
expansion in space traffic over the past 50+ years occurred largely 
without conflict, but that era is coming to an end.
    The joint force dependence on space assets yields a corresponding 
vulnerability we know others seek to exploit. Counterspace developments 
by potential adversaries are varied and include everything from jamming 
to kinetic kill anti-satellite weapons. Global Positioning System (GPS) 
jammers are widely available, complicating our employment of GPS 
navigation and timing signals in weapons and platforms. Satellite 
communications jammers are also available, which may challenge over-
the-horizon communications when needed most. Also, some nations have 
developed and successfully demonstrated anti-satellite weapon 
capabilities which could threaten our satellites in times of conflict. 
Unfortunately, all projections indicate these threatening capabilities 
will become more robust and proliferated, and they will be operational 
on a shorter than predicted timeline.
    In addition to adversarial counterspace programs, the growing 
debris problem is also a concern to spacecraft operators in all space 
sectors: military, civil and commercial. While we are routinely 
tracking some 23,000 objects at the Joint Space Operations Center 
(JSpOC), our sensors are unable to detect and reliably track objects 
smaller than 10 centimeters. Our models project more than 500,000 man-
made objects greater in size than one centimeter in orbit today--many 
of these small objects represent a potentially catastrophic risk to 
fragile-by-design spacecraft.
    We are also addressing the President's direction to support the 
National Broadband Plan by finding balance between assured access, 
spectrum sharing and reallocation/repurposing. Use of radio spectrum 
for ground-space communications must be protected from both a 
regulatory perspective and from targeted adversary action.
    With the rapidly expanding adversary threats to our spacecraft, the 
growing debris population and decreasing budgets, we must adapt our 
satellite constellation architectures to become more resilient, while 
simultaneously making them more affordable. Just as combat aircraft 
necessarily evolved with the threat, we can no longer expect satellites 
built for a permissive environment to operate effectively in an 
increasingly contested space domain.
    Due to the cost of launching satellites, our design philosophy has 
been to maximize the functionality on a given satellite, which 
translates to increased weight, size and corresponding cost. As a 
result, we build just enough satellites, just in time, to sustain our 
constellations. This philosophy worked well over the years, but in the 
new normal of space, we are vulnerable to the cheap shot or to 
premature failure. For example, loss of a single satellite in our 
missile warning or our protected communications constellations would 
potentially leave large gaps in a vital capability. We must consider 
different architecture options that will provide adequate and resilient 
capability at an affordable cost. Our die is cast through the mid-2020s 
with the outstanding satellites we are buying and successfully placing 
on orbit to support national security objectives and joint operations. 
Because of lengthy acquisition timelines, to affect these architectures 
in the post-2025 timeframe, we need to complete ongoing studies soon to 
determine the most efficient approach for the future.
                     confronting budget challenges
    Based on available funding, we made difficult decisions in the 
Command to survive fiscal year 2013. The Budget Control Act of 2011 
resulted in significant fiscal year 2013 cuts to the Operations and 
Maintenance (O&M) budget at Air Force Space Command, which in turn 
compelled irreversible changes and significant risk to space operations 
going into fiscal year 2014. The welcome relief and flexibility 
provided by the fiscal year 2014 Appropriations Act is sustained in the 
fiscal year 2015 President's budget--our space operations budget 
requires this level of support to maintain our current operational 
posture and manage risk in changing operating conditions.
Impact of Sequestration
    Despite our cost reduction efforts, last year's sequestration cuts 
required drastic actions at AFSPC. We cut $304.8 million from our O&M 
budget for fiscal year 2014 alone to comply with the Budget Control 
Act. Achieving that magnitude of reductions required continued civilian 
workforce pay freezes, a 25 percent reduction of contractor services 
within my headquarters (on top of a 50 percent reduction the year 
before), inactivation of some operational capabilities, and most 
notably $100 million of additional risk in Weapon System Sustainment 
funding. This means that in fiscal year 2015, vital sustainment 
activities are delayed or deferred, which could translate into system 
outages of increased duration or severity. Additionally, AFSPC uses a 
significant portion of our O&M budget to fund mission-essential 
contractor operators for our space and cyberspace missions--there is no 
flexibility here. Our search for savings over the last several years of 
declining budgets virtually eliminated any margin in O&M; therefore, 
the cuts began to erode these contracts which are essential to perform 
and sustain our mission.
    While the Bipartisan Budget Act of 2013 alleviates a portion of the 
cuts we were facing in fiscal year 2014 and fiscal year 2015, we remain 
concerned that continued sequestration-induced budget cuts in fiscal 
year 2016 and beyond, as well as overall funding instability, could 
undermine our space capability for years to come.
  challenging legacy space architectures and traditional acquisition 
                               practices
    This past year, we continued success in our acquisition programs to 
provide greater mission assurance and cost savings. As we transition 
from development to production, we have captured success through lean 
processing, smart testing and appropriate oversight and reporting. The 
Space and Missile Systems Center (SMC) made tremendous strides 
implementing ``should-cost'' initiatives that resulted in real program 
savings of more than $1.4 billion across the Future Years Defense 
Program. The result of these actions can be seen in streamlined 
assembly, testing and delivery of a number of programs to include 
Advanced Extremely High Frequency (AEHF), Space-Based Infrared System 
(SBIRS), Wideband Global Satellite Communications (WGS) and GPS III.
Space Modernization Initiative (SMI)
    In 2011, AFSPC adopted the Efficient Space Procurement (ESP) 
concept to reduce procurement risk and lower overall cost by 
transitioning from buying satellites one-at-a-time to buying satellites 
in blocks using fixed price contracts. This approach allowed us to take 
advantage of economic order quantities and the efficiencies inherent in 
a stable production line. We then used a portion of these savings to 
invest back into mission areas under SMI. The overall SMI strategy is 
to invest in program efforts that create increased trade space for 
future decisions. Study contracts under SMI are helping us better plan 
for a challenging future by exploring affordable technology 
alternatives and architectures in missile warning, communications, 
global positioning, navigation and timing mission areas.
    SMI-funded studies position AFSPC to take advantage of 
opportunities such as greater commercial satellite availability, a 
competitive medium launch market and faster commercial production 
cycles. SMI also postures the Air Force to rapidly address emerging 
kinetic and non-kinetic threats. These investments are critical to our 
ability to define future options to increase resiliency in this dynamic 
operational space environment.
Resilient Architectures
    As we work toward increased resiliency and affordability, we are 
examining a range of options, one of which is disaggregation. 
Disaggregation concepts call for the dispersion of space-based 
missions, functions or sensors across multiple systems or platforms. By 
separating payloads on different satellites we will complicate a 
potential adversary's targeting calculus, decrease size and system 
complexity, and enable use of smaller boosters--with the goal of 
simultaneously driving down cost.
    In addition, we are evaluating constructs to host payloads on other 
platforms where feasible, and take better advantage of available 
commercial services. The trailblazing Commercial Hosted Infrared 
Payload program, a government infrared payload on a commercial 
satellite, was a technical success by any measure, and we learned 
significant lessons on the overall hosted payload concept.
    Over the past several months, we've met with more than 65 space 
companies to seek their ideas on alternative architectures. From those 
meetings, we collected many concepts that will inform our Analyses of 
Alternatives (AoA) for the future of protected military satellite 
communications and overhead persistent infrared systems. In addition, 
the Missile Defense Agency (MDA) is supporting our AoA studies with 
threat definition, technical evaluations and cost analysis support. 
AFSPC and MDA are collaborating on future space sensor architecture 
studies and sensor performance assessments across a broad set of joint 
mission areas. Finally, federally Funded Research and Development 
Centers, as well as others, will complete studies this year on 
disaggregation and its secondary impacts on the launch industry and 
space architectures.
Better Buying Power
    As previously mentioned, our use of the ESP approach and the 
Department of Defense's (DOD) Better Buying Power concepts resulted in 
significant positive results. SMC, under the sterling leadership of 
Lieutenant General Ellen Pawlikowski, awarded a block buy contract for 
the AEHF space vehicles 5 and 6, obtaining $1.625 billion in savings 
from the original independent cost estimate. Also, we anticipate the 
award of a contract for two more SBIRS satellites later this year, 
taking advantage of lessons learned on AEHF 5 and 6. Despite parts 
obsolescence challenges that required initial nonrecurring engineering 
and advance procurement efforts, we will realize significant savings 
using a firm, fixed-price contract.
              space capabilities for the joint warfighter
Space Situational Awareness (SSA)
    SSA underpins everything we do in space. Gaining and maintaining 
awareness in space requires data from global sensors and the 
integration and exploitation of that data to support operational 
command and control (C2). The JSpOC Mission System (JMS) is integral to 
improving SSA and C2. JMS Increment 1 was approved for full deployment 
and operationally accepted last year. This increment delivered the net-
centric framework and the initial capability advances toward better 
operator understanding and monitoring of the space environment. JMS 
Increment 2 will build on that foundation by fielding groundbreaking 
capabilities to include greatly improved capability to detect and 
characterize orbital hazards and adversary threats. Increment 2 will 
also enable the JSpOC to transition from the legacy Space Defense 
Operations Center system to expanded computational capacity and 
improved automation, thereby improving our ability to handle space 
events and allowing us to retire increasingly difficult to sustain 
hardware. Furthermore, it will allow integration of data from our 
network of space surveillance sensors, previously unavailable 
intelligence community data, and data from other commercial, allied and 
governmental sensors. The JMS program clearly represents game-changing 
capability for the Nation's space situational awareness.
    Enhancements to the Space Surveillance Network are necessary to 
close sensing gaps and take full advantage of the JMS high performance 
computing environment. International cooperative efforts are part of 
that effort. As an example, in November 2013, Secretary Hagel and 
Australian Defense Minister Johnston signed a Memorandum of 
Understanding finalizing arrangements to move the Defense Advanced 
Research Projects Agency's Space Surveillance Telescope from its 
original site in New Mexico to a site in Western Australia. The high 
capacity and extremely accurate capabilities of this telescope will 
significantly enhance SSA in deep space. The telescope will be 
relocated and operational in 2016 to monitor geosynchronous orbits over 
the Pacific region. Similarly, we have reached an agreement to place a 
C-Band Radar in Australia to help with southern hemisphere SSA 
coverage.
    Another big step forward is the new S-Band Radar, commonly known as 
the Space Fence. We will build this critical SSA sensor on Kwajalein 
Atoll, and remotely operate from Huntsville, AL. This radar will track 
much smaller objects and cover almost all orbital inclinations with a 
capacity to track many thousands of objects daily. Budget uncertainty 
contributed to a 1 year delay, but the contract should be awarded this 
spring, with an initial operational capability date in fiscal year 
2019.
    Our ground-based radars provide outstanding deep space tracking and 
space object identification capabilities, but they are not well-suited 
to search operations. Our ground-based optical systems are outstanding 
deep space search and tracking assets, but they can only perform their 
mission at night, and they must have clear skies to conduct imaging 
operations.
    Based on the success of a sensor flown on a missile defense 
experimental satellite, in 2010 we developed and launched the Space-
Based Space Surveillance (SBSS) satellite, with a 7-year design life, 
into low-earth orbit to augment both search and tracking of man-made 
objects. The follow-on program is being developed; however, it will not 
be launched until 2021 based on available funding. The result is a 
potential 4-year gap in this crucial space-based coverage, which will 
limit our ability to maintain timely custody of threats to our 
satellites in geosynchronous orbits. We have extended our network to 
include allied contributions to mitigate the potential loss of data. 
For example, the Canadian Sapphire satellite, launched in 2013, is a 
contributing sensor to our space surveillance efforts, but 
unfortunately, this satellite has a 5-year design life and is expected 
to be decommissioned about the same time as SBSS. We are working hard 
to extend the life of SBSS and other potential contributors to mitigate 
this potential coverage gap.
    A future contributor to extend and enhance coverage is the 
Geosynchronous Space Situational Awareness Program (GSSAP). This system 
will collect SSA data allowing for more accurate tracking and 
characterization of man-made orbiting objects in a near-geosynchronous 
orbit. Data from GSSAP will contribute to timely and accurate orbital 
predictions, enhance our knowledge of the geosynchronous environment 
and further enable space flight safety to include satellite collision 
avoidance. GSSAP is expected to launch in 2014.
Assured Access to Space
    It is essential that we sustain a reliable capability to launch 
national security satellites into space. To that end, we continued our 
unprecedented string of successful launches in 2013. Alongside our 
industry partner, United Launch Alliance, we executed an all-time high 
of 11 launches of the Evolved Expendable Launch Vehicle (EELV).
    The commercial space launch industry made substantial progress last 
year with successful launches by Orbital Sciences and SpaceX. Our 
launch acquisition strategy aims to take advantage of the competition 
made possible by these new entrants once they are fully certified under 
the approved new entrant certification protocol. We have been very 
successful placing new satellites in orbit by placing a premium on 
mission assurance. As we move forward in an era of competition for 
launch services, we must remain focused on mission assurance to ensure 
national security payloads are safely and reliably delivered to space.
    Our launch and range infrastructure has served the space enterprise 
well over the years, but the infrastructure overall is old and it 
requires considerable sustainment and modernization efforts. Due to the 
previously mentioned O&M budget shortfalls, we took action to right-
size our infrastructure on both coasts and at our down-range sites. Our 
National Security Space Essential Range will not compromise public 
safety or mission assurance, but we will continue to balance 
sustainability and modernization to overcome obsolescence, as well as 
implementing better contract mechanisms to control costs.
Military Satellite Communications
    2013 was a successful year for AFSPC military satellite 
communications as well. The Air Force launched the third AEHF satellite 
in September 2013, delivering increased capacity for survivable, 
secure, protected and jam-resistant satellite communication for 
strategic and tactical warfighters as well as our most senior national 
leadership and international partners. The Air Force also successfully 
launched the fifth and sixth WGS satellites within 76 days of each 
other. These satellites significantly increase high-capacity satellite 
communication to joint forces around the world.
    The WGS program exemplifies the opportunities to leverage 
commercial satellite technologies to reduce the cost of providing space 
systems. However, we need to go further. At SMC, our program managers 
collaborated with industry to explore other possibilities. Through the 
use of broad area announcement solicitations, SMC awarded contracts to 
17 vendors to examine concepts for secure satellite communications at a 
lower cost.
Position, Navigation, and Timing (PNT)
    By the end of 2013, we completed production of all 12 GPS IIF 
satellites. The fourth GPS IIF satellite was launched in 2013, and we 
plan to launch three satellites in 2014, three more satellites in 2015, 
and the final two GPS IIF satellites in 2016.
    As has been widely reported, the navigation payload delivery for 
GPS III is delayed beyond the contracted date. Although we don't 
believe this will result in any impact to our ability to provide gold 
standard PNT services to the world, we are concerned about the impact 
to the overall GPS III program. We are working remedies with the prime 
contractor for this delay.
    We also expect the Next-Generation GPS Control Segment Block 1 to 
transition to operations in 2016. In November, we tested the system's 
ability to command GPS Blocks II and III satellites using space system 
simulators, including control of the major PNT signals. This 
demonstration is a major step forward to prepare for the GPS III era of 
more secure and robust GPS signals to the warfighter.
Space-Based Infrared System
    The SBIRS GEO-2 satellite was launched, delivered for operational 
trial period and operationally accepted in 2013. To date, the data 
provided by both SBIRS GEO-1 and GEO-2 satellites is outstanding, 
providing enhanced missile warning and battlespace awareness over 
critical portions of the world. SBIRS GEO-3 is planned to launch in 
2016.
Terrestrial Environmental Monitoring
    Defense Meteorological Satellite Program (DMSP) satellite number 19 
will launch in April 2014 and we expect the satellite will remain 
operational well into the 2020s. We are concerned about potential gaps 
in meteorological coverage when current DOD, civilian, partner and 
allied meteorological satellites reach their end-of-life in the 2015-
2025 timeframe. The Space-Based Environmental Monitoring AoA was 
conducted to study follow-on options, such as international 
partnerships, hosted payloads or a new satellite, for continued 
meteorological support to warfighters in the most cost-effective 
manner. The results from the AoA are currently being reviewed by the 
Joint Requirements Oversight Council.
                               conclusion
    The men and women of AFSPC remain committed to providing 
unsurpassed support to our warfighters and allies. Every day they bring 
innovation, excellence, and uncompromising focus to the Nation's space 
missions that are conducted 24/7 across the globe.
    Our Nation's advantage in space is no longer a given. The ever-
evolving space environment is increasingly contested as current and 
potential adversary capabilities grow in number and sophistication. 
Providing budget stability and flexibility in this very dynamic 
strategic environment is necessary to maintain and bolster the 
viability of all space capabilities.
    I remain committed to a course of action that acknowledges and 
responds to uncertainty in this new normal. The status quo is not a 
viable alternative in response to the new normal. We are reaching out 
to our talented airmen, industry partners, allies, and Congress to make 
the changes necessary to provide required capability that is affordable 
and resilient.
    I thank you for your support and look forward to working with 
Congress and this committee to keep you abreast of our efforts to 
provide resilient, capable and affordable space capabilities for the 
joint force and the Nation.

    Senator Udall. Thank you, General Shelton.
    General Mann?

STATEMENT OF LTG DAVID L. MANN, USA, COMMANDER, U.S. ARMY SPACE 
 AND MISSILE DEFENSE COMMAND/ARMY FORCES STRATEGIC COMMAND AND 
   JOINT FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED MISSILE 
                            DEFENSE

    General Mann. Mr. Chairman, Ranking Member Sessions, 
Senator Donnelly, Senator King, thank you for your ongoing 
support of our soldiers and our civilians and our families.
    This is my first appearance before the subcommittee, and it 
is an honor for me to be here to talk about the values of space 
to the Army, especially in light of declining budgets.
    Space is essential to the Army and it is truly the ultimate 
high ground. The Army is the largest user of space capabilities 
for DOD. In order for the Army to see, shoot, move, and 
communicate, we need space. The advantages that space provides 
are critical to our success and that of our joint partners.
    As the Army's proponent for space, my organization 
coordinates with all the members of the space enterprise in 
order to provide the capabilities through our three main tasks: 
number one, to provide trained and ready space missile defense 
soldiers out there, to build the future force and future 
capabilities for tomorrow, and also to look at emerging 
technologies for the day after tomorrow.
    That said, it is important to make the point that our 
soldiers, sailors, Air Force, marines, and civilians out there 
are truly our asset. That is our greatest asset to getting 
after this capability.
    This subcommittee's continued support is essential to 
providing the capabilities that have proven so vital to 
maintaining our edge on the battlefield.
    I appreciate the opportunity to speak about the value of 
space to the Army and look forward to your questions. Thank 
you.
    [The prepared statement of General Mann follows:]
              Prepared Statement by LTG David L. Mann, USA
                              introduction
    Mr. Chairman, Ranking Member Sessions, and distinguished members of 
the subcommittee, thank you for your continued support of our soldiers, 
civilians, and families. This marks my first appearance before the 
Strategic Forces Subcommittee of the Senate Armed Services Committee, a 
body that has been a strong supporter of the Army and the key 
capabilities that space affords our warfighters. Your past and future 
support is vital as we pursue joint efforts to provide critical space 
capabilities for our Nation, our fighting forces, and our allies. Thank 
you for your continued support.
    In my current assignment, I have three distinct responsibilities. 
First, as the Commander of the U.S. Army Space and Missile Defense 
Command, I have title 10 responsibilities to organize, man, train, and 
equip space and missile defense forces for the Army. Second, as the 
Commander, Army Forces Strategic Command, I am the Army Service 
Component Commander (ASCC) to the U.S. Strategic Command (STRATCOM). I 
am responsible for planning, integrating, and coordinating Army space 
and missile defense forces and capabilities in support of STRATCOM 
missions. Third, as the Commander of STRATCOM's Joint Functional 
Component Command for Integrated Missile Defense (JFCC IMD), I am 
responsible for synchronizing missile defense plans, conducting 
ballistic missile defense operations support, and also serve as the 
warfighter's advocate for missile defense capabilities.
    Today, I am honored to appear with these other witnesses to provide 
this subcommittee insight on the critical space-based capabilities that 
our respective commands continuously provide the warfighter.
    As the Army's proponent for space, U.S. Army Space and Missile 
Defense Command (USASMDC)/Army Strategic Command (ARSTRAT) coordinates 
with the other members of the Army space enterprise, to include the 
Army intelligence, signal, and geospatial communities. We are engaged 
across the broader Army community to ensure space capabilities are 
maximized and integrated across our entire force and that potential 
vulnerabilities to our systems are, to the greatest extent possible, 
mitigated. We also collaborate with STRATCOM, its Joint Functional 
Component Command for Space (JFCC Space), and other members of the 
joint community to provide trained and ready space forces, as well as 
space-based and space-enabled ground-based capabilities to the 
warfighter. Additionally, we work closely with acquisition developers 
in the other Services to ensure the enhancement of systems that provide 
the best capabilities for ground forces.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    My focus today is to impress upon the Subcommittee the need to 
ensure our space capabilities are maintained, if not further enhanced, 
during the present environment of increasing threats and declining 
resources.
                   the workforce--our greatest asset
    At USASMDC/ARSTRAT, as is the case within all the Army, our people 
are our most enduring strength. The soldiers, civilians, and 
contractors at USASMDC/ARSTRAT support the Army and joint warfighter 
each and every day, both those stationed on the homeland and those 
deployed overseas. Within our command, we strive to maintain a cadre of 
space professionals to support our Army.
    In step with the Army, our USASMDC/ARSTRAT leadership team embraces 
the imperatives of Sexual Harassment/Assault Response and Prevention 
(SHARP). As stated by the Chief of Staff of the Army, sexual harassment 
and sexual assault violate everything the U.S. Army stands for 
including our Army Values and Warrior Ethos. At USASMDC/ARSTRAT, I will 
continually assess the effectiveness of our SHARP efforts to ensure we 
are meeting the needs of our soldiers, civilians, and family members. 
Our workforce deserves nothing less.
                  reliance on space-based capabilities
    Our Army provides a globally responsive and regionally engaged 
force that supports the Joint Team with critical enablers and, as 
directed, responds to crises at home and abroad. The Army is dependent 
on space capabilities to execute Unified Land Operations in support of 
the Nation's objectives. Army space forces contribute to the Joint 
Force and the Army's ability to be adaptive, versatile, and agile to 
meet tomorrow's security challenges. Simply put, space capabilities are 
critical elements of the Army's ability to see, shoot, move, and 
communicate.
    The Army is the largest user of space-enabled capabilities within 
the DOD. Our ability to achieve operational adaptability and land 
dominance depends on the benefits derived from key assets in space. 
Integrating space capabilities enables commanders, down to the lowest 
echelon, to conduct Unified Land Operations through decisive action and 
operational adaptability.
    There are currently six Army warfighting functions that contribute 
to operational adaptability: mission command, movement and maneuver, 
intelligence, protection, fires, and sustainment. Space-based 
capabilities leveraged and employed across the national space 
enterprise enable each of these warfighting functions. Virtually every 
Army operation relies on space capabilities to enhance the 
effectiveness of our force.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    When combined with other capabilities, space systems allow Joint 
Forces to see the battlefield with clarity, navigate with accuracy, 
strike with precision, communicate with certainty, and operate with 
assurance. Dependence on space as a force multiplier will continue to 
grow for the Army of 2020 and beyond, especially in an era of tight 
fiscal resources, a smaller force structure, and possibly, a further 
reduced forward presence. The bottom line is the Army depends on space 
capabilities in everything we do. Retaining our global space 
superiority is a military imperative.
             space in support of army warfighting functions
    There are five space force enhancement mission areas: (1) satellite 
communications (SATCOM); (2) position, navigation, and timing; (3) 
intelligence, surveillance, and reconnaissance; (4) missile warning; 
and (5) environmental monitoring. Commanders and soldiers leverage 
these space force enhancement capabilities to conduct warfighting 
functions. They are critical enablers to our ability to plan, 
communicate, navigate, and maintain battlefield situational awareness; 
target the enemy; provide missile warning; and protect and sustain our 
forces. Joint and Army forces require assured access to space 
capabilities and, when required, have the ability to deny our 
adversaries the same space-based capabilities.
    Joint interdependence is achieved through the deliberate reliance 
on the capabilities of one or more Service elements to maximize 
effectiveness while minimizing vulnerabilities. As the DOD Executive 
Agent for Space, the Secretary of the Air Force is responsible for 
leading the development, production, support, and execution of military 
space operations. STRATCOM is the combatant command headquarters 
responsible for planning and advocating for space capabilities for the 
warfighter. The Army continues to utilize national, joint, and 
commercial systems for additional capabilities while pursuing cross-
domain solutions that support Unified Land Operations. The Army must 
continue to influence joint requirements and new solutions that provide 
compatible space capabilities in support of our warfighting functions. 
Finally, we must actively engage in focused experimentation, smart 
developmental test and evaluation, and timely military utility 
demonstrations to take advantage of dynamic technological advances in 
space.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    today's operations --provide trained and ready space forces and 
                              capabilities
    While the Army is the largest DOD user of space, we are also a 
provider of space-based capabilities. Each day, USASMDC/ARSTRAT 
provides trained and ready space forces and capabilities to combatant 
commanders and the warfighter. Within our 1st Space Brigade, 
approximately 1,000 soldiers and civilians--forward-deployed, forward-
stationed, or serving at home--provide space capabilities that are 
essential in all phases of operations. The Brigade, a multi-component 
organization comprised of Active, Army Reserve, and associated National 
Guard soldiers, provides flexible, reliable, and tailored support to 
combatant commanders and warfighters by conducting continuous global 
space support, space control, and space force enhancement operations. 
The Brigade's three battalions provide satellite communications, space 
operations, theater missile warning, and forward-deployable space 
support teams.
    Army space professional personnel policy is the responsibility of 
USASMDC/ARSTRAT. We serve as the Army's proponent and developer of 
training for space professionals and provide training assistance for 
Space-Enabler indentified positions. Our Army Space Personnel 
Development Office (ASPDO) is the focal point for all Functional Area 
(FA) 40 Space Operations Officers matters and executes the personnel 
development and life-cycle management functions on their behalf. 
Additionally, ASPDO develops policies, procedures, and metrics for the 
Army Space Cadre. The Army's Space Cadre, utilizing FA 40s as its 
foundation, is comprised of over 3,000 soldiers and civilians. The 
Space Cadre and Space Enablers consist of soldiers and civilians from 
multiple branches, career fields, disciplines, and functional areas.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Today, there are approximately 400 multi-component FA 40s serving 
in joint and Army organizations across all echelons of command--
tactical, operational, and strategic. These Space Operations Officers, 
along with members of the Army's Space Cadre, directly influence the 
execution of strategic operations in support of operational and 
tactical level ground maneuver forces. Their principal duties include 
planning, developing, acquiring, and integrating space force 
capabilities. Over recent years, the maturity of the career field and 
the capabilities these officers provide to the Army and its joint 
partners has led to an increased demand for FA 40 personnel. As the 
Army continues to reduce its overall end strength, FA 40 billets have 
fared well in the support of our corps and divisions. We have actually 
realized a slight increase in billets due to the requirements of the 
Special Forces community. During the past year, USASMDC/ARSTRAT space 
professionals have supported over a dozen major exercises, several 
mission rehearsal exercises for units deploying in support of Operation 
Enduring Freedom, and other named operations.
    An overview of some of the critical space capabilities provided by 
Army space professionals is highlighted below.
Army Space Support Teams:
    The Army deploys specialized Army Space Support Teams to support 
Army corps and divisions, other Services, Joint Task Forces, and 
multinational forces. The teams, which maintain a continuous presence 
in the Afghanistan theater, provide space-based products and services 
to commanders and warfighters. The teams are on-the-ground space 
experts, pulling key commercial imagery, forecasting the impact of 
space weather, and providing responsive space support to their units. 
During 2013, USASMDC/ARSTRAT deployed four Army Space Support Teams and 
Commercial Imagery Teams to U.S. Central Command's area of operations. 
Since this era of persistent conflict began, we have deployed teams on 
86 occasions. These teams bring tailored products and capabilities that 
meet critical theater commander needs.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Satellite Communications:
    Our mission in satellite communications (SATCOM) is to ensure 
reliable and resilient access to tactical warfighter networks and the 
DOD Information Network primarily through the successful execution of 
satellite payload operations and the management of regional satellite 
communication centers. USASMDC/ARSTRAT conducts payload and 
transmission control for all DOD-owned wideband SATCOM bandwidth, 
including communications carried over the Defense Satellite 
Communications System (DSCS) and Wideband Global SATCOM System (WGS) 
constellations.
    Additionally, we serve as the Consolidated SATCOM System Expert (C-
SSE) for the DOD narrowband and wideband SATCOM constellations, which 
include the DSCS, the WGS, the Mobile User Objective System (MUOS), the 
Ultra High Frequency SATCOM (UHF), and the Fleet Satellite 
Communications System. As the SATCOM System Expert for MUOS, the Army 
is responsible for DOD's use of our next generation tactical system, 
which will transform tactical SATCOM from radios into secure cellular 
networked communication tools. During 2013, our Wideband C-SSE experts 
conducted detailed testing on the recently activated WGS-5 and WGS-6 
satellites that are now providing increased Wideband SATCOM resources 
to combatant commanders. In 2013, we supported the early activation of 
the MUOS-1 legacy payload and will soon directly support the testing 
and activation of enhanced capabilities on the MUOS-2. The Army also 
has a significant role and assigned responsibilities in DOD's expanding 
use of military satellite communications through a number of growing 
programs and initiatives, and is the operational lead for multiple 
international partnerships.
    USASMDC/ARSTRAT also mans and operates the Wideband Satellite 
Communications Operations Centers (WSOCs) and the Regional Satellite 
Communications Support Centers (RSSCs). The satellite communications 
control missions of the DSCS and the WGS are performed by the 1st Space 
Brigade's 53rd Signal Battalion and Department of the Army Civilians 
utilizing the capabilities of the globally located WSOCs and RSSCs. 
Support to the joint community, agencies, and our allies continue to 
grow exponentially as use of military SATCOM increases. SATCOM is the 
Army's top space priority. We are actively transforming our concept of 
operations and upgrading our capabilities to defend vital mission 
command links and provide assured access to SATCOM. For example, we 
recently replaced aging antennas and terminal equipment at the Wahiawa, 
Hawaii WSOC. The new WSOC at Fort Meade, Maryland will be completed 
this year, and we broke ground for the construction of a new WSOC 
facility in Germany. Modernization and equipment replacement are 
required so that the centers remain compatible with the fleet of new 
and expanding WGS assets being deployed by the Air Force.
Friendly Force Tracking:
    Friendly force tracking systems support situational awareness 
enroute to and throughout areas of operation. Joint and Army forces 
require precise position, navigation, and timing information to enable 
confident, decisive maneuver by both ground and air assets. The DOD's 
Friendly Force Tracking Mission Management Center, operated by USASMDC/
ARSTRAT from Peterson Air Force Base, CO, receives more than 1 million 
location tracks a day to provide a common operating picture to command 
posts and operations centers. This capability, performed on behalf of 
STRATCOM, is an essential worldwide enabler to both military and other 
government agencies. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
Ballistic Missile Early Warning:
    Early warning is a key component of indications and warning for 
missile defense. Army forces need assured, accurate, and timely missile 
warning launch location, in-flight position, and predicted impact area 
data. The 1st Space Brigade's Joint Tactical Ground Stations (JTAGS) 
Detachments, operated by Army personnel, monitor adversary missile 
launch activity and other events of interest and then share this 
information with members of the air and missile defense and operational 
communities. Our JTAGS Detachments are forward-stationed across the 
globe, providing 24/7/365 dedicated and assured missile warning to 
theater level commanders.
Geospatial Intelligence (GEOINT) Support:
    USASMDC/ARSTRAT provides geospatial intelligence in direct support 
of the combatant commands as an operational element of the Army's 
National-To-Theater Program and as a member of the National System for 
Geospatial Intelligence. The Army's space and intelligence experts 
exploit a variety of commercial, civil, and DOD imagery data derived 
from space and airborne sources. Additionally, they aid in the 
exploration of emerging spectral system technologies and in 
transitioning new capabilities to the warfighter. During 2013, our 
GEOINT professionals created over 17,000 geospatial intelligence 
reports which provided essential support to the geographical and 
functional combatant commands. Late last year, our GEOINT Team was 
presented the 2013 Military Achievement Award by the U.S. Geospatial 
Intelligence Foundation for its work in developing a process to speed 
the exploitation of large volumes of hyper-spectral imagery data from 
DOD's experimental Tactical Satellite-3 platforms.
Operations Reach-back Support and Services:
    Our Operations Center, located in Colorado Springs, CO, continues 
to provide daily reach-back support for our space experts deployed 
throughout the operational force and enables the Army to reduce our 
forward-deployed footprint. This center maintains constant situational 
awareness of deployed elements, continuously responds to requests for 
information, and provides the essential reach-back system of 
connectivity with technical subject matter experts.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Strategic Space Surveillance:
    The Army also operates facilities and assets that are of utmost 
importance to protecting the Nation's use of space. The Ronald Reagan 
Ballistic Missile Test Site (RTS), located on the U.S. Army Garrison-
Kwajalein Atoll in the Marshall Islands, is a national asset that 
provides unique radars and sensors that contribute to STRATCOM's space 
situational awareness mission, enabling protection of the Nation's 
manned and unmanned space assets. This strategic site also serves as a 
critical asset for ballistic missile testing and is ideally located to 
provide equatorial launch benefits.
    addressing tomorrow's requirements--building future space forces
    Over the past 2 decades, Army operations have transitioned from 
being ``supported'' by space capabilities to being truly ``enabled'' by 
them--space capabilities are an integral part of military operations. 
Military and civilian space technology has dramatically improved 
access, processing, and dissemination of data collected by space-based 
capabilities. To ensure our continued access to space-based 
capabilities, we must continue active participation in defining space-
related requirements. These identified needs equip us to develop and 
mature joint and Army force structure and concepts of operations in 
sync with the deployment of capabilities, thereby enabling our forces 
to conduct tomorrow's full range of military operations. Assured access 
to space is our focus--ensuring the requisite capabilities and effects 
are delivered to the tactical warfighter on time, every time demands 
that our space capabilities and architectures become more resilient 
against attacks and disruption. We must ensure the Army is prepared to 
conduct operations in a space-degraded environment.
    In our second core task of building space forces for tomorrow, we 
use our capability development function to meet future space 
requirements. We continue to use both established and emerging 
processes to document our space-based needs and pursue validation of 
joint, Army, and coalition requirements. This regimented approach helps 
ensure limited resources are applied where warfighter operational 
utility is most effectively served. This approach enhances our pursuit 
and development of necessary capabilities across Doctrine, 
Organization, Training, Materiel, Leadership and Education, Personnel, 
and Facilities (DOTMLPF) domains to address threats and vulnerabilities 
while sustaining land force operations. In addition to conducting and 
evaluating experiments, war games, studies, and analysis, our Battle 
Lab develops and validates concepts leading to space related DOTMLPF 
alternatives and solutions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In 2011, the Secretary and Chief of Staff of the Army approved the 
Army's Strategic Space Plan. This document, shaped by national level 
guidance such as the National Space Policy and the National Security 
Space Strategy, outlines the Army's space enterprise path for strategic 
planning, programming, and resourcing.
    The essence of our space strategy and the guiding vision of the 
Army space enterprise are to ensure Army forces conducting Unified Land 
Operations have access to resilient and relevant space-enabled 
capabilities. To achieve this, our space strategy rests on three tenets 
that link Army strategic planning and programming for space to the 
guidance in national and DOD space policy and strategy. The three 
essential tenets are:

        <bullet> To enable the Army's enduring mission by providing 
        requisite space-enabled capabilities to support current 
        operations, as well as future transformation efforts;
        <bullet> To leverage existing DOD, national, commercial, and 
        international space-based capabilities; and
        <bullet> To employ cross-domain solutions to create a resilient 
        architecture to address threats and vulnerabilities, and assure 
        access to critical capabilities needed to sustain land force 
        operations.

    The initial implementation tasks of this strategy are complete. 
This past November, the Army completed a Space Capabilities Based 
Assessment to identify critical space gaps and potential solutions. 
These solutions are currently being evaluated and prioritized to ensure 
the most critical and affordable solutions are pursued. The Army also 
implemented a Space Training Strategy last year. This strategy seeks to 
improve the Army's understanding and utilization of space capabilities, 
to improve operations in contested operational environments, and to 
create an integrated and seamless continuum of career-long space 
education and training.
the day-after-tomorrow--continued space technology materiel development
    Our final core task entails our materiel development function--
pursuing essential capabilities for the day-after-tomorrow. Our goal is 
to expand technological capabilities to ensure space and space-based 
products provide warfighters, especially those who are remotely 
located, with dominant battlefield advantages. While we are very much 
aware that today's, and likely tomorrow's, fiscal realities will limit 
technology modernization efforts, we strongly believe that we must 
continue to conduct research, development, and demonstrations of 
capabilities that return maximum advances in our combat effectiveness. 
We cannot afford to mortgage future combat readiness by continuing to 
defer research today. As such, we continue to prioritize, leverage, and 
invest in promising space research and development technologies.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In conjunction with both DOD and non-DOD agencies, we continue to 
advance three responsive space Joint Capability Technology 
Demonstration (JCTD) Program efforts that have the potential to provide 
enhanced space capabilities to ground commanders and warfighters. A 
summarized update of these three initiatives follows.
SMDC Nanosatellite Program-3 (SNaP-3):
    Future constellations of relatively low cost nanosatellites 
deployed in mission-specific, low earth orbits can provide a cost 
effective, beyond-line-of-sight data communications capability. This 
capability is targeted for users who, without it, have no dedicated 
access to satellite communications. These satellites are also very 
useful in exfiltrating data from unattended ground sensors that have 
been placed in remote locations to track enemy troop movement, thereby 
reducing the friendly force footprint. SNaP-3, an OSD-approved JCTD, 
seeks to utilize small satellites to provide dedicated coverage to a 
wide range of underserved users in remote areas. The Army is building 
and will launch three SNaP-3 nanosatellites to address this 
communications shortfall. We are hopeful that, in the near future, this 
initiative will transition to a program of record.
Kestrel Eye Visible Imagery Nanosatellite:
    Kestrel Eye is an endeavor to manufacture and fly three electro-
optical near-nanosatellite-class imagery satellites that can be more 
responsive in support to ground warfighters. Weighing about 30 pounds 
and capable of producing 1.5 meter resolution imagery, data from each 
Kestrel Eye satellite will be down-linked directly to the same tasking 
warfighter via a data relay system, also accessible by other theater 
warfighters, without any continental United States relay pass-through 
or data filtering. The intent of this program is to demonstrate a 
small, tactical space-based imagery nanosatellite that could be 
employed in large numbers to provide a cost effective, persistent 
capability for ground forces. Each satellite would have an operational 
life of greater than 2 years in low earth orbit. The initial Kestrel 
Eye launch is scheduled for 2015.
Soldier-Warfighter Operationally Responsive Deployer for Space 
        (SWORDS):
    SWORDS, an OSD-approved JCTD, is an initiative to develop a very 
low-cost launch vehicle that can respond to a combatant commander's 
launch request within 24 hours. This launch system is designed to take 
advantage of low-cost, proven technologies and materials to provide an 
affordable launch for small weight payloads to low earth orbit with a 
goal of about $1 million per launch vehicle. SWORDS employs a very 
simple design, using commercial off-the-shelf hardware from outside the 
aerospace industry. It incorporates a benign bi-propellant liquid 
propulsion system, and uses simple and low cost launch support and 
launch site hardware. NASA is providing reimbursable support for 
development of the SWORDS launch vehicle.
                               conclusion
    The Army is the largest user of space and space-based capabilities. 
USASMDC/ARSTRAT is actively engaged in organizing, manning, equipping, 
and training space forces for the Army. We also work with other 
organizations to continue to develop and enhance technology to provide 
our warfighters with the best battlefield capabilities. We will 
continue to rely on and advocate for space products and services 
provided by the DOD, other government agencies, our allies and 
coalition partners, and commercial entities in order to see, shoot, 
move, and communicate. In adapting to the budget realities, space 
capabilities will become even more critical to enabling adaptive Army 
and Joint Forces.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    While continued technological advances are critical, the most 
critical space asset we possess are the dedicated soldiers, sailors, 
airmen, marines, and civilians who develop, field, and operate space 
technology and deliver its capabilities to the warfighter. The men and 
women of USASMDC/ARSTRAT will continue to focus on providing trained 
and ready space forces and capability enhancements to these 
warfighters, the Army, the joint community, and to the Nation.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you may have. 
Secure the High Ground!

    Senator Udall. Thank you, General Mann.
    Ms. Chaplain?

 STATEMENT OF MS. CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION 
   AND SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Udall, Ranking Member Sessions, 
Senators Donnelly and King, thank you for inviting me to 
participate in today's hearing on DOD's space programs.
    The GAO has been tracking space acquisitions, past 
problems, and reforms. Most of DOD's space programs have 
overcome significant problems and are now in the production 
phase. DOD has continued its focus on implementing acquisition 
management and oversight improvements. There are still 
technical and manufacturing  programs  affecting  key  programs 
 such  as  MUOS  and  GPS-3, but the portfolio as a whole has 
not seen problems on the scale it saw last decade.
    The challenges that face DOD now, in fact, are different 
than the ones faced just 5 or 6 years ago when most programs 
were in the development phase.
    First, faced with budget constraints, DOD has been seeking 
ways to reduce costs and achieve savings as it negotiates 
contracts for more satellites and launch vehicles. For launch 
vehicles, it is also working to introduce competition and lower 
costs.
    Second, faced with growing security threats and the need to 
increase resilience, DOD has been reconsidering its approach to 
acquisition. For instance, instead of building a satellite that 
meets many mission needs and serves a multitude of users, DOD 
is considering whether it should disperse missions, functions, 
and sensors across multiple systems, platforms, or domain. This 
approach is known as disaggregation.
    We recently reported on DOD's efforts to introduce 
competition into the Evolved Expendable Launch Vehicle (EELV) 
program, and today we are reporting our preliminary findings 
related to disaggregation. On the EELV program, we reported 
that DOD has taken significant steps to gain insight into 
contract costs with its current provider, United Launch 
Alliance (ULA). This effort has resulted in significant 
savings. We also reported that DOD could take a range of 
approaches to introduce competition with the 14 cores coming 
up, and we specifically laid out the benefits and challenges 
with 2 approaches, having the EELV competitors compete for 
launches under a commercial approach or having them compete 
similar to the way DOD now contracts with ULA.
    In short, both approaches can foster competition. The first 
could further reduce prices, but it could also result in less 
insight into costs and reduce DOD's flexibility in scheduling 
launches. The second would maintain the flexibility and 
insight, but could add costs. For new entrants, for instance, 
it could require them to develop and install new business 
systems to fulfill government data requirements. We do not 
recommend an approach that should be taken. It is really DOD's 
decision and it is not GAO's role to make such a 
recommendation.
    On the second question of disaggregation, we are reporting 
today that while our prior work shows these concepts can 
potentially reduce costs and development time, DOD does not yet 
have the knowledge it needs to make a transition to 
disaggregation on a wide scale. While DOD has conducted some 
studies that have assessed alternative approaches to the 
current programs of record, some within DOD do not consider 
these studies to be conclusive because they were either not 
conducted with sufficient analytical rigor or did not consider 
the capabilities, risks, and trades in a holistic manner.
    More analysis about disaggregation is important because 
this approach can have far-reaching effects and because there 
are challenges to its implementation. For several missions, 
this analysis is in progress and we will be continuing to 
evaluate DOD's progress this summer for this subcommittee.
    This concludes my opening remarks. I am happy to answer any 
questions you have.
    [The prepared statement of Ms. Chaplain follows:]
             Prepared Statement by Ms. Cristina T. Chaplain
    Chairman Udall, Ranking Member Sessions, and members of the 
subcommittee: I am pleased to be here today to discuss the Department 
of Defense's (DOD) space systems acquisitions. DOD spends billions of 
dollars each year to develop, produce, and launch space systems. These 
systems provide the government with critical intelligence information, 
communication methods, and navigation information, which are vital to 
many military and other government programs. Because these systems can 
be highly complex, they require large investments of both money and 
time to develop, produce, and launch. Given the expensive nature of 
space systems in today's constrained government budget environment, it 
is essential that DOD manage the acquisition of these systems carefully 
and continue to address problems that have plagued space systems 
acquisitions in the past decade.
    In the past, DOD has seen program after program experience 
significant cost increases coupled with schedule delays. However, in 
recent years these problems have largely been overcome for the programs 
currently in production, and additional satellites of the same design 
are now being launched. With the worst of their acquisition problems 
behind them, DOD is beginning to look at potential new directions for 
the national security space community, including options for meeting 
program requirements through the disaggregation \1\ of large space 
missions into multiple smaller satellites as a means to increase 
satellite resiliency and reduce acquisition costs and development 
time.\2\ In addition, DOD has been introducing significant changes to 
the way it acquires space launch services, by transitioning to a new 
acquisition approach with a longer-term commitment, and by taking steps 
to introduce competition to its Evolved Expendable Launch Vehicle 
program, a major change from the last 8 years of that program. These 
potential changes may provide benefits to DOD, but there are challenges 
to their implementation.
---------------------------------------------------------------------------
    \1\ The Air Force defines space disaggregation as ``[t]he 
dispersion of space-based missions, functions or sensors across 
multiple systems spanning one or more orbital plane, platform, host or 
domain.'' Programs may consider disaggregation in the future because it 
allows for options within a system's architecture to drive down cost, 
increase resiliency and distribute capability. Air Force Space Command, 
Resiliency and Disaggregated Space Architectures, White Paper (Aug. 21, 
2013).
    \2\ DOD Space Policy defines resilience as the ability of an 
architecture to support the functions necessary for mission success 
with higher probability, shorter periods of reduced capability, and 
across a wider range of scenarios, conditions, and threats, in spite of 
hostile action or adverse conditions. The policy further states that 
resilience may leverage cross-domain or alternative government, 
commercial, or international capabilities. See Department of Defense 
Directive 3100.10, Space Policy (Oct. 18, 2012). However, Office of the 
Secretary of Defense and Air Force officials we spoke with stated DOD 
is in the process of refining the definition of resilience and 
determining a methodology for measuring it.
---------------------------------------------------------------------------
    My testimony today will focus on: (1) the current status and cost 
of major DOD space systems acquisitions; (2) recent actions taken to 
further improve space systems acquisitions; and (3) potential impacts 
of the direction DOD is taking on upcoming changes to the acquisition 
of DOD space systems. This testimony is based on Government 
Accountability Office (GAO) reports issued over the past 5 years on 
space programs and weapon system acquisition best practices, and on DOD 
reports. In addition, it is based on ongoing work conducted to address 
a mandate in the Senate Report accompanying the National Defense 
Authorization Act for Fiscal Year 2014 for GAO to review the potential 
benefits and limitations of disaggregating future space systems.\3\ It 
is also based on work performed in support of our annual weapon system 
assessments, as well as space-related work in support of our reports on 
duplication, overlap, and fragmentation across the Federal Government. 
Finally, this statement is based on updates on cost increases and 
investment trends and improvement actions taken since last year. To 
conduct these updates, we analyzed DOD funding estimates for selected 
major space systems acquisition programs from fiscal years 2013 through 
2018. More information on our scope and methodology is available in our 
related GAO products. The work that supports this statement was 
performed in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives. DOD 
provided technical comments which were incorporated as appropriate.
---------------------------------------------------------------------------
    \3\ S. Rep. No. 113-44, at 165 (2013). The Senate Report mandated 
GAO to assess the potential benefits and drawbacks of disaggregating 
key military space systems and examine whether disaggregation and 
payload hosting (an arrangement where DOD instruments are placed on 
commercial or other agency satellites) offers benefits to cost and 
survivability of a constellation (a group of similar satellites 
synchronized to orbit the Earth in an optimal way).
---------------------------------------------------------------------------
                               background
    Over the last decade, DOD has been managing many challenging space 
systems acquisitions. A longstanding problem for the department is that 
program costs have tended to increase significantly from original cost 
estimates. In recent years, DOD has overcome many of the problems that 
had been hampering program development, and has begun to launch many of 
these satellites. However, the large cost growth of these systems 
continues to affect the department. Figure 1 compares the original cost 
estimates with current cost estimates for some of the department's 
major space acquisition programs.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The gap between the estimates in figure 1 represents money that the 
department was not planning to spend on these programs, and did not 
have available to invest in other efforts. The gap in estimates is 
fairly stable between fiscal years 2014-2018, a result of the fact that 
most programs are mature and in a steady production phase. This figure 
does not include programs that are still in the early stages of 
planning and development.
    In past reports, we have identified a number of causes of 
acquisition problems. For example, in past years, DOD has tended to 
start more weapon programs than is affordable, creating a competition 
for funding that focuses on advocacy at the expense of realism and 
sound management. DOD has also tended to start its space programs 
before it has the assurance that the capabilities it is pursuing can be 
achieved within available resources and time constraints. There is no 
way to accurately estimate how long it would take to design, develop, 
and build a satellite system when key technologies planned for that 
system are still in relatively early stages of discovery and invention. 
Finally, programs have historically attempted to satisfy all 
requirements in a single step, regardless of the design challenges or 
the maturity of the technologies necessary to achieve the full 
capability. DOD's preference to make larger, complex satellites that 
perform a multitude of missions has stretched technology challenges 
beyond current capabilities in some cases.
    Our work has recommended numerous actions that can be taken to 
address the problems we identified. Generally, we have recommended that 
DOD separate technology discovery from acquisition, follow an 
incremental path toward meeting user needs, match resources and 
requirements at program start, and use quantifiable data and 
demonstrable knowledge to make decisions to move to next phases. We 
have also identified practices related to cost estimating, program 
manager tenure, quality assurance, technology transition, and an array 
of other aspects of acquisition program management that could benefit 
space programs. DOD has generally concurred with our recommendations, 
and has undertaken a number of actions to establish a better foundation 
for acquisition success. For example, we reported in the past that, 
among other actions, DOD created a new office within the Under 
Secretary of Defense for Acquisition, Technology and Logistics to focus 
attention on oversight for space programs and it eliminated offices 
considered to perform duplicative oversight functions. We have also 
reported in the past that the Air Force took actions to strengthen cost 
estimating and to reinstitute stricter standards for quality.\4\
---------------------------------------------------------------------------
    \4\ GAO, Space Acquisitions: DOD Is Overcoming Longstanding 
Problems, but Faces Challenges to Ensuring Its Investments Are 
Optimized. GAO-13-508T. (Washington, DC: April 24, 2013) and Space 
Acquisitions: DOD Faces Challenges in Fully Realizing Benefits of 
Satellite Acquisition Improvements. GAO-12-563T. (Washington, DC: March 
21, 2012).
---------------------------------------------------------------------------
       the current status and cost of space systems acquisitions
    Most of DOD's major satellite programs are in mature phases of 
acquisition, and some of the significant problems of past years, such 
as cost and schedule growth, are not currently as prevalent. Table 1 
describes the status of the space programs we have been tracking in 
detail.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
           
    While many programs have overcome past problems, some of the major 
space programs have encountered significant challenges in the last year 
and some delays in development and production. For example:

        <bullet> The Air Force's Space Fence program office is 
        developing a large ground-based radar that is expected to 
        improve on the performance of and replace the Air Force Space 
        Surveillance System, which became operational in 1961 and was 
        recently shut down. The Space Fence radar will emit radio 
        frequencies upward to space, from ground-based radar sites, to 
        detect and track more and smaller Earth-orbiting objects than 
        is currently possible, and provide valuable space situational 
        awareness data to military and civilian users. The Air Force 
        had originally planned to award a contract for Space Fence 
        systems development in July 2012, but due to internal program 
        reviews and budget re-prioritizations, this date has been 
        delayed to May 2014. In addition, the number of radar sites 
        planned has been reduced from two to one, though DOD plans to 
        have an option under the system development contract to build a 
        second site if needed.
        <bullet> In April 2013, DOD proposed canceling the Missile 
        Defense Agency's Precision Tracking Space System (PTSS) because 
        of concerns with the program's high-risk acquisition strategy 
        and long-term affordability. PTSS was intended to be a 
        satellite system equipped with infrared sensors that would 
        track ballistic missiles through their emitted heat. The 
        planned satellite system would consist of a constellation of 
        nine satellites in orbit around the Earth's equator. We 
        reported in July 2013 that the decision to propose canceling 
        the PTSS program was based on an evaluation of the acquisition, 
        technical, and operational risks of the PTSS program. 
        Specifically, DOD's evaluation assessed the PTSS cost, 
        schedule, technical design, and acquisition strategy to 
        identify whether risks could challenge the program's ability to 
        acquire, field, and sustain the system within planned cost and 
        schedule constraints. The evaluation also determined that the 
        PTSS program had significant technical, programmatic, and 
        affordability risks. The program officially ceased operations 
        in October 2013.
        <bullet> The Air Force has nearly completed its analysis of 
        alternatives to determine the direction for space based 
        environmental monitoring, which will be a follow-on program for 
        the Defense Meteorological Satellite Program (DMSP). Through 
        this analysis, the Air Force analyzed various options that 
        included, but were not limited to, a traditional procurement of 
        a weather satellite similar to the existing DMSP satellites, or 
        a disaggregated approach using small satellites and hosted 
        payload opportunities. According to the Air Force, the study 
        was completed in the fall of 2013 and is awaiting final 
        approval.
        <bullet> The MUOS program plans to launch a third satellite in 
        January 2015, which represents a delay of 6 months due to a 
        production issue on the third satellite. Specifically, the 
        third satellite failed system- and subsequent unit-level 
        testing after rework last year and the program determined the 
        root cause to be a manufacturing deficiency on a component 
        critical for the operation of the satellite's ultra-high-
        frequency legacy communications payload. The program is 
        replacing the component. According to the MUOS program office, 
        the program is on track to meet the launch schedule of 
        subsequent satellites, which is important because most of the 
        communications satellites that MUOS is replacing are past their 
        design lives. Synchronizing deliveries of MUOS satellites with 
        compatible Army Handheld, Manpack, Small Form Fit (HMS) 
        terminals remains a challenge. Currently over 90 percent of the 
        first satellite's on-orbit capabilities are being underutilized 
        because of terminal program delays. Consequently, military 
        forces are relying on legacy communication terminals and are 
        not able to take advantage of the superior capabilities offered 
        by the MUOS satellites. Operational testing and initial 
        fielding of MUOS-capable HMS terminals is planned for fiscal 
        year 2014, with a production decision expected in September 
        2015.
   recent actions dod believes will improve space system acquisition 
 processes, and continuing barriers to program oversight and management
    We have reported in the past that DOD and Congress are taking steps 
to reform and improve the defense acquisition system, and in the past 
year additional actions have been taken towards these goals.\5\
---------------------------------------------------------------------------
    \5\ GAO-13-508T. GAO-12-563T.
---------------------------------------------------------------------------
DOD Continues to Take Actions it Believes Will Improve Acquisition 
        Oversight
    In November 2013, DOD published an update to its instruction 
5000.02, which provides acquisition guidance for DOD programs.\6\ With 
this update, DOD hoped to create an acquisition policy environment that 
will achieve greater efficiency and productivity in defense spending. 
Air Force officials noted that, for satellite programs, there are two 
major changes that they believe will improve the acquisition process. 
First, the instruction was changed to formally allow satellite programs 
to combine two major program milestones, B and C, which mark the 
beginning of the development and production phases, respectively.\7\ 
According to the Air Force, satellite programs have typically seen a 
great deal of overlap in the development and production phases, mainly 
because they are buying small quantities of items. They are often not 
able to produce a prototype to be fully tested because of the high 
costs of each article, so the first satellite in a production is often 
used both for testing and operations. Air Force officials believe that 
this change to the acquisition guidance will allow for streamlining of 
satellite development and production processes, and provide more 
efficient oversight without sacrificing program requirements. GAO has 
not assessed the potential effects of this change. In the past, we have 
reported that committing a program to production without a substantive 
development phase may increase program cost and schedule risks, and we 
plan to look at the impacts of this change as it begins to be 
implemented.
---------------------------------------------------------------------------
    \6\ Interim Department of Defense Instruction 5000.02, Operation of 
the Defense Acquisition System para. 5.d.(10)(b) (Nov. 25, 2013).
    \7\ In defense acquisitions, milestone B provides authorization for 
a program to enter into the system development phase, and commits the 
required investment resources to the program. Milestone C is the point 
at which a program enters the production and deployment phase.
---------------------------------------------------------------------------
    A second change made this year, according to Air Force officials, 
is the requirement that DOD programs, including space programs, undergo 
independent development testing. While development testing for DOD 
programs is not new to this policy revision, now the testing 
organization will be an independent organization outside the program 
office. For space programs, this organization will be under the Program 
Executive Officer for Space, and will report their findings directly to 
that office, providing what the Air Force believes will be an 
independent voice on a program's development status. The Air Force is 
confident that these changes will provide benefits to program 
oversight, although because these are recent changes, we have not yet 
assessed their potential for process improvements.
    In addition, DOD is adopting new practices to reduce fragmentation 
of its satellite ground control systems, which adds oversight to a 
major development decision. Last year we reported that DOD's satellite 
ground control systems were potentially fragmented, and that standalone 
systems were being developed for new satellite programs without a 
formal analysis of whether or not the satellite control needs could be 
met with existing systems.\8\ In the National Defense Authorization Act 
for Fiscal Year 2014, Congress placed more oversight onto this process 
by requiring a cost-benefit analysis for all new or follow-on satellite 
systems using a dedicated ground control system instead of a shared 
ground control system.\9\ This new requirement should improve oversight 
into these systems' development, and may reduce some unnecessary 
duplication of satellite control systems. According to Air Force 
officials, the first program to go through this process was the 
Enhanced Polar System, and all future satellite programs will include 
this cost-benefit analysis in their ground system planning. In 
addition, the act directed DOD to develop a DOD-wide long-term plan for 
satellite ground control systems.\10\
---------------------------------------------------------------------------
    \8\ GAO, Satellite Control: Long-Term Planning and Adoption of 
Commercial Practices Could Improve DOD's Operations, GAO-13-315 
(Washington, DC: April 18, 2013).
    \9\ Pub. L. No. 113-66, Sec. 822(a) (2013) (codified as amended at 
10 U.S.C. Sec. 2366b(a)).
    \10\ Pub. L. No. 113-66, Sec. 822(b) (2013).
---------------------------------------------------------------------------
    Additionally, the Defense Space Council continues with its 
architecture reviews in key space mission areas. According to Air Force 
officials, the Council is the principal DOD forum for discussing space 
issues, and brings together senior-level leaders to discuss these 
issues. These architecture reviews are to inform DOD's programming, 
budgeting, and prioritization for the space mission area. The Council 
has five reviews underway or completed in areas such as overhead 
persistent infrared, satellite communications, space situational 
awareness, and national security space launches. They are also 
initiating a study of how DOD can assess the resilience of its space 
systems. DOD also recently held a forum on resiliency that included 
participation from senior leaders from several groups within DOD and 
the Intelligence Community to create a work plan towards resolution of 
critical gaps in resiliency.
    Many of the reforms that are being initiated may not be fully 
proven for some years, because they apply mainly to programs in early 
acquisition stages, and most DOD space systems are currently either in 
the production phase or late in the development phase. We have not 
assessed the impact of actions taken this year, but we have observed 
that the totality of improvements made in recent years has contributed 
to better foundations for program execution.
DOD Continues to Face Barriers to Program Oversight and Management
    While DOD has taken steps to address acquisition problems of the 
past, significant issues above the program level will still present 
challenges to even the best run programs. One key oversight issue is 
fragmented leadership of the space community. We have reported in the 
past that fragmented leadership and lack of a single authority in 
overseeing the acquisition of space programs have created challenges 
for optimally acquiring, developing, and deploying new space 
systems.\11\ Past studies and reviews have found that responsibilities 
for acquiring space systems are diffused across various DOD 
organizations, even though many of the larger programs, such as the 
Global Positioning System and those to acquire imagery and 
environmental satellites, are integral to the execution of multiple 
agencies' missions. This fragmentation is problematic because the lack 
of coordination has led to delays in fielding systems, and also because 
no one person or organization is held accountable for balancing 
government-wide needs against wants, resolving conflicts and ensuring 
coordination among the many organizations involved with space systems 
acquisitions, and ensuring that resources are directed where they are 
most needed. Though changes to organizations and the creation of the 
Defense Space Council have helped to improve oversight, our work 
continues to find that DOD would benefit from increased coordination 
and a single authority overseeing these programs.
---------------------------------------------------------------------------
    \11\ GAO, 2012 Annual Report: Opportunities to Reduce Duplication, 
Overlap and Fragmentation, Achieve Savings, and Enhance Revenue, GAO-
12-342SP (Washington, DC: Feb. 28, 2012); and Space Acquisitions: DOD 
Poised to Enhance Space Capabilities but, Persistent Challenges Remain 
in Developing Space Systems, GAO-10-447T (Washington, DC: Mar. 10, 
2010).
---------------------------------------------------------------------------
    A program management challenge that GAO has identified, which stems 
from a lack of oversight, is that DOD has not optimally aligned the 
development of its satellites with associated components, including 
ground control system and user terminal acquisitions. Satellites 
require ground control systems to receive and process information from 
the satellites, and user terminals to deliver that satellite's 
information to users. All three elements are important for utilizing 
space-based data, but development of satellites often outpaces the 
ground control systems and the user terminals. Delays in these ground 
control systems and user terminals lead to underutilized on-orbit 
satellite resources, and thus delays in getting the new capabilities to 
the warfighters or other end-users. In addition, there are limits to 
satellites' operational life spans once launched. When satellites are 
launched before their associated ground and user segments are ready, 
they use up time in their operational lives without their capabilities 
being utilized. Synchronization of space system components will be an 
important issue for DOD in considering disaggregating space 
architectures, as the potential for larger numbers and novel 
configurations of satellites and ground systems will likely require the 
components to be synchronized to allow them to work together in the 
most effective way possible. As mentioned earlier, DOD is taking steps 
in response to improvements mandated by Congress. But it will likely be 
difficult to better synchronize delivery of satellite components 
without more focused leadership at a level above the acquisitions' 
program offices. For example, budget authority for user terminals, 
ground systems, and satellites is spread throughout the military 
Services, and no one is in charge of synchronizing all of the system 
components, making it difficult to optimally line up programs' 
deliveries.
 dod is considering and adopting significant changes to space systems 
                              acquisitions
    Fiscal pressures, past development problems, and concerns about the 
resiliency of satellites have spurred DOD to consider significant 
changes in the way it acquires and launches national security 
satellites.
Potential Changes to Acquiring New DOD Space Systems
    Significant fiscal constraints, coupled with growing threats to DOD 
space systems--including adversary attacks such as anti-satellite 
weapons and communications jamming, and environmental hazards such as 
orbital debris--have called into question whether the complex and 
expensive satellites DOD is fielding and operating are affordable and 
will meet future needs. For example, a single launch failure, on-orbit 
anomaly, or adversary attack on a large multi-mission satellite could 
result in the loss of billions of dollars of investment and a 
significant loss of capability. Additionally, some satellites, which 
have taken more than a decade to develop, contain technologies that are 
already considered obsolete by the time they are launched.\12\
---------------------------------------------------------------------------
    \12\ GAO, Briefing on Commercial and Department of Defense Space 
System Requirements and Acquisition Practices, GAO-10-135R (Washington, 
DC: Jan. 14, 2010).
---------------------------------------------------------------------------
    To address these challenges, DOD is considering alternative 
approaches to provide space-based capabilities, particularly for 
missile warning, protected satellite communications, and environmental 
monitoring. According to DOD, the primary considerations for studying 
these approaches and making decisions on the best way forward relate to 
finding the right balance of affordability, resiliency, and capability. 
These decisions, to be made over the next 2 to 3 years, have the 
potential for making sweeping changes to DOD's space architectures of 
the future. For example, DOD could decide to build more disaggregated 
architectures, including dispersing sensors onto separate platforms; 
using multiple domains, including space, air, and ground, to provide 
full mission capabilities; hosting payloads on other government or 
commercial spacecraft; or some combination of these.
    Our past work has indicated that some of the approaches being 
considered have the potential to reduce acquisition cost and time on a 
single program. For instance, we have found that DOD's initial 
preference to make fewer large and complex satellites that perform a 
multitude of missions has stretched technology challenges beyond 
existing capabilities, and in some cases vastly increased the 
complexities of related software.single program. For instance, we have 
found that DOD's initial preference to make fewer large and complex 
satellites that perform a multitude of missions has stretched 
technology challenges beyond existing capabilities, and in some cases 
vastly increased the complexities of related software.\13\ In addition, 
developing extensive new designs and custom-made spacecraft and 
payloads to meet the needs of multiple users limits DOD's ability to 
provide capabilities sooner and contributes to higher costs.\14\ Last 
year, we reported that one potential new approach, hosted payload 
arrangements in which government instruments are placed on commercial 
satellites, may provide opportunities for government agencies to save 
money, especailly in terms of launch and operation costs, and gain 
access to space.\15\
---------------------------------------------------------------------------
    \13\ GAO, Space Acquisitions: DOD Needs to Take More Action to 
Address Unrealistic Initial Cost Estimates of Space Systems, GAO-07-96 
(Washington, DC: Nov. 17, 2006).
    \14\ GAO-10-135R.
    \15\ GAO, 2013 Annual Report: Actions Needed to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-13-279SP (Washington, DC: April 9, 2013).
---------------------------------------------------------------------------
    As new approaches, such as disaggregation, are considered, the 
existing management environment could pose barriers to success, 
including fragmented leadership for space programs, the culture of the 
DOD space community, fragmentation in satellite control stations, and 
disconnects between the delivery of satellites and their corresponding 
user terminals. For instance, disaggregation may well require 
substantial changes to acquisition processes and requirements setting. 
But without a central authority to implement these changes, there is 
likely to be resistance to adopting new ways of doing business, 
particularly since responsibilities for space acquisitions stretch 
across the military services and other government agencies. Moreover, 
under a disaggregated approach, DOD may need to effectively network and 
integrate a larger collection of satellites--some of which may even 
belong to commercial providers. We have reported that ground systems 
generally only receive and process data from the satellites for which 
they were developed. They generally do not control and operate more 
than one type of satellite or share their data with other ground 
systems. To date, however, DOD has had difficulty adopting modern 
practices and technologies for controlling satellites as well as 
difficulty in coordinating the delivery of satellites with the user 
terminals that must be installed on thousands of ships, planes, and 
ground-based assets. These are conditions that are difficult to change 
without strong leadership to break down organizational stove-pipes and 
to introduce technologies or techniques that could enable DOD to better 
integrate and fuse data from a wider, potentially more disparate, 
collection of satellites.
    In light of suggestions that disaggregation could potentially 
reduce cost and increase survivability, the Senate Committee on Armed 
Services mandated that we assess the potential benefits and limitations 
of disaggregating key military space systems, including potential 
impacts on total costs.\16\ To date, we have found that the potential 
effects of disaggregation are conceptual and not yet quantified. DOD 
has taken initial steps to assess alternative approaches, but it does 
not yet have the knowledge it needs to quantify benefits and 
limitations and determine a course of action. DOD officials we spoke 
with acknowledge the department has not yet established sufficient 
knowledge on which to base a decision. While DOD has conducted some 
studies that assessed alternative approaches to the current programs of 
record, some within the department do not consider these studies to be 
conclusive because they were either not conducted with sufficient 
analytical rigor or did not consider the capabilities, risks, and 
trades in a holistic manner. For example, according to the Office of 
the Secretary of Defense's Office of Cost Assessment and Program 
Evaluation, a recent Air Force study that assessed future satellite 
communications architectures contained insufficient data to support the 
conclusion that one architectural approach was more resilient than 
others, and the cost estimates it contained did not consider important 
factors, such as ground control and terminal costs, in calculating the 
implications of changing architectures.
---------------------------------------------------------------------------
    \16\ S. Rep. No. 113-44, at 165 (2013).
---------------------------------------------------------------------------
    To build consensus in the department, and to conduct a more 
rigorous analysis of options, DOD is currently in the process of 
conducting additional studies that will consider future architectures. 
Included in these studies are Analyses of Alternatives for future 
missile warning, protected satellite communications, and space based 
environmental monitoring capabilities.\17\ Among the range of 
alternatives these analyses are considering are approaches that keep 
the current system, evolve the current system, and disaggregate the 
current system into more numerous, but small and less complex, 
satellites. DOD has nearly finished the space-based environmental 
monitoring study and expects to finish the other two in either this 
fiscal year or next.
---------------------------------------------------------------------------
    \17\ An Analysis of Alternatives (AOA) is a review in the DOD 
acquisition process that compares the operational effectiveness, 
suitability, and lifecycle cost of solutions to satisfy documented 
capability needs. Factors considered in the AOA include effectiveness, 
cost, schedule, concepts of operations, and overall risk of each 
alternative. A GAO report in 2009 found in many cases the AOAs did not 
effectively consider a broad range of alternatives and that DOD 
sponsors sometimes identify a preferred solution before an AOA is 
conducted. GAO, Defense Acquisitions: Many Analyses of Alternatives 
Have Not Provided a Robust Assessment of Weapon System Options, GAO-09-
665 (Washington, DC: Sept. 24, 2009). These AOAs are to investigate 
follow-on programs for SBIRS, AEHF, and the Defense Meteorological 
Satellite Program. In addition to missile warning, SBIRS supports 
missile defense, battlespace awareness, and technical intelligence 
missions.
---------------------------------------------------------------------------
    Moreover, as DOD continues to build knowledge about different 
acquisition approaches, it will be essential to develop an 
understanding of key factors for decisions on future approaches that 
could impact the costs, schedules, and performance of providing mission 
capabilities. Some considerations for moving to a new or evolved 
architecture may include the following:

        <bullet> Common definitions of key terms, such as resiliency 
        and disaggregation, across all stakeholders, and a common 
        measurement of these terms in order to compare architectural 
        alternatives.
        <bullet> The true costs of moving to a new architecture, 
        including transition costs for funding overlapping operations 
        and compatibility between new and legacy systems and non-
        recurring engineering costs for new-start programs, among 
        others.
        <bullet> Potential technical and logistical challenges. For 
        example, with hosted payloads, our past work has found that 
        ensuring compatibility between sensors and host satellites may 
        be difficult because of variable interfaces on different 
        companies' satellites.\18\ In addition, scheduling and funding 
        hosted payload arrangements may be difficult because the 
        timeline for developing sensors may be much longer than that of 
        commercial satellites.
---------------------------------------------------------------------------
    \18\ GAO-13-279SP.
---------------------------------------------------------------------------
        <bullet> Impacts to supporting capabilities, such as ground 
        control and operations and launch availability, and 
        longstanding challenges we have identified regarding how these 
        have been managed.\19\
---------------------------------------------------------------------------
    \19\ GAO-13-315. GAO, Evolved Expendable Launch Vehicle: DOD Needs 
to Ensure New Acquisition Strategy Is Based on Sufficient Information. 
GAO-11-641. (Washington, DC: September 15, 2011) and Space 
Acquisitions: Uncertainties in the Evolved Expendable Launch Vehicle 
Program Pose Management and Oversight Challenges. GAO-08-1039. 
(Washington, DC: September 26, 2008).
---------------------------------------------------------------------------
        <bullet> Readiness of the acquisition workforce and industrial 
        base to support a new architecture.

    Given that DOD is in the early stages of assessing alternatives, 
our ongoing work is continuing to identify potential benefits and 
limitations of disaggregation and examine the extent to which these 
issues are being factored into DOD's ongoing studies. We look forward 
to reporting on the results of this analysis this summer.
Recent and Upcoming Changes to the Evolved Expendable Launch Vehicle 
        Program
    DOD has made some changes to the way it buys launch services from 
its sole-source provider, and plans to allow other companies to compete 
with that provider for launch services in the near future. DOD's 
Evolved Expendable Launch Vehicle (EELV) program is the primary 
provider of launch vehicles for U.S. military and intelligence 
satellites. Since 2006, the United Launch Alliance (ULA) has been the 
sole-source launch provider for this program, with a record of 50 
successful consecutive government missions. From 2006 through 2013, DOD 
had two types of contracts with ULA through which ULA provided launch 
services for national security space launches.\20\ DOD utilized this 
dual-contract structure to achieve flexibility in launch schedules and 
to avoid additional costs associated with frequent launch delays.
---------------------------------------------------------------------------
    \20\ Under this two-contract structure, DOD bought launch 
capability on one series of contracts, and launch hardware on another 
series of contracts. Launch capability included things like overhead on 
launch pads, engineering support, and labor to conduct launches.
---------------------------------------------------------------------------
    In the last few years, though the dual contract structure met DOD's 
needs for unprecedented mission success and flexible launch capability, 
predicted costs continued to rise for launch services. In response to 
these cost predictions, DOD revised its acquisition strategy to allow 
for a ``block buy'' of launch vehicles, where DOD would commit to 
multiple years of launch purchases from ULA, with the goal of 
stabilizing production and decreasing prices. In addition, and 
partially in response to GAO recommendations, DOD gathered large 
amounts of information on ULA's cost drivers to allow DOD to negotiate 
significantly lower prices under the contracting structure.\21\ In 
December 2013, DOD signed a contract modification with ULA to purchase 
35 launch vehicle booster cores over a 5-year period, 2013-2017, and 
the associated capability to launch them. According to the Air Force, 
this contracting strategy saved $4.4 billion over the predicted program 
cost in the fiscal year 2012 budget. We recently reported on some of 
the changes included in this new contract from the prior contracts.\22\
---------------------------------------------------------------------------
    \21\ GAO-11-641.
    \22\ GAO, The Air Force's Evolved Expendable Launch Vehicle 
Competitive Procurement, GAO-14-377R (Washington, DC: March 4, 2014).
---------------------------------------------------------------------------
    In addition to this change in the way DOD buys launch vehicles, DOD 
is also in the process of introducing a method for other launch 
services companies to compete with ULA for EELV launches. Since 2006, 
when ULA began as a joint venture between then-competitors Boeing and 
Lockheed Martin, the EELV program has been managed as a sole source 
procurement, because there were no other domestic launch companies that 
could meet the program's requirements. With the recent development of 
new domestic launch vehicles that can meet at least some EELV mission 
requirements, DOD plans to make available for competition up to 14 
launches in fiscal years 2015-2017. Any launch company that has been 
certified by DOD to launch national security space payloads will be 
able to compete with ULA to launch these missions. DOD is currently 
finalizing their plan for this competition, including what requirements 
will be placed on the contractors and how they will compare proposals 
from the contractors.
    Based on our discussions with DOD officials, they plan to use a 
best value approach for this competition, in which price is not the 
only consideration. DOD will likely consider several factors when 
comparing proposals for launch services for the 14 booster core 
competition between ULA and new entrants, including price, mission 
risk, and satellite vehicle integration risks. DOD could require 
competitive proposals to be structured in several ways. If DOD requires 
proposals to contain both fixed-price and cost reimbursement features 
for launch services and capability, respectively, similar to the way it 
currently contracts with ULA, there could be benefits to DOD and ULA, 
but potential burdens to new entrants. For example, DOD is familiar 
with this approach and has experience negotiating under these terms, 
and ULA is familiar with DOD's requirements given ULA's role as the 
EELV's sole launch provider. But use of a cost type contract may negate 
efficient contractor business practices and cost savings due to 
government data requirements under this type of approach, and it may 
give ULA a price advantage because DOD already funds launch capability 
for ULA. Alternatively, if DOD implements a fixed-price commercial 
approach to launch proposals with fewer data reporting requirements, 
DOD could lose insight into contractor cost or pricing, but may receive 
lower prices from new entrants due to these fewer data reporting 
requirements. DOD could also require a combination of elements from 
each of these approaches, or develop new contract requirements for this 
competition. We examined some of the benefits and challenges of the 
first two approaches, either of which can facilitate competitive launch 
contract awards, in a recent report.\23\ DOD expects to issue a draft 
request for proposal for the first of the competitive missions, where 
the method for evaluating and comparing proposals will be explained, in 
the spring of 2014.
---------------------------------------------------------------------------
    \23\ GAO-14-377R.
---------------------------------------------------------------------------
    The planned competition for launch services may have helped DOD 
negotiate the lower prices it achieved in its December 2013 contract 
modification, and DOD could see further savings if a robust domestic 
launch market materializes. DOD noted in its 2014 President's Budget 
submission for EELV that after the current contract with ULA has ended, 
it plans to have a full and open competition for national security 
space launches. Cost savings on launches, as long as they do not come 
with a reduction in mission successes, would greatly benefit DOD, and 
allow the department to put funding previously needed for launches into 
programs in the development phases to ensure they are adequately 
resourced.
    In conclusion, DOD has made significant progress in solving past 
space systems acquisition problems, and is seeing systems begin to 
launch after years of development struggles. However, systemic problems 
remain that need to be addressed as DOD considers changes to the way it 
acquires new systems. This is particularly important if DOD decides to 
pursue new approaches that could require changes in longstanding 
processes, practices, and organizational structures. Even if DOD 
decides not to pursue new approaches, these problems must still be 
tackled. In addition, challenging budget situations will continue to 
require tradeoffs and prioritization decisions across programs, though 
limited funds may also provide the impetus for rethinking 
architectures. We look forward to working with Congress and DOD in 
identifying the most effective and efficient ways to sustain and 
develop space capabilities in this challenging environment.
    Chairman Udall, Ranking Member Sessions, this completes my prepared 
statement. I would be happy to respond to any questions you and members 
of the subcommittee may have at this time.
                     contacts and acknowledgements
    For further information about this statement, please contact 
Cristina Chaplain at (202) 512-4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="41222920312d20282f220126202e6f262e376f">[email&#160;protected]</a> Contact 
points for our Offices of Congressional Relations and Public Affairs 
may be found on the last page of this statement. Individuals who made 
key contributions to this statement and related work include Art 
Gallegos, Assistant Director; Pete Anderson; Virginia Chanley; Erin 
Cohen; Desiree Cunningham; Brenna Guarneros; Kristine Hassinger; Laura 
Hook; Rich Horiuchi; Jeff Sanders; and Roxanna Sun.

    Senator Udall. Thank you, Ms. Chaplain.
    We will do 7-minute rounds. I will start.
    General Shelton, I want to turn to you. Much has been said 
about the disaggregation of satellite sensors to smaller 
satellites or hosted payloads, but no studies have been done to 
prove that it increases survivability and lowers cost. What is 
your point of view on that set of questions?
    General Shelton. Senator, as Cristina just said, we are in 
the middle of these studies right now. In fact, she mentioned 
this as well. The way we have gone about procuring satellites, 
particularly advanced extremely high frequency (AEHF) and 
space-based infrared system (SBIRS) and GPS, we have bought 
blocks of satellites, in some cases two, in some cases more, 
but we have bought in blocks and saved considerable money by 
doing that. Some of that money we have plowed back into what we 
call strategic modernization initiative funds, and those funds 
support both technology improvement, as well as studying these 
disaggregation concepts, alternative architectures for the 
future.
    What we are trying to do here is get ahead of the threat or 
at least stay up with the threat so that we are much more 
resilient, much more survivable in our architectures in 
critically important space capability for the future.
    I would agree that we are not quite there yet. We have not 
gotten to definitive answers, but we are certainly in the 
middle of some very important studies on what those answers 
would be.
    Senator Udall. If there is one thing that you are known 
for, it is advocacy of SSA, and I want to thank you on behalf 
of the subcommittee for the great service you have done the 
Nation in that regard.
    Do you believe we need an overall coordinated architecture 
for this effort rather than this accumulation of sensors that 
we now have?
    General Shelton. Yes, sir. We do have an overall 
architecture, and it is orbital regime by orbital regime. So 
what we need in low earth orbit, what gaps we have in 
capabilities, what we need in geosynchronous orbit, what gaps 
we have in those capabilities--we are filling those gaps. We 
are in the process of providing new sensors that would, indeed, 
fill those gaps with things like the Space Fence which will go 
out on Kwajalein, with things like the space-based space 
surveillance satellite, which will come probably in the 2018-
2019 timeframe. We are looking at moving the space surveillance 
telescope that is now in New Mexico down to Australia to 
provide us better coverage of deep space in the southern 
hemisphere.
    There is a range of things that we are doing in terms of 
sensor technology, but in addition to that, we are putting a 
new system out at the Joint Space Operations Center (JSpOC) 
called Joint Space Operations Center Mission System (JMS). That 
will fuse all this data and provide us much better capability 
to be predictive in our SSA, much less reactive because right 
now we do forensic analysis, frankly, of what happened. We want 
to get to the place where we are predicting what is going to 
happen and then we can take steps to avoid the consequences of 
those actions.
    Senator Udall. Let me ask a final question of you that gets 
at the heart of this important discussion we are having. Do you 
believe deterrence concepts work with space assets?
    General Shelton. Senator, that is a very difficult question 
because traditional deterrence theory involves two things. It 
is either denying benefits to an adversary or imposing costs on 
an adversary. But much of that deterrence is based on being 
able to see what capabilities the adversary has. We do not make 
public in most cases some of the capabilities that we have, so 
there is no transparency there, so there is no deterrence. 
There is very little capability to really verify what we might 
consider as deterrence or treaty obligations or anything of 
that nature. Typically, what we have looked at for strategic 
deterrence in many cases does not apply because you just do not 
have the same situation, and as you reach into the cyber 
domain, it gets even worse.
    Senator Udall. That is a whole other conversation, is it 
not?
    General Shelton. Yes, sir.
    Senator Udall. Thank you for those insights.
    General Mann, maybe I could turn to you. As I mentioned, 
one of the primary assets you maintain is the one on Kwajalein. 
Its location makes it very important for SSA.
    Could you please explain to the subcommittee how the Army 
budgets for SSA and what improvements might be made in the 
budget process?
    General Mann. Thank you, Senator, for that question.
    Currently, the way we work the budgeting process is, we 
receive from STRATCOM the needs, the requirements each year in 
terms of products, whether it is imagery, and we use that to 
help form the Program Objective Memorandum (POM) that the Army 
puts forth. So we have an arrangement where we work very 
closely with STRATCOM, with the Air Force, to make sure that we 
fully understand what the requirement is and then we POM 
accordingly.
    Now, something that might come in out of cycle or an 
additional request is something that we would have to take back 
to the Army and it would have to be prioritized and funded if 
it met that threshold.
    Currently, that is the process, working very closely with 
STRATCOM based upon what their requirements are every year.
    Second, your second question, Senator. I think not so much 
from the budgeting process--I think really what I have to do is 
I have to make sure that I truly articulate the importance of 
SSA to the leaders that make the decisions. Obviously, there 
are multiple claimants for limited resources. From a budgeting 
standpoint, my challenge, my objective, is to make sure that I 
clearly articulate the importance and the priority that these 
requests should receive. Quite frankly, I think it is 
reflective in how the Army's senior leadership view space, 
missile defense, and cyber. It is at the top of the priority 
list. So I am pretty confident we are going to get the support 
we need.
    Senator Udall. Dr. Zangardi, let me try and fit in one last 
question. I know you will give a succinct answer.
    You talked about MUOS. It is designed to replace an aging 
UHF system the Navy operates which, as I have implied, is near 
its end of life. Do you expect the event with satellite number 
3 to affect our capacity to replace the aging system? If so, 
how?
    Dr. Zangardi. No, sir, I do not. We experienced a 6-month 
delay moving to number 4 and pushing it back to a January 
launch of 2015. With the capacity we currently have up on 
orbit, between UHF,  ultra-high  frequency  follow-on  (UFO),  
MUOS,  SV-1,  and SV-2--we have two UHF packages there--hosted 
payloads and leased satellite capability, we exceed the Joint 
Staff requirement by 41 percent for channels where access is 
provided to the warfighter. So we are pretty confident that 
that will have no impact on the operational warfighter.
    Senator Udall. Thank you for that.
    Senator Sessions.
    Senator Sessions. Thank you.
    General Shelton, the November 2013 U.S.-China Economic and 
Security Review Commission raises concerns about China's 
efforts to militarize space and develop an anti-satellite 
(ASAT) weapon capability. They say this in the unclassified 
report: Although Beijing claims the launch was part of a high-
altitude scientific experiment, available data suggests it was 
intended to test at least the launch vehicle component of a new 
high-altitude ASAT capability. If the launch is part of China's 
ASAT program, Beijing's attempt to disguise it as a scientific 
experiment would demonstrate a lack of transparency about its 
objectives and activities in space. Furthermore, such a test 
would signal China's intent to develop an ASAT capability to 
target satellites in an altitude range that includes U.S. GPS, 
and many U.S. military intelligence satellites.
    Is that accurate, to your knowledge? Do you agree with that 
assessment? Is it a concern to us?
    General Shelton. Senator, at this level, all I can say is 
we are concerned about all orbits now. We are concerned about 
low earth orbit because we saw the 2007 Chinese ASAT test, 
which was a success. We are concerned about work that we have 
seen since then that includes all the way up to geosynchronous 
orbit. Some of our most precious assets fly in geosynchronous 
orbit.
    Senator Sessions. Are there actions we could take to deter 
our potential adversaries from taking such action? What do we 
consider it to be? Is it the equivalent of shooting down a 
military plane or attacking a ship? How do we respond to any 
potential attack on our satellite capability? Should we not 
make that clear now?
    General Shelton. Yes, sir. Those are policy questions that 
we are addressing right now. Maybe Mr. Loverro wants to say 
more about that. But I will tell you from the technology point 
of view, we are addressing that very issue.
    Senator Sessions. Mr. Loverro, what do you think about 
that? Sometimes ambiguity encourages aggression, as many people 
stress. Should we have a clear position with regard to the 
consequences of aggression against a satellite of the United 
States?
    Mr. Loverro. Yes, Senator. Actually, our national policy 
makes it clear that we view U.S. space assets as our sovereign 
assets and that attack on them is equivalent to attack on any 
sovereign assets. We have stated in our National Space Policy 
that we intend to go ahead and defend those assets in times and 
places of our choosing because we do view those as critical to 
U.S. national security.
    Senator Sessions. I think it is important to make sure we 
understand. I am not sure you have stated absolutely clearly 
what would happen. But to the extent to which we make it very 
clear that you do not get to knock our satellites out and 
nothing will happen, I think it is very important. Thank you 
for sharing that, and I am glad you are working on it. We will 
probably inquire about it further as we go along.
    General Mann, in November 2011, your team tested the 
Advanced Hypersonic Weapons (AHW) system. It demonstrated the 
best results to date for the development of a future prompt 
global strike capability. I understand there will be another 
test in August of this year. Can you provide the subcommittee a 
quick update on the progress that is managed by your command?
    General Mann. Yes, thank you, Senator. Again, I am pretty 
proud of our team, those men and women at Huntsville with 
Sandia Labs, working with those folks. It is the only 
successful test to date of the AHW system.
    Right now we are on track. As you mentioned, we have a test 
scheduled for August of this year. Then based upon the results 
that come from that test, then we will go ahead and again work 
closely with the Office of the Secretary of Defense (OSD) as to 
what they would like us to do, what the next steps are. I know 
that they are working with the Navy also on possible 
utilization of this capability.
    Senator Sessions. I think there is a competitive 
environment for production of this, as I understand it. But 
tell us how you feel like your team is doing, to what extent it 
is an in-house operation, and how the costs are shaping up.
    General Mann. Senator, right now we are on target with the 
costs. I do not see any kind of an overrun at this moment. 
Everything is predicated on what happens after the test. We 
have the monies allocated to support the test. We do not 
envision any kind of overruns. But really, I think once we see 
the results of the test and whether or not it met all the 
parameters and all the objectives, that I think will be 
illuminating for the OSD folks to really take a look at where 
they want to go with this, how much further they want to go. Do 
they want to look at a naval application for that? But in terms 
of the budget, we are on budget. We are not over budget and we 
are on target right now to execute. No show-stoppers at this 
point.
    Senator Sessions. You feel like there is nothing 
scientifically blocking you from success and reaching the goal 
at this point?
    General Mann. Not at this point, Senator.
    Senator Sessions. General Shelton, briefly. The full 
committee has delved into the concerns about cyber warfare and 
any vulnerabilities our systems might have, particularly our 
space and missile systems, to cyber attacks that could 
neutralize their capabilities even for a period of time. It 
might be a critical period of time.
    Do you have any thoughts about that? I know you are 
concerned. Maybe some of the other panelists would offer an 
opinion.
    General Shelton. Yes, sir. We are going system-by-system 
looking at our cyber vulnerabilities, and we have a large 
information assurance program that gets into those 
vulnerabilities and patches them and tries to prevent access. 
In many cases, these are closed systems. That does not mean 
there are not vulnerabilities, but they are closed systems not 
accessible through the Internet. So it would take insider, 
special access, those kinds of things to get to these closed 
networks. But nevertheless, we are addressing all those touch 
points, if you will, and closing off those vulnerabilities as 
best we can.
    Senator Sessions. Any other members want to comment on 
that?
    We had legislation that required that to be done, a review 
to be done and a report to be done on this. What we found was 
the full committee staff recommended, and the subcommittee has 
fundamentally adopted it, that all our vulnerable systems--not 
just space and missile--be examined for these possible 
weaknesses. I think it is very important. Thank you for your 
work.
    Senator Udall. Thank you, Senator Sessions.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Mr. Loverro, I do not know if you would be the guy to 
answer this one, but we currently rely on National Oceanic and 
Atmospheric Administration (NOAA) weather satellites. They are 
getting older, and I am concerned about their impact on 
military operations as they get older, if they are becoming 
less capable. I was wondering if there is a master plan to 
upgrade the weather satellite program and whether, as you look 
at it, you have the funding streams to get it done.
    Mr. Loverro. Yes, Senator. Again, this is probably one of 
those questions that can be shared between myself and General 
Shelton. Let me start and perhaps let him finish.
    Within DOD, I was a party to an extensive review of DOD 
weather needs, analyzing not just the NOAA systems but 
commercial and international systems as well, and what kind of 
specific needs did DOD need to bring to bear to assure that its 
capabilities were protected. Air Force Space Command took a 
very aggressive approach on that, brought forward a program and 
issues budget that I probably should turn to General Shelton to 
go ahead and talk about.
    General Shelton. Yes, sir. Following that analysis of 
alternatives that Mr. Loverro is talking about, we have gone 
forward with a weather system follow-on program we call it, 
which will end up being a small satellite which has unique DOD 
requirements satisfied. Like he said, we will count on NOAA, 
international and commercial partners to provide the rest of 
the data that is needed to round out the weather picture.
    We are in the process right now of launching a defense 
meteorological satellite program. Satellite number 19 will 
launch within the next couple of months from Vandenberg Air 
Force Base. We will put up a new satellite. What happens after 
that is under review, but we are confident we are in a good 
place, sir.
    Senator Donnelly. General Mann, the hypersonic missile 
program is really quite a task. You are doing amazing work on 
it. What I was also wondering is, as other nations are working 
on this, as we know they are, do we have groups working on how 
to counter their efforts in this area or how to protect our 
Nation from their efforts I guess would be a better way to put 
it?
    General Mann. Let me say that we are aware of the 
technologies that are being looked at. I would like to take 
that for the record. I really do not know of specific programs 
that we are putting into place to combat that threat, but we 
are aware. In the case of Russia, I know that Russia is heavily 
involved in looking at this kind of capability. But really, let 
me take that for the record to get you the exact programs, if 
they are out there.
    [The information referred to follows:]

    Just as the Department of Defense (DOD) continues to mature and 
field capabilities to counter the growing ballistic missile defense 
threat, we also are working to address the emerging threat posed by a 
hypersonic glide body delivery platform. DOD continues to evaluate 
defensive capabilities to address the emerging hypersonic technology 
threat. Additionally, as is the case with many of our technologies, DOD 
is attuned to and working diligently to identify and neutralize 
adversarial actions to garner hypersonic technology. Upon request, 
further details could be provided via a classified session or paper.

    Senator Donnelly. General Shelton, as we look at the 
ground-based interceptor systems and such, we are looking at 
some sites for further development to protect us from North 
Korea and Iran. Do you see that as a necessary step as we move 
forward?
    General Shelton. Senator, I really do not work missile 
defense, to tell you the truth, other than to provide radar 
support to missile defense interceptors. That may be something 
General Mann could answer better than me.
    General Mann. Yes, Senator. Thank you.
    Obviously, putting a third site out there on the east coast 
will provide increased capacity, not so much capability, but 
increased capacity. You will take your assets and spread them 
out so that you do not have them just at Greeley or at 
Vandenberg Air Force Base. It also will give you a little bit 
more decision space or battle space, as it is known, in order 
to make a decision regarding a threat emanating from Iran.
    But I will have to tell you that I think that the greatest 
priority, the most important thing that we need to really focus 
on, is long-range discrimination because I think it is fair to 
say that we will never have enough interceptors to really 
address all the threat vehicles that are out there. So I think 
it is more important that we are as efficient and as effective 
with the interceptors that we currently have. That is the 
reason why making sure that we are providing the interceptor 
with the best track data, the discrimination to be able to 
really identify the target within a complex, that is what I 
would really highly recommend.
    Senator Donnelly. This would be to whoever would like to 
take it. If China is conducting test targeting objects, for 
instance, up to 12,000 miles away from the Earth's surface, 
could this affect our GPS capabilities, our GPS satellites?
    General Shelton. Yes, sir.
    Senator Donnelly. In a significant way?
    General Shelton. Yes, sir.
    Senator Donnelly. Would their efforts, if they do this, 
indicate a significant improvement in China's space weapon 
capabilities as well?
    General Shelton. No question. Yes, sir.
    Senator Donnelly. This would be for Dr. Zangardi, and that 
is, in relation to relying more heavily on networks and 
computer components to utilize our military and space systems 
than we ever have before, what confidence do you have in our 
ability to detect counterfeit parts, similar parts that create 
a danger of their own, obviously? Number one, it is important 
to protect our Nation. Number two, Naval Warfare Crane out of 
Indiana does a lot of this work. It is something that is very 
concerning to me to make sure that we get this right.
    Dr. Zangardi. Yes, sir. It is very concerning to us also. 
We spend time with the Naval Warfare Center at Crane. That does 
not fall within my portfolio. I mainly work with Space and 
Naval Warfare Systems Command (SPAWAR) out of San Diego and 
their technical acquisition expertise in this area.
    We take it very seriously. Specifically as related to MUOS, 
we have put in place actions in the program to review what we 
are taking in, what we are procuring. In a broader IT sense, 
the IT portfolio within the acquisition of the Navy falls under 
me. We take very seriously this threat and we are putting in 
place actions to begin to ensure that we are not buying parts 
that would not be good for us to have.
    Senator Donnelly. What is your determination--I will ask 
this very quickly as I am out of time--as to the rate of 
counterfeit parts, what you are seeing? Do you see an increase, 
decrease, or what is your best estimate at the present time?
    Dr. Zangardi. Sir, I am hesitant to give an estimate. I 
would like to take that question for the record and provide you 
an answer at a later time.
    Senator Donnelly. That would be fine.
    [The information referred to follows:]

    Lockheed Martin Space Systems Company (LMSSC) has experienced a 
total of eight known counterfeit parts incidents since 2008, none on 
the MUOS program. The trend is declining with the last incident 
occurring in October 2012. The breakdown is:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                2008                          2009                    2010                    2011                   2012                   2013
--------------------------------------------------------------------------------------------------------------------------------------------------------
2..................................  2.....................  3.....................  0....................  1....................  0
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The program procures screened and controlled parts and also follows 
a robust counterfeit parts prevention process. The strategy centers on 
purchasing parts from authorized sources, Original Component 
Manufacturer or their franchised distributors. Requirements are flowed 
to subcontractors to further ensure that procurements they make also 
conform to LMSSC policy.

    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Donnelly.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    General Mann, I just want to emphasize--I think you said 
something very important that what we really need to be talking 
about on this missile defense is long-range discrimination and 
sensors. Does the President's budget take that into account? 
Are there initiatives, programs?
    General Mann. Thank you, Senator.
    Yes, there are programs, and in fact, as a result of the 
bipartisan budget agreement that took place, I am pretty sure 
that the Missile Defense Agency (MDA) received some additional 
funding. That is one of the things in their portfolio that they 
are looking at. How robustly it is funded I really cannot say, 
but I do know that MDA is looking at that as a technology that 
they are going to pursue.
    Senator King. Thank you.
    General Shelton, I want to engage in a hypothetical. This 
hearing is about the importance of the military aspects of 
space. Tell us what would happen if all of our space assets 
were wiped out in a 5-minute period. What would that mean to 
our ground and naval forces if we were in a conflict situation?
    General Shelton. I would tell you, Senator, that we are so 
dependent on space these days. We plug into it like a utility. 
It is always there. Nobody worries about it. You do not even 
know sometimes that you are touching space. So it would be 
almost a reversion back to almost industrial-based warfare, 
industrial age warfare. We would not be able to communicate as 
well. We could not navigate as well. We would not operate with 
the precision. We would not have the coordination. It would be 
a while recovering our coordinated, integrated aspects of 
warfare. We operate as an integrated joint team now. Much of 
that is provided by space capability. So recovering that 
without space would be very difficult, if not impossible.
    Senator King. Given the importance and given that 
vulnerability, does it not make strategic sense--I know there 
is a discussion. I think the term is ``disaggregation''--to 
spread these capabilities over smaller satellites, different 
satellites, commercial satellites so that we do not have a 
Pearl Harbor of space where a few major facilities are knocked 
out and then we are in trouble? Just strategically, is it not 
better to have a diverse structure?
    General Shelton. Senator, this is exactly what started 
taking us down this path. As we started thinking through--I 
will call it the cheap shot. Let us postulate an AEHF satellite 
on orbit. Four of them represent the entire constellation. Take 
one of those out, and you have opened up a big gap in our 
ability to communicate over protected resources. That would be 
very difficult for the National Command Authority. It would be 
very difficult for our deployed troops. So, yes, dispersing our 
capability, having a much more failure resilient and attack 
resilient architecture, that is exactly what our study efforts 
are aimed at and trying to provide that capability for the 
future.
    Senator King. Do we have options, including military 
capabilities, on civilian satellites, and vice versa, for that 
matter?
    General Shelton. We are exploring those concepts right now. 
We have had a very successful test of a commercially-hosted 
infrared payload. It was an infrared sensor hosted on a 
commercial satellite, a very successful program. It showed us a 
lot about what was possible of hosting payloads on commercial 
satellites, lots of lessons learned, and we are continuing to 
pursue those concepts for the future.
    Senator King. In Maine, we are having a lot of success 
putting cellular towers in church steeples. If that is not dual 
use, I do not know what is. [Laughter.]
    General Shelton. Yes, sir.
    Senator King. Ms. Chaplain, what about the possibilities of 
greater competition in terms of launch capability? We have the 
unified launch system--is it Lockheed and Boeing. But are there 
other companies? Is this an area where there can be some 
competition and therefore greater economies for the Government?
    Ms. Chaplain. I think we finally arrived at the point where 
there are other companies that can begin to contend for space 
launches. They have not been certified yet and it might take a 
little while before they are certified. But SpaceX is going 
through that process, for example, and it hopes to be certified 
by the end of the year. There is at least one more company that 
might be in the mix there.
    DOD has set aside a number of launches, 14, that they could 
compete for, but they will compete with ULA too. Competition is 
on the horizon and it is a matter of just figuring out how best 
to do it in a way that you can measure the competitors in a 
similar way.
    Senator King. Let me ask a basic question. Who owns the 
rockets and how do we pay for it? Does the Government or does 
the military contract with ULA, for example, and say we will 
pay you $10 million to get this satellite into orbit, or do we 
buy a rocket from them and then we launch it? Who has title to 
this?
    Ms. Chaplain. It is a combination of things, but we buy it 
as a service. The rocket itself and the launch is bought as a 
service, and then separately we have a contract with ULA that 
is not a fixed price contract. It is a cost-plus contract, and 
it pays for all the things that go behind launching those 
rockets. There is a lot of capability and skill sets behind 
those launches that need to be maintained.
    Senator King. If this is something that is done on a fairly 
regular basis and has been for some years, why are we doing 
cost-plus and not fixed price?
    Ms. Chaplain. It has been the Government's choice to follow 
the cost-plus approach mainly to have maximum flexibility, 
maximum convenience. They want ULA to be ready to launch these 
rockets whenever the Government wants them to launch. If you 
move to an approach where you are more dependent on the 
supplier and you are not paying for this extra premium of 
capability, you could have delays. You might be in a situation 
where the supplier cannot readily accommodate you. If you have 
several suppliers, that might be okay. You could go back and 
forth and see who could meet that, but when you have one 
supplier, the Government, in the situation it was in, chose to 
have this kind of convenience and flexibility and it chose the 
approach it did to accommodate that.
    Senator King. I would appreciate your keeping the 
subcommittee updated on the progress of competition in this 
area of launch just so we can be aware of what is available 
when and what the timetable is.
    Ms. Chaplain. We are happy to do that.
    Senator King. I appreciate it.
    One more quick question, Mr. Chairman, if I can take 
another minute.
    General Shelton, there is a recent Congressional Research 
Service report that says we have an orbital debris problem. How 
serious is that and is there any way to deal with it?
    General Shelton. Senator, just some numbers. We routinely 
track about 23,000 objects on orbit right now. About 1,000 of 
those are active payloads. The rest of those are defunct 
satellites, pieces of debris, defunct spent stages, those sorts 
of things.
    Our models tell us that between 1 centimeter in size and 10 
centimeters in size, which is the practical limit of what we 
can track--so those 23,000, by the way, is just what we can 
track, but between 1 and 10 centimeters, we think there are 
500,000 objects on orbit. So, yes, this is a very serious 
problem, and I have seen nothing yet that will be technically 
viable for active debris removal.
    Senator King. So it is just something we have to cope with, 
but it seems to me you could lose a very valuable satellite to 
a very cheap piece of space junk.
    General Shelton. We actually already have. There is a 
commercial satellite that was hit by an old Russian satellite 
and caused catastrophic loss for the company, Iridium.
    We need better capability to track, which is what the Space 
Fence is all about. We need all space-faring nations to not 
generate more debris because our biggest fear is that if you 
get more and more debris on orbit, eventually you get to the 
place where debris begets debris. You have a cascading effect 
and you have polluted entire----
    Senator King. Might this not be an area rife for 
international cooperation? It is in everyone's interest who is 
in space to deal with this problem, and maybe we could have a 
joint venture on this cleanup problem?
    General Shelton. Yes, sir. I know Mr. Loverro has been 
actively involved in that internationally certainly to address 
the debris creation problem but also to generate norms of 
behavior internationally that would keep people on the straight 
and narrow.
    Senator King. We need returnables. We need a returnable 
law.
    General Shelton. Yes, sir.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator King.
    Mr. Loverro, let me ask you a similar question I have asked 
some of the other panelists and that is the question that 
attaches to the disaggregation of space sensors and hosted 
payloads. The studies are underway. Which satellite systems do 
you think are best suited for this approach?
    Mr. Loverro. Thank you, Mr. Chairman.
    It is interesting. We have already created several 
disaggregated systems without realizing it. One of those would 
be the weather systems we talked about with Senator Donnelly 
earlier. Probably about 50 to 100 different satellites with a 
variety of sensors all contribute to that weather picture. I 
spoke--I do not know if it was in this committee last year or 
whether it was on the House side--that if I were an adversary 
trying to target the weather capability, I would not know what 
to shoot at because there are just too many targets.
    GPS is somewhat of a disaggregated system. We call it 
``distributed,'' many satellites that if you lose one, you do 
not lose the capability. In fact, you could lose several and 
not lose it. That is not an invitation to lose any, but it 
certainly makes it more resilient than the example that General 
Shelton gave, for example, on the AEHF system where if you lose 
one satellite, you lose coverage for an entire hemisphere. 
Those kinds of systems, AEHF and SBIRS, where one system tends 
to cover an entire side of the Earth, are the ones really where 
we see the most danger.
    That does not mean that we are secure in any of our space 
capabilities. All of our space capabilities need to respond to 
the threats we have seen. They were not built to go ahead and 
sustain themselves in an environment in which they are 
threatened. They were not built in an environment where they 
would be used in conventional warfighting and threatened by 
conventional means. They were built for nuclear warfighting. So 
all of the architectures need to be refreshed with that view in 
mind. Disaggregation is an important concept especially for 
AEHF and SBIRS. But that concept, what we call resiliency in 
space, applies to all of our space systems.
    Senator Udall. Assess the new entrant policy in space and 
then, if you will, think 10 years out for us, what concerns you 
would have, what might be some of the up sides.
    Mr. Loverro. Absolutely. I think we have talked a lot about 
the up sides. I think Ms. Chaplain has already talked about 
some of the cost reductions that we have seen in the EELV ULA 
program. Some of those we get because we have decided to buy 
more launchers, but there is no question that some of those 
came about in the face of competition. I already spoke in my 
opening statement about competition being good.
    I think that there is clear evidence that the competitive 
aspects of launch will benefit DOD. We were on that path in the 
early 1990s and we moved away from it because at the time we 
did not think there was enough launch rate to sustain 
competitive actions in space. The indication for the future is 
that is not the case. The indication is that there is enough 
launch need to sustain a competitive environment. The 
indications are that in that competitive environment, we can 
bring commercial launch back to the United States. SpaceX has 
been one of the most successful companies in attracting 
competitive international launch back into the United States, 
which is good for us all.
    I think this is a very key aspect. I think what we will 
have to avoid and what the President's National Space 
Transportation Policy clearly suggests is that we want to 
maintain that competition for the future. We do not want to be 
10 years down the road, as you hypothesized, and decide, maybe 
we should go down to one supplier. We think that is the wrong 
way to do it. We think that to keep the environment competitive 
keeps it inexpensive or lower expensive. It is never going to 
be inexpensive, but at a lower expense. It keeps folks trying 
to go ahead and prove the technology on their own rather than 
relying on the Government to do so. We think that is a critical 
aspect of the future.
    Senator Udall. I think, as you were saying, we have to 
thread the needle here. We have under-capacity that presents 
one set of threats; over-capacity presents another set of 
threats. The U.S. Government, therefore our people, are on the 
hook either way, and we have to try and find that balance.
    Mr. Loverro. Yes, sir, absolutely.
    Senator Udall. Ms. Chaplain, let me turn to you. We always 
look forward to having you here because you have such a great 
understanding of the challenges and what we need to do to keep 
faith with the taxpayers.
    Talk about the EELV a bit. I know you mentioned the lack of 
transparency in the launch services contract schedule. Could 
you speak to that?
    Ms. Chaplain. So until recently, there has been a great 
deal of lack of transparency into costs, particularly on what 
is known as the EELV contract. That is the one that is the 
cost-plus side. But in the course of negotiating contracts 
recently, the Government made a tremendous effort to get 
insight into cost, and they did so to a great extent. What did 
not happen was not all the costs could be tied to a launch 
vehicle by the Government. So there is probably 70 percent or 
so where you cannot exactly tie those activities and parse them 
out amongst launch vehicles. But the Government does have a lot 
more transparency into those costs. They know what they are. 
They know what they are paying for a year. They know how to 
break it down amongst all the activities. That is great 
progress from where we were before. It is just a matter of, you 
just do not have that visibility tied by launch vehicle, and 
there are reasons that are good to have that. Hopefully we will 
get that in time.
    Dr. Zangardi. Sir, may I add from the Navy's perspective?
    Senator Udall. Yes, please, Doctor.
    Dr. Zangardi. From MUOS' perspective, we have seen an 
increase in transparency. We are happy with what we are seeing. 
We have also seen a decrease in cost. So we have seen an 
improvement. Now, granted, the data points we have are quite 
limited, but then again, we have seen improvement over the last 
couple years.
    Senator Udall. Thank you for that elaboration.
    Ms. Chaplain, I have been asking many of the panelists 
about disaggregation of existing satellite systems, which after 
10 years I think have stabilized costs and requirements. Do you 
believe the assessments involved purely from a schedule 
standpoint will timely inform the decision for using existing 
systems or follow-on systems?
    Ms. Chaplain. I do have questions about whether the 
assessments will be done in time to have enough input into the 
next set of buys that come up for programs like SBIRS. In other 
cases on the communication side, they probably will be able to 
have maximum information provided and ability to do things 
about that information. But I am concerned that if they take 
too long, time will make its decision for it. If you do not 
have enough time to act on the information that you get, you 
are just going to have to go along and buy what you keep 
buying.
    Senator Udall. It is an important point.
    Senator Sessions?
    Senator Sessions. Thank you. We have seen some progress in 
competition, and it has saved the taxpayers some money. Mr. 
Loverro, you mentioned that the EELV buy was 36 over a period 
of years, and my understanding is that you believe it saved 
$4.4 billion. Competition and a longer buy were the main 
factors in that, in your opinion?
    Mr. Loverro. Yes, Senator. I do not want to quote a number. 
It is not my business to be in the budget game specifically, 
but savings were significant and I believe both factors led to 
those savings.
    Senator Sessions. We have seen some other savings too when 
we rebid the maintenance program for one of our systems. It was 
a billion dollar savings. Do you know what I am referring to 
there?
    Mr. Loverro. You may be referring to what is called the 
launch infrastructure program, so-called, LISC program, launch 
range infrastructure program, a competitive bid that one of 
General Shelton's organizations, the Space and Missile Systems 
Center, is responsible for. Again, I think competition is 
looked for to drive those savings down. I would again turn to 
General Shelton for more details on that program.
    Senator Sessions. General Shelton?
    General Shelton. Senator, the $4.4 billion figure that you 
quoted is accurate. If you look at the fiscal year 2012 
President's budget as your baseline and then look at what we 
actually contracted for, there is $4.4 billion of difference. 
Now, a lot of people want to dispute that. A lot of people want 
to reaccount for that money. But, in fact, from an Air Force 
budget perspective, it is $4.4 billion of difference.
    As Mr. Loverro just talked about, this combined contract 
that will service both the eastern range and the western range 
for launch services is going to save us a bundle of money. We 
are in the source selection process for that right now and 
contract start should be the 1st of October this year.
    Senator Sessions. I think I am correct--and I will just 
wrap up here--to say that we were, I think, at $554 billion for 
budget function defense, which includes homeland security 
monies. That dropped down to $518 billion. Then it was 
projected to go to $498 billion this year. Then Ryan-Murray put 
back money that moved it back up to $521 billion this year. It 
is projected to be at $521 billion next year and $523 billion 
the next year. That is billions of dollars each. Basically, 
under the Budget Control Act we have today, it will be at flat 
level spending considerably below what we were a few years ago.
    But it does start increasing then at the rate of $13 
billion a year for the next 6 years, I believe it is. So we end 
up over $590 billion at the end of the 10-year budget window.
    I say that I am not sure we can replicate these kinds of 
cost savings in the future, but a few more of those cost 
savings plus the fact where we are now--I am not sure we have 
to devastate our procurement system to stay on track even with 
a very constricted budget DOD has dealt with. In fact, my 
analysis of the budget is DOD has the most significant 
reductions than any other department of our Government. If you 
were given more time to achieve the savings, it would be easier 
even then. The biggest danger was we had these cuts so fast. 
That is what the Ryan-Murray--I did not like the way they did 
it, but the result of getting more money this year so we do not 
have another big cut on top of the last one because there are 
efficiencies in productivity.
    This $4 billion savings, General Shelton--you could not 
account for it in the first year, could you? You had to account 
for it each year over a period of years. Savings effected today 
may not actually accrue until the out-years. That is one of my 
particular concerns about the danger of the difficulties in the 
defense budget.
    We will have to see where we are. Thank you for your work 
to bring down costs. As technology gets more common, things 
that 10 years ago were out of this world are more routine today 
and should cost a lot less. You certainly see computers and 
everything else drop in their cost. So maybe we can not be too 
pessimistic about our budget. I hope so.
    Senator Udall. Thank you for that, Senator Sessions.
    I have one more question. I did not have a chance to check 
with Senator Sessions, but if he does not have any other 
questions, I will ask my question and we will end the hearing.
    But I would add to what Senator Sessions said. The Murray-
Ryan budget possibilities and opportunities are there as long 
as we do not fall back into sequestration 2 years hence.
    Senator Sessions. Let us talk about that. Everybody needs 
to get this straight. With sequestration and the way current 
law expects spending to be, DOD will spend $521 billion this 
year, $521 billion next year, $523 billion the next year, and 
then go to $536 billion, $549 billion, and it goes up $13 
billion each year thereafter. So there is really no more cuts. 
It is just flat spending for 3 years, which is not easy to deal 
with. There is a feeling that I keep picking up among my 
colleagues that we are facing additional cuts as a result of 
the sequester. The sequester was what hit us this year. That is 
what got us, and it was dangerous.
    I do not know whether you have sufficient money to meet the 
defense needs of the country or not. But if we keep finding 
these kinds of savings, we might surprise ourselves and we can 
maintain a sufficient defense of America at a more reasonable 
cost. I hope so.
    Senator Udall. Me as well. Thank you for that, Senator 
Sessions.
    General Mann, the last question is yours for the day. The 
Air Force may fire communication satellites, but SMDC is the 
primary scheduler of bandwidth for DOD communications via the 
wide band global satellite and the defense satellite 
communications systems. Over the next 5 years, what do you see 
as the Army's biggest issue and what do you recommend to help 
alleviate it?
    General Mann. Senator, thank you for that question.
    I think we talked a little bit about this in terms of 
maintaining persistent and protected communications, I think it 
is going to be our biggest challenge over the next couple of 
years. So whether that is hardening the things that we have in 
space on orbit or our ground stations and also looking at our 
tactics, techniques, and procedures, how we operate those 
things, those are the areas, I think, that we really need to 
focus on to make sure that we address a threat that is only 
going to evolve and increase in intensity over the next couple 
of years.
    Senator Udall. We on the committee look forward to working 
with you on that important mission.
    I want to thank the panelists again for spending time with 
us, for being succinct, for being to the point.
    We will leave the record open for another 3 or 4 days. We 
may extend some additional questions to all of you. Thanks 
again for your time.
    This hearing is adjourned.
    [Whereupon, at 4:18 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator David Vitter
                      joint mission system program
    1. Senator Vitter. General Shelton, the Joint Mission System (JMS) 
is responsible for Space Situational Awareness (SSA) and command and 
control (C2) of space forces. The JMS program office inserted some 
important commercial SSA capabilities into the JMS program. The 
committee previously included report language stating that this 
capability requires timely migration from fragile legacy components. In 
addition, there are some very concerning emerging threats in the space 
environment which are highly classified. In an effort to meet growing 
demands, the national security community has utilized similar 
commercial SSA capabilities elsewhere. In your testimony, you state 
that this new normal in space requires us to address protection of 
mission-critical systems, challenge traditional acquisition practices, 
and analyze new operational constructs. Given your statement about the 
growth of these space threats and other known current utilization of 
similar commercial SSA technology by similar important intelligence 
programs, would it be possible to accelerate the integration of 
commercial SSA capabilities into the JMS program?
    General Shelton. The JMS acquisition approach allows for the agile 
adoption of capability with accelerated delivery to the warfighter. The 
JMS Program Office has already awarded contracts to two commercial 
companies (a.i. solutions and Analytical Graphics Inc.) to provide 
commercial SSA capabilities.
    During fiscal year 2015 and fiscal year 2016, the JMS program will 
be primarily focused on the integration of commercial products from 
these two companies. The pace of the effort is limited by funding and 
by the time required for security and other modifications of the 
commercial software to run in JMS.

    2. Senator Vitter. General Shelton, would integration of 
established SSA capabilities into the JMS program help the Air Force 
detect, analyze, and characterize these threats faster?
    General Shelton. The integration of established SSA capabilities 
does assist the Air Force in detecting, analyzing, and characterizing 
threats faster. Some of these capabilities have already been 
incorporated into the JMS program and are being used in operations 
today. During the course of fiscal year 2015 and fiscal year 2016, 
additional capabilities will be integrated into the JMS baseline. These 
capabilities include commercially developed SSA tools we believe will 
be extremely valuable in meeting current and emerging threats.

    3. Senator Vitter. General Shelton, what can Congress do to assist 
in this process to help provide what the warfighters need?
    General Shelton. As a still evolving system, JMS presents several 
opportunities to exploit new SSA tools and alternative architectures to 
build an adaptive and resilient capability to attain appropriate SSA 
and C2 of space forces in a dynamic strategic environment. JMS 
enhancements will field advanced capabilities to improve the detection 
and characterization of emerging threats and orbital hazards and 
integrate previously unavailable data sources and sensors. However, the 
greatest challenge in attaining this gamechanging capability has been 
fiscal, rather than technical.
    Funding stability will enable the warfighter to further enhance and 
maintain a robust national space capability to address progressively 
more challenging and numerous adversary threats. For example, an 
improved JMS will have the capacity to monitor and respond to full 
electro-magnetic spectrum interference, decreased threat identification 
and warning response times, and the ability to forecast and predict 
future SSA events with sophisticated modeling and simulation. Together, 
these new capabilities will present the joint force with a more 
resilient, capable, and affordable space capability.

    4. Senator Vitter. General Shelton, in addition to your testimony 
today, we also heard from General Mann, where he stressed to the 
subcommittee the need to ensure our Nation's space capabilities are 
maintained and further enhanced. In that effort to better understand 
these needs, I am requesting a briefing from you or someone on your 
staff in the near future on how the Air Force is striving to connect 
both established and emerging processes, as well as on space threats 
from adversaries as highlighted by recent statements made by General 
Shelton and Admiral Haney during testimony before this full committee. 
Will you work to ensure this briefing happens?
    General Shelton. Yes. I will ensure a briefing is scheduled with 
you on how the Air Force plans to organize, train, and equip in order 
to provide essential, gamechanging space and cyberspace capabilities 
for our joint forces to combat current and emerging space threats.


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS

    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-222, Russell Senate Office Building, Senator Mark Udall 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Udall, King, and 
Sessions.

       OPENING STATEMENT OF SENATOR MARK UDALL, CHAIRMAN

    Senator Udall. The subcommittee will come to order. The 
Strategic Forces Subcommittee meets today to consider the 
ballistic missile defense programs and policies supporting the 
President's budget request. We have five expert witnesses 
joining us today to help us review these important and complex 
issues.
    Ms. M. Elaine Bunn is the Deputy Assistant Secretary of 
Defense for Nuclear and Missile Defense Policy. She's testified 
before the subcommittee on nuclear policy, and she's here today 
as the Department of Defense's (DOD) expert on missile defense 
policy issues.
    The Honorable Michael J. Gilmore is the Director of 
Operational Test and Evaluation within DOD. He provides DOD and 
Congress with independent assessments of the adequacy and 
results of our missile defense testing and also plays a 
critical role in reviewing and approving the semi-annual 
integrated master test plan for missile defense.
    Vice Admiral James D. Syring, USN, is the Director of the 
Missile Defense Agency (MDA), which researches, designs, 
develops, tests, and fields our Ballistic Missile Defense 
System (BMDS) and supports its operation and improvement. He is 
responsible for roughly $7.5 billion in this year's budget 
request.
    Lieutenant General David L. Mann, USA, is the Commander of 
the U.S. Army Space and Missile Defense Command (SMDC) and Army 
Forces Strategic Command. He is also the Commander of the Joint 
Functional Component Command for Integrated Missile Defense. He 
represents the crucial warfighter perspective on missile 
defense issues, which we always want to keep in mind since they 
are the customer and the user.
    Ms. Cristina T. Chaplain is the Director of Acquisition and 
Sourcing Management at the Government Accountability Office 
(GAO) and leads the GAO evaluation of our missile defense 
acquisition programs. Congress has benefited from her work on 
this topic, among many others.
    We welcome you all to the subcommittee and we thank each of 
you for your long and dedicated service to the Nation and to 
our security.
    Ballistic missile defense has taken on a growing importance 
as missile threats have grown. We all want operationally 
effective, cost effective, and affordable missile defenses to 
protect our Homeland, our forward deployed troops, our allies, 
and our partners. We also recognize such missile defense is 
both technically challenging and expensive.
    Unfortunately, by imposing sequestration on DOD's budget 
and the rest of government, Congress has made the effort more 
difficult. Those constraints mandated by Congress affect our 
missile defense programs just like all other government 
programs. If we let sequestration return with full force next 
year, it will make things worse. I would continue to urge my 
colleagues on both sides to work to avoid that.
    With respect to our Homeland missile defense capability, we 
have a system in place today that protects the entire Nation 
from limited missile attacks from North Korea and a potential 
Iranian threat. Yet, we all know that we have had problems with 
the kill vehicles on that system and we need to fix those 
problems and demonstrate the fixes through realistic testing 
before we buy more interceptors. That's what we call fly-
before-you-buy.
    Those kill vehicle problems occurred because we deployed 
the system before it was properly designed, engineered, and 
tested. In other words, in its haste to deploy the system 
quickly the Bush administration did not practice fly-before-
you-buy. Consequently, I am pleased that the budget request 
includes funds to redesign the kill vehicles so that they will 
be more effective, robust, and reliable. This subcommittee has 
supported such a redesign. In order to avoid repeating any of 
the previous mistakes, we also need a rigorous acquisition 
approach with stringent engineering design and testing to be 
confident it will work before we deploy it.
    As DOD has told us, we also need to improve our Homeland 
defense capabilities by investing in additional sensor and 
discrimination capabilities. That is their highest investment 
priority because it will make our current system more effective 
and allow us to defeat more threat missiles with our existing 
and planned interceptors.
    Regional missile defenses are a high priority for our 
regional combatant commanders because they need a capability to 
address existing missile threats to Europe, the Middle East, 
and Asia, especially those from Iran and North Korea. That's 
why the Joint Chiefs of Staff and Secretary of Defense Robert 
Gates unanimously recommended the European Phased Adaptive 
Approach (EPAA) to the President. It would rapidly provide the 
capability they needed to protect North Atlantic Treaty 
Organization (NATO) Europe against the growing Iranian missile 
threat.
    Phase 1 of the EPAA was deployed in 2011 and we are on 
track to deploy phase 2 in Romania next year. Phase 3 is 
planned for deployment in Poland in 2018 at the same site we 
agreed with Poland back in 2008. We will be interested to hear 
more about the progress of EPAA and on our regional defense 
efforts, particularly with our allies and partners in the 
Middle East and Asia.
    With all of that said, we look forward to your testimony on 
these important topics. Before we turn to you for brief oral 
statements, let me turn to my friend and ranking member, 
Senator Sessions, for any comments that he wishes to make. 
Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I think you make 
some very important observations, that I share, in your 
remarks. Thank you for that.
    In March of last year, Secretary Hagel announced steps to 
strengthen homeland missile defense, including the deployment 
of 14 more ground-based interceptors (GBI) in Alaska, which was 
really bringing it back up to the Bush plan after they had been 
reduced, and deploying a second AN/TPY2 radar in Japan to 
provide improved early warning, particularly from North Korean 
launches. This was a recognition, I think, that we face a long-
range missile threat to the Homeland and that threat is 
increasing faster than we expected.
    This year the budget request includes several important 
initiatives meant to improve the ground-based midcourse defense 
(GMD) system. They include: a redesigned exoatmospheric kill 
vehicle (EKV) for the GBI, which you made reference to; a new 
long-range discrimination radar to be deployed in Alaska; and 
software improvements for threat discrimination. Those are good 
steps. I believe they'll save money in the long run. If we can 
get our discrimination ability and our ability to discriminate 
against false threats, we can use fewer launches and have more 
effect. I commend Admiral Syring and Secretary Hagel for these 
steps.
    Back in 2009, DOD decided to cease deployment of GBIs at 30 
at Fort Greely and that has now been overcome. I recall a 
meeting in Senator Lieberman's office with Secretary Gates and 
other Senators where we discussed our concern about the 
decision to go to 30 from 44. While Secretary Gates assured us 
that the intention was to improve the GMD system at the time, 
funding shortfalls and the administration's emphasis on 
regional missile defense meant there was very little real 
improvement available to GMD.
    Today, I think we move forward. The next 5 years, MDA 
intends to spend around $700 million to design a new kill 
vehicle and I believe this is overdue.
    Speaking of funding, let me show this chart.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. It looks awfully crowded, but it tells us 
how in Washington things start eroding when we don't really 
understand what's happening to us. The President made a 
commitment at the time of the New Strategic Arms Reduction 
Treaty (START) that we would be involved in this, but this is 
how it looks.
    According to our staff estimates, the President's proposed 
5-year spending plan that he's submitting today for missile 
defense is about $6 billion less than the President's fiscal 
year 2012 spending plan. This is what he submitted as his 
spending at $8.8 billion in 2015 and 2016. Here we are for 2015 
and we're at $7.8 billion, and dropping down to $7.3 billion in 
fiscal year 2019.
    Based on that, we're talking about over the Future Years 
Defense Program (FYDP) about $6 billion less than we were 
expecting to spend. Now, if this is because you've saved money 
on the energy buildings at their laboratories, maybe we could 
survive that. Maybe it wouldn't be so devastating, because I 
have doubts about whether all that money, $5 billion, $10 
billion buildings, was necessary. All I'm saying, Mr. Chairman, 
is having a credible missile defense system is so fundamentally 
important, and it's less than 5 percent of our total defense 
budget for the whole system, and we ought to be able to--
actually, that's about 2 percent. $7 billion out of $500 
billion is a lot less than that.
    I would say that just points out where we are. That's what 
we're wrestling with, the kind of issue we're dealing with 
today. We want a good, strong missile defense system. Can we 
complete it with those numbers and do you have a plan that will 
work? It would be great if you can do it at those numbers, but 
I'm a bit uneasy about it.
    Thank you, Mr. Chairman--I would say one more thing. The 
sequester does not require us to cut any more in the future. 
The big cuts were this year and somewhat next year. But that 
Ryan-Murray bill filled in the hole this year and filled in 
some next year, leaving us at basically, the 050 account, at 
$521 billion this year, $521 billion in 2015, $561 billion in 
2016--no, $523 billion in 2016, $536 billion in 2017, $549 
billion in 2018, $562 billion in 2019, $576 billion in 2020, 
and $590 billion in 2021.
    We're going to have some pretty good increases, about a 2.5 
percent increase, after the next 2 years, after the cuts we've 
already taken. You had to make big cuts this year, even with 
the little extra money that Ryan-Murray put into the account. 
But it avoided, I think, disastrous pain and some very unwise 
decisions you would have had to make. I'm sympathetic with the 
problem, but we're going to all have to tighten our belt and 
defend America without wasting money, because the interest on 
the debt is going from $233 billion this year to $880 billion 
10 years from today, according to Congressional Budget Office, 
and that passes the whole defense budget in 4 or 5 years.
    Thank you.
    Senator Udall. Thank you, Senator Sessions.
    We will hear from the panel from our left to your right. 
We'll start with Ms. Bunn, and if you'll keep your oral 
statements brief, and I know you came prepared to do so, then 
we can open the subcommittee up to questions from you. Ms. 
Bunn, you're recognized.

  STATEMENT OF M. ELAINE BUNN, DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE, NUCLEAR AND MISSILE DEFENSE POLICY, DEPARTMENT OF 
                            DEFENSE

    Ms. Bunn. Thank you, Chairman Udall, Ranking Member 
Sessions, Senator Donnelly. Thank you for the opportunity to 
testify today. Thank you for the work you do to provide for the 
common defense.
    That defense with regard to ballistic missiles includes the 
defense of our Nation, deployed forces, allies, and partners 
from the threat posed by ballistic missiles of many ranges--
short, medium, intermediate, and long-range missiles. We need a 
variety of defenses for two missions: first, defending the 
United States against limited long-range ballistic missile 
attacks from countries such as North Korea and Iran, as you've 
said; and second, defending against regional missile threats to 
U.S. forces, while protecting allies and partners and enabling 
them to defend themselves.
    For both Homeland and regional missile defense, our 
strategy has to take into account uncertainties, including both 
the uncertainty of future threat capabilities and the technical 
and fiscal uncertainties inherent in our own program 
development. The steps we've taken to strengthen our missile 
defense posture are focused on developing and deploying proven, 
cost-effective capabilities to address both existing and 
emerging threats.
    With regard to Homeland defense, we know that North Korea 
has taken actions that are provocative and concerning. They've 
conducted three nuclear tests. They continue their efforts to 
bring the KN08 road-mobile intercontinental ballistic missile 
(ICBM) to operational capacity. While Iran has not yet deployed 
an ICBM, its continued efforts on space launch vehicles, along 
with its desire to deter the United States and our allies, 
provide Iran with both the means and the motivation to develop 
longer-range missiles, including an ICBM.
    The U.S. Homeland is currently protected against potential 
ICBM attacks from states like North Korea and Iran. But to 
ensure that we stay ahead of the threat, we're taking several 
steps to strengthen our Homeland defense posture. Deploying 14 
more interceptors in Alaska will provide additional protection 
against both North Korea and Iranian ICBM threats as they 
emerge. We are also deploying, as you mentioned, a second 
missile defense radar to Japan, and are requesting funding to 
develop a radar that when it's deployed in Alaska, will provide 
persistent sensor coverage and improved discrimination against 
capabilities from North Korea.
    Finally, as you mentioned, we're initiating a redesign of 
the kill vehicle for the GBI. That will not only improve the 
reliability and performance of the interceptor, make our 
missile defenses better; it should also be easier to build, 
upgrade, and maintain than previous versions.
    While the ICBM threat from the Middle East has not yet 
emerged, the regional ballistic missile threat from Iran as 
well as Syria exists today. Iran already has the largest 
inventory of ballistic missiles in the Middle East and is 
capable of striking targets throughout the region and into the 
eastern part of Europe. The Assad regime in Syria has several 
hundred short-range ballistic missiles that can reach much of 
Israel and large portions of other countries, including Turkey.
    North Korea also possesses regional ballistic missiles and 
has recently conducted a number of short-range missile 
launches.
    Our responses are tailored to the circumstances of each 
region, that is Europe, the Middle East, and the Asia-Pacific 
region. We're continuing to implement regional missile defenses 
that are both phased--that is, as technology becomes available 
we phase them--and adaptive to the emerging threats. Our focus 
is on developing and fielding capabilities that are mobile, 
scaleable, and relocatable. We're also encouraging our allies 
and partners to acquire missile defenses and to strengthen 
operational missile defense cooperation. So it's both the stuff 
and the operations.
    We have made progress in strengthening our regional missile 
defense posture in the past 2 years. We've upgraded five 
additional Aegis ships with missile defense capability and 
increased our inventory of both the Theater High Altitude Air 
Defense (THAAD) and Standard Missile (SM) interceptors. In 
Europe, we already maintain a missile defense ship presence in 
the eastern Mediterranean, along with the radar deployed in 
Turkey, and plans to deploy Aegis Ashore sites in Romania in 
2015 and in Poland in 2018 are on schedule. In the Asia-Pacific 
region, we maintain an Aegis ship presence along with Patriot 
batteries deployed in Japan and South Korea. Last year we also 
deployed a THAAD battery to Guam in response to North Korean 
provocation. Of course, we also maintain a missile defense 
presence in the Middle East and a strong missile defense 
partnership with Israel, and are working with Gulf Cooperation 
countries as they expand their air and missile defense as well.
    We have made progress over the last several years, but we 
cannot afford to stand still. The President's budget reflects 
our goal of retaining the flexibility to adjust and enhance our 
defenses as the threat and technologies evolve.
    Thank you for having me here today. I look forward to your 
questions.
    [The prepared statement of Ms. Bunn follows:]
                  Prepared Statement by M. Elaine Bunn
                              introduction
    Chairman Udall, Ranking Member Sessions, and members of the 
subcommittee, thank you for the opportunity to testify in support of 
the Department's fiscal year 2015 budget request for missile defense. 
Ballistic missile defense (BMD) is a critical national security 
priority--both for the Homeland and for our ability to project power 
abroad, prevent and deter conflicts, and defend our deployed forces and 
allies.
    You asked for my assessment of how the programs and fiscal year 
2015 budget request for the Missile Defense Agency (MDA) reflect 
missile defense policy and posture. The President's budget requests 
$8.5 billion in fiscal year 2015 with $7.5 billion for the MDA to 
develop and deploy missile defense capabilities that protect the U.S. 
Homeland and strengthen regional missile defenses.
    As reflected in the 2014 Quadrennial Defense Review , which was 
submitted with the budget request, our top missile defense policy 
priorities have not changed. The first priority is the defense of the 
U.S. Homeland against the threat of limited ballistic missile attack. 
We are committed to maintaining an advantageous position compared to 
the intercontinental ballistic missile (ICBM) threats from North Korea 
and Iran. This requires continued improvement to the ground-based 
midcourse defense (GMD) system, including enhanced performance of the 
Ground-Based Interceptor (GBI) and the deployment of new sensors.
    DOD's budget request for fiscal year 2015 also continues to 
implement regional approaches that are tailored to the unique 
deterrence and defense requirements of Europe, the Middle East, and 
Asia-Pacific regions. These regions vary considerably in their 
geography, history, and character of the threat faced, and in the 
military-to-military relationships on which we seek to build 
cooperative missile defenses. Our focus is on developing and fielding 
capabilities that are mobile and capable of being redeployed to 
different locations as necessary to address the threat. We are also 
encouraging our allies and partners to acquire missile defenses, and we 
are working to strengthen missile defense cooperation that can 
contribute to significantly increased performance than individual 
countries can achieve on their own.
    I will begin with a discussion of ballistic missile threat and 
trends, and then focus on our progress on three key policy priorities: 
sustaining a strong homeland defense, strengthening regional missile 
defense, and fostering increased international cooperation and 
participation.
                  ballistic missile threats and trends
    Ballistic missiles are becoming more survivable, reliable, and 
accurate at greater ranges. Regional powers are basing more missiles on 
mobile platforms at sea and on land. Technical and operational measures 
to defeat missile defenses also are increasing. China, Iran, and North 
Korea, for example, exercise near simultaneous salvo firings of short- 
and medium-range ballistic missiles from multiple locations to saturate 
regional missile defenses. Countries are designing missiles to launch 
from multiple transporters against a broad array of targets, enhancing 
their mobility and effectiveness on the battlefield. Shorter launch-
preparation times and smaller footprints are making new systems more 
survivable.
Iran
    Iran already has the largest inventory of ballistic missiles in the 
Middle East, and today can strike targets throughout the region and 
into Eastern Europe. In addition to its growing missile inventories, 
Iran is seeking to enhance lethality and effectiveness of existing 
systems with improvements in accuracy and warhead designs. Iran is 
developing an anti-ship ballistic missile which could threaten maritime 
activity throughout the Persian Gulf and Strait of Hormuz. While Iran 
has not yet deployed an ICBM, its progress on space launch vehicles--
along with its desire to deter the United States and its allies--
provides Tehran with the means and motivation to develop longer-range 
missiles, including an ICBM.
    Although we do not know if Iran will eventually decide to build 
nuclear weapons, Iran has developed technical expertise in a number of 
areas--including uranium enrichment, nuclear reactors, and ballistic 
missiles--from which it could draw if it decided to build missile-
deliverable nuclear weapons.
Syria
    While Syria does not pose a ballistic missile threat to the U.S. 
Homeland, the Assad regime does possess short-range ballistic missiles, 
and has shown a willingness to use them repeatedly against its own 
people. Syria has several hundred short-range ballistic missiles, all 
of which are mobile and can reach much of Israel and large portions of 
Iraq, Jordan, and Turkey from launch sites well within the country.
North Korea
    North Korea's weapons and missile programs pose a serious threat to 
the United States and to East Asia. North Korea has conducted three 
nuclear tests. It also is seeking to develop longer-range ballistic 
missiles capable of delivering nuclear weapons to the United States, 
and continues efforts to bring its KN08 road mobile ICBM, which it 
paraded most recently in July 2013, to operational capacity. While the 
reliability of an untested North Korean ICBM is likely to be very low, 
North Korea has used its Taepo-Dong-2 launch vehicle to put a satellite 
in orbit, thus successfully demonstrating technologies applicable to a 
long-range missile.
    North Korea's efforts to produce and market ballistic missiles 
raise broader regional and global security concerns, by threatening the 
United States' allies and partners and increasing our concerns about 
ballistic missile technology proliferation.
China
    In the regional ballistic missile context, China is augmenting the 
over 1,200 conventional short-range ballistic missiles with a limited 
but growing number of conventionally armed, medium-range ballistic 
missiles that will improve China's ability to strike regional targets. 
China also continues to deploy growing numbers of anti-ship ballistic 
missiles.
                            homeland defense
    The U.S. Homeland is currently protected against potential limited 
ICBM attacks from states like North Korea and Iran by the GMD system. 
This system consists of GBIs, land-based early-warning radars, sea-
based radar systems, and a sophisticated command and control 
architecture.
    The Department of Defense is implementing steps to strengthen the 
U.S. Homeland missile defense posture as announced by Secretary Hagel 
in March of last year. The refurbishment of Missile Field 1 at Fort 
Greely, AK, is underway and the budget includes funding for the 
acquisition of GBIs to support GMD operations, testing, and spares, and 
emplacement of additional GBIs in Missile Field 2 as we progress toward 
44 deployed interceptors by the end of 2017. Secretary Hagel also 
announced the deployment of a second AN/TPY-2 radar in Japan. This 
deployment will provide improved early warning and tracking of missiles 
launched from North Korea at the United States as well as its regional 
allies and partners. We remain on track to complete deployment of this 
capability by the end of the year.
    The President's budget request also includes funding to initiate 
the redesign of the Exoatmospheric Kill Vehicle (EKV). The redesigned 
EKV, in essence a next-generation kill vehicle, will not only improve 
the reliability and performance of the GBI, but by being designed to 
allow for a more standardized production process, the kill vehicle 
should also be easier to build, upgrade, and maintain than the previous 
versions. This investment in the next generation kill vehicle for the 
GBI is especially important considering the test problems associated 
with the Capability Enhancement-II (CE-II) version of the kill vehicle. 
Although we are committed to ensuring the effectiveness of the current 
kill vehicle through testing; we are also pursuing a redesigned kill 
vehicle that will improve the reliability and effectiveness of the GMD 
system.
    The submitted budget also includes funding for development of a 
Long-Range Discrimination Radar. This radar will provide persistent 
sensor coverage and improve discrimination capabilities against threats 
to the Homeland from North Korea and will provide the Sea-Based X-band 
radar more geographic deployment flexibility for contingency and test 
use.
    We are also requesting funding to improve the discrimination 
capabilities of the existing GMD system. These investments will lead to 
a GMD system more capable of discriminating and destroying reentry 
vehicles with a high degree of confidence and will improve the 
efficiency and effectiveness of our Homeland missile defenses.
    As directed by Congress, the Missile Defense Agency is also 
currently evaluating four potential locations for an additional GBI 
site in the continental United States. An additional missile field in 
the Eastern portion of the United States would increase the overall 
survivability of the GMD system, provide more time to conduct missile 
defense engagements, and would allow for the deployment of additional 
interceptors.
    That said, the cost of building an additional missile defense site 
in the United States is very high. Given that the ICBM threat from Iran 
has not yet emerged, and due to the recent test failures associated 
with the current GBI kill vehicles, the highest priorities for the 
protection of the Homeland are in improving the reliability and 
effectiveness of the GBI and improving the GMD sensor architecture. The 
current GMD system provides coverage of the entire United States from 
North Korean and potential Iranian ICBMs. No decision has been made to 
deploy an additional missile field in the United States. If an ICBM 
threat were to emerge in numbers that necessitated the deployment of 
additional interceptors, the steps being taken now, to include 
conducting an environmental impact statement, will shorten the 
construction timelines associated with deployment of a new missile 
defense site.
                        regional missile defense
    The Department's budget request for fiscal year 2015 also continues 
to implement regional approaches that are tailored to the unique 
deterrence and defense requirements of Europe, the Middle East, and 
Asia-Pacific regions.
Europe
    We are continuing to implement the European Phased Adaptive 
Approach (EPAA), and we are working in close collaboration with our 
North Atlantic Treaty Organization (NATO) allies to develop an advanced 
network of sensors and interceptors--on land and at sea--to protect 
NATO European territory and our forces and military facilities.
    The United States has operated a forward-based radar in Turkey and 
maintained a sea-based missile defense presence in Europe since 2011. 
The SM-3 Block IB was deployed on Aegis BMD ships as an operational 
interceptor for the first time in 2013. The Block IB version of the 
interceptor uses an improved seeker and signal processor that allows 
for greater on-board discrimination and area coverage than the SM-3 IA. 
In October 2013, a ground-breaking ceremony was held at the land-based 
SM-3, or Aegis Ashore, site in Romania. The site is planned to be 
operational by the end of 2015.
    We have also taken steps to meet the requirement for sea-based BMD 
capabilities by establishing a homeport for four U.S. Aegis BMD 
destroyers at the naval facility at Rota, Spain. These multi-mission 
ships will support the missile defense mission, as well as other U.S. 
European Command (EUCOM) and NATO maritime missions. The first of the 
four ships to be stationed at Rota, USS Donald Cook, has already 
deployed to Europe, and the USS Ross will arrive this summer. The final 
two ships, the USS Carney and USS Porter, will arrive in 2015.
    The President's budget request also supports the Aegis Ashore site 
that will be deployed in Poland in the 2018 timeframe and the 
development of the SM-3 Block IIA interceptor that will be deployed on 
land and at sea. These capabilities will extend coverage to all NATO 
European countries.
    As Secretary Hagel emphasized in his announcement in March of last 
year, our commitment to NATO missile defense ``remains ironclad'' as 
demonstrated by our strong support for the BMD capabilities either 
already deployed, or being developed for Phases 1 through 3 of the 
EPAA.
    Our NATO Allies are also making significant contributions to the 
European missile defense mission. Romania, Spain, and Turkey are 
hosting U.S. missile defense assets and provide the external security 
for the facilities. Beyond hosting the second Aegis Ashore site in 
Europe, Poland has also announced its intention to spend up to $10 
billion to acquire increased air and missile defense capabilities. DOD 
is engaging directly with Poland to assist in the development of its 
missile defense requirements and is promoting U.S. systems to meet 
these requirements.
    Several allies have modern surface combatant ships that could be 
equipped with a BMD sensor or interceptor capability. The United States 
will continue to encourage its NATO allies to do even more to cooperate 
and invest in missile defenses that will contribute to Alliance 
security.
    The Netherlands has committed to spend up to 250 million Euro to 
upgrade the SMART-L radars on four of their frigates and it, along with 
Germany, has committed Patriot PAC-3 systems to NATO missile defense as 
demonstrated through the ongoing NATO deployment in defense of Turkey.
    France is planning to provide its Spirale satellite detection 
system and a long-range radar for NATO territorial missile defense and 
has contributed the SAMP/T air and missile defense system, which became 
operational in 2013, to NATO BMD. Despite the U.S. decision to forgo 
production of the Medium Extended Air Defense System (MEADS), 
development will be completed in 2014. Germany and Italy are 
considering the system a possible future national contribution to NATO 
BMD.
    The United States conducts exercises designed to hone our Alliance 
missile defense capabilities. EUCOM is engaged with NATO in the 
development of a biennial NATO-led BMD exercise event that serves to 
reinforce and expand upon other, routine BMD training evolutions that 
take place on a quarterly and semi-annual basis.
    Many NATO Allies also participate in Nimble Titan, a series of 
exercises designed to understand how the missile defenses of many 
participant can work together in a crisis or conflict. The Nible Titan 
14 campaign, which began last year with regional tabletop exercises, 
has 21 participant nations, and NATO participates as an alliance. The 
final exercise of Nimble Titan 14 is a capstone event that will take 
place in April involving all participants in a cross-regional wargame.
Asia-Pacific
    The cornerstone of our security and diplomacy in the region has 
been our strong bilateral alliances, including with South Korea, Japan, 
and Australia. All three of these nations play an important role in our 
regional efforts to achieve effective missile defense.
    South Korea obviously has an immediate, proximate stake in 
preventing missile strikes from North Korea. We have worked very 
closely with South Korea to ensure that our Alliance maintains the 
capacity to do just that. The United States deploys Patriot PAC-3 
batteries in South Korea to defend U.S. and South Korean forces. In 
addition, South Korea is taking steps to enhance its own air and 
missile defense systems, which include sea- and land-based sensors and 
Patriot PAC-2 batteries. DOD has been consulting closely with South 
Korea about how it can upgrade its missile defense capabilities and we 
are mutually committed to sustain and strengthen protection against the 
North Korean missile threat.
    Japan has its own layered missile defense system, which includes 
Aegis BMD ships with Standard Missile (SM)-3 interceptors, PAC-3 
batteries, early-warning radars, and sophisticated command-and-control 
systems. Japan is upgrading two ATAGO-class Aegis destroyers to BMD 
capability with certification scheduled for fiscal year 2018 and fiscal 
year 2019 and has recently expressed interest in purchasing two 
additional Aegis BMD ships, which would increase its inventory to a 
total of eight BMD-capable ships. As mentioned earlier, Japan also 
hosts a U.S. missile defense radar and has agreed to host a second 
radar.
    Japan is also a critical international partner for BMD development. 
One of our most significant cooperative efforts is the co-development 
of an advanced version of the SM-3 interceptor, the SM-3 Block IIA.
    The United States and Australia have forged a long-standing 
partnership on missile defense research and development--most notably 
with regard to sensors. In addition, Australia is involved in a 
trilateral discussion on missile defense in the Pacific involving the 
United States, Australia, and Japan.
    Going forward, we will continue to emphasize the importance of 
developing a regional ballistic missile defense system that includes 
the sharing of sensor data among allies.
Middle East
    The United States maintains a strong defense relationship with 
Israel, and our cooperation on missile defense has resulted in a 
comprehensive missile defense architecture. Israeli programs such as 
Iron Dome, the David's Sling Weapon System, and the Arrow Weapon 
System, in conjunction with operational cooperation with the United 
States, create a multi-layered architecture designed to protect the 
Israeli people from varying types of missile threats. Missile defense 
figured prominently in the Austere Challenge exercise we conducted with 
Israel in the fall of 2012, the largest U.S.-Israeli military exercise 
in history. A similar exercise, Juniper Cobra, is scheduled to take 
place in May of this year.
    The United States is also working with a number of Gulf Cooperation 
Council (GCC) countries on missile defense, including supporting the 
purchase of missile defense systems through the Foreign Military Sales 
program. The United Arab Emirates is procuring the Terminal High 
Altitude Area Defense system, with the first delivery expected next 
year. This is in addition to the UAE's earlier purchase of Patriot 
systems, which have been delivered. Saudi Arabia is in the process of 
upgrading its existing Patriot PAC-2 batteries to the PAC-3 
configuration. Kuwait is also purchasing Patriot PAC-3 batteries.
    U.S. Air Force Central Command maintains a series of regular 
exchanges between United States and GCC air defense officers at the 
Combined Air Operations Center located at Al Udeid Air Base in Qatar. 
These exchanges provide an opportunity for increased situational 
awareness of missile threats in the region as well as the potential for 
future BMD planning and operational cooperation.
    As the GCC states begin to field more capable systems, the United 
States and its Gulf partners must work toward greater integration of 
those capabilities across the region. The desired end state is a 
regional missile defense architecture in which GCC member states 
participate and contribute to the extent practical, leading to a 
networked, layered defense of key strategic centers that strengthens 
deterrence and increases our collective ability to defeat a ballistic 
missile attack.
Russia
    This administration, in keeping with previous administrations, has 
sought cooperation with Russia on missile defense. Genuine missile 
defense cooperation would be in the security interests of all parties 
by strengthening the defensive capabilities of the United States, NATO, 
and Russia. It would also help to remove missile defense as a source of 
tension in the bilateral relationship, and send a powerful signal to 
potential adversaries that ballistic missile threats will be 
ineffective as a tool of coercion.
    The United States has pursued missile defense cooperation with 
Russia with the clear understanding that we will not accept constraints 
on our missile defense systems, we will implement the EPAA, and Russia 
will not have command and control over the ballistic missile defense of 
NATO territory.
    The United States has been open and transparent with Russia about 
our plans for European missile defenses, and explained in detail why 
U.S. missile defense systems in Europe will not negate the Russian 
strategic nuclear deterrent. We have made a number of proposals that 
would have laid the groundwork for meaningful cooperation, including a 
proposal to establish missile defense cooperation centers in Europe, 
and more recently, a proposal that would provide for reciprocal 
transparency about our respective missile defense plans and programs. 
These proposals would allow for the better understanding of the purpose 
of our missile defenses and for predictability about our missile 
defense plans for the future.
    Russia has not reacted positively to the U.S. proposals and has 
instead continued to seek legally-binding restrictions and limitations 
on our missile defense deployments to Europe. In the course of our 
bilateral dialogue, we have continuously rejected any limitations on 
our missile defenses. Our missile defense deployments to Europe address 
the regional ballistic missile threat posed by Iran and Syria, and 
cannot be subject to limits imposed by a third party.
    Russia's intervention into the crisis in Ukraine, in violation of 
international law, led to the suspension of our military to military 
dialogue and we have not continued to engage Russia on the topic of 
missile defense. As Russia's violation of international law continues, 
we will review any future bilateral engagements on missile defense to 
ensure that they are in the security interests of the United States and 
our allies.
                               conclusion
    The ballistic missile threat--to the United States, to our allies 
and partners, and to our forces overseas--is evolving, and we continue 
to grow and adapt our Homeland and regional missile defense posture and 
international cooperation to address it.
    We have had some very significant progress over the last several 
years, but this administration has emphasized from the beginning that 
we cannot afford to stand still. The President's budget request for 
fiscal year 2015 reflects DOD's goals of retaining the flexibility to 
adjust, and to enhance our defenses as the threat and technologies 
evolve. Missile defense is crucial to maintaining our most vital 
security commitments--the defense of the United States and the 
protection of our allies and partners and our forces around the world.
    I want to thank you for having me here today, and I look forward to 
your questions.

    Senator Udall. Thank you, Secretary Bunn.
    Dr. Gilmore.

  STATEMENT OF HON. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL 
           TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Gilmore. Mr. Chairman, Senator Sessions, Senator 
Donnelly: I'll just briefly discuss what I see as the 
highlights of the test program over the last year. We learned a 
lot during the last year. We conducted the first ever 
operational test of elements of the BMDS, working together to 
demonstrate a layered defense such as might be necessary in the 
U.S. Central Command (CENTCOM) area of operations or elsewhere 
in the world.
    In that test, Aegis performed an intercept of a medium-
range ballistic missile. THAAD was available to perform an 
intercept if Aegis failed, and in fact, THAAD did fire an 
interceptor at the Aegis target, which then ended up 
intercepting a piece of the debris after Aegis successfully 
intercepted its target. Then THAAD had to plan its intercept in 
the presence of the debris from the Aegis intercept. That's an 
important thing to demonstrate because in the kinds of large 
raids that many of the scenarios that we are worried about 
might occur there would be multiple intercepts and the systems 
would have to plan intercepts in the presence of debris and 
other junk that was created by previous intercepts. So that was 
a very important test.
    The integration demonstrated in that test between Aegis and 
THAAD was limited. The organic systems, the organic Aegis and 
THAAD radars, and the organic Aegis and THAAD battle management 
systems, were used to plan those intercepts. They did share 
information through the command and control system that BMDS is 
working on. But true integrated battle management won't be 
possible until further upgrades for the command and control 
system, the BMDS command and control system, come on line later 
in this decade.
    Nonetheless, it was a significant test. Many important 
things were learned. There were actually some surprises in the 
test. The intercepts were successful, but there were some 
surprises, and those surprises are being used to plan upgrades 
and changes in tactics, techniques, and procedures that our 
deployed forces can use as they today use these systems in 
CENTCOM and elsewhere.
    In my view, it was a very valuable test, and as far as I 
can tell, the combatant commands feel the same way. They 
strongly supported the test and felt that they learned a lot 
from it.
    One thing that was demonstrated by the test--originally 
there were four targets that were going to be used in the test. 
We ended up only using two because we ran out of time because 
of problems associated with readying the two targets that 
actually were used. That's a problem that Vice Admiral Syring 
is working with and that his predecessor was working on and 
that continues to be a problem of note, with no easy solutions 
in sight, although I know Vice Admiral Syring and MDA are 
working very hard to make the targets more reliable, and it 
will be important to achieve that.
    There was the failed intercept test of the Capability 
Enhancement 1 kill vehicle on a GBI. We've learned a lot from 
that, and that's been alluded to. The Failure Review Board 
found several issues of concern associated with the design of 
the kill vehicle. I had recommended that MDA consider 
redesigning the kill vehicle and Vice Admiral Syring and DOD's 
leadership independently decided that that would be a good idea 
and funding, as you've noted, is provided for that. I think 
that's a good idea, and it's particularly important to use a 
rigorous systems engineering process in that redesign so that 
we don't end up with just patchwork fixes, but rather a more 
comprehensive fix to these problems that we've seen that will 
result in a robust kill vehicle as we go forward.
    Finally, there were at least two important tests of the SM-
3 1B interceptor, which provides additional capability, 
additional processing, and an improved seeker that will help 
discriminate lethal objects from things that we don't care 
about. When conducting ballistic missile tests, the so-called 
tests FTM-21 and -22, which my office is going to report on 
later this year, to support a full-rate production decision, 
those intercepts were successful and, in fact, the intercept of 
the second target was meant to and did, in fact, exercise the 
capabilities of the new seeker and the new processor in the SM-
3 1B. That was successful.
    Of course, that was a salvo shot. We were interested in 
seeing how the missiles would behave when there was one ahead 
of another and how the interceptors worked and the kill 
vehicles would work when one was looking at what the first one 
was doing and having to contend with the flash and other 
effects that are created by successful intercept as it trails 
the first interceptor.
    Unfortunately, the second interceptor failed in flight, 
problems associated with the third-stage rocket motor, which is 
common to both the SM-3 1B and 1A. MDA and Vice Admiral Syring 
are conducting a Failure Review Board to understand that 
failure thoroughly. It could be connected to previous failures 
and MDA is going to look at a way ahead there.
    Those are the highlights of the test program. I would also 
make one final note. My testimony, as it has for the past 4 or 
5 years when I've testified, says that we're still several 
years away from validating the models associated with missile 
defense that we're going to need in order to do a thorough 
assessment of operational effectiveness and suitability for 
this system, because we're never going to be able to test in 
live tests over the full range of conditions under which it 
might be employed. So the models are very important.
    Every year I've said, and I've said it again this year, 
that we're still several years away. Unfortunately, that is 
correct. One of the reasons, one of the primary reasons it's 
correct, is because of the 4\1/2\-year delay that we've had to 
suffer in gathering information on the performance of the 
ground-based missile defense system as a result of the three 
test failures that have occurred, and the last successful 
intercept using a GBI occurred in December 2008.
    We have made progress on THAAD and Aegis, collecting 
information there and validating models. There's still more 
work to be done. But we're definitely lagging when it comes to 
the ground-based missile defense system because of the test 
failures and the need to recoup from those failures.
    Thank you.
    [The prepared statement of Mr. Gilmore follows:]
                Prepared Statement by J. Michael Gilmore
    Chairman Udall, Senator Sessions, distinguished members of the 
subcommittee, thank you for the opportunity to discuss missile defense 
testing and my assessment of the Ballistic Missile Defense System 
(BMDS).
    Over the last year, Aegis Ballistic Missile Defense (BMD) and 
Patriot each demonstrated progress toward short-range ballistic missile 
threat class capability, even though Aegis BMD suffered a Standard 
Missile-3 (SM-3) Block IA intercept failure and an SM-3 Block IB 
missile failure during fiscal year 2013 flight tests. The Theater High-
Altitude Air Defense (THAAD) (twice) and Aegis BMD (once) demonstrated 
progress toward medium-range ballistic missile threat class capability 
when they successfully destroyed medium-range air-launched targets 
during two separate tests. The Command and Control, Battle Management, 
and Communications (C2BMC) demonstrated the capability to control two 
operationally-deployed AN/TPY-2 radars in Forward-Based Mode, using 
operational communications architectures, personnel, and tactics, 
techniques, and procedures.
    The Ground-Based Midcourse Defense (GMD) element experienced a 
third consecutive failure in its flight test program. Supported by my 
office and by U.S. Northern Command, the Missile Defense Agency (MDA) 
conducted a GMD intercept test using a Capability Enhancement-I (CE-I) 
Exoatmospheric Kill Vehicle (EKV) flying a more challenging and 
operationally realistic profile than the three previous CE-I intercept 
tests. The EKV failed to separate from the third stage, and could not 
complete the planned intercept.
    Significant to a system-level characterization of the BMDS, the 
BMDS Operational Test Agency Team and the MDA conducted the first 
operational flight test of the BMDS that included Aegis BMD, THAAD, 
C2BMC, and an AN/TPY-2 radar operating in its Forward-Based Mode. This 
test, Flight Test Operational-01 (FTO-01), was planned to include a 
layered ballistic missile defense with the C2BMC providing information 
on system-level performance. The AN/TPY-2 (Forward-Based Mode) radar 
acquired and tracked all targets and passed track data to both Aegis 
BMD and THAAD via C2BMC. Although a layered defense between Aegis BMD 
and THAAD was demonstrated, the integration demonstrated was limited 
because, consistent with the test's design and the current capabilities 
of the BMDS and C2BMC, engagements were managed using the organic 
capabilities of the Aegis and THAAD systems. The test results are being 
used to modify and refine the tactics, techniques and procedures to be 
used by deployed Aegis and THAAD units, as well as to incorporate and 
field upgrades to those systems' suites of software.
    The 2013 test program, although less robust than previous years, 
was adequate to support the development of the BMDS. The MDA conducted 
tests as scheduled in the Integrated Master Test Plan (IMTP), versions 
12.2 and 13.1, approved by the MDA and DOT&E directors. However, except 
for Patriot Missile Segment Enhancement testing, all key flight tests 
scheduled in IMTP 12.2, moved to later calendar quarters in IMTP 13.1, 
many to fiscal year 2014 from fiscal year 2013. This includes Aegis 
Ashore and Aegis BMD testing. Most of these changes were due to budget 
issues, brought on by sequestration, other Department budget 
reductions, and target availability. Due primarily to problems with 
target readiness, the first operational test of the BMDS, FTO-01, was 
moved one quarter later in IMTP 13.1, and completed in that same 
quarter.
    Last year, the MDA conducted eight flight tests and five ground 
tests of the BMDS and/or its elements that were the primary 
contributors to DOT&E's characterization of the BMDS. While the 
cumulative results of the testing conducted to date do not provide 
sufficient data to quantify BMDS system-level performance for all of 
the many possible instantiations of the BMDS, they are adequate to 
reveal specific strengths and weaknesses in system-level capability 
that contribute to the overall development of the BMDS.
    The GMD flight test program, affected by three consecutive test 
failures, is under review. The MDA conducted six GMD intercept flight 
tests in the 8-year period from January 2006 to January 2014. The 
Ground-Based Interceptors (GBI) in these tests were equipped with 
either a Capability Enhancement-I (CE-I) Exoatmospheric Kill Vehicle 
(EKV) or an upgraded EKV version called the CE-II. In the first three 
intercept flight tests, the GBI hit its intended target; in the second 
three tests, the GBI did not intercept a target successfully. Following 
the FTG-06 failure of the GBI to hit its intended target, the MDA 
conducted FTG-06a as a redo of FTG-06. However, FTG-06a also resulted 
in a failure of the GBI to hit its intended target. While waiting for 
final results from the Failure Review Boards, the MDA planned FTG-07 to 
demonstrate CE-I EKV performance in a more challenging operational 
scenario than previous CE-I tests, and to increase confidence in the 
fielded GBIs that are equipped with CE-I EKVs. However, this also 
resulted in a failure of the GBI to hit its intended target.
    The MDA responded to the Failure Review Board results for FTG-06 
and FTG-06a by changing EKV fabrication processes, improving quality 
control processes during GBI fabrication, and redesigning a CE-II EKV 
component. In fiscal year/calendar year 2013, the MDA successfully 
tested a CE-II EKV incorporating the redesigned component in GMD 
Control Test Vehicle-01 (GM CTV-01), an interceptor-only flight test. 
The FTG-07 Failure Review Board determined that the root cause of the 
failure rested in two significant design susceptibilities with the EKV 
battery and electronic control power supply common to both the CE-I and 
CE-II EKVs. Consistent with the results of the most recent Failure 
Review Board, these GBI flight test results led me to recommend in my 
most recent Annual Report that MDA consider re-designing the EKV using 
rigorous systems engineering design principles to make the EKV more 
robust against failure. The MDA Director independently made the same 
recommendation to the Department's leadership, and the missile defense 
program submitted as part of the President's Budget allocates funds for 
redesigning the GBI EKV.
    Since Flight Test Standard Missile-15 (FTM)-15 in April 2011, Aegis 
BMD has experienced one missile anomaly and three missile failures. 
During FTM-15, the SM-3 Block IA Third Stage Rocket Motor, or TSRM, 
experienced a failure in a critical component, leading to unexpected 
behavior just prior to achieving a successful intercept. The faulty 
component, common to both the Block IA and IB missiles, was 
subsequently redesigned and flown successfully in FTM-18. During FTM-16 
Event 2 in September 2011, a catastrophic failure of the TSRM resulted 
in a failure to intercept. The MDA determined the cause to be an issue 
with one of the firing parameters and they made the necessary software 
modifications to mitigate the issue and verify the fix during numerous 
ground firings and a later successful FTM-19 flight test. Another TSRM 
failure occurred during the first of two Initial Operational Test and 
Evaluation flight tests (FTM-21) when the second of two salvo-fired IB 
missiles experienced a TSRM failure following a successful intercept by 
the first missile. The MDA is investigating this latest failure using 
the Failure Review Board process. The TSRM issues just described affect 
both the IA and IB missiles since the TSRM is a common component to 
both missile variants. Finally, a Block IA missile failed to intercept 
during Flight Test Integrated-01. A Failure Review Board determined 
that the cause of this failure is unrelated to the TSRM issues.
    The MDA will conduct their first engagement of an Intercontinental 
Ballistic Missile, with the target flying a range of greater than 5,500 
kilometers, in fiscal year 2016, rather than fiscal year 2015 as 
planned in IMTP 13.1. The first GMD salvo test of two interceptors 
fired at a single target will occur in fiscal year 2018. Finally, the 
MDA will conduct a multiple simultaneous engagement of two interceptors 
on two targets in fiscal year 2020 during an integrated system-level 
operational test. When I briefed you last year, the multiple 
simultaneous engagement was planned for fiscal year 2018. These changes 
will align the frequency of GMD testing back to 12-month centers. Also 
significant, beginning with the fiscal year 2016 test, all but one of 
the subsequent GMD tests will be against Intercontinental Ballistic 
Missile class targets.
    For Aegis BMD and THAAD, sufficient data now exist to perform 
quantitative estimates of the probability of engagement success for the 
tested battlespace (which is less than the full intended battlespace) 
of the two weapon systems. The probability of engagement success 
estimates for these two weapon systems are included in the classified 
portion of my 2013 Assessment of the BMDS.
    For other BMDS elements, my assessments often contain subjective 
content due to the limited amount of test data that are available and 
the resulting limited progress toward verification, validation, and 
accreditation (VV&A) of the required BMDS models and simulations. Many 
of the models and simulations used in the ground tests are still not 
accredited for performance assessment, thereby limiting quantitative 
assessments based on their results. Some portions of the battlespace 
where data are lacking cannot be assessed. Examples include high 
closing velocities associated with longer range targets for Aegis BMD, 
salvo intercept time spacing for GMD since it has not yet attempted a 
salvo launch, and launch-on-remote track for THAAD. My office and the 
MDA are working to assure the IMTP supports BMDS modeling and 
simulation by providing the test data required for rigorous VV&A. The 
MDA was able to collect important data on Critical Engagement 
Conditions and Empirical Measurement Events supporting VV&A. However, 
model and simulation VV&A to support comprehensive quantitative 
performance assessments will, in many instances, require several more 
years to complete.
    My comments to this committee during my testimony of the last 5 
years, regarding the IMTP development process, remain accurate. The 
Director of MDA, Vice Admiral Syring, has continued to pursue a 
rigorous IMTP development process that has produced a well-justified 
set of tests. During the reporting period, the MDA continued to 
emphasize operational realism when planning for and conducting both 
ground and flight testing. My office continues to be involved 
throughout the semi-annual review and revision process leading to each 
update of the IMTP. This process has worked well during the preparation 
of the previous plans that I approved jointly with the MDA directors. 
The process has enabled each version of the IMTP to be revised in a 
timely manner consistent with policy changes, flight test results 
(including unsuccessful intercepts), and changes in budgetary 
resources. The IMTP is a rigorous plan for obtaining the test 
information needed to assess BMDS performance quantitatively.
    The rigorous testing incorporated in the IMTP will inevitably lead 
to flight test failures. These failures, although often perceived as 
setbacks, provide information that is absolutely critical to assuring 
that our ballistic missile defenses will work under realistic and 
stressing conditions. The IMTP does not, however, include explicit 
provisions for backup or repeat tests that would be needed in the event 
of flight test mission failures. Therefore, the effects of unsuccessful 
tests, such as the FTG-07 and FTM-21 missile 2 failures, need to be 
mitigated through future updates of the IMTP. Thus far, the semi-annual 
revision process has allowed flexibility in making the necessary 
adjustments when needed.

    Senator Udall. Thank you, Dr. Gilmore.
    Admiral Syring.

   STATEMENT OF VADM JAMES D. SYRING, USN, DIRECTOR, MISSILE 
             DEFENSE AGENCY, DEPARTMENT OF DEFENSE

    Admiral Syring. Good afternoon, Chairman Udall, Senator 
Sessions, Senator King, Senator Donnelly. Out of our total 
request of $7.46 billion for the fiscal year 2015 missile 
defense program, we are requesting approximately $1.3 billion, 
including the Air Force early warning radar investments, for 
Homeland defense as we prepare to expand our GBI inventory to 
44 by 2017.
    My highest priority remains the successful intercept flight 
test of the CE-2 EKV. In January 2013 we conducted a highly 
successful non-intercept test of the CE-2 EKV. Its performance 
exceeded our expectations and confirmed we're on the right 
track to return GMD to intercept flight testing. I am confident 
we have fixed the problem we encountered in the December 2010 
test and we look forward to conducting the FTG-06B intercept 
test this summer.
    I'm also optimistic that we have identified the root cause 
of the intercept failure involving our first generation EKV 
last July, when the CE-1 kill vehicle failed to separate from 
the booster's third stage. We have accounted for that issue and 
its probability in the upcoming flight test this summer and are 
working towards a correction for the entire fleet before the 
end of the year.
    Instead of continuing to make year-to-year reliability 
improvements in our GBIs, in fiscal year 2015 we will begin to 
redesign and improve the GBI EKV. The new EKVs will be more 
producible, testable, reliable, and cost-effective, and 
eventually replace the kill vehicles used in our current GBI 
inventory.
    We will also begin development of the long-range 
discriminating radar, with deployment planned in 2020. The new 
midcourse tracking radar will provide persistent coverage and 
improved discrimination capabilities against threats to the 
Homeland from the Pacific theater.
    We will continue to improve the performance of the Aegis 
weapon system and request to procure 30 SM-3 Block 1B guided 
missiles in fiscal year 2015. We will request 4-year multi-year 
procurement authority next year for the SM-3 1B starting in 
fiscal year 2016.
    In fiscal year 2015, we will also procure in our request 31 
interceptors for THAAD and fund additional AN/TPY2 spares and 
an additional THAAD battery for the Army.
    We remain on schedule to meet the presidential mandate for 
the deployments of phases 2 and 3 of the EPAA. With 15 flight 
tests planned in fiscal year 2015, we will continue to test 
elements of the system to demonstrate they work before we 
commit to fielding.
    Thank you, Mr. Chairman. I look forward to the 
subcommittee's questions.
    [The prepared statement of Admiral Syring follows:]
              Prepared Statement by VADM J.D. Syring, USN
    Good afternoon, Chairman Udall, Ranking Member Sessions, 
distinguished members of the subcommittee. I appreciate this 
opportunity to testify before you today. Our current budget request of 
$7.459 billion for fiscal year 2015 will continue the development of 
defenses for our Nation, deployed forces, allies, and international 
partners against increasingly capable ballistic missiles. The fiscal 
year 2015 missile defense program will support the warfighter and needs 
of the combatant commanders (COCOMs) with the development and 
deployment of interceptors, sensors, and the command, control, battle 
management and communications (C2BMC) system that makes up the 
integrated Ballistic Missile Defense System (BMDS). Our PB 2015 request 
supports needed improvements in homeland defense and continues strong 
support of regional defense initiatives. Our fiscal year 2015 program 
plans include continued investments in advanced technologies and future 
capabilities to keep pace with the increasingly complex threat.
                        ballistic missile threat
    The threat continues to grow as our potential adversaries are 
acquiring a greater number of ballistic missiles, increasing their 
range and making them more complex, survivable, reliable, and accurate. 
The missile defense mission is becoming more challenging as potential 
adversaries incorporate BMD countermeasures. Space-launch activities in 
Iran and North Korea involve multistage systems that serve to further 
the development of ballistic missile technology for longer-range 
systems, including intercontinental ballistic missile (ICBM)-applicable 
technologies and systems. As the Director for National Intelligence 
testified last year, ``Iran has demonstrated an ability to launch small 
satellites, and we grow increasingly concerned that these technical 
steps . . . provide Tehran with the means and motivation to develop 
larger space-launch vehicles and longer-range missiles, including an 
ICBM.'' Iran could develop and test an ICBM capable of reaching the 
United States by 2015. In addition to the Taepo Dong 2 space launch 
vehicle/ICBM, North Korea is developing and has paraded the KN08 road-
mobile ICBM and an intermediate-range ballistic missile (IRBM) capable 
of reaching Guam and the Aleutian Islands. Iran also has steadily 
increased its ballistic missile force, deploying next generation short- 
and medium-range ballistic missiles (SRBMs and MRBMs) with increasing 
accuracy and new submunition payloads. Iran has publicly demonstrated 
the ability to launch simultaneous salvos of multiple rockets and 
missiles. Demonstrating that it is capable of modifying currently 
deployed ballistic missile systems, Iran has flight-tested a Fateh-110 
ballistic missile called the Khalij Fars by adding a seeker to improve 
the missile's accuracy against sea-based targets. This ballistic 
missile has a range of 300 km, which means it is capable of threatening 
maritime activity throughout the Persian Gulf and Strait of Hormuz.
                       support for the warfighter
    Our overriding goal is to provide support to the warfighter. With 
this budget we will maintain our commitment to build out homeland 
defenses to 44 Ground Based Interceptors (GBI), pending a successful 
return to intercept this summer, and focus on Ground-based Midcourse 
Defense (GMD) system reliability and GBI performance. We will also 
maintain our commitment to deploy Phases 2 and 3 of the European Phased 
Adaptive Approach (EPAA). We are continuing efforts to improve the 
performance of the Aegis Weapons System and deliver Standard Missile 
(SM-3) Block IB guided missiles. We will also deploy a second forward-
based X-band AN/TPY-2 radar in Japan, improving homeland and regional 
defense capabilities and increasing our global operational AN/TPY-2 
radar posture, and build and improve the C2BMC infrastructure at 
fielded sites. We plan to procure interceptors for Terminal High 
Altitude Area Defense (THAAD) and, pursuant to our agreement with the 
Army, fund additional AN/TPY-2 spares and an additional THAAD Battery.
    Last year, we conducted or participated in over 17 multi-event 
exercises and wargames, which are critically important to the 
warfighter and the intensive engineering efforts across the Agency. MDA 
also worked collaboratively with combatant commanders, Office of the 
Secretary of Defense (OSD), and the Services to complete a strategy and 
roadmap providing a series of near-, mid- and far-term architecture 
options for the BMDS that are the basis for program planning for the 
rest of this decade. In response to the continued fielding by U.S. 
adversaries of air, missile, and rocket capabilities, in May 2013 MDA 
assumed the responsibility of Technical Authority for Integrated Air 
and Missile Defense (IAMD), and as such will lead the Department's 
joint IAMD engineering and integration efforts, including interface 
definition and control as well as technical requirements allocation.
    Finally, we continue to work closely with the Director, Operational 
Test & Evaluation (DOT&E) and with independent testers and the 
Services. From October 2012 to the present, we have executed 9 high 
profile flight tests, 13 if you include our involvement with and 
contributions to Israeli flight tests. The highlight was Flight Test 
Operational-01 (FTO-01), the historic and unparalleled operational test 
of our regional layered ballistic missile defenses this past September, 
which involved THAAD and Aegis BMD, ground- and sea-based forward 
deployed sensors, and C2BMC. The two targets were launched on 
operationally realistic trajectories towards a defended area near the 
Reagan Test Site in the Pacific Ocean. This was a highly successful 
operational test involving MDA, the Operational Test Agency, Joint 
Functional Component Command for Integrated Missile Defense, and U.S. 
Pacific Command, as well as U.S. Army soldiers from the Alpha Battery, 
2nd Air Defense Artillery THAAD, U.S. Navy sailors aboard the USS 
Decatur and British sailors aboard the HMS Daring, and airmen from the 
613th Air and Operations Center. Similar to the Flight Test Integrated-
01 test conducted in October 2012, FTO-01 provided the warfighters 
confidence in the execution of their integrated air and missile defense 
plans and the opportunity to refine operational doctrine and tactics, 
techniques and procedures.
    In fiscal year 2015, we have 15 flight tests in the Integrated 
Master Test Plan. As the BMDS matures, we are continuing to increase 
the complexity in our flight test program by: conducting more system-
level operational tests; increasing the number of BMDS assets in those 
tests; increasing the numbers, types and ranges of the threat 
representative targets we use; conducting more simultaneous launches; 
and replicating potential wartime scenarios to realistically exercise 
warfighting chain of command to evaluate command and control concepts 
of operation and tactics, techniques and procedures. We also have 
system-level ground tests that combine the warfighter chain of command 
with the developmental system and test under varying conditions to 
improve confidence in the system being deployed to combatant commands. 
We are entering a period of unprecedented complexity and increased 
testing tempo based on that complexity. Our flight tests will also 
involve an increasingly stressful set of threat representative targets 
as well as longer range interceptors for our regional capabilities. 
Over the coming years, U.S. Government stakeholders--to include 
soldiers, sailors, marines, and airmen--and allies will have a larger 
role and impact in our test program than ever before.
                            homeland defense
    MDA's highest near-term priority remains the successful GMD 
intercept flight test of the newest GBI Exo-atmospheric Kill Vehicle 
(EKV)--the Capability Enhancement (CE)-II EKV. Based on our analysis of 
the data from the successful January 2013 non-intercept controlled 
flight test of the CE-II GBI (CTV-01), we plan to conduct FTG-06b, an 
intercept flight test, this summer. CTV-01 demonstrated the successful 
dampening of the vibration environments that affected the navigation 
system and resulted in the failure of the FTG-06a mission conducted in 
December 2010. FTG-06b will demonstrate the ability of the CE-II EKV to 
discriminate and intercept a lethal object from a representative ICBM 
target scene. An increase in the number of GBIs in the fleet assumes a 
successful return to intercept of the CE-II EKV.
    Last July, with FTG-07, we conducted an intercept flight test of 
the upgraded CE-I, or first generation, EKV. We made numerous 
improvements to the CE-I fleet through upgrades since the last 
successful CE-I flight test in 2008. In FTG-07 the EKV did not 
intercept the target because the kill vehicle on the GBI did not 
separate from the booster's third stage. The failure investigation is 
progressing toward a root cause. Once the investigation is concluded, 
we will take steps to make any fixes to the fleet that need to be made 
for both the CE-I and CE-II EKVs.
    Today, 30 operational GBIs protect the United States against a 
limited ICBM attack from current regional threats, such as North Korea 
and Iran. Last year we began refurbishment of Missile Field 1 at Fort 
Greely, AK (FGA) to develop silo capacity to support delivery of an 
additional 14 GBIs, continued emplacing GBIs in Missile Field 2 (MF 2), 
and continued conducting GBI component testing and refurbishing 
currently deployed GBIs to test and improve their reliability. We are 
requesting approximately $1.3 billion in fiscal year 2015 for homeland 
defenses. We remain committed to a ``fly-before-you-buy'' acquisition 
approach. Pending a successful outcome of the GMD intercept flight test 
this summer, we will resume taking delivery of GBIs and emplace them in 
MF 2 and MF 1 as we progress towards 44 by the end of fiscal year 2017. 
Beginning in fiscal year 2016, we will acquire replacement GBIs to 
support GMD operations, testing, and spares, pending the outcome of 
flight testing.
    Construction of the GBI In-Flight Interceptor Communication System 
(IFICS) Data Terminal (IDT) at Fort Drum, NY, is proceeding on 
schedule. Once it is operational in late-2015, the east coast IDT will 
enable communication with GBIs launched from Fort Greely, AK and 
Vandenberg Air Force Base in California over longer distances and 
improve defenses for the eastern United States by increasing system 
performance in specific engagement scenarios.
    We currently operate a forward-based X-band radar, the AN/TPY-2 
radar, in Shariki, Japan, which is in the northern part of that 
country. In September 2012 the Secretary of Defense directed the 
deployment of a second AN/TPY-2 X-band radar in Japan to provide 
improved tracking coverage for launches out of North Korea. Working 
with our Japanese partners, we expect to complete the deployment of the 
second AN/TPY-2 radar in Kyogamisaki in southern Japan by the end of 
this calendar year. We will also deploy a new C2BMC capability which 
will enhance the overall performance of the radars when operating in a 
mutually supporting dual radar mode.
    We will take additional steps to keep pace with the threats to the 
U.S. Homeland. We have requested $99.5 million in fiscal year 2015 to 
redesign and improve the GBI EKV. The redesigned EKV will be built with 
a modular, open architecture and designed with common interfaces and 
standards, making upgrades easier and broadening our vendor and 
supplier base. The new EKVs will improve reliability and be more 
producible, testable, reliable, and cost-effective and eventually will 
replace the kill vehicle on our current GBI fleet. We are currently 
assessing concepts, acquisition options, and timelines to test and 
field the redesigned EKV. Our goal is to begin flight testing the 
redesigned EKV in fiscal year 2018. We also request $79.5 million, 
which includes $29 million in MILCON funding for planning and design, 
to begin development of a Long-Range Discrimination Radar, with 
deployment planned in 2020. The new long-range, mid-course tracking 
radar will provide persistent coverage and improve discrimination 
capabilities against threats to the Homeland from the Pacific theater. 
This new radar also will give more geographic flexibility to deploy the 
Sea-Based X-band (SBX) radar for contingency and test use.
    MDA requests $122 million in fiscal year 2015 to support the 
Discrimination Improvements for Homeland Defense (DIHD) efforts. The 
goal of this effort is to develop and field an integrated set of 
capabilities to improve BMDS reliability, lethality, and 
discrimination. The end result will be a deployed future BMDS 
architecture more capable of discriminating and destroying a reentry 
vehicle. Our plans in this area will support a near-term DIHD 
capability (2016) and a DIHD capability fielding in 2020.
    We are requesting $64 million in fiscal year 2015 for continued SBX 
radar operations. In collaboration with the Services, Joint Staff, U.S. 
Strategic Command (STRATCOM) and the COCOMs, we maintained the SBX 
radar in Limited Test Support Status, where the radar continues to 
support the BMDS test program and remains available for contingency 
deployment under the operational command of PACOM. In 2013 SBX 
supported real world operations, with 49 days at-sea, and the FTG-07 
GMD test with a total of 110 days at-sea and demonstrated an autonomous 
acquisition capability.
    We are also examining locations for a possible additional CONUS 
interceptor site. The current GBI sites at Fort Greely, AK and 
Vandenberg AFB, CA provide capability necessary to protect the 
Homeland. While there has been no decision by the Department to move 
forward with an additional CONUS interceptor site, such a site would 
add battle space and interceptor capacity should it be deemed necessary 
to proceed with deployment. Our CONUS Interceptor Site study determined 
the following sites are viable candidates and they are to be included 
in the Environmental Impact Statement: Fort Drum, NY; Naval Air Station 
Portsmouth SERE Training Area, Rangley, ME; Ravenna Training and 
Logistics Site, OH; and Fort Custer Combined Training Center, MI. The 
Environmental Impact Statement, which will take approximately 24 months 
to complete, will assess environmental impacts at each of the sites, to 
include potential impacts to land use, water resources, air quality, 
transportation, socioeconomics and other factors established by the 
National Environmental Policy Act.
    For fiscal year 2015 we are requesting approximately $38.6 million 
for our network of strategic radars. We will continue missile defense 
upgrades of the Early Warning Radars in Clear, AK and Cape Cod, MA. We 
expect to complete the Clear radar upgrade in 2017 and the Cape Cod 
upgrade in 2018. Last year MDA worked with the Air Force to begin 
upgrading the Early Warning Radar (EWR) at Clear, AK to give it a 
missile defense capability, providing improved ballistic missile 
defense sensor coverage over the continental United States and reducing 
sustainment and operating costs. We also transferred sustainment 
responsibility for the Beale (California), Fylingdales (United 
Kingdom), and Thule (Greenland) Upgraded Early Warning Radars back to 
the U.S. Air Force.
                           regional defenses
    Deployment of regional defenses to protect our deployed forces, 
allies and international partners remains one of our top priorities. 
Our fiscal year 2015 budget request funds the continued development and 
deployment of defenses against SRBMs, MRBMs, and IRBMs in support of 
combatant commanders' near-term and future priorities. MDA will 
continue to focus on threats from the Asia-Pacific and Middle East 
regions as we continue to support the European Phased Adaptive Approach 
to protect our deployed forces and our allies.
Terminal High Altitude Area Defense
    In fiscal year 2013, MDA delivered 37 THAAD Interceptors and 
expended 2 in flight tests, for a total of 84 delivered to Army war 
stock. We also delivered hardware for fielding of the third THAAD 
battery: two Tactical Station Groups, six Launchers, and a set of 
Peculiar Support Equipment. Training of the soldiers who will operate 
the third THAAD battery has begun and we expect it to be completed in 
fiscal year 2015. This year we expect to deliver the fourth THAAD 
battery. In collaboration with the Services, Joint Staff, STRATCOM and 
the COCOMs, we achieved first operational deployment of the THAAD 
capability for the defense of Guam. In recent tests we demonstrated 
THAAD's ability to intercept an MRBM as part of an integrated 
operational test with Aegis BMD (FTO-01), the second intercept of this 
class of target since FTI-01. THAAD has put together a remarkable 
record of success, successfully intercepting 11 out of 11 targets with 
the operationally configured interceptor.
    For fiscal year 2015, MDA is requesting $464 million for THAAD 
procurement, which includes the purchase of 31 THAAD interceptors. We 
also are requesting $300 million in RDT&E funding in fiscal year 2015 
and $76 million for THAAD operations and maintenance. We will continue 
to enhance THAAD's ability to operate through post-intercept debris, 
enable launch of THAAD's interceptors using sensor data provided by 
other BMDS sensors, and maintain capability against current and 
evolving threats. THAAD will conduct two flight tests in fiscal year 
2015. In FTT-18 THAAD will demonstrate an intercept of a separating 
IRBM target using the THAAD radar, launcher, fire control and 
communication, interceptor closed loop operations, and engagement 
functions. In FTO-02 THAAD will engage a SRBM with associated objects 
and demonstrate advanced radar algorithms.
Aegis Ballistic Missile Defense
    Last year MDA completed six BMD Weapons System installations on 
Aegis ships: two Aegis BMD 3.6; three Aegis BMD 4.0; and one Aegis BMD 
5.0 (USS John Paul Jones) in conjunction with the Navy's Aegis Baseline 
9 installation. The USS John Paul Jones will replace the USS Lake Erie 
as the BMD deployable test ship to support MDA and Navy testing of 
Integrated Air and Missile Defense capabilities. We now have a total of 
30 BMD capable Aegis ships in the Fleet. In 2013 we delivered 10 SM-3 
Block IAs and 16 SM-3 Block IBs. By the end of 2015, over 65 SM-3 Block 
IBs will be delivered.
    We are requesting $929 million in RDT&E funding in fiscal year 2015 
to continue development, testing, and installation of Aegis BMD 
capabilities to defeat longer range and more sophisticated ballistic 
missiles launched in larger raid sizes. We request $435 million in 
fiscal year 2015 for Aegis BMD procurement, which includes $348 million 
for 30 SM-3 Block IB guided missiles and $12 million for operations and 
maintenance of SM-3 Block IAs. In response to the combatant commanders' 
demand for more BMD ships with the latest tested capability, Navy and 
MDA have incorporated Aegis BMD into the Navy's Aegis DDG Modernization 
Program and new construction DDGs. We will continue upgrading the 
capability of existing BMD ships and integrating new and modernized 
ships to the BMD fleet, with a planned operational availability of 43 
Aegis BMD ships in fiscal year 2019. The homeport transfer of four 
Aegis BMD ships to Rota, Spain began this past February with the USS 
Donald Cook. Another Aegis BMD ship, USS Ross is scheduled to transfer 
later this year, and the remaining two Aegis BMD ships will transfer in 
2015.
    With the Japan Ministry of Defense, we completed multiple SM-3 
Block IIA component Cooperative Development Project Critical Design 
Reviews, including: Staging Assembly, Steering Control Section, 
Guidance System, Third Stage Rocket Motor, Sensors, Kinetic Warhead 
Guidance Electronics Unit Assembly, Divert and Attitude Control System, 
and Kinetic Warhead, culminating with an overall missile system 
Critical Design Review, in October 2013. Also in October, the SM-3 
Block IIA completed Propulsion Test Vehicle-01 in which the missile and 
new composite canister both demonstrated successful and safe ignition 
and egress from the vertical launching system.
    Last year was a significant year for Aegis BMD testing, with five 
for five successful intercept tests and successful transmission of Long 
Range Surveillance and Track data through C2BMC to the GMD system in 
FTG-07. FTM-20 (February 2013) demonstrated the ability of the Aegis 
BMD 4.0 Weapon System to Launch on Remote using data from the Space 
Tracking and Surveillance System (STSS) demonstrator satellites. FTM-20 
employed an SM-3 Block IA against a unitary medium-range target. High 
quality infrared fire control data from STSS was provided through 
C2BMC. C2BMC generated very high quality fire control quality data and 
passed the track data over operational communications links to the 
firing Aegis ship to conduct a launch on remote engagement. This 
complex test proved the value of an integrated C2 and sensor network 
and the use of space-based sensors to expand the BMD battle space. FTM-
19 (May 2013) supported the development and assessment of the Aegis BMD 
4.0 Weapon System and the SM-3 Block IB prior to an fiscal year 2014 
full-rate production decision. A second Aegis BMD ship successfully 
acquired the target and conducted a simulated engagement using space-
based sensor data.
    In a span of 23 days, Aegis BMD was a principal player in three 
major operational flight tests: FTO-01, FTM-21, and FTM-22, which all 
achieved successful intercepts. FTM-21 (September 2013) and FTM-22 
(October 2013) fired SM-3 Block IBs to validate operational 
effectiveness and suitability of the Aegis BMD 4.0 Weapon System and 
the SM-3 Block IB. FTM-22 was our fifth consecutive successful 
intercept mission using the 4.0 Weapons System and SM-3 Block IB and an 
important milestone for Phase 2 of the EPAA. FTM-21 and FTM-22 also 
completed Director Operational Test and Evaluation Initial Operational 
Test and Evaluation flight testing requirements for the 4.0 Weapons 
System and the SM-3 Block IB.
    To complete Initial Operational Test and Evaluation requirements 
for the 4.0 weapons system, we also conducted a tracking exercise, FTX-
18, over the Atlantic Ocean in January 2014, which confirmed the 
capability of the 4.0 weapons system to track and engage a raid of 
three ballistic missile targets with simulated SM-3 Block IBs. In this 
event, multiple Aegis BMD baselines participated, yielding comparative 
raid performance data, including the Aegis Ashore Romania deckhouse at 
Lockheed Martin in Moorestown, NJ. The Aegis Ashore system will be 
deployed to Romania later this year.
    We also continue development of a Sea Based Terminal capability to 
provide protection of maritime forces against advanced anti-ship 
ballistic missiles and increased layered defense for forces ashore. 
Using an incremental development approach, we are incorporating BMD 
capability into the Navy's Baseline 9 architecture, to include terminal 
defense with the SM-6 guided missile and the BMD 5.0 weapon system. In 
2013, we completed the initial design phase and initiated software 
development for missile and weapon system modifications. We plan to 
test and certify the first increment of sea based terminal capability 
in 2015. We also finalized the requirements for the second increment of 
Sea Based Terminal capability, scheduled to certify in 2018.
    The fiscal year 2015 Aegis BMD flight test program will include 
almost all of the Standard Missile variants, with firings of SM-3 Block 
IBs from ships as well as the PMRF Aegis Ashore Missile Defense Test 
Center, execution of raid scenarios with engagements in both Anti-Air 
Warfare and BMD warfare areas, Launch on Remote for long-range 
engagements, developmental Controlled Test Vehicle firings of the SM-3 
Block IIA missile, and tracking exercises for the Sea Based Terminal 
weapon system configuration.
European Phased Adaptive Approach
    We will continue to support the EPAA to provide coverage of 
European NATO territory from Iranian ballistic missile threats by 
investing resources for EPAA development, testing and deployment. Phase 
1, which provides coverage of NATO territory in Europe with the 
deployment of Aegis BMD 3.6 ships with SM-3 IAs and a SPY-1 radar in 
the Mediterranean, the AN/TPY-2 radar (Forward Based Mode) to U.S. 
European Command (EUCOM) in Turkey, and the C2BMC Spiral 6.4 system at 
Ramstein AFB in Germany, has been operational since the end of 2011.
    Our goal in EPAA Phase 2 is to provide robust capability against 
SRBMs and MRBMs. The architecture includes the deployment of the Aegis 
BMD 4.0 and 5.0 weapon systems with SM-3 Block IBs at an Aegis Ashore 
site in Romania and at sea. A formal ground-breaking ceremony for the 
Aegis Ashore site took place in Deveselu, Romania in October 2013. The 
start of construction of the Aegis Ashore site in Deveselu, Romania 
this year involves the delivery of the deckhouse from Moorestown, NJ, 
to Romania. The site will be integrated into the EUCOM command and 
control network, tested and operational by December 2015. MDA requests 
$123 million in fiscal year 2015 to continue development of the Aegis 
Ashore sites in Romania and Poland. We also request $226 million in 
fiscal year 2015 for the continued procurement of equipment for Aegis 
Ashore in Poland.
    Four months after disassembly and transport of the Aegis Ashore 
equipment to the Pacific Missile Range Facility (PMRF) began, an Aegis 
Light Off ceremony was held on 6 December, 2013 to commemorate the 
first time the Aegis Combat System was powered on, with sailors manning 
the consoles and the system brought on-line at the PMRF deck house 
facility. We are now preparing for Aegis Ashore flight tests at PMRF 
this year and in 2015.
    Deployment of Phase 3 will enhance and expand protection for 
European NATO countries and U.S. forces through the region from MRBMs 
and IRBMs from the Middle East. In support of EPAA Phase 3, the SM-3 
Block IIA, which we are co-developing with the Japanese Government, and 
an upgraded version of the Aegis Weapons System are on schedule to be 
available for deployment in 2018 at Aegis Ashore sites in Romania and 
Poland, and at sea. MDA requests $264 million in RDT&E funding in 
fiscal year 2015 to continue the bilateral, cooperative effort. The 
upgraded Aegis Weapons System and C2BMC system with engage on remote 
AN/TPY-2 radar (forward based mode) capability combined with the 
faster, longer reaching SM-3 IIA will expand Aegis BMD battle space to 
counter more sophisticated threats and will extend coverage to NATO 
allies in Europe threatened by longer range ballistic missiles.
    Working closely with Navy, we will deliver the upgraded 5.1 Aegis 
BMD Weapons System as a part of the Navy's Baseline 9 architecture on 
ships for deployment worldwide in 2018 to support combatant commanders 
requirements to counter an expanded threat set. This past year we 
continued development of the Aegis BMD 5.1 fire control system.
Command, Control, Battle Management, and Communications and Sensors
    In 2013 we continued to support warfighter operations of the EUCOM 
BMDS capability for regional defense. In partnership with the combatant 
commands, we maintain the capability to engage multiple simultaneous 
threat attacks in the region. As the foundation of BMDS, the MDA C2BMC 
team supported the warfighter in real world operations across multiple 
Areas of Responsibility, which included deployments to the Middle East, 
Turkey, and Kwajalein. Last year we fielded software upgrades to U.S. 
Northern Command (NORTHCOM), U.S. Strategic Command (STRATCOM), U.S. 
Pacific Command (PACOM) and Central Command (CENTCOM) and installed 
Spiral 6.4 MR-2 at PACOM, NORTHCOM, and STRATCOM. This year we 
completed software upgrades to CENTCOM and EUCOM. We also delivered the 
Distributed Training System to CENTCOM for Air and Missile Defense 
Exercise 13-2.
    For the first time, in 2013, we conducted a flight test with 
successful debris mitigation (FTO-01) and also generated fire control 
quality track data from space sensors for a live fire Launch-on-Remote 
Aegis BMD 4.0 Weapons system and SM-3 Block IA engagement (FTM-20). In 
addition to continuing the enhancement of global BMD survivable 
communications and support for operations and sustainment of C2BMC at 
fielded sites, in fiscal year 2015 we will integrate Space Based 
Infrared System Increment 2 capabilities into C2BMC to support cueing 
of BMD sensors worldwide. We will also improve sensor data integration 
and battle management in C2BMC to support Aegis BMD cueing and launch-
on and engage-on remote capability.
    In support of homeland and regional defense, we continued to 
sustain AN/TPY-2 operations and supported the deployment of additional 
AN/TPY-2 radars and the C2BMC infrastructure. For the second AN/TPY-2 
radar deployment to Japan, we identified candidate sites, conducted 
site surveys, selected sites, obtained agreements with the host nation, 
and initiated site design efforts. We deployed the AN/TPY-2 (Terminal 
Mode) as part of a THAAD battery in the PACOM Area of Responsibility. 
Last year we relocated the AN/TPY-2 radar in CENTCOM to a permanent 
location. Additionally, we accepted the AN/TPY-2 radar Number 8 and 
provided it to the 3rd THAAD Battery; awarded a production contract for 
AN/TPY-2 Number 12; awarded a production contract for an additional 
Prime Power Unit; and awarded a contract for AN/TPY-2 spares.
    We request $393 million in fiscal year 2015 to develop and deploy 
BMDS sensors (includes Long-Range Discrimination Radar), and $183 
million to operate and sustain the nine AN/TPY-2 radars and support the 
UEWRs and Cobra Dane radar. We request $444 million in fiscal year 2015 
to operate and sustain C2BMC at fielded sites and continue C2BMC 
program spiral development of software and engineering to incorporate 
enhanced C2BMC capability into the battle management architecture and 
promote further interoperability among the BMDS elements, incorporate 
boost phase tracking, and improve system-level correlation and 
tracking. We will also continue communications support for the AN/TPY-2 
radars and C2BMC upgrades. We request $31 million for continued 
operation of the Space Tracking and Surveillance System and Near-Field 
InfraRed (NFIRE) satellite system in fiscal year 2015. We continue to 
operate the two STSS-D satellites to conduct cooperative tests with 
other BMDS elements and demonstrate the capability of the satellites to 
cue and track against targets of opportunity to provide high precision, 
real-time tracking of missiles and midcourse objects that enable 
closing the fire control loops with BMDS interceptors. We also continue 
to operate the NFIRE satellite, which has the capability to collect 
near-field phenomenology data for use in developing plume to hard-body 
handover algorithms for boost phase interceptor programs.
                      developing new capabilities
    We are developing fiscally sustainable advanced technology that can 
be integrated into the BMDS to adapt to threat changes. Our investments 
are focused on technology that brings upgradeable capability to the 
warfighter. Our advanced technology investments are determined by 
systems engineering, which permits us to evaluate and determine which 
emerging technical solutions will best address gaps in the BMDS and 
enhance its overall capability and performance. The goal of our 
technology investment strategy is to deploy a future BMDS architecture 
more capable of discriminating and killing reentry vehicles with a high 
degree of confidence, allowing the warfighter to dramatically improve 
shot doctrine. One of our greatest challenges is the ability to bring 
multiple sensor phenomenology (i.e., reflective and thermal properties 
of the missile) into the missile defense architecture. Relying purely 
on terrestrial radar for precision tracking and discrimination of the 
threat is a potential weakness our enemy could exploit in the future. 
Adding persistent electro-optical sensors to our architecture is a high 
payoff solution for this gap.
    MDA requests $45 million in fiscal year 2015 for Discrimination 
Sensor Technology. We will integrate advanced sensors on existing 
unmanned aerial vehicles and demonstrate their ability to create a 
precision track that shooters can use to target their interceptors 
quickly and accurately. We will test the first precision track sensors 
at PMRF this fall. In parallel, we will begin integration and ground 
test of an advanced sensor upgrade to these precision track sensors 
with follow-on flight testing in fiscal year 2016. MDA's Discrimination 
Sensor Technology development and test plan is a cost-effective, 
stepping stone to MDA's long-term goal of persistent discrimination 
coverage from a space platform.
    Additionally, Air Force Space Command (AFSPC) and MDA are 
collaborating on future space sensor architecture studies and sensor 
performance assessments across a broad set of joint mission areas and 
on Analyses of Alternatives (AoA) studies with threat definition, 
technical evaluations, and cost analysis support. MDA is supporting 
AFSPC in its review of concepts that will inform an AoA for the future 
of protected military satellite communications and overhead persistent 
infrared systems. As an example, MDA is exploring the potential of 
BMDS-focused space sensors that also provide data contributing to Air 
Force missions such as Space Situational Awareness.
    MDA requests $14 million in Weapons Technology in fiscal year 2015 
to combine the knowledge gained from our Discrimination Sensor 
Technology effort with our high-power directed energy program to build 
the foundation for the next-generation laser system capable of 
addressing advanced threats and raids at a much lower cost than 
existing missile interceptors. We are pursuing a unique set of laser 
technology to execute missile defense missions from high-altitude, low-
mach airborne platforms operating in the clear, low turbulence 
stratosphere. We have been developing two promising solid-state lasers: 
one at Lawrence Livermore National Laboratory and the other at the 
Massachusetts Institute of Technology's Lincoln Laboratory 
collaboratively with the Defense Advanced Research Projects Agency 
(DARPA). Both lasers achieved record power levels within the last year. 
MDA will continue high energy efficient laser technology development 
with the goal of scaling to power levels required for a broad spectrum 
of speed of light missile defense missions. This year, we are working 
with several aircraft prime contractors defining concepts for 
integrating a multi-kW class laser into a mid-altitude, unmanned aerial 
vehicle. A laser test platform addresses a broad spectrum of mission 
applications and we will continue our collaboration with our service 
partners, the Air Force Research Laboratory, and DARPA for joint 
development and test opportunities.
    MDA requests $26 million in fiscal year 2015 for the Common Kill 
Vehicle (CKV) Technology effort. MDA's strategy is to achieve as much 
commonality among future GMD kill vehicles and other future kill 
vehicles for Aegis BMD and THAAD. In fiscal year 2014 this CKV 
technology effort will help establish the requirements foundation for 
the redesigned GMD EKV, which we are now planning as the first phase 
(Phase I) of our overall kill vehicle development strategy. Our fiscal 
year 2014 joint government and industry concept definition effort will 
also assess the ability of industry to meet those requirements. In 
follow-on CKV efforts, or Phase II, we will make investments that 
reduce the costs of production and weapon system operations through new 
kill vehicle architectures and scalable technology that improves the 
effectiveness and performance of our interceptor fleet against an 
evolving threat. Our investments in large format focal plane arrays, 
smaller inertial measurement units and high performance propulsion 
components as well as new kill vehicle architectures are key enablers. 
This technology development allows us to engage a more numerous and 
increasingly more complex threat, eventually establishing the 
technology foundation for killing multiple lethal objects from a single 
SM-3 or GBI.
    MDA requests $16 million in fiscal year 2015 for the Advanced 
Research area which conducts leading-edge research and development with 
small businesses, universities, and international partners to create 
and advance future missile defense capability. This effort includes 
managing the Small Business Innovation Research and Technology 
Applications programs to help MDA-funded small businesses to transition 
their technology to missile defense applications. MDA is also seeking 
to leverage the creativity of our Nation's universities by sponsoring 
academic research focused on developing breakthrough capabilities for 
missile defense.
    MDA requests $9 million in fiscal year 2015 for the Advanced 
Concepts & Performance Assessment effort, which delivers independent 
assessments of government, university, and industry technology concepts 
that, along with systems engineering requirements, support acquisition 
strategy decisions and define our technology focus areas. This effort 
has greatly improved our assessment of advanced BMD technologies to 
address evolving threats for the warfighter. We work directly with 
universities, federally Funded Research and Development Centers, 
University Affiliated Research Centers and innovative small businesses 
to develop cutting edge data collection, modeling techniques, hardware-
in-the-loop, and high performance computing platforms to speed the 
assessment of innovative technology concepts.
                       international cooperation
    MDA is engaged with over 20 countries and international 
organizations, such as NATO. Our major international efforts reflect 
the Department's goals in the Asia-Pacific, Middle East, and Europe: 
building partner BMD capacity, supporting the strategic shift to Asia-
Pacific, and executing EPAA deployments.
Building Partner BMD Capability
    Since I last testified before the committee, we had several 
successes in our cooperative development programs with our Israeli 
partners. Through our cooperative efforts, Israel is developing a 
layered and robust BMD capability. In November 2013 the Israel Missile 
Defense Organization (IMDO) and MDA achieved a second successful 
intercept using the David's Sling Weapon System. This past January we 
successfully conducted the second fly-out of the Arrow-3 upper tier 
interceptor. These programmatic milestones provide confidence in future 
Israeli capabilities to defeat the evolving ballistic missile threat in 
the Middle East. Another recent and significant accomplishment for the 
Department is the precedent-setting international agreement with Israel 
regarding coproduction of the Iron Dome missile defense system that was 
signed on March 5, 2014. The agreement supports increasing U.S. 
industry co-production of Iron Dome components.
    Our largest co-development effort is with Japan on the SM-3 Block 
IIA interceptor. Japan has committed significant funding for their part 
of this co-development project. Japanese and U.S. components will be 
fully integrated and flight tested in the coming years. The Japanese 
dedication to this program ensures we will remain on track to deliver 
SM-3 Block IIA in support of the EPAA Phase 3 in the 2018 timeframe.
    After spending a year establishing processes, procedures, and an 
information technology infrastructure, the Defense Security Cooperation 
Agency designated MDA a Foreign Military Sales (FMS) Implementing 
Agency in February 2012 for the THAAD missile defense system and the 
AN/TPY-2 radar. MDA is currently executing one FMS case with the United 
Arab Emirates for two THAAD batteries and accompanying launchers, 
radars, and interceptors. We are actively engaged with several nations, 
particularly those in the Gulf region, to provide program information 
and pricing and cost data that may inform future decisions to procure 
THAAD as an upper tier missile defense capability.
Supporting the Strategic Shift to the Asia-Pacific
    As I have already stated, along with the cooperative efforts on the 
SM-3 Block IIA, the United States and Japan are working together to 
support the deployment of the second U.S. forward-based AN/TPY-2 radar. 
Our Japanese partners should be commended for their efforts in 
supporting this deployment to the Japan Air Self-Defense Force (JASDF) 
base in Kyogamisaki in southern Japan. This radar will enhance both 
regional BMD capability and improve defense of the U.S. Homeland.
    MDA also supported the deployment of a THAAD missile defense system 
to Guam for the defense of U.S. deployed forces in the region. This is 
our first long-term deployment of a THAAD battery.
Executing EPAA Deployments
    Last October MDA and other Department leaders participated in a 
ground-breaking ceremony for the Aegis Ashore site in Romania. Site 
preparation work has started, and we are on schedule with military 
construction activities demonstrating real steps to deliver EPAA Phase 
2 in the 2015 timeframe.
    In addition to programmatic planning and deployment activities, MDA 
is also supporting EUCOM efforts to ensure the necessary Implementing 
Arrangements are in place to support EPAA fielding timelines. In the 
near-term, this means coordinating on and, where possible, streamlining 
the construction, site activation, and equipment acceptance processes 
in Romania. We are also laying the groundwork for these efforts in 
Poland. Again, all activities are on track to support the stated EPAA 
timelines.
    We are also working through NATO to ensure U.S. C2BMC and NATO 
command and control networks are fully interoperable. The United States 
and NATO test existing and future ballistic missile defense 
capabilities through a series of ongoing test campaigns in order to 
evaluate current capabilities and reduce risk for future development.
    MDA will continue to engage NATO and regional Allies in support of 
U.S. national security strategy through international cooperation in 
missile defense. For instance, the United States is working with NATO 
on a study to identify cooperative opportunities for European nations 
to develop and procure missile defense capabilities to complement the 
U.S. EPAA contribution to NATO BMD.
    MDA remains engaged and committed to expanding work with our 
international partners, to include conducting joint analyses to support 
partner missile defense acquisition requirements, cooperative research 
and development projects, co-development, deployments, FMS, and co-
production. It is an honor to work with dedicated international 
partners on activities that benefit both U.S. and international 
contributions to missile defense architectures.
                             cybersecurity
    MDA has been working diligently to enhance the cybersecurity 
posture of missile defense networks and improve the protection of 
ballistic missile defense information. MDA has developed new policies, 
partnered extensively with industry and other Department of Defense 
organizations, and has continuously increased investments in 
cybersecurity to ensure our networks and information remain secure 
against cyber attacks.
    I have coordinated policy Memoranda with the DOD Chief Information 
Officer's office and the Under Secretary of Defense for Acquisition, 
Technology, and Logistics and signed MDA Policy Memoranda on ``Securing 
Ballistic Missile Defense Information on Government and Non-Government 
Networks and Systems.'' These require MDA program executives, program 
managers, contracting officials, and contractors to follow existing 
guidelines and implement new cybersecurity measures. We published MDA 
Manual titled: ``Procedures for Protection of Critical Program 
Information and Mission-Critical Functions and Components within the 
Missile Defense Agency.'' We conducted a cybersecurity industry day 
titled: ``The Emerging Role of Cybersecurity in Missile Defense Agency 
Acquisitions.'' This served to inform MDA industry partners of new 
cybersecurity requirements and threats and elicited feedback from 
industry representatives on how they can meet the new cybersecurity 
requirements. MDA also expanded a partnership with DOT&E to test and 
experiment with cybersecurity on MDA systems. This partnership 
leverages DOT&E resources and teams MDA with special cyber expertise 
and extensive knowledge of current threats.
    The MDA Computer Emergency Response Team performs continuous 
monitoring of MDA government information systems to protect and defend 
the confidentiality, integrity and availability of MDA networks and 
data. MDA is enhancing the established integrated security 
architecture, aligned to the Defense Enterprise Security Architecture 
that constantly improves methods to protect, monitor, analyze, detect, 
and respond to unauthorized activity within MDA information systems. 
Cyber boundary protection measures include state-of-the-art firewalls, 
intrusion detection and prevention systems, and email spam/virus 
prevention capabilities. The Missile Defense Agency will continue to 
work closely with Federal agencies, industry partners, and others to 
identify and implement measures to further increase the security of 
missile defense information while continuously seeking to improve 
technologies and capabilities that protect MDA critical program 
information.
    I am proud to report we completed our first experiment with DOT&E 
in February. In the first experiment, MDA successfully demonstrated 
cybersecurity improvements that are in development. As a result of 
extensive interactions with a live cyber Operational Force during the 
first experiment, MDA will pursue new ways to strengthen cybersecurity 
that will be demonstrated in future experiments.
                               conclusion
    Mr. Chairman, we have stayed focused on our core mission. We will 
continue our work with the warfighter to develop, test, and field a 
networked, global BMD system that is flexible, survivable, and 
affordable and invest in promising and potentially game-changing 
technology programs to ensure the BMDS will be capable of defeating the 
complex threats we expect to face in the future. In order to ensure we 
are using the taxpayer's dollars wisely and deploying effective missile 
defense capabilities, we will continue to test elements of the system 
to demonstrate that they work before we commit to their fielding. It is 
vital that we provide the warfighters the cost-effective and reliable 
weapon systems they need to do their job. I remain dedicated to 
committing the manpower and resources to correcting the issues in our 
GMD program, executing a successful intercept flight test this summer, 
and keeping the focus on reliability in our operational homeland 
defenses. We continue to make good progress in our work with our 
international partners, and I want to increase my focus on those 
important efforts.
    I look forward to answering the committee's questions. Thank you.

    Senator Udall. Thank you, Admiral.
    General Mann.

STATEMENT OF LTG DAVID L. MANN, USA, COMMANDER, U.S. ARMY SPACE 
 AND MISSILE DEFENSE COMMAND/ARMY FORCES STRATEGIC COMMAND AND 
   JOINT FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED MISSILE 
                            DEFENSE

    General Mann. Chairman Udall, Ranking Member Sessions, 
Senator Donnelly, Senator King: Thank you for your continued 
support of our soldiers, civilians, and their families. This is 
my second appearance before this subcommittee and it is an 
honor to appear before you today to talk about the importance 
of missile defense for our Nation and the need to maintain 
these capabilities in the face of maturing threats and 
declining budgets.
    Today, I'd like to briefly discuss global missile defense 
operations, the SMDC/Army Forces Strategic Command's role as a 
force provider. To accomplish these assigned missions, we focus 
on three tasks, tasks that are very similar to what I discussed 
during the space hearing: to provide trained and ready missile 
defenders; to build future missile defense forces and 
capabilities; and to develop future technologies.
    In addition, I'd like to outline my role as the Joint 
Functional Component Command for Integrated Missile Defense, 
basically an operational integrator on behalf of U.S. Strategic 
Command (STRATCOM). We execute four tasks in support of these 
responsibilities: first, to synchronize operational-level 
planning; second, to support ongoing operations and asset 
management; third, to integrate training and exercises and test 
activities; and finally, to advocate for future capabilities.
    This subcommittee's continued support of missile defense 
capabilities and for our soldiers, sailors, airmen, and marines 
and civilians who develop, deploy, and operate these missile 
defense capabilities is essential.
    Again, I appreciate the opportunity to speak on the value 
of missile defense for our Nation. I look forward to addressing 
any questions that you may have. Thank you.
    [The prepared statement of General Mann follows:]
              Prepared Statement by LTG David L. Mann, USA
    Chairman Udall, Ranking Member Sessions, and distinguished members 
of the subcommittee, thank you for your continued support of our 
servicemembers, civilians, and families. I appear before you today 
bringing both a Joint and Army perspective for effective missile 
defense capabilities. We appreciate this subcommittee's continued 
support of the Army, the U.S. Strategic Command (STRATCOM), the 
Department of Defense, and the missile defense community. It is an 
honor and privilege to testify before this Subcommittee along with 
these distinguished witnesses who bring missile defense capabilities to 
our Nation, forward deployed forces, partners, and allies.
    I have three main responsibilities. First, as the Commander of the 
U.S. Army Space and Missile Defense Command (USASMDC), I have Title 10 
responsibilities to train, maintain, and equip space and global 
ballistic missile defense forces for the Army. Second, as the 
Commander, Army Forces Strategic Command (ARSTRAT), I am the Army 
Service Component Commander (ASCC) to STRATCOM. I am responsible for 
planning, integrating, and coordinating Army forces and capabilities in 
support of STRATCOM missions. Third, as the Commander of STRATCOM's 
Joint Functional Component Command for Integrated Missile Defense (JFCC 
IMD), I am responsible for synchronizing missile defense planning, 
conducting ballistic missile defense operations support, and advocating 
for missile defense capabilities for the Warfighter.
    In accordance with these responsibilities, my intent today is 
threefold: to highlight USASMDC/ARSTRAT's missile defense force 
provider responsibilities with respect to the Army and the geographic 
combatant commanders (GCC); to outline JFCC IMD's role as an 
operational integrator of joint missile defense for STRATCOM; and to 
summarize key Army ballistic missile defense activities and 
developments.
                       the strategic environment
    Ballistic missile threats from regional actors such as North Korea 
and Iran are increasing, both quantitatively and qualitatively, and are 
likely to continue to grow over the next decade. In a resource 
constrained environment, we must be prepared to quickly adapt and 
confront various threats. Holistic strategies that effectively 
integrate offensive and defensive capabilities are essential. It is of 
utmost importance that we prioritize missile defense resources to 
optimize these capabilities for the Warfighter.
    To meet the objectives of the current Defense Strategic Guidance, 
STRATCOM and the Army continue to provide and enhance homeland and 
regional missile defense. We have worked with partners in U.S. Pacific 
Command (PACOM), U.S. Northern Command (NORTHCOM), and STRATCOM to 
review and improve our capabilities in the PACOM area of responsibility 
in accordance with the Department's strategy to rebalance toward the 
Asia-Pacific region. The deployment of a Terminal High Altitude Area 
Defense (THAAD) battery to Guam has enhanced our ability to protect 
U.S. territories in the region and signal our commitment to our 
regional partners. The March 2013 Secretary of Defense announcement of 
the deployment of 14 additional Ground-Based Inceptors at Fort Greely, 
AK, and a second missile defense sensor in Japan will provide improved 
capability and capacity to defend the Nation against a limited 
ballistic missile attack. Toward this end, we continue to work with 
regional partners and allies to increase our information and data 
sharing. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    The Defense Strategic Guidance also establishes a priority to 
maintain a strong commitment to security and stability in Europe and 
the Middle East. We are continuing to build capability and capacity in 
these regions consistent with the objectives of the Phased Adaptive 
Approach to regional missile defense. To further protect our allies and 
partners in these regions, the Army has deployed additional Patriot air 
and missile defense forces to Turkey and Jordan.
    In summary, the growing complexity of the strategic environment 
based on technological advances of the threat and fiscal realities 
require cost efficient and effective methods of integrating current and 
future capabilities. We will continue to partner with the Missile 
Defense Agency (MDA) and combatant commands to ensure we pursue a 
fiscally responsible path to keep pace with evolving threats by 
identifying and prioritizing capability additions that provide the 
greatest operational value.
      the workforce--recognizing and protecting our greatest asset
    These challenges I've highlighted cannot be mitigated without the 
dedication of our greatest asset--our people. During the DOD Space 
hearing before this Subcommittee a few weeks ago, I felt it appropriate 
to highlight our workforce and the Army's commitment to deter instances 
of sexual harassment and assault. At USASMDC/ARSTRAT and JFCC IMD, our 
people are our most enduring strength. The servicemembers, civilians, 
and contractors at USASMDC/ARSTRAT and JFCC IMD support the Army and 
joint warfighter each and every day, both those stationed in the 
Homeland and those deployed across the globe. Within USASMDC/ARSTRAT 
and JFCC IMD, we remain committed to providing trained and ready 
servicemembers and civilians to operate and pursue enhanced system 
capabilities for the Nation's ballistic missile defense system (BMDS).
    In step with the Army, our USASMDC/ARSTRAT and JFCC IMD leadership 
team embraces the imperatives of Sexual Harassment/Assault Response and 
Prevention (SHARP). As stated by the Chief of Staff of the Army, sexual 
harassment and sexual assault violate everything the U.S. Army stands 
for, including our Army Values and Warrior Ethos. At USASMDC/ARSTRAT, I 
will continually assess the effectiveness of our SHARP efforts to 
ensure we are meeting the needs of our soldiers, civilians, and family 
members. Our workforce deserves nothing less.
                accomplishment of missile defense tasks
    USASMDC/ARSTRAT, a force provider for missile defense capabilities, 
is a split-based command with dispersed locations around the globe that 
are manned by multi-component soldiers, civilians, and contractors. 
Organizations around the world, including STRATCOM, NORTHCOM, and the 
GCCs leverage our capabilities. Our title 10 responsibilities include 
operations, planning, integration, control, and coordination of Army 
forces and capabilities in support of STRATCOM's missile defense 
mission. USASMDC/ARSTRAT also serves as the Army's global operational 
integrator for missile defense, the Army's proponent for global missile 
defense force modernization, and the Army's technical center lead to 
conduct air and missile defense related research and development in 
support of Army Title 10 responsibilities.
    Our operational function is to provide trained and ready missile 
defense forces and capabilities to the GCCs and the Warfighter which 
address today's requirements. For example, USASMDC/ARSTRAT soldiers, 
serving in the Homeland and in remote and austere forward deployed 
locations operate the Ground-Based Midcourse Defense (GMD) system and 
the Army-Navy/Transportable Radar Surveillance Forward-Based Mode (AN/
TPY-2 FBM) radars. A summary of the ongoing missile defense 
capabilities provided by our missile defense professionals is 
highlighted below.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Support to Global Ballistic Missile Defense (BMD):
    Soldiers from the 100th Missile Defense Brigade, headquartered in 
Colorado Springs, CO, and the 49th Missile Defense (MD) Battalion, 
headquartered at Fort Greely, AK, remain ready, 24/7/365, to defend our 
Nation and its territories from a limited intercontinental ballistic 
missile attack. Under the operational control of NORTHCOM, Army 
National Guard and Active component soldiers operate the GMD Fire 
Control Systems located at the Fire Direction Center in Alaska, the 
Missile Defense Element in Colorado, and the GMD Command Launch Element 
at Vandenberg Air Force Base, CA. These soldiers, in conjunction with 
JFCC IMD and NORTHCOM, also oversee the maintenance of GMD interceptors 
and ground system components. At the Fort Greely site, 49th MD 
Battalion military police secure the interceptors and communications 
capabilities at the Missile Defense Complex from physical threats. The 
GMD system remains our Nation's only defense against a limited ICBM 
attack.
Support to Regional Capabilities:
    The 100th Missile Defense Brigade also supports GCCs with AN/TPY-2 
FBM radar detachments and provides subject matter expertise on operator 
training and certification. These operational capabilities are present 
today at strategic locations around the globe.
GMD System Test and Development:
    In addition, soldiers from the 100th MD Brigade actively 
participate in GMD test activities and continue to work with MDA 
developers on future improvements to the GMD system.
Ballistic Missile Early Warning:
    In support of the Joint Force Commander's theater force protection, 
USASMDC/ARSTRAT continues to provide ballistic missile early warning 
within various theaters of operations. The 1st Space Brigade's Joint 
Tactical Ground Station (JTAGS) Detachments, under the operational 
control of STRATCOM's Joint Functional Component Command for Space, but 
operated by USASMDC/ARSTRAT space-professional Soldiers, monitor enemy 
missile launch activity and other infrared events. They provide 
essential information to members of the air, missile defense, and 
operational communities. Our JTAGS Detachments are globally forward, 
providing 24/7/365, dedicated, assured missile warning to STRATCOM and 
GCCs in support of deployed forces.
    Our second major task is to build and mature future missile defense 
forces--our capability development function. These are the missile 
defense capabilities we will provide tomorrow. A major component of our 
capability development function is to train Army soldiers on missile 
defense systems. During the past year, USASMDC/ARSTRAT trained over 350 
soldiers and recertified as an Army Learning Institution of Excellence 
for missile defense training.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Army uses established and emerging processes to document its 
missile defense needs and pursue Army and Joint validation of its 
requirements. As a recognized Army Center for Analysis, USASMDC/ARSTRAT 
conducts studies to determine how best to meet the Army's assigned 
missile defense responsibilities. With this information, we develop the 
Doctrine, Organization, Training, Materiel, Leadership and Education, 
Personnel, and Facilities domains to mitigate threats and 
vulnerabilities for MDA-developed GMD and AN/TPY-2 FBM missile defense 
systems. This disciplined approach helps to ensure limited resources 
are applied where Warfighter operational utility can be most 
effectively served.
    In our third major missile defense task, USASMDC/ARSTRAT provides 
critical technologies to address future needs that will enhance 
Warfighter effectiveness--our materiel development function. In 
USASMDC/ARSTRAT, our technology development function is primarily 
focused on space and high altitude. While MDA is the principal materiel 
developer for ballistic missile defense, USASMDC/ARSTRAT has a number 
of ongoing missile defense related materiel development efforts, to 
include ongoing research and development of an OSD sponsored 
conventional offensive strike capability to address ballistic missile 
threats. A brief summary of two of these research and development 
efforts, as well as an overview of an essential Army testing range, 
follows.
High Energy Laser Mobile Demonstrator:
    As we have repeatedly witnessed during conflicts in both Iraq and 
Afghanistan, insurgents pose serious dangers to U.S. forward operating 
bases by employing quick-attack, low-trajectory, rockets, artillery, 
and mortar (RAM) strikes. The technology objective of the High Energy 
Laser Mobile Demonstrator (HEL MD) is to demonstrate a solid-state 
laser weapon system that will serve as a complementary kinetic energy 
capability in countering RAM projectiles. This directed energy weapon 
system will also have a significant capability against unmanned aerial 
vehicles (UAV). An initial demonstration was recently completed against 
short-range mortars, UAVs, and UAV-mounted intelligence, surveillance, 
and reconnaissance sensors. This demonstration served as a risk 
reduction for future subsystem development and integration while 
advancing this technology effort to a 50 kilowatt demonstration in 
2017. The 50 kilowatt HEL MD will consist of a ruggedized and 
supportable high energy laser with subsystems installed on a tactical 
military vehicle to enhance the safety of deployed forces. The synergy 
of both directed and kinetic energy systems has the potential to 
enhance significantly our Homeland defense capabilities, particularly 
against cruise missile and indirect fire threats.
Low-Cost Target Development:
    The Army continues to pursue a technology effort to develop a suite 
of low cost targets for the Patriot testing program. The intent is to 
design threat-representative targets at a substantially reduced cost 
for short-range ballistic missile testing. Over the past year, using 
existing excess solid rocket motors, the Army realized significant 
savings within its operational testing account. The Army will continue 
to leverage technology advancements in order to realize less expensive 
targets that are representative of actual threats.
Missile Defense Testing:
    USASMDC/ARSTRAT operates the Ronald Reagan Ballistic Missile Test 
Site (RTS). RTS, located on the U.S. Army Garrison-Kwajalein Atoll in 
the Republic of the Marshall Islands, is critical to both offensive and 
defensive missile testing requirements, such as the GMD system and the 
U.S. Air Force strategic ballistic missile systems. In addition to 
their testing mission, personnel at the Reagan Test Site conduct 
continuous operational space surveillance and object identification 
missions.
  joint functional component command for integrated missile defense--
  synchronizing missile defense operational level planning and support
    The Joint Functional Component Command for Integrated Missile 
Defense (JFCC IMD) is STRATCOM's missile defense integrating element 
and has been operational for 9 years. Like the other Joint Functional 
Component Commands, JFCC IMD was formed to operationalize STRATCOM 
missions and allow the headquarters to focus on integration and 
advocacy. Headquartered at Schriever Air Force Base in Colorado 
Springs, Colorado, the JFCC IMD is manned by professional Army, Navy, 
Air Force, Marine Corps, civilian, and contractor personnel.
    As the Secretary of Defense and various combatant commanders have 
previously testified, the warfighter remains confident in our ability 
to protect the Nation against a limited ballistic missile attack, even 
in the face of the changing fiscal environment. We are actively engaged 
with MDA and the combatant commanders to optimize and execute the 
administration's plan to increase the number of ground-based 
interceptors (GBI) at Fort Greely from 26 to 40 and to deploy a second 
AN/TPY-2 FBM radar to Japan.
    We have collaborated with NORTHCOM, STRATCOM, and MDA to identify 
homeland interceptor sites that best meet operational requirements. The 
four sites recommended for Environmental Impact Statement analyses have 
been provided to this subcommittee. The operational contributions of a 
third interceptor site can vary based on the overall level of 
improvement to the strategic BMDS. Although MDA continues the planning 
work necessary to implement this measure, I recommend the priority of 
investment should be to programs that improve discrimination and 
tracking capabilities and overall GBI system reliability.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    On behalf of STRATCOM, JFCC IMD is working across the military 
enterprise to increase the integration of existing capabilities in 
order to maximize efficiency and effectiveness to protect the Homeland, 
our deployed forces, partners, and allies. The key force multiplier is 
``integration'', which is a critically important mission area for JFCC 
IMD and directly supports STRATCOM's assigned Unified Command Plan 
(UCP) responsibilities for missile defense.
    As an operational and functional component command of STRATCOM, 
JFCC IMD has derived five key mission tasks from the STRATCOM UCP 
responsibilities:

        <bullet> Synchronize operational level planning, integrate 
        security cooperation activities, and recommend allocation of 
        forces via the global force management process.
        <bullet> Conduct operations support and asset management for 
        missile defense forces and provide alternative execution 
        support.
        <bullet> Integrate Joint BMD training, exercises, and test 
        activities.
        <bullet> Advocate for future capabilities, conduct analysis and 
        assessments, and recommend the operational acceptance of 
        missile defense capabilities into the architecture.
        <bullet> Provide information system security and network 
        support to assure a reliable BMDS communications network.

    To accomplish each of these five mission tasks, we maintain close 
collaborative relationships with the GCCs, MDA, the Services, the 
Office of the Secretary of Defense (OSD), the Joint Staff, and our 
allies. Through collaborative processes, we continually add to our 
deployed capability while gaining operational experience and confidence 
in our collective ability to defend our Nation, deployed forces, 
partners, and allies. Following, I will highlight some of our 
collaborative efforts to enhance missile defense planning and 
capabilities for both the Homeland and regional architectures.
Expansion and Integration of the Missile Defense Architecture:
    In response to the changing strategic environment, the Secretary of 
Defense directed us to bolster homeland and regional missile defense 
capabilities. In addition to the previously deployed AN/TPY-2 FBM 
radars and deployment of the THAAD battery to Guam, we are finalizing 
the plan to deploy an additional FBM radar in the PACOM area of 
responsibility, and we are expanding our missile defense collaboration 
with allies. We are maturing the European Phased Adaptive Approach 
(PAA) with the forward deployment and stationing of Aegis BMD ships in 
Rota, Spain, developing the Aegis Ashore site in Romania, and 
continuing the production of the SM-3 IB interceptors. Given many of 
the challenges associated with implementation of these architectures, 
JFCC IMD, supporting STRATCOM as the global synchronizer for missile 
defense, is collaborating with the GCCs to assess and address the cross 
regional gaps in the areas of planning, policy, capabilities, and 
operations.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Global Assessment:
    As regional phased adaptive approaches mature, and with homeland 
defense at the forefront, JFCC IMD collaborates closely with the GCCs 
to assess the level of risk associated with the execution of their 
operational plans given their allocation of BMD capabilities. The 
overall assessment serves to shape recommendations for global force 
management and advocacy efforts for future capability investments. We 
have completed the 2013 Global IAMD Assessment and are currently 
conducting the 2014 assessment. For the 2013 assessment, we expanded 
the previous BMD-only assessment to look at integrating both air and 
missile defense assets to more accurately reflect the way we fight and 
the associated operational risks.
    With regard to regional threats, JFCC IMD assessments indicate that 
addressing missile defense threats will remain a challenge. Our 
research, supported by the 2013 Global Assessment, reinforces the fact 
that GCC demands for missile defense capabilities exceed the available 
BMD inventory. We must continue to address this mismatch using mobile 
and re-locatable missile defenses and a comprehensive force management 
process. We also possess a full spectrum of offensive and defensive 
capabilities to deter and defend against the ballistic missile threat.
Global Force Management:
    The increasing demand of BMD assets is managed by the Joint Staff 
and the Services. STRATCOM, as the designated Joint Functional Manager 
for missile defense, relies upon JFCC IMD to evaluate and recommend 
sourcing of BMD requirements based on assessed risk. Due to the high 
demand, low-density nature of missile defense assets, all sourcing 
decisions have a direct and significant impact to other combatant 
commanders' campaign and contingency plans. The Global Force Management 
process enables senior leaders to make more informed BMD sourcing 
decisions based on global risk.
Multi-Regional BMD Asset Management:
    JFCC IMD, in coordination with STRATCOM and the GCCs, manages the 
availability of missile defense assets to balance operational readiness 
postures, scheduled and unscheduled maintenance activities, and MDA and 
Services' test requirements. This important process allows us to 
continually assess our readiness to defend against a ballistic missile 
attack and to recommend adjustments to optimize the overall BMD 
architecture.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Training, Exercises, and War Games:
    JFCC IMD continues to focus on the integration of allies into 
regional missile defense architectures. We leverage training, 
exercises, and war games to increase dialogue and partnership. We are 
underway with Nimble Titan 14, our biannual multinational BMD war game. 
While budget constraints have caused us to reduce the scale for 
regional exercise from interactive war games to table-top exercises, we 
are still able to accomplish many of the stated objectives. For the 
first time, Nimble Titan 14 will include the participation of the 
Kingdom of Saudi Arabia, the United Arab Emirates, Turkey, Estonia, 
Norway, Sweden, and Finland. In addition to NATO, we anticipate over 20 
participating nations and a large number of international observers. 
Our campaign goals for this iteration of Nimble Titan will advance 
national policy objectives by helping mature NATO's new missile defense 
mission area; explore options for increased regional multilateral BMD 
cooperation; and openly work coalition BMD issues with Middle East 
nations. We continue to focus on cross-regional coordination, offense/
defense force integration, sensor integration, and multinational BMD 
planning solutions.
    The Nimble Titan war game is an invaluable medium to advance U.S. 
missile defense policy. The war game allows us to mature cooperative 
relationships with our allies and partners as well as advance our 
Nation's and combatant command's regional security objectives. This 
event is critical to developing a common understanding of policy 
hurdles associated with combined BMD architectures. Conclusions derived 
from training, exercises, and war games will continue to shape our 
recommendations on asset allocation, resources, and operational 
planning through the existing DOD and missile defense community 
management structures.
Joint BMD Training:
    In August 2012, the DOD designated STRATCOM as the lead for 
integrating and synchronizing Joint BMD training. This designation 
mandated the transfer of missile defense training resources and 
responsibilities from MDA to STRATCOM by the end of fiscal year 2013. 
JFCC IMD is executing this mission on behalf of STRATCOM and declared 
initial operating capability on October 1, 2013.
    In coordination with STRATCOM, the Joint Staff, combatant commands, 
and the Services, we have developed a comprehensive program of actions 
and milestones to achieve a full operating capability with the creation 
of a Joint BMD training center of excellence by the end of next fiscal 
year. The center of excellence will be located in Colorado Springs and 
will coordinate and synchronize all aspects of BMD training and 
education to further develop commanders, warfighters, and civilians 
engaged in BMD planning and operations. This approach builds upon 
existing capabilities and closes gaps between Service, Joint, and 
regional BMD training and education. As part of the center of 
excellence construct, our training capability will evolve into a 
``blended learning/higher education'' approach to improve efficiency 
and reduce the cost of providing Joint BMD training and education.
Warfighter Acceptance and Integrated Master Test Plan:
    As the missile defense architectures matures, operators call for a 
credible, comprehensive assessment of new capabilities to inform 
warfighter operational acceptance. In 2013, the DOD conducted a new 
regional operational test that assessed the integrated capability of 
Aegis BMD, AN/TPY-2 FBM, and THAAD. This first-of-its-kind test 
validated the THAAD's integrated regional capability against multiple 
threats in an operationally realistic environment. Our next operational 
test in fiscal year 2015 will build upon the success of the previous 
test. We plan to conduct an integrated test of key elements of EPAA 
Phase II, specifically the integrated capability in AN/TPY-2, Aegis 
BMD, and Aegis Ashore. Additionally, JFCC IMD is working closely with 
MDA, the Office of the Director, Operational Test and Evaluation, and 
NORTHCOM to address issues uncovered in recent GBI testing of both the 
CE-I and CE-II variants. Although the investigation into last year's 
CE-I flight test failure is not complete, the early indications provide 
assurance that technological remedies are being instituted for the GBI 
fleet. We will continue to partner with the MDA to ensure we maintain 
an annual test cadence to maintain warfigher confidence.
    In summary, JFCC IMD serves an integrating role for missile defense 
across multiple regions as we operationalize new capabilities, evolve 
command relationships, and reinforce our missile defense partnerships 
with allies. In view of worldwide events and current fiscal challenges, 
JFCC IMD remains focused on our key mission task to collaborate with 
the GCCs and MDA to posture our forces to meet current and future 
ballistic missile threats. Our missile defense capability continues to 
strengthen as Warfighters gain increased competence and confidence in 
the BMD System. While work remains to be done, we have made significant 
progress in evolving the global missile defense capabilities, thereby 
strengthening the defense of the homeland, and advancing our 
partnerships with allies in this pressing endeavor.
    army contributions to the nation's missile defense capabilities
    The Army is a close partner with the MDA in supporting its materiel 
development efforts. We continue to develop and field systems that are 
integral to our Nation's air and missile defense capabilities. A 
summary follows of the Army's major air and missile defense systems, 
aligned within the Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology organizational structure.
Army Integrated Air and Missile Defense (IAMD):
    Air and missile defense (AMD) is an enduring Army core function and 
an essential component of the Army mission to provide wide area 
security. To meet this mission, the 2012 Army AMD Strategy details a 
plan of action to develop a comprehensive portfolio of IAMD 
capabilities intended to provide protection against the expanding 
threat of ballistic and cruise missiles, unmanned aerial systems, and 
long-range, precision rocket, artillery, and mortar attacks.
    Within the AMD arena, the IAMD Battle Management Command System 
(IBCS) remains the Army's highest priority effort and serves at the 
foundation for Army AMD modernization. The program will field a common 
mission command system to all echelons of Army AMD forces to defend 
against rockets, artillery, and mortars; cruise missiles; manned and 
unmanned aircraft; air-to-ground missiles; and tactical ballistic 
missiles. IBCS provides a comprehensive solution for the AMD gap by 
coordinating air surveillance and fire control across Services and with 
coalition partners. During this past year, soldiers demonstrated 
incremental capabilities of IBCS. Additional efforts are underway to 
integrate IBCS and C2BMC to support the BMD mission.
Patriot/Patriot Advanced Capability-3 (PAC-3):
    Patriot/PAC-3 is the Army's premier weapon system against air and 
tactical ballistic missile threats. With the DOD decision to end U.S. 
participation in the Medium Extended Air Defense System program at 
completion of the design and development phase, the Army continues to 
make improvement investments to the Patriot system to support the AMD 
strategy. The aim is to increase reliability, drive down operational 
and sustainment costs, and remain viable well into the future. Seeing 
that about half of all Patriot units are currently deployed, 
operational tempo and stress remain high.
    A number of significant Patriot/PAC-3 capability enhancements have 
been accomplished over the past year. Among the accomplishments were 
the completion of the Army's planned upgrades to all 15 PAC-3 fire 
units, fielding of the 15th Patriot battalion, and continued successful 
operational flight tests of the next generation PAC-3 missile, the 
Missile Segment Enhancement (MSE). During recent successful testing, 
both tactical ballistic missiles and air breathing threats were 
simultaneously engaged. The Army conducted a successful Milestone C 
defense acquisition board and remains on track for delivery of the MSE 
to the Warfighter by the fourth quarter of 2015. Additionally, the 
Patriot radar received a new digital processor. Coupled with recent 
software upgrades, the new digital processor increases performance of 
the radar against evolving threats while dramatically improving 
reliability, availability, and maintainability.
Joint Land Attack Cruise Missile Defense Elevated Netted Sensor System 
        (JLENS):
    The JLENS system provides long-range, persistent, and elevated 
surveillance, detection, classification, identification, and fire 
control quality tracking of airborne objects such as cruise missiles, 
manned and unmanned aircraft, and large caliber rockets. The system has 
demonstrated the capability to track surface moving targets. In 
accordance with direction from OSD and the Joint Staff, the Army is 
scheduled to deploy the JLENS system to Aberdeen Proving Grounds, 
Maryland. With this deployment, the Army will initiate a 3-year 
operational exercise of how surveillance aerostats improve missile 
defense sensor capabilities.
Terminal High Altitude Area Defense System:
    THAAD, a key component of the BMDS architecture, is designed to 
defend deployed and allied forces, population centers, and critical 
infrastructure against short- and medium-range ballistic missiles. 
THAAD is a high demand, low-density asset. A fully operational THAAD 
battery consists of 95 soldiers, an AN/TPY-2 FBM radar, 6 launchers, a 
fire control and communications element, a battery support center, and 
a support element. THAAD has a unique capability to engage threats in 
both the endo- and exo-atmosphere using proven hit-to-kill lethality. 
There are now four activated THAAD batteries. Equipment training and 
fielding has been completed for two of the batteries. In April 2013, 
one of these batteries conducted the first ever operational deployment 
of THAAD in response to the escalation of tensions in the Pacific 
region. The third THAAD battery is currently undergoing training and 
will be operationally available next year; the fourth battery is 
scheduled to become fully operational the following year. The addition 
of THAAD capabilities to the Army's air and missile defense portfolio 
brings an unprecedented level of protection against missile attacks to 
deployed U.S. forces, partners, and allies.
                               conclusion
    Mr. Chairman and Ranking Member Sessions, as a member of the joint 
missile defense community, the Army will continue to pursue 
enhancements to the Nation's missile defense system. As a Service, the 
Army has lead responsibility for GMD, AN/TPY-2 FBM, Patriot, and THAAD. 
Our trained and ready soldiers operating GMD elements in Colorado, 
Alaska, and California remain on point to defend the Homeland against a 
limited intercontinental ballistic missile attack. As a force provider 
to the GCCs, our soldiers ensure essential regional sensor capabilities 
and ballistic missile early warning. STRATCOM, through the JFCC IMD, 
continues to integrate BMDS capabilities to counter global ballistic 
missile threats and protect our Nation, deployed forces, partners, and 
allies.
    While the operational, doctrine, and materiel development 
enhancements of the BMDS are essential, our most essential assets are 
the soldiers, sailors, airmen, marines, and civilians who develop, 
deploy, and operate our missile defense system. I appreciate having the 
opportunity to address missile defense matters and look forward to 
addressing any of your questions.
    Senator Udall. Thank you, General.
    Ms. Chaplain.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Udall, Ranking Member Sessions, 
Senators Donnelly and King: I'm pleased to be here today to 
discuss recent GAO findings on missile defense acquisitions. 
For the past 12 years, we've been mandated by Congress to 
assess MDA's progress in developing and delivering missile 
defense capabilities.
    Overall, MDA has accomplished a great deal since it was 
formed in 2002, developing and delivering a broad set of 
systems that provide important protection to our Nation and our 
allies. But several acquisition challenges have persisted since 
we began our reviews.
    First, in the face of time pressures, MDA has employed 
high-risk acquisition strategies that overlap overall 
development and production activities. While this practice has 
decreased over time, programs that began with highly concurrent 
strategies still face problems. For example, the recent failure 
during a test of the Aegis SM-3 Block 1B, just discussed, means 
that a component common to the 1B and the deployed 1A 
interceptor may need to be redesigned and flight tested. While 
the failure review is not yet complete, if a redesign is 
necessary, interceptors that were already produced may require 
retrofits. MDA continues to procure new 1B interceptors while 
it investigates the cause of the failure.
    Also, a July 2013 failure in the GMD system test means that 
MDA did not demonstrate the CE-1 kill vehicle could perform 
under more challenging conditions than previously tested, 
further delaying knowledge of the interceptor's performance 
capability.
    The GMD program has had many years of significant and 
costly disruptions caused by production getting well ahead of 
testing and then discovering issues during testing. 
Consequently, even though some assets have already been 
produced, MDA has had to add tests that were previously not 
planned and delay tests that are necessary to understand the 
system's capabilities and limitations.
    In the 12 years we've assessed MDA acquisitions, we've also 
reported that testing has been hampered by reliability and 
availability problems with targets, as well as optimistic 
planning. MDA has worked to mitigate these risks. This year we 
reported significant progress in testing, with the first 
system-level operational flight test in 2013 that Dr. Gilmore 
just described.
    A third area of challenges we have highlighted in the past 
decade is on reporting acquisition progress to Congress. Our 
recommendations have included making sure baselines and annual 
reports are complete, that they follow best practices, that 
they better explain variances, and that they be stabilized.
    For fiscal year 2013, MDA's cost and schedule reporting 
still lack the clarity, completeness, and quality necessary to 
track actual costs and schedule growth over time. For instance, 
baselines were still not supported by independent cost 
estimates, nor did they fully reflect operations and 
sustainment costs.
    In recent years, however, MDA has been devoting resources 
and attention to improving its baselines. For instance, we 
reported this year that MDA took steps to explain most of the 
significant cost and schedule changes both in the short- and 
long-term. MDA is also in the process of implementing new cost 
reporting standards based on best practices. As such, we 
anticipate significant improvements in our next review.
    Lastly, in a separate review this year we found MDA has 
enhanced management for deploying missile defense systems in 
Europe under the EPAA. Also, key EPAA programs, such as Aegis 
Ashore, are making good progress. However, the success of the 
EPAA policy hinges on the delivery and integration of an array 
of complex systems. Further, while the United States is 
generally meeting its commitments, some capabilities 
specifically needed to achieve greater levels of integration 
are not planned to be delivered as originally anticipated. 
Since integration is critical to achieving the capability 
desired in EPAA, we have recommended that MDA develop an 
integrated master schedule that pulls together the complex set 
of activities that need to be done. Such a schedule makes good 
sense whether we view EPAA as a policy or an acquisition 
program.
    This concludes my statement. I'm happy to answer any 
questions.
    [The prepared statement of Ms. Chaplain follows:]
               Prepared Statement by Cristina T. Chaplain
  missile defense: mixed progress in achieving acquisition goals and 
                        improving accountability
    Chairman Udall, Ranking Member Sessions, and members of the 
subcommittee: I am pleased to be here today to discuss the acquisition 
progress achieved and challenges that remain for the Department of 
Defense's (DOD) Missile Defense Agency (MDA). Since 2002, MDA has been 
charged with developing and fielding the Ballistic Missile Defense 
System (BMDS), which is expected to be capable of defending the United 
States, deployed troops, friends, and allies against ballistic missiles 
of all ranges and in all phases of flight. It has spent over $98 
billion to develop and deploy a diverse collection of land-, sea-, and 
space-based assets, and has requested an additional $38 billion for 
fiscal years 2014 through 2018 to continue its efforts. Since its 
inception, MDA has been operating in an environment of tight timeframes 
for delivering capabilities--first with a presidential directive in 
2002 to field a limited capability by 2004 and then with a presidential 
announcement in 2009 to deploy U.S. missile defense in Europe. Looking 
forward, it will also have to operate in an environment of budgetary 
constraints, which necessitate tough trade-off decisions. As a result, 
MDA will require additional steps to reduce acquisition risk to ensure 
it provides warfighters with systems whose performance and capability 
is understood, and which are delivered on time and on budget.
    This year, we continue to report that missile defense acquisitions 
are high risk. MDA has made tangible progress in increasing the 
complexity and sophistication of missile defense tests, enhancing plans 
and processes for deploying U.S. missile defense in Europe, and 
increasing the completeness and clarity of cost and schedule reporting 
to Congress. However, two key programs face challenges stemming from 
higher-risk acquisition strategies that overlap production activities 
and development activities; testing overall continues to provide less 
knowledge than initially planned and considerably more improvements are 
needed in both reporting to Congress and in planning for deployment of 
missile defense in Europe. Many of the challenges MDA faces are tied to 
the technical and integration risks that are inherent in the 
capabilities MDA is seeking to deliver, while others are tied to tight 
timeframes placed on MDA as well as changing demands. Nevertheless, MDA 
still has opportunities to take steps to reduce acquisition risk, 
increase transparency, and enhance oversight. MDA's new Director is 
focused on doing so, though it may take time for his efforts to affect 
the MDA's broad portfolio of acquisitions, particularly older programs 
that began without sound foundations for success.
    Since 2002, we have been mandated to prepare annual assessments of 
MDA's progress toward its acquisition goals.\1\ Our report in response 
to this mandate was issued on Tuesday, April 1, 2014.\2\ This testimony 
highlights the findings from that report as well as relevant findings 
from other recent related reports.\3\ To assess MDA's progress and 
related challenges, we examined the acquisition accomplishments of 
individual missile defense programs and supporting efforts that MDA is 
currently developing and fielding. We conducted this work in accordance 
with generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives. Additional information on our scope and 
methodology is available in our issued reports.
---------------------------------------------------------------------------
    \1\ National Defense Authorization Act for Fiscal Year 2012, Pub. 
L. No. 112-81, Sec. 232 (2011) mandated our most recent report. Our 
reports include references to all prior legislation that mandated our 
work.
    \2\ GAO, Missile Defense: Mixed Progress in Achieving Acquisition 
Goals and Improving Accountability, GAO-14-351 (Washington, DC: April. 
1, 2014).
    \3\ GAO, Missile Defense: Precision Tracking Space System 
Evaluation of Alternatives, GAO-13-747R (Washington, DC: July 25, 
2013); and Regional Missile Defense: DOD's Report Provided Limited 
Information; Assessment of Acquisition Risks is Optimistic, GAO-14-248R 
(Washington, DC: Mar. 14, 2014). Currently, our work on Homeland 
Ballistic Missile Defense is ongoing.
---------------------------------------------------------------------------
                               background
    MDA's BMDS is being designed to counter ballistic missiles of all 
ranges--short, medium, intermediate, and intercontinental. Because 
ballistic missiles have different ranges, speeds, sizes, and 
performance characteristics, MDA is developing multiple systems that, 
when integrated, provide multiple opportunities to destroy ballistic 
missiles in flight for the strategic defense of the United States and 
regional defense of its deployed forces and allies. The BMDS 
architecture includes space-based sensors, ground- and sea-based 
radars, ground- and sea-based interceptor missiles, and a command and 
control, battle management, and communications system to provide the 
warfighter with the necessary communication links to the sensors and 
interceptor missiles.
    Table 1 provides a brief description of some of the BMDS systems, 
which MDA refers to as elements, and programs included in this year's 
assessment. More details can be found in our report.\4\
---------------------------------------------------------------------------
    \4\ GAO-14-351

    Table 1: Description of Selected Ballistic Missile Defense System
                          Elements and Programs
------------------------------------------------------------------------
                                                 Description and key
           BMDS element/program                      components
------------------------------------------------------------------------
Aegis Ballistic Missile Aegis Defense       Aegis BMD is a sea-based
 (BMD) with Standard Missile-3 (SM-3)        system developed to defend
 Block IB.                                   against short-, medium-,
                                             and intermediate-range
                                             ballistic missiles in the
                                             middle part of their
                                             flight. MDA is developing
                                             several versions of
                                             missiles and associated
                                             ship-based software and
                                             processors. The SM-3 Block
                                             IB features additional
                                             capabilities over the
                                             previous SM-3 version to
                                             identify, discriminate, and
                                             track objects during
                                             flight. All sea-based Aegis
                                             BMD systems also include a
                                             shipboard radar and command
                                             and control systems.
Aegis Ashore..............................  A land-based, or ashore,
                                             version of Aegis BMD
                                             initially using SM-3 Block
                                             IB missiles with plans to
                                             use various versions of SM-
                                             3 missiles and Aegis weapon
                                             system software as they
                                             become available.
Command, Control, Battle Management, and    C2BMC is a globally deployed
 Communications (C2BMC).                     system that links and
                                             integrates individual
                                             missile defense elements.
                                             It also allows users to
                                             plan ballistic missile
                                             defense operations, see the
                                             battle develop, and manage
                                             networked sensors.
Ground-based Midcourse Defense (GMD)        The GMD program is a ground-
 System.                                     based defense system
                                             designed to defend the
                                             United States against a
                                             limited intermediate and
                                             intercontinental ballistic
                                             missile attack in the
                                             middle part of their
                                             flight. Key components
                                             include a ground-based
                                             interceptor consisting of a
                                             booster with a kill vehicle
                                             on top, as well as a
                                             communication system and a
                                             fire control capability.
                                             There are currently two
                                             versions of the kill
                                             vehicle: the initial design
                                             known as the Capability
                                             Enhancement-I (CE-I) and
                                             the upgraded design known
                                             as the Capability
                                             Enhancement-II (CE-II).
Targets and Countermeasures...............  MDA develops and
                                             manufactures highly complex
                                             targets that represent
                                             realistic threat scenarios
                                             during BMDS flight tests to
                                             aid other BMDS elements'
                                             developmental efforts. MDA
                                             develops and manufactures a
                                             variety of targets
                                             including short-, medium-,
                                             intermediate-, and
                                             eventually intercontinental
                                             ranges.
Terminal High Altitude Area Defense         THAAD is a mobile, ground-
 (THAAD).                                    based missile defense
                                             system designed to defend
                                             against short- and medium-
                                             range ballistic missiles in
                                             the late-middle and end of
                                             their flight. THAAD is
                                             organized as a battery,
                                             which includes
                                             interceptors, launchers, a
                                             radar, a fire control and
                                             communications system, and
                                             other support equipment.
------------------------------------------------------------------------
Source: GAO analysis of MDA data.

    When MDA was established in 2002, the Secretary of Defense granted 
it exceptional flexibility to set requirements and manage the 
acquisition of the BMDS in order to quickly deliver protection against 
ballistic missiles. This decision enabled MDA to rapidly deliver 
assets, but we have reported that it has come at the expense of 
transparency and accountability.\5\ Examples of key problems we have 
cited in reports in recent years and which continue to affect MDA's 
acquisitions are highlighted below.
---------------------------------------------------------------------------
    \5\ GAO, Missile Defense: Opportunity Exists to Strengthen 
Acquisitions by Reducing Concurrency, GAO-12-486 (Washington, DC: Apr. 
20, 2012); Missile Defense: Actions Needed to Improve Transparency and 
Accountability, GAO-11-372 (Washington, DC: Mar. 24, 2011).

        <bullet> MDA's highly concurrent acquisition approach has led 
        to significant cost growth, schedule delays, and in some cases, 
        performance shortfalls. Concurrency is broadly defined as the 
        overlap between technology development and product development 
        or between product development and production. While some 
        concurrency is understandable, committing to product 
        development before requirements are understood and technologies 
        are mature or committing to production and fielding before 
        development is complete is a high-risk strategy that often 
        results in performance shortfalls, unexpected cost increases, 
        schedule delays, and test problems. At the very least, a highly 
        concurrent strategy forces decisionmakers to make key decisions 
        without adequate information about the weapon's demonstrated 
        operational effectiveness, reliability, and readiness for 
        production.\6\ According to MDA officials, they have taken some 
        steps to identify and track concurrency in their programs. 
        However, high levels of concurrency adopted earlier for some 
        programs persist today.
---------------------------------------------------------------------------
    \6\ GAO, Missile Defense: Opportunity to Refocus on Strengthening 
Acquisition Management, GAO-13-432 (Washington, DC: Apr 26, 2013) and 
GAO-12-486.
---------------------------------------------------------------------------
        <bullet> Testing disruptions have reduced the knowledge planned 
        to be available to inform acquisition decisions and understand 
        performance. For example, flight test failures disrupted MDA's 
        acquisitions of several components and forced MDA to suspend or 
        slow production of three out of four interceptors, including 
        the GMD interceptor and the Aegis BMD Standard Missile-3 Block 
        IB (SM-3 Bock IB).\7\ In the Ground-based Midcourse Defense 
        (GMD) case, because MDA moved forward years ago with CE-I and 
        CE-II interceptor production before completing its flight 
        testing program, test failures have exacerbated disruptions to 
        the program. Specifically, because the program has delivered 
        approximately three-fourths of the interceptors for fielding, 
        it faces difficult and costly decisions on how it will 
        implement corrections from prior test failures. Additionally, 
        after fielding these assets, the program has had to add tests 
        that were previously not planned, in order to assess the extent 
        to which prior issues were resolved. It also had to delay tests 
        that were needed to understand the system's capabilities and 
        limitations.
---------------------------------------------------------------------------
    \7\ GAO-12-486
---------------------------------------------------------------------------
        <bullet> MDA has been challenged to meet some of its goals for 
        the European Phased Adaptive Approach (EPAA). During the past 
        several years, MDA has been responding to a mandate from the 
        President to develop and deploy new missile defense systems in 
        Europe. This four-phase effort was designed to rely on 
        increasingly capable missiles, sensors, and command and control 
        systems to defend Europe and the United States. Each successive 
        phase is expected to defend larger areas against more numerous 
        and more capable threat missiles. DOD delivered the first 
        phase, for short and medium range defense of Europe, in 
        December 2011, and has been making progress in developing some 
        systems to support future phases. However, in March 2013, the 
        Secretary of Defense canceled two programs, planned for the 
        fourth phase, thus eliminating the fourth phase, which was 
        intended to provide additional layer for defense of the United 
        States against intercontinental ballistic missiles. The 
        cancelations were driven in part by affordability concerns, 
        schedule delays and technical risks associated with these 
        programs.\8\ Our previous work found similar issues with other 
        EPAA efforts.\9\ We also found that MDA has lacked a 
        comprehensive management approach to synchronize key EPAA 
        activities.\10\
---------------------------------------------------------------------------
    \8\ The two programs canceled in fiscal year 2013 were the Standard 
Missile-3 Block IIB (SM-3 Block IIB) and Precision Tracking Space 
System (PTSS).
    \9\ GAO-11-372, GAO12-486, and GAO-13-432.
    \10\ GAO, Missile Defense: European Phased Adaptive Approach 
Acquisitions Face Synchronization, Transparency, and Accountability 
Challenges, GAO-11-179R (Washington, DC: Dec 21, 2010), and Ballistic 
Missile Defense: DOD Needs to Address Planning and Implementation 
Challenges for Future Capabilities in Europe, GAO-11-220 (Washington, 
DC: Jan.26, 2011).
---------------------------------------------------------------------------
        <bullet> Finally, MDA's acquisition baseline reporting has 
        provided limited insight into the cost and schedule progress of 
        the BMDS. Due to the acquisition flexibilities it has been 
        granted, BMDS's entrance into DOD's acquisition process is 
        deferred, and laws and policies that generally require major 
        defense acquisition programs to take certain steps at certain 
        phases in the acquisition process will not apply until the 
        program enters this process. For example, major defense 
        acquisition programs are generally required to document key 
        performance, cost, and schedule goals in an acquisition 
        baseline at certain phases in the acquisition process; because 
        BMDS has not progressed through threshold phases of the DOD 
        acquisition process, this requirement is not yet 
        applicable.\11\ To improve the transparency and accountability 
        of BMDS development efforts, Congress has enacted legislation 
        requiring MDA to establish some baselines.\12\ MDA reported 
        baselines for several BMDS programs to Congress for the first 
        time in its June 2010 BMDS Accountability Report (BAR). 
        Specifically, MDA's baselines, including resource and schedule 
        baselines, are reported in the BAR and are updated annually. 
        Since 2011, although progress has been made to improve the 
        reporting, we have found issues affecting the usefulness of 
        MDA's acquisition baselines for oversight due to (1) a lack of 
        clarity, consistency, and completeness; (2) a lack of high-
        quality supporting cost estimates and schedules; and (3) 
        instability in the content of the baselines.\13\
---------------------------------------------------------------------------
    \11\ 10 U.S.C. Sec. 2435 requires an approved program baseline 
description for major defense acquisition programs before the program 
enters system development and demonstration (now known as engineering 
and manufacturing development), production and deployment, and full-
rate production. The BMDS program meets the definition of a major 
defense acquisition program, which is defined in 10 U.S.C. Sec. 2430 
and implemented by DOD in its acquisition policy.
    \12\ Pub. L. No. 112-81, Sec. 231(a)(2011) (codified as amended at 
10 U.S.C. Sec. 225) requires MDA to establish and maintain baselines 
for certain elements or major portions of elements prior to the product 
development phase (or its equivalent) and prior to production and 
deployment, and report these to the congressional defense committees 
annually. See also, e.g., Pub. L. No. 110-181, Sec. 223(g), repealed by 
Pub. L. No. 112-81, Sec. 231(b)
    \13\ GAO, Schedule Best Practices Provide Opportunity to Enhance 
Missile Defense Agency Accountability and Program Execution, GAO-12-
720R (Washington, DC: Jul 19, 2012), GAO-14-351, GAO-13-432, GAO-11-
372.

    Our work has recommended a number of actions that can be taken to 
address the problems we identified. Generally, we have recommended that 
DOD reduce concurrency and more closely follow knowledge based 
acquisition practices. We also made recommendations designed to reduce 
testing risk, and to improve schedule and cost reporting. DOD has 
generally concurred with our recommendations, and has undertaken some 
actions to reduce acquisition risk, and improve accountability and 
transparency.
   mda made progress on testing and further improved some management 
                               practices
    This year we found that MDA gained important knowledge about the 
BMDS system-level performance and individual elements by successfully 
executing several flight tests. We also found that MDA further improved 
some of its acquisition practices for managing the European Phased 
Adaptive Approach (EPAA) and improved the clarity of its resource and 
schedule baselines.
Progress: MDA Demonstrates BMDS Capability Through Testing
    In April 2014, we reported that MDA made progress in demonstrating 
the systems' capabilities by conducting the first system-level 
operational flight test in September 2013.\14\ This is a significant 
achievement because it is the first time that MDA conducted an 
operational flight test that involved multiple elements working 
simultaneously. The test involved warfighters from several combatant 
commands, and according to independent testing officials, recreated a 
potentially realistic scenario. During this test, MDA launched two 
medium-range ballistic missile targets, including its newly developed 
air-launched extended medium-range ballistic missile (eMRBM). Both the 
Aegis SM-3 Block IA and THAAD successfully intercepted their targets, 
demonstrating progress towards achieving an integrated BMDS. In 
addition, the Aegis BMD SM-3 Block IB and GMD programs successfully 
conducted developmental flight tests in 2013 that demonstrated key 
capabilities and modifications made to resolve prior issues. 
Specifically, the Aegis BMD SM-3 Block IB intercepted all targets in 
its last three flight tests. GMD also successfully conducted a non-
intercept flight test of its CE-II interceptor, demonstrating the 
performance of a guidance component that MDA redesigned in response to 
a December 2010 flight test failure.
---------------------------------------------------------------------------
    \14\ GAO-14-351
---------------------------------------------------------------------------
Progress: EPAA Acquisition Management Improves
    We also found that DOD improved the acquisition management of 
EPAA.\15\ In our first report on the subject in 2010, we assessed 
progress of EPAA acquisition planning against six key acquisition 
principles that synchronize acquisition activities and ensure 
accountability.\16\ We found that DOD has established testing and 
acquisition plans for technology development and engineering, and had 
begun work on identifying key stakeholders. This year, we found 
improvements in these areas. For example, DOD completed identifying 
EPAA stakeholders and in 2012 issued a directive updating the 
warfighter role in testing and capability acceptance.
---------------------------------------------------------------------------
    \15\ GAO-14-248R
    \16\ GAO-11-17R
---------------------------------------------------------------------------
    Lastly, in April 2014, we found that MDA continued to improve the 
clarity of its resource and schedule baselines, which are reported to 
Congress in its annual acquisition report called the BAR.\17\ In its 
2013 BAR, MDA continued to incorporate useful changes it made last 
year, and took some additional actions to improve the completeness and 
clarity of the BAR baselines by:
---------------------------------------------------------------------------
    \17\ GAO-14-351

        <bullet> identifying the date of the initial baseline and, if 
        applicable, the date when the initial baseline was most 
        recently revised;
        <bullet> explaining most of the significant cost and schedule 
        changes from the current baseline estimates against both the 
        estimates reported in the prior year's BAR and the latest 
        initial baseline; and
        <bullet> making the baselines easier to read by removing 
        cluttered formatting such as strikethroughs and highlights that 
        made some of the events listed in past BARs unreadable.
        mda continues to face testing and acquisition challenges
    Although MDA has taken some steps to improve its acquisitions, the 
agency continues to face several challenges that we have found in 
previous reviews. Specifically, it faces challenges stemming from high-
risk acquisition practices, as well as challenges in BMDS testing, 
managing the development of EPAA capabilities, and reporting resource 
and schedule baselines that support oversight. Until MDA addresses 
these challenges, the agency and decisionmakers may not obtain the 
information needed to assess the capabilities of the BMDS or make 
informed acquisition and investment decisions.
Challenge: Implementing Higher Risk Acquisition Programs
    While MDA has gained important insights through testing and taken 
some steps to improve management and increase transparency, it still 
faces challenges stemming from higher-risk acquisition strategies that 
overlap production activities with development activities. While some 
concurrency is understandable, committing to production and fielding 
before development is complete often results in performance shortfalls, 
unexpected cost increases, schedule delays, and test problems. It can 
also create pressure to keep producing to avoid work stoppages. Our 
April 2014 report found that Aegis BMD SM-3 Block IB and GMD, which 
have already produced some of their assets before completing testing, 
discovered issues during testing that could affect or have affected 
production.\18\ Although both programs demonstrated progress in 
resolving previous issues, some of which stemmed from their concurrent 
acquisition strategies, testing revealed new issues. Specifically:
---------------------------------------------------------------------------
    \18\ GAO-14-351

        <bullet> An interceptor failure during a September 2013 test of 
        Aegis BMD SM-3 Block IB means that a key component, common to 
        the deployed SM-3 Block IA, may need to be redesigned and 
        flight tested. While the failure review is not yet complete, if 
        a redesign is necessary, interceptors that were already 
        produced may require retrofits. MDA continues to procure new 
        SM-3 Block IBs while it investigates the cause of the failure.
        <bullet> A GMD CE-I interceptor failure in a July 2013 flight 
        means that MDA did not demonstrate the interceptor could 
        perform under more challenging conditions than previously 
        tested, further delaying knowledge of the interceptors 
        performance capability. Additionally, the failure precluded 
        confirmation that previous design changes improved performance, 
        and delayed the upcoming test needed to resume production of 
        CE-II interceptors. According to program officials, the failure 
        review is not complete, but the failure could have been caused 
        by a component common to both the CE-I and CE-II interceptors. 
        It is still unclear what, if any, corrective action will be 
        needed. The GMD program has had many years of significant and 
        costly disruptions caused by production getting well ahead of 
        testing and then discovering issues during testing. 
        Consequently, even though some assets have already been 
        produced, MDA has had to add tests that were previously not 
        planned and delay tests that are necessary to understand the 
        system's capabilities and limitations. Additionally, since it 
        has delivered approximately three-fourths of its interceptors, 
        MDA faces difficult and costly decisions on how it will 
        implement corrections from prior test failures. As a result of 
        these development challenges, the GMD program will likely 
        continue to experience delays, disruptions, and cost growth.

    We made recommendations to address the ongoing issues with both 
systems in our April 2014 report.\19\ First, we recommended that the 
Secretary of Defense direct MDA's Director to flight test any 
modifications that may be required to the Aegis SM-3 Block IB, before 
the Under Secretary of Defense, Acquisitions, Technology, & Logistics 
approves full production allowing the program to manufacture the 
remaining interceptors. Second, we also recommended testing the fielded 
GMD CE-I interceptor in order to complete the original purpose of the 
failed test to (1) demonstrate the CE-I's effectiveness against a 
longer range threat in more challenging conditions, and (2) confirm the 
effectiveness of previous upgrades as well as (3) confirm any new 
modifications to address the failure work as intended. DOD partially 
concurred with the recommendation on the Aegis SM-3 Block IB, stating 
that MDA will verify the efficacy of any modifications by testing and 
that the full production decision will be vetted through the DOD 
process. DOD did not agree with the recommendation on GMD, stating that 
the decision to flight test the interceptor will be made by the 
Director, MDA, based on the judgment of other stakeholders.
---------------------------------------------------------------------------
    \19\ GAO-14-351
---------------------------------------------------------------------------
Challenge: Gaining Expected Knowledge From Testing
    In this year's reports, we found that testing has provided less 
knowledge than initially planned.\20\ While MDA accomplished some 
testing goals, it experienced testing shortfalls, including failures of 
Aegis and GMD interceptors I mentioned above. The agency also combined, 
delayed, and deleted some tests, and eliminated test objectives in 
others. These changes reduced the knowledge expected to be available to 
understand the capabilities and limitations of the BMDS. Examples of 
key testing problems we cited in this year's reports are:
---------------------------------------------------------------------------
    \20\ GAO-14-351 and GAO-14-284R

        <bullet> Operational Integration--Although the September 2013 
        operational flight test demonstrated layered defense between 
        Aegis BMD and THAAD, the Director, Operational Test and 
        Evaluation concluded that the test did not achieve true 
        integration. Specifically there were system network issues, 
        interoperability limitations, and component failures. For 
        example, the test uncovered several issues with communication 
        networks that are needed for interoperability between the 
        elements. Interoperability is important because it can improve 
        missile defense effectiveness and mitigate some limitations of 
        the systems working alone.
        <bullet> Test plan revisions continue to reduce the knowledge 
        planned to be available to understand BMDS performance and 
        inform acquisition decisions. In our March 2014 and April 2014 
        reports, we found that MDA combined, delayed, and deleted some 
        tests, and eliminated test objectives in others. For example, 
        MDA had to make some adjustments to its September 2013 
        operational flight test, reducing the number of targets from 
        five to two and removing the participation of more mature 
        elements. The agency also reduced the number of ground tests, 
        which are used to assess performance and interoperability. 
        While MDA added other ground tests to mitigate some effects of 
        this reduction, they are smaller in scope and may not provide 
        the same amount of data about how the systems work together.

    Previously GAO has made recommendations to improve MDA's ability to 
gather expected knowledge from testing. For example, we recommended 
that MDA add non-intercept tests for new targets and ensure that its 
test plan can absorb unforeseen events, like failures, in order to 
minimize disruptions to the test schedule.\21\ We also recommended that 
MDA synchronize its testing with development and delivery schedules for 
its assets.\22\ MDA generally concurred with our recommendations, but 
has not fully implemented them.
---------------------------------------------------------------------------
    \21\ GAO-13-432 and GAO-11-372
    \22\ GAO, Defense Acquisitions: Production and Fielding of Missile 
Defense Components Continue with Less Testing and Validation Than 
Planned, GAO-09-338 (Washington, DC: Mar 13, 2009).
---------------------------------------------------------------------------
Challenge: Managing Development and Deployment of U.S. Missile Defense 
        in Europe
    In March 2014, we found that while MDA made further improvements to 
the way it manages EPAA, it has yet to develop or implement a complete 
management strategy for synchronizing these efforts.\23\ Specifically, 
MDA has not established an integrated schedule and has yet to 
completely define EPAA requirements. As a result, it remains unclear 
how different EPAA efforts are aligned together and what constitutes 
success in delivering EPAA capabilities. Considering that defensive 
capability planned for EPAA increasingly depends on integrated 
performance of the participating systems, an acquisition approach that 
identifies and synchronizes all needed activities becomes increasingly 
important. While flexibility is a hallmark of the EPAA policy, it also 
increases the risk of delivering less capability than expected without 
demonstrating the actual performance of what is delivered.
---------------------------------------------------------------------------
    \23\ GAO-14-284R
---------------------------------------------------------------------------
    In fact, our March 2014 report found concurrency, fragmentation of 
development activities, and delays for some originally planned 
capabilities. For example, we found that some systems may be delivered 
later than originally anticipated for integration activities. This 
reduces the time to discover and correct issues. We also found schedule 
delays that reduced both the capability MDA plans to deliver and the 
understanding of how that capability will perform. For example, 
although MDA delivered the first set of capability in December 2011, an 
upgrade originally planned for 2014, is now expected in 2015. 
Additionally, we found that MDA split the delivery of capability it 
initially planned to deliver in 2015 into two segments. It now plans to 
deliver what it calls ``basic'' or ``core'' capability in 2015 and the 
remainder in 2017. Similarly, MDA also realigned its plans for the 
capability it initially planned for 2018 into two segments--designating 
a subset of originally planned capability to be delivered in 2018, with 
the remainder in 2020 or later. Finally, MDA postponed its plans to 
conduct a formal system-level end-to-end assessment of EPAA 
capabilities because of concerns with data reliability associated with 
such tests. MDA is currently making investments to develop the tools it 
needs to improve the reliability of their system-level assessments, but 
they are expected to be ready after two-thirds of EPAA capabilities 
have been delivered.
    We have previously made recommendations to improve management of 
EPAA, which are highlighted in this year's report.\24\ Although DOD 
generally concurred with these recommendations, it has not yet fully 
implemented them.
---------------------------------------------------------------------------
    \24\ GAO-14-284R
---------------------------------------------------------------------------
Challenge: Reporting Resource and Schedule Baselines that Support 
        Oversight
    Although we found in March 2014 that MDA took some additional steps 
to improve the clarity of its resource and schedule baselines, this was 
the fourth year that we have found MDA's resource baselines are not 
sufficiently reliable to support oversight.\25\ Additionally, issues 
with the content and presentation of the schedule baselines continue to 
limit the usefulness of the information for decisionmakers. According 
to agency officials, MDA is taking steps to improve the reliability of 
their resource baselines, however, until MDA completes these efforts, 
its baselines will not be useful for decisionmakers to gauge progress.
---------------------------------------------------------------------------
    \25\ GAO-14-351
---------------------------------------------------------------------------
    Since MDA first reported baselines in June 2010, we have found that 
the underlying information supporting its resource baselines does not 
meet best practice standards for high-quality cost estimates.\26\ MDA's 
resource baselines reported in its 2013 BAR remain unreliable because 
the agency is still in the process of improving the quality of the cost 
estimates that support its baselines. For example,
---------------------------------------------------------------------------
    \26\ GAO, GAO Cost Estimating and Assessment Guide, GAO-09-3SP 
(Washington, DC: March 2009).

        <bullet> MDA has not fully implemented its cost estimating 
        handbook. In April 2013, we reported that, in June 2012, MDA 
        completed an internal Cost Estimating Handbook, largely based 
        on GAO's Cost Estimating and Assessment Guide which, if 
        implemented, could help address nearly all the shortfalls we 
        identified. According to MDA officials, the agency is still in 
        the process of applying that handbook to its cost estimates and 
        therefore revised estimates for BMDS elements included in the 
        2013 BAR were not ready for our review.
        <bullet> MDA has not obtained independent cost estimates of the 
        reported baselines. Officials from DOD's Office of the Director 
        for Cost Assessment and Program Evaluation told us that 
        although they examined costs for some BMDS elements over the 
        last 2 years, they have not completed a formal independent cost 
        estimate for a BMDS element since 2010.\27\
---------------------------------------------------------------------------
    \27\ A formal independent cost estimate would be conducted or 
approved by DOD's Office of the Director for Cost Assessment and 
Program Evaluation. It would be an independent cost estimate of the 
full life-cycle cost of the program and would include all costs of 
development, procurement, military construction, and operations and 
support.
---------------------------------------------------------------------------
        <bullet> MDA's cost estimates reported in the 2013 BAR do not 
        include operation and support costs funded by individual 
        Military Services. In April 2013, we found that MDA was not 
        reporting the operation and support costs borne by other 
        Military Services and concluded that as a result MDA's reported 
        costs may significantly understate the full costs for some BMDS 
        elements. We recommended MDA include these costs in its 
        resource baselines reported in the BAR.\28\ DOD agreed that 
        decisionmakers should have insight into the full costs of DOD 
        programs, but the department stated that the BAR should only 
        include content for which MDA is responsible. However, limiting 
        the baseline reporting to only MDA costs precludes 
        decisionmakers from having insight into all the costs 
        associated with MDA's weapons systems. We continue to believe 
        that reporting these costs would aid both departmental and 
        congressional decisionmakers as they make difficult choices of 
        where to invest limited resources.DOD does not currently report 
        the full costs for MDA's missile defense acquisitions.
---------------------------------------------------------------------------
    \28\ Our previous and ongoing work notes the importance of 
including the long-term costs associated with operations and support in 
cost estimates for BMDS weapons systems (for example see GAO-11-372).

    In the National Defense Authorization Act for Fiscal Year 2014, 
Congress took steps to address concerns over MDA's cost estimates.\29\ 
As a result, we did not make any new recommendations regarding cost 
this year. However, we plan to continue to monitor MDA's progress 
because establishing high-quality cost estimates that are accurate, 
credible, and complete is fundamental to creating realistic resource 
baselines.
---------------------------------------------------------------------------
    \29\ Pub. L. No. 113-66, Sec. 231.
---------------------------------------------------------------------------
    In April 2014, we also found that assessing MDA's progress in 
achieving its schedule goals is difficult because MDA's 2013 schedule 
baselines are not presented in a way that allows decisionmakers to 
understand or easily monitor progress.\30\ For instance, MDA's schedule 
baselines identify numerous events, but provide little information on 
the events and why they are important. In addition, MDA's schedule 
baselines do not present any comparisons of event dates. Because MDA's 
schedule baselines only present current event dates, decisionmakers do 
not have the ability to see if and how these dates have changed.
---------------------------------------------------------------------------
    \30\ GAO-14-351
---------------------------------------------------------------------------
    We recommended that the Secretary of Defense direct the MDA 
Director to improve the content of the schedule baselines by 
highlighting critical events, explaining what these events entail and 
why they are important, and by presenting information in a format that 
allows identification of changes from the previous BAR as well as from 
the initial baseline. DOD concurred with our recommendation.
    This concludes my statement, I am happy to answer any questions you 
have.
                 gao contact and staff acknowledgments
    For future questions about this statement, please contact me at 
(202) 512-4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f7949f96879b969e9994b7909698d9909881d9">[email&#160;protected]</a> Contact points for our Offices of 
Congressional Relations and Public Affairs may be found on the last 
page of this statement. Individuals making key contributions to the 
work this statement is based on include David B. Best and Patricia 
Lentini, assistant Directors; Susan C. Ditto; Aryn Ehlow; Wiktor 
Niewiadomski; John H. Pendleton; Karen Richey; Brian T. Smith; Jennifer 
Spence; Steven Stern; Robert Swierczek; Jay Tallon; Brian Tittle; and 
Hai V. Tran; Alyssa Weir; and Gwyneth B. Woolwine.

    Senator Udall. Thank you, Ms. Chaplain.
    Let me start. I think we'll do 7-minute rounds.
    We've not had a successful intercept test with the GMD 
system since 2008, as has been acknowledged. But we have had a 
series of test failures with both the early and most recent 
model of deployed kill vehicles. Admiral Syring, you've said 
your highest near-term priority is to return to a successful 
intercept test this summer to demonstrate corrections to the 
system.
    I want to ask if each of our witnesses agrees that it is 
our essential near-term priority to fix the problems we have 
encountered with our current kill vehicles and to demonstrate 
those fixes in realistic intercept testing before we build or 
deploy any additional interceptors. I assume these are yes or 
no answers, but I'll start with Ms. Bunn and move across.
    Ms. Bunn. Yes, sir.
    Senator Udall. Dr. Gilmore?
    Mr. Gilmore. I agree.
    Senator Udall. Admiral, I think you agree.
    Admiral Syring. Yes, sir. I'll keep it to two words: Yes, 
sir.
    Senator Udall. General Mann?
    General Mann. Yes, sir.
    Senator Udall. Ms. Chaplain?
    Ms. Chaplain. Yes.
    Senator Udall. Using that same approach, let me turn to 
acquisition rigor for redesign of the GMD kill vehicle. Given 
the numerous problems we've encountered with our current GMD 
kill vehicles, the budget includes funds to start a redesigned 
kill vehicle for the GMD system, one that will be reliable, 
robust, producible, and other attributes that are lacking in 
the current kill vehicles because we did not follow rigorous 
design, engineering, and acquisition practices.
    I want to ask each of our witnesses if they agree that in 
order to avoid repeating the kill vehicle problems we had with 
the previous rush to failure approach, we need to follow a very 
rigorous acquisition approach to the redesigned kill vehicle, 
an approach that includes robust design, engineering, 
development, testing, and demonstration of a kill vehicle 
before we deploy it.
    Could I ask if you agree to that as well? Ms. Bunn?
    Ms. Bunn. Yes, Mr. Chairman. Could I add one thing?
    Senator Udall. Please, yes.
    Ms. Bunn. I think we have the right man to add that rigor 
to the acquisition process.
    Senator Udall. Thank you for that.
    Dr. Gilmore.
    Mr. Gilmore. I view that as essential.
    Senator Udall. Admiral?
    Admiral Syring. Absolutely critical. We have one chance to 
get this right.
    General Mann. Yes, sir.
    Senator Udall. Ms. Chaplain?
    Ms. Chaplain. Yes. Thanks for asking.
    Senator Udall. Thank you for answering.
    Let me try the same format one final time. I want to move 
to fly-before-you-buy for missile defense. Admiral Syring, your 
prepared statement makes clear that you are following a fly-
before-you-buy approach on the GMD system, and that you will 
not build or deploy additional GBIs unless we have successful 
flight test results first.
    I have a two-part question, first to ask you, Admiral, if 
you plan to use the same approach before deploying further 
variants of the GBI? Then after you've answered, I'd like our 
other witnesses, if they agree that we need to follow this fly-
before-you-buy approach. Admiral?
    Admiral Syring. Sir, in this year's budget request we've 
requested an intercept test every year on an annual basis 
between now through the FYDP. But to address your question on 
2017, there's an interceptor test that's scheduled before each 
next block of the interceptors is fielded. I'm confident that 
that will test the configuration before it goes into the ground 
adequately. As I've said before, intercept testing on an annual 
basis is a critical need for the GMD program.
    Senator Udall. Ms. Bunn.
    Ms. Bunn. Mr. Chairman, the fly-before-you-buy was a policy 
enunciated in the ballistic missile defense review of 2010 and 
it continues to be our policy.
    Senator Udall. Thank you.
    Dr. Gilmore.
    Mr. Gilmore. I agree. I'd just like to add one thing, and 
that is, that the modeling and simulation that I discussed in 
my opening statement is also critical here, because we're never 
going to get enough replications to reach conclusions about 
statistical confidence in the system without rigorous modeling 
and simulation.
    The flight testing and the modeling and simulation go hand 
in hand, and, in fact, I've been working with Vice Admiral 
Syring and his predecessors to assure that that's the case. 
Both are needed.
    Senator Udall. General Mann.
    General Mann. Yes, sir. We're in total agreement with MDA's 
way ahead and the importance of testing.
    Senator Udall. Ms. Chaplain.
    Ms. Chaplain. Yes, we agree with the importance of fly-
before-you-buy.
    Senator Udall. Let me direct a question to Admiral Syring, 
General Mann, and Ms. Bunn. You've each indicated that, in 
addition to improving interceptor reliability, our investment 
priority for Homeland defense is to improve our sensor 
discrimination capability, rather than deploying an additional 
interceptor site on the east coast. The budget requests funds 
for a number of sensor and discrimination improvements.
    Can you each tell the subcommittee why improving our sensor 
and discrimination capabilities is so important and how it will 
improve our existing Homeland defense system? For example, 
would they allow us to defeat more ICBM threats with our 
planned number of interceptors, thus making the system both 
more operationally effective and more cost effective? Ms. Bunn, 
do you want to take a shot at that first?
    Ms. Bunn. Yes, sir. What you said, that is that better 
discrimination makes the interceptors we have more effective 
and more efficient.
    Senator Udall. Admiral.
    Admiral Syring. Sir, as the enemy continues to increase in 
both capacity and capability, the need for discrimination in 
sensoring is vital to, one, address those capability 
improvements of the enemy threat and, two, to get the most 
intercept capability out of our inventory of interceptors. Both 
are critical to the escalating capability and capacity of the 
threat missiles.
    Senator Udall. General Mann.
    General Mann. Yes, Senator. I think it's acknowledged that 
we'll never have enough interceptors to address the size of the 
threat inventory out there. So it's very important that we're 
as effective as we are with what we have. Also, by improving 
the effectiveness of the missile, it gives us a little bit more 
breathing space in terms of how we operationally employ the 
system. I'll leave it at that. Thank you.
    Senator Udall. Let me follow up. There is, of course, no 
limit to what you could do. There's always a limit to 
resources. What I hear being said is that it's a higher 
priority to improve our sensor and discrimination capabilities 
than it would be to deploy an additional interceptor site on 
the east coast. I say that in the context that we don't have 
unlimited resources.
    Ms. Bunn, would you comment on that, and then the Admiral 
and the General?
    Ms. Bunn. Yes, sir. The priority for this budget is in 
improving the EKV on the interceptors that we have, redesigning 
that, and improving the discrimination. While an east coast 
site might provide additional defense against an emerging, not-
yet-here threat from Iran, the next dollars spent need to be on 
EKV improvement and discrimination and sensors.
    Senator Udall. Admiral, do you have anything to add to 
that?
    Admiral Syring. Sensors and discrimination, really on an 
equal priority with improving GBI reliability. They both inform 
the warfighter shot doctrine.
    Senator Udall. General?
    General Mann. Yes, sir, I concur with the previous 
witnesses.
    Senator Udall. Thank you for that.
    My time is up. It's my privilege to recognize Senator 
Sessions, the ranking member.
    Senator Sessions. Thank you.
    Dr. Gilmore, testing has proved that we can utilize a kill 
vehicle to kill on a hit-to-kill basis, through the other tests 
of other systems; is that correct?
    Mr. Gilmore. That's correct.
    Senator Sessions. The concept is proven and we're doing it 
in others. But our GMD system is the one that's the most 
lacking and problematic at this time?
    Mr. Gilmore. We have the least information----
    Senator Sessions. The least testing.
    Mr. Gilmore.--about the performance across the full 
possible battle spaces, to use the colloquialism, for GMD in 
comparison with the other elements of the BMDS.
    Senator Sessions. The THAAD is 11 for 11 in its tests, as I 
understand it. Aegis is 18 for 21, Patriot 21 for 25. We were 
successful with the satellite engagement launch. But we're 
three for six on Ground-based Midcourse.
    Mr. Gilmore. Yes, that's correct. In fear of adding too 
much, I would also point out that, yes, THAAD has a very good 
record, although we've only just in the past couple of years 
started testing against medium-range ballistic missiles. A lot 
of the testing had been against short-range ballistic missiles, 
and now THAAD is deployed on Guam because Guam otherwise 
wouldn't have a defense against an intermediate-range ballistic 
missile. Coming up shortly, Vice Admiral Syring, at the request 
of the combatant commands, is going to do a test of THAAD 
against an intermediate-range ballistic missile.
    I certainly agree with all of the figures that you just 
cited. They're absolutely correct. I would just point out that 
there's still more to learn about the performance of these 
systems, and it's not just from the standpoint of what an 
independent operational tester might want to know. It's 
actually, even more importantly, from the standpoint of what 
the combatant commanders want to know about how these systems 
will be used, how they want to use them, and how they will 
perform.
    Senator Sessions. Good. I think it's important that the 
Americans and our adversaries know that we have very effective 
missile systems that will work, but we have some testing to do.
    Admiral Syring, my impression is that you are firmly 
convinced that testing must be more vigorous than we've had in 
the past and that you intend to see that that happens. Would 
you share your personal view with us about what it takes to 
ensure we have a viable missile defense system?
    Admiral Syring. Yes, sir. We've added and are requesting 
one GMD missile test every year now. I would say that we hadn't 
done enough before, for whatever reason. We haven't done the 
work necessary for us to improve the models, to give Dr. 
Gilmore confidence in an assessment of the system. All of that 
has been lacking.
    But it's all anchored in flight testing and the need to 
test more often and for us not to be afraid to test. To not 
test a CE-1 interceptor for almost 5 years is not where we want 
to be long term. We want to continue to test and we'll continue 
to request annual testing of the GMD system.
    Senator Sessions. I couldn't agree more.
    Ms. Bunn, we thought we were putting in money for testing 
for the last several years. It's really surprising to me that 
we haven't had a GMD test in 4 years. Can you explain that?
    Ms. Bunn. Sir, I've been in this office for a year, so I 
don't have quite the history for that. Could I defer to Dr. 
Gilmore?
    Senator Sessions. Let's ask Dr. Gilmore. He's been there.
    Ms. Bunn. He may have a more----
    Mr. Gilmore. We've had tests, Senator. The last successful 
test----
    Senator Sessions. Is he responsible to you?
    Ms. Bunn. No, sir. We all work together quite closely, but 
no.
    Senator Sessions. No, you have different roles, okay.
    Mr. Gilmore. I'm the independent tester.
    The last successful intercept that we had----
    Senator Sessions. Explain that? You're part of DOD----
    Mr. Gilmore. Sure.
    Senator Sessions. But your role is set up to be an 
independent tester of the systems.
    Mr. Gilmore. Correct.
    Senator Sessions. To help Congress and others know that 
we're getting accurate testing, realistic testing, on the kind 
of situations we might face.
    Mr. Gilmore. I'm charged by law with assuring the testing 
is adequate, meaning it is set up to give us the information we 
need about how the systems will perform in realistic combat 
conditions. I think that's an exact quote from the law. Then 
it's my responsibility to report factually, comprehensively, 
and objectively on the test results. I'm not supposed to be an 
advocate for the system. I am not. I should have no stake in 
the outcome one way or another and just serve up the facts the 
way they are, which is what I have tried to do.
    Senator Sessions. How is it we haven't done any sufficient 
testing on GMD in the last several years?
    Mr. Gilmore. The last successful intercept was in December 
2008. Since that time we've actually done a bit more. We've 
attempted a bit more than one test per year. Unfortunately, 
with the exception of the captive carry test that was conducted 
last year of a partial solution to the problem that was 
manifested in the CE-2 kill vehicle failure in FTG-06A--that 
was a success, but it was a non-intercept test--all the other 
tests have failed.
    We have been attempting to test, and, in fact, Admiral 
Syring had set up tests that were exceeding somewhat the pace 
of one per year. But unfortunately, because of problems with 
the kill vehicle and its design, those tests have failed. The 
very first failure, in FTG-06, had to do with a quality control 
issue. A cable wasn't securely fashioned and came loose in 
flight.
    Then there was the problem that was discovered in FTG-06A 
with the Internal Measurement Unit (IMU) saturating because of 
vibrations in the structure of the kill vehicle, and that was 
unanticipated. Then there was the most recent failure----
    Senator Sessions. Which is the reason you need to test, 
right?
    Mr. Gilmore. Absolutely.
    Senator Sessions. It's unanticipated.
    Mr. Gilmore. Essentially, all of these failures, but you 
can put the quality control issue with the first failure in a 
separate bin if you would like. The other failures that have 
had to do with the IMU, for example, it saturating, and the 
failure with the CE-1 to separate, those are failure modes that 
really can't be predicted by modeling and simulation.
    The modeling and simulation, although it's essential, 
basically assumes that the kill vehicles will function 
mechanically, for lack of a better way to put it, the way that 
they're supposed to. However, it's turned out there have been 
some surprises there because of the way those kill vehicles 
were designed.
    Senator Sessions. Admiral Syring, my time is basically up, 
but you intend to continue to deploy the next 14 interceptors. 
What kind of kill vehicle will you place on those? Then you 
have a plan to develop an entirely new kill vehicle that would 
replace those in the future--I mean, those that have already 
been placed on the system?
    Admiral Syring. Yes, sir. The plan to get to 44 by 2017 
includes reliability improvements to the CE-2 interceptor.
    Senator Sessions. That's the one now?
    Admiral Syring. Yes, sir, that's the current interceptor 
that we will fly this summer. There's small reliability--not 
small, but reliability improvements on top of that, that will 
be tested in fiscal years 2015 and 2016. One example would be 
the alternate divert thrusters, which will address the systemic 
problem of vibration that we addressed with isolating the IMU 
to get at the heart of the problem, to address not only the IMU 
issue but another issue we had with the divert system.
    Again, before those are fielded, we'll go through intercept 
testing and prove to me and to Dr. Gilmore that we're ready to 
go.
    Senator Sessions. Then finally, you will be bringing on a 
system that I guess uses some of the proven technology of the 
SM-3 and Patriot and THAAD for the future?
    Admiral Syring. Yes, sir. The components of those systems, 
which you articulated very well in terms of their success, 
would be candidates for the EKV design. We have three very 
interesting, viable, technically capable concepts from three 
companies that we'll be evaluating over the next year as we 
continue to work on requirements in the kill vehicle arena as 
well.
    We have to get the kill vehicle requirements right. We have 
to get the Homeland defense requirements allocated properly 
across all parts of the kill chain, of which the kill vehicle 
is one.
    Senator Sessions. Thank you.
    Senator Udall. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you to all of you.
    This would be for whoever wants to answer the question. 
We've seen extraordinary circumstances in Ukraine, along the 
border there, and actions taken by Russia and its leader. One 
of the things that had been worked on was a missile defense 
system very nearby. So I am wondering as to--we obviously have 
Navy ships in the area. But I am wondering if there has been 
any further discussion since these activities started where 
Russia invaded Crimea, massed troops on the Ukrainian border? 
Has there been any additional discussions with Poland, the 
Czech Republic, Romania, and other nations about the missile 
defense systems we have there?
    Ms. Bunn. Senator Donnelly, let me say a couple of things 
here. The NATO missile defense, the EPAA, was designed against 
threats from the Middle East, not Russia.
    Senator Donnelly. I understand that. However, it was of 
significant concern to Mr. Putin.
    Ms. Bunn. Yes, sir. Yes, sir, it was.
    In general, I would say that Russia's intervention in 
Ukraine in violation of international law has put into flux a 
lot of our policies with regard to Russia. As Secretary General 
of NATO Rasmussen said yesterday, NATO is considering a lot of 
options for dealing with Russia now, relooking at its policies. 
General Breedlove calls it a paradigm shift.
    Let me just say that the government's looking at a lot of 
options, the U.S. Government, NATO, yes, economic and 
diplomatic, but also what military options for strengthening 
collective defense. I don't want to get out in front of, in 
open session, our NATO allies.
    Senator Donnelly. Have you been speaking with our allies in 
Poland or in the Czech Republic or in Romania or our NATO 
allies?
    Ms. Bunn. We've had a lot of discussions with them on a 
number of issues. As I say, I don't want to get out in front of 
our allies on a particular option.
    Senator Donnelly. Do you think at some point it would be a 
good indication to Mr. Putin to tell him we are working on 
these things, we are moving forward with these things, we are 
strengthening these things?
    Ms. Bunn. I think indeed that's one of the reasons 
Secretary General Rasmussen came out, after the NATO 
ministerial of all the foreign ministers yesterday, and said we 
are looking at lots of ways to enhance our collective defense.
    Senator Donnelly. Okay. I guess maybe it's a game of 
semantics, but are we at some point planning to tell him that 
we're not just looking at them, but we're moving forward with 
some of them?
    Ms. Bunn. Indeed, there have been things. We've moved 
forward with, obviously, some reinforcements of aviation 
detachments, Baltic air policing. There are some steps that 
have already been taken. Yes, there will come a point where----
    Senator Donnelly. I understand you may have to talk around 
this a little bit as well, but how long would it take to finish 
the missile defense shield system in the region?
    Ms. Bunn. The plan is 2015 and 2018 for the next two 
phases. If you're asking what's technically feasible----
    Senator Donnelly. Have we talked to them about moving up 
those timelines? Mr. Putin apparently has no interest in 
timelines. So you know, he's not going to wait for 2018. His 
interests are not the same as ours.
    Are we taking a look at our timelines and other things in 
regards to that? Are those timelines that are flexible, that 
can be moved up, if necessary?
    Ms. Bunn. No discussions at this point with them----
    Senator Donnelly. By ``with them'' who do you mean?
    Ms. Bunn. You asked about----
    Senator Donnelly. Our allies.
    Ms. Bunn.--the nations----
    Senator Donnelly. Yes.
    Ms. Bunn.--specific nations. I guess I would defer on the 
technical, what's possible, to Admiral Syring.
    Admiral Syring. Senator, if I can, the Poland capability in 
2018 is on track. The program of record is doing well. It is 
hinged on two things. It's hinged on the SM-3 Block 2A 
development schedule, which is progressing well with our 
Japanese partners, but again paced by development progress, 
schedule, and funding. Then the actual site proper for the 
military construction (MILCON) and the equipment. We've proven 
very successful in Romania. We've built the site now in 
Moorestown and at Pacific Missile Range Facility (PMRF) out in 
Hawaii. We'll build it again in Romania here before next year.
    All of that funding is mostly in the fiscal year 2016 
timeframe. To go faster it would require money in 2015 in terms 
of the technical feasibility of accelerating, which I don't 
have.
    Senator Donnelly. It may be more a question of money than 
the ability to technically move up timelines if we need it?
    Admiral Syring. It's money and it's the SM-3 2A development 
schedule.
    Senator Donnelly. Okay. When we look at our Navy-based 
systems--as we talked about, much of the ground-based is in 
concerns about Iran, but obviously caused concern by the 
Russians as well. With the Navy-based systems, they can be, 
based on where the ships are and the angles and all those 
things, they can cover other areas besides Iran. They can cover 
Russia, if necessary, couldn't they?
    Admiral Syring. In this forum I'll say they can cover a 
wide range of geographic areas.
    Senator Donnelly. Okay. When we look at Iran--and again, 
whoever wants to answer it--what is your best judgment on how 
far they are right now to having a nuclear weapon completed? 
Obviously, they're in discussions now, but if they were to 
decide, okay, the discussions didn't work out, how long would 
it take for them to reach completion?
    Ms. Bunn. Senator, for the record, I'll go back and look at 
the Director of National Intelligence's worldwide threat 
assessment. We're trying to get them not to go there.
    Senator Donnelly. I'm hopeful of that, too.
    Ms. Bunn. Yes, I understand. Let me get that for you for 
the record, because it's an intelligence assessment.
    [The information referred to follows:]

    [Deleted.]

    Senator Donnelly. If they complete that, do they have the 
delivery systems in place already to deliver it?
    Ms. Bunn. They have short- and medium-range missiles 
already. That's the reason for the EPAA in Europe. They have 
those short- and medium-range missiles already. They're working 
on a longer-range missile.
    Senator Donnelly. Does that long-range--would that longer-
range missile reach our country?
    Ms. Bunn. If they are successful in developing and testing 
that. They are trying for it, and so yes, they're trying for 
one that would reach us.
    Senator Donnelly. Unfortunately, my time is up. Thank you, 
Mr. Chairman.
    Senator Udall. Thank you, Senator Donnelly.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    Would you give me an update--Ms. Bunn, maybe this is you; 
or if not, whoever the appropriate person is--on the status of 
the environmental impact statements (EIS) on the four locations 
for the GBI site, the east coast site?
    Ms. Bunn. Admiral Syring is actually the best for that, 
because MDA has named the four sites and they've begun the EIS 
on the--let's see, Michigan, Maine, Ohio, and New York. I will 
ask Admiral Syring, with your permission.
    Senator King. Michigan's on the east coast? I hadn't 
noticed that. [Laughter.]
    Ms. Bunn. In the eastern part of the United States, even 
though Michiganders might not like to----
    Senator King. The guy from Indiana----
    Ms. Bunn. They don't want to call themselves----
    Senator Donnelly. Chairman Levin will be surprised. 
[Laughter.]
    Senator King. Oh, that Chairman Levin. [Laughter.]
    Admiral?
    Admiral Syring. Yes, sir. We completed the down-select in 
January of this year to the four sites, and it's the Survival, 
Evasion, Resistance, and Escape facility in Portsmouth, ME; 
Fort Drum, NY; Camp Ravenna, OH; and Fort Custer, MI.
    The EIS process has started. We've said it will take us 24 
months to complete that. That's actually faster than the 
historical DOD EIS process, but we're confident that we have a 
great team in place that does this in terms of deployment for 
other systems that we deploy around the world.
    We'll develop a contingency plan, and you know what that 
is, Senator, in terms of how would you do--how would you 
actually build the site, how would you design the site, how 
would you field what we call it, is a continental United States 
interceptor site, since it is both midwest and the east, based 
on the threat trajectories of the areas that we're considering. 
That'll be a cost, schedule, and acquisition-focused 
contingency plan.
    We've actually already developed a very detailed 
requirements document, overarching requirements document, that 
we've been working on for the last 6 months. That'll inform the 
contingency plan and the detailed plan for all four sites to 
not wait if the decision is so made, to be able to get on with 
it if the requirement comes from the combatant commander and 
DOD makes that decision.
    Senator King. You'll have essentially a mockup of a plan, 
so you don't start from scratch after the EIS?
    Admiral Syring. Yes, sir. There's a plan--there's planning 
work that can go on at a level below the detailed planning 
level, that will be done on each of the sites, so we don't have 
to wait another 2 years for that work to be done. We can do a 
lot of this work in parallel prior to selecting a site, that 
will be then tailored to the individual site that we select.
    Senator King. Thank you.
    I was in Israel a few months ago and visited an Iron Dome 
site. Talk about real-time research and development (R&D). I 
understand that we're doing a lot of funding of that system, 
but we're also getting a lot of the intellectual property back. 
Are we incorporating--and I know that's a different, that's not 
intercontinental. But it's certainly missile defense and it 
seems to be working. They claim an 85 percent efficiency.
    Are we learning anything from that, from that system?
    Admiral Syring. We are. Let me address programmatically 
what we're doing and then I will pass it to General Mann if 
that's okay in terms of what the Army may be looking at. We 
were very successful with the Israelis to sign an Iron Dome 
coproduction agreement this year, which will set us up for 30 
percent of production of that interceptor in the United States 
this year, 55 percent next year, which is a good thing for us 
and it's a good thing for Israel that that's in place, because 
we'll have a second source for the provider of that 
interceptor.
    We've also requested in this year's budget $175 million for 
Iron Dome, both interceptor and battery procurement, that will 
be informed in terms of how many interceptors, how many 
batteries we actually buy, through the coproduction work that's 
going on.
    There's a very detailed contract negotiation that's going 
on between Rafael and Raytheon today. We don't have any privity 
of contract on that, so our insight is somewhat limited. But 
I'm confident that as we allow that process to work forward 
that the right answer will come out.
    Senator King. But you're satisfied with the privity of 
intellectual property, if you will, that we're learning the 
lessons along with them?
    Admiral Syring. Yes, sir. The design and the technical data 
packages come, are coming and will come with it.
    Senator King. Now, having been through this hearing last 
year and then a briefing afterwards and another hearing today, 
it's clear that this is a tough problem. This is a tough 
scientific problem, physics problem. Are we thinking about 
alternatives? Is it possible, instead of sending a missile up, 
high-powered lasers or some other alternatives to this, what is 
appearing to be a very difficult piece of construction and 
engineering?
    General Mann. I'll take this. I don't know if Admiral 
Syring wants to jump on. But there's a lot of different efforts 
that are under way. When you're talking about cruise missiles 
or rockets, artillery, mortars, things like that, we're looking 
at directed energy very aggressively. In fact, we've already 
had a successful test back in December of last year in the 10 
kilowatt range, where we were able to knock out mortars and it 
was also effective against unmanned aerial vehicles (UAV).
    What we're doing right now is we're working with the Navy. 
We've transported that demonstrator to Florida and we're doing 
testing with the Navy under more environmentally challenging 
scenarios. We're looking at by 2017 we could probably get up to 
the 50 kilowatt. Again, we're looking at threats that are low-
level threats, whether it's UAVs, possibly cruise missiles.
    I know that MDA is also looking at directed energy, really 
looking at a higher level platform, maybe post-launch or post-
boost level type engagements. So we're working collaboratively 
with MDA to really leverage, like you were talking about, other 
technologies, in this case directed energy.
    Senator King. But in dealing with an intercontinental 
missile, the only option is another missile at this point?
    General Mann. At this point.
    Senator King. One of our advantages is naval power. I'm 
worried about anti-ship missiles. How do we--in terms of 
missile defense, how do we--is that up to the ship or how do we 
think about missile defense of our naval vessels?
    Admiral Syring. I'll talk about the ballistic missile 
defense and then General Mann can talk about the cruise missile 
defense of the ship. We have a very robust sea-based terminal 
defense program that's requested in this year's budget, that 
helps us to defend the carrier sea base against that exact 
threat. I'd like to share the details of that in a classified 
forum, but it's based upon the SM-6 missile that the Navy has 
successfully tested and developed.
    Senator King. I'd like to, if we could follow up, have that 
briefing.
    Admiral Syring. Yes, sir, we'd be happy to.
    Senator King. Cruise missile defense?
    General Mann. Again, cruise missile defense, right now, I 
think, there's 9 countries that are currently aggressively 
involved in cruise missile technologies, and I think there's 
another 20 that's looking into this. Right now--I talked about 
using directed energy as a technology that we can leverage to 
get after that threat.
    We're also right here locally--I think you all are aware of 
the Joint Attack Netted Sensor that aerostat that we're going 
to be placing at Aberdeen Proving Ground. It's going to be a 
test from fiscal years 2014 through 2017. We're working with 
U.S. Northern Command on this, and that basically provides 
greater surveillance and fire control radar capabilities, so 
when netted with interceptors like the Norwegian Advanced 
Surface-to-Air Missile System that we have here locally that's 
protecting the National Capital Region--we're going to do a 
test that will provide us with greater range, greater sensor 
coverage of this area. We're looking forward to learning from 
that to help us get after the cruise missile threat, which is 
growing.
    Senator King. It's a serious threat.
    General Mann. Yes, sir.
    Senator King. Admiral, I can't resist. The studies you're 
doing for the east coast site remind me of when God came to 
Moses and said: ``I have good news and bad news. The good news 
is I'm going to empower you to part the waters of the Red Sea 
and let my people escape to freedom.'' Moses said: ``What's the 
bad news?'' God said: ``You have to prepare the environmental 
impact statement.'' [Laughter.]
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator King.
    Let me turn back to the GMD system and the question whether 
it protects all of the United States. I'll direct this to 
General Mann, Admiral Syring, and Ms. Bunn. In your prepared 
testimony you each state that the current ground-based 
midcourse protects the United States against a limited 
ballistic missile attack from North Korea and from potential 
Iranian ICBMs. This is an important point. I want to make sure 
the record is clear on this since there seems to be some 
confusion on this subject here on Capitol Hill.
    Ms. Bunn, is it correct that our current GMB system covers 
the entire United States, including the east coast, from 
missile threats from North Korea and from Iran?
    Ms. Bunn. Yes, sir, that's certainly my understanding.
    Senator Udall. Admiral Syring?
    Admiral Syring. Yes, sir.
    Senator Udall. General Mann?
    General Mann. Yes, sir.
    Senator Udall. On that note, General Mann, is that why your 
prepared testimony says, ``As the Secretary of Defense and 
various combatant commanders have previously testified, the 
warfighter remains confident in our ability to protect the 
Nation against a limited ballistic missile attack, even in the 
face of a changing fiscal environment''?
    General Mann. Yes, sir. But it also goes to the point where 
we need to continue to improve our technology, whether it's 
sensor discrimination, EKV improvements, because we know that 
the threat is not just satisfied with the current capability.
    Senator Udall. It's not static.
    General Mann. Yes, sir.
    Senator Udall. It's not always symmetrical, either.
    Ms. Bunn, let me go back to this question. In addition to 
the EPAA, we are pursuing regional missile defense enhancements 
in the Middle East and Asia, including significant efforts at 
cooperation with our allies and partners in each region. From a 
policy perspective, can you describe what we are trying to 
accomplish with our allies and partners in each region, 
including our efforts in the Middle East, with Israel and with 
the Gulf Cooperation Council (GCC), and our efforts in Asia 
with Japan and South Korea?
    Admiral Syring and General Mann, after the Secretary 
comments, if you have anything to add, we'd appreciate it for 
the record.
    Ms. Bunn. Mr. Chairman, as General Mann pointed out, as 
we've all pointed out, the supply of short- and medium-range 
ballistic missiles is greater than the number of regional 
defense missile interceptors that we have and will have for the 
foreseeable future. So I think for protecting both our deployed 
forces as well as our allies and partners, it's important for 
others to also have their own missile defenses. It's also 
important to net them together to make them interoperable in a 
way that the sensors that we each have can share information 
and make the use of each of our missile defense capabilities 
more effective, more efficient.
    In the Middle East, we have a longstanding cooperative 
relationship with Israel. It goes back almost 28 years now. I 
was doing the math. I was the action officer for the first 
agreement with Israel. That was in 1986. That is a longstanding 
cooperative relationship.
    We are making efforts with the GCC, as I said. A number of 
those countries are acquiring and interested in acquiring their 
own missile defense capabilities and, as the Secretary of 
Defense said in Manama recently, that working together, trying 
to get the GCC to also see that sensor interoperability, sensor 
sharing, makes every country's missile defenses more capable.
    In the Far East, certainly with Japan, Japan is also--that 
was the other missile defense agreement in 1986. Japan, we've 
had a longstanding cooperative program with, and, in fact, we 
are co-developing right now the SM-3 2A with the Japanese. They 
have their own deployed Kongo-class ships as well with missile 
defense capability. South Korea is examining some integrated 
air and missile defense, moving forward on that as well.
    Senator Udall. Thanks for that update.
    Admiral?
    Admiral Syring. We're doing a lot around the world. Let me 
just highlight some of the main points, and I'll just add to 
what Ms. Bunn said. The NATO command and control system, I 
think, was a huge success in terms of that being operational at 
Ramstein and connected with our command and control system for 
the first time ever. That will enable us to add nodes to 
basically both networks in Europe.
    Spain has been very forthcoming and we're very thankful for 
their ability to host the four destroyers in Rota as part of 
EPAA. Turkey hosted the TPY2 site. The Netherlands and Germany 
have stepped up with Patriot in Europe with Patriot batteries. 
Romania and Poland, their ability to host our Aegis Ashore 
sites and their willingness to accept our systems there, I 
think, goes without further mention.
    Israel, again just a great partner, partnered on actually 
four development programs with them: Iron Dome, Arrow 2, Arrow 
3, and David's Sling.
    Asia, Japan, just shift to the west, the Japanese, in terms 
of the SM-3 2A development program, but they have the Aegis 
destroyers that have BMD capability on them as well, that 
actually serve on station. We're in active discussions with 
them on how to upgrade their capability as well.
    In the Gulf, back east, great progress with the United Arab 
Emirates in terms of the THAAD agreement that we signed with 
them. I'm working actively for more opportunities across the 
Gulf region in the next year and hopefully we'll come back and 
report progress there.
    Then South Korea, I think we're in the formative study 
discussions, just answering some of the questions that they 
have as well.
    Finally, there's a lot of countries that have been 
discussing and are asking questions about how their ship 
sensors can help and how they can contribute to BMD in terms of 
search and track capability on our network.
    Senator Udall. General, do you have any additional?
    General Mann. Just very quickly, Senator. In addition to 
the material acquisition programs that we're talking about 
here, we do a lot of collaborative exercises with a lot of our 
allies out there, especially in the CENTCOM area of 
responsibility (AOR). I'm also about to do a capstone exercise 
later this month that's going to involve 22 nations.
    At those exercises, not only do we get into, in some cases, 
tactics, techniques, and procedures, but we also get into some 
of the policy issues related to sharing of data, which 
sometimes causes some sticking points on sharing data, whether 
it's sensor data or whatever it might be. Very robust 
engagements are ongoing right now with our allies.
    Senator Udall. The three of you took us on quite a tour. 
It's impressive what we're doing. I know we want to do more.
    I know my time is about to run about. But Admiral Syring, a 
short, concise comment, if you could, on what would happen if 
sequestration came back fully in fiscal year 2016?
    Admiral Syring. It would put all of the efforts that we 
have requested to begin development back on the table.
    Senator Udall. Thank you.
    Senator Sessions.
    Senator Sessions. Let me just tell you, you're going to be 
looking at $521 billion. Is that sequestration or not? It's the 
same you had last year. Does that mean you can't fund what 
you've been talking about? We're talking beyond each other, 
like ships in the night, it seems to me, about numbers.
    Admiral Syring. Sir, with----
    Senator Sessions. There is no more cuts if we stay on the 
Budget Control Act (BCA) numbers. I'm trying to figure out what 
we're saying here. That's what I was asking at the very 
beginning.
    Admiral Syring. If we take a cut, be it to the proposed 
fiscal year 2016 program----
    Senator Sessions. The proposed program?
    Admiral Syring. Yes, sir, the requested program from DOD.
    Senator Sessions. Is DOD requesting more than the BCA?
    Admiral Syring. We haven't put a 2016 budget together yet. 
We've put together a 2015 budget that assumes controls in 2016.
    Senator Sessions. You better not be counting on spending 
more money than the BCA, because we already have extra money 
this year and next year. If we can get by spending at $521 
billion this year and $521 billion next year, we go up $13 
billion a year thereafter, we've made it past the danger 
period, which was this year and next year, really were the most 
crisis years.
    We're going to have to keep talking about that, because 
there's just confusion out there. I do think sometimes our DOD 
is talking about the projections that assume more money than is 
in the BCA, assume we will have to have another vote to bust 
the budget and spend above that, and sometimes they're not. So 
it's confusing. We need to be apples to apples when we talk 
about these numbers.
    Admiral Syring, so this redesigned kill vehicle, that need 
for the GBIs, the first test of that is supposed to be in 2018. 
When can we expect and you would hope and expect to be able to 
retrofit our 44 GBIs with this new system?
    Admiral Syring. Sir, the budget request asks for two flight 
tests in fiscal year 2018 of the new kill vehicle, first a non-
intercept test and then an intercept test. But I would just 
caution that as we develop the acquisition approach and 
strategy, you have my commitment to make sure that we don't cut 
corners and we do it right.
    Right now I think we can make a flight test in 2018, for a 
fielding of the first interceptor by 2020. But again, that's 
going to be informed by proper design progress and testing 
progress.
    Senator Sessions. What can you tell us in a public forum 
about the intelligence estimates of Iran and North Korea with 
regard to a missile system that can reach the United States?
    Admiral Syring. The intelligence estimate is they're able 
to flight test, the projection is, to flight test an ICBM by 
2015.
    Senator Sessions. We don't doubt that they eventually have 
the capability to make that a successful missile if left to 
their own devices?
    Admiral Syring. I'd like to take that into a classified 
forum, sir.
    Senator Sessions. They've made progress with missiles. 
They're pretty sophisticated in them, as are the North Koreans. 
We would think, as much as their people suffer, it's not 
possible, but it apparently is possible. They already have 
proven fairly sophisticated technology.
    Admiral Syring. They are making capability improvements and 
capacity improvements every day.
    Senator Sessions. Now, the plan, General Mann, to protect 
Europe and what we are trying to do there--maybe this is your 
question--that plan is to deal with Iran, not Russia; is that 
correct?
    General Mann. That is correct.
    Senator Sessions. We're not pretending that we have the 
capability to protect Europe or the United States from a 
massive Russian launch.
    General Mann. Senator, you're correct. That is for threats 
emanating out of the Middle East, Iran.
    Senator Sessions. It's something I hope we can be 
successful on. I know we can if we work on that.
    Thank you. I yield back my time.
    Senator Udall. Senator King.
    Senator King. One question. Admiral Syring, you said 
several times in your last answer, you talked about networks 
and connecting networks in Europe. It raises the question of 
how--are you thinking as you develop this project about cyber 
vulnerability? Because the good news is we have a very good, 
interconnected, wired society. The bad news is it makes us very 
vulnerable to cyber attack.
    Is part of your design strategy cyber attack resistance as 
far as the command and control and the networks that connect 
the sites and those kinds of things?
    General Mann. Yes, sir. A very robust cyber program within 
MDA.
    Senator King. Good. Thank you. I appreciate that.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator King.
    We have a few more minutes. I have a few more questions, so 
I'll pick up where we left off on the budget. General Mann, the 
budget request, if it were approved by Congress, does it meet 
the needs of the warfighter for improving our missile defense 
capabilities?
    General Mann. Yes, Senator.
    Senator Udall. Admiral Syring, does the budget request put 
us on a path to improving our ability to defend against both 
Homeland and regional missile threats? If so, what are some of 
the initiatives that will provide such improvements?
    Admiral Syring. It does put us on that path, sir. The one 
marker I'll put on the table is that discrimination capability 
to the east is equally important, and long-term we're going to 
be looking to address that gap. Right now the strategy would be 
to move sea-based X-band radar to the east as the long-range 
radar is built to the west.
    The other gap I would say would be infrared sensing 
capability, which is heavily in the R&D phase right now, and 
we're working hard on that.
    Senator Udall. I know Senator Sessions and you had an 
exchange about the budget. We talked briefly about ensuring 
that we're all on the same page, apples to apples, oranges to 
oranges. There will be additional time to discuss that as we 
move forward, and we'd welcome clarifications, additional 
information, in the testimony you'd submit for the record. I 
think it is important to understand where we are.
    Ms. Chaplain, you've been patient. You're the watchdog that 
we all appreciate being involved. GAO has been a consistent 
advocate for the fly-before-you-buy approach and has warned for 
years that deploying missile defense systems before they're 
fully developed and tested could end up taking more time and 
costing more money than using a more rigorous acquisition 
approach.
    We've spent, I think, at least 3 years trying to diagnose 
and fix the problems with the kill vehicles for the GMD and 
have conducted or will conduct a number of very expensive and 
previously unplanned flight tests to demonstrate those fixes. 
Can you give us a rough order of magnitude of what it has or 
will cost us to try to fix these problems after the fact, 
including the additional flight tests? I imagine it may be over 
$1 billion.
    If we had used a more rigorous fly-before-you-buy approach 
with GMD, do you believe we might have been able to avoid those 
additional costs? I ask the second question not to pile on, but 
just because everybody in this hearing wants to learn from 
mistakes, shortcomings, you name it.
    Ms. Chaplain. Our estimate for fixing the problems in the 
flight tests and recovering from it is at $1.3 billion right 
now. So it is close to what you said, even more than that. We 
do believe those costs could have been avoided had a fly-
before-you-buy approach been followed. [Pause.]
    Senator Udall. Excuse me. Thank you for that clarification. 
As the hearing comes to a close, I wanted to see if Senator 
Sessions had any other questions he might like to ask.
    Let me ask one more question and go back to Dr. Gilmore. 
You've approved several versions of the integrated master test 
plan. That lays out the schedule and the testing for the 
objectives, I should say, for missile defense testing. There 
have been suggestions that we should substantially increase the 
pace of testing our missile defense systems, particularly our 
GMD system, and that that would greatly help accelerate system 
development.
    Could you comment on the factors that drive our testing 
pace and whether you think we should or could accelerate 
testing significantly above the currently planned test pace? 
Although there have been some changes and delays in the 
testing, can you explain whether we've been able to really put 
in place a plan that helps us understand how we move forward?
    I know you've been speaking of this. You're clearly the 
historian and the expert on much of this.
    Mr. Gilmore. The historical pace of testing has been about 
1.2, not to be too precise----
    Senator Udall. I want you to be precise.
    Mr. Gilmore.--ground-based missile defense tests per year 
over the last decade since 2000. Early on the flight test pace 
was a little higher than that. It was up around 1.3, 1.4.
    Senator Sessions. Are those complete tests? Or are some of 
those partial tests of the system?
    Mr. Gilmore. I'm counting the tests that were meant to 
conduct intercepts.
    Senator Sessions. Actual intercepts?
    Mr. Gilmore. Yes. I can give you the details. I think I'm 
correct on that.
    It's also true, because I've reviewed the historical 
record, that both General Kadish and General Obering had 
testified at various times on their plans for the program 
before this subcommittee and other committees that they hoped 
to be able to do three or four tests a year. They were never 
able to achieve that.
    Would it be good to be able to do three or four or more 
tests per year for the ground-based missile defense system? 
Yes, it would. Can I sit here and say that there is absolutely 
no way that can be achieved with additional money? No, I can't 
prove that. But I can point to the historical record, where at 
least two MDA directors tried to increase substantially the 
pace of testing beyond one per year and did not succeed.
    I can only guess to some extent, while that's true, but I 
hope you'll regard it as an educated guess, and this is based 
on my interactions with Vice Admiral Syring and his staff and 
his predecessor. There is just a certain amount--these are very 
complex tests and there's a huge amount of data that are 
collected, that have to be analyzed after the test. If you 
don't take the time to analyze those data, then you're not 
going to be able to learn and understand what the problems are 
and what the corrections should be and what you want to pursue 
in the next test and what you want to put into your development 
program to improve the performance of the system.
    Moreover, it takes many months to plan these tests. This 
first operational test that we did, which didn't involve the 
ground-based missile defense system but did involve THAAD and 
Aegis, was a tremendously complex thing to plan. Then also Vice 
Admiral Syring's team had to deal with a lot of unanticipated 
events along the way, including problems with targets that had 
to be corrected in real time, and that's why the test got 
pushed out and why we didn't get all the information we hoped, 
but we still got a lot.
    It's not just a matter of buying additional interceptors 
and buying additional targets. You would think it might be that 
simple: Instead of buying one additional GBI a year and one 
additional target a year, we'll buy more, that will enable us 
to test more. Certainly that's necessary, but you also have to 
have a lot of engineering expertise in-house. A lot of this 
work can't be done in parallel.
    You'd have to have larger teams of experts if you wanted to 
plan two tests simultaneously or three and execute two or three 
tests simultaneously instead of three. Then you would run into 
the infrastructure problems. There's only one Reagan Test Site, 
there's only one PMRF. There's only so much activity you can 
jam into them.
    Could additional funding help increase the pace of testing 
for GMD or these other systems somewhat? Yes. But I think 
there's a limit. I can't state precisely what it is. I also 
know that it wouldn't happen overnight. It would take a number 
of years to build up the additional engineering teams, the 
additional hardware in the loop facilities that have to be used 
to prepare for the tests.
    I can only go back to the historical record on GMD and 
these other tests, and the historical record is what I said. 
It's about 1.2 intercepts a year, even though various directors 
have tried to do more and, unfortunately, didn't succeed.
    Senator Udall. Thank you. I'd make two short comments, then 
I'll turn to Senator Sessions before we adjourn the hearing.
    I think the average American family has 1.8 children, is 
that not right? Maybe there's some parallel here. [Laughter.]
    Mr. Gilmore. I won't speculate on that.
    Senator Udall. Director Clapper was asked--by the way, for 
the record I wanted this, the comments that he made about the 
Iranian capability. I think he said the Iranians are moving to 
develop an ICBM. He said adding a weapon to that ICBM is a 
whole other problem. He implied that there would be additional 
time to weaponize that missile. But that doesn't mean we can 
rest easy, of course, and that's the mission you all are on.
    I just want to thank you for your work, for your commitment 
to our country and our country's defense. Let me recognize 
Senator Sessions.
    Senator Sessions. Thank you. I just wanted to take one 
moment before we adjourn to express my sympathy to the family 
of Dr. Schlesinger, who passed away March 27. What a national 
treasure he's been. He's given of himself to the country so 
much and was with Dr. Perry, former Secretary Perry, who was 
chairman, and he was vice chairman, of the American Strategic 
Posture Report in 2009, which I offered legislation to call 
for. They really produced a report. It was a bipartisan report, 
a bipartisan commission, that gave us, I think, the right 
advice on the strategic posture of the United States. We will 
make a mistake if we get far away from that, in my opinion.
    In 1974, he was given credit for what came to be known as 
the Schlesinger shift when he was with Nixon, to move away from 
mutually assured destruction as the policy of the United 
States. Then he was Secretary of Energy under President Carter 
and just continued to be a source of wisdom on matters of 
technical and nuclear issues.
    This subcommittee has benefited from hours of his time that 
he's given when he could have been doing other things. He was 
very valuable in helping us maintain a bipartisan strategic 
posture.
    Senator Udall. Thank you for that, Senator Sessions. I'd 
like to associate myself and the subcommittee with what you 
just shared with us. We'd do well to emulate Dr. Schlesinger's 
role.
    Thank you all. We'll keep the record open through the end 
of the week. We may want to direct some additional questions to 
you. You may want to amplify or add to your statements. Thanks 
again for taking the time to be here.
    The subcommittee is adjourned.
    [Whereupon, at 4:03 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Mark Udall
           investment priority for sensors and discrimination
    1. Senator Udall. Ms. Bunn, Admiral Syring, and General Mann, you 
indicated that, in addition to improving the reliability of the Ground-
Based Interceptor (GBI) and kill vehicles, our Homeland missile defense 
investment priority is the improvement of our sensor and discrimination 
capabilities, rather than deployment of an additional interceptor site 
on the east coast of the United States. Please explain why such 
improvements in sensors and discrimination capabilities are the 
investment priority, and how they will improve our Homeland missile 
defense capability.
    Ms. Bunn. Investing in sensor capabilities improves the performance 
and efficiency of our Homeland defenses. The deployment of a Long-Range 
Discrimination Radar in Alaska would provide persistent missile defense 
radar coverage and improve discrimination capabilities against threats 
to the Homeland from North Korea and would provide the Sea-Based X-band 
(SBX) radar more geographic deployment flexibility for contingency and 
test use. Improved sensors have the operational effect of increasing 
the number of attacking warheads the Ground-based Midcourse Defense 
(GMD) system can intercept.
    The intercontinental ballistic missile (ICBM) threat from Iran has 
not yet emerged, and the current GMD system provides coverage of the 
entire United States from North Korean and potential Iranian ICBMs. If 
an ICBM threat were to emerge in numbers that necessitated the 
deployment of additional interceptors, the steps being taken now, 
including completing an Environmental Impact Statement (EIS), would 
shorten the construction timelines associated with deployment of a new 
missile defense site.
    Admiral Syring. The Missile Defense Agency's (MDA) systems 
engineering process is based on allocating integrated Ballistic Missile 
Defense System (BMDS) requirements that balance capability and 
feasibility across sensors, command, control, battle management and 
communications, fire control, and weapons. Consistent with this process 
and our strategy to improve our Homeland defense capability, the MDA 
will engineer and allocate integrated system requirements to drive 
balanced and integrated BMDS development activities for improvements in 
sensors and discrimination capabilities. These activities, executed in 
parallel, include developing the long range discrimination radar, 
improving existing sensor hardware (including the Aegis SPY-1), 
improving discrimination threat databases in sensors and weapons, 
improving discrimination techniques in software across multiple BMDS 
elements, air and space electro optical/infrared sensor capabilities, 
and the next generation kill vehicle.
    Discrimination is the ability of the BMDS to distinguish lethal 
reentry vehicles from other threat objects, such as decoys. 
Discrimination is executed across the BMDS. It begins with sensor 
measurements. It ends with kill vehicle selection of the target reentry 
vehicle. Improving discrimination via algorithm development and 
maximizing sensor utility is MDA's first investment priority. Through 
analysis conducted during the BMDS Vision Study, the missile defense 
community identified improved discrimination as an essential capability 
of the BMDS to counter increasingly complex threats, allowing for fewer 
interceptors to be expended against a threat cluster.
    Adequate discrimination capability allows the BMDS to intercept the 
correct object while reducing the interceptor waste that results from 
committing interceptors to objects that aren't lethal reentry vehicles. 
An additional interceptor site on the east coast will increase GBI 
inventory, while allowing earlier engagements (increased battlespace) 
against threats from Southwest Asia (compared to interceptors launched 
from Fort Greely, AK and Vandenberg Air Force Base, CA).
    An east coast interceptor site will increase the warfighter's time 
to shoot the interceptors according to shot doctrine, but the site 
itself doesn't improve the discrimination needed to select the lethal 
object hidden in a confusing threat complex. It doesn't reduce 
interceptor waste, because extra interceptors don't overcome the 
inability to distinguish the lethal object. For cost-effective success, 
we need the right balance between number of interceptors, the right 
sensor capabilities, and adequate discrimination capability.
    General Mann. It is vital that we effectively employ our 
interceptors to counter a ballistic missile threat emanating from rogue 
state actors. Essential enhancements to the current ballistic missile 
defense (BMD) sensor architecture enable more efficient and effective 
operational employment of limited GBIs by improving the ability to 
distinguish the target within the threat complex.

     acquisition rigor for redesigned exo-atmospheric kill vehicle
    2. Senator Udall. Admiral Syring, at the hearing you agreed that we 
need robust acquisition rigor for the redesigned Exo-atmospheric Kill 
Vehicle (EKV) and said that ``we have one chance to get this right.'' 
What are the elements you believe are essential to a fully rigorous EKV 
redesign acquisition program, including for system engineering, design, 
development, test, and evaluation, to make sure that we do not repeat 
any of the problems we have had with the current prototype EKV design?
    Admiral Syring. The primary elements necessary to improve the 
success for the redesigned EKV and GBI acquisitions are identified 
below:

     (1)  Define stable requirements that reflect projected operational 
needs over the next decade;
     (2)  Allow adequate time to design necessary components to meet 
our requirements;
     (3)  Establish reliability, producibility, testability, 
maintainability, and cost effectiveness as design criteria;
     (4)  Conduct comprehensive design reviews with stakeholders to 
ensure program needs are met;
     (5)  Procure sufficient test assets early in development to 
thoroughly identify and handle design problems;
     (6)  Confirm the design meets requirements through extensive 
design verification testing and comprehensive qualification testing;
     (7)  Execute rigorous systems engineering processes to integrate 
components into the redesigned EKV, the redesigned EKV into the GBI, 
the GBI into the GMD and the GMD into the BMDS;
     (8)  Complete a methodical ground test campaign that proves system 
level performance using models and simulations that are anchored to 
test data;
     (9)  Conduct flight testing to demonstrate and assess system 
capabilities and provide data for modeling and simulation anchoring; 
and
    (10)  Enhance the Stockpile Reliability Program, Service Life 
Extension Program, and the obsolescence program to better understand 
the state of the GBI fleet throughout the lifecycle.

                  kill vehicle failure and correction
    3. Senator Udall. Admiral Syring, last July, the flight test of the 
GMD system with the Capability Enhancement (CE)-I kill vehicle failed 
because the kill vehicle failed to separate from the booster. Please 
explain the cause of this failure; whether it is related to the more 
modern CE-II kill vehicle; how you plan to fix the CE-I problem and 
demonstrate the correction; and whether you will make any changes to 
the fleet of deployed CE-I interceptors.
    Admiral Syring. The FTG-07 Failure Review Board concluded the 
failure was the result of excess EKV battery current leakage. The leak 
caused EKV electrical component reset and the EKV's subsequent 
inability to separate from third stage.
    For the CE-II EKV, we are considering two design changes. The first 
is redesigning the EKV battery. The second is incorporating improved 
grounding ties. Both hardware design changes will include software 
updates to the electronics unit (flight computer). We expect the 
redesigns to make the electrical system more robust, while improving 
EKV and GBI reliability.
    For existing CE-Is, we are developing updated EKV embedded software 
(ESW) 22.2 to include electronics unit (flight computer) reset recovery 
capability. This capability will be demonstrated through accredited 
system level and formal qualification testing. ESW 22.2 can be loaded 
into CE-Is while the interceptor is in the silo.

    4. Senator Udall. Dr. Gilmore, do you believe there should be a 
future GMD intercept flight test with the CE-1 kill vehicle to 
demonstrate the objectives intended for the failed FTG-07 flight test 
last July?
    Dr. Gilmore. Yes, I believe the MDA needs to fly a GMD intercept 
test with the CE-1 kill vehicle as I recommended in my 2013 Annual 
Report. This should be done to satisfy the test objectives not achieved 
on the FTG-07 mission.

    5. Senator Udall. Ms. Chaplain, do you believe there should be a 
future GMD intercept flight test with the CE-1 kill vehicle to 
demonstrate the objectives intended for the failed FTG-07 flight test 
last July?
    Ms. Chaplain. MDA should conduct a CE-I test once the cause of the 
July 2013 test failure is understood and any mitigations are developed 
in order to demonstrate the original objectives of FTG-07. Although MDA 
has demonstrated the CE-I's initial capability, FTG-07 was originally 
designed to assess CE-I performance against more challenging threats 
and longer range targets. Additionally, this test was intended to 
confirm the effectiveness of previous design changes made to improve 
the performance of the CE-I.
    We recognize that MDA must balance several competing GMD 
priorities, including which flight tests to conduct, and conducting 
another CE-I flight test in the immediate future may not be feasible. 
However, there remain a number of uncertainties regarding the CE-I 
performance. Until those uncertainties are resolved, the warfighter may 
not be able to make the most effective use of the interceptor because 
they will not know the interceptor's full capabilities and limitations. 
As such, we maintain that flight testing the CE-I should continue to be 
a priority for the Department of Defense (DOD) since the CE-I 
constitutes a multi-billion dollar investment by DOD and serves as the 
primary defense of the U.S. Homeland against enemy ballistic missile 
attacks.

                    standard missile-3 test failures
    6. Senator Udall. Admiral Syring, as noted at the hearing, there 
have been several flight test failures related to the Third Stage 
Rocket Motor that is common to both the Standard Missile (SM)-3 Block 
IA and Block IB interceptors missiles. Please explain what caused this 
problem; how you are addressing it; and how it will affect the full-
rate production decision for the SM-3 Block IB interceptor.
    Admiral Syring. Two Flight Test Standard Missile (FTM) have 
experienced Third Stage Rocket Motor (TSRM) failures; FTM-16 (September 
1, 2011) and FTM-21 (September 18, 2013). The TSRM is a dual pulse 
rocket motor that uses an interpulse delay (IPD) to vary the ignition 
start time of the second pulse which increases SM-3 Block IA and IB 
battlespace. The TSRM is controlled through a nozzle that can vector 
thrust during rocket motor burn and an integrated hybrid attitude 
control system during coast.
    FTM-16 had an unexpected energetic event during second pulse TSRM 
operations causing the missile to lose control. The Failure Review 
Board (FRB) determined the failure to be a result of higher than 
expected heating of the rocket motor case and nozzle joint. The FRB 
discovered a dependency of heating severity on IPD where shorter IPDs 
overheated the aft closure joint. To address the issue, the heating 
effects were mitigated by limiting the minimum IPD. The FTM-16 FRB was 
closed and the final report was issued in December 2012.
    FTM-21 was the first flight test to employ a dual salvo engagement 
of a single target and the first SM-3 intercepted the target, while the 
second missile experienced a TSRM anomaly in the second motor pulse 
during flight following a maximum IPD. A FRB to investigate FTM-21 has 
been established and the leading theory is that the TSRM failure was 
due to severe internal flow conditions that eroded an O-ring located at 
the rocket motor case and nozzle interface. The FTM-21 FRB is expected 
to close in December 2014.
    Based upon ground and flight test firings, the TSRM currently meets 
overall design reliability requirements. Between ground tests and 
flight tests of the IA and IB, the TSRM has been 23 for 23 and 19 for 
21, respectively. A TSRM Engineering Change Proposal (ECP) that 
addresses both FRB findings and adds design margin to the TSRM began in 
March 2014 with final ECP design scheduled for completion in third 
quarter fiscal year 2015. The ECP makes minor changes to the insulators 
at the motor case and nozzle joint, which will better protect the O-
ring. The current ECP development and test schedule will support the 
fiscal year 2015 production and a retrofit decision for the current SM-
3 fleet will be made after completion of ECP testing with a final 
decision based on a reliability cost-benefit analysis.
    Operational testing of the SM-3 Block IB is complete and a 
production decision for the SM-3 Block IB for fiscal year 2015 and 
beyond is dependent upon system suitability and effectiveness 
determination by the Director, Operational Test and Evaluation (DOT&E), 
and submission of the Initial Operational Test and Evaluation report to 
the Secretary of Defense and congressional defense committees. It is 
anticipated that DOT&E will support full rate production.

                   european phased adaptive approach
    7. Senator Udall. General Mann, the European Phased Adaptive 
Approach (EPAA) to missile defense is designed to provide increasing 
levels of missile defense capability for the North Atlantic Treaty 
Organization (NATO) Europe against Iran's growing regional ballistic 
missile threat. The first of 3 EPAA phases was deployed at the end of 
2011, and we understand that Phase 2 is on track for deployment in 
Romania and at sea during 2015 and Phase 3 is on track for deployment 
in Poland and at sea in the 2018 timeframe. From a warfighter 
perspective, will the EPAA provide a necessary and significant military 
capability to defend NATO Europe against Iran's growing ballistic 
missile threat, including our forward deployed forces in the region?
    General Mann. Yes, additional military capabilities will be 
achieved to defend NATO and our forward deployed forces against the 
growing threat. Upon completion of Phase 2 in 2015, the EPAA will 
provide a more robust capability to defend against short- and medium-
range ballistic missile threats. Operational deployment of sea- and 
land-based SM-3 Block IBs will provide multiple, in-flight, 
opportunities to engage and destroy threat missiles. The follow-on 2018 
operational fielding of Phase 3 capabilities, to include sea- and land-
based deployment of SM-3 Block IIAs, will result in added ability to 
counter more sophisticated threats and extend coverage to European 
partners and forward deployed forces threatened by longer range 
ballistic missiles.

    8. Senator Udall. Ms. Bunn, what is the level of support from our 
NATO allies, particularly Romania, Poland, Turkey, and Spain, for our 
planned EPAA deployments, and what actions are they taking to improve 
NATO missile defense?
    Ms. Bunn. All NATO allies fund the expansion of the missile defense 
command and control system through NATO common funding. NATO also 
operates a BMD Operations Center (BMDOC) in Ramstein, Germany. The 
BMDOC is operational 24-hours a day, 7-days a week, and is staffed with 
officers from several NATO countries.
    Several NATO allies are also making voluntary contributions, which 
vary from hosting U.S. missile defense assets (Romania, Poland, Turkey, 
and Spain) to fielding operational capabilities available for NATO 
deployments. Poland currently possesses RAT-31 radars and has announced 
its intention to spend U.S. $10 billion to acquire integrated air and 
missile defense capabilities for territorial defense. Poland will host 
a U.S. Aegis Ashore site and will be responsible for external site 
security. Romania will also host a U.S. Aegis Ashore site and will be 
responsible for external site security. Spain currently has one PAC-2 
battery in its inventory. It has also agreed to host four U.S. Aegis 
ships in Rota and will be responsible for external site security. 
Turkey currently possesses RAT-31 radars and has decided to acquire a 
lower-tier air and missile defense system. Turkey currently hosts a 
U.S. AN/TPY-2 radar and is responsible for external site security. 
Other NATO countries are evaluating potential national contributions to 
NATO BMD. The United States welcomes any member's decision to 
contribute to this important mission.

    9. Senator Udall. Admiral Syring, you have indicated that EPAA 
Phases 2 and 3 are on track for deployment in 2015 and 2018, 
respectively. You also indicated that Phase 3 will depend on the 
successful development and testing of the SM-3, Block IIA interceptor 
we are jointly developing with Japan. Please explain the current 
development and test schedule risks for the SM-3 IIA interceptor, and 
whether you will adhere to the fly-before-you-buy approach of 
demonstrating its capability in realistic intercept flight testing 
before deploying the system.
    Admiral Syring. The SM-3 Block IIA is currently on schedule to meet 
EPAA Phase 3 deployment (by end of calendar year 2018). At this stage, 
development and test schedule risk is in component level 
qualifications. To reduce risk, the program has established and is 
conducting a comprehensive ground-based qualification test plan for all 
principle components. These ground tests will validate missile 
component design and performance and reduce risk in advance of flight 
testing in second quarter of fiscal year 2015. One such ground test was 
the Propulsion Test Vehicle-01 conducted in October 2013 in which the 
missile and new composite canister both demonstrated successful and 
safe ignition and egress from the vertical launching system.
    The SM-3 Block IIA program will adhere to the fly-before-you-buy 
approach. Program flight testing as defined by the current MDA 
Integrated Master Test Plan (IMTP) is:
    SM-3 Cooperative Development (SCD) Flight Test events:

        <bullet> Controlled Test Vehicle-1 (CTV-1) scheduled for the 
        second quarter of fiscal year 2015;
        <bullet> CTV-2 scheduled for the fourth quarter of fiscal year 
        2015;
        <bullet> SCD Flight Test Mission-1 (SFTM-1) scheduled for the 
        third quarter of fiscal year 2016;
        <bullet> SFTM-2 scheduled for the first quarter of fiscal year 
        2017;

    Post SCD Flight Test (support for production decision) events:

        <bullet> Flight Test Mission 29 scheduled for the first quarter 
        of fiscal year 2018;
        <bullet> Flight Test Operation 03 Event 1 scheduled for the 
        third quarter of fiscal year 2018;
        <bullet> Flight Test Operation 03 Event 2 scheduled for the 
        third quarter of fiscal year 2018; and
        <bullet> Flight Test Operation 03 Event 3 scheduled for the 
        fourth quarter of fiscal year 2018.

                   iranian icbm development estimate
    10. Senator Udall. Ms. Bunn, Admiral Syring, and General Mann, at 
this full committee's worldwide threats hearing in February, the 
Director of National Intelligence (DNI), James Clapper, was asked about 
public estimates that Iran could be ready to test an ICBM as soon as 
2015, and whether it would take Iran more time to actually integrate a 
nuclear weapon onto an ICBM. DNI Clapper answered: ``That's quite 
right. What we're speaking of here is simply a missile system that 
could potentially have ICBM-class range. That's not to say anything 
about their actually mating it with a nuclear weapon. That's another 
problem.'' Do you agree with DNI Clapper's assessment that, while Iran 
might start testing longer-range missiles as soon as next year, it 
would be an additional problem for Iran to integrate an operational 
nuclear weapon onto an ICBM, and take more time--if Iran were to decide 
to pursue nuclear weapons?
    Ms. Bunn. Yes, I concur in DNI Clapper's assessment that it would 
take Iran additional time to integrate an operational nuclear weapon 
with an ICBM.
    Admiral Syring. Yes, I agree with DNI Clapper's assessment.
    General Mann. Yes, I agree with DNI Clapper's threat assessment 
regarding Iran.

                      testing content and schedule
    11. Senator Udall. Dr. Gilmore, you noted in your testimony that 
scheduled missile defense tests have often slipped for a variety of 
reasons. The MDA has indicated that, as reflected in the IMTP, it has 
worked to realign tests to maintain as much planned test content--
meaning test objectives measured by Critical Engagement Conditions and 
Empirical Measurement Events--as early as practicable. Please provide 
your views on whether the evolving IMTP has managed to realign the 
collection of such empirical data without undue delay.
    Dr. Gilmore. The MDA uses a very rigorous process to revise the 
IMTP twice a year to account for the results of past testing, including 
failures, and to maintain progress in collecting the empirical data 
needed to validate and accredit the models that must be used to fully 
evaluate the performance of the BMDS. I am an integral part of that 
process and approve the document once finalized. To date, I am 
satisfied that the MDA's revisions to the IMTP have placed appropriate 
priority on collecting key empirical data (specifically, Critical 
Engagement Conditions (CEC) and Empirical Measurement Events (EME)) 
without undue delay. Tracking progress in collecting those data over 
time will become substantially easier in the future. The MDA and the 
BMDS Operational Test Agency (OTA) have recently jointly developed a 
software tool that allows quick, automated assessment of the impact of 
IMTP changes on CEC/EME data collection, and ultimately its impact on 
digital model verification, validation, and accreditation.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                redesigned exo-atmospheric kill vehicle
    12. Senator Sessions. Admiral Syring, is the focus on improving 
reliability of the current kill vehicle or improving performance? In 
other words, will the redesigned kill vehicle be more capable?
    Admiral Syring. The redesigned EKV (RKV) will improve EKV 
reliability and performance. We initiated a rigorous system engineering 
process to define balanced requirements to make a producible, reliable, 
available, and testable redesigned EKV. It will be built to improve 
performance against the emerging threat in the context of balanced BMDS 
architecture. The architecture includes a long-range discriminating 
radar (LRDR) and a BMDS-wide set of discrimination improvements for 
Homeland defense.

    13. Senator Sessions. Admiral Syring, if your first test of the RKV 
is fiscal year 2018, what year can we expect to start and complete the 
retrofit of our 44 GBIs with the new RKV?
    Admiral Syring. We plan to begin fielding the RKV in fiscal year 
2020. More details will be provided in the acquisition strategy for the 
RKV later this summer. The strategy will define cut-in points for the 
RKV plus a cost benefit analysis to determine the best value among: (1) 
refurbishing existing CE-I and CE-II EKVs; (2) replacing those EKVs 
with RKVs; or (3) replacing fielded GBIs with new GBIs using the RKV.

    14. Senator Sessions. Admiral Syring, are there plans to develop a 
multiple EKV (placing more than one EKV atop a GBI)? If so, what is the 
schedule?
    Admiral Syring. Yes. As part of Common Kill Vehicle Technology 
effort, we will invest in multi-object kill vehicle technology. These 
investments reduce costs of production and weapon system operations. 
Cost reductions made through new kill vehicle architectures and 
scalable technology will improve the performance of our interceptor 
fleet against an evolving threat. Our investments in large-format focal 
plane arrays, smaller inertial measurement units, and high-performance 
propulsion components (plus kill vehicle architectures) are key 
enablers. Technology development lets us engage numerous and 
increasingly complex threats. It will eventually establish the 
foundation for killing multiple lethal objects from a single SM-3 or 
GBI and lead to developing a multiple kill vehicle capability beyond 
2021; see schedule attached.
    Attachment:
    As stated
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    15. Senator Sessions. Admiral Syring, is there funding in the 
Future Years Defense Program (FYDP) for this effort?
    Admiral Syring. Yes. See the chart below for the EKV funding 
breakout:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

           ground-based midcourse defense system improvement
    16. Senator Sessions. Admiral Syring, in addition to the RKV, what 
other steps is MDA taking to improve the GMD system and how much will 
these various efforts cost?
    Admiral Syring. The four major steps to improve GMD reliability and 
capability are: (1) redesigning the EKV; (2) upgrading GBIs in the 
fleet to resolve known risks and problems; (3) increasing the 
robustness of the stockpile reliability program; and (4) improving 
discrimination through improved ground and interceptor software.
    The President's budget 2015 submission for these steps is shown in 
the table below:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    17. Senator Sessions. Admiral Syring, while you've added about $660 
million to the GMD program over the next 5 years, the cost to develop a 
RKV is about $700 million. How can you accomplish these other 
objectives?
    Admiral Syring. The primary Homeland defense objectives include 
discrimination improvements for Homeland defense (DIHD), LRDR, and the 
RKV.
    The fiscal year 2015 budget request for DIHD is $122 million, 
spread across various MDA program elements (PE): PEs (0603179C, 
0603882C, 0603884C, 0603890C, and 0603896C).
    The fiscal year 2015 budget request for LRDR is $79.5 million, 
which includes $29 million in military construction (MILCON) funding 
for planning and design. The remaining $50.5 million for LRDR is in PE 
0603884C/Project MD96.
    For the RKV, the amount budgeted in PE 0603882C/Project MD97 is 
$705 million for fiscal years 2015 to 2019, with $99.5 million 
requested in fiscal year 2015.
    The fiscal year 2015 budget request provides for continued 
development of these new GMD and Homeland defense objectives. We will 
continue to assess the requirements and funding required for the GMD 
program and Homeland defense in future budget requests.

    18. Senator Sessions. Admiral Syring, do you still have plans to 
develop and test a two-stage GBI? What are the advantages, what is the 
schedule?
    Admiral Syring. Yes, the MDA plans to flight test a two-stage GBI. 
The next test planned for fiscal year 2019 is Flight Test GMD (FTG)-17.
    The two-stage GBI provides flexibility to the warfighter due to an 
increase in battle space and opportunities for multiple shot 
engagements. The GMD program of record (POR) supports test article 
design improvements (trajectory fly-out fans, software timing, etc.) 
and a two-stage flight test.
    Deploying a two-stage GBI requires additional activities (system 
design that leads to production decision, non-recurring engineering to 
complete GBI design, updating operational software) that are not 
included in the GMD POR. The MDA is working with the warfighter to 
develop operational requirements that will be reflected in an 
acquisition strategy for future GBIs to be approved this summer.

                                 russia
    19. Senator Sessions. Admiral Syring and General Mann, what missile 
defense capabilities might be useful as part of a potential military 
response to Russian aggression in Crimea? Russia deploys short range 
ballistic missiles and cruise missiles that could be vulnerable to our 
Patriot, THAAD, and SM-3 missiles.
    Admiral Syring. [Deleted.]
    General Mann. Although the actual effectiveness of any defensive 
system is dependent on scenario specific variables, the Patriot, THAAD, 
and SM-3 missile defense systems are designed to defend critical assets 
from short- and medium-range missile threats. Patriot also has a 
capability to defend against cruise missiles. These systems are low-
density/high-demand assets currently deployed to several areas of 
operation, to include the U.S. European Command. I defer to the Office 
of the Secretary of Defense on any discussion regarding their potential 
deployment to address the Crimea situation.

    20. Senator Sessions. Admiral Syring and General Mann, could we 
accelerate current plans to field SM-3 missiles in Romania (2015) and 
in Poland (2018)?
    Admiral Syring. The MDA is on schedule to deliver Aegis Ashore to 
Romania in 2015 and to Poland in 2018 in support of EPAA Phases II and 
III. Should DOD decide to accelerate deployment of these systems, it 
would be costly. Acceleration wouldn't include the more capable SM-3 
Block IIA guided missile, and there are other associated risks.
    With regard to Romania, construction began at the Aegis Ashore 
Romania site in October 2013. No opportunities exist to accelerate the 
schedule on the ongoing MILCON project due to procurement schedules of 
long-lead items.
    By increasing shift work, we could accelerate Aegis BMD weapon 
system (AWS) installation, integration, and testing by approximately a 
couple of months with additional Research, Development, Test, and 
Evaluation (RDT&E) funding. Any acceleration to the Navy's integration 
and testing and manning schedule and plans must be determined by the 
Office of the Chief of Naval Operations.
    With regard to Poland, there are two options to accelerate 
deployment of Aegis Ashore Poland:
Option 1. Acceleration of Aegis Ashore Poland by 9 months
    Shorten MILCON contract acquisition time by awarding a negotiated 
sole source contract

        <bullet> May result in a higher negotiated cost requiring more 
        MILCON funding
        <bullet> Coordination with United States Army Corps of 
        Engineers (USACE) as DOD construction agent is required to 
        revise acquisition strategy and obtain sole source approval
        <bullet> Current Aegis Ashore host nation-Poland (HN-PL) AWS 
        equipment contract delivery date supports this option
Option 2. Acceleration of Aegis Ashore Poland by 18 months
    Requires MILCON funding availability in the fiscal year 2015 budget

        <bullet> May result in a higher negotiated bid requiring more 
        MILCON funding
        <bullet> Contracting acceleration; issue a sole source design-
        build contract
        <bullet> Requires coordination with USACE as the DOD 
        construction agent to revise acquisition strategy and obtain 
        sole source approval

    Requires more RDT&E funds due to an accelerated schedule requiring 
complex premium shift work and additional equipment. Includes 
specialized material handling equipment during site activation, 
installation and checkout, and transition and transfer leading to 
initial operational capability
    Requires AWS equipment swap with Navy, coordinated with Navy 
program executive officer, Integrated Weapon System, and must be 
authorized by Congress

        <bullet> Maintains current Aegis Ashore HN-PL AWS equipment 
        contract delivery date
        <bullet> AWS ship set accelerated delivery does not require 
        modification of funding
        <bullet> Margin exists in AWS delivery where both options 
        support operational capability

    The accelerated Aegis Ashore system will be able to launch SM-3 
Blocks IA and IB guided missiles. The Aegis BMD 5.1 weapon system 
(required to launch the IIA missile) and SM-3 Block IIA missile will 
not be available earlier than 2018. However, compliance with section 
223 of the National Defense Authorization Act for Fiscal Year 2011 
(P.L. 111-383) requires us not to procure other than long-lead or 
deploy operational missiles on European land until operationally-
realistic testing of the interceptor and system are certified to 
Congress.
    MDA can only address costs and programmatic impacts of MDA 
responsible efforts. A more complete response requires coordination 
with the Navy and other organizations to more fully reflect DOD costs, 
operational impacts, and national security policy implications.
    Note: The MDA delivers all SM-3 missiles to U.S. Fleet Forces 
Command for allocation to combatant commanders. U.S. Fleet Forces 
Command determines the mix of variants deployed to ships and ashore 
based on BMD requirements through the Global Force Management process. 
Deploying SM-3 interceptors to Poland before delivery of the SM-3 Block 
IIA in 2018 would reduce the availability of SM-3 Block IB guided 
missiles.
    General Mann. I defer to the MDA to address this question but my 
understanding is resource constraints, planned production, fielding and 
manning schedules, and basing agreements with the host countries may 
impact the ability to accelerate the current plans.

    21. Senator Sessions. Admiral Syring and General Mann, does MDA 
have any plans to develop space-based interceptors if Russia becomes a 
direct and aggressive threat to the United States and its allies? If 
not, why not? Is it a matter of technology, funding, or simply policy?
    Admiral Syring. [Deleted.]
    General Mann. I defer to the MDA to respond.

                    east coast missile defense site
    22. Senator Sessions. Ms. Bunn, what kind of ICBM threat from Iran 
would prompt the administration to make a deployment decision on a 
third site?
    Ms. Bunn. The improvements to the GMD system, including the 
deployment of 14 additional interceptors, give the United States the 
ability to stay ahead of a projected ballistic missile threat from 
Iran.
    If an ICBM threat from Iran were to emerge in numbers that 
necessitated the deployment of additional interceptors beyond the 44 
currently planned, the steps being taken now, including completing an 
EIS, would shorten the construction timelines associated with 
deployment of a new missile defense site.

    23. Senator Sessions. Ms. Bunn, Admiral Syring, and General Mann, 
the administration was surprised by the threat from North Korea--
prompting the March 2013 decision to add back the 14 GBIs in Alaska, 
which DOD cancelled in 2009. How do we know we won't be surprised by 
the Iranians?
    Ms. Bunn. We continually monitor the long-range ballistic missile 
threat from Iran and North Korea, and we made the decision to expand 
the number of deployed GBIs on the basis of those threat projections. 
The expansion of our Homeland defense will also provide additional 
capability against potential Iranian ICBMs. We continue to make 
investments in order to stay ahead of the ballistic missile threat to 
the Homeland by improving sensor capabilities and interceptor 
reliability.
    Admiral Syring. This question requires an intelligence assessment 
to answer. Accordingly, the MDA respectfully defers this question to 
the DOD Intelligence Community for a response.
    General Mann. The research, development, and testing regimen 
required to develop a missile capable of intercontinental ranges is 
significant. The Intelligence Community continually assesses research 
and development, testing, infrastructure, and operational readiness 
data in order to provide indications and warnings of an adversary's 
ballistic missile capabilities. Testing conducted by Iran would likely 
be detected by a number of national and international monitoring 
activities and would serve to provide insight into their ballistic 
missile program development progress.
    We must continue to enhance our own BMD capabilities against the 
evolving threat. Improved sensor capabilities and interceptor 
reliability will serve to further enhance our ability to counter these 
threats.

    24. Senator Sessions. Ms. Bunn, Admiral Syring, and General Mann, 
what steps can we take to shorten the time necessary to field a third 
site in the United States?
    Ms. Bunn. The administration is taking steps now to shorten the 
timeline for fielding another interceptor site in the United States. 
The MDA has evaluated potential sites and has chosen four sites for 
additional evaluation. MDA will complete an EIS that encompasses the 
four sites. Preparing an EIS would shorten the timeline for deployment 
should the administration make the decision to do so.
    Admiral Syring. The administration has not made a decision to 
execute a continental U.S. interceptor site (i.e. east coast missile 
defense site). The MDA is taking steps to shorten the timeline for 
fielding another interceptor site in the United States. The MDA 
evaluated potential sites and selected four candidates for further 
evaluation. The $20 million provided by the fiscal year 2014 Omnibus 
Appropriations Act for National Defense Authorization Act for Fiscal 
Year 2013, section 227 activities allows MDA to allocate funds and 
initiate the efforts related to the continental U.S. interceptor site. 
Those efforts include conducting an EIS encompassing all four candidate 
sites, conducting geotechnical and unexploded ordnance surveys, 
developing non-site specific master plans, and refining modeling and 
simulation tools to address the inclusion of another interceptor site.
    If the administration decides to accelerate work on a continental 
U.S. interceptor site, regardless of the year started, the first year 
would require approximately $30 million of MILCON Planning and Design 
funding on non-site specific design to shorten the timeline for site 
activities.
    General Mann. The most prudent step to reduce the timeline to field 
a potential third missile defense site is already in progress. 
Compliance with section 227 of the National Defense Authorization Act 
for Fiscal Year 2013, which directs evaluation and environmental impact 
assessments of potential U.S. missile defense sites, will shorten the 
time necessary to achieve an operational site by an estimated 24 
months. If a decision to field a third site is made, predictable 
resources and rapid contracting authority would assist in optimizing 
the schedule timeline.

                    east coast missile defense radar
    25. Senator Sessions. Ms. Bunn and Admiral Syring, there is no 
funding in the FYDP for an additional LRDR. How do you plan to address 
the need for an additional discriminating radar directed against 
Iranian threats?
    Ms. Bunn. The fiscal year 2014 President's budget request includes 
funding to begin development of the LRDR. Over the FYDP, DOD plans to 
continue LRDR development and to acquire one radar.
    The administration has not made a decision regarding the 
acquisition of a second LRDR. This decision will be based upon the 
projected threat and the capabilities needed to counter that threat.
    Admiral Syring. The MDA is evaluating options and has not made a 
decision on the acquisition of a second LRDR. We plan to address the 
need for a second LRDR by monitoring the maturation of the threat, 
potentially moving the Sea-Based X-Band Radar to the Atlantic, and 
potentially developing a second LRDR.

    26. Senator Sessions. Ms. Bunn and Admiral Syring, ultimately, is 
the plan to purchase another LRDR for the east coast? Shouldn't we see 
such funding in the FYDP?
    Ms. Bunn. The administration has not made a decision regarding the 
acquisition of a second LRDR. This decision will be based upon the 
projected threat and the capabilities needed to counter that threat.
    Admiral Syring. The MDA is evaluating options and has not made a 
decision on the acquisition of a second LRDR. This decision will be 
based upon the maturation of the threat and the capabilities needed to 
counter that threat. There is an option to deploy the Sea-Based X-Band 
Radar to the Atlantic while the need for a second LRDR is assessed.

 
 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

  NATIONAL NUCLEAR SECURITY ADMINISTRATION MANAGEMENT OF ITS NATIONAL 
SECURITY LABORATORIES AND THE STATUS OF THE NUCLEAR SECURITY ENTERPRISE

    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-222, Russell Senate Office Building, Senator Mark Udall 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Udall [presiding], 
Donnelly, King, Sessions, and Fischer.

       OPENING STATEMENT OF SENATOR MARK UDALL, CHAIRMAN

    Senator Udall. The Strategic Forces Subcommittee will come 
to order. Good afternoon to all who are attending.
    Let me make a short comment initially on questions and 
timing of this hearing. We have two panels today, and I'd like 
to conclude the hearing at 4 p.m., with 45 minutes per panel. 
That means the first panel will go until about 3:15 p.m., and 
then the second panel will go until about 4 p.m.
    I want to note that we have a series of five stacked votes 
starting at 3:30 p.m., and I'll stay as long as possible past 
3:30 p.m., and then go vote. Then hopefully some of my other 
colleagues will have had a chance to vote and they can come 
back and close the hearing, if that's okay with my colleagues, 
and I'm sure it will be.
    I'm going to ask my colleagues if 7-minute rounds makes 
sense. Seeing no objection, we will go with 7-minute rounds.
    With that, let me start off with our first panel with Dr. 
McMillan, Dr. Hommert, and Dr. Goldstein.
    I think I'm going to put my statement in the record and 
turn to Senator Sessions if he had any comments because I know 
we want to get to some questions.
    [The prepared statement of Senator Udall follows:]
              Prepared Statement by Senator Mark E. Udall
    Let me bring today's hearing to order. This afternoon, we will 
receive testimony regarding the National Nuclear Security 
Administration (NNSA) Laboratories and the Status of the Nuclear 
Security Enterprise. I'd like to thank all of the witnesses for taking 
the time to appear here this afternoon.
    We will have two panels today; the first panel will consist of NNSA 
Laboratory Directors, Dr. Charles McMillan of Los Alamos, Dr. Paul 
Hommert of Sandia; and Dr. William Goldstein of Lawrence Livermore. The 
second panel will consist of Mr. Norman Augustine and Admiral Richard 
Mies, co-chairs of the Congressional Committee on the Governance of the 
Nuclear Security Enterprise at the Institute for Defense Analysis.
    The heart and soul of our Nation's nuclear deterrent are the 
scientists and engineers working in our NNSA laboratories.
    The relationship between science and the nuclear enterprise was 
best highlighted by Robert Oppenheimer who at the end of World War II, 
looked back on the Manhattan Project and said to his fellow scientists 
at Los Alamos that:

          ``If you are a scientist you cannot stop such a thing. If you 
        are a scientist you believe that it is good to find out how the 
        world works; that it is good to find out what the realities 
        are; that it is good to turn over to mankind at large the 
        greatest possible power to control the world and to deal with 
        it according to its lights and its values.''

    The core mission of these laboratories has not changed since 
Oppenheimer reflected on the nature of the scientific enterprise that 
serve as the foundation of our deterrent. That scientific base is a 
fragile enterprise that needs constant oversight by the witnesses here 
today--and by this subcommittee. Congress needs to ensure the resources 
are available to maintain this scientific enterprise so that our 
nuclear deterrent remains an effective one.
    The testimony of the first panel will be on the NNSA laboratories 
relative to the fiscal year 2015 budget. I look forward to the views of 
the laboratory directors as they are our eyes and ears on the state of 
health of the laboratories and the stockpile.
    The second panel will inform us of the status of the nuclear 
security enterprise as a whole--including the relationship between the 
laboratories and the NNSA. Mr. Augustine and Admiral Mies already have 
a track record of being forthright and I expect as much today in their 
testimony.
    With that, I'll turn to Senator Sessions for his opening statement 
and then we'll move to the witnesses for their opening statements.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Right, we do, and we, unfortunately, have 
had three votes coming up all of a sudden here.
    Please note that I think all of us believe that we need a 
modernized nuclear force, that we're past due for that, and we 
need the help of the labs to get there. But, I'll just say it 
this way. I'm glad you're reevaluating, intensely, construction 
of new buildings and some of the other things. Imagine that we 
might just ask France to do this for us, and I suspect it would 
be cheaper. We've created such a large infrastructure over the 
decades that we're not as lean as we ought to be. We are just 
hammering the military. We just had the Army people in, this 
morning, talking about going from 570 to 490 to 450 and maybe 
420 in uniformed troop levels. So, the money's tight.
    The nuclear program, including the triad, is only about 5 
percent of our budget, but that's not an excuse for not 
managing every dollar carefully. You probably know that my view 
is that we have to get this done, we'll pay the price that's 
needed to get there, but if we can do it for less, and 
effectively, that's what I believe is our responsibility to do.
    Mr. Chairman, thank you. I've enjoyed working with you on 
this subcommittee. You've done a good job, and I believe that 
we're reflecting, pretty much, the national interest. That's 
what I'm pleased about.
    Thank you. I'll look forward to hearing from the witnesses.
    Senator Udall. Thank you, Senator Sessions.
    I do owe each of you just a brief introduction, and to 
connect you to the laboratories that you all helm. We have the 
National Nuclear Security Administration (NNSA) laboratory 
directors: Dr. Charles F. McMillan, of Los Alamos; Dr. Paul J. 
Hommert, of Sandia; and Dr. William H. Goldstein, of Lawrence 
Livermore.
    Dr. McMillan, why don't we start with you.

  STATEMENT OF DR. CHARLES F. McMILLAN, DIRECTOR, LOS ALAMOS 
                      NATIONAL LABORATORY

    Dr. McMillan. Thank you, Chairman Udall and Senator 
Sessions. I appreciate the opportunity to appear here before 
the subcommittee today.
    I am Charlie McMillan, the Director of Los Alamos National 
Laboratory (LANL), and I ask that my written comments also be 
entered into the testimony as part of the record.
    Today, I want to focus on Los Alamos' ability to deliver 
today's commitments while ensuring our capabilities for an 
ever-changing future. There are three areas that I'd 
particularly like to draw your attention to: first of all, the 
plutonium strategy; and very much to the point you were making, 
Senator Sessions, reductions in critical program budgets; and 
then harmonizing requirements and budgets.
    I bring these concerns to your attention because, 
particularly within the current global environment, I believe 
the work at our laboratories is fragile. Because of severe 
budget constraints over the last 2 years, there is no longer 
management flexibility, at least at my lab, to address further 
funding shortfalls, balance risks, and meet mission 
requirements.
    We now have, in my view, a sound business case, agreed on 
with NNSA, for a realistic plutonium strategy. We need approval 
to move forward in order to execute our plutonium missions, 
which cannot be accomplished with current aging infrastructure. 
Senator, it's one that we believe is at a much lower price 
point than the Chemistry and Metallurgy Research Replacement 
(CMRR) was.
    Recent budget guidance reduces our funding in three key 
areas: facility and maintenance; security; and our science, 
technology, and engineering base. Any reduction in facility 
budgets undermines mission capabilities, especially to sites 
such as Los Alamos, where infrastructure continues to age and, 
in some cases, dates back to the beginning of the Cold War. 
Current requirements in the area of physical, cyber, and 
information security are outstripping our funding allocations 
and necessitate more prudent management decisions that balance 
risk and available funding.
    As I contemplate the body of science needed to continue 
assessing the safety and reliability of the stockpile in the 
future, underfunding our science base is increasingly risky 
today. I understand that budgets will not grow significantly. 
We've heard your message. Therefore, we must work with the 
Department of Energy (DOE) and NNSA to develop better risk-
informed requirements. Let me give you an example.
    The design basis threats for our physical security posture 
are a place where I believe we could reexamine requirements. 
Following September 11, we added guns, gates, and guards to our 
physical security systems. With security technology 
improvements that are available today and better threat 
analysis capabilities, it's possible to reduce the security 
costs while at the same time maintaining an appropriate 
security stance, but the requirements would have to change.
    The laboratory and its people are committed to our mission, 
solving our Nation's security challenges through scientific 
excellence; however, they must have the tools in order to 
deliver. Congress, the administration, and the laboratory need 
to continue working together to develop an agreement on nuclear 
facility strategies. We face an uncertain future that may be as 
complex as any we have dealt with since the Cold War. We need 
decisions on out-year funding levels that balance risk and can 
be sustained for the complex. Predictability is important. We 
also need decisions on the role of the science, technology, and 
engineering base at our three laboratories.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Dr. McMillan follows:]
             Prepared Statement by Dr. Charles F. McMillan
    Chairman Udall and Ranking Member Sessions, thank you for inviting 
me to testify today. I am Dr. Charles McMillan, Director of Los Alamos 
National Laboratory. I am pleased to have the opportunity to testify 
before the subcommittee on the health of Los Alamos.
    As I have stated previously before the committee, NNSA governance 
will play a key role in determining both our efficiency and 
effectiveness as we address mission and budget challenges. Over the 
past year, I have interacted with both the Congressional Panel on NNSA 
Governance and the National Academy of Sciences. Should I be asked to 
participate in the review established by the fiscal year 2014 Omnibus 
Appropriations Act, I will do so again. I am hopeful that theses panels 
will deliver recommendations that enable a successful nuclear program. 
Future success of the enterprise depends on governance as well as 
budgets and balancing of the program.
    Today I will provide an update on: recent Los Alamos technical and 
scientific achievements; the proposed plutonium strategy under 
evaluation in numerous national security circles; and, Los Alamos 
budget realities that pose challenges to meeting our mission 
requirements.
                            accomplishments
    Since I last appeared before you, our weapons and science programs 
have achieved significant technical breakthroughs, and our operations 
and environmental management organizations have delivered on 
significant commitments.
    In regard to our weapons program, we again completed, on time, my 
letter to the Secretaries of Energy and Defense regarding the 2013 
Annual Assessment. We successfully conducted two B61 hydrodynamic 
shots, which were executed as planned and within committed budget 
levels. Los Alamos executed the important subcritical experimental 
series, Gemini, and I am pleased that the fiscal year 2015 request 
recognizes this success by including an increase for the Los Alamos 
subcritical experiments at Nevada (I'll note that the team was just 
recognized with the Department of Energy, Secretary's Achievement 
Award; their highest non-monetary award). The capabilities supported by 
the increase will provide an important new tool for stewardship, 
building on the success of the Gemini series, and filling a present gap 
in our technical understanding.
    Also during the past year, we successfully completed production of 
three W87 development pits. We developed the Plutonium (Pu) Strategy in 
partnership with the National Nuclear Security Administration (NNSA), 
and worked with the Department of Defense (DOD) Cost Assessment and 
Program Execution organization and the Nuclear Weapons Council (NWC) on 
a business case analysis, which affirmed our strategy on plutonium 
infrastructure.
    Over the course of the year, Los Alamos responded to several 
technical issues on the W76-1 that enabled continued production to 
remain on schedule. Los Alamos provided lead design agency support for 
the first successful lot of PBX 9502 (Insensitive High Explosive) 
produced in over 20 years that will benefit both DOD and the Department 
of Energy (DOE). Each of these demonstrates that weapons program 
mission execution remains our key focus, but I'd also like to spotlight 
some remarkable accomplishments from our scientists and engineers that 
go beyond our core mission.
    We continue to excel at the science that underpins all of our 
mission assignments. Los Alamos scientists put several pieces of 
significant hardware and power sources on the Mars Curiosity Rover. One 
of the most impressive called ChemCam, which was developed by a team of 
collaborating institutions, has verified the presence of water on Mars 
and fired over 100,000 laser shots gathering unprecedented data that is 
still being assessed. The tremendous data capabilities for the 
technology do not stop there. The laser, which was originally developed 
for an environmental mission, is an example of technology that has been 
used in a variety of applications and then ``spun into'' one of the 
Lab's core missions. While the laser has now delivered results in the 
environmental and space realms, just this year it was repurposed for a 
nonproliferation mission application tool for inspection and 
diagnostics needs of the International Atomic Energy Agency.
    Members of our Earth Sciences team at Los Alamos have released 
research over the last several years outlining the causes of large 
scale forest mortality. This research is critically important because 
we all see the wildfires on the news every summer and question what 
droughts mean for our Western forests. Our research shows that as the 
West experiences increased temperatures; it is the warmth, not 
necessarily the lack of moisture, which will kill our forests because 
of the water evaporating out of the soils. Using our data, it is now 
possible to forecast forest health or mortality by decreasing or 
increasing ambient air temperatures. We also now have indicators of 
where the greatest fuels loads will be for wildfire preparation 
purposes.
    Los Alamos biologists continue to play a key role in the 
development of a vaccine for the AIDS virus. The considerable diversity 
and adaptability of HIV worldwide represents a critical challenge for 
designing an effective HIV vaccine. Through work done at Los Alamos, it 
appears that a vaccine computationally optimized for immunologic 
coverage of global HIV diversity, called a mosaic vaccine, confers 
protection from infection in an animal model. HIV mosaic vaccines are 
being moved into human trials, and the approach has the potential to be 
groundbreaking in the global fight to combat this deadly disease. This 
research has been done in collaboration with several universities and 
has been funded by the Federal Government and non-profits like the 
Gates Foundation.
    In addition, Los Alamos has recently made progress on two key 
operational issues related to our Plutonium facility that have now been 
either resolved or are well on their way to resolution:

        <bullet> Nuclear Materials Safeguards and Security Upgrades 
        Project II: This complicated, multi-layered technology security 
        project challenged the Laboratory on many dimensions. But I can 
        tell you today that working with NNSA, we have completed this 
        important upgrade. The new integrated security systems are now 
        operable and protecting assets.
        <bullet> We are making significant progress in resolving the 
        criticality safety concerns at our plutonium facility that 
        caused us to pause operations. We have improved our criticality 
        safety posture and are in the process of resuming our important 
        activities and deliverables.

    Finally, the environmental management cleanup campaign to remove 
3,706 cubic meters of transuranic waste from the site by June 30, 2014 
has been one of the largest and most complex waste cleanup challenges 
the Laboratory has undertaken. As of February when the Waste Isolation 
Pilot Plant (WIPP) experienced issues and suspended incoming shipments, 
we were at 85 percent Campaign completion. Today, box and drum 
processing is complete for the remaining 120 shipments, and we have 
identified alternate temporary storage for them. Shipment to Waste 
Control Specialists in Texas commenced the first week of April and 
completion of the 3,706 m3 Campaign by the deadline is again on track. 
We will continue to support WIPP in their investigation efforts so this 
important resource will once again be available in the future.
    I am very proud of the hard work put forth by the Laboratory staff 
to achieve these impressive successes. What I hope will continue to be 
a positive story is the next update regarding our proposed alternate 
Plutonium strategy.
                           plutonium strategy
    Last year in testimony before this subcommittee I outlined the 
structure of an alternate Plutonium Strategy that would provide the 
country with critical plutonium capabilities, including pit production, 
in the absence of the Chemistry Metallurgy Research Replacement-Nuclear 
Facility (CMRR-NF) at Los Alamos. Over the past year, we have worked 
hard to turn these ideas into a plan.
    The Strategy proposes a three-phased approach. The phased approach 
is designed to manage both safety and programmatic risk in the near, 
mid, and longer term timeframe and to address risks in the timeworn 
Chemistry and Metallurgy Research (CMR) Facility and Plutonium Facility 
(PF)-4 respectively. I believe the current plan, if fully implemented, 
will both preserve our critical plutonium capabilities once the CMR 
building is finally shuttered, and it will greatly extend the life of 
our existing Plutonium processing capability at Technical Area (TA)-55. 
This plan is effective, efficient, and timely, and is the best fiscal 
solution for this country.
    Getting more out of our existing facilities and breaking up new 
construction projects into small achievable pieces, reduces many of the 
problems associated with prior ``big box'' nuclear construction 
projects. Issues such as large annual funding requirements and decades-
long acquisition periods will be scaled down to manageable levels and 
will be adaptable to future changes in requirements.
    The three key elements of the current plan involve modifying CMRR-
Radiological Laboratory Utility Office Building (RLUOB) so we can 
slightly increase the amount of material in the facility per revised 
guidance, while keeping it as a radiological facility (thanks to the 
efforts of NNSA in updating regulations to bring the facility into 
alignment with modern safety standards). The ability to increase the 
materials from about the mass of one nickel's worth of weapons grade 
material, to about two nickels' worth of mass may not sound like much, 
but it is significant. We are currently in the process of outfitting 
RLUOB with equipment that will enable us to take advantage of the 
increased material allowed in the building.
    However, I believe that RLUOB is not a silver bullet because we 
still must have the capability to handle kilograms of material not just 
the gram quantities currently allowed at the facility. The requirements 
lead us into our proposed Phase II recommendation which is to better 
utilize our existing high hazard nuclear space in PF-4.
    Reconfiguring PF-4 would allow us to accommodate the analytical and 
materials chemistry capabilities that cannot be transferred to the 
CMRR-RLUOB (see attachment 1). Over the past decade, many of our 
planning assumptions that were valid when CMRR was designed have 
changed, allowing us to reclaim about 10 percent of the valuable lab 
space in PF-4. In combination with Phase 1, this space can enable us to 
terminate operations in the CMR Facility for less than the overall cost 
compared to constructing CMRR-NF. This reduced cost profile also comes 
with limits to manufacturing capacity and lacks a long-term vault, but 
near-term requirements have changed to the point where this is a 
reasonable compromise for the near term.
    We have plutonium recovery requirements that were implemented 
during the Cold War to preserve as much of our limited supply of this 
vital metal as possible. We now have an abundant supply of the 
material, so if we reduce the recovery requirement and eliminate the 
redundant equipment needed for these operations, we now have very 
valuable vacant existing space. This space can be converted over the 
span of a few years for missions of far greater consequence. Also, from 
a cost and regulatory perspective, it is typically less expensive and 
faster to create new missions inside an existing permitted workspace.
    Finally, there will be an unavoidable need to construct new high 
security, nuclear workspace because it is simply not possible to 
indefinitely meet program requirements with the available space. Here 
again, we have come to a conclusion and are proposing to NNSA, that 
smaller, segmented, or modular facility additions will be the most 
effective path forward. Whether it is a plutonium storage vault, a pit 
processing facility, or a radiological diagnostic suite, we will need 
space for these operations after we determine which is least 
appropriate for inclusion in our existing plutonium facility. These 
modest steps should be sufficient to preserve our plutonium 
capabilities into the future and hopefully avoid some of the pitfalls 
we have experienced trying to construct very large multipurpose nuclear 
facilities over several decades. These additions are intended to 
``scale'', not solve, most of the past acquisition challenges with 
``big box'' nuclear projects and be adaptable for a broad range 
possible futures--not just at Los Alamos. Another significant benefit 
to moving operations to modules would be to extend the life of PF-4 for 
several decades.
    I would like to touch on the recent Pit Production report by the 
Congressional Research Service (CRS). Many of the ideas in the report 
were originally contemplated by Lab staff as they began to look at 
alternatives to CMRR-NF. While the report is comprehensive, it fails to 
recognize many of the risks and challenges certain options would face.
    The report envisions sending analytical and materials chemistry 
work that supports the production mission, around the complex to take 
advantage of existing capabilities. This is an approach that we still 
believe to be valid should we need some type of bridging capability. 
However, in the long-term, there will be increased risk by the 
additional shipments of samples through commercial shipping vendors, 
and increased risk in the timeliness of completing the work. In our 
expert opinion, the country needs analytical and materials chemistry 
capabilities to reside at the same place where pits are produced.
    The NNSA and Laboratory's Plutonium Strategy plan does not envision 
the kind of massive upgrade or legislative acceptance of much greater 
risk contemplated by the CRS report. The report suggests that Los 
Alamos could somehow massively upgrade our RLUOB facility to a Hazard 
Category II facility. Nuclear facilities are designed from the ground 
up for their intended purpose. RLUOB was designed as a radiological 
facility, not a Hazard Category II facility. Under the CRS upgrade 
scenario, the proposal would necessitate improvements in security, 
seismic reinforcement, air handling, fire suppression, and other 
systems that were not designed to nuclear facility standards, and 
therefore unable to ultimately address the nuclear safety basis 
requirements. I believe that Los Alamos has the most credible and cost 
effective path forward that could potentially be completed to meet the 
proposed 2019 closure timelines for the CMR Facility.
    Before moving on I would like to mention one more issue related to 
our plutonium mission. With the future Life Extension Programs (LEP) 
schedule delayed, you will likely hear that the need to produce pits is 
no longer on the same timeframe. I think it would be a mistake for the 
country's pit production capabilities to be tied to the future of any 
one-weapon system. In my opinion, it is critical that our country 
maintain this capability and continue to develop a stable and 
responsive pit production infrastructure. We need to heed past lessons 
learned: when this capability was incapacitated for a short period, 
then exorbitant time, energy, and money was spent to bring it back on 
line when the country was again in need. This will always be a 
cornerstone capability, no matter the weapons modernization strategy of 
the time.
    Regardless of the nuclear weapons systems the United States decides 
to move forward with or when, if we do not rejuvenate our limited 
plutonium capabilities, we will have few options going forward. This 
scenario would be particularly troubling should an unforeseen problem 
emerge in our existing systems or if there was a dramatic technological 
or geopolitical surprise with another nuclear armed country. Because of 
delays in project start-up since the decision to defer CMRR-NF, I am 
concerned that we will miss the target date to terminate program 
operations in CMR by 2019. Should we be forced to terminate CMR 
operations before they can be transferred to CMRR-RLUOB and PF-4, our 
ability to execute plutonium missions will be jeopardized.
    Mr. Chairman, our world is becoming more unpredictable. It would be 
a mistake to take our current capabilities for granted. For the most 
part, the infrastructure that supports our stockpile was built during 
the early years of the Cold War. Upgrades to our facilities and 
supporting infrastructure continue to be delayed. There will be a 
period when the infrastructure fails and it will take time and 
significant funding to replace.
                                 budget
    In that vein, I am particularly concerned about the latest budget 
guidance we have received from the Office of Infrastructure and 
Operations in NNSA. Their planning direction would significantly reduce 
our facility operations and maintenance budgets in fiscal year 2015 by 
$56 million, an 18 percent cut compared to fiscal year 2013, with 
additional reductions planned for fiscal year 2016. It will be very 
difficult to deliver on mission requirements if our already-aging 
infrastructure is further undermined, and there will undoubtedly be 
scope impacts to our mission deliverables.
    The past few years have seen deferral of CMRR-NF and reductions in 
the funding available to operate and maintain our aging buildings. Such 
trade-offs can be made in the short term, but over the long term they 
will inevitably be detrimental to our ability to field experiments and 
preserve or build capabilities with metals such as plutonium that 
further our understanding of the stockpile and prepare us to respond 
with future LEPs or other solutions. Simply put, within the existing 
budget allocation, the plutonium sustainment, infrastructure and 
science, and engineering campaigns need attention and a significant 
increase in priority.
    We are living in a period in which we are underfunding our science, 
technology, and engineering base (ST&E). As evidence, both physics 
laboratories are seeing flat or declining budgets at a time period in 
which the NNSA's overall budget has increased by 26 percent (fiscal 
year 2009 compared to fiscal year 2015 request). This stagnation has 
removed all the flexibility we once had to manage our way through 
budget challenges. This gives me serious cause for concern as I 
contemplate the body of science needed to continue assessing the safety 
and reliability of the stockpile in the future.
    Regarding mission funding, I am encouraged by the national 
consensus surrounding the B61 LEP effort, and believe that the Nation 
needs to sustain the momentum associated with full funding, consistent 
with the Nation's treaty commitments to our allies.
    However, it is increasingly clear to me that there is a growing 
divide between the annual funding allocations and the requirements 
placed on us by our partners. The B61 LEP is possible only because we 
invested many years into capability research and development. As we 
move forward, the funding needs for short-term deliverables should not 
come at the expense of the underlying science and engineering base and 
at the expense of our infrastructure to serve tomorrow's mission needs. 
These are again, trade-offs that can be made for limited periods of 
time, but they are not sustainable in the long term. The LEP is the 
eventual deliverable, but multi-year capability investments enable such 
an outcome.
    A plutonium manufacturing capability to sustain newly-manufactured 
pits for the Design Agencies takes many years of investment. These 
capabilities, together with plutonium devices for scaled subcritical 
experiments such as the Gemini series, are essential components of our 
deterrence, as well as critical technologies for enabling the 
confidence to move towards a smaller stockpile.
    As I have stated on previous occasions, it is the ST&E base in 
combination with first-class computational and experimental research 
facilities that will guarantee that we will attract and retain the 
workforce needed to address complex stockpile issues in the future. 
There is no single budget line for ``sustain knowledge-based 
deterrence'', but let me assure you that this knowledge base will be 
the foundation on which our future deterrence will rest, particularly 
as our underground testing program passes into the realm of a 
historical artifact.
    I recognize that everything in the nuclear weapons complex 
typically comes with significant funding requirements attached to it; 
however, the things we need funding for are getting reduced and our 
suggestions to reduce some costs are tabled. I have real, operational, 
working insight on actions that would reduce costs in Pu processing, 
line item projects, and risk/cost analysis in a number of areas. If we 
could get leverage for these ideas and get decisions made, it would 
make a big difference. In the interim, our NNSA mission and performance 
requirements are increasing and there is no reprieve that could be 
provided by prudent management and decisive actions.
    To give you some example, we have seen very little relief in the 
mountain of oversight reviews we must support. Risk aversion among our 
partners is driving our safety mandates to the point where actually 
doing work is becoming increasingly difficult. More generally, simply 
trying to gain permission to build a facility or execute a work scope 
has become problematic because the many layers of permissions now 
routinely generate a ``non-concur'' that stops the process.
    Security requirements are another interesting microcosm. I am 
worried about proposed funding reductions to our physical, cyber, and 
information security budgets as we update our assessment of threats to 
reflect current reality and try to operate within more stringent 
requirements. I have already asked NNSA for permission to reduce the 
size of my physical security staff to meet these reduction targets, but 
our risks will be increased as a result. In addition, our information 
and cyber security budgets are barely staying flat, yet cyber-attacks 
on our computer systems continue to accelerate.
    This is one area that keeps me awake at night because as we have 
seen across this country, cyber intrusions are getting more complex and 
more damaging within both the commercial and government worlds. Again, 
I believe that we could better manage our security needs through 
realistic assessment of risk and make prudent management decisions to 
balance that risk and available funding.
                      nuclear security activities
    Ensuring broader mission delivery in a dynamic and changing world 
is an important part of what the National Laboratories do--and this 
mission delivery is at risk in the present budget. The broad topics of 
nuclear proliferation, nuclear counter proliferation, emergency 
response, and nuclear terrorism are key elements of this nuclear 
security strategy and mission. For example, nuclear counter 
proliferation is a set of activities designed to defeat the development 
and use of nuclear weapons and improvised nuclear devices by sub- or 
extra-national groups, as well as states of proliferation concern. In 
our examination of the National NCP context we see Lines of Operation 
that include identification and prediction of nuclear threats, 
monitoring and detection of proliferation and nuclear terrorism 
activity, upstream defeat of nuclear threat pathways, defeat of nuclear 
weapons of mass destruction (WMD) threats, and attribution of the 
nature and pathway of developing nuclear WMD proliferation.
    Although there is no single U.S. Government Department or Agency 
responsible for all of these lines of operation, NCP is a particular 
focus of Los Alamos because the work is consistent with the objective 
of preventing nuclear terrorism and proliferation that was placed at 
the top of U.S. Nuclear Policy agenda by the Nuclear Posture Review, 
and because countering nuclear threats requires exquisite expertise in 
nuclear weapon design, global monitoring, nuclear intelligence, and 
technical nuclear forensics.
    In order to respond to threats or incidents of a certain type, DOE/
NNSA is required to provide technical assessments, based on nuclear 
design principles, to tactical, operational, and national-level 
decision makers. Los Alamos has a lead role in doing so based on years 
of investment intended to make our nuclear weapons program capability 
available in a tactical, operational environment. Although our nuclear 
weapons program capability is directly applicable to defeating nuclear 
WMD, the materials, processes, and phenomena that may be present in 
nuclear threat objects can be significantly different than the U.S. 
stockpile.
    Therefore, special attention and effort is required to address this 
mission and we can do so in a way that is also synergistic with the 
stewardship of technical capabilities for the U.S. stockpile. However, 
funding within the Counterterrorism and Counterproliferation Programs 
and Nuclear Counterterrorism Incident Response components of the NNSA's 
Weapons Activities account has been volatile recently and may not 
adequately address the requirement to provide technical assessments 
based on nuclear design principles for aspects of the NCP mission. It 
is yet another example where national requirements for which we have 
responsibility are at significant risk of not being met.
    I bring these budget and risk issues to your attention because in 
past years I would look for ways to mitigate the funding repercussions 
without impacting my mission requirements, but this year I believe we 
are cutting it too close. The U.S. nuclear policy related to weapons 
systems, critical facilities, and commitments to maintain core defense 
and science capabilities is in a period of transition that translates 
into program risk and ultimately a national security risk.
                               conclusion
    Mr. Chairman, as I look to the future, if these requirements and 
budgets persist, I have significant concerns about the health of the 
weapons program and the skills and capabilities of Los Alamos. We need 
weapons design work to exercise our weapons scientists, we need 
appropriate nuclear facilities to work in, and we need to sustain the 
broader science base required at Los Alamos to feed our national 
security programs.
    Without some coordination of our mission requirements to our 
funding allocations, and dexterity in management, we are going to see 
an accelerated loss of capabilities because my technical staff will 
continue to be pursued by those in private industries offering better 
opportunities to exercise their drive and innovation. It is only 
through the steadfast commitment, hard work, and utmost dedication of 
our people to serving the Nation that we experience our successes and 
achievements, so retention of this talent is a priority.
    Congress and the administration need to develop an agreement on 
what our nuclear facilities strategy will be as we enter an uncertain 
future in a landscape we have not dealt with since the Cold War. We 
need decisions on appropriate funding levels that can be sustained for 
the complex through the out years, and decision on what role a broader 
science and engineering base has at the NNSA Laboratories.
    Thank you Mr. Chairman for the opportunity to testify today and I 
would be happy to answer any questions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Udall. Thank you, Dr. McMillan.
    Dr. Hommert.

  STATEMENT OF DR. PAUL J. HOMMERT, DIRECTOR, SANDIA NATIONAL 
                          LABORATORIES

    Dr. Hommert. Chairman Udall, Ranking Member Sessions, and 
distinguished members of the Strategic Forces Subcommittee, 
thank you for the opportunity to testify today.
    I am Paul Hommert, Director of Sandia National 
Laboratories. I'd like to briefly summarize the key points of 
my written testimony.
    First, I am pleased to report that my laboratory is now 
successfully executing three full-scale engineering development 
efforts and supporting the continued production of the W76-1 
life extension program (LEP). I want to thank Congress for the 
support of these programs in the fiscal year 2014 authorization 
and appropriations bills. That support allows me to report that 
each of these programs remains on or under original cost 
estimates. In the case of the B61 LEP, the largest of these 
programs, I can report that we have already been able to 
realize $120 million in savings over the life of the program.
    In the case of the B61, we have had to adjust schedule as a 
result of the funding profile we received being different from 
our original June 2012 planning basis. However, the cost 
savings I just mentioned will help us significantly mitigate 
any cost growth that would result from funding-induced schedule 
slip. We have achieved this cost performance by increasing our 
program management rigor, having a strong focus on controlling 
labor cost growth, and utilizing, where appropriate, common 
technology across the programs.
    I brought with me today an example of common technology. 
Last year when I testified before this committee, I showed you 
a radar module designed for the B61 air delivery system, the 
green board here. We successfully tested that module in the B61 
in August. Here I'm holding an electrical model of the W88 ALT 
370 arming, firing, and fusing assembly with that very same 
radar module incorporated. This assembly, which will become a 
key component of our submarine launch ballistic missile 
deterrent, will be part of a Navy flight test later this year. 
This radar component will also be used in our work with the Air 
Force Mk21 program. The use of this common technology across 
three systems brings considerable cost savings, on the order of 
$170 million, and confidence to these three major design 
activities. Furthermore, the fiscal year 2015 President's 
budget request supports these programs at a level that will 
allow us to meet current first production unit schedules.
    While I am sanguine about our progress on the modernization 
programs, I am concerned about what I see as an increasing 
imbalance in the overall program. The resource required to 
execute modernization, which is the clear priority, is causing 
us to reduce efforts in other areas that increase long-term 
risk. Examples at my laboratory include surveillance, advanced 
and exploratory technology development, and, very importantly, 
high-priority infrastructure recapitalization. In fact, as I 
elaborate in my written testimony, I believe more is being 
asked of us today at budget levels in constant dollars less 
than we've had at--in comparable periods at any time in the 
last 30 years. In addition, we face new cost pressures, such as 
pension and medical care, that we haven't faced before.
    Let me be clear. I raise these concerns, fully cognizant of 
the overall fiscal constraints you face and to which Senator 
Sessions just spoke, however, I do believe those of us 
entrusted with the stewardship of the Nation's nuclear 
deterrent must acknowledge and look to mitigate risks. Two 
examples of areas that can mitigate these risks are increased 
programmatic flexibility inside a budget top line and support 
for synergistic work we do for other national security 
missions. For my laboratory, these broader efforts have often 
been a means to further advance technology for the weapons 
program of the type you're looking at in that component.
    I do have some thoughts on the topic of your next panel--
namely, governance--but, in the interest of time, I will save 
those for your questions, to which I look forward.
    Thank you.
    [The prepared statement of Dr. Hommert follows:]
               Prepared Statement by Dr. Paul J. Hommert
                              introduction
    Chairman Udall, Ranking Member Sessions, and distinguished members 
of the Strategic Forces Subcommittee, thank you for the opportunity to 
testify today on the administration's request to Congress for the 
fiscal year 2015 budget and on the National Nuclear Security 
Administration (NNSA) governance of the National Security Laboratories. 
I am Paul Hommert, President and Director of Sandia National 
Laboratories. I am pleased to join Charlie McMillan and Bill Goldstein, 
who are here today for this discussion.
    Sandia is a multiprogram national security laboratory owned by the 
U.S. Government and operated by Sandia Corporation \1\ for the NNSA. 
Sandia is one of three NNSA laboratories with responsibility for 
stockpile stewardship and annual assessment of the Nation's nuclear 
weapons. Within the U.S. nuclear weapons enterprise, Sandia is uniquely 
responsible for the systems engineering and integration of the nuclear 
weapons in the stockpile and for the design, development, 
qualification, sustainment, and retirement of nonnuclear components of 
nuclear weapons.
---------------------------------------------------------------------------
    \1\ Sandia Corporation is a subsidiary of the Lockheed Martin 
Corporation under Department of Energy prime contract no. DE-AC04-
94AL85000.
---------------------------------------------------------------------------
    While nuclear weapons represent Sandia's core mission, the science, 
technology, engineering, and business professional capabilities 
required to support this mission position us to support other aspects 
of national security as well. Indeed, there is natural, increasingly 
significant synergy between our core mission and our broader national 
security work, including research and development in synergistic 
defense products, cyberspace, nuclear assessments and warning, and 
global nuclear dangers. Examples of areas where Sandia has applied its 
expertise with a direct nexus between nuclear weapons (NW) work and 
non-NW benefits for the Nation include the development of satellite 
technology, synthetic aperture radar, hypersonic vehicles, global 
monitoring systems for nuclear material detection, and our 
contributions to cyber defense, which are enabled by our longstanding 
work in the command and control of nuclear weapons.
                     major points of this testimony
    Today, Sandia is executing its NW mission in the context of three 
overarching imperatives. First, take care of the current U.S. stockpile 
through such activities as annual surveillance and stockpile 
maintenance through limited-life component exchanges; second, sustain 
the stockpile into the future through life extension programs and 
alterations; and third, maintain and advance Sandia's required 
engineering and science capabilities, operations, and infrastructure.
    My statement will provide an update since having testified before 
this subcommittee on May 7, 2013, and before the House Subcommittee on 
Strategic Forces on October 29, 2013. Itwill emphasize Sandia's 
execution of a full suite of modernization programs in full-scale 
engineering development, address the status of the NW stockpile 
regarding the other two imperatives, and describe the synergistic 
connection between Sandia's NW mission and other major national 
security missions. Today, we would not be able to deliver on our 
nuclear weapons mission without these synergistic relationships. All 
these topics will be viewed within the context of the administration's 
request to Congress for the fiscal year 2015 budget. Listed below are 
the major points of my statement.

    1.  Sandia is successfully executing a full suite of modernization 
programs in full-scale engineering development: the B61 Life Extension 
Program (LEP), W88 ALT 370, and Mk21 Fuze Replacement.
    2.  As of March 2014, we have met all major B61 LEP milestones on 
schedule as adjusted against receipt of program appropriations. By 
employing effective cost-management measures, we were able to minimize 
cost impact due to schedule delays caused by discrepancies between 
planned and received funds.
    3.  Our assessment of the administration's fiscal year 2015 budget 
request to Congress is that support for the modernization programs is 
consistent with first production unit (FPU) plans. However, although 
the budget emphasis placed on modernization is understandable, it 
presents challenges for supporting the current stockpile and the 
underpinning capability, particularly in the long term.
    4.  At Sandia, the NW mission is strongly connected to other key 
national security mission areas: reducing global nuclear dangers, which 
is the work we do in nonproliferation, treaty monitoring, and securing 
nuclear facilities; nuclear assessments and warning, which involves 
foreign nuclear weapons assessments; cyberspace, which has grown from 
our early work in NW use control; and synergistic defense products, 
which refers to a set of products on which we work for the Department 
of Defense, which are synergistic with the products for the NW program.
    5.  We support the goals of the Congressional Advisory Panel on the 
Governance Structure of the NNSA and offer what we believe are guiding 
principles for improving the construct.
            executing a full suite of modernization programs
    We are currently in full-scale engineering development on the B61 
LEP, W88 ALT 370, and Mk21 Fuze Replacement. Indeed, for the first time 
since the end of the Cold War, we are executing three Phase 6.3 
programs simultaneously. We are confident that our in-depth scientific, 
engineering, and technical expertise, combined with increased rigor in 
project management and cost control, will enable successful completion 
of these programs. Several years ago, we recognized the magnitude of 
the challenge before us, coupled with the expectations of high rigor in 
all aspects of cost, schedule, and performance. Thus, we took steps to 
prepare the institution to execute in this environment.
    During the past calendar year, we completed co-locating the core 
design teams, enhancing our classified networks to reflect the volume 
of the work, and most significantly, staffing the programs and training 
the workforce. I will now summarize our progress in each of the 
modernization efforts.
The 861 LEP: Sustaining the 861 Safety, Security, and Reliability
    As I stated in my testimony of October 27, 2013, the B61 LEP 
includes a prudent mix of the following activities: (1) requalification 
and reuse of existing components that we can certify for at least an 
additional 20-year lifetime, (2) remanufacture of some existing 
component designs, and (3) replacement with new designs, where 
required.
    This approach to the program reduces the number of components to be 
developed, as well as the technical and programmatic risk associated 
with the life extension, but it does add lifetime risk to the B61-12. 
The resulting B61-12 design is the minimum that

        <bullet> Meets threshold military requirements, including 
        compatibility with future digital aircraft interfaces
        <bullet> Addresses known end-of-life and technology 
        obsolescence issues
        <bullet> Sustains and updates safety and security for this 
        system
        <bullet> Consolidates the B61 Modifications (Mods) 3, 4, 7, and 
        10 into a single B61 Mod 12

    Cost and Schedule Performance
    The B61 LEP can be thought of as having three major phases--design, 
component and system qualification, and production. We are now about 75 
percent complete on design, and by late fiscal year 2015, we will be at 
a 95 percent design point and will be ready for a planned first flight 
test of this bomb. This remarkable progress is the result of a 
significant effort on our part. As we learn more about the design, we 
will look for opportunities to consolidate some of the follow-on tests 
on subsequent development builds for the B61 in order to provide margin 
to the cost and schedule. For example, as I stated in October 2013, at 
the start of our Phase 6.3 on the program, the radar component was 
considered high risk. In August 2013, we tested our new radar for the 
B61-12 at the Tonopah Test Range in Nevada. The test of the new design 
was so successful that we have decided to consolidate three originally 
planned tests into the one we have completed, thus having an estimated 
$300,000 as contingency for budgetary fluctuations.
    We have been successful in bringing innovative approaches to the 
B61-12 execution to reduce risk and cost. For example, in February 
2014, Sandia collaborated with the Air Force to successfully perform a 
key aerodynamic test with multiple configurations at the Air Force 
Arnold Engineering Development Center in Tennessee. In this test, the 
bomb included the new tail kit developed by the Air Force. The test 
sharpened our insight into the bomb's spin motion during freefall and 
led to enhanced understanding of a complex spin phenomenon, which in 
turn provides better understanding of the B61-12 flight performance.
    As of March 2014, we have costed $350 million of the estimated 
incremental cost for Sandia to execute the B61 LEP. This amount is 
consistent with the June 2012 cost estimate that specifies an 
incremental cost of $2.65 billion for Sandia to execute the B61 LEP 
over 11 years. Against those expenditures, we have met all major 
milestones on schedule as adjusted against receipt of program 
appropriations. By using sound program-management measures, we are 
working to minimize cost impact due to schedule delays caused by 
discrepancies between planned and received funding. In fact, we 
currently project cost savings of approximately $120 million over the 
life of the program, which will go a long way to offset such 
discrepancies.
    Our success in cost control reflects in part our commitment to 
manage labor costs, which are the largest component of the overall 
program cost. As an example, our efforts to manage healthcare cost and 
pension cost obligations have allowed us to keep labor rates for fiscal 
year 2014 below those we used in our cost estimate reflected in the 
Weapon Development Cost Report.
Further Modernization Efforts at Sandia
    As discussed, we are currently executing two additional full-scale 
engineering development efforts: the W88 ALT 370 and the Mk21 Fuze 
Replacement. Across these two programs and the B61 LEP, we have taken 
an overall system approach, using common technology and components to 
an unprecedented extent. This approach is significantly reducing risk 
and cost in these programs. For example, a modular arming, fuzing, and 
firing (AF&F) design is being developed for the W88 ALT 370 and the 
Mk21 Fuze Replacement. Given the benefits of a common-technology 
approach, we will look to use it in all our future efforts.
    W88 ALT 370
    The W88 ALT 370 is well into full-scale engineering development and 
is executed on schedule and within budget relative to an FPU scheduled 
for December 2019. This modernization program replaces the AF&F 
assembly and adds a nuclear-safety connector for enhanced lightning 
protection.
    Sharing technologies and components with other modernization 
programs, the W88 ALT 370 is cost-efficient and presents reduced risk, 
in keeping with the Nuclear Weapons Council's (NWC) plan for stockpile 
modernization. The W88 ALT 370 has not only developed a common subset 
of fuze requirements to support the W87/Mk21 fuze replacement 
application, but it also features a common radar module with the B61 
LEP. Already prototyped, this radar will be included in a D5 missile 
Navy test flight later this year, which will evaluate radar performance 
in the unique reentry environment. The results of this flight test, as 
part of the rigorous performance testing and qualification efforts, 
will not only further the design of the W88 ALT 370 program, but also 
of the B61 LEP.
    Significantly, through our surveillance and component evaluation 
programs, we were able to save tens of millions of dollars by 
requalifying the Bell XI sensor (originally used in the W88-0) and 
making it available for use in the W88 ALT 370 inertial navigation 
module. Like the B61 LEP, the W88 ALT 370 is being managed with 
increased program and cost rigor.
    Mk21 Fuze Replacement
    The Air Force has a requirement, validated by the NWC, to replace 
the Mk21 arming and fuzing assembly (AFA). Because of our expertise and 
ability to leverage similar work done for the W88 ALT 370, Sandia was 
chosen to replace the fuze. Leveraging other work enables efficiencies 
in design, development, production, and life cycle support. We entered 
Phase 6.3 of the program in August 2013. The team, including 
approximately 100 staff, is on track to establish the program baseline 
this summer.
    During this fiscal year, a requirements review documented and 
confirmed key requirements that enabled us to launch full-scale 
engineering development in November 2013. A few months later, in 
January 2014, we conducted a key compatibility test for a Mk21 fuze 
component by using the U.S. Air Force test bed that simulates a missile 
interface. This test is significant because it confirms design 
decisions to enable the fuze to communicate effectively with the Air 
Force missile. It also demonstrates that the program is making 
appropriate progress toward fielding a replacement AFA.
    Together, the B61 LEP, W88 ALT 370, and Mk21 Fuze Replacement 
provide substantive required upgrades to all three legs of the U.S. 
nuclear weapons triad.
    W76-1
    The W76-1 LEP continues with broad-ranging production across the 
entire national security enterprise. Beginning with the first 
production unit in the fall of 2008, Sandia has teamed with the NNSA 
and Navy to meet delivery schedules while working through the challenge 
of relocating the Honeywell FM&T Kansas City Plant to a new facility. 
Production is targeted for completion at the end of September 2019. 
Embedded in this effort is requalification of all the production lines 
and maintaining deliveries to the Pantex Plant.
    Executing the modernization programs requires that we have absolute 
confidence in the safeguards and security aspects of our work. Sandia 
is committed to ensuring that we have trusted information systems, 
supply chains, and employees throughout all phases of the stockpile 
stewardship life cycle.
Future Modernization Efforts
    W78/88-1 LEP
    In June 2012, the NWC authorized a Phase 6.2 study for a W78/88-1 
LEP interoperable warhead. Based on recent NWC guidance, NNSA deferred 
this program and established a new projected FPU in fiscal year 2030. 
NNSA does not propose to fund this life extension beyond fiscal year 
2014 until such time that the Phase 6.2 study is restarted. Remaining 
fiscal year 2014 funds are directed toward a 120-day study to consider 
stand-alone warhead options for Mk21 and MkS aero shells and toward the 
orderly suspension of W78 LEP activities. The program will document the 
results of Phase 6.2 activities for the W78/88-1 LEP through end of 
fiscal year 2014, archive program files, and develop a restart plan for 
use if and/ or when future funding is allocated to the program.
    LRSO
    NNSA and the U.S. Air Force joined forces in a Phase 6.1 (concept 
assessment) Long-Range Standoff (referred to as LRSO) study to begin on 
July 1, 2014. Sandia will potentially be asked to conduct a Phase 6.2 
and 6.2A (engineering feasibility; cost estimation) study from fiscal 
year 2016 to fiscal year 2018 and initiate a Phase 6.3 effort starting 
in fiscal year 2019.
                         budget considerations
    First, I would like to express my appreciation for the bipartisan 
efforts of the Senate and the House to enact fiscal year 2014 
authorization and appropriations that recognize and support the most 
critical nuclear weapons modernization efforts. Specifically, the 
fiscal year 2014 enacted authorization and appropriations provide the 
necessary resources for the modernization programs to remain on 
schedule and meet all the NNSA and Department of Defense performance 
requirements. As I stated in my testimony to this subcommittee in May 
2013, fiscal years 2014, 2015, and 2016 are critical to maintaining the 
cost, schedule, and performance of the overall program.
    In this regard, we are also pleased to see the strong support for 
the weapons program in the administration's fiscal year 2015 budget 
request to Congress. As I have previously testified, budget continuity 
is the most significant risk to maintaining schedule, and therefore 
overall program costs, on the life extension and alteration programs. 
In my opinion, the fiscal year 2015 President's budget request for the 
nuclear weapons account, if fully supported, will provide such 
budgetary continuity and allow the nuclear security enterprise to 
continue on a successful path toward delivering on the modernization 
commitments. However, as I have stated in other sections of this 
testimony, support for the current stockpile and the underpinning 
infrastructure and capability presents challenges, particularly when 
viewed in the long term.
         overall perspective on a balanced national nw program
    In the preceding sections of my testimony, I have discussed the 
progress my institution has made on the stockpile modernization 
programs. Given their overall scope and time urgency, it is appropriate 
that these programs dominate Sandia's work activities. However, as I 
discussed earlier, the entirety of the NW program must also be judged 
against the imperatives to steward the current stockpile and maintain 
the science and engineering base and infrastructure necessary to both 
sustaining and modernizing the stockpile now and in the future.
    When I consider the fiscal year 2015 budget request, I am concerned 
that the NW program is drifting out of balance as efforts to sustain 
the current stockpile, conduct appropriate levels of advanced and 
exploratory work, and support critical infrastructure continue to see 
reduced funding given the understandable emphasis on the modernization 
programs. The pressure on infrastructure extends even to support for 
projects necessary for the execution of the modernization programs. A 
case in point is the recapitalization of Sandia's facility for 
radiation-hardened microelectronics fabrication. Fiscal year 2015 is 
the third year in a 6-year $150 million effort to mitigate production 
risk for the current modernization programs, but this recapitalization 
effort is not supported in the fiscal year 2015 budget request. This 
example is symptomatic of what I see happening across the program, 
namely, budget pressure forces greater risk acceptance in areas not 
perceived to have immediate impact. Other clear examples are that, 
despite the stockpile being the oldest yet in our history, the 
surveillance program is facing further reductions and advanced and 
exploratory work has decreased by 80 percent in the past 4 years. Given 
the overall fiscal constraints facing the country, it is appropriate to 
set priorities in a way that preferentially reduces risk to the most 
urgent programs. I understand and support that approach; however, it is 
important that all of us engaged in the stewardship of the Nation's 
nuclear deterrent acknowledge and explicitly look to minimize the 
overall risks that are increasing over time. In that regard, I urge 
both Congress and NNSA to maximize program management flexibility 
within an overall budget level.
    To understand the pressure the current program faces, I will make 
some historical comparisons. Although details are often hard to compare 
for different periods, I believe a simple high-level view of Sandia's 
weapons program in 2014 compared with 2 previous years is informative. 
Consider first 1987. At that time, Sandia was executing weapon design 
activity comparable with what we are doing today. The stockpile was 
essentially new and required little or no surveillance, our 
infrastructure was receiving continuous recapitalization, and we were 
executing a healthy advanced and exploratory program. In constant 
dollars, the budget then was comparable with the budget today, but the 
demands on the program were very different. For example, we did not 
face the challenges posed by an old stockpile or the loss of nuclear 
testing. Now consider 2005, just 9 years ago. We were executing two 
full-scale engineering efforts although one (the W80) was terminated in 
that year; so, the scope of design work was less than it is today. In 
addition, we were making major investments in stewardship facilities 
(pulsed power and the microelectronics research and fabrication 
facilities) and in computing, and we were executing a robust 
surveillance program. In my view, the program in 2005 was in overall 
balance and at a budget level slightly higher than today. I believe 
that today, the program is not in balance. We are executing three 
modernization programs and are continuing needed stewardship tool 
application and development. However, we are deferring investments in 
the production infrastructure and curtailing surveillance activities 
for an aging stockpile. In addition, we also face labor cost drivers, 
such as pension and medical care costs, which were either nonexistent 
in 1987 and 2005 or considerably less in constant dollars. From this 
simple historical comparison, two overall points emerge about the 
program at Sandia:

    1.  More is being demanded of us today than at any other time since 
the end of the Cold War and the cessation of nuclear testing, yet 
budget levels are essentially flat or slightly down. This situation is 
leading to the imbalance and risk that I spoke to earlier.
    2.  The modernization programs are being executed with increased 
efficiency primarily because we are using the tools of stewardship 
(e.g., simulation) and overall enterprise cost reductions.
  sandia's stockpile surveillance and assessment, infrastructure, and 
                                 people
    In this section, I will focus on our achievements and challenges in 
sustaining the current nuclear stockpile, maintaining the underpinning 
infrastructure and capabilities, and attracting the people who will 
carry the work of today into the future. I will refer to these aspects 
in the context of the administration's fiscal year 2015 budget request 
to Congress.
Stockpile Surveillance and Assessment
    An effective surveillance program at Sandia has made it possible to 
sustain confidence in the current stockpile and requalify parts from 
the current B61 stockpile for an additional 20 years of use in the B61-
12. It also enabled us to extend the life of neutron generators by 
better characterizing aging phenomena and to support life extension of 
the current W78 warhead by providing confidence that the warhead 
components are aging gracefully. These achievements represent 
significant cost savings while allowing us to sustain confidence in the 
stockpile.
    As I testified last year, funding allocations for Sandia in fiscal 
years 2013 and 2014 required that we constrain surveillance efforts, 
and current indications are that fiscal year 2015 funding for Sandia 
will impose additional constraints on our surveillance program. At 
Sandia, we recognize the realities of the current fiscal environment, 
and thus we continue to apply a risk-based prioritization approach to 
our surveillance activities and infrastructure. I am concerned, 
however, that continued funding shortfalls in this area over long 
periods will lead to fewer lab and flight tests, testing fewer of the 
full-range operational environments, and reduced safety testing.
Science-Based Infrastructure and Capabilities
    Sandia stewards the microelectronics research and fabrication 
facilities for the NW program, as well as for the Department of 
Energy's nonproliferation payloads. In those facilities, we design and 
fabricate an array of unique microelectronics, specialty optical 
components, and microelectromechanical sjrstem devices. When discussing 
the National NW program, I stated that the recapitalization of the 
facility for radiation-hardened microelectronics fabrication is not 
being supported in the fiscal year 2015 budget request. This lack of 
funding will increase the risk for delivering the modernization 
programs.
    We also have significant recapitalization needs at other 
experimental and test facilities critical to the success of the B61 
LEP, W88 ALT 370, and future life extensions, particularly at the 
Tonopah Test Range and our large-scale test facilities. The fiscal year 
2015 budget request for recapitalization continues the downward trend 
from fiscal year 2014 and therefore further restricts our ability to 
reduce risk to the modernization programs. These infrastructure needs 
are impacted by the fiscal year 2015 budget request for the Readiness 
in Technical Base and Facilities program.
    Sandia's high-performance computing capabilities, vital tools for 
our mission responsibilities in stockpile surveillance, certification, 
and qualification, continue to prove indispensable to our broader 
national security work. On a positive note, the resolution of the 
fiscal year 2014 budget resulted in an executable program in high-
performance computing that can support critical work for our 
modernization programs. We are pleased that the fiscal year 2015 budget 
request continues to provide funding for high-performance computing.
    Sandia is a recognized world leader in the developmnt and 
applications of pulsed power, as evidenced by our Z facility and the 
research program that it supports. Z is indispensable to conducting 
high energy density physics research critical to the stockpile 
stewardship program. An important deliverable for fiscal year 2015 is 
an assessment of the national program in inertial confinement fusion. 
Funding stabilitjr in this program area is needed for the long-term 
health of the stewardship program. The fiscal year 2015 budget request 
takes a step in restoring the funding needed to efficiently develop and 
utilize the full capabilities of the Z facility.
Future Stewards of the NW Stockpile
    To execute the demanding modernization programs with which the 
Nation has entrusted us, we knew we would have to attract and retain 
new staff, the future stewards of our stockpile. Since fiscal year 
2010, we have hired approximately 1,000 scientists and engineers-
typically for us, two-thirds engineers and one-third scientists. These 
individuals were hired for the totality of our national security work. 
Fifty-seven percent of these new hires are in the first 3 years of 
their professional career and were recruited broadly from the Nation's 
finest research universities with the highest standards. Coupled with 
our experienced staff, they are responsible for the execution and 
progress on the modernization efforts. These hires, however, have a 
different social contract. They no longer have a defined benefit 
pension plan, and they are encountering an operational environment of a 
complexity that they might not have anticipated. Yet they are 
fundamentally attracted to the Laboratory by the nature of our work. 
Consistent with our role as a federally funded research and development 
center (FFRDC), we hire new talent for the long term. When the 
modernization programs are completed, we expect that recently hired 
staff will continue in nuclear weapons or other national security 
missions at Sandia. In recruiting, we have used the Laboratory Directed 
Research and Development program as a critical element, particularly 
for Ph.D. candidates.
    Staffing three modernization programs has been a tall order in two 
significant ways: attracting many new hires with the right 
qualifications expeditiously and maintaining a stable Lab size. We were 
successful on both counts. As discussed above, we have a strong 
contingent of new hires, and the overall size of Sandia grew by only 
about 2.5 percent since 2010. To keep the Lab size stable, we shifted 
some personnel among the national security missions conducted at the 
Laboratory. For example, Sandia engineers may be expected to work on 
the weapons program one day and on an effort for the Department of 
Defense the next day. To ensure their successful contributions to the 
programs on which they are working, we have developed common tool sets 
and defined the necessary experience and the expectations of doing 
engineering at the Laboratory.
synergy between our nw mission and other key national security missions
    At the beginning of my testimony, I referred to the synergistic 
connection between Sandia's NW mission and other major national 
security missions. To energize and sharpen its nuclear weapons 
competencies and mitigate risk, Sandia relies on its broader national 
security work. The symbiotic relationship between the nuclear weapons 
mission and broader national security missions prevents insularity and 
creates a challenging, vigorous scientific and engineering environment 
that helps us attract and retain the new talent we need. Such an 
environment is essential for us to succeed against the challenges we 
now face.
    I strongly believe that today it is not possible for my Laboratory 
to deliver consistently on the commitments to the nuclear weapons 
program without the synergistic interagency work that attracts top 
talent, hones our skills, and provides stability through the cycles of 
the nuclear weapons program.
    Government commitment to the broad national security work of the 
laboratories is essential for the United States to ensure the 
preeminence of our nuclear weapons and to enable multidisciplinary 
technical solutions to other complex and high-risk national security 
challenges. In no way does our interagency work detract from our focus 
to execute our core NW mission.
    In the next three sections, I will discuss some of the broader 
national security work we are conducting at Sandia, which we view to be 
particularly synergistic with the NW mission.
Reducing Global Nuclear Dangers
    Around the world, the risks posed by nuclear weapons, materials, 
and knowledge are increasing. The explosive growth of the nuclear power 
enterprise has resulted in at least 18 countries planning to build 
their first nuclear power plants, and major new construction is 
underway or planned around the globe. This nuclear power expansion, 
occurring with an unevenly applied approach to safety and security, may 
well increase the likelihood of proliferation over the long term. 
Nuclear ``lockdown'' is progressing, but work is still necessary to 
attain our security goals-both domestically and abroad. Sandia has a 
broad portfolio of nuclear nonproliferation activities, working 
collaboratively with Los Alamos, Lawrence Livermore, and several other 
DOE laboratories. Sandia has long-standing expertise in nuclear 
security and safeguards and engages cooperatively with partners in more 
than 100 countries to reduce the threat of proliferation and terrorism.
    While the fiscal year 2015 budget request to Congress 
understandably emphasizes stockpile stewardship and the life extension 
programs, we are concerned about the size of proposed decreases in 
nuclear nonproliferation programs. Cooperative relationships with 
nation states having at-risk nuclear materials and nuclear weapons 
programs are hard to establish and potentially harder to rebuild, so 
these cuts may reverse the benefits from important work already 
completed. There is not enough national attention on helping the 
civilian nuclear enterprise grow in a safe and secure manner.
    Similarly, increased focus is needed on the strategic requirements 
for next-generation technology and expertise to support our national 
nuclear nonproliferation policy goals. Sandia continues its commitment 
to helping reduce global nuclear dangers, but its resources for such 
work will need to shift to other activities if this budget is enacted 
as submitted.
Nuclear Assessments and Warning
    The long-term vision for Sandia's nuclear assessments and warning 
mission area is to ensure that the United States will achieve an 
integrated, comprehensive, persistent monitoring and responsive warning 
architecture for NW activities worldwide. To achieve this vision, we 
research, develop, and deploy products and services that ensure the 
effectiveness of our nuclear deterrent and counter foreign efforts from 
impacting our national security capabilities and interests. Thus, we 
provide sensing systems and analysis to detect nuclear detonations and 
nuclear material and to understand nuclear threats against the United 
States and its allies, covering all aspects of the nuclear timeline.
    One of our key programs is development and delivery of the 
satellite payloads for the U.S. nuclear detonation detection system. 
Through NNSA's NA-22 program, the satellite payloads program is fully 
funded in the fiscal year 2015 President's budget request, which is 
critical to maintaining a strong nuclear warning program for the United 
States.
Cyberspace and Synergistic Defense Products
    Sandia's extensive cyber research and development program is rooted 
in its rich history of work in the command and control of nuclear 
weapons. Sandia integrates scientific understanding, technology 
development, and complex requirements-driven engineering to develop 
solutions to cyber challenges. Work in this mission area also involves 
management of trusted components for the modernization programs.
    In the mission area we refer to as synergistic defense products, 
Sandia delivers a set of products in support of Department of Defense 
missions, such as combatting terrorism at home and abroad and dominance 
across the full spectrum of warfare. Among those products are real-time 
synthetic aperture radar and hypersonic vehicles, which actively draw 
from and feed back into the NW program.
                               governance
    On the topic of NNSA governance, I look forward to the 
recommendations of the Congressional Advisory Panel. In our 
interactions with the Panel, we have stressed three important 
principles that we believe should shape the character of any 
recommendations:

    1.  Mission. In our view, the three nuclear weapons laboratories 
have evolved into unique national security science and technology 
institutions. Built around the core nuclear weapons capabilities, they 
offer broad value to the country's 21st century national security 
challenges. Any governance construct should reinforce this mission 
reality.
    2.  FFRDCs. The laboratories are FFRDCs. Any governance construct 
should enable them to fully embody key features of the FFRDC model as 
described in the Federal Acquisition Regulation. Some of those key 
features are the following: The FFRDCs attract and maintain high-
quality personnel; maintain currency in their fields of expertise; meet 
special long-term research or development needs; and operate 
autonomously in the public interest with objectivity and independence 
and are free from organizational conflicts of interest.
    3.  Management fundamentals. Any governance model must rely upon 
and demonstrate sound management principles. Clear line-management 
accountability, a focus on strategic outcomes as articulated by the 
government, and independent and effective oversight that supports 
continuous improvement are particularly important.

    Based upon my 38-year career, including senior leadership positions 
in two U.S. laboratories, it is my opinion that the NNSA construct has 
made it more difficult to manage and lead these institutions in a 
manner that fully demonstrates the value of these principles.
                              conclusions
    As I discussed at the beginning of my statement, Sandia is 
executing its NW mission by taking care of the current U.S. stockpile, 
sustaining the stockpile into the future, and maintaining and advancing 
Sandia's required engineering and science capabilities, operations, and 
infrastructure.
    We are currently executing three modernization programs-the B61 
LEP, W88 ALT 370, and Mk21 Fuze Replacement-on schedule and on (or 
under) budget. As I discussed earlier, budget continuity remains the 
largest risk to these programs. I believe that the fiscal year 2015 
budget request supports the modernization programs consistent with FPU 
plans.
    The overall demands of the NW program are significant-in many 
respects, they are unprecedented-and I am concerned that they are 
causing an imbalance in the program by increasing risk. As discussed in 
this statement, a budget emphasis placed on modernization is 
understandable, but it presents challenges for supporting the current 
stockpile and the underpinning capability in the long term. By the same 
token, considering the fiscal constraints facing the country, it is 
appropriate to set priorities in a way that preferentially reduces risk 
to the most urgent programs. It is therefore all the more important for 
all of us engaged in the stewardship of the Nation's nuclear deterrent 
to acknowledge the risks and work hard to minimize them. Significantly, 
Sandia's broad mission space is essential to mitigating risk to the NW 
program and delivering unique value to solving the Nation's national 
security challenges.
    The recommendations of the Congressional Advisory Panel will be 
important as I believe the NNSA construct has made it difficult to meet 
the original intent of strengthening the nuclear weapons enterprise.
    Finally, I want to restate that Sandia is committed to fulfilling 
its service to the Nation with excellence in all aspects of the 
program. We appreciate the leadership role of Congress in authorizing a 
sound path forward for U.S. nuclear deterrence.

    Senator Udall. Thank you, Dr. Hommert.
    Doctor, would you help me pronounce your name properly, if 
it's--is it ``Goldsteen'' or----
    Dr. Goldstein. It is, in fact ``Goldsteen.''
    Senator Udall. ``Goldsteen.''
    Dr. Goldstein. Thank you.
    Senator Udall. Thank you, Dr. Goldstein. You are 
recognized.

   STATEMENT OF DR. WILLIAM H. GOLDSTEIN, DIRECTOR, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Dr. Goldstein. Thank you. Chairman Udall, Ranking Member 
Sessions, distinguished members of the subcommittee, on behalf 
of the more than 6,000 men and women of Lawrence Livermore 
National Laboratory (LLNL), thank you for this opportunity to 
provide perspective on our work.
    I've submitted my full statement to the subcommittee, and I 
ask that it be made part of the record.
    My name is William Goldstein. I'm the Director of LLNL. In 
the spirit of full disclosure, I should note that, although I'm 
in the 30th year of my career as a scientist there, this is my 
11th day as director. So, while I can claim to know a great 
deal, I'm quickly learning how much I don't know.
    As director, I have three major objectives: first, to 
ensure that the best and most innovative science, technology, 
and engineering is brought to bear to sustain the confidence in 
our nuclear deterrent and to support cost-aware options for 
warhead LEPs and infrastructure modernization; second, to 
operate the National Ignition Facility (NIF) safely and 
efficiently as a national user facility where nuclear weapons 
designers can hone their skills and test their models, where 
students can be trained in the fundamental science that 
underpins nuclear performance, and where we can explore the 
path to ignition and, hopefully, fusion burn in the laboratory; 
and third, to apply the unique strengths of the lab established 
by, and required by, our core nuclear deterrence mission to new 
and evolving challenges in national and global security.
    This past year, with the support of this subcommittee, 
we've made progress in all of these areas. LLNL successfully 
met its annual assessment responsibilities and achieved all 
deliverables for the W78/88-1 LEP and long-range standoff 
(LRSO) study in support of the Air Force. NIF has provided data 
needed for stockpile stewardship, including advancing our 
understanding of the physics associated with ignition.
    Working often in coordination with Los Alamos, we 
successfully conducted a series of hydrodynamic experiments at 
our contained firing facility, and Los Alamos' dual axis 
radiographic hydrotest facility, including a successful test of 
a pit reuse concept.
    In partnership with National Security Technologies 
personnel at the Nevada National Security Site, we 
significantly increased the shock rate at the Joint Actinide 
Shock Physics Experimental Research Facility, and have 
continued to support studies on pit and secondary assembly 
production at Los Alamos and Y-12, respectively.
    In addition, we've provided innovative support to the 
Intelligence Community, the Department of Homeland Security, 
and the Department of Defense (DOD), among other agencies 
responsible for the National Security Enterprise and the 
Nation.
    The President's fiscal year 2015 budget proposal helps 
strengthen our ability to deliver for stockpile stewardship by 
providing a modest increase in funding for our core weapons 
activities. This small increase in directed stockpile work and 
the science campaigns would enable us to improve our 
capabilities in support of current stockpile warheads, continue 
the development of cost-aware LEP options for the future, and 
help us recruit and retain new stockpile stewards as senior 
weapons experts retire.
    The budget request also stabilizes funding for the NIF, 
following 2 years of significant reductions, and this will 
allow us to continue our recent restructuring of the facility 
and its operations in order to increase experimental 
opportunities and allow researchers to effectively support the 
stockpile stewardship mission.
    These small increases for core weapons activities are 
especially critical in light of the delays in the LEPs for the 
W77/88 and the LRSO, which limit opportunities for our 
scientists and engineers to learn and practice the skills 
needed for weapons development and engineering.
    Now, we've had some success exercising weapon engineering 
skills in work for DOD on conventional munitions, such as the 
BLU-1298 low-collateral-damage weapon, a notable example of 
work for other agencies that helps us sustain the health and 
vitality of the laboratory. This work exercises some, but not 
all, of the skills required to support sustaining the nuclear 
stockpile, and therefore, retaining these needed skills 
continues to be a challenge in the current program and budget 
environment.
    I also have some comments on the relationship between the 
laboratories and NNSA, but, again, in the interest of time, I'd 
like to delay for the questions and again thank the 
subcommittee for its continuing support of the Stockpile 
Stewardship Program (SSP) and for the dedicated men and women 
of Lawrence Livermore who are committed to making our Nation a 
safe and secure nation.
    [The prepared statement of Dr. Goldstein follows:]
             Prepared Statement by Dr. William H. Goldstein
                            opening remarks
    Mr. Chairman and members of the subcommittee, I am William H. 
Goldstein, the Director of the Lawrence Livermore National Laboratory 
(LLNL). Thank you for the opportunity to provide my perspective on the 
President's fiscal year 2015 budget request and governance of the 
Department of Energy/National Nuclear Security Administration's (DOE/
NNSA) national security laboratories. I will also report on ongoing and 
future activities at LLNL in support of NNSA's Stockpile Stewardship 
Program (SSP) and our other important national security missions in the 
context of the budget proposal.
    As one of the DOE/NNSA national security laboratories, LLNL is 
responsible for helping sustain the safety, security, and effectiveness 
of our Nation's nuclear stockpile. A large part of that responsibility 
involves developing and maintaining the skilled workforce and broad set 
of capabilities and facilities that constitute a key component of the 
U.S. nuclear deterrent. Consistent with our mission, we also apply our 
capabilities to develop innovative solutions to important 21st-century 
national and global challenges.
    This subcommittee's continuing support of the SSP has helped enable 
us to sustain confidence in the nuclear weapons stockpile without 
nuclear testing. The successes of the SSP would not have been possible 
without these investments.
Stockpile Stewardship Program Challenges
    The 2010 Nuclear Posture Review noted that ``significantly 
increased investments'' were required to ``sustain a safe, secure, and 
effective nuclear arsenal as long as nuclear weapons exist.'' As our 
weapons age, we must strengthen the science, technology, and 
engineering base that underpins the U.S. nuclear stockpile and, when 
required, extend the life of warheads in accordance with national 
policy. The needs of the SSP include:

        <bullet> Stockpile Assessments. While currently assessed to be 
        safe, secure, and effective, stockpile warheads have aged well 
        beyond their original design intent. Maintaining confidence in 
        the stockpile requires a vigorous assessment program, subject 
        to rigorous peer review, made up of both physical and enhanced 
        surveillance, underpinned by NNSA's science, technology, 
        engineering, and production capabilities. If Life-Extension 
        Programs (LEPs) are prolonged or postponed, assessment tools 
        and capabilities must be enhanced to address a growing set of 
        issues, and to help guard against technical surprises.
        <bullet> Life-Extension Programs. Because weapons in the 
        stockpile continue to age beyond their intended service life, 
        timely execution of planned LEPs is important. The LEP strategy 
        supports the United States Strategic Command's ``3+2'' vision 
        for the future stockpile (three future missile-delivered 
        warheads and two future air-delivered weapons), endorsed by the 
        Nuclear Weapons Council. Recent high-level decisions have 
        resulted in a postponement of the ongoing W78/88-1 LEP, and the 
        stretch-out of the incipient Long Range Stand-off (LRSO) LEP. 
        These delays impact the needs of ongoing annual assessment 
        activities and create challenges for workforce management.
        <bullet> Modernization of Facilities. A healthy complex is a 
        crucial component of the Nation's nuclear deterrent 
        capabilities, and provides a hedge against technological 
        surprise and changing world conditions. Plans for modernization 
        of two major capabilities are evolving because of budget 
        constraints and will result in delays in their availability: 
        the Uranium Processing Facility at the Y-12 National Security 
        Complex, and modernized plutonium research and pit production 
        capabilities at the Los Alamos National Laboratory (LANL). 
        Other facilities are aging across the complex, leading to many 
        smaller-scale but important infrastructure investment needs, 
        including needs at LLNL.
        <bullet> The Science, Technology, and Engineering (ST&E) Base. 
        The ST&E capabilities at the NNSA laboratories are the 
        foundation of the SSP. The people and their tools are needed 
        for assessing and, where necessary, refurbishing our nuclear 
        warheads. As the stockpile continues to age, and while LEPs and 
        new production capabilities are delayed, our scientists and 
        engineers face increased challenges in addressing the effects 
        of aging on weapon safety, security, and effectiveness. We must 
        continue to improve the ST&E capabilities that underpin the 
        SSP.

    In facing these challenges, LLNL remains focused on caring for the 
existing stockpile and sustaining or modernizing weapon systems 
consistent with national policy. To this end, we are strengthening the 
underpinning science, technology, and engineering of stockpile 
stewardship, and striving to maintain a responsive infrastructure, 
including innovative support to the NNSA production facilities. We are 
working to ensure that our workforce has the training and skills to 
meet current and future mission requirements. We are carefully 
considering cost-risk-benefit tradeoffs as we work on LEP warhead 
design options, to inform future LEP decisions. More generally, we 
continue to partner with NNSA and others in the complex to move the 
NNSA enterprise forward and offer innovative approaches to ensuring the 
effectiveness of our nuclear deterrent.
                           budget perspective
    Balancing investments across priorities is an enormous challenge. 
The nation cannot overfund one aspect of the SSP and put at risk others 
that are essential to long-term success. Fiscal constraints are 
stretching out the schedules for many SSP activities, investments, and 
deliverables. This increases program risk by leaving the complex 
potentially less prepared to deal with unanticipated technical 
problems, or a surprise brought on by the ever-evolving capabilities of 
adversaries. Resource constraints put a premium on early identification 
of stockpile issues, which increases the pressure on our ST&E base.
    In this regard, we have previously expressed concerns to this 
subcommittee about the sufficiency of long-term ST&E and surveillance 
investments in the program needed to support annual assessment. Under 
the President's budget request for fiscal year 2015, the prospect for 
LLNL is a modest, 4 percent, increase in funding relative to fiscal 
year 2014 for core weapons activities. This is a welcome change after 2 
years of significant budget decreases for two major reasons:

        <bullet> It provides needed capability improvements and program 
        stability. The proposed funding increases in Directed Stockpile 
        Work (predominantly in Stockpile Systems and Stockpile 
        Services) and the Science Campaigns (predominantly in Primary 
        Assessments and Dynamic Material Properties) will enable us to 
        improve our capabilities in support of current stockpile 
        warheads (e.g., in improved material and component lifetime 
        assessments and in addressing open Significant Findings), and 
        continue the development of cost-aware LEP options. Benefits 
        will include improved assessments of primary performance for 
        aging, reconfigured, reused, and remanufactured pits; further 
        exploration, development, and maturation of component 
        technologies; and the development of more efficient methods for 
        manufacturing.

    The LLNL staff has shrunk by about 30 percent since fiscal year 
2007 and nearly 15 percent over the last 2 years. This has stressed our 
depth of expertise in some areas as senior weapons experts have 
retired, and limited funding has constrained our ability to bring in 
and train the next generation of stockpile stewards. A stable program 
budget helps us ensure the succession of expertise necessary for long-
term success in stockpile stewardship.

        <bullet> It provides a predictable path forward for National 
        Ignition Facility (NIF) activities. NIF is delivering data to 
        support needed improvements in SSP predictive capabilities. 
        Data from a range of experiments are being used to test and 
        validate our simulation models and train our workforce. NIF has 
        also recently achieved a key technical success on the path to 
        ignition. Coupled with the progress we are making to improve 
        the efficiency of NIF operations, level funding from fiscal 
        year 2014, as proposed in the fiscal year 2015 President's 
        budget request, for operations and experimental activities will 
        allow researchers to effectively support the stockpile 
        stewardship mission. At the requested funding level, we will 
        continue providing essential data and make progress in fiscal 
        year 2015 toward understanding the requirements for achieving 
        ignition and energy gain, which is important to understanding 
        thermonuclear processes in weapons.

    However, we have continuing concerns:

        <bullet> Work balance in stockpile stewardship--maintaining 
        direct expertise in weapons development and engineering and 
        supporting enhanced surveillance. With the proposed budget, our 
        work on the ST&E underpinning stockpile stewardship will 
        increase, which is an important and a positive trend. At the 
        same time, with the postponement of the W78/88-1 LEP and the 
        delay in the first production unit date for the LRSO LEP, the 
        opportunity for LLNL to exercise capabilities necessary for 
        weapons development and engineering are impacted. Maintaining 
        expertise in these areas will continue to be a challenge. We 
        are also concerned about the continued decrease in funding 
        (both nationally and at LLNL) associated with enhanced 
        surveillance. Enhanced surveillance (capabilities to predict 
        and quantify potential future issues in stockpile warheads) is 
        of growing importance to the Annual Assessment of the stockpile 
        as current stockpile warheads continue to age.
        <bullet> Laboratory infrastructure. LLNL's infrastructure 
        requires continual reinvestment to enable Laboratory staff to 
        perform their important work for the Nation efficiently, 
        safely, and securely. LLNL successfully maintains required 
        levels of readiness for its ``mission critical'' facilities and 
        ``mission dependent/not critical, enduring'' facilities. 
        However, the median age of facilities is 35 years and the most 
        recent line-item facility construction project at LLNL was the 
        Terascale Simulation Facility, begun in 2002. The deferred 
        maintenance backlog is growing and three major mothballed 
        facilities in deteriorating condition await funding for 
        decontamination and demolition for proper risk reduction.
         I am pleased to report that several of our proposed line-item 
        investments are on the NNSA's list of high priority items, 
        including an Electrical Infrastructure Upgrade Project that 
        addresses our highest assessed risk to future operations, and a 
        new emergency response center. We are pleased that the fiscal 
        year 2015 budget request funds the emergency response center, 
        but remain concerned that the Electrical Infrastructure Upgrade 
        Project has been deferred for a second year. We are working 
        with NNSA to ensure the earliest possible start for this 
        project.
         governance of the nnsa national security laboratories
    We have consistently stressed to many audiences the importance of 
partnership and shared responsibility with NNSA to the successful 
execution of our vital national security mission. We stand ready to 
work with DOE, NNSA, and Congress to turn ideas about a ``more agile'' 
relationship between NNSA and the national laboratories into actions. 
We have provided input to, and are actively listening, for the findings 
and recommendations of the Congressional Advisory Panel on the 
Governance of the Nuclear Enterprise, and the National Academy of 
Science Committee on Assessment of the Governance Structure of the NNSA 
National Security Laboratories, established by the National Defense 
Authorization Act for Fiscal Year 2013. The initial finding of the 
first panel that there has been a ``loss of sustained national 
leadership focus'' is strong motivation to quickly determine a path 
forward. We are eager to contribute constructively to the deliberations 
that will surely follow the issuance of the panel's recommendations.
             stockpile stewardship program accomplishments
    Fiscal year 2013 and the beginning of fiscal year 2014 have seen 
many significant accomplishments in assessing and sustaining the 
Nation's nuclear weapons stockpile and applying and strengthening the 
underpinning ST&E. Our work was carried out through partnerships and at 
sites across the NNSA complex. Over the last year, we have:

        <bullet> Completed Cycle 18 of the Annual Assessment of the 
        stockpile. Continuing efforts at LLNL increased the rigor of 
        the assessment process through extensive peer review that 
        included the Independent Nuclear Weapon Assessment Process, and 
        the application of improvements in predictive capabilities. 
        During the last year, we also reduced surveillance backlogs and 
        expeditiously addressed significant findings.
        <bullet> Completed key LEP tasks. We identified a cost-informed 
        preferred design concept and down-select of the pit and nuclear 
        explosive package for the W78/W88-1 LEP (now on a 5-year hold). 
        The selected design meets all military threshold requirements 
        and enables achievement of enhanced surety. In addition, 
        warhead options for further evaluation in Phase 6.1 were 
        identified for the LRSO weapon.
        <bullet> Attained important results at NIF to support the SSP. 
        NIF high-energy-density physics shots are providing valuable 
        data about the properties of materials at extreme conditions, 
        the interaction of matter with intense radiation, and 
        hydrodynamic turbulence and mixing of materials. Experiments to 
        develop an improved understanding of the underlying physics for 
        achieving ignition produced more energy through ``self 
        heating'' from fusion reactions than was delivered into the 
        fusion fuel. Altogether 158 shots were fired on NIF in fiscal 
        year 2013 to support the SSP. Diagnostics and support 
        capabilities have grown considerably to meet user demand, and 
        the NIF team is continuously improving the efficiency of 
        operations.
        <bullet> Brought the 20-petaflops (quadrillion floating point 
        operations per second) Sequoia supercomputer into classified 
        operation. Operating as a tri-laboratory resource, Sequoia 
        enables the use of higher-fidelity physics models in 
        simulations and makes it possible to run large suites of 
        simulations for estimating the sources of uncertainty that 
        affect weapon safety and performance. In addition, NNSA reached 
        a key step (Critical Decision-0) toward acquisition of the next 
        major computer platform to be deployed at LLNL through CORAL 
        (Collaboration of Oak Ridge, Argonne, and Lawrence Livermore). 
        CORAL aims to achieve important technological advances needed 
        by the SSP for predictive capability and 3D uncertainty 
        quantification.
        <bullet> Conducted a wide range of highly successful SSP 
        experiments. Laboratory scientists designed and fielded 
        experiments at facilities at Livermore, Los Alamos, Sandia, the 
        University of Rochester, and the Nevada National Security Site 
        and gathered data to improve our understanding of weapons 
        physics and support LEPs. For example, we tested an innovative 
        concept for pit reuse in a highly successful hydrodynamic test 
        at LLNL's Contained Firing Facility.
        <bullet> Engaged in developing new additive manufacturing (AM) 
        processing technologies. Providing capabilities far beyond 
        current state-of-the-art commercial tools, these new AM 
        technologies are able to create features and architectures at 
        the micro- and even nano-scale to make materials with 
        previously unachievable properties (e.g., ultra-lightweight 
        structural materials). Working with partners within the NNSA 
        complex, we are exploring the potential role for this 
        technology in support of the SSP.
                 meeting broader natonal security needs
    Since the Laboratory's founding in 1952, Livermore researchers have 
applied their capabilities to develop innovative technical solutions to 
help meet pressing national and global security needs. The work has 
grown in importance as the country faces an expanding list of complex 
national security issues in the 21st century, for which solutions 
demand scientific and technology innovation. Research and development 
projects at LLNL support the U.S. military, counter chemical and 
biological threats, and enhance cyber, aviation, and infrastructure 
security. We help in areas that take full advantage of LLNL's unique 
research capabilities, special expertise, and our multidisciplinary 
teaming approach to problem solving.
    Work for NNSA on nuclear nonproliferation and counterterrorism, for 
the DOE's Office of Science and energy technology offices, other 
Federal agencies, and other sponsors, not only meets their important 
needs but serves to sustain the long-term health and vitality of LLNL. 
These efforts extend existing core competencies and build new strengths 
in multidisciplinary ST&E, which in turn, benefit the stockpile 
stewardship mission and national security. Notable activities in fiscal 
year 2013-2014 include:

        <bullet> Emergency response. LLNL's National Atmospheric 
        Release Advisory Center (NARAC) provides predictions of the 
        impacts of hazardous atmospheric releases to emergency managers 
        and responders. Each year, NARAC typically responds to 10,000 
        airborne-plume simulation requests for emergency preparedness, 
        participates in 100 major emergency response exercises, and 
        responds to 25 incidents, including major events such as the 
        Fukushima Dai-ichi nuclear power plant accident.
        <bullet> Radiation detection. Customs and Border Patrol is 
        piloting LLNL's new Enhanced Radiological Nuclear Inspection 
        and Evaluation (ERNIE) software that will improve the 
        sensitivity of radiation portal monitors to provide high levels 
        of nuclear security while also reducing the high false alarm 
        rate that can interfere with traffic volumes at monitoring 
        stations.
        <bullet> Foreign nuclear weapons analysis. LLNL provides 
        accurate, comprehensive, and timely assessments of the nuclear 
        weapon capabilities of countries of concern. Our analysis 
        contributes to decision-making at the highest levels, including 
        National Intelligence Estimates (NIEs). We also develop 
        technologies and systems to help the Intelligence Community 
        meet its data collection and information exploitation needs.
        <bullet> Cyber security. LLNL is expanding the application of 
        cyber security capabilities that are able to provide real-time 
        situational awareness inside a large computer network by using 
        a distributed approach to monitoring for anomalous behavior. 
        Through our Network Security Innovation Center, we work with 
        private partners to counter the constant attack on commercial, 
        infrastructure, and national security networks.
        <bullet> Tracking space debris. The national security community 
        is proposing to use nano-satellites with LLNL-developed optical 
        system for tracking space debris. A constellation of such nano-
        satellites is projected to be able to track pieces of space 
        debris with a precision 10 times greater than currently 
        possible, which would greatly reduce the false alarm rate for 
        possible collisions with U.S. satellites.
        <bullet> Nuclear forensics. LLNL's Nuclear Forensics program is 
        beginning to use the capabilities of NIF to produce fission 
        products needed for more realistic forensic exercises. The 
        samples are used in round-robin exercises that ensure the 
        Nation's nuclear debris diagnostic capabilities are maintained 
        in a constant state of readiness.
        <bullet> Advanced conventional munitions. The BLU-129/B low-
        collateral-damage munition, developed from concept to delivery 
        to the combatant commander in only 18 months, recently won the 
        18th annual William J. Perry Award, and we completed a highly 
        successful hypersonic sled test of an advanced kinetic energy 
        warhead in 2013.
        <bullet> Support for the U.S. military. The Laboratory's 
        Counterproliferation Analysis and Planning System (CAPS), a 
        tool to assist in planning missions against facilities that 
        potentially support WMD production, was used scores of times in 
        the past year to provide technical assistance to combatant 
        commanders and to U.S. troops in the field. We also support 
        DOD's mission to detect and defeat improvised explosive 
        devices.
        <bullet> Countering biological threats. LLNL developed and 
        licensed a technology to safely validate the performance of 
        biodetection systems designed to provide early warning of 
        aerosol releases of biological agents. Our cutting-edge 
        detection technologies support the needs of the recently 
        released ``National Strategy for Biosurveillance.''
        <bullet> Aviation security. To better protect against the 
        threat of homemade explosives to commercial air transportation, 
        LLNL provides the Department of Homeland Security with 
        expertise and extensive facilities for explosive testing and 
        evaluation.
                 workforce recruitment and development
    To sustain the Laboratory's expertise in nuclear weapon design and 
cultivate its spirit of innovation, LLNL endeavors to attract a world-
class workforce by providing the opportunity to serve the Nation 
working on exciting projects, with outstanding colleagues, and state-
of-the-art research capabilities. Many prospective career employees 
first come to the Laboratory as postdoctoral fellows to work on 
cutting-edge ST&E, often funded by Laboratory Directed Research and 
Development (LDRD). LDRD is exceedingly effective for workforce 
development, and, in many cases, it is the only means by which we 
explore innovative approaches to meet emerging national needs before 
they are sufficiently demonstrated to attract sponsor funding.
    Recruitment and employee development at LLNL has been challenged in 
recent years as weapons-related funding has decreased. The program 
stability offered in the fiscal year 2015 budget request greatly helps 
the Laboratory in workforce planning and recruiting. Fortunately, we 
continue to attract outstanding young people. For example, in the 4 
years of the program, the extremely competitive DOE Office of Science 
(SC) Early Career Research Program has made awards to 10 LLNL 
researchers. Only two DOE laboratories have more awards.
    LLNL provides an extensive range of employee development, 
mentoring, and leadership training programs to foster career growth. 
Special attention is being devoted to identifying and meeting needs for 
critical skills and to succession planning. Succession plans are being 
developed across the Laboratory and used to inform nominations for 
advancement and leadership development programs.
                            closing remarks
    I thank the subcommittee for its continuing support of the SSP, and 
the dedicated men and women of LLNL, who are committed to making our 
Nation more secure through advances in ST&E. We greatly appreciate the 
attention the SSP is receiving, but the challenges confronting the 
program and its investment needs are substantial.
    In the face of these challenges, LLNL remains focused on caring for 
the existing stockpile and modernizing or sustaining weapon systems 
consistent with national policy. The prospect for LLNL under the 
President's budget request for fiscal year 2015 is a modest increase in 
funding for weapons activities. This reverses the trend of recent 
years, and will help us strengthen the SSP's underpinning ST&E, 
maintain a responsive infrastructure, and develop cost-informed options 
for LEPs.
    We must ensure that our workforce continues to have the training 
and skills necessary to meet current and future mission requirements. 
As long as there are nuclear dangers in the world, a cadre of talented 
scientists and engineers dedicated to national service and with the 
necessary skills, training, and tools, will be needed to sustain the 
nuclear stockpile without testing. In this regard, I am concerned about 
the delay of work on LEPs at LLNL, which limits opportunities to 
exercise weapons development and engineering expertise. In addition, as 
LEPs are prolonged or postponed, the pressure increases on SSP 
assessment tools and capabilities as they address a growing set of 
issues and protect against technical surprise.
    With sustained support for the SSP--and for complementary work as a 
broad-based national security laboratory--LLNL will continue to help 
ensure a safe, secure, and effective nuclear weapons stockpile, and 
develop innovative solutions challenges in nuclear security, 
international and domestic security, and energy and environmental 
security.
    Thank you for this opportunity to address the subcommittee.
    Senator Udall. Thank you, Dr. Goldstein.
    Let me recognize myself and start the round of 7-minute 
blocks of time.
    I want to start with Dr. McMillan. The NNSA has stated it 
still wants to move out of the old chemistry metallurgy 
research (CMR) facility by 2019, given its aged state. Is this 
target achievable? What has to be moved out to make it happen? 
What happens if you don't achieve the target date?--as a 
follow-on.
    Dr. McMillan. Senator, thank you for the question.
    Yes, it is achievable, and the provisos really fall into 
three categories. First of all, the funding stream profile. In 
fiscal year 2014, we need to see $90 million available to do 
the work in those facilities. In 2015, we need to see $38 
million. Second, in the out years, we need to see $85 million, 
relatively uniformly, out to 2019. Third, we're going to need 
to have a streamlined process, what DOE and NNSA call the 413 
process, for being able to do the project. We need to be able 
to do that efficiently; and, if we do that, then I think that 
will work. With funding in the next 2 years, out-year funding, 
and then a streamlined process, I believe it's possible to do.
    The pieces of the work that we need to move out of CMR are 
primarily analytical chemistry. There is some what we call 
material characterization work that happens there, but it's 
mostly analytical chemistry. That's what we need to be able to 
move out.
    If we're unable to do that, we face choices such as 
extending beyond 2019, which I think is unadvisable. That 
building will be 70 years old at that point. The nuclear 
facility standards were very different in 1952, when the 
building came online. Either we do something like that or we 
have a gap in capabilities. But, it's probably early to really 
say what those consequences would be.
    Senator Udall. Dr. Hommert, let me turn to you and the B61 
LEP. Your laboratory's performing the largest amount of work on 
that weapon. I think you're now in an engineering phase. Let me 
ask you three questions connected to that effort: What's your 
assessment of the largest remaining technical risk you have to 
buy down in this program? Second, assuming you enter into 
production in time, what is your assessment of the capacity of 
reduced components in this program combined with all the other 
activities at the Kansas City plan? Third, do you see any areas 
for cost savings once it enters production?
    Dr. Hommert. Senator, thank you for the question. On the 
issue of technical risk, when we began the program 2 years ago, 
the highest technical risk we had was actually that radar 
module that you just saw. We've put that risk largely behind 
us, the green board there. As we stand here today, I would say 
there are a couple of areas of low- to moderate-risk that we 
continue to watch. It's important that we maintain effective 
work with our supplier base in a variety of different component 
areas--magnetics, et cetera. We have a small, relatively 
fragile supplier base, and it's important that we maintain 
strong relationships with them and ensure that they can meet 
our quality and schedule requirements.
    There is also a longstanding issue with the program, which 
is to effectively integrate the Air Force component into the 
B61. We continue to work closely with the Air Force and with 
their contractor, and we've made progress on that in the coming 
year, but that is a new technical component of the program that 
we'll have to continue to watch all the way through our design 
period.
    I would say, in aggregate, technical risk posture is 
stronger and in a better place than where we were a year ago, 
retiring that risk element in large measure. I feel pretty good 
about that.
    With respect to production, as we look at the production 
requirements through Kansas City, we think that the phasing of 
the programs, largely the 76-1, will complete its production by 
the time, in 2019/2020, when we begin the 61 production. I 
believe that that's effectively phased.
    The other thing I think that's very valuable in our working 
relationship with Kansas City, I think we've honed that working 
relationship very effectively through the 76-1 process and 
production. We're doing that now. I think we'll have 
effectively, a more honed and working relationship with Kansas 
City when we enter that. Also, the sequencing with where we 
would go with the Mk21 program, which now we look at 2023. 
Actually, the phasing is pretty good through the throughput for 
Kansas City right now.
    Finally, on cost savings in production itself, actually 
that has to begin well before production. We have a very active 
cost-control board with Kansas City. We're trying to make sure 
that there's a level of dialogue that we're factoring into our 
designs. The questions of manufacturability, we think we've 
made great progress on that, on the 61. We expect we'll see 
cost savings through the production period, as we've begun to 
see already in design phase.
    Senator Udall. The subcommittee certainly likes to hear 
that.
    Dr. Goldstein, you talked about the NIF. It's a 
multibillion-dollar facility. It focuses on--192 laser beams on 
a small target to simulate the condition of a nuclear weapon. 
One of the milestones associated with the facility was to 
achieve ignition or a sustained burn of a small target 
containing an isotope of hydrogen. My understanding is, this 
milestone has not been achieved. Can you explain to us why it's 
important to achieve that milestone, where you are in the 
progress towards this milestone, and what other stockpile 
activities are you using the facility for?
    Dr. Goldstein. Thank you for the question, Mr. Chairman. 
You're correct, that milestone was not achieved. Achieving 
ignition is important to the SSP because of the data that it 
will allow us to collect on physical properties important to 
understanding weapons performance, including the process 
referred to as ``boost,'' which occurs in all of our current 
stockpile weapons.
    This information is important in our assessment of the 
legacy stockpile and could help us develop options for future 
LEPs, and also to test the fidelity of our integrated 
multiphysics computer simulation codes. At the present time, 
we're making steady progress towards understanding the 
underlying physics associated with achieving ignition on NIF. 
As measures of progress, we've already set new records for the 
production of fusion neutrons and demonstrated a process known 
as bootstrapping, which is a prerequisite, a stepping stone, if 
you will, that's needed on the way to demonstrating fusion 
ignition. We've also demonstrated success in predicting the 
behavior of recent experiments using those large multiphysics 
codes that are used for weapons design.
    It's important to bear in mind that our work on ignition is 
even now helping us to evaluate and improve the level of 
confidence we have in the physics models used in our weapons 
computer codes.
    At the same time, both LLNL and LANL have been using NIF to 
collect data on materials properties under the very extreme 
conditions that are found in operating nuclear weapons, on the 
transport of radiation, in weapons geometries, and on the 
hydrodynamic behavior of weapons materials.
    I'd also add that NIF has already provided important 
confirmatory data for a theory put forward by a Livermore 
designer that resolved a so-called ``energy balance conundrum'' 
that has bedeviled nuclear designers for decades. I mean, since 
the time of testing, we have not understood the nature of this 
process. It has been resolved recently, with the significant 
help from the experimental validation done on NIF.
    Senator Udall. Thank you, Doctor.
    Let me recognize Senator Sessions.
    Senator Sessions. Thank you.
    I've been on this committee 17 years, it's hard to believe, 
but I've never been comfortable with where our money is spent 
and how we've managed it. It's given me some concern over time.
    The first thing I want to draw your attention to--I don't 
know if you have a copy of this chart. Do you have that copy?
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. Just see if we have this correct. The 
chart, across the top, is the commitment made by the President 
and Congress to secure New Strategic Arms Reduction Treaty 
ratification in 2010 with regard to modernizing our nuclear 
weaponry. It appears to me that we're about $2 billion below 
that promised amount. This top line being those numbers. For 
example, in 2012, the commitment was $7.6 billion, and we came 
in a little over $7.2 and $7.9 and $6.9, $8.4, $7.7 is where 
we're headed. This is somewhat of a dangerous trend, it seems 
to me. Then, if you take the results of these delays, I guess 
we can blame the results of this failure of money is that the 
W76 was to be completed in 2017 and it looks like we have a 2-
year delay on that, with a reduced number of warheads. Would 
you agree or disagree with that?
    Dr. Hommert. That is--fiscal year 2019 is the current 
schedule for the 76, yes.
    Senator Sessions. All right. Then, in the B61, the first 
production unit (FPU) was to be in 2017, but it looks like we 
have a 3-year delay to 2020. Is that correct?
    Dr. Hommert. Yes, Senator, that's the current schedule.
    Senator Sessions. Dr. Hommert, are these formal decisions? 
Have they been adopted by the labs? Who has made these 
decisions?
    Dr. Hommert. These FPU dates are the agreed position of the 
Nuclear Weapons Council (NWC) and then the NNSA and as 
requirements through to us.
    Senator Sessions. All right. The NWC and the NNSA has said 
this is what we're going to have to do, based on the budgets 
that we have, I guess is the way to express it.
    Dr. Hommert. Yes, Senator, that's correct.
    Senator Sessions. Then, the W88, we don't have a date 
specified for that. It's in development engineering. Would you 
say a delay is likely on that?
    Dr. Hommert. I don't think there'll be significant delay on 
the 88, as I currently see it right now.
    Senator Sessions. The interoperable warhead (IW)-1, delayed 
at least 5 years?
    Dr. Hommert. That's correct.
    Senator Sessions. That's correct?
    Dr. Goldstein, and then the LRSO weapon, initial low rate 
production, to begin in 2025, looks like it's delayed for 3 
years.
    Dr. Goldstein. That's correct.
    Senator Sessions. CMRR, we're looking for functionally 
attainable by 2020, completion in 2023, and now looks like 
we're going to 2027. The Uranium Processing Facility (UPF)--
that's the--what is that? That's the----
    Dr. Goldstein. That's the UPF at----
    Senator Sessions. Yes, okay. That's the building I've been 
asking questions about. So, that's delayed.
    I guess I'm saying to you, those represent fairly serious 
delays in the important programs that we've focused on, would 
you not agree? I assume you think, in addition, I'd ask you, is 
that unfortunate? Would you have preferred to stay on track? 
Who would like to answer that? [Laughter.]
    Dr. Hommert. I'll take a first crack. Let me just deal with 
the first three--the 76, the 61, and the 88--very quickly. I 
believe the schedules now are still schedules that provide 
effective margin against any issues in the stockpile. What is 
of paramount importance is to now hold them on schedule. The 
61, for example, 2014, 2015, and 2016--are these the most 
important years? If we can hold the budgets at the requested 
levels, we will be able to execute that, and that timeframe is 
acceptable.
    From my perspective, going back to my comments, the 
emphasis to now get these modernization efforts on a defined 
schedule, which you've gone through, Senator, I think has been 
effective, but it's had an associated effect of pressuring 
other elements of the program, which both Dr. McMillan and I 
have highlighted, in the infrastructure, surveillance, et 
cetera. I think that is where my current concern is most.
    Senator Sessions. Let me, just briefly, tell you. Last 
year, our interest on the debt was $220 billion, which is a lot 
of money. But, the Congressional Budget Office (CBO) told us 
that in 10 years, the interest on the debt for 1 year would be 
$880 billion. So, this is going to crowd out a lot of things. 
I'm just saying it's going to take a heroic effort in the 
laboratories, I believe, to ask yourselves, ``Can't we produce 
what we need for the Nation at a lower cost?''
    Now, the NWC told Congress, on March 13th, that, while the 
fiscal year 2015/2019 budget request will meet nuclear 
stockpile requirements, as you've indicated, Dr. Hommert, 
quote, ``The program is fragile, and any funding reductions at 
this point could pose unacceptable risk to the health of the 
nuclear enterprise.'' Would each of you agree, a yes or no, to 
that?
    Dr. McMillan. Yes.
    Dr. Hommert. Yes.
    Dr. Goldstein. Yes.
    Senator Sessions. That's where we are. We're in a tight 
situation, for sure.
    Let me ask one question--my time's about up--and give you a 
chance to ask this. The interim report of the Congressional 
Advisory Panel on Governance of the National Nuclear Security 
Enterprise concludes, ``The existing governance, structures, 
and practices are most certainly inefficient and, in some 
instances, ineffective, putting the entire enterprise at risk 
over the long term. The NNSA experiment involving creation of a 
semi-autonomous organization has failed. This needs to be fixed 
as a matter of priority.''
    Briefly, I'll give you a chance to respond, maybe all three 
of you. Do you agree with that assessment? What's been your 
experience? What actions could you suggest? In 1 minute or 
less. [Laughter.]
    Or you could supplement, of course. But, we are going to 
need to talk about their recommendations and what we're going 
to do.
    Please, Dr. McMillan, do you want to start?
    Dr. McMillan. Sure, I'll start.
    As I'm sure you know, Senator, I and my colleagues have 
interacted closely with the subcommittee, and I have not yet 
heard the report. I'm looking forward to their report, here in 
a few minutes. But, I certainly find a lot that I resonate with 
in the statement you made, particularly on the issues of 
efficiency, as I said in my prepared remarks.
    Dr. Hommert. I would agree with that. I believe it's timely 
to reexamine the construct, because I think it's not as an 
efficient way to operate, and, as you just cited, there are 
significant pressures to control cost and meet schedule. I 
believe there's a relationship there, that it's, again, a good 
time to reexamine, and we look forward to the work of the 
Congressional Advisory Panel on that.
    Dr. Goldstein. I would agree that there's much room for 
improvement; in particular, in the efficiency area. We have had 
the opportunity to interact with the committee and to provide 
our input and our observations.
    The one thing I would add, I think, is that the NNSA, 
together with its labs, have been tremendously successful over 
these years in executing the SSP, and I don't think we should 
lose sight of that fact as we go forward.
    Senator Sessions. Thank you, and I agree. I wish Congress 
and the President would allow new weapons to be built. I think 
that'd be safer and cheaper and better. But, we have to 
refurbish, it appears, what we have, and we have to get it 
done, in my opinion. More delays are not acceptable.
    Senator Udall. Thank you, Senator Sessions.
    Senator King.
    Senator King. Thank you, Mr. Chair.
    Let me talk about your workforce for a few minutes. How do 
you fellows assess the morale and the state of your workforce? 
This is a time in our economy when high-tech scientific people 
are in great demand in the private sector. Are you able to 
recruit and retain the people that you need? Is that an issue?
    Dr. Hommert. Senator, in order to meet the modernization 
programs that I just discussed, we've had a very significant 
recruiting requirement over the last 4 years. I'm actually 
pleased to reply that we've had a fair degree of success in 
that. We've brought something just under 1,000 advanced-degreed 
scientists and engineers. That's a new generation of stockpile 
stewards from the finest research universities in the country. 
We are under pressure to retain them because they do have other 
opportunities. You would expect that, given their talent. But, 
I'm reasonably optimistic we can do that, as long as we have 
the stability to execute the programs, because that's what 
keeps them. They believe they're doing something important, 
challenging, and, if we can convey to them that stability, I 
think we'll be effective in retaining that workforce.
    Senator King. Are they straight-up Federal employees? Are 
they subject to furloughs and all of the kinds of things that 
we've gone through?
    Dr. Hommert. They're not Federal employees, but, as 
contractors to DOE, we certainly were subject to the impact of 
the shutdown of the government in October. That had a very 
dramatic effect, and it's not a point of stability. That did 
cause some retention issues for us. I think we've been able to 
push through that. But, yes, we were subject to that impact.
    Senator King. Do either of you want to comment on that?
    Dr. Goldstein. I would just follow up on this issue of--we 
are not Federal employees, but we are subject to furlough when 
we run out of money. LLNL actually was the only DOE lab that, 
because of limited carryover, was actually in a position of 
having to close for several days in October. The morale impacts 
of that, the lack of security that that conveyed to our 
workforce--were significant. We can point to specific people 
who have left the laboratory because of their reaction to that 
kind of uncertainty.
    Dr. McMillan. Senator, if I could.
    We do a lot of our recruiting at LANL through our postdoc 
program. We have continued to be able to recruit extremely 
high-quality postdocs, among the best in the world. However, we 
are seeing increasing pressure on retention, and, in the last 
year, I've lost some of my very best mid-career people to 
universities, and I'm fighting off attempts on some of my 
people from companies such as Google, Apple, and Yahoo!.
    What's the reason for their readiness to leave?
    Dr. McMillan. Exactly the issues that my colleagues have 
talked about: instability in funding, uncertainty about the 
future program. We need to be clear and stable for the 
employees.
    Senator King. We certainly agree. I hope we can achieve 
that.
    We haven't conducted an underground nuclear test, or any 
kind of test for that matter, since 1992. What kind of problems 
does that raise? Because you're in charge of being sure that a 
weapon is ready to go if it's needed, God forbid, but you don't 
have the ability to test them. Are there ways to test, other 
than by testing the whole weapon, that can ameliorate that 
problem?
    Dr. McMillan. Yes, Senator. I would say two key areas, and 
they're parts of the SSP.
    First, we do experiments in areas where we can. In the last 
year, I'm very proud of the people of LANL in having developed 
a very innovative new diagnostic for an experiment that we did 
in Nevada. It didn't produce any nuclear yield, but it was a 
way for us to gain information we had never had before.
    Another example of that is what my colleague Dr. Goldstein 
mentioned of doing experiments on NIF. We're finding those to 
be very productive of information in domains of weapons 
performance that we haven't historically been able to touch.
    The second broad area is modeling and simulation. Through 
the last 20 years of the SSP, we have all worked to develop not 
only the computing machines, but the codes that run on those 
machines, to help us bridge the gap to testing. As someone who 
helped develop that program 20 years ago, I'm not only proud of 
what we've done, I am amazed at how far we've been able to go. 
It's successful beyond my expectations.
    Senator King. You can do, in effect, partial testing. You 
can test the components----
    Dr. McMillan. Yes.
    Senator King.--the firing mechanism, all of that. You 
simply can't test the physics of the nuclear part, itself.
    Dr. McMillan. That's correct.
    Senator King. Last December, the CBO talked about the 
nuclear weapons complex and cost for the next decade, including 
$105 billion for nuclear weapons supporting the labs of the 
naval reactors. Within the CBO report was a chilling statement, 
``If they follow historical trends, efforts related to 
sustaining and modernizing the weapons stockpile are likely to 
be particularly susceptible to cost growth.'' That's a term we 
don't like to hear around here. Can you comment on that? Can we 
do the upgrades and the work that we need to do without 
necessarily being particularly susceptible to cost growth?
    Dr. Hommert?
    Dr. Hommert. I'm particularly sensitive to this because 
there's been a lot of dialogue in Washington about the cost of 
the modernization programs, and I believe we have a high degree 
of confidence that we can hold to the cost estimates that we 
submitted on each of these programs. We have a process that's 
called a Weapon Development Cost Report. We're very committed 
to execute on that. We have, in that, appropriate contingency. 
As I indicated, on the largest of those programs, we've been 
able to actually realize savings in the first 2 years. So, that 
may have not--that may have been the historical 
characterization. I think we've gotten the message. We 
understand the pressures that you're under, and I'm confident 
we can execute to that.
    But, I'll also emphasize something I said earlier, that if 
you look at our budgets today in constant dollars and what's on 
our plate, there's actually more on the plate, and less, 
overall. We got it, we're working on that, and I am confident 
that we can execute without significant cost growth if we hold 
the schedules.
    Senator King. I was just going to end with that. I think 
what I'm hearing is, you can do it if we can deliver some kind 
of certainty and predictability. Fair enough?
    Dr. Hommert. Absolutely. The biggest risk to cost growth is 
a delay in appropriations that causes the schedule to slip.
    Senator King. Thank you.
    Dr. Hommert. Then you'll inevitably have some cost growth. 
If we don't have that, I think we're--we can do it.
    Senator King. That's an important message for us.
    Thank you very much, gentlemen.
    Senator Udall. Thank you, Senator King.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you all for being here today.
    I apologize if I'm repeating any questions that you might 
have had. I was at a Commerce Committee markup, so my staff 
tells me that my questions are good to go. So, you can correct 
him if there is an issue here. [Laughter.]
    Again, thank you.
    Dr. McMillan, the Assistant Secretary of Defense for 
Nuclear, Chemical, and Biological Defense Programs, Andrew 
Weber, testified to me last year that DOD and DOE agreed on 
achieving a production rate of 30 pits per year by 2021, but 
this budget would delay that rate to 2026. What was the reason 
for the delay, please?
    Dr. McMillan. As you said, the----
    Senator Fischer. Has that requirement changed at all?
    Dr. McMillan. As we discussed in earlier conversations, 
both the immediate need for pits for systems such as the 
Adaptable Warhead 1 have moved out. The requirement for 30 pits 
per year has also moved out. However, I think it's important 
for this committee to understand that, with a capability like 
pits, it's important that we be making them. I would remind you 
that, following the closure of Rocky Flats in 1989, we lost the 
ability to make pits. It cost us nearly $1 billion in almost a 
decade to regain that capability. I don't think we should go 
there again.
    Even if we're not making pits at the rate of 30 per year, 
we need to be continuing to practice that arc so that the 
people who do the work are able to do it for the country when 
it's needed.
    Senator Fischer. Is that going to have an impact on our 
current modernization plans, then----
    Dr. McMillan. Not after the delays----
    Senator Fischer.--if we're not able to----
    Dr. McMillan. Not after the delays that are in place. If we 
can do 30 by 2026, that will provide what we need.
    Senator Fischer. If we cannot do 30?
    Dr. McMillan. If we cannot, then it will, of course, have 
an impact.
    Senator Fischer. If we can do the 30 by 2026, are we going 
to meet the targets, then, by--I think it's 2030, that are 50 
to 80?
    Dr. McMillan. That depends on the funding. As I've 
discussed, we've laid out a three-phase program for plutonium 
strategy. The first two steps of that, which are what we're 
working on most immediately, will get us to the level of about 
30 per year. We should be able to do that by 2026. Then, if we 
make further investments, that will get us to the 50, and 
possibly beyond 50, per year.
    Senator Fischer. We're delaying a cruise missile warhead. 
Is that correct?
    Dr. McMillan. Yes.
    Senator Fischer. By how many years?
    Dr. McMillan. Three years?
    Dr. Hommert. Roughly 3, yes.
    Dr. McMillan. Yes, My colleagues are better prepared for 
that one than I am.
    Senator Fischer. Are we going to be looking at delaying 
everything by 3 years, 5 years, 10 years? What are we looking 
at?
    Dr. Hommert. Let's see, the three programs we're executing 
now--the 61, the 88, and the Mk21--the first two of those are--
I believe the schedules are firm now, 2019 and 2020. There has 
been a change in the schedule on the Air Force Mk21, but I also 
believe that's now firm--2023, I believe. I think those are 
firm. I think the ones that are less firm right now because we 
haven't done 6-2--what we call our cost-estimate phase of 6-2--
are the cruise missile system and the, what we call, IW-1 and -
2. Those, I think, are still to be nailed down.
    Senator Fischer. Last year, Doctor, you were saying, that 
about the LEP schedule, and maybe seeing that slip, as well, 
and significantly slip--and you said, quote, ``You then have 
the possibility of stacking up a fair amount of production 
requirement falling on top of one another early the next 
decade, and also just late design activities that can 
complicate our ability to support the 50---or, I'm sorry, the 
78/88. There is sequencing and phasing here that is important 
to adhere to.'' Are we looking at a problem with that 
sequencing and phasing?
    Dr. Hommert. I think we're in--we're not--a year ago, when 
we were here, we had a fair amount of uncertainty as to exactly 
what the 2014 budget would bring to execute those programs. The 
final numbers on 2014 were such that we are able to hold the 
current schedules of, particularly, the 61, the 76 production, 
and the 88, which would--if we can hold them through the 2015 
and 2016 appropriations funding process, would avoid that 
stackup, which would have been clearly a possibility.
    Senator Fischer. Are you worried that some of these systems 
are going to age out, though, if we can't hold it?
    Dr. Hommert. Certainly that's a concern. The 61 schedule 
needs to be held. I'll just leave it at that.
    Senator Fischer. Okay, thank you. I think I'll stop there.
    Thank you, gentlemen.
    Senator Udall. Thank you, Senator Fischer.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    This is to follow, a little bit, up on my colleague Senator 
King's questions. In regards to keeping your talent, when we 
look at the folks that work there and we see some of the salary 
challenges of an Apple or a Google or those kind of things, 
what are the most important, I guess you'd call it, counter-
weapons you have to try to keep people on the team?
    Dr. McMillan. Why don't I start with that one, Senator? I 
think, first of all, the importance of mission. People come to 
the laboratory because they believe that the mission we provide 
for the Nation is an important mission. To the degree that we, 
as a country, make sure they--that that commitment is 
reciprocated, that's an important tool.
    Second, I think having the tools to be able to do the 
scientific work that no one else in the world can do. I 
remember, in the late 1990s, when Silicon Valley was drawing 
off my computer science people. Having the fastest computers in 
the world for them to work on to tackle those mission 
requirements would help to balance some of the differential.
    I think, third, we need to constantly pay attention to the 
work environment, making an environment in which those people 
can work rather than one in which they're stymied. As our 
colleagues from the governance panel talk, I think that's one 
of the things I'm looking for is, are we able to govern the 
laboratories in our relationship to the government in ways that 
will make it possible for people to work rather than impossible 
for them to work?
    Dr. Goldstein. Speaking from a laboratory that has Google 
and Netflix and assorted other giants right down the street----
    Senator Donnelly. Great neighborhood, huh? [Laughter.]
    Dr. Goldstein. Absolutely--in many ways, yes. [Laughter.]
    We're in a situation where people don't even have to move 
in order to take these jobs, and they are constantly pinged by 
these companies. When we lose somebody to one of these 
companies, the people who leave are offered--I don't know if I 
want to use the word ``bounty,'' but----
    Senator Donnelly. Well, is----
    Dr. Goldstein.--compensation. If they can go back to us 
and----
    Senator Donnelly. I've heard the salaries can be, like, 
triple the salary or more.
    Dr. Goldstein. There are many things. The salaries can be 
larger, but also, the other parts of the compensation package--
stock options, things like that--as well as a range of 
amenities that these companies can offer their employees.
    I will just go through the things that I think distinguish 
us from them, and that we've found work very well in attracting 
and retaining talent:
    First of all, it is, as my colleague said, the mission, the 
ability to make a difference on a national scale. That's one of 
the reasons it's so important for that mission to be strongly 
emphasized and reinforced all the time.
    Second, it's the caliber of the people that they get to 
work with at the laboratory. That's kind of a circular thing. 
If we have good people there, we can keep good people there.
    Third, it's the caliber of the facilities. This makes it 
absolutely essential that we find ways to reinvest in keeping 
our science, engineering, and technology facilities at the 
forefront. That's one of the things that our people come 
looking for, and it's one of the things that keep them there.
     I'll just mention, also in this context, the importance of 
the Laboratory Directed Research and Development (LDRD) program 
at these laboratories, which is one of the important ways that 
we recruit people and also retain them. We keep our scientists 
at the forefront of their fields through this--among others, 
this mechanism. When there's pressure on this program at the 
lab, we feel it in our ability to attract and retain the 
nuclear force that we need.
    Senator Donnelly. Have you been able to stay as deep as you 
need to be, talent-wise? Are we as deep as we have ever been, 
or has it been more difficult to try to make sure that we're 
meeting all the goals we need to meet, in terms of having 
critical talent in our locations?
    Dr. Goldstein. I would answer that by saying we have the 
critical talent we need right now for the program, but we are 
not deep in the areas that are critical. I believe that's 
primarily because we're making the best use of the budgets that 
we have, and that does lead to our being thin in areas where, 
if we lose the next person, it could become an issue.
    Dr. Hommert. My colleague said this very well; I'll just 
try to summarize: importance of the mission, the stability with 
respect to the ability to execute the mission, the requisite 
infrastructure, and an environment conducive to the best in 
science and engineering. If we have those things, I mentioned 
earlier, we have brought some outstanding staff to the 
laboratory. They are fully capable of executing our mission, 
but we need those elements.
    Senator Donnelly. On a long list of things that we can do 
better here, if you had three top things that you looked at us 
and said, ``We need you to do this and this and this,'' what 
would they be?
    Dr. Hommert. Reinforce clarity on the expectations of our 
mission and its importance. In doing that, do it with a time 
horizon that gives us some confidence of the stability that we 
would execute on that mission. Then, I think, to your next 
panel, I do believe, to listen carefully to their 
recommendations about the nature of the environment in which we 
can operate in these institutions, because that's going to be 
very important to retain this new workforce we've brought 
through. Those would be the three things I would suggest.
    Senator Donnelly. Dr. McMillan?
    Dr. McMillan. I agree with my colleague.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Udall. Senator King, did you have a----
    Senator King. Before this panel leaves, I hope you will 
take the message back to your people that they have one of the 
most important missions in this country, and it doesn't get 
recognized, because their mission is to provide the 
intellectual guts of our deterrent. If you look back at the 
sweep of history, I think the fact that we've gone for 69 years 
without a use of nuclear weapon is a miracle. It's a miracle 
because of the credibility of the deterrent. Your people are an 
essential part of that. It's hard to recognize a negative, in 
effect, because what they've done through their work and their 
contributions, along with all those others in the nuclear 
enterprise, has enabled our deterrent to be a kind of umbrella 
for the world, which there is no more important work.
    I just hope you'll convey that those of us here understand 
and appreciate that.
    Dr. Hommert. Thank you, Senator.
    We do provide our workforce the opportunity to Webcast and 
view this hearing, so hearing that from our political 
leadership is very, very important. They'll hear it directly.
    Senator King. Let the record show. [Laughter.]
    Senator Udall. Yes, let me thank Senator King, Senator 
Donnelly, Senator Sessions, and Senator Fischer, and hopefully 
I'm on that list, as well. But, I think what I hear everybody 
saying on the committee is that your people, and their 
intellectual capital, are part of our overall deterrent. 
Senator King put his finger on it.
    We thank you for your service and for your time. I know we 
could spend easily another hour or 2 with you, but the day is 
getting on. I'm going to excuse all of you and ask our next 
panel to take their seats.
    Thank you. Thank you.
    Dr. Hommert, I'm tempted to keep this assembly here but I 
guess it's $1 million. I've never held $1 million in my hands.
    Dr. Hommert. Probably even more than that.
    Senator Udall. The Doctor is saying ``even more than 
that.'' I feel asset rich and cash poor.
    Dr. Hommert. It's the best of American technology----
    Senator Udall. It's a work of art. [Pause.]
    I want to welcome Mr. Norman R. Augustine and Admiral 
Richard W. Mies. They're the co-chairs of the Congressional 
Advisory Panel on the Governance of the Nuclear Security 
Enterprise at the Institute for Defense Analyses.
    If I might, I just wanted to set the stage for these two 
gentlemen. We just spoke to this with the previous panel. This 
is a part of my opening statement that I put in the record, but 
I think it's important, for those watching and here today, to 
understand what we face and what our opportunities are. By 
that, I mean, look, the heart and soul of our Nation's nuclear 
deterrents are the scientists and engineers working in our 
laboratories. Robert Oppenheimer--and Senator King's a great 
student of history----
    Senator Sessions. Mr. Chairman----
    Senator Udall. Yes.
    Senator Sessions.--we have to vote. I just see the first 
vote starting. Do you think we're going to try to come back and 
forth----
    Senator Udall. Yes, we're going to----
    Senator Sessions.--between the votes?
    Senator Udall. Would you all like to--there's a series of 
votes. The first vote will most likely be about 20 minutes, so 
perhaps, Senator King----
    Senator Sessions. Go early and come right back?
    Senator Udall.--if you go early, and then I'll hold the 
fort. Then when you return, whichever one of you arrives first 
will--this is a bipartisan subcommittee--will chair the 
subcommittee.
    I want to highlight what Robert Oppenheimer said at the end 
of World War II. He looked back on the Manhattan Project, and 
he said to his fellow scientists at LANL, ``If you're a 
scientist, you cannot stop such a thing. If you're a scientist, 
you believe that it is good to find out how the world works, 
that it is good to find out what the realities are, that it is 
good to turn over to mankind at large the greatest possible 
power to control the world and to deal with it according to its 
lights and its values.''
    Since Dr. Oppenheimer's leadership, the core mission of 
these laboratories has not changed on the nature of the 
scientific enterprise that served as the foundation of our 
deterrent. That scientific base is a fragile enterprise that 
needs constant oversight by the witnesses here today and by 
this subcommittee. We, as a Congress, need to ensure the 
resources are available to maintain this scientific enterprise 
so that our nuclear deterrent remains an effective one. I look 
forward to both of you providing us with your testimony, 
particularly with a focus on the relationship between the 
laboratories and the NNSA.
    Both of you, Mr. Augustine and Admiral Mies, have a track 
record of being forthright, and I expect as much today in your 
testimony. Thank you for being here.
    Mr. Augustine, perhaps we'd turn to you.

STATEMENT OF NORMAN R. AUGUSTINE, CO-CHAIR OF THE CONGRESSIONAL 
   ADVISORY PANEL ON THE GOVERNANCE OF THE NUCLEAR SECURITY 
ENTERPRISE, INSTITUTE FOR DEFENSE ANALYSES; ACCOMPANIED BY ADM 
  RICHARD W. MIES, USN (RET.), CO-CHAIR OF THE CONGRESSIONAL 
   ADVISORY PANEL ON THE GOVERNMENT OF THE NUCLEAR SECURITY 
           ENTERPRISE, INSTITUTE FOR DEFENSE ANALYSES

    Mr. Augustine. Thank you, Mr. Chairman. I have about an 8-
minute statement, which, with your permission, I'll proceed. 
Otherwise, I can submit it for the record and make it more 
brief.
    Senator Udall. If you could make it more brief, that would 
be well appreciated. I'll leave it to you.
    Mr. Augustine. Thank you. Mr. Chairman, members of the 
subcommittee, and I will submit a longer statement for the 
record, and we appreciate this opportunity to share with you 
the findings to date of our panel on the Governance of the 
Nuclear Security Enterprise. Admiral Mies and I have the 
privilege of serving it as co-chairmen.
    Congress asked our panel to broadly examine the performance 
of the Nuclear Security Enterprise and to consider alternatives 
and improvements. Let us state very clearly at the outset that 
the current viability of our nuclear deterrent is not in 
question. At the same time, the existing governance structure 
and operating practices are most certainly inefficient and, in 
some instances, actually ineffective, which does put the entire 
enterprise at risk over the long term.
    During the past 5 months, the panel has focused attention 
on the NNSA, both in the headquarters and the field, including 
the laboratories, the production plants, and the Nevada 
National Security Site. We've examined the current situation 
from the perspectives of the national leadership, from the 
users of the facilities, and also from the standpoint of the 
customers of the facilities and the employees.
    We've benchmarked the NNSA against proven management 
approaches that have been used by high-performing enterprises 
both in the private sector and in the government. We've 
conducted onsite visits to virtually all the installations, and 
we've heard from dozens of expert witnesses. I should say that 
Admiral Mies and I appreciate the great support of our 
colleagues on the panel and certainly the candor of those 
people that we've interviewed.
    Today, we are prepared to summarize our panel's findings on 
the current health of the NNSA and the root causes of its 
challenges, but we are only beginning to formulate our 
recommendations, and we'll look forward to presenting those to 
you. We believe we're on schedule for our final report.
    Unfortunately, the unmistakable conclusion of our 
factfinding is that, as implemented, the NNSA experiment 
involving creation of a semi-autonomous organization has 
largely failed to achieve the system that Congress apparently 
intended. This does need to be fixed as a matter of priority.
    Despite the flaws, we found examples of great success in 
NNSA's endeavors. To date, the science-based SSP has succeeded 
in sustaining confidence in our nuclear deterrent, unmatched 
technical innovation on the part of NNSA scientists and 
engineers has produced a dramatically increased understanding 
of the aging of our nuclear weapon stockpile, the labs and 
plants are providing solid support to the nonproliferation 
efforts and unique expertise to the Intelligence Community. 
NNSA's naval reactors organization continues to provide the 
world-class performance in developing and supporting the most 
advanced naval nuclear propulsion systems in the world.
    On the other hand, NNSA, as a whole, continues to struggle 
to meet fundamental commitments. To that point, it's lost 
credibility among many of its customers and overseers. At the 
root of the challenge are complacency and the loss of focus on 
the nuclear mission by both the Nation's leadership and the 
public, following the end of the Cold War. Although the 
national leadership has provided strong policy and has provided 
substantial amounts of funds, it's evident that the 
followthrough has been insufficient, and Congress' present 
focus on this issue is certainly timely and welcome.
    Fundamental reform will be required to shape the enterprise 
so that it can meet all the Nation's needs and rebuild the 
essential infrastructure that's required. While the technical 
work is rocket science, certainly the kind of management issues 
we've seen are not. That's not to say that they will not be 
difficult to rectify. Many have to do with culture. In my 
experience, there's nothing harder to change than culture.
    The changes that we will recommend undoubtedly will be 
difficult to implement. They will require strong support from 
the higher levels of the government, including Congress and 
certainly the White House.
    While organizational issues such as we have addressed are 
important, they are, frankly, the easy part and a necessary, 
but not sufficient, condition to achieve the improvements that 
Congress has pointed to.
    The panel believes that the enterprise today benefits 
immensely from the political leadership of an engaged Secretary 
of Energy and the strong science and engineering of the 
National Laboratory system, but we have found five systemic 
disorders that have taken root that we believe are at the heart 
of the problem. With your permission, Mr. Chairman and members 
of the committee, Admiral Mies is prepared to describe, 
briefly, those five issues.
    Senator Udall. That's perfect.
    Admiral Mies.
    Admiral Mies. Chairman Udall and Ranking Member Sessions, 
let me add my thanks, as well, for being here today. My remarks 
are intended to provide some specifics on the panel's findings 
within the context of my co-chair's overall characterization of 
the health surrounding the enterprise.
    As Norm indicated, our panel has identified five systemic 
disorders which result from the causes outlined in Norm's 
preceding testimony.
    The causes and the disorders are really inseparable. Most, 
if not all, of these disorders can be traced back to national 
complacency, the lack of a compelling national narrative, and a 
widely accepted understanding regarding the role of the U.S. 
nuclear deterrent in this century.
    Today, I would like to offer a brief synopsis of our 
panel's key findings, specifically focusing on the five 
systemic disorders we have identified:
    First, a sustained loss of national leadership focus. Since 
the end of the Cold War, the United States has experienced 
significant erosion in its ability to sustain nuclear deterrent 
capabilities for the long term. The atrophy of these 
capabilities has been well-documented in numerous reports over 
the past decade. The fundamental underlying cause of this 
erosion has been a lack of attention to nuclear-weapon issues 
by senior leadership, both civilian and military, across both 
past and present administrations and Congresses. This lack of 
attention has resulted in public confusion, congressional 
distrust, and a serious erosion of advocacy, expertise, and 
proficiency in the sustainment of these capabilities. Absent 
strong national leadership, NNSA, as well as the whole Nuclear 
Security Enterprise, has been allowed to muddle through. First 
and foremost, we must consolidate and focus national-level 
support----
    Senator Udall. Admiral, if I might stop you there, we had 
hoped to phase in your testimony, like we're going to phase in 
the modernization of our weapons. I believe I need to go to the 
floor, so we'll temporarily recess, and when the first 
Senator----
    Admiral Mies. Fine, sir.
    Senator Udall.--arrives, you can pick up at your second 
point.
    So----
    Admiral Mies. Great.
    Senator Udall. We stand in recess. [Recess.]
    Senator Sessions [presiding]. Colleagues, we are very 
apologetic from having our meeting interrupted when having good 
people like yourselves testifying on important subjects. We are 
hearing it, we are reading the report, and we will consider 
very seriously your recommendations.
    So, Admiral, I believe you were getting warmed up, so feel 
free to go ahead and----
    Admiral Mies. Thank you, Senator Sessions.
    I have already begun, and I am talking about five systemic 
disorders. I've already covered the first.
    The second is a flawed DOE/NNSA governance model. The 
current NNSA governance model of semi-autonomy is fundamentally 
flawed. NNSA has not established effective leadership, policy, 
culture, or integrated decisionmaking. Indeed, the design and 
implementation of NNSA governance has led to numerous 
redundancies, confused authorities, and weakened accountability 
within DOE.
    The third disorder is a lack of sound management principles 
and practices. NNSA and the associated policy-setting and 
oversight organizations within DOE reflect few of the 
characteristics of successful organizations. An entrenched 
risk-averse bureaucracy lacks a shared vision for, and a 
unified commitment to, mission accomplishment; and hence, they 
don't act as a team. Both DOE and NNSA lack clearly defined and 
disciplined exercise of roles, responsibilities, authorities, 
and accountability aligned to NNSA's mission deliverables. Too 
many people can stop mission-essential work, for a host of 
reasons; and those who are responsible for getting the work 
done often find their decisions ignored or overturned. Chains 
of command are not well defined, and resources are 
micromanaged. Personnel management and career development 
programs, issue resolution processes, and deliverable aligned 
budgets are deficient. Shortfalls in project management and 
cost estimating are well documented and acute.
    Fourth, there is a dysfunctional relationship between the 
NNSA Federal workforce and their management and operations, the 
management and operating (M&O) partners. The trusted 
partnership that has historically existed between the 
laboratories and DOE/NNSA has--headquarters--has eroded over 
the past two decades to an arms-length customer-to-contractor 
adversarial relationship leading to a significant loss in the 
benefit of the Federally Funded Research and Development 
Centers (FFRDC) model. The trust factor essential to this 
model, underscored by a recent National Academy of Sciences 
study, results from unclear accountability for risk, a fee 
structure, and contract approach that invites detailed 
transactional compliance-based oversight rather than a more 
strategic approach with performance-based standards. 
Additionally, excessive fragmented budget and reporting lines 
also confound effective and efficient programmatic management 
and further erode any sense of trust. Furthermore, there is no 
enterprise-wide approach within NNSA. While there are examples 
where the relationship has improved, such as at the Kansas City 
plant, overall this government and M&O partnership remains 
highly inefficient and, in many cases, severely fractured.
    Fifth and finally, there's a lack of close collaboration 
with selected customers. The issues the panel has identified 
are mainly with DOD weapon customers, and this is at once a 
culture--cultural and communications divide. There's no 
affordable, executable, joint DOD/DOE vision, plan, or program 
for the future of nuclear-weapon capabilities. There's a lack 
of effective joint planning and budget coordination because of 
a fundamental lack of mechanisms to ensure requisite 
collaboration and consensus to address core mission 
requirements. As a consequence, DOD customers lack trust in 
NNSA's ability to modernize facilities and execute warhead 
LEPs. Although other customers appear to be satisfied, hereto a 
more strategic approach could strengthen capabilities in the 
services provided.
    In conclusion, lasting reform requires aggressive action 
and sustained implementation in all five of these areas, but 
national leadership engagement is really the common theme. 
Improvement is possible, but it will demand strong leadership 
and proactive implementation of the panel's recommendations by 
the President, Congress, and an engaged Secretary of Energy.
    Thank you for your time, and we look forward to answering 
your questions.
    [The prepared statements of Mr. Augustine and Admiral Mies 
follow:]
               Prepared Statement by Mr. Norman Augustine
    Mr Chairman and Ranking Member Sessions, thank you for the 
opportunity to present the findings to date of the Congressional 
Advisory Panel on the Governance of the Nuclear Security Enterprise. 
Admiral Rich Mies and I serve as its co-chairmen.\1\
---------------------------------------------------------------------------
    \1\ The other Panel members are: Dr. Michael Anastasio, Admiral 
Kirkland Donald, U.S. Navy (ret.), Mr. T.J. Glauthier, The Honorable 
David Hobson, Dr. Gregory Jaczko, Dr. Franklin Miller, Dr. William 
Schneider, Jr., The Honorable John Spratt, Jr., The Honorable Ellen 
Tauscher, and The Honorable Heather Wilson.
---------------------------------------------------------------------------
    Congress tasked our panel to broadly examine the performance of the 
Nuclear Security Enterprise and to consider alternatives.
    Let us state at the outset: The current viability of the U.S. 
nuclear deterrent is not in question. At the same time, the existing 
governance structures and practices are most certainly inefficient and 
in some instances ineffective, putting the entire enterprise at risk 
over the long term.
    During the past 5 months, the panel has focused attention on the 
National Nuclear Security Administration (NNSA)--both headquarters and 
field, including the laboratories, production plants, and Nevada 
National Security Site. We have also examined the current situation 
from the perspective of the national leadership in the Legislative and 
Executive branches and from the perspective of customers of the NNSA in 
the Department of Defense, Department of State, the Intelligence 
Community, and the Department of Homeland Security. We have benchmarked 
NNSA against proven management approaches used by other high-
performing, high-technology organizations both in the private sector 
and in government.
    The panel's work has relied on our 12 members' decades of 
experience of a broad scope dealing with nuclear enterprise issues; we 
have reviewed thousands of pages of previous studies; we have conducted 
on-site visits to numerous installations; and we have benefitted from 
the views of dozens of expert witnesses. We appreciate the Active 
engagement of our colleagues on the panel and the candor of those we 
have interviewed.
    Today we will summarize our panel's findings on the current health 
of the NNSA and the root causes of its challenges. We are only now 
beginning to formulate the recommendations that we will provide in our 
final report.
    Unfortunately, the unmistakable conclusion of our fact finding is 
that, as implemented, the ``NNSA experiment'' involving creation of a 
semi-autonomous organization has failed. The current DOE-NNSA structure 
has not established the effective operational system that Congress 
intended. This needs to be fixed as a matter of priority, and these 
fixes will not be simple or quick, and they need to recognize the 
systemic nature of the problem.
    Despite the flaws, we have found examples of success in NNSA's 
endeavors. To date, Science-Based Stockpile Stewardship has succeeded 
in sustaining confidence in the U.S. nuclear deterrent. Unmatched 
technical innovation on the part of NNSA's scientists and engineers has 
produced dramatically increased understanding of the country's aging 
nuclear weapon stockpile. The labs and plants are providing solid 
support to non-proliferation efforts and unique expertise to the 
Intelligence Community. NNSA's Naval Reactors organization continues to 
provide world class performance in the development and support of the 
most advanced naval nuclear propulsion systems in the world.
    But, NNSA as a whole continues to struggle to meet fundamental 
commitments. To the point: it has lost credibility and the trust of the 
national leadership and customers in DOD that it can deliver needed 
weapons and critical nuclear facilities on schedule and on budget. 
Simply stated, there is no plan for success with available resources. 
NNSA is on a trajectory towards crisis unless strong leadership arrests 
the current course and reorients its governance to better focus on 
mission priorities and deliverables.
    At the root of the challenges are complacency and the loss of focus 
on the nuclear mission by the Nation and its leadership following the 
end of the Cold War. Although the national leadership has provided 
strong policy statements and substantial sums of money to the 
enterprise, it is evident that follow-through has been insufficient. 
Congress' current focus on the issue is a welcome development.
    Over the decades this changed situation has translated into the 
absence of a widely accepted understanding of, and appreciation for, 
the role of nuclear weapons and nuclear technology in the 21st century, 
with the resultant well-documented and atrophied conditions of plans 
for the U.S. strategic deterrent's future--in DOD as well as in DOE. 
Within the Nuclear Enterprise this has been reflected as a lack of 
urgency and need for a compelling mission focus.
    As earlier reviews have concluded, and this panel endorses: this is 
no time for complacency about the nuclear deterrent. America's 
deterrent forces remain of utmost importance; they provide the ultimate 
guarantee against major war and coercion. Further, our allies depend on 
these forces and capabilities for extended deterrence and could well 
pursue their own nuclear weapon capabilities if they perceive the U.S. 
commitment or competency to be weakening. Other countries carefully 
measure U.S. resolve and technological might in making their own 
decisions about proliferation and nuclear force sizing. U.S. leadership 
in nuclear science is something the country cannot afford to lose. The 
United States, along with its allies, are in a complex nuclear age; 
with several nuclear powers modernizing their arsenals, new nuclear 
technologies emerging, and potential new actors--as well as regional 
challenges--raising significant concerns. This would be a dangerous 
time to stumble.
    Fundamental reform will be required to shape an enterprise that 
meets all of the Nation's needs and rebuilds the essential 
infrastructure that is required. But while the technical work is rocket 
science, the management and cultural issues are not as complex.albeit, 
in the case of the latter, not easily rectified. What is needed is to 
issue clear plans and provide sufficient resources for success; assign 
and align responsibility, along with the necessary authority; and 
provide strong, accountable leadership and management at all levels to 
execute the mission. The panel believes such reform is possible, but it 
will demand determined and sustained high-level leadership.
    The changes the panel will recommend undoubtedly will be difficult 
to implement regardless of where the enterprise is located within the 
government's structure, since the fundamental problems are cultural 
more than organizational. Organizational change, while not unimportant, 
is only a small portion.the easy portion.of the revisions that must be 
made. Previous efforts to reform and previous studies calling for 
action have largely failed due to lack of leadership follow-through, a 
lack of accountability for enacting change, and, we might add, the lack 
of effective, sustained top-level demand for change from the national 
leadership.
    The Department of Energy by itself would be challenged to oversee 
the radical steps that will be needed. Success is imaginable only with 
the strong and active engagement of a knowledgeable Secretary, 
supported by the White House and Congress, and a structure that removes 
impediments and that aligns to mission priority. The panel believes the 
enterprise today benefits immensely from the political leadership of an 
engaged Secretary of Energy and the strong science and engineering of 
the national laboratory system.
    Each successive administration since that of President Eisenhower 
has reaffirmed the need to sustain a credible nuclear deterrent that is 
safe, secure and reliable. But sustained national commitment and focus 
on the entirety of the mission and the enterprise charged with its 
execution has been lacking since the end of the Cold War, as evidenced 
by the condition in which the enterprise finds itself today. DOE and 
the NNSA have failed to act with a sense of urgency at obvious signs of 
decline in key areas. Five systemic disorders have taken root that we 
found to be at the heart of the problem. With your permission, Admiral 
Mies will briefly outline those issues.
    Thank you.
                                 ______
                                 
           Prepared Statement by ADM Richard Mies, USN (Ret.)
    Mr Chairman and Ranking Member Sessions, let me add my thanks as 
well for being here today. My remarks are intended to provide some 
specifics on the panel's findings within the context of my Co-Chair's 
overall characterization of the health surrounding the Enterprise.
    Our panel has identified five systemic disorders which result from 
the fundamental causes outlined in Norm Augustine's preceding 
testimony. The causes and the disorders are inseparable. Most, if not 
all, of these disorders can be traced back to national complacency.the 
lack of a compelling national narrative and a widely accepted 
understanding--regarding the role of the U.S. nuclear deterrent in this 
century.
    Today I would like to offer a synopsis of our panel's key findings, 
specifically focusing on the five systemic disorders we have 
identified.
    First, a loss of sustained national leadership focus. Since the end 
of the Cold War, the United States has experienced significant erosion 
in its abilities to sustain nuclear deterrent capabilities for the long 
term. The atrophy of these capabilities has been well documented in 
numerous reports over the past decade. The fundamental underlying cause 
of this erosion has been a lack of attention to nuclear weapon issues 
by senior leadership--both civilian and military--across both past and 
present administrations and Congresses. This lack of attention has 
resulted in public confusion, congressional distrust, and a serious 
erosion of advocacy, expertise, and proficiency in the sustainment of 
these capabilities. Absent strong national leadership, NNSA, as well as 
the whole Nuclear Security Enterprise, has been allowed to ``muddle 
through.'' First and foremost, we must consolidate and focus national-
level support.
    Second, a flawed DOE/NNSA governance model. The current NNSA 
governance model of semi-autonomy is fundamentally flawed. NNSA has not 
established effective leadership, policy, culture, or integrated 
decisionmaking. Indeed, the design and implementation of NNSA 
governance has led to numerous redundancies, confused authorities, and 
weakened accountability.
    Third, a lack of sound management principles and practices. NNSA, 
and the associated policy-setting and oversight organizations within 
DOE, reflect few of the characteristics of successful organizations. An 
entrenched, risk-averse bureaucracy lacks a shared vision for, and a 
unified commitment to mission accomplishment and hence they do not act 
as a team. Both DOE and NNSA lack clearly defined and disciplined 
exercise of roles, responsibilities, authorities, and accountability 
aligned to NNSA's mission deliverables. Too many people can stop 
mission essential work for a host of reasons and those who are 
responsible for getting the work done often find their decisions 
ignored or overturned. Chains of command are not well defined and 
resources are micromanaged. Personnel management and career development 
programs, issue resolution processes, and deliverable aligned budgets 
are deficient. Shortfalls in project management and cost-estimating are 
well-documented and acute.
    Fourth, a dysfunctional relationship between the NNSA Federal 
workforce and their management and operations (M&O) partners. The 
trusted partnership that historically existed between the laboratories 
and DOE/NNSA headquarters has eroded over the past 2 decades to an 
arm's length, customer-to-contractor adversarial relationship, leading 
to a significant loss in the benefits of the federally funded research 
and development centers--the FFRDC model. The trust factor essential to 
this model--and underscored by a recent National Academy of Science 
study \2\--results from unclear accountability for risk, a fee 
structure and contract approach that invites detailed transactional 
compliance-based oversight rather than a more strategic approach with 
performance-based standards. Additionally, excessive, fragmented budget 
and reporting lines also confound effective and efficient programmatic 
management and further erode any sense of trust. Furthermore there is 
no enterprise-wide approach within NNSA. While there are examples where 
the relationship has improved, such as at the Kansas City Plant, 
overall this government-M&O partnership remains highly inefficient and 
in many cases, severely fractured.
---------------------------------------------------------------------------
    \2\ Charles Shank and C. Kumar Patel, et al., Managing for High 
Quality Science and Engineering at the NNSA National Security 
Laboratories (The National Academies Press, 2013).
---------------------------------------------------------------------------
    Fifth and finally, a lack of close collaboration with selected 
customers. The issues the panel has identified are mainly with the 
Department of Defense weapons customers. This is, at once, a cultural 
and communications divide. There is no affordable, executable joint 
DOD-DOE vision, plan, or program for the future of nuclear weapons 
capabilities. There is a lack of effective joint planning and budget 
coordination, because of a fundamental lack of mechanisms to ensure 
requisite collaboration and consensus to address core mission 
requirements. As a consequence DOD customers lack trust in NNSA's 
ability to modernize facilities and execute warhead life extension 
programs. Although other customers appear to be satisfied, here, too, a 
more strategic approach could strengthen capabilities and the services 
provided.
    In conclusion, lasting reform requires aggressive action and 
sustained implementation in all five of these areas. But, national 
leadership engagement is really the common theme. Improvement is 
possible, but it will demand strong leadership and proactive 
implementation of the panel's recommendations by the President, 
Congress, and an engaged Secretary of Energy.
    Thank you for your time and we look forward to your questions.

    Senator Sessions. Thank you very much for the work you put 
in this. I do believe it's very important, and hopefully we'll 
be able to have a good discussion today and we'll be able to 
study your recommendations.
    I would point out that we could be marking up near Memorial 
Day by that time. To the extent to which you have any specific 
recommendations that could become part of the National Defense 
Authorization Act, that if you could have those by that date, 
or as soon as you could--it may not be everything that you're 
fully prepared to recommend, but if there are some things that 
you're unified on, I would appreciate it if you could get that 
to us by that date.
    Mr. Augustine. We could certainly do that.
    Senator Sessions. Senator King, do you want to start?
    Senator King. Sure.
    First, I don't know why you guys beat around the bush so 
much. [Laughter.]
    I'd like to engage you to do a similar study of the entire 
U.S. Government, but----[Laughter.]
    You keep talking about culture. In my experience, leading 
cultural change is probably the hardest thing in any 
organization. You can move the boxes around, and the only way 
to make cultural change is through leadership, in my 
experience. Would you give me some thoughts about how do we get 
to the cultural issues that are at the heart of a lot of your 
criticisms?
    Admiral Mies. Again, I think the creation of NNSA was 
simply what you suggested, as moving the boxes around. It 
really didn't address the cultural issues, which, from my 
perspective, are DOE-wide, not just isolated to NNSA. There's a 
real need to attack a number of the cultural issues, and you're 
not going to do that in a short period of time. It will take a 
long time to make the changes you need. But, stability and 
continuity of leadership are key elements of it. Clearly 
defined roles, responsibilities, authority, and accountability 
are other key elements of having a well-understood, well-
defined chain of command to make an organization responsive. I 
think career-development programs with rotational assignments 
are presently weak within DOE, and NNSA specifically, and there 
is a need to have stronger career development to develop 
greater technical competence, to give people who are in the 
headquarters more field experience and vice versa, so there's 
an appreciation on both sides. I think project management 
expertise has been weak and inconsistent. You've had examples 
of very deficient cost-estimating processes. I would comment 
that the issue has not been cost growth, in many cases, of 
these projects as it has been poor cost-estimating upfront, 
which came in with very unrealistic estimates of the cost of 
some of these facilities and the LEPs, and that created 
unreasonable expectations.
    Again, working on the cultural issues and trying to restore 
a sense of credibility and regaining the trust that has been 
lost over a period of time, I think is really critical to the 
success of the organization.
    Senator King. I should have asked, as a preliminary 
question, is the view that you all have represented in this 
interim report the consensus view of the 12 members of the 
Commission?
    Mr. Augustine. It's an unanimous view, sir.
    Senator King. Okay. When do we expect your final report?
    Mr. Augustine. The date we were given is late summer, and 
we are on schedule, and I think we have a good chance of 
having--perhaps not a bound, finished report by Memorial Day, 
but certainly having the essence of a report by then.
    Senator King. I think the sooner the better, because we 
want to get it within time to be able to incorporate your 
findings into the bill that we're going to be working on 
starting around Memorial Day. Don't worry about the binding, 
just give us the data. That would be very helpful.
    Mr. Augustine. That's absolutely in our minds.
    Senator King. What came through to me was a general lack of 
attention to this subject. Has that been part of the problem, 
from Washington in general, from the administration, from 
Congress?
    Mr. Augustine. Senator, I think that's true. I think, back 
in my own career, when I graduated from college, the most 
important job, if you were an engineer, to work on in the 
Nation was probably the nuclear deterrent. The place at the 
leading edge of technology at that time was in DOD. Today, the 
leading edge of technology is certainly not within DOD. The 
nuclear deterrent has certainly not been the highest priority 
issue among our Nation's leadership.
    Senator King. But, ironically, in large measure because 
it's worked.
    Mr. Augustine. That's very ironic. We tend to take it for 
granted, and one day it may not work if we don't pay attention 
to it, of course. We visited so many of these laboratories, and 
some of the buildings go back to World War II. If you're a 
young scientist, and you go to work in a place where there are 
buildings around from World War II, where you're not sure if 
you're going to be put on furlough, you can't attend scientific 
meetings, that's not an attractive place to work. That should 
be a real concern of ours.
    Senator King. What are the immediate steps that you see? 
We're going to be talking about this, late spring and summer. 
What should be in our bill to make changes? I realize this is a 
little premature, you're not at your final recommendations, 
but, to the extent you can give us a preview.
    Mr. Augustine. We are just beginning to formulate 
recommendations, and we have pretty good agreement about what 
the problems are. That's the easy part. I would say that our 
recommendations will come in two categories. One will be 
organizational--do we have the right organization? It certainly 
appears that we don't. It's not clear what is the right 
organization. There are no silver bullets here. The second 
category will be dealing with some of these issues that the 
Admiral has described. I think that there are some things that 
just stand out. Much of it is Management 101. If I had to 
summarize one word of something that's lacking, the word would 
be accountability. We have to get accountability into this 
system. We're going to make a number of recommendations in that 
regard.
    Senator King. That's a challenge for all of government, 
because in business, accountability is whether you stay in 
business the next day. In government, it's not quite the same. 
We have to find an alternative to the profit motive to provide 
that kind of accountability. But it can be done. We've done it 
in wartime, certainly. We did it when the President said, 
``Let's get a train to New York in 3 hours,'' and it was 
accomplished. I've read about that case. That was a case where 
there was a clear goal and a clear deadline, clear 
accountability, and it happened. Maybe that's the kind of thing 
that we need here.
    Mr. Augustine. I think the lack of emphasis by the Nation's 
leadership is clearly a part of the issue here. But, I've spent 
10 years in the government, and the rest of my career, most of 
it, in the private sector. It is just very hard to imagine 
government--and part of it is the personnel system--that no 
company would survive with the government's personnel system. 
It would be gone in a year.
    Admiral Mies. I think there are probably some 
recommendations that would be appropriate for your bill, but I 
think there are some broader congressional issues which aren't 
necessarily relevant to the bill itself. I think the importance 
of encouraging greater expertise and advocacy within Congress 
is important. A greater understanding of the role of the 
deterrent, as you've expressed, I think, is critical. Better 
collaboration between the authorizers and the appropriators on 
nuclear weapons programs would be beneficial. Conducting a 
joint program review between DOD and DOE on nuclear weapons 
programs would also be very helpful. Again, greater 
synchronization between the DOD and the DOE budget submissions 
and their synchronization, in terms of agreement, would be very 
important, as well. I think those are a number of issues.
    Lastly, I would say timely confirmation of nominations to 
assume the leadership positions is really critical.
    Senator King. I think we heard, in the prior panel, that 
timeliness and predictability and certainty are something that 
we can help supply to this proposition.
    Before you leave, gentlemen, I would commend to you one of 
my favorite books about Washington. It's out of print now, but 
you can get it on Alibris. It's called ``The Institutional 
Imperative or How to Understand the U.S. Government and Other 
Bulky Objects,'' written by a fellow named Robert N. Kharasch. 
It's absolutely brilliant, and some of your writings read like 
chapter subheads. It's hilarious, brilliant, and insightful. I 
recommend it to you.
    Admiral Mies. Thank you, Mr. Chairman.
    Senator Udall [presiding]. Thank you, Senator King.
    Let me thank Senator Sessions and Senator King for 
hurriedly making their way back so that we could continue this 
important hearing. I know we have another vote, I think, that's 
going to be underway soon, but, before we--was it just called? 
So, we have to--certainly, we could squeeze in another 10 
minutes.
    But, I thought, on the heels of what Senator King just 
shared with us, Mr. Augustine, you're famous for a number of 
things, but perhaps one thing that really stands out for me is 
a chart that you produced, ``Augustine's Checklist for an 
Acquisition Adventure or `A Formula for Failure'.'' I have a 
copy right here. I think my colleagues have copies. How did you 
produce this list? Relative to the NNSA, are there three or 
four things that stand out on this list that might be common to 
the NNSA and probably other agencies and other human 
institutions?
    Mr. Augustine. Senator, transparency requires that I helped 
contribute to some of the problems on this list along my 
career. [Laughter.]
    Senator Udall. That's why you have even more legitimacy.
    Mr. Augustine. I've been interested in acquisition and 
program management. I worked for David Packard when he was at 
DOD. He was one of my heroes. I've studied a lot of people, 
I've seen a lot of programs go badly, I've seen some go well, 
and I started putting together a list of what was the 
difference between the ones that went the way you'd hope and 
the ones that didn't. This is a brief version of that list.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Augustine. To your specific question, there are several 
things I would----
    Senator Udall. I'd hate to see the entire list. [Laughter.]
    Mr. Augustine. There are many things on the list that one 
could apply, but the ones that stand out to me, one is to 
continue--as you mentioned, if you do these things, you could 
be pretty sure a program will fail--one is to continually 
revise schedule and funding. Another is to divide management 
responsibility among several individuals. Get a headstart on 
work prior to finalizing goals, schedule, and cost. Share 
authority for project direction with staff advisors. Eliminate 
independent checks and balances, particularly in the cost-
estimating area. The last one I would really cite would be, 
minimize a manager's latitude for judgment and rely on 
regulations instead. I'm afraid we can check all six of those 
boxes.
    Senator Udall. Thank you for your frankness and for your 
insights.
    I don't know if you were asked this earlier, if you have 
been----
    Yes, let me recognize Senator Sessions. He has a comment.
    Senator Sessions. I have to run and vote again, too, and 
I'm afraid I may not get back, which is a disappointment to me.
    I believe you're exactly right. My general impression of 
this over the years is who holds this group accountable? One 
reason, I believe, it's psychological, it's like, ``It's 
nuclear weapons.'' Whatever they say they need, we give. Then 
we've had political support from various people in various 
areas of the country, and things have built up over the years, 
and been protected over the years.
    I believe that this report you've submitted to us is very 
valuable. I'll just ask you this one question, fundamentally. 
If we started over, it seems to me, and we decided we were 
going to refurbish our nuclear arsenal, wouldn't we just 
construct a building or so somewhere, or create something, and 
hire a lean group of people and get the job done? Now we have 
these places all over the country, that have been there for 50 
to 60 years, with people that claim, ``Well, I do this,'' and, 
``I do this.'' It all ends up costing a lot more.
    My little joke, I guess it was, why don't we just hire 
France to do this? They wouldn't spend this much money. Nobody 
would spend this much money. We don't have money to waste. 
We're going broke. DOD is getting hammered. We're talking about 
losing 100,000 soldiers in a few years, so, we all have to work 
on it.
    I want to thank you, Mr. Augustine. You're famous for doing 
reports. You've done another good job for your country. Admiral 
Mies, you want to call this one Augustine IV or something? 
[Laughter.] But, thank you, because you, both of you, all the 
committee members, have just done a fabulous job.
    I do think, Mr. Chairman, that we won't be able to fix 
everything. I understand that. But, some of the recommendations 
you make, I hope that we can effectuate. I believe it can help 
us create a good nuclear program at less cost. That's what 
we're going to have to try to do.
    Senator Udall. Thank you, Senator Sessions.
    I think we've reached the point where we could adjourn the 
hearing. I don't want to presuppose where your final 
recommendations land. I think we have a very good feeling for 
what you've observed and concluded. But, I want to thank both 
of you for taking the time. I know we compensate you handsomely 
in psychic rewards, but I would echo what Senator Sessions 
said, as well. I think the final conclusion, when it comes to 
what you do, is--I've never seen one of the reports in which 
you've been involved stay on the shelf--it's always in people's 
hands--because of the way you go about that important work.
    Let me thank both of you. I will adjourn this hearing. I 
think we'll keep the record open for 3 more days, until the end 
of the week for any additional questions to be submitted for 
the record. Again, we look forward to your conclusions and to 
hearing from you again.
    This Strategic Forces Subcommittee hearing is now 
adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee adjourned.]
                                ------                                


                            ANNEX 1

    [The interim report titled: ``Congressional Advisory Panel 
on the Governance of the Nuclear Security Enterprise'' 
follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
          
                            ANNEX 2

    [The final report due during the July/August 2014 timeframe 
    
was not yet available at time of printing]

 
 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR
 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM
               
                              ----------                              


                        THURSDAY, APRIL 10, 2014

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

      STRATEGIC FORCES PROGRAMS OF THE NATIONAL NUCLEAR SECURITY
      
   ADMINISTRATION AND THE OFFICE OF ENVIRONMENTAL MANAGEMENT OF THE
   
                          DEPARTMENT OF ENERGY
                          
    The subcommittee met, pursuant to notice, at 2:35 p.m. in
    
room SR-232A, Russell Senate Office Building, Senator Mark 
Udall (chairman of the subcommittee) presiding.
    Committee members present: Senators Udall, Graham, and 
Vitter.

       OPENING STATEMENT OF SENATOR MARK UDALL, CHAIRMAN

    Senator Udall. The Strategic Forces Subcommittee will come 
to order.
    Senator Vitter will be joining us shortly. He is serving as 
the ranking member today, and we have Senator Graham here.
    I am going to make a short statement. When Senator Vitter 
arrives, we will look to him for a short statement.
    Then, as I've talked to Mr. Held, I am going to recognize 
Senator Graham for some questions. We all have busy schedules 
around here and we work with each other to make sure that we 
maximize our time.
    With that, this afternoon we will receive testimony 
regarding the National Nuclear Security Administration (NNSA) 
and the Office of Environmental Management (EM) of the 
Department of Energy (DOE) for fiscal year 2015.
    Let me thank all the witnesses here today for taking time 
to appear. I know your time is valuable, as well.
    The purpose of this hearing is to examine the Nuclear 
Weapons Stockpile Program of the NNSA, as well as the cleanup 
programs associated with former defense production sites of the 
DOE.
    We will have two panels today. The first panel will be Mr. 
Edward Bruce Held, the Acting Administrator of the NNSA, who 
will speak to the overall NNSA budget. The second panel will 
consist of Dr. Donald L. Cook, the Deputy Administrator for 
Defense Programs; Admiral John M. Richardson, USN, the Deputy 
Administrator for Naval Reactors and the Director of the Naval 
Nuclear Propulsion Program; and Mr. James M. Owendoff, the 
Acting Principal Deputy Assistant Secretary of the Office of EM 
at the DOE.
    Mr. Held, welcome to the subcommittee. I understand it's 
probably bittersweet for you. Just this Wednesday, Lieutenant 
General Frank G. Klotz, USAF, was confirmed for the position of 
Administrator of the NNSA. So, while I say welcome, I also want 
to thank you for your service in leading the NNSA while we 
waited on the Senate to act.
    There is no shortage of work to go around in stopping the 
spread of nuclear material that can harm our country, yet we 
continue to see a decrease in funding for these programs. In my 
opinion, there is a fundamental flaw in the way the budget for 
nonproliferation programs is coordinated in the executive 
branch. In that vein, Mr. Held, I would like to hear from you 
regarding the underlying reasons for the funding decreases 
we've seen over the past several budget proposals. It is my 
intent to advocate strongly for solutions in the upcoming 
National Defense Authorization Act (NDAA) to help mitigate 
these cuts.
    Dr. Cook, you are in charge of ensuring our nuclear 
stockpile meets military requirements. It is essential that 
these programs continue in the most cost-effective manner 
possible and meet the deadlines required by the Department of 
Defense (DOD). I understand DOD may be embracing a modular 
approach for the plutonium and uranium buildings at Los Alamos 
and Oak Ridge, respectively. I'd like to hear more details 
regarding these approaches, as it is my opinion that they 
assist in meeting requirements while saving time and taxpayers' 
money.
    Admiral Richardson, you continue a long, distinguished line 
of military officers in the Navy's nuclear program. A facility 
in Idaho where we store and examine spent Navy nuclear fuel is 
also growing older, but it is not getting better with age. I 
understand we are now at a critical juncture to replace the 
spent fuel storage pool, and it will soon have impacts on the 
Navy's fleet. I need to understand what the problem is and how 
we can be of help here.
    Mr. Owendoff, your office is in charge of cleaning up 
former defense sites used in the production of nuclear weapons. 
This is a daunting task. Colorado is home to Rocky Flats, one 
of those legacy sites, so this is an item of great interest to 
me in my State. There have been setbacks at the Waste Isolation 
Pilot Plant (WIPP). Those setbacks include a mine fire, and it 
recently underwent a complete shutdown due to the release of 
radiation in the mine. It's essential that we understand what 
transpired with both of these events, and with the fire, in 
particular. We ought to include the key takeaways from the 
recent accident report that was issued in efforts to address 
those takeaways.
    With that, let me turn to Senator Vitter for his opening 
statement, and then, as I mentioned, Senator Vitter, I will 
turn to Senator Graham and give him some time to question Mr. 
Held, if that's acceptable to you.
    Senator Vitter. Sure, absolutely.

               STATEMENT OF SENATOR DAVID VITTER

    Senator Vitter. Thank you very much, Senator Udall.
    Despite the President's rhetoric of a world without nuclear
    weapons, the administration has announced its intention to 
maintain and modernize the nuclear triad and to preserve the 
important role of nuclear weapons to deter adversaries, 
including nuclear adversaries, and reassure allies. I think 
that's good, because I think that is a safer world, having this 
deterrence in the right way.
    However, the President's prohibition on the development of 
new nuclear weapons remains in place even while other nations 
continue to develop and produce new nuclear weapons. I do 
question that. If we have nuclear weapons in the triad, for 
important strategic reasons, I think we should have them in the 
most effective, including cost-effective, way possible.
    Unlike the United States, Russia, for instance, maintains a 
robust nuclear warhead production capability. Of additional 
concern, of course, is Russia's huge disparity in tactical 
nuclear weapons. Certainly, recent events in Crimea reinforce 
the enduring role for U.S. nuclear weapons, particularly with 
our NATO allies in mind.
    I am also concerned about nuclear modernization shortfalls, 
and I would point to this chart, to my left, to your right.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Vitter. Through a combination of funding 
shortfalls, virtually all of our modernization efforts are 
delayed or deferred. The table at the top of the chart 
demonstrates that funding for NNSA weapons activities is about 
$2 billion less than the commitment made by the President and 
Congress to secure New Strategic Arms Reduction Treaty (START) 
ratification. To me, this is really important.
    New START ratification was 2010, just a few years ago. Part 
of the discussion that clearly led to that ratification were 
specific commitments about modernization, about funding. As you 
see, we have just not come close to those specific commitments 
ever since then. We're falling far behind. Even a half-billion-
dollar increase in weapons activities for fiscal year 2015 will 
not close that gap.
    The bottom of the chart illustrates what that means. It's 
not just dollars, it's not just numbers. It means a real impact 
and delay in five areas. The bottom of the chart goes down 
those five important areas.
    That doesn't even indicate an additional 5-year delay, from 
2021 to 2026, to the date when the United States will be able 
to produce 30 plutonium pits per year, and there is no 
indication when we are going to reach the 50 to 80 pits per 
year, which is the military requirement. That's our 
requirement, not 30.
    The NNSA and the National Labs are responsible for 
maintaining the effectiveness of our nuclear stockpile. They do 
this through constant surveillance of the stockpile and by 
implementing life extension programs (LEP) for warheads and 
bombs that are well past their design life. To accomplish this, 
they really require modernization, including modern physical 
infrastructure, and, of course, a highly-trained workforce, 
which can only stay highly-trained, cutting-edge with that 
modernization activity.
    While funding shortfalls don't make the job any easier, I 
would also note that an outside panel of experts has determined 
that governance structures and practices certainly account for 
inefficiency, as well.
    Finally, I just want to note that some members suggest that 
funding for NNSA weapons activities has come at the expense of 
nonproliferation programs. But, again, I think this chart is 
crucial, as it indicates $500 million increase for weapons 
activities doesn't make up for a shortfall. We are still behind 
in a significant way. As the Nuclear Weapons Council (NWC) told 
Congress very recently, the 5-year budget proposal submitted by 
NNSA is, ``fragile, and any funding reductions at this point 
could pose unacceptable risk to the health of the nuclear 
enterprise.'' I would go further and say, we started with these 
commitments that were the absolute minimum coming out of New 
START. We are now well behind those.
    Those are my main concerns. I'll look forward to the 
testimony of the witnesses.
    Senator Udall. Thank you, Senator Vitter.
    Again, Mr. Held agreed to field some questions from Senator 
Graham. We appreciate that, Mr. Held. You've always been 
flexible.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman and Senator Vitter.
    Very quickly, the mixed oxide fuel (MOX) program, I know 
you're very familiar with it, in South Carolina. Senator Vitter 
was trying to indicate you have two jobs you have to do. One is 
to modernize our weapons program to make sure they're relevant 
for the needs of the Nation. The other is to rid the world of 
nuclear material, when possible.
    One of the breakthroughs, I think, Mr. Chairman--over a 
decade ago now, there was an agreement between the United 
States and Russia to take 34 metric tons of weapons-grade 
plutonium off the market. Both countries would get rid of this 
excess weapons-grade plutonium.
    Are you familiar with that agreement, Mr. Held?
    Mr. Held. Most certainly, sir.
    Senator Graham. Okay. In 2011, we basically agreed that the 
American disposition path would be MOX.
    Mr. Held. Right. I think we modified the agreement to--we 
would stick with MOX and the Russians would switch from MOX to 
a fast-reactor program.
    Senator Graham. Right. They are using a fast-reactor 
resolution. MOX, for those who may not be familiar with it--and 
I can understand why you would not be--is taking the weapons-
grade material and blending it down so it can be burnt in 
commercial nuclear reactors. Is that correct?
    Mr. Held. Yes, sir.
    Senator Graham. How many warheads could be made from 34 
metric tons of weapons-grade plutonium?
    Mr. Held. Thousands, sir.
    Senator Graham. Thousands.
    Mr. Held. The world will be a much safer place without 
those 34 metric tons.
    Senator Graham. Right. We're talking about thousands of 
nuclear weapons potentially made from this stockpile that we 
want to turn from a sword to a plowshare.
    The MOX facilities in South Carolina are 60 percent 
complete. Do you agree with that?
    Mr. Held. In some aspects. We've sunk $5 billion into it. 
Yes, sir.
    Senator Graham. Right. To finish it out, the estimate is 
around $7 billion. Is that correct? $6 to $7 billion is what 
DOE testified to yesterday?
    Mr. Held. Yes, depending upon how you're looking at it.
    Senator Graham. Okay.
    The administration has decided to put this program on cold 
standby, stopping construction. Is there an effort to layoff 
people at the Savannah River Site (SRS) who have been working 
on the MOX program? Or do you know?
    Mr. Held. Until we get a final decision that--no, we are 
not doing----
    Senator Graham. That is reassuring, because the workforce 
is essential. I am confident, Mr. Chairman, that Congress will 
restore funding that was cut from the President's budget, to 
keep this program on track, because the rationale for stopping 
it is that there is a cheaper, more effective disposition.
    Would one of those routes be immobilization?
    Mr. Held. One of those routes would be immobilization, 
dilution in geographic repositories, fast reactors, or MOX.
    Senator Graham. Okay.
    Mr. Held. I think those are the four big ones, yes, sir.
    Senator Graham. If you did immobilization, what, very 
briefly, would be required to achieve immobilization?
    Mr. Held. We would have a lot more investment in the 
technology to----
    Senator Graham. You'd have to move material from Washington 
State to SRS.
    Mr. Held. Yes, sir.
    Senator Graham. Mr. Chairman, I am fairly familiar with 
this program. We've had problems with the Bush administration, 
every administration. Immobilization is not going to be faster 
and it's not going to be cheaper, and there is no technology 
that's going to work better than MOX. My commitment to this 
subcommittee is to try to reduce the cost of the MOX program.
    What have the Russians said about changing course, on the 
part of the United States? Do you know?
    Mr. Held. There is a precedent in the 2010 renegotiation of 
the agreement, that the Russians, because of cost factors, they 
wanted to move to the fast-reactor approach rather than MOX.
    Senator Graham. Am I fair to say the Russians rejected 
immobilization because the material could one day potentially 
be reconstituted?
    Mr. Held. That was their position, yes, sir.
    Senator Graham. Yes. The Russians rejected that because 
they don't want to give up--now, I wouldn't agree to allow the 
Russians to immobilize, because somebody down the road could 
reconstitute.
    You have a tough job. You're trying to do two things that 
are very important: modernize the nuclear deterrent force and 
try to honor agreements, in terms of disposition of excess 
weapons material.
    The agreement with the Japanese, of 700 pounds of weapons-
grade plutonium, do we know where that would go?
    Mr. Held. That has not been decided as of yet, sir.
    Senator Graham. I think it would be wonderful if we could 
receive that material and take it off the marketplace, but 
you're going to have a hard time getting anyone to do that, in 
light of stopping the program.
    The one thing I worry about, Mr. Chairman, is that when a 
State makes a commitment to accept 34 metric tons of weapons-
grade plutonium, with a pathway forward that would create jobs 
but would get the material from a sword to a plowshare. You 
stop after it's 60 percent complete, it is just not a good 
model to use, because this is very hard politically to convince 
people to take weapons-grade plutonium in your State and do 
something good for the Nation and the world.
    Do you agree that if we could achieve the goal of taking 
the 34 metric tons, in Russia and the United States, off the 
market, we'll have done the world a great service?
    Mr. Held. I think most certainly the world will be a safer 
place. The question is the relative cost of doing it, and----
    Senator Graham. The relative cost of thousands of nuclear 
warheads taken off the market, what's that worth? You're 60 
percent complete and you're stopping the project, coming up 
with a theory that's previously been rejected by the Russians. 
I just don't think this is very wise. I think we need to fix it 
before we get ourselves in a very bad way with the Russians.
    I'll look forward to trying to restore funding and helping 
you with the other problems that Senator Vitter has tried to 
explain in great detail. Maybe some sequestration relief down 
the road would be helpful to both these projects.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Graham. Thank you for 
taking the time to participate. We will see you at the markup 
for the NDAA as I know we will.
    Senator Graham. Okay.
    Senator Udall. Mr. Held, we look forward to your statement. 
Before you start, I might make note that we're going to, if at 
all possible, end the hearing by 4 p.m. We have four witnesses, 
so I think that's very doable. I am sure that Senator Vitter 
would agree to 7-minute rounds of questions once you've 
completed your testimony.
    Mr. Held. Okay. I'll be very brief, sir. Thank you.
    Senator Udall. Thank you.

STATEMENT OF EDWARD BRUCE HELD, ACTING ADMINISTRATOR AND ACTING 
UNDER SECRETARY FOR NUCLEAR SECURITY, NATIONAL NUCLEAR SECURITY 
              ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. Held. Chairman Udall, Ranking Member Vitter, I am 
honored to be with you today.
    The fiscal year 2015 budget request for the NNSA is a clear 
expression of President Obama's commitment to America's nuclear 
security. Within the fiscal constraints of the Bipartisan 
Budget Act (BBA), the President requests a 4 percent increase 
for NNSA, to $11.7 billion. This includes a 26 percent increase 
for naval nuclear reactors and a 7 percent increase for weapons 
activities.
    The President's request for weapons activities funds the 
3+2 strategy approved by the NWC in support of two enduring 
commitments to the American people. One, sustain a safe, 
secure, and effective nuclear deterrent for America that is, 
two, prudently based on a smaller, safer, and more cost-
efficient stockpile of nuclear weapons.
    To remain within BBA constraints, difficult decisions were 
unavoidable. The MOX project to dispose of excess weapons-grade 
plutonium will be significantly more expensive than 
anticipated. Although painful, DOE, for its part, believes that 
it would be in the best interest of the taxpayers to place the 
MOX project in reversible cold standby while we explore 
promising possibilities for a more cost-efficient path to 
fulfilling our plutonium disposition agreement with Russia.
    NNSA has performance challenges ahead of us. The Secretary 
of Energy, Dr. Ernest J. Moniz, will always be straightforward 
with you about those challenges. At the same time, NNSA has 
significant successes to build on, and Secretary Moniz insists 
that we get out of our defensive crouch and honestly tell our 
success stories in a way that is meaningful to the American 
people.
    Regarding nuclear security, for example, our 
counterintelligence program was dysfunctional 10 years ago. 
Today, DOE counterintelligence is highly effective, respected, 
and trusted. Less than 10 months ago, NNSA communications with 
our colleagues on the NWC were strained. Today, those 
communications are healthy and transparent, and this improved 
atmosphere is helping us focus on the big strategic issues for 
which the NWC exists.
    On nonproliferation, in just the last 4 years, 11 countries 
plus Taiwan have eliminated their caches of sensitive nuclear 
materials, and security has been hardened at scores of nuclear 
storage facilities around the world to prevent theft by 
potential terrorists. The world is a safer place as a result.
    On project management, NNSA has been on the Government 
Accountability Office (GAO) high-risk list literally since the 
day it was born, in March 2000. Since February 2011, however, 
we have consistently been on schedule and on budget for large 
projects up to $750 million. As a result, GAO has taken us off 
its high-risk list for projects of this size for the first time 
in NNSA's history.
    We still have issues with the multi-billion dollar mega-
projects, but, thanks to the greater discipline and more agile 
strategy that Secretary Moniz has brought with him, we are 
making progress there, as well.
    That leads me to our first and foremost responsibility, 
which is nuclear safety. For nuclear safety reasons, we simply 
must modernize the aged infrastructure for enriched uranium 
processing in Oak Ridge, we must modernize the aged 
infrastructure for plutonium processing in Los Alamos, and, 
wherever we can reliably do so, we should replace conventional 
high explosives in our nuclear stockpile with much safer 
insensitive high explosives. If we take a commonsense approach 
that emphasizes better/sooner rather than perfect/later, all of 
these are doable within reasonable cost. But, if, heaven 
forbid, we have a nuclear safety accident because we have not 
done so, then, Mr. Chairman, NNSA will have truly failed and we 
will forever forfeit the trust and confidence of the American 
people in all things nuclear.
    Thank you, sir.
    [The prepared statement of Mr. Held follows:]
              Prepared Statement by Mr. Edward Bruce Held
    Chairman Udall, Ranking Member Sessions, and members of the 
subcommittee, I come before you today to present the President's fiscal 
year 2015 budget request for the Department of Energy's (DOE) National 
Nuclear Security Administration (NNSA). I have been honored to serve 
the Department as the acting Administrator for the past 9 months, but 
as a fellow citizen ask for your support to get our nominees confirmed 
as expeditiously as possible. NNSA is a critically important national 
security element of the U.S. Government that deserves a permanent 
leadership team. Retired Air Force Lieutenant General Frank Klotz and 
current Assistant Secretary of Defense Madelyn Creedon are deeply 
experienced and wise people who would make a great team as NNSA 
Administrator and Principal Deputy Administrator.
    The fiscal year 2015 budget request for the DOE is up 2.6 percent 
to $27.9 billion. The NNSA, which comprises over 40 percent of the 
DOE's budget, is up $451 million or 4 percent, to $11.7 billion. In 
today's fiscal climate, this increase is an indication of the 
President's unwavering commitment to nuclear security, as outlined 
nearly 4 years ago in Prague, and reaffirmed last June in Berlin. 
Support in this year's budget request is also due to an unprecedented 
level of transparency and discussion within the interagency on how the 
NNSA can best support implementation of the two key goals of the 
Nuclear Posture Review (NPR): to prevent nuclear proliferation and 
terrorism and to maintain a safe, secure and effective deterrent while 
we reduce the number of nuclear weapons in the stockpile. This budget 
request also supports the major initiatives of Naval Reactors, makes 
investments in physical and cyber security, and funds critical 
infrastructure recapitalization to support effective operations across 
the nuclear security enterprise.
    Within that context, the Secretary and NNSA Leadership understand 
that we have an enduring responsibility to steward the taxpayers' 
dollar effectively and efficiently, and we simply must do better. 
Therefore, NNSA is looking at ways to improve our governance through a 
public interest model that will incentivize mission effective and cost 
efficient solutions to the highest risk nuclear security challenges 
facing our country. We look forward to seeing the interim 
recommendations of the Congressional Advisory Panel on the Governance 
of the NNSA, as well as to reviewing recommendations from other panels 
focused on governance, including the Secretary of Energy's Advisory 
Board and the independent commission to study the DOE Laboratories as 
directed in the fiscal year 2014 Consolidated Appropriations Act.
    Another primary area of focus to support effective and efficient 
implementation of our mission will continue to be project management 
and improving our cost assessment and estimation capabilities. The 
Secretary has reorganized the Department to elevate Management and 
Performance to one of three Under Secretary positions. Within this 
framework, the NNSA is committed to effectively managing its major 
projects and has been driving continued enhancements to contract and 
project management practices through a reorganized Office of 
Acquisition and Project Management (APM). In 2013 GAO recognized 
progress at DOE in execution of nonmajor projects under $750 million, 
and narrowed the focus of its High Risk List for DOE to mega-scale, 
unique nuclear construction projects costing more than $750 million. 
APM is leading the NNSA's effort to deliver results by strengthening 
rigorous and well-justified alternative assessments and evaluations, 
providing clear lines of authority and accountability for Federal and 
contractor personnel, and improving cost and schedule performance. NNSA 
is also applying lessons learned from the Office of Science project 
management methods and is collaborating across the DOE. At its core, 
DOE/NNSA's ultimate project management goal is to deliver every project 
on schedule, within budget, and fully capable of meeting mission 
performance, safeguards and security, quality assurance, 
sustainability, and environmental, safety, and health requirements.
    The Department has just released its new Strategic Plan for 2014-
2018, with the goal to ``Secure our Nation'' and the strategic 
objective to ``enhance national security by maintaining and modernizing 
the nuclear stockpile and nuclear security infrastructure, reducing 
global nuclear threats, providing for nuclear propulsion, improving 
physical and cyber security, and strengthening key science, technology, 
and engineering capabilities.'' The Bipartisan Budget Agreement (BBA) 
sets firm caps on national security spending in fiscal year 2015, and 
the President's budget request adheres to them so tough choices had to 
be made across the NNSA. While Weapons Activities is up 6.9 percent 
from fiscal year 2014 enacted levels, and the Defense Nuclear 
Nonproliferation (DNN) account is down 20.4 percent, the administration 
and DOE/NNSA remain firmly committed to our nonproliferation efforts 
and to implementing a robust program following the end of the 4-year 
effort to secure nuclear material. In addition, modernization of the 
nuclear security enterprise and sustaining the science and 
technological base directly supports our nonproliferation and 
counterterrorism missions, so there is great synergy between the 
Weapons and Nonproliferation programs that we will continue to 
leverage. Details of the fiscal year 2015 President's budget request 
for the NNSA follow.
                           weapons activities
    The Weapons Activities account request for fiscal year 2015 is $8.3 
billion, an increase of $534 million or 6.9 percent over fiscal year 
2014 enacted levels. It is comprised not only of the Defense Programs 
portfolio, which is responsible for all aspects of stockpile 
management, but also our physical and cyber security activities, our 
emergency response and counterterrorism and counterproliferation 
capabilities, and enterprise-wide infrastructure sustainment. Each 
element is addressed in detail below.
Defense Programs
    The Defense Programs portion of the Weapons Activities account is 
up $499.5 million, or 7.8 percent from fiscal year 2014, to $6.9 
billion. It funds the Nuclear Weapons Council (NWC) approved ``3+2'' 
strategy with some schedule adjustments, which aims to implement NPR 
guidance to reduce the number and types of weapons in the stockpile 
while maintaining a safe, secure and effective deterrent. The request 
also continues to invest in the scientific and engineering foundation 
and in critical infrastructure. Building on last year's jointly 
conducted planning process for nuclear weapons modernization 
activities, DOE/NNSA and DOD agreed on a prioritized plan to meet 
requirements within current fiscal constraints of the Bipartisan Budget 
Act. Specifically, the fiscal year 2015-2019 budget proposal requests 
funding for the following modernization activities:

        <bullet> Complete production of the W76-1 warhead by fiscal 
        year 2019;
        <bullet> Achieve the B61-12 life extension program (LEP) First 
        Production Unit (FPU) by second quarter fiscal year 2020;
        <bullet> Achieve the W88 ALT 370 FPU by first quarter fiscal 
        year 2020;
        <bullet> Defer the interoperable warhead (W78/88-1) LEP FPU by 
        5 years to fiscal year 2030;
        <bullet> Delay the Long-Range Standoff warhead FPU by 1 to 3 
        years to fiscal year 2025-2027;
        <bullet> Continue funding engineering design and to study 
        alternative approaches to deliver the Uranium Processing 
        Facility by 2025.

    The Directed Stockpile Work request at $2.7 billion supports 
transitioning to a smaller, modernized nuclear stockpile while 
continuing sustainment efforts. The requested increase reflects the 
ramp up of Phase 6.3 activities for the B61 LEP and an increase for 
Stockpile Systems, including maintenance, surveillance, plutonium 
sustainment, and tritium program requirements.
    In support of the Research, Development, Test, and Evaluation 
(RDT&E) program, the Campaigns request is $1.8 billion to provide 
increased technical resources needed for the certification of the 
existing stockpile and qualification of LEP options and components. For 
example, within the Inertial Confinement Fusion and High Yield 
Campaign, the National Ignition Facility (NIF) has achieved recent 
success with a stockpile stewardship experiment that exhibited 
significant ``self heating,'' which is an important step essential to 
achieving ignition on the NIF. This platform will be used for years to 
come in studying a multitude of physical processes of relevance to 
nuclear weapons. Today, these physics environments are only accessible 
on laboratory-based high energy density facilities, such as the NIF, 
since the U.S. has been under a unilateral testing moratorium since 
1992. The fiscal year 2015 request for the NIF is $328.5 million.
    Another area of significant investment by the DOE is in exascale 
computing. NNSA's Advanced Simulation and Computing Campaign (ASC) 
provide leading edge, high-end modeling, and simulation capabilities 
that capture and allow us to apply all that we know about weapons 
physics and engineering. The fiscal year 2015 ASC budget request 
includes $50 million for the Advanced Technology Development and 
Mitigation subprogram, established in fiscal year 2014, which funds 
projects that pursue long-term simulation and computing goals relevant 
to both exascale computing and the broad national security missions of 
the NNSA. Both the NNSA and DOE's Office of Science continue to 
collaborate in this area of advanced computing systems, with the Office 
of Science request providing $91 million towards the development of 
capable exascale systems.
    Two decades after its beginning, the Stockpile Stewardship Program 
continues to deliver tangible results from the combined use of our 
leading edge computation and experimental tools. Specifically our level 
of understanding of how nuclear weapons work is far greater today than 
when we were testing. A core mission of the DOE remains to certify the 
safety, security and effectiveness of the nuclear deterrent; this is 
done each year by the Lab Directors and STRATCOM Commander, which 
continues to support our unilateral testing moratorium consistent with 
the Comprehensive Test Ban Treaty.
Infrastructure
    The Readiness in Technical Base and Facilities (RTBF) request at 
$2.1 billion supports the underlying physical infrastructure and 
operational readiness for the nuclear security enterprise. The request 
includes funds to upgrade nuclear safety systems, improve the workplace 
environment for plant and laboratory employees, and reduce safety and 
mission risks across the enterprise in support of operational 
readiness. The Site Stewardship request of $82.4 million also ensures 
the overall health and viability of the enterprise.
    Specifically, RTBF construction supports continued design 
activities for the Uranium Processing Facility (UPF) Project at $335.0 
million, an increase of $26 million from fiscal year 2014, while 
assessing whether there are alternative designs to accomplish the 
mission incrementally and at an affordable pace. NNSA remains concerned 
about the cost growth and sequestration impacts facing the UPF Project. 
In January 2014, NNSA chartered Oak Ridge National Laboratory Director 
Thom Mason to lead a team to develop and recommend an alternative 
approach to the UPF Project. NNSA is committed to our build to budget 
strategy to deliver the UPF Project by 2025, with Building 9212 
capabilities, for not more than $4.2-6.5 billion.
    The NNSA continues to pursue steps to maintain continuity of 
plutonium capabilities at Los Alamos National Laboratory (LANL)--to 
include analytical chemistry (AC) and materials characterization (MC) 
capabilities--with a commitment to cease programmatic operations in the 
62-year old Chemistry and Metallurgy Research (CMR) facility by 2019. 
NNSA has developed a three-step Plutonium Infrastructure Strategy, to 
include: (1) Maximizing the use of the Radiological Laboratory Utility 
Office Building; (2) Reusing laboratory space in Plutonium Facility 
(PF)-4; and (3) Evaluating options for modular additions to PF-4. The 
first two steps allow the NNSA to move programmatic operations from the 
CMR facility; the third addresses the PF-4 lifetime while enabling 
production capability and analytical support enhancements to meet 
requirements. NNSA also continues to pursue investments in upgrading 
safety system in PF-4 as part of the overall approach to maintaining 
plutonium capability.
    NNSA's request reflects the partnership between NNSA and DOD to 
modernize the nuclear deterrent, and as in last year's budget, DOD is 
carrying a separate account for the outyears that contains funds for 
NNSA's Weapons Activities and Naval Reactors. These funds are 
transferred to NNSA during budget development and underscore the close 
link between these activities and DOD nuclear requirements and 
missions. We urge your subcommittee's support for alignment of the 
appropriations process and allocations, including the 302(b) 
allocation, with the President's budget. The requested allocation, 
within the spending caps set by the Bipartisan Budget Act, support 
these NNSA and DOD priorities. If not achieved, it could place 
modernization funding and implementation of our long-term stockpile 
sustainment strategy at risk.
Physical and Cyber Security
    Improving the effectiveness and efficiency of departmental 
operations is a top priority. Shortly after beginning his tenure, the 
Secretary of Energy directed the Department to undertake a thorough 
review of our security management. It became clear that DOE's approach 
to securing the Department's assets, including the special nuclear 
materials, could be strengthened by establishing greater accountability 
and clearer lines of authority.
    Therefore, in February, the Secretary announced his new vision for 
enhancing the Department's health, safety, security and independent 
assessments. First, we have put in place a Chief Security Officer (CSO) 
under each of the three Under Secretaries, each empowered and held 
accountable for managing all security operations within their 
organizations. The CSOs will form the nucleus of a new DOE Security 
Committee, chaired by the Associate Deputy Secretary, which will 
develop unified security strategies across the DOE complex and raise 
the focus on protecting our people and DOE physical and information 
assets. Second, we are moving the Department's key support functions 
for security, health and safety under the leadership of the Under 
Secretary for Management and Performance in order to improve the 
effectiveness and efficiency of Departmental operations. Third, we are 
establishing a new Office of Independent Enterprise Assessments (IEA), 
reporting directly to the Office of the Secretary. This reorganization 
will set us on a stronger course to achieving our goals and mission 
more effectively, efficiently and safely.
    In light of these reforms, the primary mission of NNSA's Office of 
Defense Nuclear Security and the Chief Security Office is to develop 
and implement sound security programs to protect Special Nuclear 
Material, people, information, and facilities throughout the nuclear 
security enterprise. The NNSA's Defense Nuclear Security request is 
$618 million to provide protection from a full spectrum of threats for 
NNSA personnel, facilities, nuclear weapons, and information.
    The Information Technology and Cybersecurity (renamed from ``NNSA 
CIO Activities'') request is substantially increased to $179.6 million 
to provide protection against increasing cyber security threats. 
Information Technology and Cybersecurity supports the national nuclear 
security enterprise by providing information technology and 
cybersecurity solutions such as enterprise wireless capabilities and 
continuous monitoring technologies to help meet security and 
proliferation resistance objectives. The increase reflects expenses for 
items such as improvement to the cyber infrastructure at the NNSA 
sites, requirements for classified computing, and Identity Credential 
and Access Management.
Emergency Response and Counterterrorism
    The Nuclear Counterterrorism Incident Response (NCTIR) request of 
$173.4 million applies technical assets from the nuclear security 
enterprise to resolve and manage nuclear and radiological incidents, 
especially those involving terrorism. It addresses this threat by 
maintaining and using response teams to manage the consequences 
domestically or internationally should an attack or incident result in 
radiation exposure to the public. NCTIR conducts training programs to 
train and equip response organizations and uses strategies that 
integrate NNSA expertise with law enforcement or military capabilities 
to locate, identify, and disable a terrorist nuclear device.
    The Counterterrorism and Counterproliferation program request is 
$76.9 million to provide the foundation for the U.S. Government's 
capability to understand and counter nuclear terrorism and nuclear 
threat devices. The program also provides a technical understanding of 
foreign nuclear weapons outside of state control. Based on this 
expertise, the program informs national policies and international 
guidelines, as well as enabling domestic and international nuclear 
counterterrorism engagements.
                    defense nuclear nonproliferation
    The DNN request is $1.6 billion, a decrease of $398.8 million, or 
about 20.4 percent, from the fiscal year 2014 level. The programs under 
DNN have been accurately described as ``defense by other means.'' The 
majority of the decrease is due to the decision to place the Mixed 
Oxide (MOX) Fuel Fabrication Facility construction project at the 
Savannah River Site in cold stand-by to allow further study of more 
efficient options for plutonium disposition. Other decreases reflect 
the conclusion of the President's 4-year effort to secure nuclear 
materials worldwide and bring the fiscal year 2015 request in line with 
funding levels before the acceleration needed to implement the 4-year 
effort.
    We have met--and in some cases exceeded--the goals set in April 
2009 following the President's Prague speech by:

        <bullet> removing or confirming disposition of 5,113 kilograms 
        of highly enriched uranium (HEU) and separated plutonium from 
        41 countries and Taiwan (enough material for more than 200 
        nuclear weapons and in excess of the target of 4,353 
        kilograms);
        <bullet> completing material protection, control and accounting 
        (MPC&A) upgrades at 32 buildings containing metric tons of 
        weapons-usable material in Russia (for a cumulative total of 
        218 buildings secured in the former Soviet Union since 1994); 
        and
        <bullet> working with Russia and former FSU countries to 
        establish effective and sustainable MPC&A capabilities at the 
        national level.

    Going forward in fiscal year 2015, the administration remains 
firmly committed to disposing of surplus weapon-grade plutonium. Over 
the past year, we have been working closely with the MOX project 
contractor and others to determine if there are opportunities to make 
the current MOX fuel approach for plutonium disposition more efficient. 
During the same time that we were analyzing the current MOX fuel 
approach, we have been analyzing alternatives to accomplish the 
plutonium disposition mission, including reactor and non-reactor based 
approaches. DOE expects to complete the options analysis and an 
external independent review in the next 12-18 months. It is now clear 
that the MOX approach will be significantly more expensive than 
anticipated--at a $30 billion lifecycle cost estimate--even with 
potential contract restructuring and other improvements that have been 
made to the MOX project. As a result, the MOX project will be placed in 
cold stand-by, meaning we will cease all construction activities in 
order to minimize costs. The Fissile Materials Disposition request is 
$311 million, including $221 million to put the MOX project in cold 
stand-by, while assessing more cost effective options. NNSA must 
immediately take prudent actions to commence lay-up to preserve our 
investment while minimizing costs. The remaining funding will continue 
to support activities for disposition of plutonium and highly enriched 
uranium.
    While much was accomplished under the 4-year effort, serious 
threats still remain. Significant stockpiles of HEU still exist in too 
many places, and global inventories of plutonium are steadily rising. 
DNN programs, working closely with a wide range of international 
partners, key U.S. Federal agencies, U.S. national laboratories, and 
the private sector will continue to remove and/or dispose of the 
dangerous nuclear materials that are still very much a part of our 
world today. The fiscal year 2015 budget request for other DNN programs 
provides funding to continue remaining high-priority nuclear and 
radiological threat reduction efforts, following completion of the 
accelerated 4-year effort activities. This includes $333 million for 
the Global Threat Reduction Initiative and $305 million for the 
International Material Protection and Control program. Fiscal year 2015 
priority efforts include the removal of an additional 125 kilograms of 
HEU and plutonium from high priority countries; the protection of an 
additional 105 buildings with high-activity radioactive sources; the 
consolidation of all category I/II material into a new high security 
zone at a nuclear material site in Russia; preventing illicit 
trafficking by closing key gaps in the radiation detection architecture 
through the provision of fixed and mobile detection equipment; and the 
initiation of new nuclear security activities in the Middle East.
    Another core program is DNN Research and Development (R&D) program, 
at $361 million in the fiscal year 2015 budget request. DNN R&D 
develops new technologies and methods that advance national and 
international capabilities to detect and characterize foreign nuclear 
weapons production activities and detonation events and the movement of 
special nuclear material (SNM). DNN R&D is a national-level program 
providing applied research and development in nuclear security and 
treaty verification technology leveraged by interagency partners at the 
Departments of Homeland Security, Defense, and State, and the 
throughout broader U.S. Government.
    Finally, the Nonproliferation and International Security program 
request is $141 million, which supports activities that prevent and 
counter WMD proliferation, including continued support of U.S. efforts 
to address proliferation by Iran, North Korea, and proliferation 
networks; implementation of statutory export control requirements; 
support for treaty verification and transparency; implementation of the 
Next Generation Safeguards Initiative to strengthen International 
Atomic Energy Agency safeguards; and efforts to reduce proliferation 
risks associated with the expansion of nuclear power.
    These activities are carried out in support of an interagency 
strategy for nuclear threat reduction and in close coordination with 
related programs in the Department of Defense, Department of State, and 
other agencies. Though difficult choices are inevitable in the current 
budget environment, NNSA continues to strongly support the nuclear 
nonproliferation mission. We are proud that the Office of Defense 
Nuclear Nonproliferation is responsible for delivering the majority of 
the pledges made by the United States under the Nuclear Security Summit 
process. The President and Energy Secretary recently represented the 
United States at the third such Summit in The Hague, where they 
highlighted additional commitments the United States intends to meet by 
the 2016 Summit, which will be hosted in the United States, and 
continued to encourage international commitment to and investment in 
meeting these critical nonproliferation challenges.
                             naval reactors
    The budget request for Naval Reactors is $1.4 billion, an increase 
of $282.1 million, about 25.8 percent from the fiscal year 2014 level. 
The request includes the base funding required to safely maintain, 
operate and oversee the Navy's 83 nuclear-powered warships. The Naval 
Reactors budget request includes three high priority programs: Ohio-
class Replacement submarine; refueling of the Land-Based Prototype 
reactor plant; and the Spent Fuel Handling Recapitalization Project. 
These new projects are essential to maintaining a credible sea-based 
strategic deterrent, to maintain the research and training capabilities 
of the Land-based Prototype, and to maintain the capability to safely 
inspect, store and package naval spent nuclear fuel.
         nnsa program direction--federal salaries and expenses
    NNSA Federal Salaries and Expenses (FSE), formerly ``Office of the 
Administrator,'' request is $411 million, an increase of $34 million or 
9 percent from the fiscal year 2014 level. The increase reflects two 
requirements: a $20 million one-time cost to fund the move of the NNSA 
Albuquerque Complex to a different leased facility, and a $12 million 
increase associated with the transfer of Corporate Project Management 
from the Weapons Activities account, consistent with congressional 
direction in the fiscal year 2014 Consolidated Appropriations Act. The 
fiscal year 2015 budget request provides support for 1,710 Federal 
full-time equivalents--a 9.3 percent reduction relative to fiscal year 
2012 enacted levels--in response to today' constrained budget 
environment. FSE remains critical to supporting the NNSA mission and 
workforce.
    Separately in the fiscal year 2015 budget request, the 
administration has proposed an additional $56 billion in funding across 
the Government through the Opportunity, Growth and Security Initiative 
(OGSI). The OGSI supports the President's broad vision for investing in 
growth, opportunity, and national security and advancing important 
Presidential goals while respecting the budgetary consensus developed 
under the Bipartisan Budget Agreement of December 2013. The OGSI 
allocates around $600 million to further support NNSA's critical 
mission and infrastructure investments.
                               conclusion
    The NNSA implements a vital mission, responsible for nuclear 
security at home and abroad, and delivering the technology, 
capabilities and infrastructure essential to a 21st century 
organization. An emphasis on mission effective and cost efficient 
nuclear security solutions will be critical for the NNSA to succeed in 
today's fiscal climate where difficult choices must be made but where 
our workforce continues to rise to the challenge and deliver.

    Senator Udall. Thank you, Mr. Held.
    Let me recognize myself for 7 minutes.
    Let me move to the fact that, 2 years ago, the NNSA 
deferred, for at least 5 years, a replacement of the aging 
plutonium facility at Los Alamos. I think we'd spent up to 
about $500 million on that design. This year, you're looking at 
a redesign of the uranium facility at Oak Ridge at the Y-12 
plant, to be clear, as its design may increase to as much as 
$10 billion. This is a huge amount of taxpayers' money, either 
lost or about to be lost. Can you please tell the subcommittee 
what you're doing to rein in the cost of these facilities, in 
terms of simpler designs?
    Mr. Held. Yes, sir.
    We're doing two things. First, we are applying the same 
discipline and rigor on these mega-projects that we have been 
doing so on the projects up to $750 million since February 
2011. Second, and maybe more importantly, or even more 
importantly, we're switching our strategy from a big-box 
strategy to a more agile, modular strategy. If you look at 
this, this change in strategy was a mother--or, necessity was 
the mother of invention in the plutonium side. What we've done 
is break down this big project into three phases. The first 
phase is driven by nuclear safety concerns. We must get out of 
the old Chemistry and Metallurgy Research (CMR) building by 
2019. We can do that by moving much of that work into the 
brand-new radiological laboratory that we brought in on 
schedule and on budget. Second, we need to get up to the 30-
pit-per-year target. We can do that by repurposing existing 
facilities in the plutonium facility number 4 in a much more 
cost effective way. Then, third, to get to the DOD target and 
military requirement of 50- to 80-pit-per-year, then we will 
need additional modular facilities there that we will build as 
the mission timing and budget requires.
    Senator Udall. Let me turn, Mr. Held, to the NNSA 
nonproliferation budget. It went down 20 percent compared to 
last year's enacted level of roughly $2 billion, and 30 percent 
relative to the fiscal year 2013 level of $2.2 billion. Now, 
the majority of that decrease is related to the MOX program 
that Senator Graham explored with you. Can you explain to the 
subcommittee, besides the MOX program, what's going on here?
    Mr. Held. Secretary Moniz, since becoming Secretary, has 
been very rigorous looking at budgets across-the-board. That 
rigor has been applied both to nuclear weapons, to 
infrastructure, and to nonproliferation. We have adjusted our 
weapons program, as well. But, a large share of this did, in 
fact, hit the nonproliferation. That is a matter of deep 
concern to us. We have made tremendous progress over the past 4 
years, the 13 countries who eliminated their stockpile or their 
special nuclear material caches. There's a lot more work we 
have to do in the next several years, and $1.6 billion of 
American taxpayers' money is still an awful lot of money to do 
that with. The Secretary is asking us if we can take a look at: 
In these budgetary tight periods, is there a better way, a more 
agile, more mission-effective way that we can get a higher 
return on our investment in nonproliferation? We are not 
walking away from the nonproliferation issue.
    NNSA is the National Nuclear Security Administration. That 
means both nonproliferation and weapons. We are not the Nuclear 
Weapons Administration. We need a coherent narrative to tie 
both of those together. The Secretary is working to do that.
    I believe the 3+2 strategy is actually a good example of 
how we are tying those to the reduced size of the stockpile 
with the continuing safe, secure, and effective stockpile.
    Senator Udall. Let me further pursue a couple of questions 
tied to the SRS.
    Mr. Held. Yes, sir.
    Senator Udall. I think this site is estimated to cost as 
much as $10 billion, with an estimated $30 billion lifecycle 
cost.
    Mr. Held. For the MOX project, sir?
    Senator Udall. Yes MOX. At SRS, I know there are other 
things that are happening there, but I think you all have 
proposed that you'd put the facility in cold storage in fiscal 
year 2015. The NDAA for Fiscal Year 2014 authorized DOE to 
conduct a strategic review of the program, to include, but not 
be limited to, MOX, and to take into account the investments 
made to date in the MOX program. It did not, however, authorize 
cold storage. What are the plans for the $343 million 
appropriated in fiscal year 2014? On the same topic, what does 
the fiscal year 2015 budget mean by ``cold storage''?
    Mr. Held. Okay. Sir, you can absolutely trust that we will 
obey the law of the land. You can absolutely trust on that.
    What the strategic study has laid out for us is a good-
government problem. We have invested $5 billion in the facility 
at SRS. The remaining full lifecycle cost for the whole mission 
is another $25 billion. The question is, is there an 
alternative that can achieve that mission that costs less than 
$25 billion? If there is, then it would be a wise use of the 
taxpayers' money to pursue that. If there is not, then what we 
should be doing is trying to drive down the cost of the MOX 
project as much as possible. That is where we are at, at this 
point. There has been a very thorough, clear-eyed study of 
these options, done by John MacWilliams, the senior advisor to 
Secretary Moniz. We really need to get that study to you as 
soon as possible so that we can all make a good-government 
decision, sir.
    Senator Udall. I have one final question.
    Mr. Held. Yes, sir.
    Senator Udall. NNSA's nonproliferation program seems to be 
wrapping up a number of efforts, but proposing little, if any, 
new ones. In my opinion, there's no shortage of activities to 
help stem the use of hostile use of nuclear material. You all 
are experts when it comes to responding to nuclear incidents. 
Wouldn't it be a wise investment of the funds we've spent 
developing this capability to train first responders and law 
enforcement officials in other nations in some of the 
capabilities we've developed to date? It seems to me like that 
would strengthen an overall international capacity to detect 
and respond to nuclear incidents. We have a national capacity, 
but how about applying that to the international scene?
    Mr. Held. Yes, sir. Instinctively, I am totally in 
agreement, sir. I think what we need to do across the 
nonproliferation accounts is look and take a step back--because 
we made a lot of progress over the last 40 years. Now we're in 
different budgetary environment, and I think we need to step 
back. Do we need to tweak the strategy a little bit to get the 
higher return for the taxpayers' dollar? Can we get greater 
synergies between nonproliferation and civil nuclear energy? 
This leads to the small modular reactor issue. Can we get 
greater synergies between the weapons program and the 
nonproliferation program and to get greater return for the 
taxpayers' dollar? That is what we are trying to do. GAO is 
going to be looking at this. One of the committees has asked 
GAO to do this. Let's step back and take another look. The 
Secretary has asked the Advisory Board to do that same thing, 
to give us some outside help. In a period of tight budgets, is 
there a better way we can achieve this mission with more 
effective use of the taxpayers' dollar?
    Senator Udall. Thank you, Mr. Held.
    Let me recognize Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thank you, Mr. Held.
    Mr. Held. Sure.
    Senator Vitter. Mr. Held, I want to refer to this chart 
again. The top of the chart, under the light blue, is fiscal 
year numbers that were committed to by all the parties as part 
of the discussion of the New START treaty. Particularly for 
fiscal years 2012, 2013, and 2014, would you say these numbers 
started out being inflated or having a lot of cushion or being 
fake in any way?
    Mr. Held. No, sir. I think what we're all trying to do 
together is fit into a tighter--a changed budgetary 
environment, and do that in the most rational, good-government 
possible way.
    Senator Vitter. Right. Under the top line, which were the 
commitments made, we have the actual appropriations. Of course, 
these first 3 years, they fall well short, which is the third 
line, in red, the difference, so almost $.4 billion the first 
year, almost $1 billion the second year, short; two-thirds of 
$1 billion short, fiscal year 2014, the third year. Just those 
first 3 years, that adds up to a $2-billion shortfall. I assume 
you'd agree, that's significant shortfall from the initial 
goals.
    Mr. Held. You combine that, you combine----
    Senator Udall. If I could interrupt for just 1 minute.
    Mr. Held. Yes, sir.
    Senator Udall. There's been a vote called. I am going to 
ask Senator Vitter if he would stay in place and continue his 
questioning. I will hurry and vote and be back.
    Senator Vitter. Okay.
    Senator Udall. I will trust you to keep the subcommittee on 
the straight and narrow. [Laughter.]
    Senator Vitter. Okay. I'll take care of some legislation 
and do some other business and----[Laughter.]
    Senator Vitter [presiding].--await your return.
    Again, I just want to underscore, these numbers were part 
of a lot of discussion that was in the middle of passing New 
START. Those commitments were absolutely at the middle of 
passing New START, and very much a part of the reason some 
folks voted yes. I voted no. But, they were certainly at the 
heart of the reason many folks voted yes. I just want to 
underscore, we're falling well short, already.
    Now, you talked about a significantly tougher budget 
environment. I would just suggest this wasn't the 19th century 
when we talked about this; it was a few years ago. We knew the 
budget environment was tough. Nothing has fundamentally 
changed. We knew this was a very tough environment, so I don't 
think there has been any fundamental shift.
    Mr. Held, in a recent letter to Congress, Frank Kendall, 
Chair of the NWC, noted, ``As you are aware, several risks have 
been identified that may affect realization of this strategy 
and NNSA's ability to execute the Stockpile Stewardship and 
Management (SSMP), as written, including a shortfall in out-
year funding and the failure to achieve assumed savings through 
management efficiencies and workforce prioritization actions.''
    Would you agree with that cautionary warning? Could you 
identify some of the risks to executing your mission if these 
shortfalls were to continue?
    Mr. Held. Yes, sir. I think, in the fiscal year 2015 SSMP, 
which has just been delivered to Capitol Hill, on the first 
page you get a graphic showing the modifications in our 
weapons, the implementation of the 3+2 strategy. We are still 
with the 3+2 strategy, but we've flattened it out, for 
budgetary reasons.
    If more budgetary tightening constraints are applied, we 
will break the 3+2 strategy. We will break the 3+2 strategy. 
That will have implications for our nuclear deterrent, and it 
will also have implications for our ability to reduce the size 
of the stockpile. The 3+2 actually knits those two missions 
together. We have a safe, secure, and reliable deterrent based 
on a smaller number of nuclear weapons. We have more budgetary 
tightness, that program is at risk. Yes, sir.
    Senator Vitter. Let's say, just for the sake of discussion, 
this first 3-year experience, $2 billion short, let's say we 
did that again in the next 3 years. I assume that would 
certainly cross the line you're talking about.
    Mr. Held. That will put the Nation in a very difficult 
position, yes, sir.
    Senator Vitter. Even if we did half of the shortfall--let's 
say, $1 billion short in the next 3 years--and I would note 
that, in contrast to that, fiscal years 2016 and 2017, we're 
supposed to be ahead, trying to make up ground--ahead of the 
original commitments, trying to make up for the last few years. 
But, let's say 2015, 2016, 2017, we're $1 billion short of the 
original commitments, the top line. I assume that would be 
serious.
    Mr. Held. It would be serious, my close colleagues in DOD 
will focus first on the weapons side. Most certainly we will do 
that, as well. An area of increasing concern for me is nuclear 
safety. Our infrastructure, our--enriched uranium in Oak Ridge 
is 70 years old. We can't wait until 2038 to get new 
facilities. The same thing with plutonium. So, nuclear safety 
is an increasing concern of NNSA, sir.
    Senator Vitter. Okay. Again, I want to underscore the 
second half, the lower half of the chart is the results of 
these number shortfalls, funding shortfalls, specific delays, 
which are already here because of the first 3-year experience; 
but I assume you'd agree, going beyond those five delays to 
further delays, further shortfalls would be very serious.
    Mr. Held. The implementation plan that's in the current 
SSMP is referred to as the Deputy Managers Action Group (DMAG) 
option 1. Both DOD and DOE are quite firm that DMAG option 1 
that's articulated in the fiscal year 2015 SSMP is really 
pretty rockbottom for us.
    Senator Vitter. Okay.
    Mr. Held. It still meets the mission, our mission 
requirements, but we're rockbottom at this point.
    Senator Vitter. Right.
    Final thought, Mr. Held. In terms of nuclear modernization, 
the President has pretty much drawn a red line, said ``No 
development of new nuclear weapons.'' If that were not a policy 
and we were just setting about to achieve our deterrent and 
strategic objectives in the best, safest, most cost-effective 
manner possible, would we only talk about modernizing existing 
nuclear weapons, or would we possibly talk about developing 
new, safer, more technologically advanced nuclear weapons to 
achieve those objectives?
    Mr. Held. The plans that we have in the 3+2 strategy meet 
our nuclear deterrent requirements and meet our safety and 
security requirements. So, the 3+2 strategy will----
    Senator Vitter. I am glad they do, but that's not answering 
my question.
    Mr. Held. Right.
    Senator Vitter. My question is, if we didn't have this 
doctrine, ``No new weapons,'' would we try to meet those 
requirements potentially in a different way?
    Mr. Held. I think, under the Nuclear Posture Review, it's 
very important to make sure that we link the nuclear weapons 
mission with the nonproliferation mission. That's been one of 
the tradeoffs that--or the compromises that we've made to make 
sure that there is a nuclear security mission that we are 
achieving, which we think we're doing. The 3+2 strategy, we 
sincerely believe meets our weapons commitments as well as our 
nonproliferation and arms-control commitments.
    Senator Vitter. Okay. Great. A second different way of not 
answering the question, but I'll move on.
    I am concerned that we have a requirement, which I think is 
still the military requirement, of 50 to 80 plutonium pits per 
year, but now we're basically talking about 30, with no plan in 
sight to go beyond that. What are we sacrificing at 30, and 
when might we have a plan in sight to go from 30 to 50 to 80, 
which is the requirement?
    Mr. Held. We are not sacrificing anything in nuclear 
deterrence, actually. The very good scientific and technical 
work has--a high level of confidence tells us that the--some of 
our existing systems are aging quite gracefully, more 
gracefully than we thought, actually. So that the delay of the 
interoperable number 1 for 5 years does not have a mission 
impact, in terms of----
    Senator Vitter. I don't want to interrupt, and I'll give 
you plenty of time, but wasn't part of the idea behind the 
requirement--50 to 80 requirement, flexibility and potential to 
surge, if that was ever necessary, with changing circumstances?
    Mr. Held. Correct. Yes, sir.
    Senator Vitter. Don't you think we're sacrificing something 
there?
    Mr. Held. It comes down to the timing of the various 
mission requirements. The pit production capacity is really 
tightly linked to the Interoperable Warhead (IW)-1 needs. The 
IW-1, from purely a deterrent strategy--and this is a NWC 
decision, this is not mine or NNSA, specifically--but, because 
of the graceful aging of the weapons, the urgency of the IW-1 
is urgent, and the reduced urgency of the IW-1 reduces the 
urgency of the 50 to 80 requirement. It doesn't eliminate the 
50 to 80 requirement, but we have a little bit more time to get 
there.
    Senator Vitter. Okay, thanks. I am going to have to run to 
go vote, but I would still suggest we have less cushion, less 
ability to surge, less ability to react to changes around the 
world.
    Mr. Held. I would agree with that.
    Senator Vitter. I would suggest recent events with Russia, 
for instance, suggest that changes around the world may be more 
the norm than the exception.
    Mr. Held. I hear you, sir, and I would instinctively agree. 
I think we need to be careful about these things.
    Senator Vitter. Thank you.
    Mr. Held. Thank you, sir.
    Senator Udall [presiding]. Thank you, Senator Vitter.
    Mr. Held, thank you for your professionalism and for your 
thorough responses.
    Mr. Held. Thank you, sir.
    Senator Udall. I am going to dismiss you and we wish you 
all the best of luck.
    Mr. Held. Thank you, sir.
    Senator Udall. We'll call the second panel. [Pause.]
    Gentlemen, good afternoon. We just had a vote on the floor. 
There may be subsequent votes. In that spirit, I am going to 
ask each of you to be as concise as you could be. Of course, 
we'll put your entire statement in the record. The reason I 
asked for you to consider short statements is so we can turn to 
some questions and give-and-take between the subcommittee and 
the three of you.
    So with that, let me start by recognizing Admiral 
Richardson. Welcome to the subcommittee.

   STATEMENT OF ADM JOHN M. RICHARDSON, USN, DIRECTOR, NAVAL 
NUCLEAR PROPULSION PROGRAM, AND DEPUTY ADMINISTRATOR, OFFICE OF 
   NAVAL REACTORS, NATIONAL NUCLEAR SECURITY ADMINISTRATION, 
                      DEPARTMENT OF ENERGY

    Admiral Richardson. Thank you, Mr. Chairman.
    It's a privilege to testify before you and the subcommittee 
once again. I am very grateful for the consistent and strong 
support of this subcommittee for Naval Reactors. I look forward 
to the discussion of our fiscal year 2015 budget request.
    My 2015 budget request, at $1.4 billion, enables me to meet 
my primary responsibility to ensure safe and reliable operation 
of the Nation's nuclear-powered fleet. My fiscal year 2015 
request is $282 million higher than my 2014 appropriation. This 
increase directly supports our increased workload, including 
three discrete national priority projects and sustaining the 
program's technical support base. The three projects include 
designing a new reactor plant for the Ohio-class ballistic 
missile submarine replacement, refueling a research and 
training reactor in New York, and replacing the spent-fuel 
handling facility in Idaho. The funding for the program's 
technical base, about $950 million, is absolutely essential, 
providing for resolution of emergent fleet issues, spent 
nuclear fuel management, technology development, and operation 
of the prototype research and training reactors. It also 
provides my foundational capabilities, such as security, 
environmental stewardship, and laboratory facilities. In short, 
my technical base at my laboratories is the intellectual engine 
that drives safe, reliable, and responsible operation of the 
nuclear-powered fleet, past, present, and future.
    $156 million of my fiscal year 2015 request funds the new 
reactor plant for the Ohio-class replacement submarine. This 
new propulsion plant includes a reactor core designed to last 
the entire lifetime of that ship, 42 years, without needing to 
be refueled, and will save the Navy over $40 billion in 
lifecycle costs.
    The request for refueling and overhaul of our land-based 
prototype is essential to providing the technologies for the 
life-of-ship core, as well as training about 1,000 nuclear 
operators per year for the next 20 years.
    The fiscal year 2015 request for the spent-fuel handling 
recapitalization project, about $145 million, is required to 
refuel aircraft carriers and submarines, providing a safe and 
effective means of processing and putting their spent fuel into 
dry storage. The existing expended-core facility is close to 60 
years old, is the oldest spent-fuel pool of its type in the 
country. It's showing its age, including leaking walls and 
cracked floors. While operated safely and responsibly, that's 
getting harder every year. The new project has already been 
delayed by 4 years, requiring that I purchase $350 million of 
temporary storage containers that I do not otherwise need. 
Without funding a New START authority in fiscal year 2015, I 
fear this project will be delayed indefinitely, incurring 
further unnecessary costs of at least $100 to $150 million a 
year for further temporary storage.
    Mr. Chairman, at the fiscal year 2015 requested funding 
level, Naval Reactors can safely maintain and oversee the 
nuclear-powered fleet. We can be good stewards of the health of 
our people and the environment. We can make critical progress 
on the Nation's future strategic deterrent. We can continue to 
deliver trained operators to the fleet. We can renew progress 
on the spent-fuel handling facility and keep our submarines and 
carriers at sea. Most importantly, we'll be able to attract and 
retain the incredible people that design, operate, and maintain 
the Nation's nuclear-powered fleet. Without them, we can do 
nothing meaningful. With them, the possibilities are endless.
    With the sustained support of this subcommittee to our 
work, I will continue to lead my team to execute our work on 
time and on budget, and will search tirelessly for the safest 
and most cost-effective way to support the Nation's nuclear-
powered fleet.
    I thank you again. I am ready to respond to questions.
    [The prepared statement of Admiral Richardson follows:]
           Prepared Statement by ADM John M. Richardson, USN
    Naval Reactors' request for fiscal year 2015 is $1.377 billion, an 
increase of $282 million (26 percent) over the fiscal year 2014 enacted 
funding level. The requested funding permits Naval Reactors to support 
the design, construction, operation, maintenance and disposal of the 
U.S. Navy's nuclear-powered fleet. This Fleet includes 55 attack 
submarines, 14 ballistic missile submarines, 4 guided missile 
submarines, and 10 aircraft carriers, or over 40 percent of the U.S. 
Navy's major combatants. The program also operates 2 nuclear powered 
land-based prototypes to conduct research and development, and when 
coupled with 2 Moored Training Ships, train over 3,000 sailors per year 
for entry into the nuclear fleet. Over 15,000 nuclear-trained Navy 
sailors safely maintain and operate the propulsion plants in nuclear 
powered warships, which operate in support of U.S. national interests.
    The fiscal year 2015 budget request supports three national 
priority projects and the technical support base. The projects are:

        <bullet> Designing a new reactor plant for the Ohio-class SSBN 
        Replacement
        <bullet> Refueling the Research and Training Reactor in New 
        York
        <bullet> Recapitalizing the spent fuel handling infrastructure 
        in Idaho

    Naval Reactors has requested an increase in funding in fiscal year 
2015 to support these projects, and to fund necessary maintenance, 
equipment, construction, and reactor technology development in the 
technical support base that have been delayed or deferred due to 
appropriation shortfalls over the last 5 years.
    Supporting the nuclear-powered fleet to safely and reliably protect 
our national interests while forward deployed requires that Naval 
Reactors maintain a substantial technical base--laboratories, training 
reactors and spent fuel handling capability--to anticipate and 
immediately respond to fleet problems before they become operationally 
limiting. This technical base thoroughly and quickly evaluates all 
fleet technical issues that arise while also supporting design, 
manufacture, operation, maintenance, and development of improved 
technologies. Ultimately, this technical base and laboratory 
infrastructure ensures the safety of the crew and the public without 
impacting the mission of our nuclear-powered fleet. Uncompromising and 
timely support for safe nuclear fleet operation continues to be the 
highest priority for Naval Reactors.
    Over the last 5 years, Naval Reactors' appropriation has been below 
requirements by over $450 million. For example, in fiscal year 2014, 
Naval Reactors was funded $151 million below the request. As a result, 
Naval Reactors will be required to shut down one of the two prototype 
reactor plants in up-State New York during the second quarter of fiscal 
year 2015 due to insufficient maintenance funding. This shutdown 
results in 450 sailors that will not be trained and will not be sent to 
the Fleet next year. This directly translates to more work at sea and 
in port for our nuclear-trained sailors further stressing them and 
their families. This reactor will remain shut down until this 
maintenance can be performed. The funding shortage has also made 
impossible the purchase of vital capital equipment and postponed 
infrastructure improvements, most notably defunding High Performance 
Computing capacity that is needed to deliver the Ohio-class Replacement 
reactor design on time and to support the existing fleet. Cancelling 
this computer purchase in fiscal year 2014 has resulted in at least a 
6-month delay to reactor core manufacturing, impacting the Ohio-class 
replacement lead-ship construction schedule.
    Another portion of the requested increase in funding is required to 
support an increased level of effort for designing a new reactor plant 
for the Ohio-class SSBN Replacement. Activity this year includes 
reactor plant design and component development to support procurement 
of long lead components starting in fiscal year 2019. Progress in these 
areas in fiscal year 2015 will ensure the cost of those components is 
controlled as the program moves forward to construction beginning in 
fiscal year 2021.
    Related to Ohio-class Replacement, the fiscal year 2015 request 
continues to progress the Land-based Prototype Refueling Overhaul in 
up-State New York. In fiscal year 2014 and fiscal year 2015, Naval 
Reactors continues the core manufacturing development work needed for 
the Refueling Overhaul which also enables timely construction of the 
life-of-ship core for Ohio-class Replacement and reduces cost and 
schedule risk. Further plant service life engineering design will be 
completed in fiscal year 2015 to ensure that the Land-based Prototype 
plant overhaul, performed concurrently with refueling (that starts in 
fiscal year 2018), supports 20 additional years of research, 
development and training in up-State New York.
    In addition to underfunding operations and infrastructure 
activities described above, the fiscal year 2014 appropriation again 
provided no funds to initiate preliminary design for the Spent Fuel 
Handling Recapitalization Project (SFHP). This project, already delayed 
by 2 years, is needed to replace the aging facility in Idaho that 
processes our spent naval nuclear fuel from aircraft carriers and 
submarines. This processing includes receipt, preparation, temporary 
storage, and packaging of naval spent nuclear fuel for dry storage and 
disposal. The new SFHP is urgently required for three primary reasons:

    1.  The existing Expended Core Facility (ECF) is more than 55 years 
old and the water pool that stores naval spent nuclear fuel is the 
oldest pool of its type in the Nation. This old facility is showing 
accelerating signs of deterioration, including leaking water pool walls 
and cracked floors. While the ECF continues to be maintained and 
operated in a safe and environmentally responsible manner, repair and 
refurbishment actions required to sustain operations in the ECF are 
costly and becoming more expensive each year. The risk associated with 
the degrading condition of the ECF is exacerbated, not only by the 
delay in bringing on the new SFHP facility, but also because the fiscal 
year 2014 shortfall in operations and infrastructure reduced funding 
for maintenance on the existing ECF. Any disruption to operations in 
processing naval spent nuclear fuel at the ECF would require costly and 
timeconsuming emergent measures, and would directly impact Naval 
Reactors' ability to support the Navy's nuclear-powered fleet refueling 
and defueling schedules.
    2.  The new SFHP facility is required to receive, prepare, 
temporarily store, and package full-length aircraft carrier spent 
nuclear fuel. The current ECF facility cannot handle this fuel. In 
order to prevent impact to the operating fleet due to the delay in 
bringing SFHP on line, the Navy must procure extra, otherwise 
unnecessary, M-290 shipping containers that will be used to temporarily 
store naval spent nuclear fuel, to return aircraft carriers to sea 
until the new SFHP can be built. In addition to inherent cost increases 
associated with delaying the SFHP by 2 years these extra containers 
will cost $200 million.
    3.  The SFHP is required to ensure Naval Reactors meets its 
commitments to the State of Idaho for processing spent naval nuclear 
fuel. Without this new facility, Naval Reactors' ability to process 
fuel in the timeframe directed by agreements with the State will be 
jeopardized.

    The fiscal year 2015 request for the SFHP--$145 million--is 
essential to the operational availability of aircraft carriers and 
submarines. Without new start authority and funding in fiscal year 
2015, the project will be further delayed, requiring extended operation 
of an aging facility and incurring additional unnecessary shipping 
container costs of approximately $100 million-$150 million for each 
year of delay.
    At the requested funding level, Naval Reactors can safely maintain 
and oversee the nuclear-powered fleet. Naval Reactors can also continue 
to progress the Ohio-class Replacement and Land-based Prototype 
Refueling Overhaul, renew progress on the Spent Fuel Handling 
Recapitalization Project, and maintain its environmental 
responsibilities.
    Naval Reactors has a history of fiscal responsibility in its day-
to-day operations, and continues to look for cost saving initiatives to 
further drive financial efficiencies at its laboratories. For example, 
Naval Reactors consolidated its laboratory and procurement prime 
contractors into single contracts, resulting in savings of $24 million 
per year. Naval Reactors developed a more efficient assembly process 
for the USS Gerald R Ford reactor core, saving $50 million in ship 
construction. Careful maintenance of refueling equipment has enabled 
Naval Reactors to save $19 million in repurchases that would have been 
required for the upcoming prototype refueling. Aggressive management 
has enabled Naval Reactors to save $6 million over the life of a Major 
Construction Project in Idaho, and we look forward to similar successes 
in other construction projects. Finally, the new life-of-ship core that 
will fuel the Ohio-class Replacement will enable the Navy to save an 
estimated $40 billion over the life of that class of ships. The 
continued cost performance and cost reduction is greatly enhanced by 
stability and sustained commitment to these long-term, multi-year 
efforts. The uncertainty and instability of the past years has resulted 
in significant disruption, distraction, and increased costs. Full 
funding in fiscal year 2015 would send a strong signal about the 
commitment to the critical work Naval Reactors is planning to perform.
    With the help of Congress, Naval Reactors is committed to executing 
our projects on time and on budget, and to continue to search for the 
safest and most cost effective way to support the nuclear fleet.

    Senator Udall. Thank you, Admiral Richardson.
    Dr. Cook.

  STATEMENT OF HON. DONALD L. COOK, DEPUTY ADMINISTRATOR FOR 
  DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION, 
                      DEPARTMENT OF ENERGY

    Dr. Cook. Chairman Udall, in respect to the time, I am 
going to sharply abbreviate my remarks.
    I'd like to point out, it is worth noting the President's 
budget request of $6.9 billion for Defense Programs' portion of 
the weapons activities account includes an increase of $500 
million, or 7.8 percent over fiscal year 2014 enacted levels, 
despite the fiscal constraints of the BBA. I'd like to very 
quickly emphasize where we're going with the 3+2 plan that Mr. 
Held laid out, supported by U.S. Strategic Command, the NWC, 
and all of its entities.
    Today, we're continuing our work on production of the W76 
life extended warheads. We will complete that work by the end 
of fiscal year 2019. The B61-12--mod 12 SLEP--is on track. It's 
now in the third year of full-scale engineering, and it is 
proving to be very highly successful, to date. In the budget 
request, the budget that we have will now begin to ramp up 
initial production at the NNSA production plants, preparing for 
preproduction engineering activities in fiscal year 2016, 
leading to a first production unit in March 2020.
    Finally, the W88 alt 370, an alteration that updates the 
Army fuzing and firing unit, is also progressing well for the 
Navy.
    While I could go further, I'll say we have clear actions 
undertaken in infrastructure and development. I'd like only to 
highlight that, although we talk about responsive 
infrastructure, what we are most interested in moving is a 
responsive enterprise that includes the human element as well 
as the infrastructure.
    With that, I am happy to take questions.
    Senator Udall. Dr. Cook, thank you so much.
    Mr. Owendoff.

    STATEMENT OF JAMES M. OWENDOFF, ACTING PRINCIPAL DEPUTY 
   ASSISTANT SECRETARY, OFFICE OF ENVIRONMENTAL MANAGEMENT, 
                      DEPARTMENT OF ENERGY

    Mr. Owendoff. Good afternoon, Chairman Udall. I want to 
thank the subcommittee for their support for the EM cleanup 
program. I, too, will be short, sir.
    Our request is for $5.3 billion for defense-funded 
activities. It will allow the EM program to continue the safe 
cleanup of the environmental legacy brought about from 5 
decades of nuclear weapons development and government-sponsored 
nuclear energy research.
    The President's budget request will provide for treatment 
of 900,000 gallons of liquid waste at our Idaho facility; 
continue construction of the Waste Treatment Plant at the 
Hanford site; at Oak Ridge, it will allow us to begin design on 
mercury cleanup; and, at the SRS, we will immobilize and 
dispose of 1 million gallons of liquid tank waste and bring the 
site's high-level waste mission to approximately 50 percent 
completion.
    EM continues to pursue the cleanup on three overarching 
principles. Safety is first, then our commitment to our 
regulatory commitments, as well as good stewards of the 
financial resources.
    I want to give you just a quick update on the situation at 
the WIPP. As you mentioned, Mr. Chairman, there have been two 
recent safety events at the plant. The first occurred on 
February 5, when the flammable residues on the surface of a 
salt truck caught fire; a second, which occurred late on the 
night of February 14, was a radioactive contamination event in 
which some contamination became airborne underground. Although 
no one has been harmed by either event, we take both very 
seriously and are committed to identifying, acknowledging, and 
fixing any underlying shortfalls in our policies and processes.
    In the meantime, the contamination event has the potential 
to affect other DOE sites that are preparing their transuranic 
waste for disposal at WIPP. We are working to assess the 
potential impacts and make contingency plans to mitigate those 
impacts, if necessary.
    For a status, we are fulfilling our commitment to the State 
of New Mexico to ship transuranic waste from the mesa to the 
staging storage facility in Texas. We have also made several 
entries into the underground to begin assessment of the 
contamination levels. We are proceeding in a disciplined manner 
to ensure the health and safety of the public and the workers.
    In closing, I want to thank the subcommittee for their 
time. I want to acknowledge, certainly, the significant 
progress that we've made in the last quarter century in the 
cleanup program.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Owendoff follows:]
              Prepared Statement by Mr. James M. Owendoff
    Good afternoon, Mr. Chairman, Ranking Member Sessions, and members 
of the subcommittee. I am pleased to be here today to represent the 
Department of Energy's (DOE) Office of Environmental Management (EM). I 
would like to provide you with an overview of the EM program, key 
accomplishments during the past year and what we plan to accomplish 
under the President's $5.62 billion fiscal year 2015 budget request.
            overview of the environmental management mission
    EM's mission is to complete the safe cleanup of the environmental 
legacy resulting from 5 decades of nuclear weapons development and 
government-sponsored nuclear energy research. This year is an important 
milestone year for EM. Fiscal year 2014 marks 25 years of solving the 
legacy environmental problems from the Manhattan Project and Cold War. 
This environmental legacy includes over 90 million gallons of 
radioactive wastes stored in aging tanks, thousands of tons of spent 
(used) nuclear fuel (SNF), over 10,000 containers of excess plutonium 
and uranium, over 5,000 contaminated facilities, millions of cubic 
meters of contaminated soil and billions of gallons of contaminated 
groundwater. EM was originally charged with the responsibility of 
cleaning up 107 sites across the country with a total area equal to 
Rhode Island and Delaware combined.
    In the 25 years since it was created, EM has made significant 
progress in this cleanup mission, completing 91 sites and significant 
portions of the remaining 16. Since 1989, EM has completed almost $144 
billion worth of cleanup work. Sites like Fernald in Ohio and Rocky 
Flats in Colorado, both of which once housed large industrial 
complexes, are now wildlife preserves that are also available for 
recreational use. At the Idaho National Laboratory, we have 
decommissioned and demolished more than 2 million square feet of excess 
facilities, and removed all EM special nuclear material (e.g., enriched 
uranium) from the State. At Savannah River, we have produced over 3,700 
canisters of vitrified high-level waste and closed 6 of the site's 
underground storage tanks.
    Across the EM complex, our progress in footprint reduction is 
significant. Since EM began tracking this performance goal in 2009, we 
have achieved a footprint reduction of roughly 74 percent. We began 
tracking with approximately 931 square miles. Now, we are down to less 
than 300 square miles. Progress continues. These are just a few 
examples of our significant achievements over the past quarter century.
       environmental management cleanup objectives and priorities
    EM continues to pursue its cleanup objectives guided by three 
overarching principles. Most importantly, EM will continue to discharge 
its responsibilities by conducting cleanup within a ``Safety First'' 
culture that integrates environmental, safety, and health requirements 
and controls into all work activities. We are proud of our safety 
record, which shows injury rates that are significantly lower than the 
averages in comparable industries; these rates continue to fall thanks 
to ongoing efforts to strengthen our organizational safety culture.
    After safety, we are guided by a commitment to comply with our 
regulatory and other legal obligations, and to be good stewards of the 
financial resources entrusted to us. We manage these priorities within 
a framework of nuclear safety orders, legally binding cleanup 
agreements, and best business practices. We focus the majority of our 
resources on the materials that contain the highest concentrations of 
radionuclides and other hazardous materials and wastes. In addition to 
these priorities, EM is committed to investing in the development and 
deployment of sound technology as a way to reduce costs and fulfill our 
critical mission.
    Before discussing key recent and planned accomplishments, I want to 
update you on the situation at the Waste Isolation Pilot Plant (WIPP) 
in New Mexico. As I am sure you know, we have had two recent safety 
events at WIPP. The first occurred February 5 when flammable residues 
on the surface of a salt truck came into contact with a heat source and 
ignited. The second, which occurred late on the night of February 14, 
was a radioactive release event at WIPP, in which some contamination, 
primarily americium, became airborne underground. The facility is 
equipped with a continuous air monitor, which detected the 
contamination and triggered the underground ventilation system to begin 
filtering air before it left the underground facility. The filters are 
performing as designed.
    To date, preliminary sampling results taken from on and around the 
site indicate the underground contamination event has not created any 
health risks for workers or the public. This includes those workers who 
tested positive for contamination, which was slightly above normal 
background levels. On April 2, we sent two successive teams into the 
WIPP underground to conduct preliminary investigations in a portion of 
the non-disposal area. As anticipated, the teams found no contamination 
in the immediate area. This was an important step toward additional 
entries into the mine to allow for further exploration. In the 
meantime, the event has the potential to affect other DOE sites that 
were preparing transuranic wastes for disposal at WIPP. We are working 
to assess potential impacts and make contingency plans to mitigate 
those impacts to the extent possible.
    We take both events very seriously and are committed to 
identifying, acknowledging and fixing any underlying shortfalls in our 
policies and processes. I am proud of the way the DOE team is 
responding to these events. In the wake of the radioactive release 
event, everyone has been working together to assess the situation, 
develop solutions and identify the lessons that can be learned.
                key recent and near-term accomplishments
    I would like to take this opportunity to highlight a number of EM's 
most recent accomplishments, as well as those we plan to accomplish in 
the remainder of fiscal year 2014.
Cleanup Activities
    We continue to make significant progress in our transuranic waste 
disposal program. For instance, in 2013 we shipped approximately 2,500 
cubic meters of transuranic waste to WIPP from the Idaho National 
Laboratory's Advanced Mixed Waste Treatment Project, which has logged 
more than 15.1 million work hours since the last injury or illness 
resulting in time away from work. WIPP has now received more than 
11,000 shipments and permanently disposed of more than 89,000 cubic 
meters of transuranic waste. At the Savannah River Site, we have 
produced over 3,700 canisters of vitrified high-level waste, converting 
it to a solid-glass form safe for long-term storage and permanent 
disposal. We have now completed over 45 percent of the site's high-
level-waste mission, and recently closed two more underground storage 
tanks a year ahead of schedule, bringing the total number of closed 
tanks to six.
Contract and Project Management
    Our cleanup progress depends in large part on a broad array of 
contractors, as well as the successful planning, construction and 
operation of large, often first-of-a-kind, projects and facilities. We 
continue to emphasize continuous improvement in our contract and 
project management by, for example, requiring more upfront planning, 
ensuring Federal project directors and contracting officers are well 
trained, improving our cost-estimating capabilities, conducting more 
frequent project reviews, selecting proper contract types, and tying 
fees to final outcomes. Our efforts continue to generate significant, 
positive results. For instance, we negotiated a contract modification 
for the Salt Waste Processing Facility at the Savannah River Site that 
includes a cap on completion costs, provides incentives for cost 
savings, and gives DOE a share of any savings achieved. In a separate 
project at the Savannah River Site, we recently completed two 
additional low-level salt-waste disposal units 7 months ahead of 
schedule and for $8 million less (about 10 percent) than the 
anticipated total cost of $76.5 million. We are improving our 
management of the Waste Treatment and Immobilization Plant (WTP) 
project at Hanford, including holding the contractor accountable for 
self-identification of issues to help ensure resolution as early as 
possible.
           highlights of the fiscal year 2015 budget request
    The fiscal year 2015 budget request for EM is a net $5.62 billion. 
The request includes the proposed reauthorization of the Uranium 
Enrichment Decontamination & Decommissioning Fund and the defense 
deposit of $463 million. The budget request for EM is comprised of 
$4.86 billion for defense environmental cleanup activities (not 
including the fund deposit of $463 million), $226 million for non-
defense environmental cleanup activities, and $531 million for Uranium 
Enrichment Decontamination and Decommissioning Fund cleanup activities. 
With the requested funding, the EM program will continue making 
progress in the radioactive liquid waste treatment program, approach a 
successful end to the legacy transuranic waste mission, and continue to 
make significant progress in the decontamination and demolition of the 
thousands of buildings and supporting infrastructure that occupy our 
remaining cleanup sites.
    To provide just a few specific highlights, under the President's 
fiscal year 2015 budget request the EM program will complete the 
treatment of 900,000 gallons of liquid radioactive waste at Idaho, 
emptying the last 4 of the site's aging waste storage tanks. The fiscal 
year 2015 budget request supports the ongoing construction of the Waste 
Treatment and Immobilization Plant (WTP) to process and immobilize the 
Hanford tank waste in a solid glass form safe for permanent disposal. 
Consistent with the Department's objective to immobilize waste as soon 
as practicable while resolution of technical issues continues, the 
fiscal year 2015 budget includes support for analysis and preliminary 
design of a Low Activity Waste Pretreatment System.
    At Hanford, we will complete cleanup of the bulk of the River 
Corridor's more than 500 facilities, leaving the 324 Facility, as well 
as the 618-11 Burial Ground and 300-296 Waste Site, as the primary 
remaining cleanup projects to be addressed after fiscal year 2015. 
Depending on our ability to restore full operations at WIPP quickly or 
institute other mitigation measures, we will also achieve significant 
milestones in the legacy transuranic waste program, pursuing 100 
percent completion at Savannah River and reaching 90 percent completion 
at Idaho, 88 percent completion at Oak Ridge, and 77 percent completion 
at Los Alamos.
Budget Authority and Planned Accomplishments by Site

                      Idaho National Laboratory, ID
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$391,993..................................  $372,103
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Complete the treatment of 900,000 gallons of sodium-
        bearing radioactive waste, the last of the radioactive liquid 
        waste at the Idaho site
        <bullet> Initiate activities to clean and close the last four 
        of the site's radioactive liquid waste tanks
        <bullet> Complete the exhumation of transuranic waste in the 
        seventh of nine areas in the subsurface disposal area and ship 
        the waste to the Waste Isolation Pilot Plant, achieving a 
        completion rate equal to about 58 percent of the project's 
        total land area
        <bullet> Continue processing contact-handled transuranic (CH-
        TRU) waste at the Advanced Mixed Waste Treatment Project, 
        bringing total CH-TRU prepared in fiscal year 2015 for offsite 
        disposal to 4,500 cubic meters
        <bullet> Continue groundwater monitoring and subsurface 
        investigations, analyzing contaminants and transport mechanisms 
        to the Snake River Aquifer
        <bullet> Continue retrieval and onsite transfer of Experimental 
        Breeder Reactor II fuel and receipt of Domestic Research 
        Reactor and Foreign Research Reactor Fuel

                           Oak Ridge Site, TN
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$429,541..................................  $384,975
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Continue shipments expected to begin later this fiscal 
        year to Nevada of Consolidated Edison Uranium Solidification 
        Project material from the uranium-233 inventory in Building 
        3019
        <bullet> Reach approximately 90 percent completion in the 
        site's transuranic waste disposition mission
        <bullet> Complete the preliminary design for the Outfall 200 
        Mercury Treatment Facility, while continuing to develop the 
        techniques and technologies needed to characterize and 
        remediate mercury in the environment
        <bullet> Continue design and prepare for construction of the 
        Sludge Buildout project at the Transuranic Waste Processing 
        Center

                         Savannah River Site, SC
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$1,255,430................................  $1,282,302
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Immobilize and dispose of 1,000,000 gallons of liquid 
        tank waste
        <bullet> Produce 120 to 130 additional canisters of vitrified 
        high-level waste at the site's Defense Waste Processing 
        Facility, bringing cumulative production to over 50 percent 
        completion of the site's high-level waste mission
        <bullet> Continue packaging and shipping surplus plutonium 
        offsite
        <bullet> Continue processing aluminum-clad spent (used) nuclear 
        fuel in H-Canyon and begin processing Canadian Highly-Enriched 
        Uranium Liquid
        <bullet> Continue to receive non-U.S. origin material from 
        foreign countries in support of the Global Threat Reduction 
        Initiative program
        <bullet> Continue receipt of Foreign Research Reactor/Domestic 
        Research Reactor spent (used) nuclear fuel

                     Richland Operations Office, WA
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$1,012,620................................  $914,301
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Complete the cleanup of the bulk of the River 
        Corridor's more than 500 facilities, leaving the 324 Building, 
        618-11 Burial Ground and 300-296 Waste Site as the primary 
        projects to be addressed after fiscal year 2015
        <bullet> Continue progress toward Plutonium Finishing Plant 
        cleanout and demolition to slab-on-grade
        <bullet> Continue to conduct, integrate, and optimize site-wide 
        groundwater and soil cleanup activities
        <bullet> Continue operation of the Canister Storage Building 
        and Waste Storage Encapsulation Facility
        <bullet> Continue progress toward removal of contaminated 
        sludge from the K West Fuel Storage Basin, including continued 
        progress on the K West Basin Sludge Treatment Project line-item 
        construction project
        <bullet> Complete disposition of surplus facilities in the 300 
        Area (excluding 324 Building and ancillary buildings)

                     Office of River Protection, WA
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$1,210,216................................  $1,235,000
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Continue construction of the Waste Treatment and 
        Immobilization Plant (WTP) to immobilize waste as soon as 
        practicable while resolution of technical issues continues
        <bullet> Maintain planned construction of WTP's Low Activity 
        Waste facility, Analytical Laboratory, and Balance of 
        Facilities, and initiate design of the infrastructure required 
        to feed tank waste directly to the facility
        <bullet> Support analysis and preliminary design of a Low 
        Activity Waste Pretreatment System
        <bullet> Complete waste retrievals in the C Tank Farm

                   Los Alamos National Laboratory, NM
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$224,789..................................  $224,617
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Complete design of the hexavalent chromium pump-and-
        treat remedy project and begin Phase 1 operations
        <bullet> Complete cleanup activities on public and Los Alamos 
        County lands
        <bullet> Obtain regulatory approval to start remedial projects 
        in at least three on-site Material Disposal Areas (A, C and T) 
        and complete remedial design for Material Disposal Area C
        <bullet> Complete demolition of the balance of plant facilities 
        at Technical Area 21
        <bullet> Continue retrieving and processing transuranic waste 
        from below-grade retrievable storage

                    Nevada National Security Site, NV
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$61,897...................................  $64,851
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Complete closure activities for 21 contaminated-soil 
        sites
        <bullet> Complete characterization activities for six 
        additional contaminated-soil sites
        <bullet> Support cleanup at multiple sites across the DOE 
        complex by disposing of approximately 1,200,000 cubic feet of 
        low-level and mixed low-level radioactive waste generated at 
        those sites

                    Sandia National Laboratories, NM
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$2,814....................................  $2,801
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Finalize and submit to the New Mexico Environment 
        Department a Class III permit modification for regulatory 
        closure of the Mixed Waste Landfill and transfer the landfill 
        to long-term stewardship
        <bullet> Submit updated Technical Area V Current Conceptual 
        Model/Corrective Measures Evaluation Report to the New Mexico 
        Environment Department
        <bullet> Install up to eight new groundwater-monitoring wells 
        at the Burn Site

               Lawrence Livermore National Laboratory, CA
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$1,476....................................  $1,366
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015
        <bullet> Complete the site-specific, baseline human-health risk 
        assessment
        <bullet> Complete groundwater-contamination fate-and-transport 
        modeling
        <bullet> Develop risk-based uranium cleanup standards for the 
        Building 812 Operable Unit
        <bullet> Evaluate available soil-remediation treatment 
        technologies and develop remedial alternatives

                        Carlsbad Field Office, NM
                        [In thousands of dollars]
------------------------------------------------------------------------
         Fiscal Year 2014 Enacted             Fiscal Year 2015 Request
------------------------------------------------------------------------
$221,170..................................  $220,475
------------------------------------------------------------------------

    Key Accomplishments Planned for Fiscal Year 2015 (assuming timely 
        restoration of normal operations)
        <bullet> Support transport and disposal of remote-handled and 
        contact-handled transuranic (TRU) waste at the Waste Isolation 
        Pilot Plant
        <bullet> Continue Central Characterization Project for TRU 
        waste at Los Alamos National Laboratory, Idaho National 
        Laboratory, Oak Ridge National Laboratory, and the Savannah 
        River Site
        <bullet> Maintain capability for receipt and disposal for up to 
        26 shipments per week of contact-handled and remote-handled TRU 
        for 41 weeks
                               conclusion
    Mr. Chairman, Ranking Member Sessions, and members of the 
subcommittee, I am honored to be here today representing the Office of 
Environmental Management. EM is committed to achieving our mission and 
will continue to apply innovative environmental cleanup strategies to 
complete work safely, on schedule, and within cost, thereby 
demonstrating value to the American taxpayers. Our fiscal year 2015 
request allows us to capitalize on our past investments and successes. 
We will make progress in the high-level-waste treatment mission, 
complete the cleanout and demolition of several major facilities across 
the complex, approach the end of our legacy transuranic waste 
disposition mission, and continue the significant progress we have made 
in the management of nuclear materials and remediation of contaminated 
soil and groundwater. I am pleased to answer any questions you may 
have.

    Senator Udall. Thank you, Mr. Owendoff.
    Dr. Cook, let me start with you. I asked you this question 
a year ago, and I want to make sure we'll still get the same 
answer. We're embarking on a LEP of the B61 gravity bomb. The 
number of B61 weapons will be reduced by 50 percent, I think, 
if I am right, as a result of this LEP. Your estimate's on the 
order of $8 billion for the LEP, and the informal DOD estimate 
was $10 billion. Is the program cost still around $8 billion? 
Second, can you reduce the costs further? Then, third, is it 
adhering to schedule?
    Dr. Cook. So, in order, the cost remains in the $8 billion 
range. I've signed out, at this point, three selected 
acquisition reports. These are required by Congress. They're 
quarterly reports. The number has not changed, and the schedule 
has not changed since the first. So, that stays on schedule.
    You're correct that the result will be that we not only 
reduce the number of air-delivered bombs by a full factor of 2, 
but this sets the stage to retire the last of the megaton-class 
bombs in America's deterrent, the B83. Additionally, it will 
reduce the amount of special nuclear material in the air-
delivered bomb leg by more than 80 percent. This comes back to 
Mr. Held's comment about the integration between defense 
programs and nonproliferation.
    Have I answered everything you wanted?
    Senator Udall. I think you did, thank you.
    Dr. Cook. All right.
    Senator Udall. Admiral Richardson, let me ask you a 
question tied to the Idaho National Laboratory. The Naval 
Reactors is proposing to replace the spent fuel handling 
facility at Idaho National Laboratory. Suggestions have been 
made that other spent fuel storage facilities at the 
Laboratory, such as the Idaho Nuclear Technology and 
Engineering Center (INTEC), can perform this mission. Could you 
explain whether this existing facility is suitable, or not, and 
why?
    Admiral Richardson. Thank you, sir.
    In short, that existing facility is not currently suitable 
for the mission of handling spent fuel from our program. When 
we undertook this mission to consider options, the best way 
forward to recapitalize our spent fuel handling facility, we 
did that business case in 2009. We considered the full range of 
options at that time, including upgrading our existing facility 
or using other facilities, like the one at INTEC, which is the 
one you referred to. That analysis concluded that, by far, the 
most cost-effective way and the most effective from a process 
standpoint was to recapitalize the facility on our Naval 
Reactors facility on the Idaho National Lab. There would be 
significant modifications required if we were going to use an 
existing facility. The cost of those modifications would exceed 
the cost to do a new facility, and would require that we do 
that work with radiological controls, which would increase the 
risk, as well. The business case pointed us to a new facility.
    Senator Udall. I'd follow up: When it comes to Idaho, have 
there been effects on the deployed nuclear fleet because of the 
delay in replacing the existing fuel handling facility in 
Idaho?
    Admiral Richardson. Sir, to date, we have managed those 
delays, but that has come at an increased cost. Instead of 
moving spent naval nuclear fuel into that facility, we have 
instead had to buy temporary storage containers that will hold 
that fuel until the new facility is built. That's about $100 
million a year in cost for containers that I don't need. In 
short, we're at a position right now that it costs more to 
delay that facility than it does to just get on and do the 
work, because of these temporary containers.
    Going forward, the other thing that we have to consider is, 
the current facility is aging, and as I said, it's one of the 
oldest facilities of its type, and, at some point, it's just 
going to be unsuitable for further operation. At that point, we 
will have no other way but to impact the fleet.
    Senator Udall. Let me turn to Mr. Owendoff. I wanted to ask 
you a little bit more detail about what's happened at WIPP. Do 
you believe, given the recent Accident Review Board's 
findings--was there adequate safety training of workers in the 
maintenance of equipment at WIPP?
    Mr. Owendoff. No, sir, that has been demonstrated as being 
inadequate. That's one of the things that we have already 
started on, is the training of those individuals and going 
through and revamping all of our maintenance procedures and the 
safety culture, sir.
    Senator Udall. Referring to the same Accident Review Board, 
do you believe the Contractor Assurance System was effective at 
WIPP?
    Mr. Owendoff. No, sir, it was not.
    Senator Udall. I would like to acknowledge the important 
role that WIPP played in the cleanup of the Rocky Flats Nuclear 
Facility, which is in my home State of Colorado. I also live 
within a few miles of that facility, so I know all of my 
neighbors appreciate the fact that the WIPP facility was 
brought online, that the State of New Mexico posts that 
important facility. Having said that, we have work to do, 
obviously, based on what happened.
    Mr. Owendoff. Yes, sir, we sure do.
    Senator Udall. What the Review Board demonstrated.
    Let me turn back to Dr. Cook. I want to ask you a question 
tied to the IW. I think you're proposing to delay the warhead 
by up to 5 years. This warhead was to combine the W88 submarine 
warhead with the W78 intercontinental ballistic missile warhead 
in order to reduce the total number of warheads in the 
stockpile. Can you explain why the delay occurred? By the time 
we're ready to start this program, we will have finished 
replacing the fuzes on the W88 submarine warhead, which is in 
relatively good shape. Given that, wouldn't it make more sense 
and be less expensive to consider simply life-extending the W78 
warhead? So, two questions.
    Dr. Cook. Sure. On the first question, it was a joint 
agreement at the NWC, followed by a meeting at the DOD DMAG. 
The set of agreements resulted in keeping the W76 life 
extension moving ahead at full speed, increasing the cost, year 
per year, but according to the projection, so that we could 
execute the B61-12 life extension, because B61s are the oldest 
weapon system in our deterrent. Then, the third part, a strong 
commitment to doing, just as you say, the W88 arming, fuzing, 
and firing unit. But, given the amount of money that was 
available then, that required a deferral of the first 
interoperable by 5 years, and it required a deferral of the 
long-range strike option, or the cruise missile replacement, by 
a time of up to 3 years. So, that was a joint agreement.
    Now, with regard to the W88, yes, we will be modernizing 
that, but through the surveillance program, we found that both 
the 78 and 88 are aging, as predicted. We have good stockpile 
stewardship tools. We believe those systems will be good out 
through 2030, and that's why we've set, collectively, the 
timing for the IW at that point.
    A key part of the IW is to improve the safety. There was an 
earlier question. Given that we can put the 78 and 88 both on 
insensitive high explosives, that would be very strong and 
important improvement in safety.
    Senator Udall. Thank you for that update.
    Admiral Richardson, let me come back to you to talk about 
the status of the Ohio ballistic submarine reactor. You're 
developing the reactor for the replacement to the existing 
fleet of Ohio submarines. I understand there might be delay of 
up to 6 months due to a funding shortfall. Could you comment?
    Admiral Richardson. Sir, I am managing a funding shortfall 
in my fiscal year 2014 budget. A portion of that total 
shortfall, which was $150 million, about $100 million of that 
was marked against my operations and infrastructure budget, and 
$11 million of that money prevented me from buying a high-
performance computer that I had scheduled to buy in fiscal year 
2014.
    Part of the capacity of that high-performance computer was 
being allocated against the Ohio replacement reactor design. By 
virtue of being able to do more sophisticated modeling in that 
computer, we had saved about $40 million by avoiding building 
prototypes and doing actual testing.
    By virtue of not being able to purchase that computer, I am 
about 6 months behind right now. If I get funded in fiscal year 
2015, though, sir, I want to make it clear that I believe I can 
make that difference up, keep the project on schedule, be ready 
to award the building contract on schedule, and keep this top 
national priority on track.
    Senator Udall. Okay, thank you for that update.
    Admiral Richardson. Yes, sir.
    Senator Udall. Mr. Owendoff, let me come back to you and 
focus on whistleblowers at Hanford. I'd like your help here. 
Let me lay out the predicate. My understanding is that the 
contractors reimbursed for reasonable costs under the current 
contract structure at Hanford; for that matter, at most other 
cleanup sites. This seems to allow reimbursement of lawyers' 
fees in cases involving whistleblowers, which shifts the cost 
burden against them, since they have to pay for their own 
lawyers' fees. Do you have any recommendations for the 
subcommittee to make this burden equitable between parties?
    Mr. Owendoff. Mr. Chairman, I think that's a question I 
need to take back. I know that's been a question before, and I 
know DOE is working on an answer for that issue, sir. So, if I 
could, I'll take it. I don't have any recommendations at this 
time.
    [The information referred to follows:]

    I understand that the General Counsel is undertaking a review of 
the Department of Energy's handling of whistleblower costs in a 
different context. We would be happy to share the results when it is 
complete.

    Senator Udall. If I might, let me stay on Hanford.
    Mr. Owendoff. Yes, sir.
    Senator Udall. I felt, referencing Rocky Flats again, that 
because we were at the head of the line, we in Colorado would 
work with other States all over the country to help them in 
their cleanup efforts. Hanford is probably the most expensive, 
the thorniest, and the most technologically challenged, just 
due to the scale and also the effect on the Columbia River, 
potentially. That's not to downplay any of the other sites.
    With that as a backdrop, it's my understanding you're now 
considering an option to treat low-level waste at Hanford, 
which comprises 90 percent of the bulk volume of the storage 
tanks--my understanding is, this will involve another 
pretreatment facility, in addition to the one that's already 
been under construction for the main facility. What's the 
status of the new pretreatment facility, and how much will it 
cost?
    Mr. Owendoff. Sir, we submitted a data sheet for that, a 
construction data sheet for that, as part of the 2015 budget. 
There is a cost range that I want to say is about $300 million 
roughly.
    Senator Udall. Yes.
    Mr. Owendoff. But, it's very small when you compare that to 
the main pretreatment facility that will serve as the bulk of 
the material. We believe that, by getting this first facility, 
the low-activity facility, which is the lowest in radioactivity 
level, we can get that up and running and start making glass. 
The next more complex facilities are the high-level waste and 
then the very large pretreatment facility.
    We believe this is the right way to go, to get started. The 
Secretary is really pushing us to get that low-activity waste 
facility up and running, sir.
    Senator Udall. As a follow-on, more on the technological 
side, we're going to vitrify some fair amount of that waste? Is 
that the plan?
    Mr. Owendoff. Yes, sir. In fact, it's about a 20 to 1 low 
activity that will stay on site vitrified. Then the high 
activity, which will go ultimately to a repository. So, that's 
a higher activity waste. Both will be vitrified into glass.
    Senator Udall. Dr. Cook, let me come back to you with a 
question about Los Alamos. We have worked, through the 
subcommittee and members of the full committee, to ensure we 
continue to develop a strategy to replace the plutonium 
facility at Los Alamos. It looks like, with the help of DOD, we 
have a way forward that would involve using smaller modules 
constructed in stages. I think the forecasts are, we could save 
several billion dollars. Are you committed to that approach? 
What stages do you still have to pursue to begin construction 
of the smaller facilities? Then, when would construction begin?
    Dr. Cook. Sure. We are committed to the overall approach. 
To run through it very quickly, the DOD Cost Assessment and 
Program Evaluation, with support by NNSA, went through a 
business-case analysis for the plutonium strategy. This was 
endorsed by the NWC. It has three phases:
    The first phase, to provide capabilities in an existing 
building, brand-new, the radiation lab put additional tooling 
in that building to handle a large part of the analytic 
chemistry work.
    The second phase is to do some retooling of the existing 
PF-4. We've determined that there are some missions that we no 
longer need; therefore, older contaminated equipment can be 
pulled out; and, with about a quarter of the space of that 
facility, we can put in new tooling that will support the 
preparation to make pits and some material characterization.
    The third phase of that is to reduce the material at risk 
in PF-4. That will give us a longer lifetime of PF-4. But, to 
do that, we have to create some new special-purpose modules 
that would be placed adjacent to PF-4 and connected via 
tunnels.
    The budget request in 2015 through 2019 supports that 
strategy. We are committed to the strategy. We'll take the 
first and second phases sooner than we take the third phase, 
but we will be doing some conceptual activity for the new 
modules that we require in concert with other two phases.
    Senator Udall. Thank you for that update.
    Admiral Richardson, in February it was revealed that there 
was a cheating incident with instructors at the Naval Reactors 
Training Facility in South Carolina. Can you update the 
subcommittee on your investigation and the status of it and, if 
possible, how many persons are involved?
    Admiral Richardson. Yes, sir. In February, as you said, 
sir, we were disappointed to learn that we did have an incident 
with cheating among the instructors in our school in 
Charleston, in our training reactor.
    Senator Udall. Yes.
    Admiral Richardson. I took two immediate steps. First, was 
to ensure ourselves and the country that the reactors remain 
safe. We were able to do the analysis and convince ourselves 
beyond a shadow of a doubt that the reactors did remain safe. 
The second action I took was to dispatch an admiral to go down 
and lead the investigation. That investigation is complete, and 
has been forwarded to me. We're in the deliberative process of 
working through that investigation. Our way forward is really 
taking shape along three lines of effort:
    The first line is just a purely technical effort. It should 
be near impossible these days to cheat on a written exam. The 
incident was limited to a written exam for one qualification 
down there. With encryption and password protection and those 
sorts of measures, it should be technically almost impossible 
to cheat on a written test these days. We're going to upgrade 
our technical program down there.
    Second, there will be some accountability for those who 
exhibited misconduct. I am really not at liberty to talk about 
the numbers at this point, because I am in the middle of that 
process. But, as soon as I get through that, I am committed to 
coming here and providing you an update. I will close that out 
with the final numbers.
    The third and most important line of effort is really to 
examine our culture across the program so that we can do 
everything--ensure ourselves we're doing everything to 
strengthen the character and the moral courage of our team so 
that it becomes part of the atmosphere in our program, that it 
would be unthinkable to do anything that would compromise the 
integrity of the program or the personal integrity of any of 
our people inside of it.
    I've talked to people across the Navy, experts outside the 
Navy, in academia. We're really leaving no stone unturned. I've 
already held a summit of all of the major commanders of 
nuclear-powered warships, and we are getting after this 
aggressively to make sure that we not only are very clear about 
teaching the principles of why it is important to be truthful 
and honest in the program, but also strengthening the character 
of our team and minimizing to the point of eliminating any 
obstacles that would make it more difficult just simply do the 
right thing. By virtue of that comprehensive approach, we are 
looking forward to improving across the program.
    Senator Udall. Thank you for that update. I know that for 
the large majority of the men and women who serve in this 
important area, that they had nothing to do with what happened 
and this doesn't reflect on them. I know, under your leadership 
and with the subcommittee's partnership, we will look at the 
culture, as you pointed out, and make the changes and mete out 
whatever punishment's necessary, and then move forward. Because 
I know, again, 99 percent or more of your personnel are all in 
and comply with what we expect them to do. I appreciate the 
update.
    Admiral Richardson. Thank you, sir. I appreciate that 
endorsement and validation. We expect those folks to do that, 
and we take no comfort in the fact that this is a small number 
of people. This is still a big problem we're paying very close 
attention to. It has my personal attention daily.
    Senator Udall. Yes, I know you are. Again, I don't want it 
to reflect on all the people who have worked 150 percent.
    Admiral Richardson. Yes, sir.
    No, most of those folks are very disappointed in the action 
of this very small cadre of people.
    Senator Udall. Yes.
    Admiral Richardson. Yes, sir.
    Senator Udall. Let me move back to nuclear fuel. The status 
of highly enriched uranium. Admiral Richardson, based on 
current fleet projections, when do you believe we'll have to 
seek a new supply of the highly enriched uranium used in your 
fleet?
    Admiral Richardson. Sir, by current arrangements, we have a 
sufficient supply of highly enriched uranium, out to about 
2064. Beyond that, really, no solution in sight, pending some 
other arrangement or some technology for developing more highly 
enriched uranium.
    Senator Udall. If the subcommittee will suspend for a 
minute. [Pause.]
    All right. Dr. Cook, you're the winner of the jackpot. I 
think you're going to receive the last question of the hearing. 
[Laughter.]
    Dr. Cook. Yes, sir.
    Senator Udall. Can you explain to the subcommittee whether 
the life extension of the B61-12 will enable you to retire the 
W83 gravity bomb or will be retired independently of the B61-
12?
    Dr. Cook. It is required, it is linked. It was a difficult 
set of discussions to go through with the NWC. The conclusion 
was that, once successfully implemented, with the first 
production unit, as I said, March 2020, a few years after that, 
once we have what we call stockpile returns and we're satisfied 
that the 61-12 performs well in service, the NWC is fully 
prepared, and intends, to retire the B-83.
    Senator Udall. Thank you for that.
    I am tempted, because Admiral Richardson is here, to get 
his opinion on small- and medium-sized reactors and their 
application in the civilian and domestic power arena. That's 
long been an interest of mine. I know we are doing research at 
DOE.
    Admiral, would you have an opinion or any insights on the 
suitability of such reactors on land and as supplements to 
existing power plants or as substitutes for power plants that 
might be retired?
    Admiral Richardson. Senator, we have been following the 
development of small modular reactors closely. It might be most 
appropriate, sir, if I came in and gave you a brief on what our 
opinions on that are and where we see that going.
    Senator Udall. I would very much welcome that.
    Admiral Richardson. Yes, sir.
    Senator Udall. I thank you for the offer.
    Admiral Richardson. Yes, sir.
    Senator Udall. Senator Vitter asked his questions, and he, 
I think, is indisposed on the Senate floor.
    I am going to bring the hearing to an end. I want to thank 
all of you for your time, your expertise, your patriotism, and 
your hard work.
    We'll leave the record open through the beginning of next 
week, through Monday.
    The Subcommittee on Strategic Forces is now adjourned.
    [Whereupon, at 3:46 p.m., the subcommittee adjourned.]

                                 [all]



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
